                        SIGTARP: Quarterly Report to Congress | October 26, 2010
                                                                                                              CT
                                                                                                         INSPE OR GE
                                                                                                  AL                        N
                                                                                                CI




                                                                                                                            ER
                                                                                           E
                                                                                          SP




                                                                                                                               A L
                                                                                         TRO




                                                                                                                                 M
                                                                                                                                 RA
                                                                                          UB
                                                                                               LE




                                                                                                                            OG
                                                                                                    D
                                                                                                        ASS                 PR
                                                                                                              E T R ELIEF




SIGTARP
SIG-QR-10-04
                         Q4
                        2010
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                              October 26, 2010
www.SIGTARP.gov
MISSION
SIGTARP’s mission is to advance economic stability by promoting the
efficiency and effectiveness of TARP management, through transparency,
through coordinated oversight, and through robust enforcement against
those, whether inside or outside of Government, who waste, steal or abuse
TARP funds.
	


STATUTORY AUTHORITY
SIGTARP was established by Section 121 of the Emergency Economic
Stabilization Act of 2008 (“EESA”) and amended by the Special Inspector
General for the Troubled Asset Relief Program Act of 2009 (“SIGTARP Act”).
Under EESA and the SIGTARP Act, the Special Inspector General has the
duty, among other things, to conduct, supervise and coordinate audits and
investigations of any actions taken under the Troubled Asset Relief Program
(“TARP”) or as deemed appropriate by the Special Inspector General. In
carrying out those duties, SIGTARP has the authority set forth in Section 6 of
the Inspector General Act of 1978, including the power to issue subpoenas.




Office of the Special Inspector General
for the Troubled Asset Relief Program
General Telephone: 202.622.1419
Hotline: 877.SIG.2009
SIGTARP@do.treas.gov
www.SIGTARP.gov
Contents


Executive Summary 	                                                      3
	   Program Updates and Financial Overview	                             13
	   Oversight Activities of SIGTARP	                                    14
	   SIGTARP Recommendations on the Operation of TARP	                   15
	   Report Organization	                                                16

Section 1
The Office of the Special Inspector General for the
	Troubled asset relief program	                                        17
	 SIGTARP Creation and Statutory Authority	                            19
	 SIGTARP Oversight Activities Since the July 2010 Quarterly Report	   19
	 SIGTARP Audit Activity	                                              19
	 The SIGTARP Organization	                                            38
	
Section 2 	
TARP overview	                                                          41
	 TARP Funds Update	                                                    43
	 Financial Overview of TARP	                                           46
	 Homeowners Support Programs 	                                         66
	 Financial Institution Support Programs	                               92
	 Asset Support Programs	                                              128
	 Automotive Industry Support Programs	                                143
	 Executive Compensation	                                              152
	
Section 3 	
THE ECONOMICS OF LOAN SERVICING	                                       155
	 Introduction	                                                        157
	 Loan Servicers’ Function	                                            157
	 Business Model	                                                      160
	 HAMP’s Effect on Loan Servicing	                                     163
	 Six Servicing Scenarios	                                             165
	
Section 4     	
tarp operations and administration	                                    177
	 TARP Administrative and Program Expenditures	                        179
	 Current Contractors and Financial Agents	                            180	

Section 5 	
SIGTARP Recommendations	                                               187
	 Recommendations Regarding Implementation of the Small
  	 Business Lending Fund 	                                            191
	 Recommendations Relating to Treasury’s Monitoring of
  	 Compliance with TARP Requirements by Companies
  	 Receiving Exceptional Assistance	                                  194
	 Update on Treasury’s Adoption of SIGTARP’s Use of Funds
  	 Recommendation	                                                    196
	 Update on SIGTARP’s Recommendation that Treasury Periodically
  	 Disclose Public-Private Investment Funds (“PPIF”)
  	 Trading Activity	                                                  197

	 Endnotes	                                                            207

appendices
A. 	 Glossary	                                                         226
B. 	 Acronyms and Abbreviations	                                       230
C. 	 Reporting Requirements	                                           232
D.	  Transaction Detail	                                               236
E.	  Cross-Reference of Report to the Inspector General Act of 1978	   300
F. 	 Public Announcements of Audits	                                   301
G. 	 Key Oversight Reports and Testimonies	                            302
H. 	 Correspondence	                                                   307
I. 	 Organizational Chart	                                             335
	
 investigations
EXECUTIVE SUMMARY
4   special inspector general I troubled asset relief program
                                                                            quarterly report to congress I OCTOBER 26, 2010   5




More than two years have passed since the Emergency Economic Stabilization Act
of 2008 (“EESA”) authorized the creation of the Troubled Asset Relief Program
(“TARP”). On October 3, 2010, Treasury’s authority to initiate new TARP invest-
ments expired, marking a significant milestone in TARP’s history but also leading
to the widespread, but mistaken, belief that TARP is at or near its end. As of
October 3, $178.4 billion in TARP funds were still outstanding, and although no
new TARP obligations can be made, money already obligated to existing programs
may still be expended. Indeed, with more than $80 billion still obligated and
available for spending, it is likely that far more TARP funds will be expended after
October 3, 2010, than in the year since last October when U.S. Treasury Secretary
Timothy Geithner (“Treasury Secretary”) extended TARP’s authority by one year. In
short, it is still far too early to write TARP’s obituary.
    At the same time, TARP’s two-year anniversary is a fitting time for an in-
terim assessment. To what extent has TARP met the goals set for it by the U.S.
Department of the Treasury (“Treasury”) in announcing TARP programs and
by Congress in providing Treasury authorization to expend TARP funds —
avoiding financial collapse, “increas[ing] lending,” “maximiz[ing] overall returns to
the taxpayers,” “provid[ing] public accountability,” “preserv[ing] homeownership,”
and “promot[ing] jobs and economic growth” — and at what cost? In answering
these questions, it is instructive to compare TARP’s impact on Wall Street with its
impact on Main Street. By fulfilling the goal of avoiding a financial collapse, there
is no question that the dramatic steps taken by Treasury and other Federal agencies
through TARP and related programs were a success for Wall Street. Those actions
have helped garner a swift and striking turnaround, accompanied by a return to
profitability and seemingly ever-increasing executive bonuses. For large Wall Street
banks, credit is cheap and plentiful and the stock market has made a tremendous
rebound. Main Street, too, has reaped a significant benefit from the prevention of
a complete collapse of the financial industry and domestic automobile manufac-
turers, the ripple effects such collapses would have caused, and increased stock
market prices. Main Street has largely suffered alone, however, in those areas in
which TARP has fallen short of its other goals.
    As these quarterly reports to Congress have well chronicled and as Treasury
itself recently conceded in its acknowledgment that “banks continue to report fall-
ing loan balances,” TARP has failed to “increase lending,” with small businesses in
particular unable to secure badly needed credit. Indeed, even now, overall lending
continues to contract, despite the hundreds of billions of TARP dollars provided to
banks with the express purpose to increase lending. As to the goal of “promot[ing]
jobs and economic growth,” while job losses may have been far worse without
TARP support, unemployment continues to hold at roughly 9.6%, 3% higher than
at the start of the program. While large bonuses are returning to Wall Street, the
6   special inspector general I troubled asset relief program




                                           nation’s poverty rate increased from 13.2% in 2008 to 14.3% in 2009, and for
                                           far too many, the recession has ended in name only. Finally, the most specific of
                                           TARP’s Main Street goals, “preserving homeownership,” has so far fallen woefully
                                           short, with TARP’s portion of the Administration’s mortgage modification program
                                           yielding only approximately 207,000 (out of a total of 467,000) ongoing permanent
                                           modifications since TARP’s inception, a number that stands in stark contrast to the
                                           5.5 million homes receiving foreclosure filings and more than 1.7 million homes
                                           that have been lost to foreclosure since January 2009.
                                                On the cost side of the ledger, the results have been mixed as well. It is un-
                                           doubtedly good news that recent loss estimates continue to suggest that the finan-
                                           cial costs of TARP may be far lower than earlier anticipated, with the most recent
                                           estimates placing the dollar loss at between $51 billion and $66 billion. But costs
                                           can involve far more than just dollars and cents. Any fair assessment of TARP must
                                           account for other costs that, while more difficult to measure, may be even more
                                           significant. For example, as SIGTARP has noted in past quarterly reports, increased
                                           moral hazard and concentration in the financial industry continue to be a TARP
                                           legacy. The biggest banks are bigger than ever, fueled by Government support
                                           and taxpayer-assisted mergers and acquisitions. And the repeated statements that
                                           the Government would stand by these banks during the financial crisis has given
                                           a significant advantage to the larger “too big to fail” banks, as reflected in their
                                           enhanced credit ratings borne from a market perception that the Government will
                                           still not let these institutions fail, although the impact of this cost may be blunted
                                           by recently enacted regulatory reform.
                                                Another even more fundamental non-financial cost, as SIGTARP warned in
                                           October 2009, is the potential harm to the Government’s credibility that has at-
                                           tended this program. Despite the recent surge in reporting on TARP’s successes,
                                           many Americans to continue to view TARP with anger, cynicism, and mistrust.
                                           While some of that hostility may be misplaced, much of it is based on entirely
                                           legitimate concerns about the lack of transparency, program mismanagement, and
                                           flawed decision-making processes that continue to plague the program. When
                                           Treasury refuses for more than a year to require TARP recipients to account for
                                           the use of TARP funds, or claims that Capital Purchase Program participants
                                           were “healthy, viable” institutions knowing full well that some are not, or when it
                                           provides hundreds of billions of dollars in TARP assistance to institutions, and then
                                           relies on those same institutions to self-report any violations of their obligations to
                                           TARP, it damages the public’s trust to a degree that is difficult to repair. Similarly,
                                           when the Government promotes programs without meaningful goals or metrics for
                                           success, such as its mortgage modification programs, or when it makes critical and
                                           far-reaching decisions without taking an even modestly broad view of their im-
                                           pact, such as pushing for dramatically accelerated car dealership closings without
                                                                             quarterly report to congress I OCTOBER 26, 2010   7




considering the potential for devastating job losses, or when it fails to negotiate
robustly on behalf of the taxpayer, as it did when agreeing to compensate American
International Group, Inc.’s (“AIG”) counterparties 100 cents on the dollar for secu-
rities worth less than half that amount, the Government invites public anger, hostil-
ity, and mistrust. And by doing so, it dangerously undermines its ability to respond
effectively to the next crisis.
     While TARP is arguably moving to a new phase, recent actions this past quarter
unfortunately suggest that the risks it poses to the public’s trust in Government will
continue. Indeed, two areas of the greatest anticipated spending going forward —
the Home Affordable Modification Program (“HAMP”) and the AIG recapitaliza-
tion plan — highlight those risks.

AIG RECAPITALIZATION PLAN
On September 30, 2010, AIG announced that it had entered into an agreement
in principle with Treasury, the Federal Reserve Bank of New York (“FRBNY”), and
the AIG Credit Facility Trust (“AIG Trust”), the entity in which FRBNY placed
oversight of the 79.8% ownership interest it received in AIG, to recapitalize AIG in
order to facilitate repayment of the company’s obligations to American taxpayers.
Treasury’s TARP “Two Year Retrospective” (“Retrospective”), published earlier this
month, describes the agreement as “put[ting] taxpayers in a considerably stronger
position to recoup their investment in the company.” Indeed, Treasury suggests,
using current market prices of AIG stock and its projected holdings after the
recapitalization, that taxpayers might ultimately profit on the Government’s overall
support of AIG, consisting of a $5 billion loss on the TARP investment and a $22
billion gain from the sale of the ownership interest in AIG received by FRBNY
outside of TARP.
     Although the recapitalization plan does create the possibility of an acceler-
ated Government exit from its ownership interest in AIG, Treasury’s projections
are subject to a degree of uncertainty. First, as described in more detail in Section
2: “TARP Overview,” the recapitalization plan is enormously complex and subject
to a significant number of conditions that may or may not be fulfilled. Second,
Treasury’s loss estimate is based on multiplying the share price of AIG’s common
stock by the number of shares Treasury expects to hold at the end of the recapital-
ization process. This calculation does not account for the volatility in AIG’s stock
price, which may result in losses or gains that are either greater or less than the
projected amounts. The plan also includes providing AIG up to an additional
$22 billion in TARP funds under its existing equity facility and an exchange
of $49.1 billion of TARP preferred shares for approximately 1.1 billion more
risky common shares, which will result in a 12% incremental increase in the
Government’s overall common ownership of AIG (from the 79.8% received by
FRBNY in September 2008 to a post-recapitalization interest of 92%).
8   special inspector general I troubled asset relief program




                                               Treasury’s most recent estimate of a $5 billion loss on its AIG investment also
                                           represents a dramatic shift from the $45 billion loss that Treasury had projected in
                                           its AIG investment just six months earlier. While AIG’s fortunes may have indeed
                                           improved during the course of those six months, there is a serious question over
                                           how much of this decrease comes from a change in Treasury’s methodology for
                                           calculating the loss as opposed to AIG’s improved prospects. All of Treasury’s prior
                                           loss estimates for AIG under TARP, including the March 31, 2010, estimate of
                                           $45.2 billion, were conducted in accordance with its published “Methodology
                                           to Calculate Estimated TARP Costs” (“Methodology”), which describes how
                                           Treasury values all of its investments, including its preferred shares of stock in
                                           AIG. Consistent with that document, Treasury’s previous loss estimate for AIG, as
                                           with its estimates of other TARP investments in preferred shares of stock, accounts
                                           for a broad range of factors that might affect the value of Treasury’s holdings. The
                                           Retrospective, however, abandoned the published Methodology, instead estimating
                                           a $5 billion loss based solely on the recent market closing price of AIG’s common
                                           stock, on the assumption that the recapitalization plan will go exactly as planned
                                           and result in Treasury receiving approximately 1.1 billion common shares of AIG
                                           stock in return for its current preferred interests. While Treasury did describe
                                           its new methodology in the Retrospective, it did not disclose that this methodol-
                                           ogy differed from that used previously and from what is set forth in its published
                                           Methodology. The Retrospective also failed to disclose that its common-stock-based
                                           valuation would not and could not be used in Treasury’s fiscal year 2010 TARP
                                           financial statements, which will be published in November and which will con-
                                           tinue to use the auditor-approved methodology that has characterized every other
                                           Treasury estimate of loss on its AIG investment.
                                               While SIGTARP offers no opinion on the appropriateness or accuracy of the
                                           valuation contained in the Retrospective, we believe that the Retrospective fails to
                                           meet basic transparency standards by failing to disclose: (1) that the new lower esti-
                                           mate followed a change in the methodology that Treasury previously used to calcu-
                                           late expected losses on its AIG investment; and (2) that Treasury would be required
                                           by its auditors to use the older, and presumably less favorable, methodology in the
                                           official audited financial statements. To avoid potential confusion, Treasury should
                                           have disclosed that it had changed its valuation methodology and should have
                                           published a side-by-side comparison of its new numbers with what the projected
                                           losses would be under the auditor-approved methodology that Treasury had used
                                           previously and will use in the future. This conduct has left Treasury vulnerable to
                                           charges that it has manipulated its methodology for calculating losses to present
                                           two different numbers depending on its audience: one designed for release in early
                                           October as part of a multifaceted publicity campaign touting the positive aspects
                                           of TARP and emphasizing the reduction in anticipated losses, and one, audited by
                                                                            quarterly report to congress I OCTOBER 26, 2010   9




the Government Accountability Office (“GAO”), for release in November as part of
a larger audited financial statement. Here again, Treasury’s unfortunate insensitiv-
ity to the values of transparency has led it to engage in conduct that risks further
damaging public trust in Government.
     Compounding this potential harm was the comparison made during the rollout
of the Retrospective of the lowered projected losses with older estimates. This
leaves Treasury vulnerable to additional criticism for making what some might
characterize as an apples-to-oranges comparison, disclosing the change in the rela-
tive amounts of losses, but not the accompanying change in methodology used to
calculate those losses.
     As a result of these concerns and with the hope that Treasury would correct this
problem, SIGTARP sent a letter to the Treasury Secretary, dated October 13, 2010,
recommending that Treasury prominently publish an explanation of its change in
methodology along with an updated side-by-side comparison of the loss projection
under the prior methodology. A copy of the letter, along with Treasury’s response, is
contained in Appendix H: “Correspondence.”
     In its October 19, 2010, letter response, Treasury rejected SIGTARP’s call for
greater transparency, instead making the seemingly counterfactual claim that that
“there has not been any change in our established valuation methodology,” because
its published Methodology contemplates that “investments in common stock are
valued at the market price of that common stock” and that the Retrospective valua-
tion “applies our established methodology.” This explanation is puzzling. While the
Methodology does contemplate the “use of market prices” for common stock and
other securities, it does so only “for TARP investments that are standard financial
instruments that trade in public markets or are closely related to tradable securi-
ties.” According to the Methodology, Treasury, for its earlier valuation of AIG, made
the determination that “no comparable preferred shares exist,” and therefore used
a different and more complex methodology. There is nothing in the Methodology
that suggests that calculations on the valuation of preferred shares will be based
on a planned conversion to common shares, which is presumably why Treasury’s
auditors will continue to require Treasury to use the more complex methodology in
its audited financial statements. Indeed, Treasury has confirmed to SIGTARP that
it did not apply the methodology that is applied to AIG in the Retrospective to simi-
larly situated banks in which Treasury holds preferred shares that are under similar
recapitalization agreements that contemplate a future conversion of Treasury’s
stake from preferred to common. That Treasury continued to value those shares us-
ing the standard preferred share valuation further undermines Treasury’s assertion
that there was no change in its treatment of AIG in the Retrospective. In any event,
SIGTARP finds Treasury’s contention that there was no change in its methodology
to be unconvincing, and stands by this recommendation.
10   special inspector general I troubled asset relief program




                                                 Treasury increased the risk of public confusion with another feature of the cost
                                            estimates in the Retrospective. In its cost estimates table, in addition to the $5 bil-
                                            lion loss projection under the heading “AIG (TARP),” Treasury added a line entitled
                                            “Other Treasury AIG Investments,” with a projected profit of $22 billion, which re-
                                            lates to the anticipated sale of the 79.8% equity interest that FRBNY received from
                                            AIG in September 2008, weeks before TARP’s passage and more than two months
                                            before Treasury bailed out AIG through TARP. Treasury then offsets its estimated
                                            “Total TARP Cost” of $51 billion with this number, yielding a “Total Treasury Cost”
                                            of $29 billion. While the description may be technically accurate because FRBNY
                                            assigned its ownership interest to the AIG Trust that held the shares to the United
                                            States Treasury, and may be discoverable through a close inspection of the table, it
                                            is potentially misleading. There is little reason to include the effect of the previous
                                            FRBNY investment in a TARP retrospective table that Treasury well knew would be
                                            widely used to describe potential TARP losses. Indeed, the chart makes no refer-
                                            ence to other forms of FRBNY support to AIG, such as the close to $44 billion pro-
                                            vided through its Maiden Lane II and Maiden Lane III transactions. In any event,
                                            Treasury’s lack of specificity did in fact lead to inaccurate reporting, with a number
                                            of media outlets reporting that Treasury’s projected TARP losses were under $30
                                            billion. Treasury should take far greater care in taking steps in the future to avoid
                                            such potentially misleading accounts.
                                                 Unfortunately, Treasury’s failures in transparency in its presentation of its loss
                                            estimates distract from an otherwise positive story — calculations of loss far lower
                                            than what was previously expected and a potential exit from AIG that few thought
                                            would ever be possible. Treasury should resist in the future taking similar actions
                                            with anything less than complete and thorough disclosure of any changes in valu-
                                            ation and without including extraneous information in its TARP projections. If
                                            Treasury wants to improve the public’s perception of TARP – the apparent goal of
                                            the Retrospective — and start addressing the cost to Government credibility that
                                            has too often attended its administration of TARP, it must elevate transparency
                                            above other short-term concerns in its communications with the American people.

                                            HAMP
                                            SIGTARP, along with the other TARP oversight bodies (GAO and the
                                            Congressional Oversight Panel), has long argued that Treasury should adopt mean-
                                            ingful benchmarks and goals for HAMP, including setting forth its expectations and
                                            goals for the most meaningful aspect of HAMP — permanent modifications that
                                            offer secure, sustainable relief to the program’s intended beneficiaries. Remarkably,
                                            Treasury has steadfastly rejected these recommendations, and now finds itself
                                            defending a program that is failing to meet TARP’s goal of “preserv[ing] homeown-
                                            ership.” As a result, a program that began with much promise now must be counted
                                            among those that risk generating public anger and mistrust.
                                                                              quarterly report to congress I OCTOBER 26, 2010   11




    The problems that HAMP and its companion programs are meant to ad-
dress, unfortunately, remain painfully clear as the housing crisis continues to have
devastating consequences for millions of families across the nation. According to
RealtyTrac data, when HAMP has been at its apex, from January 2010 through
September 2010, close to 2.7 million homes have been subject to foreclosure
notices. At that pace, foreclosure notices will have been sent to more than 3.5 mil-
lion homes by the end of the year, an increase of 26% over the 2.8 million homes
in 2009 and nearly five times the comparable 2006 number.1 Similarly, RealtyTrac
data reveal that bank repossessions continue to increase. Indeed, a record total of
more than 102,000 bank repossessions were reported in September alone, the first
time that bank repossessions have surpassed the 100,000 mark in a single month.
Repossessions totaled nearly 820,000 from January 2010 through September 2010.
At that rate, there will be close to 1.1 million bank repossessions this year, an in-
crease of 19% over the approximately 918,000 repossessions in 2009.
    By contrast, HAMP, as of September 30, 2010, has only approximately 467,000
ongoing permanent modifications, with fewer than 207,000 of those funded by
and attributable to TARP. The remaining were funded outside of TARP by the
Government-sponsored enterprises (“GSEs”). A combined total of close to 700,000
of the almost 1.4 million total trial modifications were canceled after failing to be
converted to permanent; more than 28,000 permanent modifications have been
canceled due to missed payments, and more than 173,000 trial modifications re-
main in limbo. Over the past quarter, HAMP produced a net increase of fewer than
26,000 permanent modifications per month, with the TARP portion yielding an av-
erage of just more than 14,000 per month. Even more worrisome, over that quarter
the total average number of incoming HAMP trial modifications has fallen to fewer
than 29,000 per month, signaling that the anemic pace of permanent modifications
may only get even worse. And as set forth in greater detail later in this report, TARP
has only funded a modest number of second-lien modifications or foreclosure alter-
natives since inception.
    Treasury has not acknowledged the implications of these facts with sufficient
transparency, and it has steadfastly and explicitly declined to articulate well-consid-
ered, consistent, and meaningful success standards for HAMP, particularly when
it comes to participation goals for permanent modifications and HAMP’s other
programs. Instead, it continues to cite the number of HAMP trial modifications,
as opposed to permanent modifications, as an indication of success. As recently as
October 5, 2010, in the Retrospective, Treasury asserted no fewer than three times
that “[e]ighteen months into the program, HAMP has helped more than 1.3 mil-
lion homeowners by reducing their monthly mortgage payments to more affordable
levels.” Furthermore, Treasury makes the remarkable argument that every single
one of these modifications is a success, including the nearly 700,000 that have
failed and more than 173,000 that remain in limbo, claiming that “every single
12   special inspector general I troubled asset relief program




                                            person who is in a temporary modification is getting a significant benefit” from
                                            temporarily reduced payments. Put another way, in the absence of benchmarks
                                            for HAMP’s original goal, to “help up to 3 to 4 million at-risk homeowners avoid
                                            foreclosure . . . by reducing monthly payments to sustainable levels,” Treasury is
                                            reduced to now trying to define every single one of the nearly 700,000 HAMP trial
                                            modification failures as “successes.”
                                                Treasury’s decision to declare such uniform success for so many failures disre-
                                            gards the harm and suffering that often accompany failed trial modifications. In
                                            Section 3: “The Economics of Loan Servicing,” SIGTARP has provided some ex-
                                            amples of the harms that failed modifications have inflicted, including complaints
                                            received through SIGTARP’s Hotline. There have been many published reports
                                            of similar and more extreme examples, such as news website ProPublica’s recent
                                            survey of HAMP participants. They all paint a similar portrait of many HAMP bor-
                                            rowers, often already contending with other hardships, who end up unnecessarily
                                            depleting their dwindling savings in an ultimately futile effort to obtain the sustain-
                                            able relief promised by the program guidelines. Others, who may have somehow
                                            found ways to continue to make their mortgage payments, have been drawn into
                                            failed trial modifications that have left them with more principal outstanding on
                                            their loans, less home equity (or a position further “underwater”), and worse credit
                                            scores. Perhaps worst of all, even in circumstances where they never missed a
                                            payment, they may face back payments, penalties, and even late fees that suddenly
                                            become due on their “modified” mortgages and that they are unable to pay, thus
                                            resulting in the very loss of their homes that HAMP is meant to prevent.
                                                While it may be true that many homeowners may benefit from temporarily re-
                                            duced payments even though the modification ultimately fails, Treasury’s claim that
                                            “every single person” who participates in HAMP gets “a significant benefit” is either
                                            hopelessly out of touch with the real harm that has been inflicted on many fami-
                                            lies or a cynical attempt to define failure as success. Worse, Treasury’s apparent
                                            belief that all failed trial modifications are successes may preclude it from seeking
                                            to make the meaningful changes necessary to provide the “sustainable” mortgage
                                            relief for struggling families it first promised. What Treasury deems a universal
                                            benefit, many homeowners, members of Congress, and a growing number of com-
                                            mentators describe as “cruel” and offering little more than “false hope.”
                                                To combat the risk of growing mistrust that accompanies each Treasury an-
                                            nouncement on HAMP, and in the spirit of full transparency, Treasury should
                                            acknowledge the program’s failings and finally publish meaningful goals, no matter
                                            how modest they may now appear to be when compared to the original program
                                            announcements.
                                                                                quarterly report to congress I OCTOBER 26, 2010   13




PROGRAM UPDATES AND FINANCIAL OVERVIEW
TARP consists of 13 implemented programs. As of October 3, 2010, $474.8 billion
had been obligated across TARP to provide support for U.S. financial institutions,
the automobile industry, the markets in certain types of asset-backed securities
(“ABS”), and homeowners. Of this amount, $387.8 billion had already been spent,
leaving $82.0 billion in six programs remaining as obligated and available to be
spent. As of September 30, 2010, 122 TARP recipients had paid back all or a por-
tion of their principal or repurchased shares for an aggregate total of $204.4 billion
of repayments and a $5 billion reduction in exposure to possible future liabilities,
leaving $178.4 billion in TARP funds outstanding.
    In addition to the principal repayments, Treasury has received interest and divi-
dend payments on its investments, as well as revenue from the sale of its warrants.
As of September 30, 2010, the Government had received $21.8 billion in interest,
dividends, and other income, and $10.2 billion in sales proceeds had been received
from the sale of warrants and preferred stock received as a result of exercised war-
rants. At the same time, some TARP participants have missed dividend payments:
among CPP participants, 137 have missed dividend payments to the Government,
although some of them made the payments on a later date. As of September 30,
2010, there was $211.3 million in outstanding unpaid CPP dividends.

THE ECONOMICS OF LOAN SERVICING
This quarter, Section 3: “The Economics of Loan Servicing,” discusses the role
of loan servicers in the residential mortgage business, especially relative to par-
ticipation in HAMP. The goal is to provide context for how servicers operate as
the recent financial crisis has resulted in a greater emphasis on handling defaults,
modifications, short sales, and foreclosures, in addition to servicers’ traditional
duties of collecting monthly mortgage payments. To that end, Section 3 discusses
the role of servicers, their efforts to conduct a profitable business, and the effect of
HAMP on their roles and responsibilities. It also examines the factors that influ-
ence their decisions when working with borrowers who have distressed loans. To
illustrate those factors and their effects on HAMP’s administration and results,
Section 3 reviews several scenarios involving the loan modification experience of a
hypothetical couple working with their servicer to obtain a mortgage modification,
and a series of examples drawn from contacts to SIGTARP’s Hotline that describe
several homeowners’ interactions with servicers under HAMP.
14   special inspector general I troubled asset relief program




                                            OVERSIGHT ACTIVITIES OF SIGTARP
                                            SIGTARP actively strives to fulfill its audit and investigative functions. This past
                                            quarter SIGTARP released the audit report, “Factors Affecting the Decisions of
                                            General Motors and Chrysler to Reduce their Dealership Networks.” The re-
                                            port, released on July 19, 2010, addressed (1) the role of Treasury’s Auto Team in
                                            the decision to reduce the dealership networks for General Motors Corporation
                                            (“GM”) and Chrysler LLC (“Chrysler”), (2) the extent to which GM and Chrysler
                                            developed and documented processes for deciding which dealerships to termi-
                                            nate and which to retain, and (3) the extent to which the dealership reductions
                                            were expected to lead to cost savings for GM and Chrysler. SIGTARP found that
                                            there were several aspects of how the Auto Team came to its decision to reject
                                            GM’s initial plan to gradually shrink its dealership network and to encourage GM
                                            and Chrysler to use bankruptcy to accelerate their dealership terminations worth
                                            noting. First, although there was broad consensus that GM and Chrysler gener-
                                            ally needed to decrease the number of their dealerships, there was disagreement
                                            over where, and how quickly, the cuts should have been made, a finding that was
                                            recently confirmed by GM’s current chairman, who said he believed that the extent
                                            of dealership cuts that followed Treasury’s rejection of GM’s initial plan was “not
                                            necessary.” Second, job losses at terminated dealerships were not a substantial
                                            factor in the Auto Team’s consideration of the dealership termination issue. Finally,
                                            the acceleration of dealership closings was not done with any explicit cost savings
                                            to the manufacturers in mind. SIGTARP also identified important lessons from the
                                            circumstances surrounding the Auto Team’s encouragement of GM and Chrysler to
                                            accelerate their planned termination of dealerships. Before the Auto Team encour-
                                            aged such a move, Treasury (a) should have taken every reasonable step to ensure
                                            that accelerating the dealership terminations was truly necessary for the long-term
                                            viability of the companies, and (b) should have at least considered whether the
                                            benefits to the companies from the accelerated terminations outweighed the costs
                                            to the economy that would have resulted from potentially tens of thousands of job
                                            losses.
                                                In follow-up letters to SIGTARP, Treasury set forth its disagreement with the
                                            conclusions of the report. In large part, Treasury’s response consists of a series of
                                            arguments that have little to do with the actual content of the report, most promi-
                                            nently that absent Government assistance, GM and Chrysler would have faced the
                                            prospect of failure and liquidation, resulting in the loss of hundreds of thousands of
                                            jobs across multiple industries, an assertion that was neither addressed nor chal-
                                            lenged in the report. Treasury left mostly unaddressed the fundamental criticism
                                            of SIGTARP’s audit, that Treasury should have carefully considered whether such
                                            abrupt and large-scale dealership terminations were genuinely crucial to the auto
                                            manufacturers’ viability, and whether the benefits of such a measure outweighed its
                                            larger costs to the economy as a whole.
                                                                           quarterly report to congress I OCTOBER 26, 2010   15




    For a more detailed discussion of the audit, Treasury’s responses, and
SIGTARP’s evaluation of those responses, see Section 1: “The Office of the Special
Inspector General for the Troubled Asset Relief Program,” which also discusses
SIGTARP’s announcement of five new audit projects during the past quarter, as
well as eight other previously announced audits in process, which will be released
in the coming months.
    Although much of SIGTARP’s investigative activity remains confidential, over
the past quarter there have been significant public developments in several of
SIGTARP’s other investigations. Goldwater Bank, N.A., (“Goldwater”) located in
Scottsdale, Arizona, which had previously received TARP funds, entered into a
settlement agreement with the U.S. Attorney’s Office for the Southern District of
New York requiring it to forfeit $733,805 to resolve civil forfeiture claims related
to Goldwater’s alleged laundering of proceeds of illegal online gambling and to
develop a series of governance reforms to ensure that it acts as a better steward of
the taxpayers’ investment in the bank. For a description of other recent investiga-
tive developments, including those relating to SIGTARP investigations into Park
Avenue Bank, American Home Recovery, Nations Housing Modification Center,
Mount Vernon Money Center, Colonial BancGroup Inc., and Omni National Bank,
see Section 1.
    SIGTARP’s chief counsel also took action this quarter, continuing to explore
the constitutionality of the appointment of the Special Master for TARP Executive
Compensation (“the Special Master”). As discussed more fully in Section 1,
SIGTARP, after extended discussions with Treasury, submitted to the Justice
Department’s Office of Legal Counsel a request for a legal opinion concern-
ing whether the Special Master is a principal officer under the Constitution’s
Appointments Clause. Treasury’s general counsel joined in the request, which is
pending.


SIGTARP RECOMMENDATIONS ON THE
OPERATION OF TARP
One of SIGTARP’s oversight responsibilities is to provide recommendations to
Treasury so that TARP programs can be designed or modified to facilitate effec-
tive oversight and transparency and to prevent fraud, waste, and abuse. Section 5:
“SIGTARP Recommendations,” contains new recommendations, provides updates
on existing recommendations, and summarizes implementation measures for previ-
ous recommendations.
     This quarter, Section 5 features discussion on transparency measures in an ar-
ray of TARP programs, including SIGTARP’s recommendations relating to the $30
billion Small Business Lending Fund (“SBLF”) authorized by the Small Business
16   special inspector general I troubled asset relief program




                                            Jobs and Credit Act of 2010 Public Law 111–240. Although SBLF is to operate
                                            largely outside of TARP, in light of the likelihood that many CPP participants will
                                            seek to refinance their investments through SBLF, SIGTARP discusses three rec-
                                            ommendations designed to ensure the soundness of TARP recipients who may seek
                                            to enter SBLF and to prevent TARP recipients from receiving windfall dividend
                                            reductions through SBLF without any relevant increase in lending. Section 5 also
                                            reviews Treasury’s response to the recommendations contained in SIGTARP’s pre-
                                            vious audit report, “Treasury’s Monitoring of Compliance with TARP Requirements
                                            by Companies Receiving Exceptional Assistance,” and SIGTARP’s response. Finally,
                                            Section 5 includes a discussion of Treasury’s last-minute objection to the disclosure
                                            of certain data in this report, notwithstanding Treasury’s previous statement that it
                                            had no objection to the publication of the data, and notwithstanding SIGTARP’s
                                            previous offer to delay disclosure so that Treasury could seek an appropriate
                                            remedy.



                                            REPORT ORGANIZATION
                                            The report is organized as follows:

                                            •	 Section 1 discusses the activities of SIGTARP.
                                            •	 Section 2 details how Treasury has spent TARP funds thus far and contains an
                                               explanation or update of each program.
                                            •	 Section 3 discusses the role of loan servicers in the residential mortgage busi-
                                               ness, especially relative to participation in Making Home Affordable.
                                            •	 Section 4 describes the operations and administration of the Office of Financial
                                               Stability, the office within Treasury that manages TARP.
                                            •	 Section 5 discusses SIGTARP’s recommendations to Treasury with respect to
                                               the operation of TARP.

                                                The report also includes numerous appendices containing, among other things,
                                            figures and tables detailing all TARP investments through October 3, 2010.
            The Office of the Special
section 1
               investigations
            Inspector General for the
            Troubled Asset Relief Program
18   special inspector general I troubled asset relief program
                                                                             quarterly report to congress I October 26, 2010   19




sigtarp creation and statutory authority
The Office of the Special Inspector General for the Troubled Asset Relief Program
(“SIGTARP”) was created by Section 121 of the Emergency Economic Stabilization
Act of 2008 (“EESA”). Under EESA, SIGTARP has the responsibility, among
other things, to conduct, supervise, and coordinate audits and investigations of the
purchase, management, and sale of assets under the Troubled Asset Relief Program
(“TARP”) and, with certain limitations, any other action taken under EESA.
SIGTARP is required to report quarterly to Congress to describe SIGTARP’s activi-
ties and to provide certain information about TARP over that preceding quarter.
EESA gives SIGTARP the authorities listed in Section 6 of the Inspector General
Act of 1978, including the power to obtain documents and other information from
Federal agencies and to subpoena reports, documents, and other information from
persons or entities outside the Government.
    TARP investment authority expired on October 3, 2010. As a result, the U.S.
Department of the Treasury (“Treasury”) cannot make new purchases or guar-
antees of troubled assets. This termination of authority, however, does not affect
Treasury’s ability to administer existing troubled asset purchases and guarantees. In
accordance with Section 106(e) of EESA, Treasury may also expend TARP funds as
long as it does so pursuant to obligations entered into before that date. SIGTARP’s
oversight mandate did not end with the expiration of Treasury’s authorization for
new TARP funding. Rather, under the authorizing provisions of EESA, SIGTARP
is to carry out its duties until the Government has sold or transferred all assets and
terminated all insurance contracts acquired under TARP. In other words, SIGTARP
will remain “on watch” as long as TARP assets remain outstanding.



SIGTARP OVERSIGHT ACTIVITIES SINCE THE JULY
2010 QUARTERLY REPORT
SIGTARP has continued to fulfill its oversight role on multiple parallel tracks:
auditing various aspects of TARP and TARP-related programs and activities; in-
vestigating allegations of fraud, waste, and abuse in TARP programs; coordinating
closely with other oversight bodies; and striving to promote transparency in TARP
programs.



SIGTARP Audit Activity
SIGTARP has initiated a total of 23 audits and one evaluation since its inception.
Over the quarter ending September 30, 2010, SIGTARP released an additional
audit report and provided assistance to an audit report released by the Government
Accountability Office (“GAO”). SIGTARP has also announced five new audit
projects.
20   special inspector general I troubled asset relief program




                                                 On October 7, 2010, shortly after the close of the quarter, SIGTARP released
                                            its latest audit report, “Selecting Fund Managers for the Legacy Securities Public-
                                            Private Investment Fund.” Details will be discussed in SIGTARP’s next quarterly
                                            report to Congress. In addition, eight other previously announced audits are near-
                                            ing completion, and SIGTARP anticipates releasing reports on those audits in the
                                            coming months.

                                            Factors Affecting the Decisions of General Motors and Chrysler to
                                            Reduce their Dealership Networks
                                            On July 19, 2010, SIGTARP released its audit report, “Factors Affecting the
                                            Decisions of General Motors and Chrysler to Reduce their Dealership Networks.”
                                            Conducted in response to a request by Senator Jay Rockefeller and Representative
                                            David Obey, this report addressed (1) the role of Treasury’s Auto Team in the deci-
                                            sion to reduce the dealership networks for General Motors Corporation (“GM”)
                                            and Chrysler LLC (“Chrysler”), (2) the extent to which GM and Chrysler devel-
                                            oped and documented processes for deciding which dealerships to terminate and
                                            which to retain, and (3) the extent to which the dealership reductions are expected
                                            to lead to cost savings for GM and Chrysler.
                                                Pursuant to their loan agreements with Treasury, as a condition of receiving
                                            additional TARP funding, GM and Chrysler were required to submit restruc-
                                            turing plans in February 2009 to Treasury’s Auto Team, a body created by the
                                            Administration and responsible for, among other things, evaluating the compa-
                                            nies’ restructuring plans and negotiating the terms of any further assistance. In
                                            March 2009 the Auto Team rejected both companies’ plans and highlighted GM’s
                                            planned “pace” of dealership closings as too slow and one of the obstacles to its
                                            viability. In response to the Auto Team’s rejection of their restructuring plans, GM
                                            and Chrysler significantly accelerated their dealership termination timetables. In
                                            GM’s case, instead of gradually reducing its network by approximately 300 dealer-
                                            ships per year through 2014, as it had proposed in the plan initially submitted to
                                            Treasury, GM responded to the Auto Team’s decision by terminating 1,454 dealer-
                                            ships’ ability to acquire new GM vehicles and giving them until October 2010 to
                                            wind down operations completely. For Chrysler (which also had originally planned
                                            to terminate dealers over five years), its acceleration was even more abrupt, with
                                            Chrysler terminating 789 dealerships (25% of its network) within 22 days.
                                                The Auto Team’s view about the need to reduce dealership networks and do
                                            so rapidly was based on a theory that, as in the case of GM and Chrysler’s foreign
                                            competitors, with fewer dealerships producing less internecine competition, the
                                            remaining dealerships would be more profitable (through more sales volume per
                                            dealership and lower floor plan financing costs). This greater profitability would
                                            permit the dealerships to invest more in their facilities and staff. For GM and
                                            Chrysler, the theory went, this would mean better brand equity and would allow
                                                                             quarterly report to congress I October 26, 2010   21




the manufacturers, over time, to decrease their substantial dealership incentives.
In addition, the Auto Team felt the companies’ best chance of success required
“utilizing the bankruptcy code in a quick and surgical way” and noted further that
it would have been a “waste of taxpayer resources” for the auto manufacturers to
exit bankruptcy without reducing their networks. While perhaps only time will tell
whether and to what extent the rapid reduction of the number of dealerships will
improve the manufacturers’ profitability, SIGTARP’s audit found that there were
several aspects of how the Auto Team came to this view about dealership reduc-
tions worth noting.

•	 First, although there was broad consensus that GM and Chrysler generally
   needed to decrease the number of their dealerships, there was disagreement
   over where, and how quickly, the cuts should have been made. In conversations
   with SIGTARP, some experts questioned whether it was appropriate to apply a
   foreign model of fewer dealerships located predominantly in metropolitan areas
   to the U.S. automakers, particularly in smaller and rural markets in which the
   U.S. companies currently have a competitive advantage, and one expert opined
   that closing dealerships in an environment already disrupted by the recession
   could result in an even greater crisis in sales. Similarly, Chrysler officials told
   SIGTARP that closing dealerships too quickly would have an adverse effect on
   sales from which several years would be required to recover — and even then,
   only if new markets were penetrated by opening new dealerships. The facts that,
   after the mandatory arbitration legislation was passed, GM and Chrysler offered
   to reinstate 666 and 50 dealerships, respectively, and that a senior GM official
   stated that the final number of dealerships would not damage GM’s ability to re-
   cover or grow the company suggest, at the very least, that the number and speed
   of the terminations were not necessarily critical to the manufacturers’ viability.
   Indeed, after the audit’s release, GM Chairman and former Chief Executive
   Officer (“CEO”) Ed Whitacre acknowledged both to the Detroit Press and to
   SIGTARP that GM may have tried to cut too many dealers in its initial reaction
   to Treasury’s rejection of its viability plan. As he said to SIGTARP, “In my judg-
   ment, [cutting that many dealers] was not necessary.”
•	 Second, job losses at terminated dealerships were not a substantial factor in the
   Auto Team’s consideration of the dealership termination issue. In the face of the
   worst unemployment crisis in a generation and during the same period in which
   the Government was spending hundreds of billions of dollars on a stimulus
   package to spur job growth, Treasury’s Auto Team rejected GM’s original plan
   (which included gradual dealership terminations), expressly stated that GM’s
   pace of terminations was too slow, and then encouraged the companies’ use of
   bankruptcy to accelerate dealership terminations. Although the restructuring of
   GM and Chrysler inevitably required an overall reduction in their own work
22   special inspector general I troubled asset relief program




                                               forces (and the termination of a certain number of poorly performing dealer-
                                               ships), it is not at all clear that the greatly accelerated pace of the dealership
                                               closings during one of the most severe economic downturns in our nation’s
                                               history was either necessary for the sake of the companies’ economic survival or
                                               prudent for the sake of the nation’s economic recovery.
                                            •	 Finally, the acceleration of dealership closings was not done with any explicit
                                               cost savings to the manufacturers in mind. Again, the anticipated benefits
                                               to GM and Chrysler from a smaller dealership network were far more amor-
                                               phous — a better “brand equity” and the potential ability to decrease dealership
                                               incentives over time. Indeed, one GM official emphasized this point by telling
                                               SIGTARP that GM would usually save “not one damn cent” by closing any
                                               particular dealership.

                                                Once the decisions to accelerate the dealership terminations were made,
                                            Chrysler decided which dealerships to terminate based on case-by-case, market-
                                            by-market determinations. Chrysler did not offer an appeals process. Perhaps not
                                            surprisingly in light of the case-by-case nature of the process, SIGTARP did not
                                            identify any instances in which Chrysler’s termination decision varied from its
                                            stated, albeit subjective, selection criteria. GM’s approach, which was conducted in
                                            two phases, was purportedly more objective. However, SIGTARP found that GM
                                            did not consistently follow its stated criteria, nor did it set the criteria or process for
                                            appeals or document its reasoning for appeals decisions.
                                                SIGTARP identified several important lessons that should be learned from the
                                            circumstances surrounding the Auto Team’s encouragement of GM and Chrysler
                                            to accelerate their planned termination of dealerships. Although the dealership
                                            termination process is near its conclusion, these lessons should be considered in
                                            the event Treasury once again is compelled to make decisions that directly affect
                                            the businesses in which it has invested. Here, before the Auto Team rejected GM’s
                                            original, more gradual termination plan as an obstacle to its continued viability and
                                            then encouraged the companies to accelerate their planned dealership closures
                                            in order to take advantage of bankruptcy proceedings, Treasury (a) should have
                                            taken every reasonable step to ensure that accelerating the dealership termina-
                                            tions was truly necessary for the viability of the companies, and (b) should have
                                            at least considered whether the benefits to the companies from the accelerated
                                            terminations outweighed the costs to the economy that would have resulted from
                                            potentially tens of thousands of accelerated job losses. The record is not at all clear
                                            that Treasury did either. It made no effort even to quantify the number of job losses
                                            to which the Auto Team’s decision would contribute until after the decision was
                                            made, nor did it sufficiently consider the effect on the broader economy caused by
                                            accelerated dealership terminations.
                                                                               quarterly report to congress I October 26, 2010   23




    Stated another way, at a time when the country was experiencing the worst eco-
nomic downturn in generations and the Government was asking its taxpayers to sup-
port a $787 billion stimulus package designed primarily to preserve jobs, Treasury
made a series of decisions that may have substantially contributed to the accelerated
shuttering of more than 2,000 small businesses, thereby potentially adding tens
of thousands of workers to the already lengthy unemployment rolls — all without
sufficient consideration of the decisions’ broader economic impact. There is no
evidence that implementing a smaller or more gradual dealership termination plan
would have materially increased the companies’ risk of failure. That the automak-
ers have offered reinstatement to hundreds of terminated dealerships in response
to Congressional action without any apparent sacrifice of their ongoing viability
further demonstrates the possibility that such dramatic and accelerated dealership
closings may not have been necessary and underscores the need for Treasury to
tread very carefully when considering such decisions in the future.
    Furthermore, although it was certainly understandable for Treasury to defer to
the automakers’ management in selecting the criteria for closing dealerships, its
decision not to monitor the process that they employed is far more questionable. In
the absence of effective oversight, GM purportedly employed objective criteria but
then deviated from them, making termination decisions with little or no transpar-
ency and making a review of many of these decisions impossible; Chrysler’s process
did not even include an opportunity for dealerships to appeal the termination deci-
sion. In the future, to the extent that Treasury takes action with respect to a TARP
recipient that has the potential to affect so many jobs in so many different com-
munities, Treasury should monitor the recipient’s actions to ensure that they are
carried out in a fair and transparent manner.
    In a July 16, 2010, response to this audit report, Treasury stated that it “strongly
disagree[s] with many of your statements, your conclusions, and the lessons
learned.” The response asserted that absent Government assistance, GM and
Chrysler would have faced the prospect of failure and liquidation, resulting in the
loss of hundreds of thousands of jobs across multiple industries. Treasury argued
that “[t]he Administration’s actions not only avoided a potentially catastrophic col-
lapse and brought needed stability to the entire auto industry, but they also saved
hundreds of thousands of American jobs and gave GM and Chrysler a chance
to reemerge as viable, competitive American businesses.” On August 19, 2010,
Treasury submitted a follow-up letter. Both letters are reproduced in Appendix H:
“Correspondence.”
    The second letter, in Treasury’s words, “provide[s] responses to certain state-
ments in the report which we believe are materially inaccurate or incomplete.” It
is important to note that Treasury was provided an opportunity to review a discus-
sion draft of the report and provide comments. Treasury did so, changes were made
to the report as appropriate, and, at the end of that process, Treasury offered no
24   special inspector general I troubled asset relief program




                                            material factual objections to that draft audit report. The August 19, 2010, let-
                                            ter, while quoting numerous statements from the audit report, fails to identify a
                                            single factual assertion in the report as inaccurate. Treasury might not agree with
                                            how the audit’s conclusions portray the Auto Team’s decision making or with the
                                            lessons that SIGTARP has drawn from those facts, but it should be made clear
                                            that Treasury has not challenged the essential underlying facts upon which those
                                            conclusions are based. Instead, Treasury’s objections to the audit’s conclusions and
                                            lessons learned amount to little more than the erection of a series of straw men
                                            that appear to be designed to distract the reader from the lack of any meaningful
                                            substantive response.
                                                Treasury’s specific comments are summarized below, followed by SIGTARP’s
                                            response.

                                            •	 Treasury contends that certain statements in the report “overstate one factor of
                                               the restructurings and demonstrate a misunderstanding of Treasury’s decision-
                                               making process.” In particular, Treasury disagrees with SIGTARP’s criticisms
                                               of the Auto Team for insufficiently taking job losses at terminated dealerships
                                               into account, pointing out that without steps to attain viability, both GM and
                                               Chrysler faced almost certain liquidations, which would have resulted in the
                                               loss of hundreds of thousands of jobs across multiple industries, including auto
                                               dealerships. In Treasury’s view, it did not have either the “mandate to study how
                                               to best preserve jobs for one group of stakeholders given the enormity of the risk
                                               to the industry and the limited time in which a plan had to be implemented,” or
                                               the time to conduct studies without “requir[ing] the Administration to con-
                                               tinue to fund the companies with billions of taxpayer dollars in the absence of
                                               approved viability plans.” Treasury further notes that employment losses since
                                               June 2007 for auto dealers have not been as severe as for the rest of the auto
                                               industry, and that “over the past year since GM and Chrysler emerged from
                                               bankruptcy, employment at auto dealers has actually increased.”

                                                Notably absent from these objections is any meaningful defense against the
                                            core criticism of the audit report — that the Auto Team’s failure to seriously consid-
                                            er job losses at terminated dealerships was a fundamental flaw in its evaluation of
                                            the automakers’ restructuring plans. SIGTARP does not dispute that Government
                                            assistance was necessary to prevent the failure of GM and Chrysler, and notwith-
                                            standing Treasury’s attempt to erect this straw man criticism of the report, nothing
                                            in the audit suggests otherwise. Further, Treasury does not and cannot support its
                                            implication that had dealership closings not been dramatically accelerated, GM
                                            and Chrysler would have failed. None of the experts that SIGTARP interviewed
                                            supported such a proposition. Indeed, a senior member of the Auto Team, Ron
                                                                              quarterly report to congress I October 26, 2010   25




Bloom, when asked explicitly whether the Auto Team could have left dealerships
out of the restructurings, affirmatively told SIGTARP that it “could have left any
one component [of the restructuring plan] alone.” Furthermore, that the compa-
nies have subsequently offered reinstatement to hundreds of dealerships without
any impact to their ongoing viability in the U.S. suggests, at a minimum, that the
speed and scale of the terminations were not essential to the companies’ survival.
Particularly telling are the statements of Whitacre, who not only acknowledged
that the cuts before reinstatements were “not necessary,” but also pointed out the
value of preserving dealerships: “I thought from the start that if you had more good
dealers then you can sell more good cars and that is what we are in the business of
doing. I still believe that it is a much better idea to have more good dealers.”
     Treasury’s reference to labor statistics, which demonstrate that from 2009 to
2010, depending on the month selected, there was a slight increase or slight de-
crease in the number of employees at all of the country’s auto dealerships, foreign
and domestic, used and new, likewise misses its mark. As an initial matter, whatever
the current employment levels at auto dealerships, they are simply irrelevant to the
audit’s conclusion that Treasury should have at least considered whether the ben-
efits to the companies from accelerated terminations outweighed the costs to the
economy from potentially significant accelerated job losses. In other words, even
if Treasury’s actions did not significantly contribute to job losses, that fortuitous
outcome would not have been the result of careful analysis, given Treasury’s failure
to consider the broader impact of its decision. In any event, the cited statistics fail
to support Treasury’s suggestion that the dealership closings in question have had
no adverse impact on jobs. First, those statistics cover all auto dealerships, and so
tell us little about the impact of GM and Chrysler dealership closings. Second,
in response to Congressional action and other factors that softened the blow of
Treasury’s decision, GM and Chrysler significantly reduced the number of planned
dealership closings originally approved by the Auto Team. Third, as Treasury is
well aware, the statistic is potentially misleading because GM will not complete its
dealership closings until the end of October 2010, so the mid-summer numbers do
not reflect the impact of a substantial number of GM closings.
     Finally, Treasury’s claimed lack of any “mandate” to consider job preservation
or time to conduct meaningful studies exposes its other arguments for what they
are — efforts to distract from its failure to conduct meaningful analysis in support
of well-founded, well-judged decisions that balance the benefits and costs for all
stakeholders appropriately. The audit nowhere suggests that the Auto Team should
have delayed its decision making for an extended period. Indeed, Treasury accom-
plished its after-the-fact analysis of job impact within weeks of its initial decision.
In the face of the worst unemployment crisis in a generation, and in the context
of one of the most severe economic downturns in our nation’s history, Treasury
26   special inspector general I troubled asset relief program




                                            certainly could have used some of the time it spent consulting its dozen experts
                                            considering the broader impact of its decision.

                                            •	 Treasury contends that SIGTARP inaccurately “argues that the decisions of GM
                                               and Chrysler to accelerate dealership closures were based entirely on Treasury’s
                                               written viability plan determination.” Treasury asserts that it did not “direct” the
                                               companies to terminate specific dealers or accelerate dealer closings in particu-
                                               lar. Rather, it determined that each company’s initial viability plans failed to ag-
                                               gressively effectuate the entire restructuring across several different criteria. The
                                               companies determined that the only way to restructure their debt obligations
                                               was through a bankruptcy proceeding, which provided an opportunity for an
                                               extensive restructuring of other liabilities, including those concerning facilities,
                                               suppliers, environmental liabilities, and the dealer network. The restructuring
                                               of all liabilities minimized the amount of taxpayer money that had to be injected
                                               into each company.

                                                 Here Treasury has erected and attacked a new straw man. The audit report
                                            nowhere contends that the decisions of GM and Chrysler were based “entirely”
                                            on Treasury’s written viability plan determination. Nor does the report state that
                                            Treasury “directed” GM and Chrysler to terminate specific dealers. Indeed, the
                                            report specifically stated otherwise. But to the extent that Treasury is trying to dis-
                                            claim any responsibility for the accelerated closing plans, its position strains credu-
                                            lity. Treasury rejected both companies’ initial restructuring plans, emphasizing (in
                                            writing to GM and orally to Chrysler) the importance to their long-term viability of
                                            accelerated dealership closings. Not surprisingly, particularly given that their ability
                                            to tap more TARP funds was contingent on Treasury’s approval of the restructur-
                                            ing plans, GM and Chrysler both responded by amending their plans to accelerate
                                            dealer closings in conformance with Treasury’s wishes. SIGTARP does not dispute
                                            Treasury’s claim that the prospect of a bankruptcy proceeding made accelerated
                                            dealership closings more attractive, but that concept was not the companies’ alone,
                                            and Treasury officials acknowledged to SIGTARP that they strongly encouraged the
                                            auto manufacturers to use bankruptcy to shed dealerships, in order to get around
                                            the laws that the states had enacted to protect these small businesses. In the words
                                            of an internal Auto Team memo concerning GM, the “team believes it is imperative
                                            that the company capitalize on the unique opportunity to reconfigure the dealer
                                            network outside the confines of restrictive state franchise laws.”

                                            •	 Treasury objects that SIGTARP failed to acknowledge the benefits of early
                                               implementation of planned dealership closings. It also disagrees with the criti-
                                               cism that the Auto Team embraced “not-universally-accepted” theories on the
                                               benefits of dealer terminations and did not perform explicit cost savings analyses
                                                                             quarterly report to congress I October 26, 2010   27




   before recommending acceleration of dealership closings. In Treasury’s view,
   SIGTARP chose to downplay an almost unanimous consensus among industry
   experts that GM and Chrysler should reduce their dealership networks while
   emphasizing the views of one or two experts who, in part, disagreed. Treasury
   notes that GM and Chrysler had planned dealership closures on their own, irre-
   spective of Treasury’s guidance, in order to improve brand equity, sales through-
   put, and the dealer network’s overall health. In Treasury’s view, it would have
   been irresponsible not to use the bankruptcy process as a quicker, less expensive
   way to effect reductions in their dealer networks.

    The audit report fully and accurately described the range of expert opinion on
the benefits and costs of dealership closings. Contrary to Treasury’s intimation, the
report acknowledged the “broad consensus” that GM and Chrysler, in a general
sense, needed to decrease the number of their dealerships. The report also noted,
as Treasury seems reluctant to concede, that there is important disagreement over
where, and how quickly, the cuts should have been made, and whether such cuts
were necessary to the viability of GM and Chrysler. As noted above, some experts,
as well as a former Chrysler deputy CEO, questioned whether it was appropri-
ate to apply to U.S. automakers a foreign model of fewer dealerships overall, with
a significantly reduced presence in smaller or rural markets (GM increased its
planned termination of rural dealerships from 475 to 714 in response to Treasury’s
reaction to its initial plan), particularly when the U.S. companies held a competi-
tive advantage in such markets. And, of course, even GM’s chairman and former
CEO believed that the cuts before reinstatement, which were made at Treasury’s
encouragement, might have been too drastic and “not necessary.” A more thought-
ful process from Treasury might have avoided such a conclusion.

•	 Treasury objects to SIGTARP’s observation that because GM and Chrysler
   offered to reinstate hundreds of dealerships after Congress passed mandatory
   arbitration legislation, the number and speed of the terminations were not nec-
   essarily critical to either company’s viability. Treasury contends that the report
   misunderstood the situation the companies faced after Congress acted, and
   notes that nearly 70% of the subsequent arbitration proceedings were decided in
   favor of the manufacturers.

    The arbitration statistics cited by Treasury are wholly unrelated to the funda-
mental point at issue — that the Auto Team failed to adequately justify its conclu-
sion that an aggressive acceleration of dealership terminations was necessary to
the manufacturers’ viability. That the manufacturers offered reinstatement to so
many dealers without any threat to their viability, whatever the reason, undermines
28   special inspector general I troubled asset relief program




                                            any such conclusion. In any event, Treasury’s citation to the results of termina-
                                            tion cases actually arbitrated is potentially misleading as well as irrelevant. Only
                                            170 of the 1,584 arbitration claims filed actually proceeded through arbitration to
                                            a ruling. The vast majority of filings (approximately 89%) were resolved in other
                                            ways, including offers of reinstatement and financial settlements accepted by the
                                            dealer. In light of these facts, it is not surprising that those few that were not of-
                                            fered reinstatement or settlements did not ordinarily succeed in arbitration. Given
                                            the number of dealerships reinstated without any apparent threat to the companies’
                                            viability, the previously noted opinion of GM’s chairman and former CEO that the
                                            initial cuts were likely too deep, and the current head of the Auto Team’s acknowl-
                                            edgment that the accelerated dealership closings, as with any other single factor,
                                            were not essential for viability, it is curious that Treasury still clings to the contrary
                                            opinion.

                                            •	 In Treasury’s view, SIGTARP unfairly concluded that Treasury should have done
                                               more to monitor the process that the automakers employed in implementing
                                               their dealership closure plans. Treasury asserts that its role, as mandated by the
                                               President, was to take a broad commercial approach to these restructurings
                                               and refrain from intervening in day-to-day decisions. This policy was intended
                                               to preserve the long-term viability of GM and Chrysler and their ability to repay
                                               the Government’s investment. In Treasury’s words, “[t]he Government’s role was
                                               not to run the companies.”

                                                Here again, Treasury misses the point. SIGTARP’s report did not suggest that
                                            Treasury should involve itself in examining individual closure decisions. Rather, it
                                            made the commonsense suggestion that Treasury, having put in motion an aggres-
                                            sive dealership closing plan, should have monitored the process by which closure
                                            decisions were made to ensure that the process was both fair and transparent.
                                            Doing so would hardly have been more invasive than the Auto Team’s approach to
                                            assessing the need to dramatically accelerate dealership closings, or a host of other
                                            business decisions, from plant closings to brand removal to leadership choices.
                                                Having examined Treasury’s objections, SIGTARP stands by its earlier findings.

                                            Ongoing Challenges and Guiding Principles Related to Government
                                            Assistance for Private-Sector Companies
                                            In response to a request by Senate Finance Committee Chairman Max Baucus,
                                            SIGTARP and GAO undertook a broad audit project examining corporate gover-
                                            nance issues related to companies receiving exceptional assistance under TARP. As
                                            part of this project, in June 2010 SIGTARP released an audit report, “Treasury’s
                                            Monitoring of Compliance with TARP Recipients by Companies Receiving
                                            Exceptional Assistance.” As the July 2010 Quarterly Report discusses in greater
                                                                              quarterly report to congress I October 26, 2010   29




detail, the report examined the extent to which Treasury follows a clear, consistent
and effective process to ensure that companies receiving exceptional TARP as-
sistance adhere to the requirements of their TARP agreements. A discussion of the
recommendations contained in that audit, and Treasury’s response, is contained in
Section 5: “SIGTARP Recommendations” in this report.
    As another part of this joint effort, in August 2010 GAO issued an audit report
entitled “Ongoing Challenges and Guiding Principles Related to Government
Assistance for Private-Sector Companies.” SIGTARP provided assistance to
GAO in connection with this audit report, which first described the Federal
Government’s wide range of ownership interests in recipients of exceptional as-
sistance under TARP and other initiatives, from owning preferred shares with no
general voting rights, to owning common shares with voting rights, to acting as a
conservator. The report also examined the level of Government involvement in the
companies, explaining that it too varied widely, from no material involvement to
requiring some combination of corporate restructuring, the submission of periodic
financial reports, and greater interaction with company personnel. The report also
discusses the steps the Government has taken to manage its investments and con-
sider exit strategies.
    Finally, the report identified lessons learned from interventions that might be
applied should the Government again face the prospect of having to intervene
in private markets to avert a systemic crisis. According to this GAO audit, the
Government could protect the taxpayer’s interest by not only continuing to fol-
low the principles previously identified by GAO (i.e., identifying and defining the
problem, determining a national interest and setting clear goals, and protecting the
Government’s and taxpayer’s interests) but also by adhering to the following five
additional principles:
    First, it is essential to develop a strategic and coordinated approach when com-
prehensive and global governmental action is required. Second, taking actions to
ensure that the Government has a strategy for managing any investments resulting
from its intervention is necessary to help mitigate perceived or potential conflicts
and manage external influences. Third, the Federal Government’s intervention in
private markets requires that those efforts be transparent and effectively communi-
cated. Fourth, establishing an adequate oversight structure to help ensure account-
ability is essential. And finally, taking steps to mitigate moral hazard will be neces-
sary not only to ensure that regulatory and market-based structures limit risk taking
before a crisis occurs, but also to create strong disincentives to seeking Federal
assistance through utilization of stringent requirements.

Audits Recently Completed and Underway
SIGTARP has ongoing audits on eight previously announced topics and expects to
issue those audit reports in the coming months. In addition, SIGTARP released a
new audit report shortly after the close of the quarter ending September 30, 2010.
30   special inspector general I troubled asset relief program




                                            Selecting Fund Managers for the Legacy Securities Public-Private
                                            Investment Funds (“PPIFs”)
                                            Issued on October 7, 2010, and undertaken at the request of Senator Claire
                                            McCaskill and Senator Robert Bennett, this audit reviewed the process Treasury
                                            followed to select fund managers to raise private capital for joint investment
                                            programs with Treasury through the Public-Private Investment Program (“PPIP”).
                                            It examined the criteria used by Treasury to select PPIF managers and minority
                                            partners, and the extent to which Treasury consistently applied established criteria
                                            when selecting fund managers and small, veteran-, minority-, and women-owned
                                            businesses. This audit report will be discussed in greater detail in SIGTARP’s next
                                            quarterly report to Congress.

                                            Status of the Federal Government’s Asset Guarantee Program with
                                            Citigroup Inc. (“Citigroup”)
                                            This review, requested by Representative Alan Grayson, is examining a series of
                                            questions about the Government’s guarantee of certain Citigroup assets through
                                            the Asset Guarantee Program (“AGP”) such as: (i) the basis for the decision to pro-
                                            vide Citigroup with additional Government assistance, including an additional $20
                                            billion in assistance to Citigroup through what would later be named the Targeted
                                            Investment Program (“TIP”); (ii) how the asset guarantee pool was determined; and
                                            (iii) the basis for the decision to permit Citigroup to terminate its AGP agreement
                                            and repay its TIP capital infusion, thereby freeing Citigroup from requirements of
                                            its TIP agreement.

                                            Office of the Special Master Decisions on Executive Compensation
                                            This audit is examining the decisions of the Office of the Special Master for TARP
                                            Executive Compensation on executive compensation at firms receiving exceptional
                                            TARP assistance. This audit assesses the criteria used by the Special Master to
                                            evaluate executive compensation and whether the criteria were applied consistently.

                                            Capital Purchase Program (“CPP”) Applications Receiving Conditional
                                            Approval
                                            This audit is examining those CPP applications that received preliminary approval
                                            from Treasury’s Investment Committee conditioned upon the institutions meet-
                                            ing certain requirements before funds were disbursed. One example was Colonial
                                            Bancgroup Inc. (“Colonial”), which received CPP approval conditioned on its
                                            raising $300 million in private capital but was later the center of a major SIGTARP
                                            fraud investigation. The audit assesses the basis for the decision to grant such con-
                                            ditional approvals and the bank regulators’ role in such decisions; whether and how
                                                                             quarterly report to congress I October 26, 2010         31




timeframes were established for meeting such conditions; and whether internal
controls were in place to ensure that the conditions were met before funds were
disbursed.

Term Asset-Backed Securities Loan Facility (“TALF”) Collateral
Monitors’ Valuation
This audit is examining the Federal Reserve’s basis for hiring collateral monitors for
the TALF program, the role of the collateral monitors, and the appropriateness of
the approved loan amounts.

Office of Financial Stability Contracting for Professional Services
Undertaken at the request of Senator Tom Coburn, this audit is examining the pro-
cesses Treasury uses to procure professional services in support of its management
of TARP, specifically those to ensure that contract prices are fair and reasonable
and that vendors’ invoices accurately reflect the work performed.

CPP Exit Strategy
This audit is examining the process that Treasury and the Federal banking regula-         For more information on HAMP, see
tors established for banks to repay Treasury and exit CPP.                                SIGTARP’s March 25, 2010, audit report
                                                                                          “Factors Affecting Implementation of the
                                                                                          Home Affordable Modification Program.”
Home Affordable Modification Program (“HAMP”) Internal Controls
Building on SIGTARP’s other audit work on HAMP, this audit is examining the
extent to which Treasury has established a system of internal controls for HAMP.
This audit will also review the reasons Treasury reported erroneous re-default
rates through June in its Servicer Performance Report and the corrective actions
Treasury is taking to help ensure that its future performance reports are accurate.

Application of the HAMP Net Present Value (“NPV”) Test
This audit, conducted in response to a request from Senator Jeff Merkley and eight
other Senators, is examining the following issues: (i) whether participating loan
servicers are correctly applying the NPV test under the program; (ii) the extent to
which Treasury ensures that servicers are appropriately applying the NPV test per
HAMP guidelines when assessing borrowers for program eligibility; and, (iii) the
procedures servicers follow to communicate to borrowers the reasons for NPV test
failure, as well as to identify the full range of loss mitigation options available to
such borrowers.

New Audits and Evaluations Underway
Over the past quarter, SIGTARP has announced three new audit and evaluation
projects.
32   special inspector general I troubled asset relief program




                                            Hardest-Hit Fund (“HHF”)
                                            Undertaken at the request of Representative Darrell Issa, this audit is examining (i)
                                            the extent to which Treasury applied consistent and transparent criteria, including
                                            applicable provisions of EESA, in selecting the states and programs to receive mon-
                                            ey under HHF; (ii) the extent to which Treasury has determined the programs to be
                                            funded by HHF are innovative as compared to existing federal and state programs;
                                            (iii) whether Treasury has put sufficient mechanisms in place to prevent waste,
                                            fraud and abuse in HHF; and (4) the goals and metrics Treasury has adopted and
                                            reported to the public for the operation of the HHF.

                                            Decision-Making Process Regarding Citigroup Deferred Tax Assets
                                            Undertaken at the request of Representative Dennis Kucinich, this evaluation is
                                            examining (i) the rationale behind Treasury’s decision to issue Notice 2010-2 (the
                                            “Notice”) regarding Internal Revenue Code Section 382, which limits the amount
                                            of net operating losses a corporation experiencing a change of ownership may use
                                            to offset future taxable income; (ii) whether Treasury was aware of the tax effect
                                            that may result from the Notice’s issuance; (iii) the identity of principal decision
                                            makers involved in issuing the Notice; and (iv) the extent to which Treasury’s policy
                                            to timely dispose of TARP investments factored into the issuance decision.

                                            Assessment of AIG Severance Payments
                                            At the request of Senator Charles Grassley, SIGTARP is conducting an evaluation
                                            and review of executive compensation regulations issued by Treasury as they relate
                                            to severance payments to certain former executives at AIG. Additionally, this evalu-
                                            ation is examining the circumstances of an alleged conflict of interest within the
                                            Office of the Special Master.

                                            SIGTARP Investigations Activity
                                            SIGTARP’s Investigations Division has developed into a leading white-collar inves-
                                            tigative agency. As of September 30, 2010, SIGTARP had 130 ongoing criminal
                                            and civil investigations, many in partnership with other law enforcement agencies.
                                            Since SIGTARP’s inception, its investigations have contributed to the recovery of
                                            $155.8 million and saved an estimated $555.2 million through fraud prevention.
                                            SIGTARP’s investigations concern suspected TARP fraud, accounting fraud, secu-
                                            rities fraud, insider trading, bank fraud, mortgage fraud, mortgage servicer miscon-
                                            duct, fraudulent advance-fee schemes, public corruption, false statements, obstruc-
                                            tion of justice, theft of trade secrets, money laundering, perjury to Congress, and
                                            tax-related investigations. While the majority of SIGTARP’s investigative activity
                                            remains confidential, over the past quarter there have been significant public devel-
                                            opments in several SIGTARP investigations.
                                                                              quarterly report to congress I October 26, 2010   33




Park Avenue Bank
On October 8, 2010, Charles Antonucci, the former president and chief executive
officer of Park Avenue Bank, pled guilty in the U.S. District Court for the Southern
District of New York to offenses including securities fraud, making false state-
ments to bank regulators, bank bribery, and embezzlement of bank funds. As noted
in SIGTARP’s Quarterly Report to Congress dated April 20, 2010, Antonucci was
arrested in March 2010 after attempting to steal $11 million of TARP funds by,
among other things, making fraudulent claims about the bank’s capital position.
With his guilty plea, Antonucci became the first defendant convicted of attempting
to steal from the taxpayers’ investment in TARP.
    Antonucci falsely represented that he had personally invested $6.5 million in
Park Avenue Bank to improve its capital position. However, the funds were actually
borrowed from the bank itself and reinvested as part of an undisclosed “round trip”
transaction. This fraudulent transaction was touted by the bank as evidence of its
supposedly improving capital position, a key factor that regulators consider when
awarding TARP funds. In addition, Antonucci made false representations to bank
regulators about the source of the $6.5 million. The ongoing SIGTARP investiga-
tion is being conducted in partnership with the Federal Bureau of Investigation
(“FBI”), U.S. Immigration and Customs Enforcement (“ICE”), the New York
State Banking Department Criminal Investigations Bureau, and the Office of the
Inspector General of the Federal Deposit Insurance Corporation (“FDIC OIG”).

Goldwater Bank, N.A. (“Goldwater”)
On September 15, 2010, Goldwater, located in Scottsdale, Arizona, entered into a
settlement agreement with the U.S. Attorney’s Office for the Southern District of
New York requiring it to forfeit $733,805 to resolve civil forfeiture claims related to
Goldwater’s alleged laundering of illegal online gambling proceeds. Goldwater had
received approximately $2.6 million from Treasury through CPP. Between January
and May 2009, more than $13.3 million in funds traceable to offshore online
gambling companies were deposited in a bank account at Goldwater held by Allied
Wallet, Inc. The forfeiture amount equaled the net income that Goldwater received
to process these transactions. Additionally, in order to safeguard the Government’s
continued TARP investment in the bank, Goldwater agreed to develop and imple-
ment internal anti-money laundering procedures, to comply with the Bank Secrecy
Act, and to create internal training programs and an independent audit function
to ensure that its compliance is effective. SIGTARP jointly investigated Goldwater
with the FBI and the U. S. Attorney’s Office for the Southern District of New York.
34   special inspector general I troubled asset relief program




                                            American Home Recovery (“AHR”)
                                            On August 11, 2010, the U.S. District Court for the Southern District of New
                                            York unsealed a grand jury indictment charging Jaime Cassuto, David Cassuto, and
                                            Isaak Khafizov, the principals of American Home Recovery, a mortgage modification
                                            company located in New York City, with one count of conspiracy to commit mail
                                            and wire fraud, one count of wire fraud, and two counts of mail fraud, all relating
                                            to a mortgage modification scam. The indictment also included a forfeiture allega-
                                            tion that would require forfeiture of proceeds obtained as a result of the offenses.
                                                As previously reported, the defendants were arrested by Special Agents
                                            from SIGTARP and the FBI as part of the Department of Justice’s nationwide
                                            “Operation Stolen Dreams” mortgage fraud sweep. According to the indictment,
                                            the defendants perpetrated a scheme to defraud homeowners using mailings and
                                            telemarketing efforts. Through these channels, it is alleged that the defendants,
                                            through AHR, falsely promised to assist desperate homeowners by negotiating with
                                            banks to modify the terms of their mortgages in exchange for upfront fees of several
                                            thousand dollars. In fact, the indictment alleges, AHR did little or no work to
                                            modify the mortgages. Through their scheme, the defendants obtained more than
                                            $500,000 from homeowners throughout the country, according to the indictment.
                                                The indictment further alleges that one of the defendants, Khafizov, directed
                                            AHR salespeople to falsely inform prospective clients that AHR had an 80%-90%
                                            success rate in securing modification of clients’ mortgages and that AHR would
                                            issue a full refund of the upfront fee to any client whose mortgage was not success-
                                            fully modified by AHR. In addition, it is charged that the AHR salespeople falsely
                                            represented to homeowners that AHR would ensure their participation in the
                                            TARP-funded Making Home Affordable (“MHA”) program. Finally, AHR sales-
                                            people falsely advised homeowners that they were more likely to obtain a mortgage
                                            modification from their bank if they fell further behind on their mortgage payments
                                            and/or stopped making payments to their bank entirely, and sent their money to
                                            AHR instead, the indictment alleges. The case is pending. This ongoing SIGTARP
                                            investigation is being conducted in partnership with the FBI.

                                            Nations Housing Modification Center (“NHMC”)
                                            On July 20, 2010, Roger Jones was arrested by Federal agents in Las Vegas pursu-
                                            ant to his June 18, 2010, indictment in the U.S. District Court for the Southern
                                            District of California. Jones was charged with providing false statements to
                                            SIGTARP agents and conspiracy to commit wire fraud.
                                                The charges relate to Jones’ alleged participation in an advance fee scheme not-
                                            ed in previous SIGTARP quarterly reports. According to his indictment, Jones and
                                            others took criminal advantage of the publicity surrounding the Administration’s
                                            mortgage modification efforts under the MHA program. Operating companies
                                            under the names “Nations Housing Modification Center” or “Federal Housing
                                            Modification Department,” they used fraudulent statements and representations to
                                                                             quarterly report to congress I October 26, 2010   35




induce customers to pay $2,500 ­– $3,000 to purchase loan modification services
that were never delivered, according to the charges. For example, the indictment
alleges that they mailed solicitation letters in envelopes that deceptively bore a
Capitol Hill return address (in fact merely a post office box) and that were designed
to mimic official Federal correspondence. It is alleged in court documents that the
fraud grossed more than $1 million. Finally, the indictment claims that Jones, the
sales manager for NHMC, attempted to extort money out of another co-conspira-
tor, claiming he would lie to the grand jury to help him.
    As previously reported, Glenn Steven Rosofsky and Michael Trap have pled
guilty in connection with this case. Trap pled guilty in March 2010 to conspiracy to
commit fraud and money laundering. Rosofsky pled guilty in June 2010 to offenses
including money laundering, conspiracy to commit wire fraud, and filing a false
tax return. This case was jointly investigated with the Internal Revenue Service-
Criminal Investigation (“IRS CI”) and the Federal Trade Commission, as well as
the San Diego District Attorney’s Office and the U. S. Attorney for the Southern
District of California.

Mount Vernon Money Center (“MVMC”)
On September 15, 2010, Robert Egan, president of Mount Vernon Money Center,
pled guilty to conspiracy to commit bank fraud and wire fraud. On October 13,
2010, Bernard McGarry, the chief operating officer, pled guilty to the same of-
fenses. The guilty pleas arose from a scheme in which Egan and McGarry defraud-
ed MVMC clients, including banks that had received TARP funds, out of more
than $50 million that had been entrusted to MVMC. MVMC engaged in various
cash management businesses, including replenishing cash in more than 5,300
automated teller machines owned by financial institutions. From 2005 through
February 2010, Egan and McGarry solicited and collected hundreds of millions
of dollars from MVMC’s clients on the false representations that they would not
co-mingle clients’ funds or use the funds for purposes other than those specified in
the various contracts with their clients. Relying upon the continual influx of funds,
Egan and McGarry misappropriated the clients’ funds for their and MVMC’s own
use, to cover operating expenses of the MVMC operating entities, to repay prior
obligations to clients, or for their own personal enrichment. This case was jointly
investigated by SIGTARP, the FBI and the U.S. Attorney’s Office for the Southern
District of New York.

Colonial/Lee Bentley Farkas
As described in greater detail in the July 2010 Quarterly Report, Lee Bentley Farkas
was charged in the Eastern District of Virginia in a 16-count indictment that includ-
ed charges relating to his alleged role in attempting to steal $553 million from TARP
through the fraudulent application of Colonial BancGroup, Inc. (“Colonial”). Farkas
36   special inspector general I troubled asset relief program




                                            was also charged by the Securities and Exchange Commission (“SEC”) in a civil
                                            complaint with violations of the antifraud, reporting, internal controls, and books
                                            and records provisions of Federal securities laws in connection with, among other
                                            things, the alleged false claims intended to cause Treasury to disburse $553 million
                                            in TARP funds to Colonial. The Office of the Inspector General for the Department
                                            of Housing and Urban Development (“HUD OIG”) estimated that HUD losses
                                            from the alleged scheme (including payments that had to be made based on
                                            Federal Housing Agency guarantees) may be in excess of $3 billion; the FDIC
                                            estimated that depositor insurance fund losses from Colonial’s failure, to which the
                                            scheme allegedly contributed, will be approximately $2.8 billion. Notwithstanding
                                            Colonial’s initial conditional approval to receive $553 million in TARP funds,
                                            SIGTARP ensured that Treasury disbursed no TARP funds to Colonial, thereby
                                            avoiding any TARP losses.
                                                On September 28, 2010, at SIGTARP’s request, Treasury formally suspended
                                            Farkas from participation in United States Government programs and activities.
                                            The suspension precludes Farkas “from participating in transactions with the U.S.
                                            Government, including grants, loans and loan guarantees, and from acting as a
                                            principal of an organization participating in such transactions.”

                                            Omni National Bank (“Omni”)
                                            Omni was a national bank headquartered in Atlanta. Omni failed and was taken
                                            over by the FDIC on March 27, 2009. Prior to its failure, Omni applied for, but did
                                            not receive, TARP funding. As part of a mortgage fraud task force that also in-
                                            cluded the U.S. Attorney’s Office for the Northern District of Georgia, FDIC OIG,
                                            HUD OIG, the U.S. Postal Inspection Service (“USPIS”), and FBI, SIGTARP
                                            participated in several investigations concerning Omni that led to criminal charges.
                                            SIGTARP’s involvement, including an examination into whether the various frauds
                                            had an impact on Omni’s CPP application, is ongoing.
                                                As a result of the investigation, on August 3, 2010, Brent Merriell was sen-
                                            tenced to three years and three months in prison for his role in a scheme to prompt
                                            Omni to forgive $2.2 million in loans. Merriell had previously pled guilty to charges
                                            of making false statements to the FDIC and six counts of aggravated identity theft
                                            in connection with the scheme. In addition to Merriell, Mark Anthony McBride,
                                            Christopher Loving, and Delroy Davy have pled guilty in connection with this case
                                            to mortgage fraud, making false statements to SIGTARP Special Agents, and bank
                                            fraud and conspiracy charges, respectively. Additionally, Jeffrey Levine, Omni’s
                                            former executive vice president, pled guilty in January 2010 to charges of causing
                                            material overvaluations in the books, reports, and statements that were later sub-
                                            mitted as part of Omni’s TARP application.
                                                                              quarterly report to congress I October 26, 2010   37




SIGTARP Hotline
One of SIGTARP’s primary investigative priorities is to operate the SIGTARP
Hotline and thus provide a simple, accessible way for the American public to
report concerns, allegations, information, and evidence of violations of criminal
and civil laws in connection with TARP. From its inception in February 2009
through September 30, 2010, the SIGTARP Hotline received and analyzed more
than 20,000 Hotline contacts. These contacts run the gamut from expressions
of concern over the economy to serious allegations of fraud involving TARP, and
a substantial number of SIGTARP’s investigations were generated in connection
with Hotline tips. The SIGTARP Hotline can receive information anonymously.
SIGTARP honors all applicable whistleblower protections and will provide con-
fidentiality to the fullest extent possible. SIGTARP urges anyone aware of waste,
fraud, or abuse involving TARP programs or funds, whether it involves the Federal
Government, state and local entities, private firms, or individuals, to contact its
representatives at 877-SIG-2009 or www.sigtarp.gov.

Communications with Congress
One of the primary functions of SIGTARP is to ensure that members of Congress
remain adequately and promptly informed of developments in TARP initiatives and
of SIGTARP’s oversight activities. To fulfill that role, the Special Inspector General
and his staff meet regularly with and brief members and Congressional staff. Over
the past quarter:
•	 On July 19 and 20, 2010, SIGTARP Chief of Staff Christy Romero presented
   open briefings for Senate and House staff, respectively. The focus of the brief-
   ings was the July 2010 Quarterly Report.
•	 On July 21, 2010, Special Inspector General Neil Barofsky testified at a hear-
   ing before the Senate Committee on Finance. The title of the hearing was “An
   Update on the TARP Program.” Special Inspector General Barofsky’s testimony
   covered the July 2010 Quarterly Report, which included an update on the prog-
   ress of the TARP programs, SIGTARP’s efforts to bring transparency and ac-
   countability to TARP, and a description of SIGTARP’s role in bringing to justice
   those who sought to take criminal advantage of the TARP. His testimony also
   discussed SIGTARP’s audit report, “Factors Affecting the Decisions of General
   Motors and Chrysler to Reduce their Dealership Networks.”

    Copies of the written testimony, hearing transcripts, and a variety of other mate-
rials associated with Congressional hearings since SIGTARP’s inception are posted
at www.sigtarp.gov/reports.
38   special inspector general I troubled asset relief program




                                            Constitutionality of the Special Master
                                            On November 2, 2009, SIGTARP sent a letter to Treasury inquiring about the
                                            constitutionality of its appointment of the Special Master for TARP Executive
                                            Compensation (“the Special Master”), pursuant to the Interim Final Rule on TARP
                                            Standards for Compensation and Corporate Governance. Treasury responded to
                                            SIGTARP’s request on March 26, 2010, but it did not fully resolve SIGTARP’s con-
                                            cerns. As a result, on April 9, 2010, SIGTARP asked that Treasury elaborate on its
                                            authority to review the actions of the Special Master. By letter dated July 29, 2010,
                                            Treasury responded to SIGTARP’s supplemental request, but again did not resolve
                                            SIGTARP’s concerns. Accordingly, on August 20, 2010, SIGTARP submitted to
                                            the Office of Legal Counsel (“OLC”), Department of Justice, a request for a legal
                                            opinion concerning whether the Special Master is a principal officer under the
                                            Appointments Clause of the United States Constitution. The General Counsel of
                                            the Treasury Department has joined in the request. (A copy of SIGTARP’s request
                                            and Treasury’s correspondence is attached in Appendix H: “Correspondence.”) As of
                                            the drafting of this report, OLC has not yet issued its opinion.



                                            THE SIGTARP ORGANIZATION
                                            From the day that the Special Inspector General was confirmed by the Senate,
                                            SIGTARP has worked to build its organization through various complementary
                                            strategies, leveraging the resources of other agencies, and, where appropriate
                                            and cost-effective, obtaining services through SIGTARP’s authority to contract.
                                            SIGTARP continues to make substantial progress in building its operation.

                                            Hiring
                                            As of September 30, 2010, SIGTARP had 135 full-time personnel, including
                                            two detailees from other agencies. SIGTARP’s employees hail from many Federal
                                            agencies, including the Department of Justice, FBI, IRS CI, Air Force Office of
                                            Special Investigations, GAO, Department of Transportation, Department of Energy,
                                            SEC, U.S. Secret Service, U.S. Postal Service, U.S. Army Criminal Investigation
                                            Command, Naval Criminal Investigative Service, Treasury-Office of the Inspector
                                            General, Department of Energy-Office of the Inspector General, Department of
                                            Transportation-Office of the Inspector General, Department of Homeland Security-
                                            Office of the Inspector General, FDIC OIG, Office of the Special Inspector
                                            General for Iraq Reconstruction, and HUD OIG. SIGTARP employees also hail
                                            from various private-sector businesses and law firms. Hiring is actively ongoing.
                                            The SIGTARP organizational chart, as of September 30, 2010, is included in
                                            Appendix I: “Organizational Chart.”
                                                                             quarterly report to congress I October 26, 2010                       39




Budget
Section 121(g) of EESA provided SIGTARP with $50 million in initial operating
funds. In the late spring of 2009, SIGTARP determined that its initial operating          Figure 1.1
funds would be expended during fiscal year 2010 and that additional resources
would be needed to fund operations fully. Accordingly, on June 3, 2009, SIGTARP            SIGTARP FY 2010 ACTUALS
                                                                                           ($ MILLIONS, PERCENTAGE OF $33.5 MILLION)
submitted to Treasury — which forwarded to the Office of Management and
Budget — a request for an amendment of Treasury’s 2010 budget request in the                     Other Services
                                                                                                        $1.2, 4%
amount of $23.3 million. The Consolidated Appropriations Act of 2010, Public              Advisory Services
                                                                                                      $4.6
Law 111-117, provided SIGTARP with the requested $23.3 million.
    In addition, $15 million in funds was made available from PPIP by Public Law                        14%
111-22, which SIGTARP expects to spend over multiple years. These resources are                                                    Salaries and
not designated for general SIGTARP operations but for specific activities carried                                           51%    Benefits $17.0

out by SIGTARP’s audit and investigations teams to ensure that securities bought                       29%

by the PPIFs are purchased in arm’s-length transactions and that conflict of inter-
est rules on managers of these funds are followed.
                                                                                               Interagency           Travel/Transportation
    In fiscal year 2009, SIGTARP expended $19.6 million, and in fiscal year               Agreements $9.8            $0.9, 2%
2010, SIGTARP expended approximately $33.5 million. Approximately 51% of
SIGTARP’s budget is for personnel costs and 29% for services provided by other
governmental agencies, as noted in the breakdown of 2010 funding provided by              Figure 1.2

Figure 1.1.                                                                               SIGTARP FY 2011 PROPOSED
     On February 2, 2010, the Administration submitted to Congress Treasury’s             BUDGET
                                                                                          ($ MILLIONS, PERCENTAGE OF $54.6 MILLION)
fiscal year 2011 budget request, which includes SIGTARP’s full initial request for
$49.6 million. Figure 1.2 provides a detailed breakdown of SIGTARP’s fiscal year                       Other Services
2011 budget, which reflects a projected spending plan of $54.6 million.                                      $2.5, 5%
                                                                                               Advisory Services
                                                                                                           $7.4

Physical and Technical SIGTARP Infrastructure                                                                 14%
SIGTARP occupies office space at 1801 L Street, NW, in Washington, D.C., the
                                                                                                                                        Salaries
same office building in which most Treasury officials managing TARP are located.                                                  59%   and
                                                                                                          20%                           Benefits
To facilitate more efficient and effective investigative activities across the nation,                                                  $32.3
SIGTARP has also opened regional offices in New York City, Los Angeles, San
Francisco and Atlanta.
    SIGTARP has a website, www.SIGTARP.gov, on which it posts all of its reports,               Interagency         Travel/Transportation
                                                                                          Agreements $11.0          $1.4, 2%
testimony, audits, contracts, and more. Since its inception, SIGTARP’s website has
had more than 48 million web “hits,” and there have been nearly 2.8 million down-
loads of SIGTARP’s quarterly reports, which are available on the site.2
    The website prominently features SIGTARP’s Hotline, which can also be ac-
cessed by phone at 877-SIG-2009 (877-744-2009).
40   special inspector general I troubled asset relief program
section 2   tarp overview
42   special inspector general I troubled asset relief program
                                                                              quarterly report to congress I OCTOBER 26, 2010         43




This section summarizes how the U.S. Department of the Treasury (“Treasury”) has
managed the Troubled Asset Relief Program (“TARP”). This section also reviews
TARP’s overall finances, provides updates on established TARP component pro-
grams, and gives the status of TARP executive compensation restrictions.



TARP Funds Update
Because TARP investment authority expired on October 3, 2010, no new
obligations may be made with TARP funds. However, dollars that have already                    Obligation: Definite commitment that
been obligated to existing programs may still be expended. As of October 3, 2010,              creates a legal liability for the
$474.8 billion had been obligated to 13 announced programs. Of this amount,                    Government to pay funds.
$387.8 billion had already been spent and $82.0 billion remains as obligated and
available to be spent. Also, $5.0 billion was obligated under the Asset Guarantee
Program (“AGP”), but was not expended and is unavailable for further use.3
    Initial authorization for TARP funding came through the Emergency Economic
Stabilization Act of 2008 (“EESA”), which was signed into law on October 3, 2008.
EESA appropriated $700 billion to “restore liquidity and stability to the financial
system of the United States.”4 On December 9, 2009, the Secretary of the Treasury
(“Treasury Secretary”) exercised the powers granted him under Section 120(b) of
EESA and extended TARP through October 3, 2010.5 In accordance with Section
106(e) of EESA, Treasury may expend TARP funds after October 3, 2010, as long
as it does so pursuant to obligations entered into before that date.6
    The Dodd-Frank Wall Street Reform and Consumer Protection Act (“Dodd-
Frank Act”), which became law (P.L. 111-203) on July 21, 2010, amended the
timing and amount of TARP funding.7 The upper limit of the Treasury Secretary’s
authority to purchase and guarantee assets under TARP was reduced to $475 bil-
lion from the original $700 billion available. The Dodd-Frank Act further provided
that Treasury could not use repayments to increase its total purchasing authority
and that no new obligations could be made for any program or initiative not in exis-
tence as of June 25, 2010.8 Existing investments and obligations made under TARP
were permitted through October 3, 2010, as long as the overall cost did not exceed
$475 billion. Under the Dodd-Frank Act, obligated but not expended TARP money
could still be expended. In addition, according to Treasury, new obligations for
programs that had been announced prior to July 25, 2010 (such as the previously
announced Community Development Capital Initiative [“CDCI”]) could be made,
up to the new overall $475 billion limit, until the expiration of Treasury’s ability to
obligate TARP funds on October 3, 2010.9
44   special inspector general I troubled asset relief program




                                               Treasury has reduced the final obligation amounts to the TARP programs from
                                            their original commitments as follows:10

                                            •	 Term Asset-Backed Securities Loan Facility (“TALF”) — reduced obligation
                                               from $20 billion to approximately $4.3 billion
                                            •	 Unlocking Credit for Small Businesses (“UCSB”) — reduced commitment from
                                               $15 billion to $380 million
                                            •	 Public-Private Investment Program (“PPIP”) — reduced commitment from
                                               $30 billion to approximately $22.4 billion to the Public-Private Investment
                                               Funds (“PPIFs”)
                                            •	 Automotive Industry Financing Program (“AIFP”) — reduced commitment
                                               from $84.8 billion to $81.8 billion, including Auto Supplier Support Program
                                               (“ASSP”) and Auto Warranty Commitment Program (“AWCP”)
                                            •	 Making Home Affordable (“MHA”) Program/Home Affordable Modification
                                               Program (“HAMP”) — reduced commitment from $50 billion to $45.6 billion

                                                With the expiration of TARP funding authorization, no new expenditures
                                            may be made through the Capital Purchase Program (“CPP”), Capital Assistance
                                            Program (“CAP”), Targeted Investment Program (“TIP”), Asset Guarantee Program
                                            (“AGP”), ASSP, AWCP, or CDCI, because all obligated dollars have been spent.
                                            For six programs — HAMP, Systemically Significant Failing Institutions (“SSFI”),
                                            TALF, PPIP, UCSB, and AIFP — any dollars remaining as obligated but unspent
                                            as of October 3, 2010, are available to be expended up to the obligated amount.
                                            No new obligations can be made for TARP programs. Table 2.1 provides a program
                                            breakdown of obligations, expenditures, and obligations available to be spent. Table
                                            2.1 lists 10 subprograms, instead of all 13, because it excludes CAP, which was
                                            never funded, and because ASSP and AWCP are included under AIFP.
                                                                                                                                quarterly report to congress I OCTOBER 26, 2010   45




Table 2.1

Obligations, Expenditures, and Obligations Available
for Expenditure ($ Billions)

                                                                                                                       Available to Be
Program Name                                                   Obligationa                   Expenditurea                       Spent
CPP                                                                 $204.9                           $204.9                          $0.0
AIFP  b
                                                                        81.8                             79.7                          2.1
SSFI                                                                    69.8                             47.5                        22.3
HAMP                                                                    45.6                               0.6                       45.0
TIP                                                                     40.0                             40.0                          0.0
PPIP                                                                    22.4                             14.2                          8.2c
AGP                                                                       5.0                              0.0d                        0.0d
TALF                                                                      4.3                              0.1                         4.2
UCSB                                                                      0.4                              0.2                         0.2e
CDCI                                                                      0.6                              0.6                         0.0f
Total                                                               $474.8                          $387.8                         $82.0g

Notes: Numbers may not total due to rounding.
a
  Obligation figures as of October 3, 2010, and expenditure figures as of September 30, 2010.
b
  AIFP includes $0.6 billion for AWCP and $0.4 billion for ASSP.
c
  Total obligation of $22.4 billion and expenditure of $14.2 billion for PPIP includes $356 million of the initial obligation to TCW that was
  funded. The $356 million was paid to TCW, and TCW subsequently repaid the funds that were invested in its PPIF; however, these
  dollars are not available to be spent.
d
  AGP did not have an actual outlay of cash.
e
  UCSB obligation amount of $380 million. As of September 30, 2010, a total of $241 million in purchases have settled for UCSB. The
  remaining dollars are attributed to purchases that have not settled as of September 30, 2010.
f
  CDCI obligation amount of $570 million. There are no remaining dollars to be spent on CDCI. Of the total obligation, approximately
  $360 million was related to CPP conversions and approximately $210 million was related to expenditures for new TARP participants or
  as an additional investment in the CPP conversions.
g
  The $5.0 billion reduction in exposure under AGP is not included in the expenditure total since this amount was not an actual cash
  outlay, as stated in Note d.

Sources: Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, response to
SIGTARP data call, 10/8/2010; Treasury, response to SIGTARP data call, 10/13/2010; Treasury, response to SIGTARP data call,
10/14/2010; Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010, accessed 10/7/2010; Treasury, response to SIGTARP
data call, 10/21/2010.


    In August 2009, the Office of Management and Budget (“OMB”) estimated
that TARP would ultimately cost the Government $341 billion.11 Since then, that
estimate has been adjusted downward several times. On February 1, 2010, OMB
estimated that TARP would cost $117 billion, excluding administrative costs and
interest effects.12 As of the drafting of this report, OMB has not updated this esti-
mate. On August 19, 2010, the Congressional Budget Office (“CBO”) reduced its
estimate of TARP’s overall cost from $109 billion to $66 billion, but did not provide
a breakdown of the costs by TARP program. CBO attributed the reduced estimate
to three factors: “further repurchases of preferred stock and sales of warrants from
banks, a lower estimated cost for assistance to the automobile industry, and the
elimination (due to the passage of time and provisions of the Dodd-Frank Wall
Street Reform and Consumer Protection Act, P.L. 111-203) of the opportunity to
create new programs.”13 Most recently, on September 30, 2010, Treasury lowered
its cost estimate to approximately $51 billion. Treasury’s most recent estimate
46   special inspector general I troubled asset relief program




                                            Table 2.2

                                            Cost (Gain) of TARP Programs                              ($ Billions)
                                                                                                                     CBO                     OMB                       Treasury
                                            Program Name                                                        Estimatea               Estimateb                      Estimate
                                            Systemically Significant Failing
                                                                                                                         $—                     $50                              $5c
                                            Institutions
                                            Automotive Industry Financing Program                                         —                       31                              17
                                            Housing Programs                                                              —                       49                              46
                                            Remaining TARP Funds                                                          —                         3                             —
                                            Cumulative Other                                                              —                       (6)                        (17)d
                                            Total                                                                       $66                   $127                               $51

                                            Notes: Numbers may not total due to rounding.
                                            a
                                              CBO stated that it was unable to provide SIGTARP a program-by-program breakdown for publication.
                                            b
                                              Includes administrative costs and interest effects of $9.9 billion.
                                            c
                                              For a description of Treasury’s valuation methodology, see “AIG Repayment Plan” in this section.
                                            d
                                              The $17.0 billion gain includes $16.0 billion estimated for TARP bank programs and $1.0 billion estimated for TARP credit market
                                              programs.

                                            Sources: CBO Estimate: Congressional Budget Office, Director’s Blog, “CBO Releases Its Annual Summer Update of the Budget and
                                            Economic Outlook: CBO’s Latest Projections for the TARP,” 8/20/2010, http://cboblog.cbo.gov/?p=1322, accessed 8/23/2010; CBO,
                                            response to SIGTARP data call, 10/1/2010; OMB Estimate: Congressional Budget Office, “Report on the Troubled Asset Relief Pro-
                                            gram—March 2010,” March 2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf, accessed 6/24/2010; Treasury Estimate:
                                            Treasury, response to SIGTARP data call, 10/7/2010.




                                            included a change in the methodology that it previously used to calculate losses for
                                            its assistance to American International Group, Inc. (“AIG”).14
                                                TARP losses are expected to stem mainly from assistance it provided to strug-
                                            gling homeowners, the automotive industry, and AIG.15 These figures are listed in
                                            Table 2.2.

                                            Resignation of Assistant Secretary Allison
                                            On September 22, 2010, Herbert Allison, Treasury’s Assistant Secretary for
                                            Financial Stability, announced that he was stepping down. Mr. Allison was respon-
                                            sible for overseeing TARP and developing and managing Treasury’s policies affect-
                                            ing financial stability, including legislative and regulatory issues. On September
                                            30, 2010, Tim Massad took over as the acting Treasury Assistant Secretary for
                                            Financial Stability. Mr. Massad previously served as the Chief Counsel and Chief
                                            Reporting Officer for the Office of Financial Stability.16



                                            Financial Overview of TARP
                                            The July 21, 2010, enactment of the Dodd-Frank Act reduced TARP’s maximum
                                            investment authority from $698.8 billion to $475.0 billion.17 The $698.8 billion
                                            represented the initial $700 billion authorized for TARP by EESA less a $1.2 bil-
                                            lion reduction as a result of the Helping Families Save Their Homes Act of 2009.18
                                                                                quarterly report to congress I OCTOBER 26, 2010                                 47




                                                                                              Figure 2.1
Treasury has obligated $474.8 billion of the $475.0 billion. Of the total obligations,         CUMULATIVE TARP OBLIGATIONS,
$387.8 billion was expended as of September 30, 2010, through 13 announced                     EXPENDITURES, REPAYMENTS AND
programs intended to support U.S. financial institutions, companies, and individual            REDUCTIONS IN EXPOSURE
                                                                                               $ BILLIONS
mortgage borrowers.19
     As of September 30, 2010, 122 TARP recipients had repaid all or a portion of
                                                                                              $500
their principal or repurchased their shares, for a total of $204.4 billion returned to
                                                                                                         $474.8
Treasury and a $5.0 billion reduction in Government exposure.20 As of September                 400
30, 2010, $178.4 billion of TARP funds remain outstanding, and $82.0 billion is                                              $387.8               $209.4
                                                                                                300
still available to be spent.21
     Figure 2.1 provides a snapshot of the cumulative obligations, expenditures,                200
repayments, and exposure reductions.
                                                                                                100
     Treasury has also collected interest and dividends on its investments, as well as
revenue from the sale of its warrants, all of which went toward deficit reduction
and cannot be re-issued by Treasury.22 As of September 30, 2010, the Government                        TARP                 TARP                TARP
                                                                                                       Obligationsa         Expendituresb       Repayments
had received $21.8 billion in interest, dividends, and other income and approxi-                                                                and
mately $10.2 billion in proceeds from the sale of warrants and stock received as a                                                              Reductions
                                                                                                                                                in Exposurec
result of exercised warrants.23
                                                                                               Notes: Numbers may not total due to rounding. Obligations
     Most of the outstanding TARP money is in the form of equity ownership in                  reported as of 10/3/2010. Expenditures and repayments
                                                                                               and reductions in exposure reported as of 9/30/2010.
troubled, or previously troubled, companies. Treasury (and therefore the taxpayer)             a
                                                                                                 Treasury experienced a $2.6 billion loss on some
                                                                                                 investments under the Capital Purchase Program (“CPP”).
remains a shareholder in companies that have not paid back the Government.                     b
                                                                                                 Expenditure total does not include $5.0 billion for AGP as
                                                                                                 this amount was not an actual cash outlay.
Treasury’s equity ownership is largely in two forms — common and preferred stock               c
                                                                                                 Repayments include $152.8 billion for CPP, $40.0 billion for
                                                                                                 TIP, $11.2 billion for auto programs, $0.4 billion for PPIP,
— although it also has received debt in the form of senior subordinated debentures.              and a $5.0 billion reduction in exposure under AGP. The
                                                                                                 $5.0 billion reduction in exposure under AGP is not included
     TARP consisted of 13 announced programs, all of which are closed to new                     in the expenditure total since this amount was not an actual
                                                                                                 cash outlay, as stated in Note b.
investment, although, as noted above, under six ongoing programs, a number of
                                                                                               Sources: Treasury, Transactions Report, 9/30/2010;
TARP recipients will still be able to draw down up to $82.0 billion in already obli-           Treasury, response to SIGTARP data call, 10/7/2010;
                                                                                               Treasury, response to SIGTARP data call, 10/8/2010;
gated TARP funds.24                                                                            Treasury, response to SIGTARP data call, 10/13/2010;
                                                                                               Treasury, response to SIGTARP data call, 10/14/2010;
                                                                                               Treasury, TARP/Financial Stability Plan Budget Table,
                                                                                               10/4/2010, accessed 10/7/2010.




Warrant: Right, but not obligation, to       Common Stock: Equity ownership entitling       Senior Subordinated Debenture: Debt
purchase a certain number of shares          an individual to share in corporate earnings   instrument ranking below senior debt but
of common stock at a predetermined           and voting rights.                             above equity with regard to investors’
price. Because warrants rise in value as a                                                  claims on company assets or earnings.
company’s share price rises, as a warrant    Preferred Stock: Equity ownership that         Senior debt holders are paid in full before
holder Treasury (and the taxpayer) can       usually pays a fixed dividend prior to         subordinated debt holders are paid. There
benefit from a firm’s potential recovery.    distributions for common stock owners          may be additional distinctions of priority
                                             but only after payments due to holders of      among subordinated debt holders.
                                             debt and depositors. It typically confers
                                             no voting rights. Preferred stock also has
                                             priority over common stock in the distribu-
                                             tion of assets when a bankrupt company is
                                             liquidated.
48                 special inspector general I troubled asset relief program




     Figure 2.2
                                                                             The programs fall into four categories, depending on the type of assistance
     TARP OBLIGATIONS OUTSTANDING,
     REPAYMENTS, AND REDUCTIONS IN                                       offered:
     EXPOSURE BY SUPPORT CATEGORY
     $ BILLIONS
                                                                         •	 Homeowner Support Programs — These programs are intended to help
                                                                            homeowners having trouble paying their mortgages by subsidizing loan
 $300                       $197.8
                                                                            modifications, loan servicer costs, potential equity declines, and incentives for
     250
                                                                            foreclosure alternatives.
     200                                                                 •	 Financial Institution Support Programs — These programs shared a common
     150                                                                    stated goal of stabilizing financial markets and improving the economy.
     100                    $122.6
                                                          $11.2
                                                                         •	 Asset Support Programs — These programs attempted to support asset values
       50                                   $0.4
                                                          $70.5
                                                                            and market liquidity by providing funding to certain holders or purchasers of
                                           $26.7                            assets.
             $45.6
        0
            Homeowner Financial   Asset                  Automotive      •	 Automotive Industry Support Programs — These programs were intended to
            Support   Institution Support                Industry
            Programa  Support     Programsc              Support            stabilize the American automotive industry and promote market stability.
                      Programsb                          Programsd

                Obligations Outstanding
                                                                            Figure 2.2 shows how TARP funding is distributed among the four program
                Repayments and Reductions in Exposure                    categories.

     Notes: Numbers may not total due to rounding. Obligations as of
     10/3/2010, and repayments as of 9/30/2010.
     a
       Includes MHA.
                                                                         Homeowner Support Programs
     b
       Includes CPP, CDCI, SSFI, TIP, and AGP. Repayments include        The stated purpose of TARP’s homeowner support programs is to help homeown-
       $152.8 billion for CPP, $40 billion for TIP, and a $5 billion
       reduction in exposure under AGP.                                  ers and financial institutions holding troubled housing-related assets. Although
     c
       Includes TALF, PPIP, and UCSB. Repayments include
       $428 million for PPIP.                                            Treasury originally committed to use $50 billion in TARP funds, it only obligated a
     d
       Includes AIFP, ASSP, and AWCP. Repayments include
       $10.2 billion for AIFP, $413 million for ASSP, and $641 million   total of $45.6 billion for these programs.25
       for AWCP.

     Sources: Treasury, Transactions Report, 9/30/2010; Treasury,
     response to SIGTARP data call, 10/7/2010.                           •	 Making Home Affordable (“MHA”) Program — According to Treasury, this
                                                                            foreclosure mitigation effort should “help bring relief to responsible homeown-
                                                                            ers struggling to make their mortgage payments, while preventing neighbor-
                                                                            hoods and communities from suffering the negative spillover effects of fore-
                                                                            closure, such as lower housing prices, increased crime and higher taxes.”26
                                                                            MHA, for which Treasury has obligated $29.9 billion, has many components,
                                                                            including several funded through TARP: the Home Affordable Modification
                                                                            Program (“HAMP”), the Federal Housing Administration (“FHA”) HAMP
                                                                            loan modification option for FHA-insured mortgages, and the Second Lien
                                                                            Modification Program (“2MP”).27 HAMP in turn encompasses various initia-
                                                                            tives in addition to the modification of first-lien mortgages, including the Home
                                                                            Affordable Foreclosure Alternatives (“HAFA”) program, the Home Price Decline
                                                                            Protection (“HPDP”) program, the Home Affordable Unemployment Program
                                                                            (“UP”), and the Principal Reduction Alternative (“PRA”) program. HAMP helps
                                                                            homeowners with mortgage modifications and foreclosure-prevention efforts.28
                                                                            Additionally, part of the overall $29.9 billion obligation includes $2.7 billion
                                                                               quarterly report to congress I OCTOBER 26, 2010   49




   to support the Treasury/FHA Second Lien Program (“FHA2LP”), which is a
   complementary program to the FHA Refinance program and is intended to
   support the extinguishment of second-lien loans.29 As of September 30, 2010,
   HAMP had expended $483.3 million of TARP money.30 Total expenditures for
   the other two programs were $1.6 million in incentives and payments for HAFA
   and $10,500 in incentives and payments for 2MP.31 As of September 30, 2010,
   servicers have completed 206,734 active permanent modifications of first liens,
   under the TARP-funded portion of the program, an increase of 42,106 active
   permanent modifications over the past quarter.32 In addition, the Government-
   sponsored enterprises (“GSEs”) have provided 259,974 active permanent modi-
   fications using $451.0 million in non-TARP funds, an increase of 35,404 over
   the past quarter.33 See the “Making Home Affordable Programs” discussion in
   this section for more detailed information, including participation numbers for
   each of the MHA programs and subprograms.
•	 Housing Finance Agency (“HFA”) Innovation Fund for the Hardest-Hit
   Housing Markets (“Hardest-Hit Program”) — The stated purpose of this
   program was to provide TARP funds to create “measures to help families in
   the states that have been hit the hardest by the aftermath of the burst of the
   housing bubble.”34 Treasury obligated $7.6 billion for this program in four incre-
   ments: an initial amount of $1.5 billion made available on June 23, 2010, a sec-
   ond amount of $600 million made available on August 3, 2010, a third amount
   of $2.0 billion made available on September 23, 2010, and a final
   $3.5 billion made available on September 29, 2010.35 As of September 30,
   2010, $56.1 million has been drawn down by HFAs for the Hardest-Hit Fund.36
   See the “Making Home Affordable Programs” discussion in this section for more
   detailed information.
•	 FHA Refinance — This program is estimated to use $10.8 billion of TARP
   funds, which includes approximately $8.1 billion to purchase a letter of credit
   to provide loss protection on refinanced first liens. Additionally, to facilitate the
   refinancing of new FHA-insured loans under this program, TARP funds will
   provide approximately $2.7 billion for incentive payments to servicers and hold-
   ers of existing second liens for full or partial principal extinguishments under
   the related FHA2LP; the $2.7 billion in funds for FHA2LP are part of the
   overall HAMP funding of $29.9 billion as noted above.37 As of September 30,
   2010, no incentives and payments have been expended for FHA refinance.38 See
   the “Making Home Affordable Programs” discussion in this section for more
   detailed information.
50            special inspector general I troubled asset relief program




                                                     Financial Institution Support Programs
     Systemically Significant: Term refer-
                                                     Treasury primarily invests capital directly into the financial institutions it aids.
     ring to any financial institution whose
     failure would impose significant losses         For TARP purposes, financial institutions included banks, bank holding compa-
     on creditors and counterparties, call           nies, and, if deemed critical to the financial system, some systemically significant
     into question the financial strength of         institutions.
     similar institutions, disrupt financial
     markets, raise borrowing costs for              •	 Capital Purchase Program (“CPP”) — Under CPP, Treasury directly pur-
     households and businesses, and re-                 chased preferred stock or subordinated debentures in qualifying financial insti-
     duce household wealth (also commonly               tutions (“QFIs”).39 CPP was intended to provide funds to “stabilize and strength-
     used to describe institutions “too big             en the U.S. financial system by increasing the capital base of an array of healthy,
     to fail”).                                         viable institutions, enabling them [to] lend to consumers and business[es].”40
                                                        Treasury invested $204.9 billion in 707 institutions through CPP; $152.8 billion
     Qualifying Financial Institutions (“QFIs”):
                                                        had been repaid as of September 30, 2010, leaving a balance of $52.1 billion
     Private and public U.S.-controlled
                                                        outstanding.41 Of the repayment amount, $363.3 million are funds that were
     banks, savings associations, bank
                                                        converted from CPP investments into CDCI and therefore still represent out-
     holding companies, certain savings and
     loan holding companies, and mutual                 standing obligations to TARP.42 CPP closed on December 29, 2009.43 Treasury
     organizations.                                     continues to manage its portfolio of CPP investments, including, for certain
                                                        struggling institutions, converting its preferred equity ownership into a more
     Community Development Financial Insti-             junior form of equity ownership, often at a discount to par value (which may
     tutions (“CDFIs”): Financial institutions          result in a loss) in an attempt to preserve some value that might be lost if these
     eligible for Treasury funding to serve a           institutions were to fail. See the “Capital Purchase Program” discussion in this
     targeted demographic under the CDFI                section for more detailed information.
     Fund. CDFIs were created in 1994 by             •	 Community Development Capital Initiative (“CDCI”) — Under CDCI,
     the Riegle Community Development                   Treasury used TARP money to buy preferred stock or subordinated debt in
     and Regulatory Improvement Act.
                                                        Community Development Financial Institutions (“CDFIs”). Treasury intended
                                                        for CDCI to “improve access to credit for small businesses in the country’s hard-
                                                        est-hit communities.”44 Under CDCI, TARP made capital investments in the
                                                        preferred stock or subordinated debt of eligible banks, bank holding companies,
                                                        thrifts, and credit unions.45 Eighty-four institutions have received approximately
                                                        $570 million in funding under CDCI;46 28 of these institutions, however, con-
                                                        verted their existing CPP investment into CDCI and 10 of those that converted
                                                        received additional funding under CDCI.47
                                                     •	 Small Business Lending Fund (“SBLF”) — On September 27, 2010, the
                                                        President signed into law the Small Business Jobs Act of 2010, which created
                                                        a $30 billion Small Business Lending Fund. The fund is intended to stimulate
                                                        small-business lending.48 Under SBLF, Treasury will invest capital in banks that
                                                        have less than $10 billion in assets in return for preferred shares, in a manner
                                                        similar to that followed under CPP and CDCI, albeit with incentives to increase
                                                        certain types of lending and with fewer governance provisions.49 Under the new
                                                        law, the Treasury Secretary is required to “issue regulations and other guidance
                                                        to permit eligible institutions to refinance securities issued to Treasury under
                                                                             quarterly report to congress I OCTOBER 26, 2010            51




   the CDCI and the CPP for securities to be issued under the Program.”50 The
   SBLF operates outside of TARP but will likely involve a large number of current
   TARP recipients. See the “Small Business Lending Initiatives” discussion in this
   section for more detailed information.
•	 Systemically Significant Failing Institutions (“SSFI”) Program/AIG
   Investment Program — The SSFI program enabled Treasury to invest in
   systemically significant institutions to prevent them from failing.51 Only one
   firm received SSFI assistance: AIG. There were two TARP-AIG transactions.
   On November 25, 2008, Treasury bought $40 billion of AIG’s preferred stock,
   the proceeds of which were used to repay a portion of AIG’s debt to the Federal
   Reserve Bank of New York (“FRBNY”). Then, on April 17, 2009, Treasury obli-
   gated approximately $29.8 billion to an equity capital facility on which AIG can
   draw as needed.52 As of September 30, 2010, AIG had drawn down $7.5 billion
   of the facility and had not repaid TARP at all, leading to total outstanding
   TARP assistance of $47.5 billion.53 Additionally, AIG has not paid $6.7 billion in
   scheduled dividends.54 Despite the expiration of TARP, AIG will still be able to
   draw down the remaining $22.3 billion of unused funding in the equity capital
   facility if necessary.55 On September 30, 2010, AIG announced it had entered
   into a restructuring plan and agreement in principle with Treasury, FRBNY, and
   the AIG Credit Facility Trust, which was created in order to oversee the 79.8%
   ownership interest FRBNY received in consideration for extending its credit
   facility to AIG. The plan is intended to permit the Government to exit its owner-
   ship interests in AIG.56 See the “Systemically Significant Failing Institutions”
   portion of this section for a detailed discussion of the AIG transactions.
•	 Targeted Investment Program (“TIP”) — Through TIP, Treasury invested in
   financial institutions it deemed critical to the financial system.57 There were two
   expenditures under this program, totaling $40 billion — the purchases of $20
   billion of senior preferred stock in Citigroup Inc. (“Citigroup”) and in Bank of
   America Corp. (“Bank of America”).58 Treasury also accepted common stock                   Senior Preferred Stock: Shares that
   warrants from each, as required by EESA. Both banks fully repaid Treasury                  give the stockholder priority dividend
   for their respective TIP investments.59 Treasury auctioned its Bank of America             and liquidation claims over junior pre-
   warrants on March 3, 2010, but still holds its Citigroup warrants.60 See the               ferred and common stockholders.
   “Targeted Investment Program and Asset Guarantee Program” portion of this
                                                                                              Illiquid Assets: Assets that cannot be
   section for more information on these two transactions.
                                                                                              quickly converted to cash.
•	 Asset Guarantee Program (“AGP”) — AGP was designed to provide insur-
   ance-like protection for a select pool of mortgage-related or similar assets
   held by participants whose portfolios of distressed or illiquid assets threatened
   market confidence.61 Treasury, the Federal Deposit Insurance Corporation
   (“FDIC”), and the Federal Reserve offered certain loss protections for
   $301 billion in troubled Citigroup assets.62 In exchange for providing the loss
   protection, Treasury received a premium of $4 billion of preferred stock that
52             special inspector general I troubled asset relief program




                                                         was later converted to trust preferred securities on a dollar-for-dollar basis. The
     Trust Preferred Securities (“TRUPS”):               FDIC received $3 billion of preferred stock that was similarly converted.63 On
     Securities that have both equity and                December 23, 2009, in connection with Citigroup’s TIP repayment, the bank
     debt characteristics, created by estab-             and the Government terminated the AGP agreement. Under the agreement,
     lishing a trust and issuing debt to it.             Treasury’s guarantee commitment was terminated with no loss on the protected
                                                         assets. In addition, Treasury agreed to cancel $1.8 billion of the trust preferred
                                                         securities issued by Citigroup, reducing the premium from $4.0 billion to $2.2
                                                         billion in exchange for early termination of the guarantee. Additionally, the
                                                         FDIC and Treasury agreed that at the close of Citigroup’s participation in the
                                                         FDIC’s Temporary Liquidity Guarantee Program, the FDIC may transfer $800
                                                         million of trust preferred securities that it retained as a premium to Treasury
                                                         if no loss is suffered.64 On September 30, 2010, Treasury announced the sale
                                                         of all of its trust preferred securities for $2.25 billion in gross proceeds, all of
                                                         which represents a profit to taxpayers.65 See the “Targeted Investment Program
                                                         and Asset Guarantee Program” discussion in this section for more information
                                                         on this program.

                                                      Asset Support Programs
                                                      The stated purpose of these programs was to support the liquidity and market value
                                                      of assets owned by financial institutions. These assets included various classes of
     Asset-Backed Securities (“ABS”): Bonds           asset-backed securities (“ABS”) and several types of loans. Treasury’s asset support
     backed by a portfolio of consumer                programs sought to bolster the balance sheets of financial firms and help free capi-
     or corporate loans, e.g., credit card,
                                                      tal so that these firms could extend more credit to support the economy.
     auto, or small-business loans. Financial
     companies typically issue ABS backed
                                                      •	 Term Asset-Backed Securities Loan Facility (“TALF”) — TALF was origi-
     by existing loans in order to fund new
     loans for their customers.
                                                         nally designed to increase credit availability for consumers and small busi-
                                                         nesses through a $200 billion Federal Reserve loan program. TALF provided
     Commercial Mortgage-Backed Securi-                  investors non-recourse loans secured by certain types of ABS, including credit
     ties (“CMBS”): Bonds backed by one                  card receivables, auto loans, equipment loans, student loans, floor plan loans,
     or more mortgages on commercial                     insurance-premium finance loans, loans guaranteed by the Small Business
     real estate (e.g., office buildings, rental         Administration (“SBA”), residential mortgage servicing advances, and commer-
     apartments, hotels).                                cial mortgage-backed securities (“CMBS”).66 The last subscription for newly
                                                         issued CMBS was June 18, 2010; this marked the program’s closure to new
                                                         loans.67 FRBNY facilitated 13 TALF subscriptions of non-mortgage-related
                                                         ABS over the life of the program totaling approximately $59 billion, with $23.9
                                                         billion of TALF borrowings outstanding as of September 30, 2010.68 FRBNY
                                                         also conducted 13 CMBS subscriptions totaling $12.1 billion, with $5.8 billion
                                                         in loans outstanding as of September 30, 2010.69 Treasury originally obligated
                                                         $20 billion of TARP funds to support this program by providing loss protection
                                                         to the loans extended by FRBNY in the event that a borrower surrendered the
                                                         ABS collateral and walked away from the loan.70 Treasury reduced its obligation
                                                         for TALF to $4.3 billion based on the amount of loans outstanding at the end of
                                                                              quarterly report to congress I OCTOBER 26, 2010               53




   the active lending phase of the program on June 30, 2010. As of September 30,
   2010, $0.1 billion of TARP funding has been expended under TALF.71 An over-
   view of TALF later in this section provides more information on these activities.
•	 Public-Private Investment Program (“PPIP”) — PPIP’s goal was to restart
   credit markets by using a combination of private equity, matching Government
   equity, and Government debt to purchase legacy securities, e.g., CMBS and
   residential mortgage-backed securities (“RMBS”). Under the program, eight
   Public-Private Investment Funds (“PPIFs”) managed by private asset managers                 Legacy Securities: Real estate-related
   invested in RMBS and CMBS.72 Although Treasury initially pledged up to                      securities lingering on the balance
                                                                                               sheets of financial institutions because
   $30 billion for PPIP, the obligation is now limited to $22.4 billion.73 As of
                                                                                               of pricing difficulties that resulted from
   September 30, 2010, the PPIFs have drawn down $14.2 billion in debt and eq-
                                                                                               market disruption.
   uity financing from Treasury funding out of the total obligation, which includes
   $356 million related to TCW that has been repaid.74 As the PPIFs continue
                                                                                               Residential Mortgage-Backed Securi-
   to make purchases, they will continue to have access to the remaining fund-                 ties (“RMBS”): Bonds backed by a pool
   ing through the end of their respective investment periods, the last of which               of mortgages for residential real estate
   will close in December 2012.75 See the “Public-Private Investment Program”                  (e.g., home mortgages for residences
   discussion later in this section for details about the program structure and fund-          occupied by up to four families).
   manager terms.
•	 Unlocking Credit for Small Businesses (“UCSB”)/Small Business                               SBA Pool Certificate: Ownership inter-
   Administration Loan Support Initiative — In March 2009, Treasury officials                  est in a bond backed by SBA-guaran-
   announced that Treasury would buy up to $15 billion in securities backed by                 teed loans.
   SBA loans under UCSB.76 On March 2, 2010, Treasury entered into an agree-
   ment with Coastal Securities Inc. (“Coastal”), and on August 27, 2010, Treasury
   entered into an agreement with Shay Financial Inc.; these are the two pool
   assemblers in the UCSB program.77 Under the agreements, Earnest Partners, on
   behalf of Treasury, anonymously purchased SBA pool certificates from Coastal
   and Shay Financial Inc.78 Treasury obligated a total of $380 million for UCSB,
   and has made purchases of $357 million in securities under the program. This
   amount includes $167 million purchased in the last quarter.79 See the discus-
   sion of “Unlocking Credit for Small Businesses/Small Business Administration
   Loan Support” in this section for more information on the program.

Automotive Industry Financing Program (“AIFP”)
TARP’s automotive industry support aimed to “prevent a significant disruption of
the American automotive industry, which would pose a systemic risk to financial
market stability and have a negative effect on the economy of the United States.”80
    Treasury made emergency loans to Chrysler Holding LLC (“Chrysler”),
Chrysler Financial Services Americas LLC (“Chrysler Financial”), and General
Motors Corporation (“GM”). Additionally, Treasury bought senior preferred stock
from GMAC Inc. (“GMAC”), now Ally Financial Inc. (“Ally Financial”), and as-
sisted Chrysler and GM during their bankruptcy restructurings. Treasury initially
allocated $84.8 billion to AIFP, then reduced the total obligation to $81.8 billion.81
54           special inspector general I troubled asset relief program




                                                    As of September 30, 2010, $79.7 billion had been disbursed through the AIFP and
                                                    $11.2 billion had been repaid. These investments paid an additional $2.9 billion in
                                                    dividends, interest, and other income. These figures include the amounts related to
                                                    ASSP and AWCP.82
                                                        With respect to GM, in return for a total of $49.5 billion in loans, Treasury
                                                    received $6.7 billion in debt in New GM (which was subsequently retired) in
                                                    addition to $2.1 billion in preferred stock and a 61% common equity stake (an
                                                    amount that could be diluted should GM’s bondholders or the Voluntary Employee
                                                    Beneficiary Association exercise warrants they received).83 With respect to Chrysler,
                                                    Treasury provided $12.5 billion in loans to Chrysler, Inc. (“Old Chrysler”) and
                                                    Chrysler Group LLC (“New Chrysler”), of which $5.4 billion is attributable to
                                                    Old Chrysler and $7.1 billion is attributable to New Chrysler (taking into effect
                                                    the assumption by New Chrysler of $500 million of Old Chrysler debt). Treasury
                                                    also received a 9.9% equity stake (an amount that could also be diluted should
                                                    certain performance metrics be reached).84 With respect to GMAC, in return for a
                                                    total investment of $17.2 billion, Treasury received a 56.3% common equity stake,
                                                    $2.7 billion in trust preferred securities (including amounts received in warrants
                                                    that were immediately converted into additional securities), and $11.4 billion in
                                                    mandatorily convertible preferred shares.85 Treasury provided a $1.5 billion loan
                                                    to Chrysler Financial, which was fully repaid with interest in July 2009.86 See
                                                    “Automotive Industry Financing Program” later in this section for a detailed discus-
                                                    sion of these companies.
                                                        AIFP also included two subprograms:

                                                    •	 Auto Supplier Support Program (“ASSP”) — This program was intended
                                                       to provide auto suppliers “with the confidence they need to continue shipping
                                                       their parts and the support they need to help access loans to pay their employ-
                                                       ees and continue their operations.”87 The original allocation of $5.0 billion was
                                                       reduced to $3.5 billion — $1.0 billion for Chrysler and $2.5 billion for GM.88
                                                       Of the $3.5 billion available, only $413.1 million was borrowed.89 After pur-
                                                       chasing substantially all of the assets of Old GM and Old Chrysler, New GM
                                                       and New Chrysler assumed the debts associated with ASSP.90 After repayment
                                                       of all funds expended under ASSP, along with $115.9 million in interest, fees,
     For more information on AWCP, see                 and other income, ASSP ended on April 5, 2010, for GM and on April 7, 2010,
     SIGTARP’s October 2009 Quarterly                  for Chrysler.91 See “Auto Supplier Support Program” in this section for more
     Report, page 91.                                  information.
                                                    •	 Auto Warranty Commitment Program (“AWCP”) — This program was
                                                       designed to bolster consumer confidence by guaranteeing Chrysler and GM
                                                                            quarterly report to congress I OCTOBER 26, 2010   55




     vehicle warranties during the companies’ restructuring through bankruptcy. It
     ended in July 2009 after Chrysler fully repaid its AWCP loan of $280.1 million
     with interest and GM repaid just the principal of $360.6 million.92

    The following figures and tables provide a status summary of TARP and TARP-
related initiatives:

•	 total funds subject to SIGTARP oversight as of October 3, 2010 (Table 2.3)
•	 obligations by program as of October 3, 2010 (Table 2.4)
•	 obligations outstanding by program (Figure 2.3)
•	 obligations outstanding, repayments, and reductions in exposure, by program
   (Figure 2.4)
•	 summary of TARP terms and agreements (Table 2.5 and Table 2.6)
•	 summary of largest warrant positions held by Treasury, by program, as of
   September 30, 2010 (Table 2.7)
•	 summary of dividends, interest payments, and fees received, by program, as of
   September 30, 2010 (Table 2.8)

   For a report of all TARP purchases, obligations, expenditures, and revenues, see
Appendix C: “Reporting Requirements.”
56                special inspector general I troubled asset relief program




     Table 2.3

     TOTAL FUNDS SUBJECT TO SIGTARP OVERSIGHT, AS OF 10/3/2010                                                            ($ BILLIONS)

                                                                                                                                                                                 Total                     TARP
     Program                                                           Brief Description or Participant                                                                    Funding ($)               Funding ($)
     Capital Purchase Program (“CPP”)                                  Investments in 707 banks to date; received $152.8 billion in                                              $204.9                  $204.9
     CLOSED                                                            capital repayments                                                                                       ($152.8)                ($152.8)
     Automotive Industry Financing Program (“AIFP”)                    GM, Chrysler, GMAC, Chrysler Financial; received $10.2 billion in                                          $80.7                    $80.7
     CLOSED                                                            loan repayments                                                                                           ($10.2)                  ($10.2)
     Auto Suppliers Support Program (“ASSP”)                           Government-backed protection for auto parts suppliers; received                                              $0.4a                    $0.4a
     CLOSED                                                            $0.4 billion in loan repayments                                                                             ($0.4)                   ($0.4)
     Auto Warranty Commitment Program (“AWCP”)                         Government-backed protection for warranties of cars sold during                                              $0.6                     $0.6
     CLOSED                                                            the GM and Chrysler bankruptcy restructuring periods                                                        ($0.6)                   ($0.6)
     Unlocking Credit for Small Businesses (“UCSB”) Purchase of securities backed by SBA loans                                                                                      $0.4b                    $0.4b
     Systemically Significant Failing Institutions                     AIG Investment                                                                                             $69.8                    $69.8
     (“SSFI”)/ AIG Investment Program
     Targeted Investment Program (“TIP”)                               Citigroup, Bank of America Investments                                                                     $40.0                    $40.0
     CLOSED                                                                                                                                                                      ($40.0)                  ($40.0)
     Asset Guarantee Program (“AGP”)                                   Citigroup, ring-fence asset guarantee                                                                     $301.0                      $5.0
     CLOSED                                                                                                                                                                     ($301.0)                    ($5.0)
     Term Asset-Backed Securities Loan Facility                        FRBNY non-recourse loans for purchase of asset-backed securities                                           $71.1                      $4.3c
     (“TALF”) CLOSED                                                                                                                                                             ($41.4)                    ($0.0)
     Making Home Affordable (“MHA”) Program                            Modification of mortgage loans                                                                             $70.6d                   $45.6e
     Community Development Capital Initiative                          Investments in Community Development Financial Institutions                                                  $0.6                     $0.6
     (“CDCI”) CLOSED                                                   (“CDFIs”)
     Public-Private Investment Program (“PPIP”)                        Disposition of legacy assets; Legacy Securities Program                                                    $29.8f                   $22.4g
                                                                                                                                                                                   ($0.4)                   ($0.4)
     Total OBLIGATIONS                                                                                                                                                          $869.9                   $474.8

     Notes: Numbers may not total due to rounding. Numbers in red represent repayments and reductions in exposure as of 9/30/2010.
     a
       Treasury’s original commitment under this program was $5 billion, which was reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
     b
       Treasury reduced commitment from $15 billion to an obligation of $380 million.
     c
       Treasury reduced obligation from $20 billion to approximately $4.3 billion.
     d
       Program was initially announced as a $75 billion initiative with $50 billion funded through TARP. Treasury reduced commitment from $50 billion to an obligation of $45.6 billion; therefore, including the $25
       billion estimated to be spent by the GSEs, the total program amount is $70.6 billion.
     e
       Treasury reduced commitment from $50 billion to an obligation of $45.6 billion.
     f
       PPIP funding includes $7.4 billion of private-sector equity capital.
     g
       Treasury reduced commitment from $30 billion to approximately $22.4 billion in debt and equity obligations to the public-private investment funds.

     Sources: FRBNY, response to SIGTARP data call, 10/7/2010; Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2008; Treasury, “Making Home Affordable Updated
     Detailed Program Description,” www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed 7/2/2010; Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010, accessed 10/7/2010;
     Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 1/16/2009, www.financialstability.gov/latest/hp1358.html, accessed 6/8/2009; Treasury, “Troubled
     Asset Relief Program: Two Year Retrospective,” 10/5/2010, www.financialstability.gov/docs/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/5/2010.
                                                                                          quarterly report to congress I OCTOBER 26, 2010                 57




Table 2.4

Expenditure Levels by Program, as of 10/3/2010                        ($ Billions)

                                                                      Amount           Percent (%)
Authorized Under EESA                                                 $700.0
   Released Immediately                                                   $250.0           52.6%
   Released Under Presidential Certificate of Need                         100.0           21.1
   Released Under Presidential Certificate of Need & Resolution to         350.0           73.7
   Disapprove Failed
Helping Families Save Their Home Act of 2009                                   (1.2)        (0.3)
The Dodd-Frank Act                                                        (223.8)          (47.1)
Total Released                                                            $475.0          100.0%
                                                                        Obligation        Repaid/
                                                                       as Percent        Reduced        Obligation
Obligations by Treasury under TARPa                      Obligation   of Released        Exposure      Outstanding              Section Reference
Capital Purchase Program (“CPP”):
                                                                                                                                 “Financial Institution
   Investments                                              $204.9         43.2%
                                                                                                                                 Support Programs”
   Repayments
CPP Total Gross                                            $204.9         43.2%          ($152.8)            $52.1
Community Development Capital Initiative (“CDCI”):             $0.6                                                              “Financial Institution
                                                                                                                                 Support Programs”
CDCI Total                                                    $0.6          0.1%               —              $0.6
Systemically Significant Failing Institutions (“SSFI”)
Program:                                                                                                                         “Financial Institution
                                                                                                                                 Support Programs”
   American International Group, Inc. (“AIG”)                $69.8         14.7%
SSFI Total                                                   $69.8        14.7%                —             $69.8
Targeted Investment Program (“TIP”):
   Bank of America Corporation                               $20.0          4.2%                                                 “Financial Institution
   Citigroup, Inc.                                             20.0         4.2                                                  Support Programs”

   Repayments
TIP Total                                                    $40.0          8.4%          ($40.0)                —
Asset Guarantee Program (“AGP”):
                                                                                                                                 “Financial Institution
   Citigroup, Inc.b                                            $5.0         1.1%
                                                                                                                                 Support Programs”
   Repayments
AGP Total                                                     $5.0          1.1%           ($5.0)                —
Term Asset-Backed Securities Loan Facility (“TALF”):                                                                                  “Asset Support
   TALF LLC                                                    $4.3         0.9%                                                          Programs”

TALF Total                                                    $4.3          0.9%               —              $4.3
Unlocking Credit for Small Businesses (“UCSB”):                $0.4         0.1%                                                      “Asset Support
                                                                                                                                          Programs”
UCSB Total                                                    $0.4          0.1%               —              $0.4
                                                                                                                            Continued on next page.
58             special inspector general I troubled asset relief program




      Expenditure Levels by Program, as of 10/3/2010                       ($ Billions) (Continued)

                                                                            Obligation       Repaid/
                                                                           as Percent       Reduced      Obligation
     Obligations by Treasury under TARPa                     Obligation   of Released       Exposure    Outstanding      Section Reference
     Automotive Industry Financing Program (“AIFP”):
        General Motors Corporation (“GM”)                       $49.5          10.4%
        Ally Financial/General Motors Acceptance                  17.2          3.6
        Corporation LLC (“GMAC”)                                                                                         “Automotive Industry
                                                                                                                          Support Programs”
        Chrysler Holding LLC                                      12.5          2.6
        Chrysler Financial Services Americas LLCc                  1.5          0.3
        Repayments
     AIFP Total                                                 $80.7         17.0%          ($10.2)         $70.5
     Automotive Supplier Support Program (“ASSP”):
        GM Suppliers Receivables LLCd                             $0.3          0.1%                                     “Automotive Industry
        Chrysler Holding LLC   d
                                                                   0.1          0.0                                       Support Programs”

        Repayments
     ASSP Total                                                  $0.4           0.1%           ($0.4)            —
     Automotive Warranty Commitment Program (“AWCP”):
        GM                                                        $0.4          0.1%                                     “Automotive Industry
        Chrysler Holding LLC                                       0.3          0.1                                       Support Programs”

        Repayments
     AWCP Total                                                  $0.6           0.1%           ($0.6)            —
     Legacy Securities Public-Private Investment Program
     (“PPIP”)
        Invesco Legacy Securities Master Fund, L.P.               $2.6          0.5%
        Wellington Management Legacy Securities PPIF               3.4          0.7
        Master Fund, LP
        AllianceBernstein Legacy Securities Master Fund,           3.5          0.7
        L.P.
        Blackrock PPIF, L.P.                                       2.1          0.4                                           “Asset Support
                                                                                                                                  Programs”
        AG GECC PPIF Master Fund, L.P.                             3.7          0.8
        RLJ Western Asset Public/Private Master Fund, L.P.         1.8          0.4
        Marathon Legacy Securities Public-Private                  1.4          0.3
        Investment Partnership, L.P.
        Oaktree PPIP Fund, L.P.                                    3.5          0.7
        UST/TCW Senior Mortgage Securities Fund, L.P.e             0.4          0.1
        Repayments
     PPIP Total                                                 $22.4           4.7%           ($0.4)        $22.0
                                                                                                                      Continued on next page.
                                                                                                                         quarterly report to congress I OCTOBER 26, 2010                                     59




 Expenditure Levels by Program, as of 10/3/2010                                                ($ Billions) (Continued)

                                                                                                Obligation              Repaid/
                                                                                               as Percent              Reduced                Obligation
Obligations by Treasury under TARPa                                         Obligation        of Released              Exposure              Outstanding                         Section Reference
Making Home Affordable (“MHA”):
    Home Affordable Modification Program (“HAMP”)
         Countrywide Home Loans Servicing LP                                       $6.1                1.3%
         Wells Fargo Bank, NA                                                        5.1               1.1
         J.P.Morgan Chase Bank, NA                                                   3.2               0.7
         OneWest Bank                                                                1.8               0.4
         Bank of America, N.A.                                                       1.6               0.3
                                                                                                                                                                                “Homeowner Support
         GMAC Mortgage, Inc.                                                         1.5               0.3                                                                              Programs”
         American Home Mortgage Servicing, Inc                                       1.3               0.3
         CitiMortgage, Inc.                                                          1.1               0.2
         Litton Loan Servicing LP                                                    1.1               0.2
         Other Financial Institutions                                                7.1               1.5
    Housing Finance Agency: Hardest Hit Funds                                        7.6               1.6
    Program (“HFA”)
    Treasury FHA Refinance                                                           8.1               1.7
MHA Total                                                                        $45.6                 9.6%                     —                     $45.6
TARP Obligations Subtotal                                                      $474.8              100.0%
TARP Repayments/Reductions in                                                                                          ($209.4)
Exposure Subtotal
TARP Obligations Outstanding Subtotal                                                                                                               $265.4

Notes: Numbers may not total due to rounding. Obligations as of 10/3/2010, and repayments/reductions in exposure as of 9/30/2010.
a
  From a budgetary perspective, what Treasury has obligated to spend (e.g., signed agreements with TARP fund recipients).
b
  Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This amount was not
  an actual outlay of cash.
c
  Treasury’s $1.5 billion loan to Chrysler Financial represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
d
  Represents a special purpose vehicle (“SPV”) created by the manufacturer. Balance represents the maxiumum loan amount, which will be funded incrementally. Treasury’s original commitment under this
  program was $5 billion, but subsequently reduced to $3.5 billion effective 7/1/2009. Of the $3.5 billion available, only $413 million was borrowed.
e
  Treasury selected nine fund management firms to establish PPIFs. One PPIF manager, The TCW Group, Inc., subsequently withdrew. According to Treasury, the current PPIP obligation is $22.4 billion, this
  includes $365 million of an initial obligation to TCW that was funded. TCW repaid the funds that were invested in its PPIF.

Sources: Emergency Economic Stabilization Act, P.L. 110-343, 10/3/2008; Library of Congress, “A joint resolution relating to the disapproval of obligations under the Emergency Economic Stabilization Act
of 2008,” 1/15/2009, www.thomas.loc.gov, accessed 1/25/2009; Helping Families Save Their Homes Act of 2009, P.L. 111-22, 5/20/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to
SIGTARP data call, 10/7/2010; Treasury, Section 105(a) Report, 8/10/2010.
60                special inspector general I troubled asset relief program




     Figure 2.3

     OUTSTANDING OBLIGATIONS, BY PROGRAM, CUMULATIVE
     $ BILLIONS

      $400


                                                                                                                                                                                                               $0.6 CDCI
       300                                                                                                                                                                                                     $0.4 UCSB
                                                                                                                                                                                                                     a
                                                                                                                                                                                                              $22.0 PPIP
                                                                                                                                                                                                                   b
                                                                                                                                                                                                               $0.0 AGP
                                                                                                                                                                                                              $45.6      MHA
       200                                                                                                                                                                                                          c
                                                                                                                                                                                                               $4.3      TALF
                                                                                                                                                                                                                    d
                                                                                                                                                                                                               $0.0      TIP
                                                                                                                                                                                                                    e
                                                                                                                                                                                                              $70.5      AIFP

       100
                                                                                                                                                                                                              $69.8 SSFI

                                                                                                                                                                                                                     f
                                  0                                                                                                                                                                           $52.1 CPP
         0
          10/31 11/30 12/31 1/31            2/28    3/31     4/30    5/31    6/30    7/31    8/31    9/30 10/31 11/30 12/31 1/31              2/28 3/31       4/30    5/31    6/30     7/31    8/31    9/30

                   2008                                                          2009                                                                                2010                                          CDCI
                                                                                                                                                                                                                   UCSB
             Notes: Numbers may not total due to rounding.                                                                                                                                                         PPIP
             a
               PPIP funding of $0.4 billion was repaid.                                                                                                                                                            AGP
             b
               Treasury committed $5 billion to Citigroup under AGP; however, the funding was conditional based on losses that could potentially be realized and may potentially never be expended. This           MHA
               amount was not an actual cash outlay. It was never disbursed and the agreement was terminated.
                                                                                                                                                                                                                   TALF
             c
               TALF obligation reduced to $4.3 billion.
             d
               TIP funding of $40 billion was repaid.                                                                                                                                                              TIP
             e
               AIFP includes ASSP and AWCP. The following auto-related funding was repaid: $ 10.2 billion for AIFP, $0.6 billion for AWCP, and $0.4 billion for ASSP.                                              Auto
             f
               CPP funding of $152.8 billion was repaid.                                                                                                                                                           Programs
                                                                                                                                                                                                                   SSFI
             Sources: Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, response to SIGTARP data call, 10/13/2010.                                           CPP


                                                                             Figure 2.4

                                                                             OBLIGATIONS OUTSTANDING,
                                                                             REPAYMENTS AND REDUCTIONS IN
                                                                             EXPOSURE BY PROGRAM
                                                                             ($ BILLIONS, PERCENT OF $474.8 BILLION IN
                                                                             OBLIGATIONS)

                                                                                         AIFPb $81.8
                                                                                                          $11.2
                                                                                                                   SSFI $69.8
                                                                                            $70.5

                                                                                                                         TIP $40.0

                                                                                 $152.8
                                                                                                                         AGP $5.0

                                                                                                                         TALF $4.3
                                                                                                                       MHA $45.6
                                                                                               $52.1
                                                                                                                                                      Notes: Numbers may not total due to rounding.
                                                                             CPPa $204.9                   PPIPc $22.0        $22.4                   a
                                                                                                                                                         As of 9/30/2010, $152.8 billion of CPP funding had been
                                                                                                           PPIP $0.4                                    repaid.
                                                                                                                                                      b
                                                                                                                                                         As of 9/30/2010, $11.2 billion related to AIFP loans had been
                                                                                                                                                        repaid (including $0.6 billion for AWCP and $0.4 billion for
                                                                                          UCSB $0.4 CDCI $0.6                                           ASSP).
                                                                                                                                                      c
                                                                                                                                                        As of 9/30/2010, $0.4 billion of PPIP funding had been repaid.

                                                                                 Obligations Outstanding                                              Sources: Treasury, Transactions Report, 9/30/2010; Treasury,
                                                                                 Repayments and Reductions in Exposure                                response to SIGTARP data call, 10/7/2010.
                                                                                      quarterly report to congress I OCTOBER 26, 2010                     61




Table 2.5

Debt Agreements           (CONTINUED)

TARP            Date of                 Cost             Description of                                                   Interest /          Term of
Program Company Agreement               Assigned         Investment              Investment Information                   Dividends           Agreement
                                                                                 Each QFI may issue senior securities
                                                                                 with an aggregate principal amount 3.1% for first 8
CPP –                                                    Senior Subordinated                                                                  30 years
            52 QFIs     1/14/2009a      $0.5 billion                             of 1% - 3% of its risk-weighted      years; 13.8%
S-Corps                                                  Securities
                                                                                 assets, but not to exceed $25        thereafter
                                                                                 billion.
                                                         Senior Subordinated     Treasury will receive warrants to
                                                         Security Warrants       purchase an amount equal to 5% of                            30 years
                                                                                                                          13.8%
                                                         that are exercised      the senior securities purchased on
                                                         immediately             the date of investment.
                                                                                                                          For General
                                                                                 This loan was funded incrementally;      Advances - (i)
                                                                                 $4 billion on 12/31/2008, $5.4           the greater of (a)
                                                                                 billion on 1/21/2009, and $4 billion     3-month LIBOR
                                                                                 on 2/17/2009. Subsequently, this         or (b) 2% plus (ii)
                                                         Debt Obligation with
            General                                                              loan was then amended; $2 billion        3%; for warrant      12/29/2011
AIFP                    12/31/2008      $19.8 billionb   Warrants and Additional
            Motors                                                               on 4/22/2009 and $4 billion on           advances (i) the
                                                         Note
                                                                                 5/20/2009 (general advances).            greater of (a)
                                                                                 In addition, on 5/27/2009, $361          3-month LIBOR for
                                                                                 million was set aside in an SPV for      the related interest
                                                                                 AWCP (warranty advances).                period or (b) 2%
                                                                                                                          plus (ii) 3.5%
                                                                                 This loan was exchanged for
                                                                                 a portion of GM’s common
            General                                                                                                3-Month LIBOR              1/16/2012
AIFP                    1/16/2009       $0.9 billion     Debt Obligation         equity interest in GMAC LLC on
            Motors                                                                                                 plus 3%
                                                                                 5/29/2009. See “Equity Agreement”
                                                                                 table for more information.
                                                                                                                          For general
                                                                                 Loan of $4 billion; additional note of
                                                                                                                          advances - (i) the
                                                                                 $267 million (6.67% of the maximum
                                                                                                                          greater of (a)
                                                                                 loan amount). Subsequently, this
                                                                                                                          3-month LIBOR
                                                                                 loan was then amended; $500
                                                                                                                          or (b) 2% plus (ii)
                                                                                 million on 4/29/2009, this amount
                                                         Debt Obligation with                                             3%; for warrant      1/2/2012
AIFP        Chrysler    1/2/2009c       $4.8 billionb                            was never drawn and subsequentlly
                                                         Additional Note                                                  advances (i) the
                                                                                 de-obligated (general advances).
                                                                                                                          greater of (a)
                                                                                 In addition, on 4/29/2009, $280
                                                                                                                          3-month LIBOR for
                                                                                 million was set aside in an SPV for
                                                                                                                          the related interest
                                                                                 the AWCP; this advance was repaid
                                                                                                                          period or (b) 2%
                                                                                 (warrant advances).
                                                                                                                          plus (ii) 3.5%
                                                                                 Loan was funded incrementally
                                                                                 at $100 million per week until it
                                                                                                                          “LIBOR plus 1% for
                                                                                 reached the maximum amount of
                                                                                                                          first year
            Chrysler                                     Debt Obligation with    $1.5 billion on 4/9/2009. Additional                        1/16/2014
AIFP                    1/16/2009       $1.5 billion                                                                      LIBOR plus 1.5%
            Financial                                    Additional Note         note is $75 million (5% of total loan
                                                                                                                          for remaining
                                                                                 size), which vests 20% on closing
                                                                                                                          years”
                                                                                 and 20% on each anniversary of
                                                                                 closing.
                                                                                 Loan of $3.0 billion committed
                                                                                 to Chrysler for its bankruptcy
                                                                                                                                                 9/30/2009,
                                                                                 period. Subsequently, this loan was      (i) the greater of (a)
                                                                                                                                                 subject
                                                         Debt Obligation with    amended; $757 million was added          3-Month Eurodollar
AIFP        Chrysler    5/1/2009        $3.8 billion                                                                                             to certain
                                                         Additional Note         on 5/20/2009. Treasury funded            or (b) 2% plus (ii)
                                                                                                                                                 conditions
                                                                                 $1.9 billion during bankruptcy           3.0%
                                                                                 period. The remaining amount will be
                                                                                 de-obligated.
                                                                                                                                    Continued on next page.
62                special inspector general I troubled asset relief program




     Debt Agreements                   (CONTINUED)

     TARP            Date of                             Cost                       Description of                                                                   Interest /                Term of
     Program Company Agreement                           Assigned                   Investment                      Investment Information                           Dividends                 Agreement
                                                                                                                                                                     For $2 billion:
                                                                                                                                                                     (i) The 3-month
                                                                                                            Commitment to New CarCo                                  Eurodollar rate,
                                                                                                            Acquisition LLC (renamed Chrysler                        plus (ii) (a) 5% or,      For $2
                                                                                                            Group LLC on or about 6/10/2009)                         on loans extended         billion note:
                                                                                                            of up to $6.6 billion. The total                         past the original         12/10/2011;
                                                                                                            loan amount is up to $7.1 billion,                       maturity date,            provided that
                                                                                                            including $500 million of debt                           (b) 6.5%. For             issuer may
                                                                                    Debt Obligation with    assumed from Treasury’s 1/2/2009                         $5.1 billion note:        extend matu-
     AIFP          Chrysler         5/27/2009            $6.6 billion               Additional Note, Equity credit agreement with Chrysler                           (i) The 3-month           rity for up to
                                                                                    Interest                Holding LLC. The debt obligations                        Eurodollar rate           $400 million
                                                                                                            are secured by a first-priority lien on                  plus 7.91% and            of principal to
                                                                                                            the assets of New CarCo Acquisition                      (ii) an additional        6/10/2017.
                                                                                                            LLC (the company that purchased                          $17 million in            For other
                                                                                                            Chrysler LLC’s assets in a sale                          PIK interest per          notes:
                                                                                                            pursuant to Section 363 of the                           quarter. For other        6/10/2017.
                                                                                                            Bankruptcy Code).                                        notes: 3-month
                                                                                                                                                                     Eurodollar rate
                                                                                                                                                                     plus 7.91%.
                                                                                                                                                                     Originally, (i) the
                                                                                                                                                                     greater of (a)
                                                                                                                                                                     3-month Eurodollar        Originally
                                                                                                                    Original $30.1 billion funded.
                                                                                                                                                                     rate or (b) 2%            10/31/2009,
                                                                                                                    Amended loan documents provided
                                                                                                                                                                     plus (ii) 3.0%.           for amounts
                                                                                                                    that $986 million of the original
                                    6/3/2009,                                                                                                                        For amounts               assumed
                   General                                                          Debt Obligation with            DIP loan was left for the old GM. In
     AIFP                           amended              $30.1 billion                                                                                               assumed by New            by New GM,
                   Motors                                                           Additional Note                 addition, $7.1 billion was assumed
                                    7/10/2009                                                                                                                        GM, the interest          6/10/2015,
                                                                                                                    by New GM of which
                                                                                                                                                                     rates became (i)          subject to
                                                                                                                    $0.4 billion was repaid resulting in
                                                                                                                                                                     the greater of (a)        acceleration.
                                                                                                                    $6.7 billion remaining outstanding.
                                                                                                                                                                     3-month Eurodollar
                                                                                                                                                                     rate or (b) 2% plus
                                                                                                                                                                     (ii) 5%.
                                                                                                                                                                                               The debt
                                                                                                                                                                                               obligation for
                                                                                                                                                                                               each fund
                                                                                    Debt obligation with            Each of the loans will be funded
                                    “9/30/2009                                                                                                                                                 matures at the
     PPIP          ALL                                   $20.0 billion              contingent interest             incrementally, upon demand by the                LIBOR plus 1%
                                    and later”                                                                                                                                                 earlier of the
                                                                                    promissory note                 fund manager.
                                                                                                                                                                                               dissolution of
                                                                                                                                                                                               the fund or 10
                                                                                                                                                                                               years.

     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP S-Corporation Term Sheet.
     b
       Amount includes AWCP commitments.
     c
       Date from Treasury’s 1/27/2009 Transaction Report. The Security Purchase Agreement has a date of 12/31/2008.

     Sources: Treasury, “Loan and Security Agreement By and Between General Motors Corporation as Borrower and The United States Department of Treasury as Lender Dated as of December
     31, 2008,” 12/31/2008; Treasury, “General Motors Corporation, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “General Motors Promissory Note,”
     1/16/2009; Treasury, “Loan and Security Agreement By and Between Chrysler Holding LLC as Borrower and The United States Department of Treasury as Lender Dated as of December 31,
     2008,” 12/31/2008; Treasury, “Chrysler, Indicative Summary of Terms for Secured Term Loan Facility,” 12/19/2008; Treasury, “Chrysler LB Receivables Trust Automotive Industry Financing
     Program, Secured Term Loan, Summary of Terms,” 1/16/2009; OFS, response to SIGTARP draft report, 1/30/2009; Treasury, Transactions Report, 9/30/2010; Treasury, response to
     SIGTARP data call, 10/7/2010.
                                                                                             quarterly report to congress I OCTOBER 26, 2010                    63




Table 2.6

Equity Agreements            (CONTINUED)

TARP            Date of                  Cost             Description of                                                                      Term of
Program Company Agreement                Assigned         Investment                Investment Information                Dividends           Agreement
                                                                                                                         “5% for first 5
                                                                                    1-3% of risk-weighted assets, not to
                                                          Senior Preferred Equity                                        years,               Perpetual
CPP –                   “10/14/2008  a                                              exceed $25 billion for each QFI
            286 QFIs                $200.1 billion                                                                       9% thereafter”
Public                  and later”
                                                          Common Stock                                                                        Up to 10 years
                                                                                    15% of senior preferred amount        ­—
                                                          Purchase Warrants
                                                                                                                         “5% for first 5
                                                                                    1-3% of risk-weighted assets, not to
                                                          Preferred Equity                                               years,               Perpetual
                                                                                    exceed $25 billion for each QFI
                                                                                                                         9% thereafter”
CPP –                   “11/17/2008  b
            369 QFIs                $ 4.0 billion         “Preferred Stock
Private                 and later”
                                                          Purchase Warrants that
                                                                                    5% of preferred amount                9%                  Perpetual
                                                          are exercised
                                                          immediately”
                                                          Non-Cumulative            $41.6 billion aggregate liquidation
                                                                                                                          10%                 Perpetual
                                                          Preferred Equity          preference
                                                                                    2% of issued and outstanding
                                                                                    common stock on the 11/25/2008
SSFI         AIG        4/17/2009        $41.6 billionc                             investment date; the warrant was
                                                          Common Stock              originally for 53,798,766 shares                          Up to 10 years
                                                                                                                         —
                                                          Purchase Warrants         and had a $2.50 exercise price,
                                                                                    but after the 6/30/2009 split, it is
                                                                                    for 2,689,938.30 shares with an
                                                                                    exercise price of $50.
                                                                                    Up to $29.8 billion aggregate
                                                                                                                                              Perpetual (life
                                                                                    liquidation preference. As of
                                                          Non-Cumulative                                                                      of the facility
                                                                                    9/30/2009, the aggregate              10%
                                                          Preferred Equity                                                                    is 5 years)
                                                                                    liqudation preference was $3.2
SSFI         AIG        4/17/2009        $29.8 billiond                             billion.
                                                                                    150 common stock warrants
                                                          Common Stock                                                                        Up to 10 years
                                                                                    outstanding; $0.00002 exercise        —
                                                          Purchase Warrants
                                                                                    price
                                                          Trust Preferred
                                                                                    $20 billion                           8%                  Perpetual
                                                          Securities
TIP         Citigroup   12/31/2008       $20.0 billione
                                                                                    10% of total preferred stock                              Up to 10 years
                                                          Warrants                                                        —
                                                                                    issued; $10.61 exercise price
                                                                                                                                              Converts
                                                          Mandatorily Convertible                                                             to common
                                                                                    $5 billion                            9%
                                                          Preferred Stockf                                                                    equity interest
                                                                                                                                              after 7 years
AIFP        GMAC Inc. 12/29/2008         $5.0 billion
                                                          Preferred Stock                                                                     Converts
                                                          Purchase Warrants                                                                   to common
                                                                                    5% of original preferred amount       9%
                                                          that are exercised                                                                  equity interest
                                                          immediately                                                                         after 7 years
                                                                                                                                      Continued on next page.
64                special inspector general I troubled asset relief program




     Equity Agreements                    (CONTINUED)

     TARP            Date of                           Cost                     Description of                                                                                              Term of
     Program Company Agreement                         Assigned                 Investment                        Investment Information                         Dividends                  Agreement
                                                                                                                                                                                            Converts
                                                                                Mandatorily Convertible                                                                                     to common
                                                                                                                  $4.5 billion                                   9%
                                                                                Preferred Stockg                                                                                            equity interest
                                                                                                                                                                                            after 7 years
     AIFP          GMAC Inc. 5/21/2009                 $7.5 billion             Preferred Stock                                                                                             Converts
                                                                                Purchase Warrants                                                                                           to common
                                                                                                                  5% of original preferred amount                9%
                                                                                that are exercised                                                                                          equity interest
                                                                                immediately                                                                                                 after 7 years
                                                                                Common Equity Interestg $3.0 billion                                             —                          Perpetual
                                                                                                       This equity interest was obtained by
                                                                                                       exchanging a prior debt obligation
     AIFP          GMAC Inc. 5/29/2009                 $0.9 billion             Common Equity Interest with General Motors. See “Debt       —                                               Perpetual
                                                                                                       Agreements” table for more
                                                                                                       information.
                                                                                Trust Preferred
                                                                                                                  $2.5 billion                                                              Redeemable
                                                                                Securities
                                                                                                                                                                                            upon the re-
     AIFP          GMAC Inc. 12/30/2009                $2.5 billion             Trust Preferred purchase                                                         8%
                                                                                                                                                                                            payment of the
                                                                                warrants that are        5% of trust preferred amount                                                       debenture
                                                                                exercised immediately
                                                                                Mandatorily Convertible
                                                                                                                  $1.3 billion
                                                                                Preferred Stock                                                                                             Converts
                                                                                Preferred Stock                                                                                             to common
     AIFP          GMAC Inc. 12/30/2009                $1.3 billion                                                                                              9%
                                                                                Purchase Warrants                                                                                           equity interest
                                                                                                                  5% of preferred amount                                                    after 7 years
                                                                                that are exercised
                                                                                immediately
                                                                                Trust Preferred
     AGP           Citigroup       12/23/2009          $2.2 billion
                                                                                Securities with warrants
                                                                                                                  Each of the membership interest                                           8 years with
                                   “9/30/2009                                   Membership interest in
     PPIP          ALL                                 $10.0 billion                                              will be funded upon demand from                —                          a possible 2-
                                   and later”                                   a partnership
                                                                                                                  the fund manager.                                                         year extension
                                                                                “Preferred Equity or              5% of risk-weighted assets for
                                                                                                                                                    “2% for first
                                                                                Subordinated Debt for             banks and bank holding companies.
     CDCI          ALL                                 $780.2 million                                                                               eights years, 9%
                                                                                banks, Subordinated               3.5% of total assets for credit
                                                                                                                                                    thereafter”
                                                                                Debt for credit unions”           unions.

     Notes: Numbers affected by rounding.
     a
       Announcement date of CPP Public Term Sheet.
     b
       Announcement date of CPP Private Term Sheet.
     c
       AIG exchanged Treasury’s $40 billion investment in cumulative preferred stock (obtained on 11/25/2008) for non-cumulative preferred stock, effectively cancelling the original $40
       billion investment.
     d
       The Equity Capital Facility was announced as a $30 billion commitment, but Treasury reduced this amount by the value of the AIGFP Retention Payment amount of $165 million.
     e
       Citigroup exchanged its $20 billion senior preferred equity (obtained on 12/31/2008) for trust preferred securities.
     f
       On December 30, 2009, Treasury exchanged $5.25 billion of preferred stock, which it acquired on 12/29/2009, into mandatorily convertible preferred stock (“MCP”).
     g
        On December 30, 2009, Treasury converted $3.0 billion of its existing MCP, which was invested in May 2009 and converted into common equity. Treasury’s equity ownership of GMAC
       increased from 35% to 56% due to this conversion.

     Sources: “TARP Capital Purchase Program Agreement, Senior Preferred Stock and Warrants, Summary of Senior Preferred Terms,” 10/14/2008; Treasury, “TARP Capital Purchase Pro-
     gram Agreement, (Non-Public QFIs, excluding S Corps and Mutual Organizations) Preferred Securities, Summary of Warrant Terms,” 11/17/2008; Treasury, “Securities Purchase Agree-
     ment dated as of November 25, 2008 between American International Group, Inc. and United States Department of Treasury,” 11/25/2008; Treasury, “TARP AIG SSFI Investment, Senior
     Preferred Stock and Warrant, Summary of Senior Preferred Terms,” 11/25/2008; Treasury, “Securities Purchase Agreement dated as of January 15, 2009 between Citigroup, Inc. and
     United States Department of Treasury,” 1/15/2009; Treasury, “Citigroup, Inc. Summary of Terms, Eligible Asset Guarantee,” 11/23/2008; “Securities Purchase Agreement dated as of
     January 15, 2009 between Bank of America Corporation and United States Department of Treasury,” 1/15/2009; Treasury, “Bank of America Summary of Terms, Preferred Securities,”
     1/16/2009; Treasury, “GMAC LLC Automotive Industry Financing Program, Preferred Membership Interests, Summary of Preferred Terms,” 12/29/2008; Treasury, Transactions Report,
     9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010.
                                                                                                                              quarterly report to congress I OCTOBER 26, 2010                        65




Table 2.7

LARGEST POSITIONS IN WARRANTS HELD BY TREASURY, BY PROGRAM, AS OF 9/30/2010
                                                                                                                                                                 “In” or                    Amount
                                                                                         Current Number                                  Stock Price              “Out”          “In the Money” or
                                                               Transaction                   of Warrants                  Strike               as of             of “the        “Out of the Money”
Participant                                                    Date                          Outstanding                   Price         9/30/2010             Money?”a           as of 9/30/2010
Capital Purchase Program (“CPP”):
  Citigroup Inc.                                               10/28/2008                      210,084,034               $17.85                    $3.91                  OUT             ($13.94)
  Regions Financial Corporation                                11/14/2008                        48,253,677              $10.88                    $7.27                  OUT              ($3.61)
  Fifth Third Bancorp                                          12/31/2008                        43,617,747              $11.72                  $12.03                    IN              $0.31
  KeyCorp                                                      11/14/2008                        35,244,361              $10.64                    $7.96                  OUT              ($2.68)
Systemically Significant Failing
Institutions (“SSFI”) Program:
  AIGb                                                         11/25/2008                          2,689,938             $50.00                  $39.10                   OUT             ($10.90)
  AIGb                                                         4/17/2009                                     150          ­$0.00c                $39.10                    IN             $39.10
Targeted Investment Program (“TIP”):
  Citigroup Inc.                                               12/31/2008                      188,501,414               $10.61                    $3.91                  OUT              ($6.70)
Asset Guarantee Program (“AGP”):
  Citigroup Inc.                                               1/16/2009                         66,531,728              $10.61                    $3.91                  OUT              ($6.70)
Notes: Numbers affected by rounding.
a
  When a stock’s current price rises above the warrant’s strike price, it is considered “in the money.” Otherwise, it is considered “out of the money.”
b
  All warrant and stock data for AIG are based on the 6/30/2009 reverse stock split of 1 for 20.
c
  Strike price is $0.00002.

Source: Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/7/2010; Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com.


Table 2.8

Dividend, Interest, Distribution, and other income Payments
                             Dividend                            Interest                Distributiona               Other Incomeb                                Total
AGP                  $440,016,889                                      $—                              $—           $2,246,000,000                  $2,686,016,889
AIFPc                1,854,394,109                        931,122,587                                    —                15,000,000                  2,800,516,696
ASSP                                   —                    31,949,931                                   —                84,000,000                      115,949,931
CPP   d
                     9,858,643,237                          48,788,439                                   —           3,014,551,034                  12,921,982,710
PPIP                                   —                    56,295,661                   159,054,852                      20,644,319                      235,994,832
TIP                  3,004,444,444                                       —                               —                              —             3,004,444,444
Total          $15,157,498,679                     $1,068,156,618                    $159,054,852                 $5,380,195,353                $21,764,905,502

Notes: Data as of 9/30/2010. This information does not reconcile to the “TARP Budget” provided by Treasury on 10/7/2010.
a
   Distributions are investment proceeds from the PPIF’s trading activities allocated to the partners, including Treasury, not later than 30 days after the end of each
  quarter.
b
  Other income includes Citigroup common stock gain for CPP, Citigroup payment for AGP, additional note proceeds from the auto programs, and repayments associ-
  ated with the termination of the TCW fund for PPIP.
c
  Includes AWCP.
d
  Includes $13 million fee received as part of the Popular exchange.

Source: Treasury, response to SIGTARP data call, 10/12/2010; Treasury, response to SIGTARP data call, 10/18/2010; Treasury, Transactions Report, 9/30/2010.
66            special inspector general I troubled asset relief program




                                                     Homeowners Support Programs
                                                     The Administration created the Making Home Affordable (“MHA”) program on
                                                     February 18, 2009, to help struggling homeowners reduce their monthly mortgage
                                                     payments to sustainable levels, thereby preventing avoidable foreclosures.93 The
                                                     program’s goal is “to help as many as three to four million financially struggling
                                                     homeowners avoid foreclosure by modifying loans to a level that is affordable for
                                                     borrowers now and sustainable over the long term.”94 MHA and related programs
                                                     include four TARP-funded initiatives: a loan modification program (which in-
                                                     cludes distinct subprograms), a Federal Housing Administration (“FHA”)-Treasury
                                                     refinancing program, a program to support state-funded foreclosure prevention
                                                     programs, and a program that offers homeowners an opportunity to modify their
                                                     second mortgages to make them more affordable when their first mortgages
                                                     have already been modified. These programs, along with parallel programs at the
                                                     Government-sponsored enterprises (“GSEs”), make up what was originally an-
                                                     nounced as a $75 billion initiative.95
                                                         Of the anticipated $75 billion cost for MHA, $50 billion was originally to be
     Loan Servicer: Servicers administer
                                                     funded through TARP. Treasury has since reduced this amount to a final pro-
     monthly mortgage payments until the
                                                     gram obligation of $45.6 billion for MHA and its related programs.96 TARP funds
     loan is repaid. This includes sending
                                                     support the Home Affordable Modification Program (“HAMP”), the Second
     monthly payment statements and col-
     lecting monthly payments, maintaining
                                                     Lien Modification Program (“2MP”), the Hardest-Hit Fund (“HHF”), and the
     records of payments and balances, col-          FHA Refinance programs, along with efforts at FHA and the U.S. Department
     lecting and paying taxes and insurance          of Agriculture (“USDA”) to use HAMP to modify mortgages that those agencies
     (and managing escrow and impound                insure.97
     funds), remitting funds to mortgage                 TARP money is not used for incentive payments for modifications related to
     investors, and following up on delin-           loans owned or guaranteed by the Federal National Mortgage Association (“Fannie
     quencies.                                       Mae”) or the Federal Home Loan Mortgage Corporation (“Freddie Mac”). GSEs
                                                     Fannie Mae and Freddie Mac pay those incentives from their operating funds.
     Investor: Owner of mortgage loans,              When HAMP was announced, the Administration estimated that the GSEs would
     or bonds backed by mortgage loans,              contribute up to $25 billion to modify mortgages they own or guarantee.98
     who receives interest and principal
                                                         MHA and related programs include the following initiatives:
     payments from monthly mortgage
     payments. Servicers manage the
                                                     •	 Home Affordable Modification Program (“HAMP”) — HAMP is intended to
     cash flow from these payments and
     distribute them to investors according
                                                        encourage loan servicers and investors, through incentive payments, to modify
     to contractual ownership rights.                   eligible first-lien mortgages so that the monthly payments of homeowners who
                                                        are currently in default or at imminent risk of default will be reduced to afford-
                                                        able and sustainable levels. HAMP also includes the following subprograms:
       For more information on how servicers
                                                        çç Home Price Decline Protection (“HPDP”) — HPDP is intended to encour-
       operate, see Section 3: “The Economics               age additional investor participation and HAMP modifications in areas with
       of Loan Servicing” in this report.                   recent price declines by providing TARP-funded incentives to offset potential
                                                            losses in home values.99
                                                                             quarterly report to congress I OCTOBER 26, 2010            67




     çç Principal Reduction Alternative (“PRA”) — PRA is intended to encour-
         age the use of principal reduction in modifications for eligible homeown-
         ers whose homes are worth significantly less than the remaining amounts
         outstanding under their first-lien mortgage loans. It provides TARP-funded
         incentives to offset a portion of the principal reduction provided by the
         investor.100
     çç Home Affordable Unemployment Program (“UP”) — UP is intended to offer
         assistance to unemployed homeowners through temporary forbearance of a
         portion of their payments.
     çç Home Affordable Foreclosure Alternatives (“HAFA”) — HAFA is intended
         to provide incentives to servicers and borrowers to pursue short sales and
         deeds-in-lieu of foreclosure for HAMP-eligible borrowers in cases in which
         the borrower is unable or unwilling to enter into a modification.101
•	   Second Lien Modification (“2MP”) — 2MP is intended to modify second-lien
     mortgages when a corresponding first lien is modified under HAMP. Servicer
     participation in 2MP is not mandatory.102 As of September 30, 2010, 19 ser-
     vicers participating in HAMP’s first-lien modification program have agreed to
     modify second liens under 2MP. These servicers represent approximately 60% of
     the second-lien servicing market.103
•	   Agency-Insured Programs — Like their TARP counterparts, these initiatives for
     home loans insured by FHA, USDA, and the Department of Veterans Affairs
     (“VA”) offer assistance to help eligible borrowers reduce payments on their
     first-lien mortgages to more affordable levels.104 Treasury is providing TARP
     incentives to encourage modifications under the FHA and USDA modification
     programs.
•	   FHA Refinance — This initiative, which is partially supported by TARP funds, is
     intended to encourage FHA refinancing of existing underwater mortgage loans
                                                                                              Underwater Mortgage: Mortgage loan
     that are not insured by FHA. To facilitate the refinancing of new FHA-insured
                                                                                              on which a homeowner owes more
     loans under this program, TARP funds will provide incentives to existing second          than the home is worth, typically after
     lien holders who agree to partial or full extinguishment of second liens under           a decline in the home’s value.
     the Treasury/FHA Second Lien Program (“FHA2LP”). The initiative also pro-
     vides that Treasury, through TARP, will provide up to $8 billion in loss coverage
     on newly originated FHA first-lien loans.105
•	   Housing Finance Agency (“HFA ”) Hardest-Hit Fund (“HHF”) — A TARP-
     funded program, HHF is intended to fund state-run foreclosure prevention
     programs in states hit hardest by the decrease in home prices and in states with
     high unemployment rates.
68   special inspector general I troubled asset relief program




                                            Status of TARP Funds Obligated to MHA and Related
                                            Programs
                                            Treasury obligated $45.6 billion to support MHA and its related programs, of
                                            which $0.6 billion, or 1.3%, has been expended.106 Effective October 1, 2010,
                                            Treasury established that the aggregate amount available to pay servicer, borrower,
                                            and investor incentives under MHA-related programs would be capped at $29.9
                                            billion.107 The amount obligated to each MHA-participating servicer is estab-
                                            lished pursuant to its Program Participation Cap under its Servicer Participation
                                            Agreement (“SPA”) with Treasury.108 Treasury set each servicer’s initial cap by
                                            estimating the number of services expected to be performed by each servicer across
                                            all MHA and MHA-related programs in which it participates during the term of the
                                            SPA. According to new guidance issued by Treasury, a servicer’s cap will be ad-
                                            justed based on several factors: (1) upwards or downwards, pursuant to a Servicer
                                            Cap Model aiming to reallocate from servicers that have a large amount of unused
                                            funds under their cap to servicers with a small amount of unused funds under
                                            theirs; or (2) downwards, based on Treasury’s analysis of the servicer’s eligible loan
                                            portfolio.109
                                                 Treasury has announced the following program-specific cost estimates for MHA
                                            and its related programs:110

                                            •	 Treasury has indicated that the $29.9 billion obligated to servicers is
                                               apportioned among the different programs as follows:111
                                               çç Treasury has estimated that approximately $21.4 billion will be allocated to
                                                  pay borrower, servicer, and investor incentives for first-lien modifications
                                                  under the HAMP program, including approximately $2.0 billion that will be
                                                  allocated to pay investor incentives under PRA.
                                               çç Treasury has estimated that an additional approximately $1.3 billion will be
                                                  allocated to pay investor incentives under HPDP.
                                               çç Treasury has estimated that approximately $4.1 billion will be allocated to
                                                  pay incentives in connection with foreclosure alternatives under HAFA, such
                                                  as short sales/deeds-in-lieu of foreclosure (“SS/DIL”).
                                               çç Treasury has estimated that approximately $132.6 million will be allocated to
                                                  second-lien holders to modify or extinguish second liens under 2MP.
                                               çç Treasury has estimated that approximately $234.4 million will be allocated
                                                  under Treasury FHA-HAMP.
                                               çç Treasury has estimated that approximately $17.8 million will be allocated
                                                  under the USDA Rural Housing Service’s RD-HAMP.
                                               çç Treasury has estimated that approximately $2.7 billion will be allocated to
                                                  pay servicer and investor incentive payments to modify or extinguish second
                                                  liens as part of the FHA2LP.
                                                                              quarterly report to congress I OCTOBER 26, 2010                                69




•	 Treasury and HUD have also announced that TARP will fund up to $8.1 bil-
   lion to purchase a “letter of credit” providing up to $8.0 billion in potential loss
                                                                                                Letter of Credit: Letter from a bank
   coverage and pay an additional $117 million in fees under the FHA Refinance                  guaranteeing that a buyer’s payment to
   program.112                                                                                  a seller will be received on time and for
•	 Treasury has obligated a total of $7.6 billion in TARP funding for the HFA HHF               the correct amount. In the event that
   program.113                                                                                  the buyer is unable to make payment
                                                                                                on the purchase, the bank is required
    Table 2.9 shows the breakdown in estimated funding allocations for these                    to cover the full or remaining amount
programs.                                                                                       of the purchase.
    Under HAMP and its related programs, Treasury had signed agreements with
145 servicers as of October 3, 2010.22 Of the $29.9 billion obligated to participat-
ing servicers under their SPAs, $483.3 million was spent on completing permanent
                                                                                           Table 2.9
modifications of first liens (206,734 of which remain active), $10,500 on
completing 21 permanent modifications of second liens under the 2MP, and                    TARP estimated allocations
$1.6 million on incentives for 342 short sales or deeds-in-lieu under HAFA. Of the          by homeowners Support
                                                                                            programs, AS OF 9/30/2010
combined amount of incentive payments, approximately $268.0 million went to                 ($ BILLIONS)
pay servicer incentives, $164.9 million went to pay investor incentives, and $52.0         HAMP First Lien                                       $19.4
million went to pay borrower incentives.114 TARP has obligated $7.6 billion to state       (Standard Modification)
Housing Finance Agencies participating in the HHF. The remaining $8.1 billion              HAMP First Lien (PRA Modification)                        2.0
has been obligated under the FHA Refinance program to purchase a letter of credit          HAMP First Lien (HPDP)                                    1.3
to provide up to $8.0 billion in first loss coverage under the FHA Refinance pro-          HAFA                                                      4.1
gram and to pay $117 million in fees.115                                                   UP                                                         —a
    Servicers of loans owned or securitized by a GSE are required to participate in        2MP                                                       0.1
that GSE’s HAMP for their entire portfolio of GSE loans. Modifications of GSE              Treasury FHA-HAMP                                         0.2
loans are covered by servicers’ contracts with the GSEs and the GSEs’ respective           RD-HAMP                                                  0.0b
servicing guides. Incentive payments to servicers and investors participating in GSE       Treasury/FHA Second Lien                                  2.7
                                                                                           Program (FHA2LP-2nd Lien)
modification programs will be paid from the respective GSE’s operating funds.
Treasury initially estimated that total incentive and modification expenses would          FHA Refinance (Loss-Coverage)                            8.1c

reach $25 billion under MHA, but declined to provide SIGTARP with an update                HHF                                                       7.6

as to whether that is still an accurate estimate. As of September 30, 2010,                Total Allocations                                     $45.6

approximately $451.0 million was spent on completing permanent modifications               Notes: Numbers may not total due to rounding.
                                                                                           a
                                                                                             Treasury does not allocate TARP funds to UP.
(259,974 of which remain active). Of the combined amount for participant incen-            b
                                                                                             Treasury estimates that $17.8 million will be allocated to
                                                                                             RD-HAMP.
tives, approximately $367.6 million went to pay servicers’ incentives and approxi-         c
                                                                                             This amount includes the up to $117 million in fees Treasury
                                                                                             will incur for the availability and usage of the $8.0 billion
mately $83.4 million went to pay borrowers’ incentives.116 The breakdown of incen-           letter of credit.
tive payments for non-GSE and GSE-owned loans is shown in Table 2.10.                      Source: Treasury, response to SIGTARP data call,
                                                                                           10/18/2010.
70   special inspector general I troubled asset relief program




                                            Table 2.10

                                             Breakdown of incentive payments (non-GSE and GSEs),
                                             As of 9/30/2010 ($ Thousands)
                                            First-Lien Modification Incentives                                           Non-GSEs         GSEs
                                            Servicer Incentive Payment ($1,000)                                          $205,450.0   $262,627.0
                                            Servicer Current Borrower Incentive Payment ($500)                              7,807.0     17,460.0
                                            Annual Servicer Pay for Success                                                54,261.3     87,512.4
                                            Investor Current Borrower Incentive Payment ($1,500)                           22,380.0           ­—
                                            Investor Monthly Reduction Cost Share             a
                                                                                                                          133,622.3           ­—
                                            HPDP                                                                            8,755.4           ­—
                                            Annual Borrower Pay for Success                                                51,017.8     83,430.6
                                            Total                                                                        $483,293.7   $451,030.0
                                            HAFA Incentives                                                                                   —
                                            Servicer Incentive Payment                                                        498.0           —
                                            Investor Reimbursement                                                            133.4           —
                                            Borrower Relocation                                                               996.0           —
                                            Total                                                                          $1,627.4          $—

                                            Notes: Numbers may not total due to rounding.
                                            a
                                              Investor Monthly Reduction Cost Share is considered an incentive payment
                                            Source: Treasury, response to SIGTARP data call, 10/8/2010.




                                            HAMP
                                            According to Treasury, HAMP is intended “to help as many as three to four million
                                            financially struggling homeowners avoid foreclosure by modifying loans to a level
                                            that is affordable for borrowers now and sustainable over the long term.”117 The
                                            Administration envisioned a “shared partnership” between the Government and
                                            investors to bring distressed borrowers’ first-lien monthly payments down to an
                                            “affordable” level — defined as 31% of the borrower’s monthly gross income.118
                                                Under the program, private-sector investors are responsible for all payment re-
                                            ductions necessary to bring the monthly payments of borrowers who have suffered
                                            economic hardship down to 38% of their monthly gross income. The additional
                                            reductions needed to bring the monthly payment down to a 31% ratio are shared
                                            between investors and the Government.119 Treasury also compensates investors for
                                            reducing principal on certain underwater mortgages.120
                                                Borrowers request participation in HAMP by sending their servicers the follow-
                                            ing documents, referred to as the “initial package”:121

                                            •	 a “request for modification and affidavit” form (“RMA”)
                                            •	 signed and completed requests for Federal tax return transcripts under IRA
                                               Forms 4506-T and 4506T-EZ (including all schedules and forms)
                                            •	 evidence of income (employment income, rental income, etc.)
                                                                                 quarterly report to congress I OCTOBER 26, 2010          71




   The RMA provides the servicer with the borrower’s financial information, in-
cluding the cause of the borrower’s hardship, defined as any of the following:122

•	 reduction in or loss of income that was supporting the mortgage payment
•	 change in household financial circumstances
•	 recent or upcoming increase in the monthly mortgage payment
•	 increase in other expenses
•	 lack of sufficient cash reserves to maintain payment on the mortgage and cover
   basic living expenses
•	 excessive monthly debt payments and overextension with creditors, e.g., the bor-
   rower is required to use other loans to make the mortgage payment

Trial Plan Evaluation
The servicer must verify the accuracy of the borrower’s income and other eligibility
criteria before offering the borrower a trial modification plan.123 After verifying eligi-
bility and income, the servicer follows the modification steps prescribed by HAMP
guidelines to reduce the borrower’s monthly mortgage payment to 31% of his or her
gross monthly income.124
    First, the servicer capitalizes any unpaid interest and fees (i.e., adds them to
the outstanding principal balance), then reduces the interest rate to as low as 2%.
If the resulting payment reduction does not reach the 31% threshold, the servicer
may then extend the term up to a maximum of 40 years from the modification date,
which will further lower the monthly payment amount. If that is still insufficient,
the servicer may forbear principal (defer its due date). The forbearance amount is
not interest-bearing and results in a lump-sum payment due upon the earliest of
the sale date of the property, the payoff date of the interest-bearing mortgage bal-
ance, or the maturity date of the mortgage.125
    Servicers are allowed, but not required, to forgive principal to achieve the debt-
to-income (“DTI”) ratio goal of 31% on a stand-alone basis or before any of the
other HAMP modification steps described above.126 Finally, according to MHA’s
servicers’ handbook, “all loans that meet HAMP eligibility criteria and are either
[considered] to be in imminent default or delinquent [by] two or more payments
must be evaluated using a standardized NPV test that compares the NPV result for
a modification to the NPV result for no modification.”127 The NPV test compares
the expected cash flow from a modified loan to the cash flow from the same loan                   NPV Test: NPV tests compare the
with no modifications, based on certain assumptions. A positive NPV test result                   money generated by a foreclosure
indicates that a modified loan is more valuable to the investor than if the loan is               alternative, such as a loan modifica-
not modified. In that case, under HAMP rules, the servicer must offer the borrower                tion, to the amount an investor can
                                                                                                  reasonably expect to recover in a
a mortgage modification. If the test generates a negative result, modification is
                                                                                                  foreclosure sale.
optional.128
72            special inspector general I troubled asset relief program




                                                         With respect to loans owned or guaranteed by the GSEs, servicers are required
                                                     to offer a trial modification if the NPV test results are equal to or greater than
                                                     negative $5,000. In other words, even if the NPV test indicates that a modified
                                                     mortgage would cost the GSE up to $5,000 more than foreclosure would, the ser-
                                                     vicer still must offer the modification.129
     Trial Modification: Under HAMP, a trial
     modification is a period of at least            How Trial Modifications Work
     three months in which a borrower is             As originally intended, HAMP trial period modifications were supposed to last
     given a chance to establish that he or          three months; however, according to Treasury, as of September 30, 2010, there
     she can make lower monthly mortgage             were a combined total of 173,592 (Non-GSE and GSE) active trials, of which
     payments.                                       76,502, or 44.1%, had lasted more than six months.130
                                                         During a trial period, the borrower must make at least three modified pay-
                                                     ments.131 Under a “trial period plan” (“TPP”), borrowers may qualify for a perma-
                                                     nent modification as long they make all required payments on time, are eligible,
                                                     and provide proper documentation, including a modification agreement.132 These
                                                     permanent modifications last for at least five years.133 After five years, the loan’s
                                                     interest rate can increase if the modified interest rate had been reduced below the
                                                     current 30-year conforming fixed interest rate on the date of the initial modifica-
                                                     tion. The interest rate can rise incrementally by up to 1% per year until it reaches
                                                     that rate.134 Otherwise, the modified interest rate remains permanent.
                                                         If the borrower misses a payment during the trial or is denied a permanent
                                                     modification for any other reason, the borrower is, in effect, left with the original
                                                     terms of the mortgage. The borrower is responsible for the difference between the
                                                     original mortgage payment amount and the reduced trial payments that were made
                                                     during the trial modification period. In addition, the borrower may be liable for late
                                                     fees that were generated during the trial period. In other words, a borrower can
                                                     be assessed late fees for failing to make the original pre-modification scheduled
                                                     payments during the trial period, even though under the trial modification the bor-
                                                     rower is not required to make these payments. This applies to borrowers in default
                                                     when they enter the program as well as those in “imminent default,” who may
                                                     never have missed a mortgage payment previously.135

                                                     Modification Incentives
                                                     Servicers receive a one-time payment of $1,000 for each permanent modification
                                                     completed under HAMP. Servicers receive an additional compensation amount of
                                                     $500 if the borrower was current but at imminent risk of default before enrolling
                                                     in the trial plan. For borrowers whose monthly mortgage payment was reduced
                                                     through HAMP by 6% or more, servicers also receive “pay for success” payments
                                                     of up to $1,000 annually for three years if the borrower remains in good standing
                                                     (defined as less than 90 days delinquent).136
                                                                            quarterly report to congress I OCTOBER 26, 2010            73




    Borrowers whose monthly mortgage payment is reduced through HAMP by
6% or more and who make monthly payments on time earn an annual “pay for
performance” principal balance reduction.137 The annual reduction amount is up
to $1,000. The servicer receives this payment and applies it toward reducing the
interest-bearing mortgage loan balance. The principal balance reduction accrues
monthly and is payable for each of the first five years as long as the borrower re-
mains current on his or her monthly payments.138
    An investor is entitled to compensation, for up to five years, equal to one-half
of the dollar difference between the borrower’s monthly payment (principal and
interest) under the modification based on 31% of gross monthly income and the
lesser of the borrower’s monthly principal and interest at 38%, and the borrower’s
pre-modification monthly principal and interest payment.139 If applicable, investors
also earn an extra one-time, up-front payment of $1,500 for modifying a loan that
was current before the trial period (i.e., in imminent default) and whose monthly
payment was reduced by at least 6%.140

HPDP
HPDP is intended to address the fears of investors who may withhold their con-
sent to loan modifications due to potential future declines in the value of the
homes that secure the mortgages, should the modification fail and the loan go into
foreclosure. In such a circumstance, the investor could suffer greater losses for
offering modifications than under an immediate foreclosure. By providing incentive
payments to mitigate that potential loss for a 24-month period, Treasury hopes to
encourage more lenders and investors to modify loans.
     Under HPDP, Treasury has published a standard formula, based on the un-
paid principal balance (“UPB”) of the mortgage, the projected decline in area
home prices, and the loan-to-value ratio (“LTV”), that will determine the size of
the incentive payment. The projected home price decline is determined by the
change in surrounding-area home prices during the six months before the start of
the HAMP modification.141 The HPDP incentive payments accrue monthly over a
24-month period and are paid out annually on the first and second anniversary of             Loan-to-Value Ratio (“LTV”): Lending
                                                                                             risk assessment ratio that financial
the initial HAMP trial period mortgage payment. Accruals are discontinued if the
                                                                                             institutions and other lenders examine
borrower loses good standing under HAMP by missing three mortgage payments or
                                                                                             before approving a mortgage, which is
if the mortgage loan is paid in full. If mortgage payments are discontinued, inves-
                                                                                             calculated by dividing the outstanding
tors are entitled to receive all previously accrued but unpaid incentive payments.142        amount of the loan by the value of the
Under HPDP, whether a particular area actually suffers further decline in home               collateral backing the loan.
prices is irrelevant. The amount of the incentive depends entirely on the estimated          Typically, assessments with high
decline in home prices in the market over the next year, based on changes in the             LTV ratios are generally seen as higher
related home price index during the six months preceding the modification.143 As of          risk.
September 30, 2010, approximately $8.8 million in TARP funds had been paid to
investors in connection with 5,786 modifications under HPDP.144
74          special inspector general I troubled asset relief program




     Table 2.11                                           Table 2.12

     HAMP SNAPSHOT, as of                                 HAMP modification activity by gse/non-gse, as of 9/30/2010
     9/30/2010                                                                                                            Trials                      Permanents
     Number of HAMP Trials                                                    Trials    Trials              Trials Converted to Permanents Permanents   Active and
     Started since Program                   1,369,414                      Started Cancelled              Active   Permanent     Cancelled    Active Trials Active
     Inception                                            GSE              750,876         387,632        88,197         275,047   14,784    259,974       348,171
     Number of Trial
                                                699,924   Non-GSE          618,538         312,292        85,395         220,851   13,978    206,734       292,129
     Modifications Cancelled
     Number of Permanent                                  Total        1,369,414          699,924 173,592                495,898   28,762    466,708      640,300
                                                 28,762
     Modifications Cancelled                              Source: Treasury, response to SIGTARP data call, 10/15/2010.

     Source: Treasury, response to SIGTARP data call,
     10/15/2010.


                                                           Modification Statistics
                                                           As of September 30, 2010, a total of 640,300 mortgages were undergoing modi-
                                                           fication, either permanently or on a trial basis, under HAMP. Of those, 466,708
                                                           were active permanent modifications and 173,592 were active trial modifications.
                                                           A snapshot of HAMP modifications is shown in Table 2.11. HAMP modification
                                                           activity, broken out by GSE and non-GSE loans, is shown in Table 2.12.
                                                               Treasury’s MHA Servicer Performance Report (“MHA Report”) for June 2010
                                                           included data on the delinquency performance of HAMP permanent modifications.
                                                           Treasury highlighted the low re-default rate among HAMP participants, citing
                                                           statistics that only 7.7% of loans permanently modified in the third quarter of 2009
                                                           were 60 days or more delinquent nine months after being modified, and only 2.4%
                                                           of loans modified in that period were 90 days or more delinquent. After questions
                                                           were raised, Treasury discovered that a number of loans modified in the third quar-
                                                           ter of 2009 had been omitted from the analysis and rescinded the data. The compa-
                                                           rable statistics in the subsequent, corrected data release on August 6, 2010 were
                                                           indeed higher: 19.6% and 14.9%, respectively, for 60- and 90-day delinquencies.145
                                                           SIGTARP is currently auditing the circumstances surrounding this error.
                                                               On September 10, 2010, Treasury’s monthly MHA Report included non-
                                                           compliance rates for Wells Fargo Bank and JP Morgan Chase that were higher than
                                                           the average for servicers participating in the HAMP modification program. Treasury
                                                           has indicated that it will require these servicers to make changes to their processes
                                                           for soliciting and evaluating borrowers’ eligibility for participation in HAMP’s modi-
                                                           fication program. Compliance reviews at Bank of America also identified necessary
                                                           changes to the bank’s solicitation and eligibility evaluation processes.146
                                                                               quarterly report to congress I OCTOBER 26, 2010              75




HAFA
HAFA enables borrowers to pursue short sales or deeds-in-lieu of foreclosure in
cases where the borrower meets basic HAMP eligibility but does not qualify for                  Short Sale: Sale of a home for less
or cannot successfully complete a trial modification.147 Under HAFA, the servicer               than the mortgage value. A borrower
forfeits the ability to pursue a deficiency judgment against a borrower who uses                sells the home and the lender collects
a short sale or deed-in-lieu when the property is worth less than the outstanding               the proceeds as full or partial satisfac-
amount on the mortgage.148 HAFA provides financial incentives and reimburse-                    tion of the unpaid mortgage balance,
                                                                                                thus avoiding foreclosure.
ments to borrowers, servicers, and investors in the form of relocation assistance,
one-time completion, and reimbursement for the release of subordinate liens. The
                                                                                                Deed-in-Lieu of Foreclosure: Instead
program went into effect on April 5, 2010.
                                                                                                of going through the process of
    The incentive payment for borrowers who agree to relinquish their homes is
                                                                                                foreclosure, the borrower voluntarily
$3,000. Additionally, servicer incentives are $1,500 for each successful short sale or          surrenders the deed to the home to
deed-in-lieu transaction. In the case of a short sale only, for the release of subor-           the lender, often as satisfaction of the
dinate liens, the servicer “will authorize the settlement agent to allow a portion of           unpaid mortgage balance.
the gross sale proceeds as payment(s) to subordinate mortgage lien holder(s) in
exchange for a lien release and full release of borrower liability.”149 The maximum             Deficiency Judgment: Court order
allowable payoff to subordinate lien holders is 6% of the outstanding loan bal-                 authorizing a lender to collect part of
ance, subject to an aggregate cap of $6,000 for all the loans in total.150 For such             an outstanding debt resulting from the
short sales, HAFA will pay incentives for subordinate lien releases to a maximum                foreclosure and sale of a homeowner’s
of $2,000 per lien, which is to be earned on a one-for-three matching basis (in                 property or from the repossession of
                                                                                                a property securing a debt. A defi-
other words, for each $3 an investor pays to secure release of a subordinate lien,
                                                                                                ciency judgment is rendered after the
the investor gets $1, up to the $2,000 maximum).151 As of September 30, 2010,
                                                                                                foreclosed or repossessed property is
approximately $1.6 million in TARP funds had been paid to investors, borrowers,
                                                                                                sold and the proceeds are insufficient
and servicers in connection with 342 short sales or deeds-in-lieu completed under
                                                                                                to repay the full mortgage.
HAFA.152

2MP
According to Treasury, 2MP is designed to work in tandem with HAMP and
includes homeowner relief for borrowers with second mortgages serviced by a
participating 2MP servicer. Under the program, if the first lien is modified under
HAMP, a participating servicer must modify or extinguish the second lien as well.153
For a modification, the servicer first reduces the interest rate, which is determined
by the nature of the loan. If it is an interest-only loan (non-amortizing), the interest
rate drops to 2%, while the interest rate for amortizing second liens (those that re-
quire payments of both interest and principal) decreases to 1%.154 When modifying
the second lien, the servicer also matches the extension of the term of years for the
modified first lien. To the extent that there is forbearance or principal reduction for
the modified first lien, the second lien forbears or forgives the same percentage.155
    The servicer gets $500 upon modification of a second lien. If a borrower’s
monthly second-lien payment is reduced by 6% or more, the servicer is potentially
76                 special inspector general I troubled asset relief program




                                                                      eligible for an annual “pay for success” incentive of $250 annually for up to three
                                                                      years, and the borrower is potentially eligible for an annual “pay for performance”
                                                                      principal balance reduction payment of up to $250 for up to five years.156 Investors
                                                                      receive a modification incentive payment equal to an annualized amount of 1.6% of
                                                                      the unmodified UPB, paid on a monthly basis for up to five years. If the borrower
Table 2.13
                                                                      misses three consecutive payments on his or her modified second lien or if the
2MP Compensation per dollar of                                        associated first lien is no longer in good standing, no further incentive payments
loan principal extinguished
                                                                      are made to the servicer.157 If the second lien is fully or partially extinguished, the
Mark-to-Market                                    115
Loan-to-Value Ratio              <115               to       >140
                                                                      investor receives a payment of a percentage of the amount extinguished, using the
(“LTV”) Range                                     140                 schedule shown in Table 2.13. This schedule, however, is applicable only to those
Incentive Amounts                $0.21         $0.15        $0.10     loans that have been six months delinquent or less within the previous year. For
Note: Loans less than or equal to six months past due. For loans      loans that have been more than six months delinquent within the previous year,
that were more than six months delinquent within the previous year,
investors will receive $0.06 per dollar in compensation, regardless   investors are paid $0.06 per dollar of the unpaid principal balance of second liens
of the LTV ratio.
                                                                      being extinguished, regardless of the LTV ratio.158 As of September 30, 2010,
Source: Treasury, “Update to the Second Lien Modification Program,”
3/26/2010, https://www.hmpadmin.com/portal/docs/second_lien/          approximately $10,500 in TARP funds had been paid to servicers in connection
sd0905r.pdf, accessed 8/18/2010.
                                                                      with 21 modifications under 2MP.159

                                                                      Agency-Insured Programs
                                                                      Mortgage loans insured or guaranteed by Federal Government agencies, such as
                                                                      FHA, VA, and USDA’s Rural Housing Service (“RHS”), are eligible for modifica-
                                                                      tion under HAMP, subject to each agency’s issuance of HAMP guidance. Similar
                                                                      to HAMP, the FHA (“FHA-HAMP”) and RHS (“RD-HAMP”) programs reduce
                                                                      borrowers’ monthly mortgage payments to 31% of their gross monthly income and
                                                                      require borrowers to complete trial payment plans before their loans are perma-
                                                                      nently modified. Subject to meeting Treasury’s eligibility criteria, borrowers are
                                                                      eligible to receive a maximum $1,000 pay-for-performance compensation incentive
                                                                      and servicers are eligible to receive a maximum $1,000 pay-for-success compen-
                                                                      sation incentive from Treasury on mortgages in which the monthly payment was
                                                                      reduced by at least 6%.160 Incentive payments to servicers are paid annually for the
                                                                      first three years after the first anniversary of the first trial payment due date, as long
                                                                      as the loan remains in good standing and has not been fully repaid at the time the
                                                                      incentive is paid. Incentive payments to borrowers are paid over five years.161 Unlike
                                                                      HAMP, no payments are made to investors because they already have the benefit of
                                                                      a Government loan guarantee program.162 In order to participate in these programs,
                                                                      by October 3, 2010, servicers that previously executed a SPA were required to ex-
                                                                      ecute an Amended or Restated SPA or an additional Service Schedule that includes
                                                                      Treasury FHA-HAMP or RD-HAMP.163
                                                                          VA-HAMP follows the typical HAMP modification procedure, aiming to reduce
                                                                      monthly mortgage payments to 31% of a borrower’s gross monthly income.164
                                                                      However, VA-HAMP modifications do not have a trial period and the modification
                                                                             quarterly report to congress I OCTOBER 26, 2010   77




agreement immediately changes the installment amount of the mortgage loan.165
Treasury does not provide incentive compensation related to VA-HAMP.166 VA-
HAMP also does not require servicers to sign a SPA.167 As of September 30, 2010,
the amount of TARP funds and the number of modifications performed under the
agency-insured programs was not yet available.168

Unemployment Program (“UP”)
The Home Affordable Unemployment Program (“UP”) was announced on March
26, 2010, to provide temporary assistance to unemployed borrowers while they
look for work.169 Under the program, borrowers who meet certain qualifications can
receive unemployment forbearance for a portion of their mortgage payments for at
least three months, unless they find work. According to the directive, “[s]ervicers
may extend the minimum forbearance period in increments at the servicer’s discre-
tion, in accordance with investor and regulatory guidelines.”170
    Before the guidelines were in place, servicers were required to consider unem-
ployment insurance benefits as income when assessing a borrower for HAMP eligi-
bility, if the borrower could document that the income would continue for at least
nine months.171 Treasury cancelled this option with the adoption of UP effective
July 1, 2010.172 As of September 30, 2010, Treasury was unable to report on the
number of borrowers who are participating in UP because it reports that it is still in
the initial stages of designing a system to report data under UP.173

Who Is Eligible
For eligible UP borrowers, HAMP servicers must offer an UP forbearance plan of
at least three months. Criteria are as follows:174

•	 The borrower is HAMP eligible.
•	 The mortgage is secured by a one- to four-unit property, one unit of which is the
   borrower’s principal residence and is not vacant or condemned.
•	 The mortgage is a first-lien mortgage originated on or before January 1, 2009.
•	 The UPB for a one-unit property is equal to or less than $729,750 (multi-unit
   limits are higher).
•	 The mortgage was not modified under HAMP previously.
•	 The borrower has not received a previous UP forbearance.
•	 The request was made before the first-lien mortgage loan was seriously delin-
   quent, i.e., three months or more overdue.
•	 Pursuant to investor or regulator guidelines, servicers may require a borrower to
   have received unemployment benefits for up to three months before the forbear-
   ance period begins.
•	 The borrower is unemployed and can document his or her receipt of unemploy-
   ment benefits.
78   special inspector general I troubled asset relief program




                                                Borrowers enrolled in HAMP trials who lose their jobs may seek consideration
                                            under UP as long as their mortgage loan was not seriously delinquent (before three
                                            monthly payments are due and unpaid on the last day of the third month) as of
                                            the first trial period payment due date. If the borrower becomes eligible for the UP
                                            forbearance plan and accepts the plan offer, the servicer must cancel the HAMP
                                            trial period plan. Eligible borrowers may request a new trial period plan after the
                                            UP forbearance plan is completed. A borrower who was previously determined to
                                            be ineligible for HAMP may request assessment for an UP forbearance plan if he
                                            or she meets all the eligibility criteria.175

                                            How UP Works
                                            For qualifying homeowners, the mortgage payments during the forbearance period
                                            are lowered to no more than a maximum of 31% of gross monthly income, includ-
                                            ing unemployment benefits.176 According to Treasury, “at the discretion of the
                                            servicer, the borrower’s monthly mortgage payments may be suspended in full.”177
                                            The UP forbearance plan is required to last a minimum of three months, unless the
                                            borrower becomes employed within that time.178
                                                If the borrower regains employment but because of reduced income still has a
                                            hardship, the borrower must be considered for HAMP. If the borrower is eligible,
                                            the amount of the arrearage or forbearance is added to the principal balance to be
                                            modified. Conversely, if the borrower regains employment and is no longer in need
                                            of or eligible for a HAMP modification, the amount of arrearage or forbearance
                                            becomes due.179 If the UP forbearance period expires and the borrower is ineligible
                                            for HAMP, the borrower may be eligible for HAMP foreclosure alternatives, such
                                            as HAFA.180

                                            PRA	
                                            On June 3, 2010, Treasury announced that it would implement a program intended
                                            to provide investors incentive payments to encourage them to forgive principal for
                                            significantly underwater mortgages. This Principal Reduction Alternative (“PRA”)
                                            program is applicable only to non-GSE loans and therefore does not cover loans
                                            owned, guaranteed, or insured by FHA, VA, Freddie Mac, or Fannie Mae.181 PRA
                                            officially took effect on October 1, 2010.182 Servicers were permitted, however, to
                                            begin offering PRA assistance immediately.183
                                                Before PRA started, servicers were allowed to forgive principal to achieve the
                                            DTI ratio goal of 31% on a stand-alone basis or before any of the other HAMP
                                            modification steps but would not receive additional incentive payments for do-
                                            ing so.184 In contrast to other HAMP programs, PRA does not require servicers to
                                            forgive principal under any circumstances, even when doing so is deemed to offer
                                            greater financial benefit to the investor.185
                                                                               quarterly report to congress I OCTOBER 26, 2010   79




Who Is Eligible
Borrowers who meet all HAMP eligibility requirements and who owe more than
115% of their home’s value are eligible for PRA.186 According to Treasury, borrow-
ers who are already in HAMP trial period plans or HAMP permanent modifications
may be evaluated for PRA assistance.187

How PRA Works
Principal forbearance divides a mortgage loan into two segments, one interest-
bearing and the other not. The borrower continues to make regular principal and
interest payments on the interest-bearing segment. In a modification, no monthly
payments are due with respect to the non-interest-bearing segment. Rather, that
segment, representing the principal forbearance amount, is due as an additional
lump-sum or “balloon” payment at the earlier of the sale of the property or the
eventual maturity date of the mortgage. Under PRA, however, if the borrower
remains in good standing on the first, second, and third anniversaries of the modi-
fication, the servicer will reduce the principal balance in the separate forbearance
account on each anniversary in installments equal to one-third of the initial PRA
forbearance amount.188
    As previously stated, participating servicers must evaluate for PRA assistance
every HAMP-eligible loan that has an outstanding LTV greater than 115%. The
servicer does so by running two NPV tests — one with and one without princi-
pal forgiveness — using methodologies prescribed by Treasury.189 If the standard
waterfall produces a positive NPV result, the servicer must modify the loan.190
However, servicers are not required to offer principal reduction, even in instances
where the NPV result under the alternative waterfall using principal forgiveness is
positive and exceeds the NPV result produced using the standard waterfall; they are
required simply to consider PRA-eligible borrowers for such assistance.191
    The two versions of the NPV test differ in the following manner: the original
NPV test calculates investor return if the mortgage is modified according to the
standard HAMP procedures: reducing the mortgage interest rate, extending the
term of the loan, and forbearing principal.192 The alternative NPV test begins by
reducing the outstanding principal balance to 115% of the property’s value and
then follows the standard HAMP modification steps if that alone is insufficient to
bring the monthly payment to 31% of the borrower’s monthly income. The NPV
then uses the reduced outstanding principal balance to calculate the return to
investors, taking into account incentive payments and the annual PRA principal
reductions.193

Who Gets Paid
According to Treasury, in addition to the other incentives paid for first-lien modi-
fications, investors are entitled to receive a percentage of each dollar of principal
80              special inspector general I troubled asset relief program




                                                                  forgiven under PRA. Incentive payments are received on the first, second, and third
                                                                  anniversaries of the modification date and are paid at the same time that the previ-
                                                                  ously forborne principal is forgiven.194 The incentive payments range from $0.06
 Table 2.14                                                       to $0.21 per dollar, depending on the level to which the outstanding LTV ratio was
 Incentives to Investors
                                                                  reduced and the period of delinquency.195 Table 2.14 shows the schedule under
 Per Dollar of Loan Principal                                     which investors are compensated for forgiving principal. The schedule provides
 Reduced                                                          increasing incentive payments for the additional amount by which investors are
 Mark-to-Market                 105           115      > 140      willing to reduce a mortgage’s outstanding principal balance compared with the
 Loan-to-Value Ratio          < 115             to
 (“LTV”) Range                                140                 property’s value. This schedule, however, is applicable only to those loans that have
 Incentive Amount              $0.21       $0.15       $0.10
                                                                  been six months delinquent or less within the previous year. For loans that have
 Note: Loans less than or equal to six months past due. For       been more than six months delinquent within the previous year, investors are paid
 loans that have been more than six months delinquent within
 the previous year, investors are paid $0.06 per dollar of        $0.06 per dollar of principal reduction, regardless of the LTV ratio.196
 principal reduction, regardless of the LTV ratio.
                                                                      Treasury states that, although servicers may reduce the mortgage principal bal-
 Source: Treasury, “Modification of Loans with Principal Reduc-
 tion Alternative,” 6/3/2010, www.hmpadmin.com/portal/            ance below the floor of a 105% LTV ratio, no PRA incentives will be paid for that
 docs/hamp_servicer/sd1005.pdf, accessed 7/2/2010.
                                                                  portion of the principal reduction amount.197

                                                                  FHA Refinance
                                                                  On March 26, 2010, Treasury and the Department of Housing and Urban
                                                                  Development (“HUD”) announced a new program that gives borrowers the option
                                                                  of refinancing an underwater, non-FHA-insured mortgage into an FHA-insured
                                                                  mortgage at 97.75% of the home’s value. The original program announcement
                                                                  contemplated TARP support of up to $14 billion.198 This amount has been revised
                                                                  downward to an apportionment estimate of $10.8 billion.199 This amount con-
                                                                  sists of: (1) up to $8.0 billion to provide loss protection to FHA on the refinanced
                                                                  first liens through the purchase of a letter of credit; (2) up to $117 million in fees
                                                                  Treasury will incur for the availability and usage of the letter of credit; and
                                                                  (3) an estimated allocation of $2.7 billion to make incentive payments to servicers
                                                                  and holders of existing second liens for full or partial principal extinguishments un-
                                                                  der the related FHA2LP.200 FHA Refinance is voluntary for servicers; therefore, not
                                                                  all underwater borrowers who qualify may be able to participate in the program.201
                                                                  The refinance program was launched on September 7, 2010, and FHA2LP went
                                                                  into effect on September 27, 2010.202 As of September 30, 2010, Treasury had not
                                                                  yet begun recording activity under FHA Refinance and FHA2LP.203

                                                                  Who Is Eligible
                                                                  For a loan to be eligible for FHA Refinance, the following conditions must
                                                                  be met:204

                                                                  •	 The homeowner must be current on the existing mortgage.
                                                                  •	 The homeowner must be in a negative equity position.
                                                                  •	 The homeowner must occupy the home as a primary residence.
                                                                           quarterly report to congress I OCTOBER 26, 2010   81




•	 The homeowner must qualify for the new loan under standard FHA underwrit-
   ing requirements and have a FICO credit score of at least 500.
•	 The existing loan must not be insured by FHA.
•	 The homeowner must fully document his or her income.
•	 The homeowner must have a total DTI, including all recurring debt, of less
   than 50%.
•	 The homeowner must have a DTI for all housing-related debt (including second
   liens) of less than 31% after refinancing.

     The FHA-refinanced loan will have the following characteristics:205

•	 The aggregate FHA insurance and TARP-supported loss coverage for the refi-
   nanced loan will be a maximum of 97.75% of the current value of the home.
•	 The borrower’s combined mortgage debt (including all liens) must be written
   down to a maximum of 115% of the current value of the home.
•	 The borrower’s original first-lien mortgage’s unpaid principal balance must be
   written down by at least 10%.
•	 The original first-lien investor has the option of converting any amount of the
   original mortgage that is greater than 97.75% of the value of the home to a
   subordinated second lien for up to 115% of the current value of the home. The
   balance of the mortgage above 115% must be extinguished. If a second lien
   exists, the total combined mortgage amount after the refinance must not exceed
   115% of the home’s value.

     Additionally, to be eligible under FHA2LP, second liens must:206

•	   have originated on or before January 1, 2009
•	   be immediately subordinate to the first lien prior to the FHA refinance
•	   require the borrower to make a monthly payment
•	   not be a GSE-owned or guaranteed lien
•	   have an unpaid principal balance of $2,500 or more on the day before the FHA
     refinance closing date

How FHA Refinance Works
Servicers must first determine the current value of the home pursuant to FHA
underwriting standards, which, unlike other aspects of HAMP, require a third-
party appraisal by a HUD-approved appraiser. Next, the borrower’s income must
be calculated to make sure that the total monthly mortgage payment (including all
payments on subordinate liens) after the refinance is not greater than 31% of the
82                special inspector general I troubled asset relief program




                                                                       borrower’s gross monthly income and the total debt service including all forms of
                                                                       household debt will not be greater than approximately 50%.207 Next, principal that
                                                                       is more than 115% of the value of the home must be forgiven by the lien holders.
                                                                       Although the first-lien investors must recognize a loss as a result of the mortgage
                                                                       write-down, they receive a cash payment for 97.75% of the current home value and
                                                                       may maintain a subordinate second lien for up to 17.25% of that value (for a total
Table 2.15
                                                                       balance of 115% of the home’s value).208
Treasury fha2lp compensation                                               The 115% cap applies to all liens on the property. Under FHA2LP, existing
per dollar of loan principal
extinguished                                                           second-lien holders may receive incentive payments to extinguish their debts in
Mark-to-Market                                  115                    accordance with the schedule set forth in Table 2.15, or they may negotiate with
Loan-to-Value Ratio             <115              to        >140       the first lien holder for a portion of the new subordinate lien loan.209 Regardless
(“LTV”) Rangea                                  140
                                                                       of which choice second lien holders make, the total of all liens cannot exceed the
Incentive Amounts               $0.21        $0.15         $0.10
                                                                       115% cap. By obtaining a new FHA-guaranteed loan for an amount that is closer to
Notes: Loans less than or equal to six months past due. For loans
that have been more than six months delinquent within the previous     the current home value than their previous loan, homeowners receive the benefits
year, second lien holders will receive $0.06 per dollar of principal
extinguished, regardless of LTV ratio.                                 of a lower new monthly mortgage payment and reduction in the principal balance,
a
  The combined LTV is the ratio of all mortgage debt to the current
  FHA-appraised value of the property.                                 increasing the chance for them to achieve positive equity in their homes.210
Source: Treasury, “Supplemental Directive 10-08: Making Home               If a loan refinanced under FHA Refinance defaults, the letter of credit pur-
Affordable Program — Treasury/FHA Second Lien Program
(FHA2LP) to Support FHA Refinance of Borrowers in Negative             chased by TARP compensates the refinancing investor for the first 7.75% of losses
Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/docs/
hamp_servicer/sd1008.pdf, accessed 8/20/2010.                          on each defaulted mortgage, up to the maximum amount specified by the program
                                                                       guidelines.211 FHA thus is potentially responsible for the remaining approximately
                                                                       90% of potential losses on each mortgage, until the $8.0 billion letter of credit
                                                                       posted by Treasury is exhausted, at which point it will bear all of the remaining
                                                                       losses. TARP has also made an estimated allocation of $2.7 billion under its exist-
                                                                       ing servicer caps to make incentive payments, subject to certain limitations to (a)
                                                                       investors for preexisting second-lien balances that are partially or fully extinguished
                                                                       under FHA2LP and (b) servicers, in the amount of $500 for each second-lien
                                                                       mortgage placed into the program.212

                                                                       Example of an FHA Refinance
                                                                       In 2005, Family A took out a 30-year, 9% fixed $250,000 mortgage. The monthly
                                                                       mortgage payment was $2,012. Since then, home prices have dropped 28%. As a
                                                                       consequence, Family A’s home is now worth $180,000.
                                                                           Under FHA Refinance, the investor writes down Family A’s loan balance by
                                                                       approximately $32,700, resulting in $207,000 in total debt, which is 115% of the
                                                                       value of the home. A new FHA-arranged refinancing of that amount pays the origi-
                                                                       nal investor $175,950, or 97.75% of the home’s value. The investor also receives
                                                                       a second lien for $31,050, or 17.25%, to bring the total mortgage debt to 115% of
                                                                       the home’s value. The investor then writes off the remaining $32,700. Family A’s
                                                                       total monthly payment falls to about $1,308 per month, for a savings of $8,448 per
                                                                       year. (See Table 2.16.)
                                                                                          quarterly report to congress I OCTOBER 26, 2010   83




Table 2.16

Example of an FHA Refinance
                            Existing Mortgage                  FHA Refinance
                            Terms              Loan to Value   Terms           Loan to Value
Balance                     $239,700           133%            $207,000        115%
Remaining Years             25                                 30
 First Lien                 $239,700           133%            $175,950        97.75%
 Second Lien                —                                  $31,050         17.25%
Interest Rate               9.0%                               6.5%
Monthly Payment             $2,012                             $1,308


Borrower saves in principal and interest                       $704 per month
Investor writes down principal amount                          $32,700

Note: Numbers may not total due to rounding.



MHA Anti-Fraud Enhancement
Section 1481(d) of the Dodd-Frank Wall Street Reform and Consumer Protection
Act (the “Dodd-Frank Act”) provides that no person will be eligible to begin
receiving assistance under the MHA program if such person, in connection with
a mortgage or real estate transaction, has been convicted within the last 10 years
of money laundering, tax evasion, or a felony larceny, theft, fraud, or forgery. On
September 21, 2010, Treasury provided guidance to servicers participating in MHA
programs with respect to mortgage loans that are not GSE-owned or guaranteed,
stating that beginning January 1, 2011, they must obtain a completed certification
from borrowers applying for a trial or permanent mortgage modification attesting
as to their history related to the above crimes.213 Borrowers enrolled in MHA trial
period plans and permanent modifications prior to September 21, 2010, are not
affected by the new requirement.214

HFA Hardest-Hit Fund
On February 19, 2010, the Administration announced a new housing support
program, the HFA Hardest-Hit Fund. HHF is intended to promote innovative mea-
sures to protect home values, preserve homeownership, and promote jobs and eco-
nomic growth in the states that have been hit the hardest by the housing crisis.215
The first round of the HHF was allocated $1.5 billion of the amount designated for
MHA initiatives. According to Treasury, these funds were designated for five states
where the average home price, determined using the Federal Housing Finance
Agency (“FHFA”) Purchase Only Seasonally Adjusted Index, had decreased more
than 20% from its peak. The five states were Arizona, California, Florida, Michigan,
and Nevada.216 Plans to use these funds were approved on June 23, 2010.
   On March 29, 2010, the program expanded to five more states and its po-
tential funding increased by $600 million, bringing the total funding for HHF to
84              special inspector general I troubled asset relief program




     Table 2.17                                          $2.1 billion. The additional $600 million is designated for North Carolina, Ohio,
      Hardest-hit Funding                                Oregon, Rhode Island, and South Carolina. Treasury indicated that these states
      allocations by state                               were selected because of their high concentrations of people living in economically
     Recipient                   Funding Amount          distressed areas, defined as counties in which the unemployment rate exceeded
     Alabama                         $162,521,345        12%, on average, in 2009.217 Plans to use these funds were approved on August 3,
     Arizona                           267,766,006       2010.
     California                     1,975,334,096            On August 11, 2010, the Government pledged a third round of Hardest-Hit
     Florida                        1,057,839,136        funding of $2 billion in additional assistance to state HFA programs that focus on
     Georgia                           339,255,819       unemployed homeowners who are struggling to make their payments.218 According
     Illinois                          445,603,557       to Treasury, the third funding round was limited to states that have experienced
     Indiana                           221,694,139       unemployment rates at or above the national average during the last 12 months.219
     Kentucky                          148,901,875
                                                         The states designated to receive funding are Alabama, California, Florida,
     Michigan                          498,605,738
                                                         Georgia, Illinois, Indiana, Kentucky, Michigan, Mississippi, Nevada, New Jersey,
     Mississippi                       101,888,323
                                                         North Carolina, Ohio, Oregon, Rhode Island, South Carolina, and Tennessee.
                                                         Washington, D.C., will also receive funding.220 States already covered by the first
     Nevada                            194,026,240
                                                         two HHF rounds of funding may use the additional resources “to support the
     New Jersey                        300,548,144
                                                         unemployment programs previously approved by Treasury or they may opt to imple-
     North Carolina                    482,781,786
                                                         ment a new unemployment program.”221 States seeking to tap HHF for the first
     Ohio                              570,395,099
                                                         time were required to submit need-specific proposals that met program guidelines
     Oregon                            220,042,786
                                                         to Treasury by September 1, 2010.222 Plans to use to these funds were approved on
     Rhode Island                       79,351,573
                                                         September 23, 2010.
     South Carolina                    295,431,547
                                                             Finally, on September 29, 2010, an additional $3.5 billion was made available
     Tennessee                         217,315,593
                                                         to existing HHF participants, weighted by population, to be used in previously an-
     Washington, D.C.                   20,697,198
                                                         nounced programs.223 Table 2.17 shows the obligation of funds for states participat-
     Total                       $7,600,000,000
                                                         ing in the four rounds of HHF.
     Source: Treasury, Transactions Report, 10/4/2010.       The HFAs of the 18 states and Washington, D.C. receiving Hardest-Hit funding
                                                         each submitted proposals to Treasury to “meet the unique challenges facing strug-
                                                         gling homeowners in their respective housing markets.”224 According to Treasury,
                                                         each state’s HFA will report program performance on a quarterly basis and post the
                                                         reports on its website. Some states will initiate pilot programs to assess program
                                                         performance before full implementation. According to Treasury, individual state
                                                         laws, staffing levels of the HFAs and the relative complexity of each state’s program
                                                         are some of the reasons that explain the variance in the availability of programs.225
                                                         All programs will be funded incrementally up to their obligated amounts. Treasury
                                                         indicated that states can reallocate between programs and modify existing pro-
                                                         grams as needed, with Treasury approval, until funds are expended or returned to
                                                         Treasury after December 31, 2017. As of September 30, 2010, $56.1 million had
                                                         been drawn down by HFAs for the HHF.226 A description of state-by-state fund-
                                                         ing allocations and published program details approved in the subsequent funding
                                                         rounds is provided below.
                                                                                                                 quarterly report to congress I OCTOBER 26, 2010                                  85




                                                                                                                                      For a summary of state programs
HARDEST-HIT FUND – State-by-State Description
                                                                                                                                      initiated under the first round of
                                                                                                                                      HHF, see SIGTARP’s July 2010
                                                                                                                                      Quarterly Report, pages 66–68.

alabama
                                                                                                                                                                                 Estimated
                                                                                                                                                                                 Number of
                                                                                                                                                                                 Borrowers
Description                                                                                                                                          Allocation                     Helped
Alabama’s HFA will administer Hardest-Hit funds to subsidize eligible unemployed homeowners’ current
mortgage payments and all other mortgage-related expenses up to a total of 12 consecutive months
or $15,000 per household. Continued eligibility will be contingent upon homeowners remaining in their
                                                                                                                                                $150,857,245                            3,500
homes and their eligibility to receive unemployment compensation. Assistance will cease two months after
the homeowner returns to work. Assistance will be in the form of a zero-interest loan that will be forgiven
in equal annual increments based on the term of the loan.
Administrative Costs                                                                                                                             $11,664,100                              N/A
Total                                                                                                                                          $162,521,345                            3,500
Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/AL%20Redacted%201st%20Amendment.
pdf, accessed 10/13/2010.




georgia
                                                                                                                                                                                Estimated
                                                                                                                                                                                Number of
                                                                                                                                                                                Borrowers
Description                                                                                                                                          Allocation                    Helped
The Mortgage Payment Assistance (“MPA”) program will provide loans to unemployed and substantially
underemployed homeowners to help them remain in their homes and avoid preventable foreclosures
despite loss of income due to involuntary job loss. Loan proceeds will be used to pay mortgage payments
to assist unemployed and underemployed homeowners while they look for new jobs or complete training
for new careers as well as provide a one-time payment to homeowners who have found new jobs in order to                                         $327,051,532                           6,829
bring them current on their mortgage. Assistance will be in the form of zero-interest, nonrecourse, deferred-
payment subordinate loans that will be forgiven 20% per year over the five-year loan. Assistance will last 18
months or two months beyond the date on which the homeowner secures adequate employment, whichever
is less.
Administrative Costs                                                                                                                            $12,204,287                              N/A
Total                                                                                                                                         $339,255,819                             6,829
Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/GA%20Redacted%201st%20Amendment.
pdf, accessed 10/13/2010.
86               special inspector general I troubled asset relief program




     illinois
                                                                                                                                                                                      Estimated
                                                                                                                                                                                      Number of
                                                                                                                                                                                      Borrowers
     Description                                                                                                                                          Allocation                     Helped
     The Homeowner Emergency Loan Program (“HELP”) will assist unemployed or substantially underemployed
     homeowners by paying their mortgages for up to 18 months while they search for employment and/
     or participate in job training. Homeowners must pay the Illinois Housing Development Authority at least
     31% of household income to remain eligible. Assistance is limited to 18 months or until borrowers regain                                         $418,831,597                 7,500-10,000
     employment, whichever is sooner. This assistance will be in the form of a zero-interest, non-recourse, non-
     amortizing 10 year loan. Total assistance per homeowner will be capped at $25,000 in hardest-hit counties
     and $20,000 in all others.
     Administrative Costs                                                                                                                             $26,771,960                              N/A
     Total                                                                                                                                          $445,603,557                  7,500-10,000

     Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/IL%20Redacted%201st%20Amendment.
     pdf, accessed 10/13/2010.


     indiana
                                                                                                                                                                                      Estimated
                                                                                                                                                                                      Number of
                                                                                                                                                                                      Borrowers
     Description                                                                                                                                            Allocation                   Helped
     The Unemployment Bridge Program (“UBP”) will provide a monthly benefit to cover a portion of first mort-
     gage payments for homeowners who are unemployed through no fault or neglect of their own, while they
     seek new employment. The program will also provide up to three months’ assistance to homeowners who
     became delinquent while unemployed and still cannot bring their mortgage current with income from their
     new jobs. Program assistance will be capped at 18 months in hardest-hit counties and 12 months in all
                                                                                                                                                      $205,160,139                           5,895
     others. Assistance will be provided in the form of a zero-interest, forgivable, nonrecourse, non-amortizing
     loan, secured by a junior lien on the property. The loan will be forgiven at a rate of 20% per year in years
     6 through 10 of the loan. If the homeowner sells and there is sufficient equity, the state can seek repay-
     ment of the loan. If the homeowner sells his or her property and there is not sufficient equity to repay the
     junior lien, then the loan is forgiven.
     Administrative Costs                                                                                                                              $16,534,000                             N/A
     Total                                                                                                                                           $221,694,139                           5,895

     Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/IN%20Redacted%201st%20Amendment.
     pdf, accessed 10/13/2010.




     Kentucky
                                                                                                                                                                                      Estimated
                                                                                                                                                                                      Number of
                                                                                                                                                                                      Borrowers
     Description                                                                                                                                            Allocation                   Helped
     The Unemployment Bridge Program (“UBP”) will provide funds to lenders and servicers on behalf of quali-
     fied homeowners who are delinquent on their mortgages due to unemployment or substantial underemploy-
     ment. Funds will be used to make 100% of the homeowner’s monthly mortgage payment up to a limit of                                                $138,942,010                  4,500-7,500
     12 months or $10,000. Assistance will be structured as a zero-interest loan that will be forgiven 20% each
     year over five years.
     Administrative Costs                                                                                                                                $9,959,865                            N/A
     Total                                                                                                                                           $148,901,875                  4,500-7,500
     Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/KY%20Redacted%201st%20Amendment.
     pdf, accessed 10/13/2010.
                                                                                                                      quarterly report to congress I OCTOBER 26, 2010                                    87



Nevada
                                                                                                                                                                                         Estimated
                                                                                                                                                                                         Number of
                                                                                                                                                                                         Borrowers
Description                                                                                                                                                   Allocation                    Helped
The Mortgage Assistance Program (“MAP”) is designed to keep first mortgages current for families with an
unemployed wage earner. The program will provide up to the lesser of one-third of the principal and interest
payments or a $500 supplement to the family’s monthly principal and interest payments on the first-lien
mortgage. For qualifying families, MAP payments may extend up to six months. The payments are intended
                                                                                                                                                          $34,056,581                          11,352
to serve as a financial bridge to unemployed homeowners while they attempt to upgrade their work skills.
All MAP assistance will be structured as a zero-interest, forgivable nonrecourse loan. Borrowers who sustain
homeownership for 60 successive months following the end of the MAP payments will have their payment
amounts forgiven.
Total                                                                                                                                                  $34,056,581                          11,352
Notes: The Mortgage Assistance Program was added to the Nevada HFA’s existing HHF-funded programs as part of the third round of Hardest-Hit funding approved 9/23/2010. Total funding for all Nevada’s
HHF programs was $194,026,240.

Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/NV%20Redacted%202nd%20Amend-
ment.pdf, accessed 10/13/2010.



New jersey
                                                                                                                                                                                         Estimated
                                                                                                                                                                                         Number of
                                                                                                                                                                                         Borrowers
Description                                                                                                                                                  Allocation                     Helped
The Homekeeper Program will provide zero-interest mortgage loans to unemployed and substantially
underemployed homeowners unable to make their mortgage payments and in danger of losing their homes
through no fault of their own. Loan proceeds will be used to cover mortgage arrearages and/or portions of
monthly mortgage payments while the homeowner looks for work or trains for a new career. The maximum                                                    $285,363,654                            2,500
loan is $48,000 and may be available for up to 24 months. Assistance will be a zero-interest, deferred-
payment, nonrecourse loan forgivable at a rate of 20% per year after the fifth year and in full at the end of
the 10th year.
Administrative Costs                                                                                                                                    $15,184,490                               N/A
Total                                                                                                                                                 $300,548,144                             2,500

Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/NJ%20Redacted%201st%20Amendment.
pdf, accessed 10/13/2010.




North Carolina (Continued)
                                                                                                                                                                                         Estimated
                                                                                                                                                                                         Number of
                                                                                                                                                                                         Borrowers
Description                                                                                                                                                   Allocation                    Helped


The Mortgage Payment Program (“MPP-1”) will provide zero-interest, nonrecourse, deferred-payment
subordinate loans that will be forgiven after 10 years to homeowners who are unemployed or dealing with a
temporary program-eligible hardship. Loan proceeds will be used to pay monthly mortgage and mortgage-
                                                                                                                                                          $99,400,000                           5,750
related expenses while homeowners seek or train for new jobs. Homeowners in hardest-hit counties will
receive up to $36,000 (not to exceed 36 months of assistance). Homeowners in other counties will receive
up to $24,000 (not to exceed 24 months of assistance).


The Mortgage Payment Program (“MPP-2”) will provide zero-interest, nonrecourse, deferred-payment,
subordinate loans that will be forgiven after 10 years to homeowners who are unemployed or substantially
underemployed, or in danger of losing their homes to foreclosure. Loan proceeds will be used to pay
mortgage and mortgage-related expenses until the homeowner secures employment or completes training                                                     $323,781,786                            5,625
for a new career. Homeowners in counties where the unemployment rate is higher than 11.3% will receive
up to $36,000 (not to exceed 36 months of assistance). Homeowners in other counties will receive up to
$24,000 (not to exceed 24 months of assistance).

                                                                                                                                                                        Continued on next page.
88               special inspector general I troubled asset relief program




     North Carolina (Continued)
                                                                                                                                                                                    Estimated
                                                                                                                                                                                    Number of
                                                                                                                                                                                    Borrowers
     Description                                                                                                                                          Allocation                   Helped
     The Second Mortgage Refinance Program (“SMRP”) will provide zero-interest, nonrecourse, deferred-pay-
     ment subordinate loans that will be forgiven after 10 years to homeowners who can no longer afford their
                                                                                                                                                       $15,000,000                            1,000
     second mortgages because they were laid off, had their work hours cut, or faced certain other program-
     eligible hardships. The program will be offered only in hardest-hit counties.
     The Permanent Loan Modification Program (“PMLP”) will provide zero-interest, nonrecourse, deferred-
     payment subordinate loans that will be forgiven after 10 years. The goal of the program is to streamline
     methods of modifying homeowners’ loans whose mortgages have become unsustainable as a result of a
                                                                                                                                                         $8,800,000                            440
     program-eligible hardship. The program will provide for a principal reduction with the added option of a rate
     decrease and/or term extension by the lender to achieve a monthly mortgage payment of not more than
     31% of the homeowner’s monthly gross income.
     Administrative Costs                                                                                                                             $35,800,000                              N/A
     Total                                                                                                                                          $482,781,786                         12,815

     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/NC%20Redacted%202nd%20
     Amendment.pdf, accessed 10/11/2010.




     ohio
                                                                                                                                                                                    Estimated
                                                                                                                                                                                    Number of
                                                                                                                                                                                    Borrowers
     Description                                                                                                                                          Allocation                   Helped
     The Rescue Payment Assistance Program will provide assistance to homeowners who are delinquent
     on their mortgage payments due to a delay in receiving unemployment benefits, insufficient income, or
     other unforeseen circumstances, by bringing them current on delinquent mortgage obligations. Program
     assistance will be available to eligible low- and moderate-income homeowners throughout Ohio, up to
     the maximum amount listed for each county. The program will also be available to eligible unemployed                                              $59,650,903                            8,700
     low- and moderate-income homeowners throughout Ohio, up to $15,000. Rescue Payment Assistance
     will be structured as a zero-interest, five-year loan secured by the property and repayable only from equity
     proceeds of a refinance or sale. Twenty percent of the loan balance will be forgiven each year on the an-
     niversary of the closing, and any remaining balance will be forgiven on December 31, 2017.
     The Partial Mortgage Payment Assistance Program supports unemployed homeowners by assisting them
     with their mortgage payments for up to 15 months while they search for a job and/or participate in job
     training. To remain eligible for assistance, participating homeowners must make an Affordable Monthly
     Payment equaling no less than 31% of household income and at least 25% of their total monthly pay-
     ments to a special servicer approved by OHFA. The program will be available to eligible unemployed low-                                         $439,206,235                        16,200
     and moderate-income homeowners throughout Ohio, up to $15,000. Assistance will be a five-year loan
     secured by the property and repayable only from equity proceeds of a refinance or sale. Twenty percent
     of the loan balance will be forgiven each year on the anniversary of the closing, and any remaining bal-
     ance will be forgiven on December 31, 2017.
     The Modification Assistance with Principal Reduction Program will provide assistance to homeowners who
     do not qualify for existing loan modification programs due to severe negative equity. Funds will be used to
     incentivize servicers/lenders to reduce a participating underwater homeowner’s mortgage principal to the
     level necessary to achieve a target of a 115% LTV or less and to achieve an Affordable Monthly Payment
     equal to 31% or less of household income. Servicers will provide principal forbearance or forgiveness                                             $22,717,635                            2,350
     equal or greater than the program payment. Assistance will be a five-year loan secured by the property
     and repayable only from equity proceeds of a refinance or sale. Twenty percent of the loan balance will
     be forgiven each year on the anniversary of the closing, and any remaining balance will be forgiven on
     December 31, 2017.
     The Transitional Assistance Program will assist homeowners whose mortgage payment exceeds the
     Affordable Monthly Payment, and/or must relocate to gain meaningful employment. The program also
     offers incentives to servicers to agree to a short sale or deed-in-lieu of foreclosure option. Borrowers will-
                                                                                                                                                       $13,263,462                            3,300
     ing to relocate while leaving the property in sellable condition can receive a stipend. The program will be
     available to eligible low- and moderate-income homeowners throughout Ohio, up to the maximum benefit
     established in each homeowner’s county.
     Administrative Costs                                                                                                                            $35,556,864                               N/A
     Total                                                                                                                                         $570,395,099                         30,550

     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/OH%20Redacted%202nd%20
     Amendment.pdf, accessed 10/11/2010,
                                                                                                                quarterly report to congress I OCTOBER 26, 2010                                  89



Oregon
                                                                                                                                                                            Estimated
                                                                                                                                                                           Number of
Description                                                                                                                                 Allocation               Borrowers Helped
The Loan Modification Assistance Program will provide funds to assist financially distressed bor-
rowers who are in the process of modifying their home loans. A one-time payment will be made to
servicers to fill a financial gap limiting the homeowner’s eligibility for a loan modification. Funds may
be used to reduce outstanding principal, pay delinquent escrow, or strategically apply resources
to ensure an NPV test is positive. Modification must result in an LTV of not more than 125%, a total                                    $26,000,000                                      2,600
DTI ratio of up to 50%, and a mortgage payment of no more than 31% including principal, interest,
taxes, and insurance. Program assistance will be a five-year loan in which a second lien is recorded
on the property. Twenty percent of the loan will be forgiven each year it is outstanding. The maxi-
mum benefit per homeowner is $10,000.
The Mortgage Payment Assistance Program will provide up to nine months of mortgage payment
assistance, with a required one-to-one match from the investor for total anticipated assistance of 18
months for substantially underemployed homeowners. Program assistance will be a five-year loan
                                                                                                                                       $144,907,608                                      4,000
in which a second lien is recorded on the property. Twenty percent of the loan will be forgiven each
year it is outstanding. The program will provide up to $1,360 per month with a cap of $12,250 per
borrower.
The Loan Preservation Assistance Program will benefit homeowners who find new jobs or recover
from financial distress. Program assistance will ensure successful modification and pay arrears,
delinquent escrow, or other fees incurred during a period of unemployment or financial distress.                                        $29,550,000                                      1,500
Recipients may receive up to $20,000. Lenders/servicers are expected to match these funds on at
least a one-to-one basis.
The Transitional Assistance Program will be offered to homeowners at imminent risk of foreclosure.
This program will be an alternative exit point for Mortgage Payment Subsidy Program participants
who do not get new jobs or recover from financial distress to the extent that they would benefit from
                                                                                                                                          $4,000,000                                     1,300
loan preservation assistance. This program will work with servicers’ and lenders’ short sale and
deed-in-lieu of foreclosure programs to help homeowners transition to affordable housing. Funds
would be available on a one-time basis up to $3,000.
Administrative Costs                                                                                                                   $15,585,178                                        N/A
Total                                                                                                                                $220,042,786                                    9,400

Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/OR%20Redacted%202nd%20
Amendment.pdf, accessed 10/11/2010.




Rhode island            (continued)
                                                                                                                                                                               Estimated
                                                                                                                                                                               Number of
                                                                                                                                                                               Borrowers
Description                                                                                                                                 Allocation                            Helped
Loan Modification Assistance for HAMP (“LMA-HAMP”) Customers will provide up to $6,000 to allow
homeowners to qualify for HAMP modifications. Lenders/servicers must first exhaust all steps
required under the HAMP waterfall process and still not be able to modify the mortgage. Borrowers
must have monthly mortgage payments greater than 31% of their gross monthly income and must
be able to document financial hardship putting them at risk of foreclosure. Program assistance will
be a zero-interest five-year loan secured by the property and forgivable at 20% per year over five                                        $6,900,000                                     1,150
years. Lenders must agree to provide a one-to-one match and borrowers must contribute at least
20% of the match. An additional $2,500 may be available through the Temporary and Immediate
Homeowner Assistance (“TIHA”) program in cases where borrowers cannot make matching pay-
ments. In addition, up to $30,000 in total assistance may be available through the TIHA program for
targeted homeowners at risk of foreclosure.

                                                                                                                                                                Continued on next page.
90               special inspector general I troubled asset relief program




     Rhode island            (continued)
                                                                                                                                                                                    Estimated
                                                                                                                                                                                    Number of
                                                                                                                                                                                    Borrowers
     Description                                                                                                                                 Allocation                            Helped
     Loan Modification Assistance for Non-HAMP (“LMA Non-HAMP”) Customers will provide up to $6,000
     to allow homeowners to qualify for a modification. Borrowers making more than $35,000 must have
     a monthly mortgage payment that is greater than 35% of their gross monthly income. If borrowers’
     gross annual income is $35,000 or less, they must have a monthly mortgage payment that is greater
     than 31% of their gross monthly income. All borrowers must be able to document their financial hard-                                      $9,000,000                                  1,500
     ship. Program assistance will be a zero-interest five-year loan secured by the property and forgivable at
     20% per year over five years. An additional $2,500 may be available through the TIHA program for bor-
     rowers facing special circumstances. In addition, up to $30,000 in total assistance may be available
     through the TIHA program for targeted homeowners who are at risk of foreclosure.
     The Temporary and Immediate Homeowner Assistance (“TIHA”) program aims to help homeowners
     who can document financial hardship caused by uncontrollable increases in housing expenses or
     uncontrollable decreases in incomes that put them at risk of foreclosure. To qualify, these income
     changes must meet a specified percentage on a sliding income scale. Assistance is capped at                                              $37,182,761                                  1,800
     $6,000 per household but limited to $2,500 when the maximum amount has been provided under
     either LMA-HAMP or LMA Non-HAMP. Combined assistance is capped at $8,500 but can be raised to
     $30,000 in cases when the homeowner is at risk of foreclosure.
     The Moving Forward Assistance Program will offer eligible homeowners up to $4,000 to help them
     stay in their homes. In special circumstances, up to $30,000 may be available through TIHA to
     facilitate a short sale or deed-in-lieu of foreclosure for homeowners of targeted affordable properties
                                                                                                                                               $3,500,000                                    550
     that are at risk of foreclosure. Of the maximum cap of $4,000 per family, a maximum of $1,500
     can be used to facilitate a short sale or deed-in-lieu of foreclosure and up to $2,500 to assist with
     relocation.
     The Mortgage Payment Assistance – Unemployed Program will provide up to $6,000 to help unem-
     ployed homeowners make partial mortgage payments while they search for a new job or participate
     in a job-training program. Homeowners will be required to contribute the greater of 25% of their total
     mortgage payment or 31% of their total gross monthly household income toward their mortgage
     obligation. Homeowners can receive up to two months of assistance after securing a job as long as                                        $13,570,770                                  2,000
     the household limit has not been reached. Program assistance will be a zero- interest loan secured
     by the property and forgivable at 20% per year over five years. When used in combination with LMA
     programs and TIHA, maximum household assistance will be capped at $14,500. When combined
     with MFA, household assistance is capped at $10,000.
     Administrative Costs                                                                                                                     $9,198,042                                     N/A
     Total                                                                                                                                  $79,351,573                                   7,000

     Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/RI%20Redacted%202nd%20Amend-
     ment.pdf, accessed 10/11/2010.




     South Carolina (continued)
                                                                                                                                                                                    Estimated
                                                                                                                                                                                    Number of
                                                                                                                                                                                    Borrowers
     Description                                                                                                                                 Allocation                            Helped

     The Monthly Payment Assistance Program will help eligible homeowners make all of their monthly
     mortgage payments. Assistance terms and duration will vary and be reviewed periodically. The
     goal of the program is to bridge borrowers across a gap in employment, thus giving them time to
                                                                                                                                            $212,159,200                           4,200-8,500
     become self-sustaining and avoid delinquency or foreclosure. Program assistance will be capped at
     24 months or $36,000, depending on the unemployment rate in the county in which the property is
     located. Assistance will be a zero-interest loan forgiven over five years at a rate of 20% per year.

                                                                                                                                                                      Continued on next page.
                                                                                                                  quarterly report to congress I OCTOBER 26, 2010                              91



South Carolina (continued)
                                                                                                                                                                                Estimated
                                                                                                                                                                                Number of
                                                                                                                                                                                Borrowers
Description                                                                                                                                  Allocation                            Helped
The Direct Loan Assistance Program will assist homeowners who may have fallen behind on their
mortgage payments but later regained the ability to make their full payments. In many cases, arrears
may have accrued, which, until paid, place a hardship on the borrower because of the accumula-                                            $19,000,000                          2,400-2,500
tion of late fees and other charges. This program aims to make these mortgages current so the
homeowner can avoid delinquency or foreclosure.
The HAMP Assistance Program provides funding to homeowners applying for HAMP modifications
but falling just short of qualifying. Program assistance will bridge the gap so that homeowners can
                                                                                                                                           $5,000,000                          1,000-1,500
modify their mortgages to affordable levels, thus helping them avoid foreclosure. Program assis-
tance will be capped at $5,000 per household.
The Second Mortgage Assistance Program offers incentives to investors or, in some cases, funding
to refinance second liens from investors unable or unwilling to modify these liens and preventing                                         $11,860,910                          1,600-2,600
homeowners from qualifying for HAMP.
The Property Disposition Assistance Program is intended to facilitate short sales and deeds-in-lieu of
foreclosure for homeowners who are unable to stay in their homes. Funds will also be used to transi-                                      $12,000,000                          2,200-3,700
tion families from homeownership to renting.
Administrative Costs                                                                                                                    $35,411,437                                      N/A
Total                                                                                                                                  $295,431,547                       11,400-18,800

Source: Treasury, “Second Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/SC%20Redacted%202nd%20Amend-
ment.pdf, accessed 10/13/2010.




tennessee
                                                                                                                                                                                Estimated
                                                                                                                                                                                Number of
                                                                                                                                                                                Borrowers
Description                                                                                                                                  Allocation                            Helped
The Hardest-Hit Fund Program will provide loans to unemployed or substantially underemployed
homeowners who are unable to make their payments and in danger of losing their homes to
foreclosure. Loans will be provided to homeowners until they secure employment or while they                                            $206,731,182                                   5,015
complete job training for a new career. Assistance will be capped at $18,000 up to 18 months in
targeted areas and $12,000 up to 12 months.
Administrative Costs                                                                                                                    $10,584,411                                      N/A
Total                                                                                                                                  $217,315,593                                    5,015

Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/TN%20Redacted%201st%20Amend-
ment.pdf, accessed 10/13/2010.




washington, d.c.
                                                                                                                                                                                Estimated
                                                                                                                                                                                Number of
                                                                                                                                                                                Borrowers
Description                                                                                                                                  Allocation                            Helped
The HomeSaver Program will offer lump-sum or ongoing monthly payments to Unemployment Insur-
ance (UI) claimants or those who have received UI payments in the last six months. Assistance is
capped at 15 months. The “lifeline” components will offer a one-time payment of up to three months’
worth of mortgage payments to make the mortgage current. The mortgage assistance component                                                $19,563,961                               215-315
will offer up to 15 months’ worth of mortgage payments. The reinstatement component will be
available for participants needing a one-time “catch up” payment. This will be capped at six months’
worth of mortgage payments. Maximum program assistance is $32,385 per household.
Administrative Costs                                                                                                                      $1,133,237                                     N/A
Total                                                                                                                                   $20,697,198                                215-315

Source: Treasury, “First Amendment to Commitment to Purchase Financial Instrument and HFA Participation Agreement,” 9/29/2010, www.financialstability.gov/docs/DC%20Redacted%201st%20Amend-
ment.pdf, accessed 10/13/2010.
92                special inspector general I troubled asset relief program




                                                                         Financial Institution Support Programs
                                                                         Treasury created six TARP programs through which it made capital investments
                                                                         or asset guarantees in exchange for equity in participating financial institutions.
                                                                         Three of the programs, the Capital Purchase Program (“CPP”), the Community
                                                                         Development Capital Initiative (“CDCI”), and the Capital Assistance Program
                                                                         (“CAP”), were open to all qualifying financial institutions (“QFIs”). The other
                                                                         three, the Systemically Significant Failing Institutions (“SSFI”) program, the
                                                                         Targeted Investment Program (“TIP”), and the Asset Guarantee Program (“AGP”),
                                                                         were available on a case-by-case basis to institutions needing assistance beyond
                                                                         that available through CPP. For some institutions, Treasury has agreed to modify
                                                                         the investment by converting the preferred stock it originally received into other
                                                                         forms of equity, such as common stock or mandatorily convertible preferred stock,
                                                                         to help improve the capital structure of these struggling TARP recipients.227
                                                                             With the expiration of TARP funding authorization, no new investments can be
                                                                         made through CPP, CAP, TIP, AGP, and CDCI, but dollars that are already obli-
                                                                         gated may still be expended through SSFI.

                                                                         CPP
                                                                         Treasury’s stated goal for CPP was to invest in “healthy, viable institutions” as a way
 Figure 2.5                                                              to promote financial stability, maintain confidence in the financial system, and per-
 SNAPSHOT OF CPP FUNDS                                                   mit lenders to meet the nation’s credit needs.228 CPP was a voluntary program open
 OUTSTANDING AND REPAID,                                                 to all QFIs through an application process. QFIs included U.S.-controlled banks,
 BY QUARTER                                                              savings associations, and certain bank and savings and loan holding companies.229
 ($ BILLIONS)
                                                                             Under CPP, Treasury used TARP funds predominantly to purchase preferred
                        198.8
                              203.2 204.6 204.9 204.9 204.9 204.9
$200                      0.4                                            equity interests in QFIs. The QFIs issued Treasury senior preferred shares that pay
                                                            152.8
                        198.4 70.1 70.7 121.9 135.8 146.9
                                                                         a 5% annual dividend for the first five years and a rate of 9% per year thereafter. In
 150
          115.0 177.5          133.1 133.9
                                                                         addition to the senior preferred shares, publicly traded QFIs issued Treasury war-
 100      115.0 177.5
                                                                         rants to purchase common stock with an aggregate market price equal to 15% of
                                             83.0
     50                                             69.1                 the senior preferred share investment. Privately held QFIs issued Treasury warrants
                                                           58.0 52.1
                                                                         to purchase additional senior preferred stock worth 5% of Treasury’s initial pre-
      0
                                                                         ferred stock investment.230 In total, Treasury invested $204.9 billion of TARP funds
          Q308

                 Q408

                        Q109

                               Q209

                                      Q309

                                             Q409

                                                    Q110

                                                           Q210

                                                                  Q310




                                                                         in 707 QFIs through CPP.231
             CPP Funds Outstanding at Quarter’s End                          Through September 30, 2010, CPP recipients repaid $152.8 billion, leaving
             CPP Funds Repaid at Quarter’s End                           $52.1 billion outstanding. In addition, Treasury received from CPP recipients
                                                                         approximately $9.9 billion in interest and dividends. Treasury also received $6.9 bil-
 Note: Numbers affected by rounding.
                                                                         lion through the sale of CPP warrants that were obtained from TARP recipients.232
 Sources: Treasury, Transactions Report, 9/30/2010; Treasury,
 response to SIGTARP vetting draft, 10/7/2010.                           For a summary of CPP funds outstanding and associated repayments, see
                                                                         Figure 2.5.
93                                                                               quarterly report to congress I OCTOBER 26, 2010               93




     Status of Funds
     Through CPP, Treasury purchased $204.9 billion in preferred stock and subordi-
     nated debentures from 707 QFIs in 48 states, the District of Columbia, and Puerto
     Rico. Figure 2.6 shows the geographical distribution of funded QFIs. Although the
     10 largest investments accounted for $142.6 billion of the program, CPP made
     many smaller investments: 331 of 707 recipients received $10.0 million or less.
     Table 2.18 and Table 2.19 show investment distribution by amount.

     Repayment of Funds
     Through September 30, 2010, 121 banks — including 10 with the largest CPP
     investments — had repaid CPP by repurchasing from Treasury some or all
     of the banks’ preferred shares.233 By that date, Treasury had received approxi-
     mately $152.8 billion in principal repayments, leaving approximately $52.1 bil-
     lion outstanding.234 For a full listing of CPP share repurchases, see Appendix D:
     “Transaction Detail.”




     Figure 2.6
     TRACKING CAPITAL PURCHASE PROGRAM INVESTMENTS ACROSS THE COUNTRY




                                                                                         $10 billion or more
                                                                                         $1 billion to $10 billion
                                                                                         $100 million to $1 billion
                                                                                         $10 million to $100 million
                                                                                         Less than $10 million
                                                                                         $0



                                                                                     Note: Banks in Montana and Vermont did not receive
                                                                                     CPP funds.

                                                                                     Source: Treasury, “Local Impact of the Capital Purchase
                                                                                     Program,” 12/9/2009, www.financialstability.gov,
                                                                                     accessed 1/7/2010.
94   special inspector general I troubled asset relief program




                                            Table 2.18
                                             CPP investment summary BY TRANSACTION
                                                                                                               Originala                  Currentb
                                            Total Investment                                             $204.9 billion               $52.1 billion
                                            Largest Capital Investment                                         25 billion               11.6 billion
                                            Smallest Capital Investment                                        301,000                     301,000
                                            Average Capital Investment                                    277.6 million                79.3 million
                                            Median Capital Investment                                       10.3 million                 9.5 million

                                            Notes: Numbers affected by rounding. Data as of 9/30/2010.
                                            a
                                              These numbers are based on total Treasury CPP investment since 10/28/2008.
                                            b
                                              Amount does not include those investments that have already been repaid and is based on total
                                              investments outstanding.
                                            Source: Treasury, Transactions Report, 9/30/2010.




                                            Table 2.19
                                             CPP investment size by institution
                                                                                                               Originala            Outstandingb
                                            $10 billion or more                                                           6                             1
                                            $1 billion to $10 billion                                                   19                              7
                                            $100 million to $1 billion                                                  57                         38
                                            Less than $100 million                                                    625                        577
                                            Total                                                                     707                        623

                                            Notes: Data as of 9/30/2010. Data are based on the institutions’ total CPP investments. There are more
                                            than 30 institutions that have received multiple transactions through CPP.
                                            a
                                              These numbers are based on total Treasury CPP investment since 10/28/2008.
                                            b
                                              Current amount does not include those investments that have already been repaid or are related to bank-
                                              rupt institutions, and is based on total investments outstanding.
                                            Source: Treasury, Transactions Report, 9/30/2010.




                                            Program Administration
                                            Although Treasury’s investment authority for CPP has ended, Treasury still has
                                            significant responsibilities for managing the existing CPP portfolio, including:

                                            •	 collecting dividends and interest payments on outstanding investments
                                            •	 monitoring the performance of outstanding investments
                                            •	 disposing of warrants as investments are repaid
                                            •	 selling or restructuring Treasury’s investment in some troubled financial
                                               institutions
                                            •	 potentially selecting directors for recipients that have missed six or more quar-
                                               terly dividend payments

                                            Dividends and Interest
                                            As of September 30, 2010, Treasury had earned $9.9 billion in dividends and inter-
                                            est on its CPP investments.235 However, 137 QFIs had missed scheduled dividend
                                                                              quarterly report to congress I OCTOBER 26, 2010   95




payments to Treasury totaling approximately $233.6 million. Although some have
since partially paid the dividend, $211.3 million remains unpaid.236 Approximately
$8.0 million of the $211.3 million in outstanding payments is non-cumulative,
meaning that the institution has no legal obligation to pay Treasury unless the insti-
tution declares a dividend.237

Treasury’s Policy on Missed Dividends
Under the terms of the preferred shares held by Treasury as a result of its CPP in-
vestments, in certain circumstances, such as when a QFI misses six quarterly pay-
ments or makes changes to its charter or bylaws, Treasury has the right to appoint
up to two additional members to the institution’s board of directors.238 According
to Treasury, it “evaluates its CPP investments on an ongoing basis with the help of
outside advisors, including external asset managers. The external asset managers
provide a valuation” that results in Treasury assigning the institution a credit score.
For recipients that have low credit scores, including any institution that has missed
three dividend (or interest) payments, Treasury has stated that the “asset manager
dedicates more resources to monitoring the institution and may talk to the institu-
tion on a more frequent basis.”239 Treasury has further stated that it would seek per-
mission from institutions that miss five dividend payments to send observers to the
institutions’ board meetings.240 Treasury plans to focus its attention on institutions
with outstanding CPP investments of $25 million or more.241
    According to Treasury, the observers would be selected from the Office of
Financial Stability and assigned to “gain a better understanding of the institution’s
conditions and challenges and to observe how the board is addressing the situa-
tion.” Their participation would be limited to inquiring about distributed materi-
als, presentations, and actions proposed or taken during the meetings, as well as
addressing any questions concerning the observer’s role.242
    Once Treasury’s right to appoint a new board member is effective, it will evalu-
ate the institution’s condition and health and the functioning of its board, includ-
ing the information gathered by the observers, to determine whether additional
directors are necessary.243 According to Treasury, recruiting qualified directors uses
significant taxpayer resources, and it plans to use a search firm to identify qualified
candidates if it decides to appoint directors.244 These directors will not represent
Treasury but will have the same fiduciary duties to shareholders as all other direc-
tors. Additionally, they will be compensated by the institution in a similar manner
as other directors.245
     According to Treasury, as of September 30, 2010, eight QFIs had missed
at least six dividend payments and 16 banks had missed five dividend payments
totaling $95.3 million.246 Table 2.20 lists CPP participants that had outstanding
dividend payments as of September 30, 2010. As of the same date, Treasury had
appointed no directors but had appointed observers to 14 CPP participants.247 For
a complete list of CPP recipients and institutions making dividend or interest pay-
ments, see Appendix D: “Transaction Detail.”
96             special inspector general I troubled asset relief program                                                        96




     Table 2.20



     CPP-ReLATED MISSED DIVIDEND And InTEREST PAYMENTS,* AS OF 9/30/2010                (CONTINUED)
                                                                     Number of
                                                                         Missed   Value of Missed                  Value of
                                                Dividend or Payment   Payments         Dividends/        Dividends/Interest
     Institution                                Type3               Outstanding          Interest 1         Outstanding1,2,3
     Saigon National Bank                       Non-Cumulative               7          $117,663                   $117,663
     Anchor BanCorp
                                                Cumulative                   6          8,479,167                 8,479,167
     Wisconsin, Inc.
     Blue Valley Ban Corp                       Cumulative                   6          1,631,250                 1,631,250
     Seacoast Banking
                                                Cumulative                   6          3,750,000                 3,750,000
     Corporation of Florida
     Lone Star Bank                             Non-Cumulative               6            255,377                   255,377
     Pacific Capital Bancorp***                 Cumulative                   6        13,547,550                 13,547,550
     OneUnited Bank                             Non-Cumulative               6            904,725                   904,725
     United American Bank                       Non-Cumulative               6            704,640                   704,640
     Sterling Financial Corporation (WA)***     Cumulative                   5        18,937,500                 18,937,500
     Central Pacific Financial Corp.            Cumulative                   5          8,437,500                 8,437,500
     Centrue Financial Corporation              Cumulative                   5          2,041,750                 2,041,750
     Citizens Bancorp                           Cumulative                   5            708,500                   708,500
     Dickinson Financial Corporation II         Cumulative                   5          9,949,900                 9,949,900
     First Banks, Inc.                          Cumulative                   5        20,124,125                 20,124,125
     Grand Mountain Bancshares, Inc.            Cumulative                   5            203,055                   203,055
     Idaho Bancorp                              Cumulative                   5            470,063                   470,063
     Pacific City Financial Corporation         Cumulative                   5          1,103,625                 1,103,625
     Pacific International Bancorp Inc          Cumulative                   5            406,250                   406,250
     Royal Bancshares of Pennsylvania, Inc.     Cumulative                   5          1,900,438                 1,900,438
     Citizens Bank & Trust Company              Non-Cumulative               5            163,500                   163,500
     Commonwealth Business Bank                 Non-Cumulative               5            524,625                   524,625
     Georgia Primary Bank                       Non-Cumulative               5            316,100                   316,100
     One Georgia Bank                           Non-Cumulative               5            380,516                   380,516
     Premier Service Bank                       Non-Cumulative               5            269,472                   269,472
     Cascade Financial Corporation              Cumulative                   4          1,948,500                 1,948,500
     TIB Financial Corp*****                    Cumulative                   4          1,850,000                 1,850,000
     Citizens Commerce Bancshares, Inc.         Cumulative                   4            343,350                   343,350
     FC Holdings, Inc.                          Cumulative                   4          1,146,780                 1,146,780
     Hampton Roads Bankshares, Inc.***          Cumulative                   4          4,017,350                 4,017,350
     Heritage Commerce Corp                     Cumulative                   4          2,000,000                 2,000,000
     Integra Bank Corporation                   Cumulative                   4          4,179,300                 4,179,300
     Northern States Financial Corporation      Cumulative                   4            860,550                   860,550
     Omega Capital Corp.                        Cumulative                   4            153,490                   153,490
     Pathway Bancorp                            Cumulative                   4            203,090                   203,090
     Patterson Bancshares, Inc                  Cumulative                   4            201,150                   201,150
     Peninsula Bank Holding Co.                 Cumulative                   4            312,500                   312,500
                                                                                                      Continued on next page.
97                                                                                  quarterly report to congress I OCTOBER 26, 2010   97




     CPP-ReLATED MISSED DIVIDEND And InTEREST PAYMENTS,* AS OF 9/30/2010                    (CONTINUED)
                                                                       Number of
                                                                           Missed     Value of Missed                    Value of
                                                  Dividend or Payment   Payments           Dividends/          Dividends/Interest
     Institution                                  Type3               Outstanding            Interest 1           Outstanding1,2,3
     Pierce County Bancorp                        Cumulative                   4              370,600                    370,600
     Premierwest Bancorp                          Cumulative                   4           $2,070,000                 $2,070,000
     Ridgestone Financial Services, Inc.          Cumulative                   4              594,050                    594,050
     Rising Sun Bancorp                           Cumulative                   4              326,060                    326,060
     Rogers Bancshares, Inc.                      Cumulative                   4            1,362,500                  1,362,500
     Syringa Bancorp                              Cumulative                   4              436,000                    436,000
     Community Bank of the Bay                    Non-Cumulative               4               72,549                     72,549
     Maryland Financial Bank                      Non-Cumulative               4               92,650                     92,650
     The Freeport State Bank                      Non-Cumulative               4               16,400                     16,400
     Midwest Banc Holdings, Inc.****, 4           Cumulative                   4            4,239,200                  4,239,200
     The South Financial Group, Inc.*****         Cumulative                   3           13,012,500                 13,012,500
     BNCCORP, Inc.                                Cumulative                   3              821,325                    821,325
     Cecil Bancorp, Inc.                          Cumulative                   3              433,500                    433,500
     Central Virginia Bankshares, Inc.            Cumulative                   3              426,938                    426,938
     Citizens Bancshares Co. (MO)                 Cumulative                   3            1,021,500                  1,021,500
     Citizens Republic Bancorp, Inc.              Cumulative                   3           11,250,000                 11,250,000
     City National Bancshares Corporation         Cumulative                   3              353,963                    353,963
     Congaree Bancshares, Inc.**                  Cumulative                   3              179,010                    134,258
     Fidelity Federal Bancorp                     Cumulative                   3              265,087                    265,087
     First Federal Bancshares of Arkansas, Inc.   Cumulative                   3              618,750                    618,750
     First Security Group, Inc.                   Cumulative                   3            1,237,500                  1,237,500
     First Southwest Bancorporation, Inc.         Cumulative                   3              224,813                    224,813
     FPB Bancorp, Inc. (FL)                       Cumulative                   3              217,500                    217,500
     Heartland Bancshares, Inc.                   Cumulative                   3              279,240                    279,240
     Intermountain Community Bancorp              Cumulative                   3            1,012,500                  1,012,500
     Intervest Bancshares Corporation             Cumulative                   3              937,500                    937,500
     Monarch Community Bancorp, Inc.              Cumulative                   3              254,438                    254,438
     Sonoma Valley Bancorp****                    Cumulative                   3              353,715                    353,715
     Tennessee Valley Financial Holdings, Inc.    Cumulative                   3              122,625                    122,625
     Community 1st Bank                           Non-Cumulative               3               80,709                     80,709
     First Sound Bank                             Non-Cumulative               3              277,500                    277,500
     Presidio Bank                                Non-Cumulative               3              419,031                    419,031
     The Bank of Currituck                        Non-Cumulative               3              164,355                    164,355
     The Connecticut Bank and Trust Company       Non-Cumulative               3              178,573                    178,573
     U.S. Century Bank                            Non-Cumulative               3            2,053,410                  2,053,410
     Alliance Financial Services, Inc.            Interest                     3              755,100                    755,100
     Duke Financial Group, Inc.                   Interest                     3              755,100                    755,100
     Investors Financial Corporation of Pettis
                                                  Interest                     3              251,700                    251,700
     County, Inc.
     Security State Bank Holding Company          Interest                     3              676,496                    676,496
                                                                                                           Continued on next page.
98             special inspector general I troubled asset relief program                                                        98




     CPP-ReLATED MISSED DIVIDEND And InTEREST PAYMENTS,* AS OF 9/30/2010                (CONTINUED)
                                                                     Number of
                                                                         Missed   Value of Missed                  Value of
                                                Dividend or Payment   Payments         Dividends/        Dividends/Interest
     Institution                                Type3               Outstanding          Interest 1         Outstanding1,2,3
     Bankers’ Bank of the West Bancorp, Inc.    Cumulative                   2            344,415                   344,415
     CIT Group Inc.****, 5                      Cumulative                   2       $29,125,000                $29,125,000
     Bridgeview Bancorp, Inc.                   Cumulative                   2          1,035,500                 1,035,500
     First Community Bancshares, Inc (KS)       Cumulative                   2            403,300                   403,300
     FNB United Corp.                           Cumulative                   2          1,287,500                 1,287,500
     Gregg Bancshares, Inc.                     Cumulative                   2             22,470                    22,470
     Heritage Oaks Bancorp                      Cumulative                   2            525,000                   525,000
     Independent Bank Corporation***            Cumulative                   2          3,030,096                 1,230,096
     Madison Financial Corporation              Cumulative                   2             91,855                    91,855
     Millennium Bancorp, Inc.**                 Cumulative                   2            296,753                   197,835
     Northwest Bancorporation, Inc.             Cumulative                   2            286,125                   286,125
     Pacific Coast National Bancorp****         Cumulative                   2            112,270                   112,270
     Patapsco Bancorp, Inc.                     Cumulative                   2            163,500                   163,500
     Plumas Bancorp                             Cumulative                   2            298,725                   298,725
     Prairie Star Bancshares, Inc.              Cumulative                   2             76,300                    76,300
     Premier Bank Holding Company               Cumulative                   2            258,875                   258,875
     Stonebridge Financial Corp.                Cumulative                   2            299,030                   299,030
     TCB Holding Company                        Cumulative                   2            319,665                   319,665
     Timberland Bancorp, Inc.                   Cumulative                   2            416,025                   416,025
     Treaty Oak Bancorp, Inc.                   Cumulative                   2             89,035                    89,035
     Valley Financial Corporation               Cumulative                   2            400,475                   400,475
     Fresno First Bank                          Non-Cumulative               2             33,357                    33,357
     Gold Canyon Bank                           Non-Cumulative               2             42,335                    42,335
     Goldwater Bank, N.A.**                     Non-Cumulative               2            139,920                    69,960
     Midtown Bank & Trust Company **            Non-Cumulative               2            213,443                   142,295
     Santa Clara Valley Bank, N.A.              Non-Cumulative               2             79,025                    79,025
     First Trust Corporation                    Interest                     2            753,769                   753,769
     1st FS Corporation                         Cumulative                   1            204,613                   204,613
     Alaska Pacific Bancshares, Inc.            Cumulative                   1             59,763                    59,763
     Berkshire Bancorp, Inc.                    Cumulative                   1             39,413                    39,413
     Blue Ridge Bancshares, Inc.                Cumulative                   1            163,500                   163,500
     BNB Financial Services Corporation         Cumulative                   1            102,188                   102,188
     Broadway Financial Corporation             Cumulative                   1            187,500                   187,500
     Cadence Financial Corporation*****         Cumulative                   1            550,000                   550,000
     Capital Commerce Bancorp, Inc.             Cumulative                   1             69,488                    69,488
     CBS Banc-Corp                              Cumulative                   1            331,088                   331,088
     Community Bankers Trust Corporation        Cumulative                   1            221,000                   221,000
     Covenant Financial Corporation             Cumulative                   1             68,125                    68,125
     First BanCorp (PR)***                      Cumulative                   1        21,472,826                  1,472,826
     First Community Bank Corporation of America Cumulative                  1            133,563                   133,563
     Harbor Bankshares Corporation**            Cumulative                   1            255,000                    85,000
                                                                                                      Continued on next page.
99                                                                                                                                   quarterly report to congress I OCTOBER 26, 2010                           99




     CPP-ReLATED MISSED DIVIDEND And InTEREST PAYMENTS,* AS OF 9/30/2010                                                                           (CONTINUED)
                                                                                           Number of
                                                                                               Missed                                    Value of Missed                                  Value of
                                                                      Dividend or Payment   Payments                                          Dividends/                        Dividends/Interest
     Institution                                                      Type3               Outstanding                                           Interest 1                         Outstanding1,2,3
     HomeTown Bankshares Corporation                                  Cumulative                                         1                           133,415                                    133,415
     Legacy Bancorp, Inc.                                             Cumulative                                         1                           $68,725                                    $68,725
     Market Bancorporation, Inc.                                      Cumulative                                         1                            28,068                                     28,068
     Mercantile Bank Corporation                                      Cumulative                                         1                           262,500                                    262,500
     MetroCorp Bancshares, Inc.                                       Cumulative                                         1                           562,500                                    562,500
     Metropolitan Bank Group, Inc (Archer Bank)                       Cumulative                                         1                           974,535                                    974,535
     MS Financial, Inc.                                               Cumulative                                         1                           105,221                                    105,221
     NC Bancorp, Inc.                                                 Cumulative                                         1                            93,740                                     93,740
     Pinnacle Bank Holding Company                                    Cumulative                                         1                            59,790                                     59,790
     Provident Community Bancshares, Inc.                             Cumulative                                         1                           115,825                                    115,825
     The Queensborough Company                                        Cumulative                                         1                           163,500                                    163,500
     Superior Bancorp Inc.***                                         Cumulative                                         1                           862,500                                    862,500
     Tifton Banking Company                                           Cumulative                                         1                            51,775                                     51,775
     Trinity Capital Corporation                                      Cumulative                                         1                           484,220                                    484,220
     UCBH Holdings, Inc.****                                          Cumulative                                         1                        3,734,213                                  3,734,213
     Western Community Bancshares, Inc.                               Cumulative                                         1                            99,338                                     99,338
     Exchange Bank                                                    Non-Cumulative                                     1                           585,875                                    585,875
     Pacific Commerce Bank**                                          Non-Cumulative                                     1                            87,279                                     31,961
     Biscayne Bancshares, Inc.                                        Interest                                           1                           130,238                                   130,238
     Boscobel Bancorp, Inc                                            Interest                                           1                           117,156                                   117,156
     Premier Financial Corp                                           Interest                                           1                           133,155                                   133,155
     Total                                                                                                                                $233,613,136                               $211,303,040

     Notes: Numbers may not total due to rounding. Approximately $8.0 million of the $211.3 million in outstanding CPP dividend payments are non-cumulative and Treasury has no legal right to
     missed dividends that are non-cumulative.
     * “Missed Interest Payments” occur when a Subchapter S recipient fails to pay Treasury interest on a subordinated debenture in a timely manner.
     ** Partial payments made after the due date.
     *** Completed an exchange with Treasury. For an exchange of mandatorily convertible preferred stock or trust preferred securities, dividend payments continue to accrue. For an exchange of
     mandatorily preferred stock for common stock, no additional dividend payments will accrue.
     **** Filed for bankruptcy or subsidiary bank failed. For completed bankruptcy proceedings, Treasury’s investment was extinguished and no additional dividend payments will accrue.
     ***** Treasury sold or is selling CPP investment to third party. No additional dividend payments will accrue after a sale.
     1
       Includes unpaid cumulative dividends, non-cumulative dividends, and Subchapter S interest payments but does not include interest accrued on unpaid cumulative dividends.
     2
       Excludes institutions that missed payments but (i) have fully caught up on missed payments, or (ii) have repaid their investment amounts and exited the Capital Purchase Program.
     3
        Includes institutions that missed payments and (i) completed an exchange with Treasury for new securities, (ii) their CPP investment was sold by Treasury to a third party, or (iii) are in, or have
        completed bankruptcy proceedings or subsidiary bank failed.
     4
       For Midwest Banc Holdings, Inc., the Number of Missed Payments Outstanding is the number last reported from SIGTARP Quarterly Report to Congress 4/20/2010, prior to bankruptcy filing;
        the Value of Missed Dividends is from Treasury’s response to SIGTARP data call, 10/13/2010; and the Value of Dividends Outstanding is the unpaid amount.
     5
        For CIT Group Inc., the Number of Missed Payments Outstanding is from the number last reported from SIGTARP Quarterly Report to Congress 1/30/2010, shortly after the bankruptcy filing;
        the Value of Missed Dividends is from Treasury’s response to SIGTARP data call, 10/13/2010; and the Value of Dividends Outstanding is the unpaid amount.


     Sources: Treasury, response to SIGTARP data call, 10/13/2010; SIGTARP Quarterly Report to Congress 1/30/2010; SIGTARP Quarterly Report to Congress 4/20/2010.
100            special inspector general I troubled asset relief program




                                                      Warrant Disposition
                                                      As required by EESA, Treasury receives warrants when it invests in troubled assets
                                                      from financial institutions, with an exception for certain small institutions. With
                                                      respect to financial institutions with publicly traded securities, these warrants give
                                                      Treasury the right, but not the obligation, to purchase a certain number of shares
                                                      of common stock in a CPP participant at a predetermined price. Because the war-
                                                      rants rise in value as the company’s share price rises, they permit Treasury (and the
                                                      taxpayer) to benefit from a firm’s potential recovery.248 For publicly traded institu-
                                                      tions, the warrants received by Treasury under CPP allowed Treasury to purchase
      Exercise Price: Preset price at which           additional shares of common stock in a number equal to 15% of the value of the
      the warrant holder may purchase each            original CPP investment at a specified exercise price.249 Treasury’s warrants consti-
      share. For warrants issued through              tute assets with a fair market value that Treasury estimates using relevant market
      CPP, this was based on the average              quotes, financial models, and/or third-party valuations.250
      stock price during the 20 days before               For publicly traded participants, Treasury received warrants to purchase
      the date that Treasury granted prelimi-         common stock that expire 10 years from the date of the CPP investment. As of
      nary CPP participation approval.
                                                      September 30, 2010, Treasury had not exercised any of these warrants.251 For pri-
                                                      vately held institutions, Treasury received warrants to purchase additional preferred
                                                      stock or debt in an amount equal to 5% of the CPP investment. Treasury exercised
                                                      these warrants immediately.252

                                                      Repurchase of Warrants by Financial Institutions
      For more information on warrant disposi-
      tion, see SIGTARP’s Audit Report of May
                                                      Upon repaying its CPP investment, a recipient may seek to negotiate with Treasury
      10, 2010, “Assessing Treasury’s Process         to buy back its warrants. As of September 30, 2010, 43 publicly traded institutions
      to Sell Warrants Received from TARP             had bought back $3.1 billion worth of warrants, of which $192.0 million was pur-
      Recipients.”                                    chased this quarter. By that same date, 20 privately held institutions, the warrants
                                                      of which had been immediately exercised, bought back the resulting additional
                                                      preferred shares for a total of $11.0 million, of which $7.2 million was bought back
                                                      this quarter.253 Table 2.21 lists publicly traded institutions that have repaid TARP
                                                      and repurchased warrants. Table 2.22 lists privately held institutions that had done
                                                      so as of September 30, 2010.
101                                                                                   quarterly report to congress I OCTOBER 26, 2010   101




      Table 2.21
      CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 9/30/2010
                                                                           Number of Warrants     Amount of Repurchase
      Repurchase Date   Institution                                             Repurchased              ($ Thousands)
      7/22/2009         The Goldman Sachs Group, Inc.                              12,205,045               $1,100,000.0
      8/12/2009         Morgan Stanley                                             65,245,759                  950,000.0
      7/29/2009         American Express Company                                   24,264,129                  340,000.0
      7/7/2010          Discover Financial Services                                20,500,413                  172,000.0
      7/15/2009         U.S. Bancorp                                               32,679,102                  139,000.0
      8/5/2009          BNYM                                                       14,516,129                  136,000.0
      8/26/2009         Northern Trust Corporation                                  3,824,624                   87,000.0
      7/22/2009         BB&T Corp.                                                 13,902,573                   67,010.4
      7/8/2009          State Street Corporation   a
                                                                                    2,788,104                   60,000.0
      4/7/2010          City National Corporation                                   1,128,668                   18,500.0
      9/8/2010          Fulton Financial Corporation                                5,509,756                   10,800.0
      12/30/2009        Trustmark Corporation                                       1,647,931                   10,000.0
      6/16/2010         SVB Financial Group                                          354,058                      6,820.0
      5/27/2009         FirstMerit Corporation                                       952,260                      5,025.0
      9/8/2010          The Bancorp, Inc.                                            980,203                      4,754.0
      3/31/2010         Umpqua Holdings Corp.                                       1,110,898                     4,500.0
      9/1/2010          Columbia Banking System, Inc.                                398,023                      3,301.6
      6/24/2009         First Niagara Financial Group                                953,096                      2,700.0
      11/24/2009        Bank of the Ozarks, Inc.                                     379,811                      2,650.0
      5/27/2009         Independent Bank Corp.                                       481,664                      2,200.0
      5/27/2009         Sun Bancorp, Inc.                                           1,620,545                     2,100.0
      4/7/2010          First Litchfield Financial Corporation                       199,203                      1,488.0
      9/30/2009         Bancorp Rhode Island, Inc.                                   303,083                      1,400.0
      6/24/2009         SCBT Financial Corporation                                   192,967                      1,400.0
      10/28/2009        CVB Financial Corp                                           834,761                      1,307.0
      5/20/2009         Iberiabank Corporation                                       813,008                      1,200.0
      5/08/2009         Old National Bancorp                                         138,490                      1,200.0
      6/24/2009         Berkshire Hills Bancorp, Inc.                                226,330                      1,040.0
      12/23/2009        WesBanco, Inc.                                               439,282                        950.0
      6/17/2009         Alliance Financial Corporation                               173,069                        900.0
      12/30/2009        Flushing Financial Corporation                               375,806                        900.0
      6/30/2009         HF Financial Corp., Sioux Falls                              302,419                        650.0
      12/16/2009        Wainwright Bank & Trust Company                              390,071                        568.7
      12/16/2009        LSB Corporation                                              209,497                        560.0
                        Union First Market Bankshares Corporation (Union
      12/23/2009                                                                     211,318                        450.0
                        Bankshares Corporation)
      2/3/2010          OceanFirst Financial Corp.                                   190,427                        430.8

      9/1/2010          Citizens & Northern Corporation                              194,794                        400.0
                                                                                                   Continued on next page.
102   special inspector general I troubled asset relief program




                  CPP WARRANT SALES AND REPURCHASES (PUBLIC), AS OF 9/30/2010                                                              (CONTINUED)
                                                                                                                         Number of Warrants                    Amount of Repurchase
                  Repurchase Date               Institution                                                                   Repurchased                             ($ Thousands)
                 9/30/2010                     South Financial Group Inc.b                                                             10,106,796                                      $400.0
                 6/24/2009                     Somerset Hills Bancorp                                                                       163,065                                     275.0
                 2/10/2010                     Monarch Financial Holdings, Inc.                                                             132,353                                     260.0
                 7/28/2010                     Bar Harbor Bankshares                                                                          52,455                                    250.0
                 9/2/2009                      Old Line Bancshares, Inc.                                                                    141,892                                     225.0
                 10/28/2009                    Centerstate Banks of Florida Inc.                                                            125,413                                     212.0
                 10/14/2009                    Manhattan Bancorp                                                                              29,480                                      63.4
                 9/30/2010                     TIB Financialb                                                                            1,106,389                                        40.0
                 Total                                                                                                              222,495,159                             $3,140,930.9

                 Notes: Numbers may not total due to rounding. This table represents warrants for common stock issued to Treasury by publicly traded TARP recipients. Treasury may hold one
                 warrant for millions of underlying shares rather than millions of warrants of an individual financial institution.
                 a
                   State Street Corporation reduced its original amount of warrants issued through a qualified equity offering.
                 b
                   Warrant sales to third parties.

                 Sources: Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/6/2010.



                 Table 2.22

                  CPP REPURCHASES of preferred shares resulting from immediate exercise of
                  warrants (private), AS OF 9/30/2010
                                                                                                                                  Number of                    Amount of Repurchase
                 Repurchase Date                    Institution                                                        Warrants Repurchased                           ($ Thousands)
                 9/29/2010                          Community Bancshares of Mississippi, Inc.                                             2,600,000                                 $2,600.0
                 9/29/2010                          BancPlus Corporation                                                                  2,400,000                                  2,400.0
                 9/29/2010                          State Capital Corporation                                                                750,000                                    750.0
                 4/15/2009                          Centra Financial Holdings, Inc.                                                          750,000                                    750.0
                 5/27/2009                          First Manitowoc Bancorp, Inc.                                                            600,000                                    600.0
                 6/16/2010                          First Southern Bancorp, Inc.                                                             545,000                                    545.0
                 9/29/2010                          Security Capital Corporation                                                             522,000                                    522.0
                 12/23/2009                         Midland States Bancorp, Inc.                                                             509,000                                    509.0
                 11/18/2009                         1st United Bancorp, Inc.                                                                 500,000                                    500.0
                 9/29/2010                          PSB Financial Corporation                                                                464,000                                    464.0
                 4/22/2009                          First ULB Corp.                                                                          245,000                                    245.0
                 9/29/2010                          First Vemon Bankshares, Inc.                                                             245,000                                    245.0
                 4/21/2010                          Hilltop Community Bancorp, Inc.                                                          200,000                                    200.0
                 5/19/2010                          Texas National Bancorporation                                                            199,000                                    199.0
                 6/16/2010                          FPB Financial Corp.                                                                      162,000                                    162.0
                 9/29/2010                          Lafayette                                                                                100,000                                    100.0
                 9/24/2010                          First Choice Bank                                                                        110,000                                    110.0
                 4/14/2010                          First State Bank of Mobeetie                                                               37,000                                     37.0
                 11/10/2009                         Midwest Regional Bancorp, Inc.                                                             35,000                                     35.0
                 7/14/2010                          Green City Bancshares, Inc.                                                                33,000                                     33.0
                 Total                                                                                                                 11,006,000                                $11,006.0

                 Notes: Numbers may not total due to rounding. This table represents the preferred shares held by Treasury as a result of the exercise of warrants issued by non-publicly traded
                 TARP recipients. These warrants were exercised immediately upon the transaction date. Treasury may hold one warrant for millions of underlying shares rather than millions of
                 warrants of an individual financial institution.

                 Sources: Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/6/2010.
                                                                                 quarterly report to congress I OCTOBER 26, 2010            103




Treasury Warrant Auctions
If Treasury and the repaying QFI cannot agree upon the price for the institution’s
repurchase of its warrants, Treasury has options for managing the investments,
including a public offering to auction the warrants.254 In November 2009 Treasury
began using a “modified Dutch auction” to sell the warrants publicly. On the an-                 Dutch Auction: For a Treasury warrant
                                                                                                 auction (which has multiple bidders
nounced auction date, potential investors (which may include the CPP recipient)
                                                                                                 bidding for different quantities of the
submit bids to the auction agent that manages the sale (for CPP-related warrants,
                                                                                                 asset), the accepted price is set at the
Deutsche Bank) at specified increments above a minimum price set by Treasury.255
                                                                                                 lowest bid of the group of high bidders
Once the auction agent receives all bids, it determines the final price and distrib-             whose collective bids fulfill the amount
utes the warrants to the winning bidders.256                                                     offered by Treasury. As an example,
    Treasury conducted two warrant auctions this quarter for Lincoln National                    three investors place bids to own a
Corporation and The Hartford Financial Services Group, raising $216.6 million                    portion of 100 shares offered by the
and $713.7 million, respectively, for total gross proceeds of approximately $930.3               issuer:
million before underwriting fees and selling expenses.257 Through September 30,                  Bidder A wants 50 shares at $4/share
2010, Treasury held 16 public auctions for warrants it received under CPP and                    Bidder B wants 50 shares at $3/share
TIP, raising a total of approximately $5 billion.258 Final closing information for all           Bidder C wants 50 shares at $2/share
auctions is shown in Table 2.23.
                                                                                                 The seller selects Bidders A and B as
                                                                                                 the two highest bidders, and their col-
CPP Restructurings and Recapitalizations
                                                                                                 lective bids consume the 100 shares
Certain CPP institutions continue to experience high losses and financial difficul-
                                                                                                 offered. The winning price is $3, which
ties, resulting in inadequate capital or liquidity. Others are encouraged by their
                                                                                                 is what both bidders pay per share.
regulators to improve the quality of their capital. To avoid insolvency or improve               Bidder C’s bid is not filled.
the quality of capital, these institutions may ask Treasury to change the investment
type by making it more junior or resulting in Treasury taking a discount or loss. If a           Auction Agent: Firm (such as an invest-
CPP institution is undercapitalized and/or in danger of becoming insolvent, it may               ment bank) that buys a series of securi-
propose to Treasury a restructuring (or recapitalization) plan to avoid failure (or              ties from one institution for resale.
to attract private capital) and to “attempt to preserve value” for Treasury’s invest-
ment.259 Treasury may also sell its investment in a troubled institution to a third              Undercapitalized: Condition in which a
party at a discount in order to facilitate that party’s acquisition of a troubled institu-       financial institution does not meet its
tion. Although Treasury may incur partial losses on its investment in the course                 regulator’s requirements for sufficient
of these transactions, it has explained to SIGTARP that such an outcome may be                   capital to operate under a defined level
                                                                                                 of adverse conditions.
deemed necessary to avoid the total loss of Treasury’s investment that would occur
if the institution failed.260
     Under these circumstances, the CPP participant will ask Treasury for a formal
review of its proposal. The proposal will detail the institution’s recapitalization
plan and may estimate how much capital the institution plans to raise from private
investors and whether Treasury and other preferred shareholders will convert their
preferred stock to common stock. The proposal may also involve a proposed dis-
count on the conversion to common stock, although Treasury does not realize any
loss until it disposes of the stock.261 In other words, Treasury will not know whether
a loss will occur, or the extent of such a loss, until the common stock is sold.262
According to Treasury, when it receives such a request, it asks one of the external
104   special inspector general I troubled asset relief program




            Table 2.23

            Treasury Auctions, As of 9/30/2010
                                                                                           Number of                                                                    Proceeds to
                                                             Auction                        Warrants               Minimum                   Selling                       Treasury
                                                             Date                            Offered               Bid Price                  Price                      ($ Millions)
           Hartford Financial Services Group                 9/21/2010                     52,093,973                  $10.50                $13.70                             $713.7
           Lincoln National Corporation                      9/16/2020                     13,049,451                    13.50                16.60                              216.6
           eSterling Bancshares Inc.                         6/9/2010                       2,615,557                      0.85                 1.15                                 3.0
           First Financial Bancorp                           6/2/2010                          465,117                     4.00                 6.70                                 3.1
           Wells Fargo and Company                           5/20/2010                   110,261,688                       6.50                 7.70                             849.0
           Valley National Bancorp                           5/18/2010                      2,532,542                      1.70                 2.20                                 5.6
           Comerica Inc.                                     5/6/2010                      11,479,592                    15.00                16.00                              183.7
           PNC Financial Service Group, Inc.                 4/29/2010                     16,885,192                    15.00                19.20                              324.2
           Texas Capital Bancshares, Inc.                    3/11/2010                         758,086                     6.50                 6.50                                 6.7
           Signature Bank                                    3/10/2010                         595,829                   16.00                19.00                                11.3
           Washington Federal, Inc.                          3/9/2010                       1,707,456                      5.00                 5.00                               15.6
           Bank of America
                                                             3/3/2010                    150,375,940                       7.00                 8.35                           1,255.6
           A Auction (TIP)
           Bank of America B Auction (CPP)                   3/3/2010                    121,792,790                       1.50                 2.55                             310.6
           TCF Financial                                     12/15/2009                     3,199,988                      1.50                 3.00                                 9.6
           JPMorgan Chase                                    12/10/2009                    88,401,697                      8.00               10.75                              950.3
           Capital One                                       12/3/2009                     12,657,960                      7.50               11.75                              148.7
           Total                                                                       588,872,858                                                                          $5,007.3

           Note: Numbers affected by rounding.

           Sources: The PNC Financial Services Group, Inc., “Final Prospectus Supplement,” 4/29/2010, www.sec.gov/Archives/edgar/data/713676/ 000119312510101032/d424b5.
           htm, accessed 6/30/2010; Valley National Bancorp, “Final Prospectus Supplement,” 5/18/2010, www.sec.gov/Archives/edgar/data/714310/000119312510123896/d424b5.
           htm, accessed 6/30/2010; Comerica Incorporated, “Final Prospectus Supplement,” 5/6/2010, www.sec.gov/Archives/edgar/data/28412/000119312510112107/d424b5.
           htm, accessed 6/30/2010; Wells Fargo and Company, “Definitive Prospectus Supplement,” 5/20/2010, www.sec.gov/Archives/edgar/data/72971/000119312510126208/
           d424b5.htm, accessed 6/30/2010; First Financial Bancorp, “Prospectus Supplement,” 6/2/2010, www.sec.gov/Archives/edgar/data/708955/000114420410031630/
           v187278_424b5.htm, accessed 6/30/2010; Sterling Bancshares, Inc., “Prospectus Supplement,” 6/9/2010, www.sec.gov/Archives/edgar/data/891098/000119312510137258/
           d424b5.htm, accessed 6/30/2010; Signature Bank, “Prospectus Supplement,” 3/10/2010, http://files.shareholder.com/downloads/SBNY/865263367x0x358381/
           E87182B5-A552-43DD-9499-8B56F79AEFD0/8-K__Reg_FD_Offering_Circular.pdf, accessed 3/11/2010; Texas Capital Bancshares, Inc., “Prospectus Supplement,”
           3/11/2010, www.sec.gov/Archives/edgar/data/1077428/000095012310023800/d71405ae424b5.htm, accessed 3/12/2010; Bank of America, “Form 8-K,” 3/3/2010,
           www.sec.gov/Archives/edgar/data/70858/000119312510051260/d8k.htm, accessed 3/4/2010; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/
           Archives/edgar/data/70858/000119312510044940/d424b7.htm, accessed 3/4/2010; Bank of America, “Prospectus Supplement,” 3/1/2010, www.sec.gov/Archives/
           edgar/data/70858/000119312510044945/d424b7.htm, accessed 3/4/2010; Washington Federal, Inc., “Prospectus Supplement,” 3/9/2010, www.sec.gov/Archives/
           edgar/data/936528/000119312510052062/d424b5.htm, accessed 3/10/2010; TCF Financial, “Prospectus Supplement,” 12/16/2009, www.sec.gov/Archives/edgar/
           data/814184/000104746909010786/a2195869z424b5.htm, accessed 12/29/2009; JPMorgan Chase, “Prospectus Supplement,” 12/11/2009, www.sec.gov/Archives/
           edgar/data/19617/000119312509251466/d424b5.htm, accessed 12/29/2009; Capital One Financial, “Prospectus Supplement,” 12/3/2009, www.sec.gov/Archives/edgar/
           data/927628/000119312509247252/d424b5.htm, accessed 12/4/2009; Treasury, Transactions Report, 6/30/2010, financialstability.gov/docs/transaction-reports/4-2-10%20
           Transactions%20Report%20as%20of%203-31-10.pdf, accessed 6/30/2010. Hartford Financial Services Group, Prospectus Supplement to Prospectus filed with the SEC 8/4/2010,
           www.sec.gov/Archives/edgar/data/874766/000095012310087985/y86606b5e424b5.htm, accessed 10/7/2010; Hartford Financial Services Group, 8-K, 9/27/2010, www.sec.
           gov/Archives/edgar/data/874766/000095012310089083/y86713e8vk.htm, accessed 10/7/2010; Hartford Financial Services Group, Underwriting Agreement, 8/21/2010, www.
           sec.gov/Archives/edgar/data/874766/000095012310089083/y86713exv1w1.htm, accessed 10/7/2010; Treasury, Transactions Report, 9/27/2010, www.financialstability.gov/
           docs/transaction-reports/9-29-10%20Transactions%20Report%20as%20of%209-27-10.pdf, accessed 9/29/2010; Treasury, “Treasury Announces Pricing of Public Offering to Purchase
           Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.financialstability.gov/latest/pr_09222010.html, accessed 9/22/2010; Lincoln National Corporation,
           Prospectus Supplement to Prospectus filed with SEC 3/10/2009, www.sec.gov/Archives/edgar/data/59558/000119312510211941/d424b5.htm, accessed 10/7/2010; Lincoln
           National Corporation, 8-K, 9/22/2010, www.sec.gov/Archives/edgar/data/59558/000119312510214540/d8k.htm, accessed 10/7/2010.
                                                                                          quarterly report to congress I OCTOBER 26, 2010                 105




asset managers that it has hired to analyze the proposal and perform due diligence
on the institution.263 The external asset manager interviews the institution’s manag-                         Due Diligence: Appropriate level of atten-
ers, gathers non-public information, and conducts loan-loss estimates and capital                             tion or care a reasonable person should
structure analysis. The manager submits its evaluation to Treasury, which in turn                             take before entering into an agreement or
decides whether to restructure its CPP investment.264                                                         a transaction with another party. In finance,
    Table 2.24 shows all CPP restructurings and recapitalizations through                                     often refers to the process of conducting
September 30, 2010.                                                                                           an audit or review of the counterparty prior
                                                                                                              to initiating a transaction.


Table 2.24

 Treasury Restructurings, Recapitalizations and Sales, As of 9/30/2010                                    ($ MILLIONS) (contiNued)
                              Pre-Exchange Investment                                                    Exchange
                                                                                    Amount                                                        (Loss)/
                                                                                Received by                                        Discount      Gain on
Institution        Date            Amount Security Type           Date             Treasury Security Type                                %     Exchangea
                                                                                               7.7 billion shares of
                   10/28/2008 $25,000.0      Preferred Stock      9/11/2009      $25,000.0                                               0%             $0
                                                                                               Common Stock
Citigroup Inc. b

                                             4.1 billion shares   4/26/2010 -
                                                                                 $16,368.7     Cash                                    N/Ac      $3,014.6
                                             of Common Stock      9/30/2010
                                                                                               Mandatorily Convertible Preferred
                   1/16/2009       $400.0    Preferred Stock      7/20/2010         $424.2     Stock ($24,174,000 in accrued             0%             $0
First                                                                                          and unpaid dividends)
BanCorpd                                     Mandatorily                             N/A for
                   7/20/2010       $424.2    Convertible          Pending           pending    Common Stock                            35%        ($148.5)
                                             Preferred Stock                    transactions
                                                                                               Mandatorily Convertible Preferred
                   12/12/2008        $72.2   Preferred Stock      4/2/2010           $74.6     Stock ($2,426,000 in accrued              0%             $0
Independent                                                                                    and unpaid dividends)
Bank
Corporationd                                 Mandatorily                             N/A for
                   4/2/2010          $74.6   Convertible          Pending           pending    Common Stock                            25%         ($18.7)
                                             Preferred Stock                    transactions
                                                                                               Mandatorily Convertible Preferred
                   11/21/2008      $180.6    Preferred Stock      7/26/2010         $195.0     Stock ($14,411,000 in accrued             0%             $0
Pacific Capital                                                                                and unpaid dividends)
Bancorpe                                     Mandatorily
                   9/27/2010       $195.0    Convertible          Closed            $306.7     Common Stock                             N/A        $126.1
                                             Preferred Stock
                                                                                               Mandatorily Convertible Preferred
                   12/31/2008        $80.3   Preferred Stock      8/12/2010          $80.3                                               0%             $0
                                                                                               Stock
Hampton Roads
Banksharese                                  Mandatorily
                   9/30/2010         $80.3   Convertible          Closed             $51.7     Common Stock                            36%         ($28.6)
                                             Preferred Stock
                                                                                     $46.4     Trust Preferred Securities
First Merchants 2/20/2009          $116.0    Preferred Stock      6/30/2010                                                              0%             $0
                                                                                     $69.6     Preferred Stock
                                                                                               Mandatorily Convertible Preferred
                   12/5/2008       $303.0    Preferred Stock      4/29/2010         $303.0                                               0%             $0
Sterling                                                                                       Stock
Financial                                    Mandatorily
Corporatione       8/26/2010       $303.0    Convertible          Closed            $261.3     Common Stock                            14%         ($41.7)
                                             Preferred Stock
                                                                                                                                   Continued on next page.
106                 special inspector general I troubled asset relief program




       Treasury Restructurings, Recapitalizations and Sales, As of 9/30/2010                                                                            ($ MILLIONS) (contiNued)
                                           Pre-Exchange Investment                                                                                    Exchange
                                                                                                                        Amount                                                                                (Loss)/
                                                                                                                    Received by                                                           Discount           Gain on
      Institution           Date                    Amount Security Type                        Date                   Treasury Security Type                                                   %          Exchangea
      TIB Financial
                            12/5/2008                  $37.0      Preferred Stock               9/30/2010                   $12.2        Cash                                                    67%             ($24.8)
      Corp.f
      Cadence
      Financial             1/9/2009                   $44.0      Preferred Stock               Pendingh                    $38.0        Cash                                                    14%               ($6.0)
      Corporationg
      Popular, Inc.i        12/5/2008                $935.0       Preferred Stock               8/24/2009                  $935.0        Trust Preferred Securities                                0%                  $0
      South Financial
      Group, Inc/
                            12/5/2008                $347.0       Preferred Stock               9/30/2010                  $130.6        Cash                                                    62%           ($216.4)
      Toronto
      Dominionf
      Superior
                            12/5/2008                  $69.0      Preferred Stock               12/11/2009                  $69.0         Trust Preferred Securities                               0%                  $0
      Bancorp, Inc.

      Notes: Numbers may not total due to rounding.
      a
        For transactions that are pending, gain or loss is calculated based on the amount the discount would be as of the date of the agreement. For closed transactions, gain or loss is calculated as of the date of
        actual conversion.
      b
        As of 9/30/2010, Treasury sold 4.1 billion shares of Citigroup common stock, leaving it with 3.6 billion shares remaining. See “Citigroup Update” discussion in this section for more detailed information.
      c
        N/A means not applicable.
      d
        The institution is in the process of completing requirements that would allow it to convert Treasury’s preferred stock to common stock at a value less than it originally held based on the original terms of the
        exchange. However, the final loss or gain will depend on the market price of the common stock at the conversion date.
      e
        Although a discount is incurred when Treasury’s preferred stock is converted to common stock, Treasury does not realize any loss or gain until it disposes of the stock.
      f
        Treasury has sold its preferred stock for cash.
      g
        Treasury sale of its preferred stock for cash is pending.Treasury does not realize any loss or gain until it disposes of the stock.
      h
        Governing agreement executed 10/6/2010; required shareholder approval pending on 10/6/2010.
      i
         Popular, Inc. paid a $13 million exchange fee in connection with this transaction.

      Sources: Treasury, Transactions Report, 9/30/2010; Treasury response to SIGTARP data call, 10/14/2010; Treasury 105(a) Report, 9/30/2010; SEC, “Cadence Financial Corporation 8-K,” www.snl.com/
      Cache/10192484.pdf?O=3&IID=1018635&OSID=9&FID=10192484, accessed 10/22/2010.




                                                                              Citigroup Update
                                                                              On October 28, 2008, Treasury received $25 billion in Citigroup Inc. (“Citigroup”)
                                                                              preferred shares in return for investing in Citigroup under CPP.265 On June 9, 2009,
                                                                              Treasury agreed, at the request of Citigroup, to an exchange in which Treasury converted
                                                                              the $25 billion in preferred stock shares it had received under CPP for 7.7 billion shares
                                                                              of Citigroup common stock, with a market price of $3.25 per share.266
                                                                                   Following a 90-day lockup period that ended March 16, 2010, Treasury announced
                                                                              that it would sell the Citigroup common stock it held as a result of its CPP investment.267
                                                                              Treasury had agreed to the lockup period in order to facilitate an equity offering con-
                                                                              ducted on December 22, 2009, which enabled Citigroup to raise funds and exit the TIP.
                                                                              In exchange for the 90-day lockup period, Citigroup agreed to pay all costs associated
                                                                              with the sale of any securities issued to Treasury by Citigroup or any of its subsidiaries.268
                                                                              Treasury hired Morgan Stanley as its capital markets advisor in connection with its dispo-
                                                                              sition of its Citigroup common stock. On March 29, 2010, Treasury stated that, under a
                                                                              prearranged written trading plan, it would sell its Citigroup common shares in an “orderly
                                                                              and measured” fashion over the course of 2010, subject to market conditions.269
                                                                                                                            quarterly report to congress I OCTOBER 26, 2010   107




     In accordance with that plan, on May 26, 2010, Treasury completed a month-long
sale of 1.5 billion shares of Citigroup common stock.270 As a result, Treasury received ap-
proximately $6.2 billion in proceeds (at an average price of $4.12 per share) and reduced
its percentage ownership of Citigroup common stock from approximately 27% to 21%.
     Treasury entered into a second prearranged trading plan with Morgan Stanley to sell
up to 1.5 billion of Treasury’s remaining 6.2 billion shares of Citigroup common stock.271
On July 1, 2010, Treasury announced that, over the preceding month, it had sold another
approximately 1.1 billion shares at an average price of approximately $3.90 per share,
resulting in $4.3 billion in proceeds.
     On July 23, 2010, Treasury entered into its third prearranged trading plan with
Morgan Stanley to sell up to 1.5 billion of Treasury’s remaining 5.1 billion shares of
Citigroup common stock.272 On September 30, 2010, Treasury announced that the sale
was complete and that an additional 1.5 billion shares had been sold at an average price
of approximately $3.96 per share, for a total of approximately $5.9 billion in proceeds.273
On October 19, 2010, Treasury announced that it has entered into a fourth prearranged
trading plan to sell 1.5 billion shares of Citigroup common stock. The fourth trading plan
is scheduled to terminate on December 31, 2010, whether or not all shares have been
sold.274
     Table 2.25 shows all sales of Citigroup common stock as of September 30, 2010.
Treasury has sold 4.1 billion shares for a total of approximately $16.4 billion, leaving it
with approximately 3.6 billion shares.275 As of September 30, 2010, Treasury owned ap-
proximately 12.4% of Citigroup’s outstanding common shares.276


Table 2.25

CPP Citigroup Common Stock Disposition, as of 9/30/2010
                                              Number of                     Average Share                         Gross Proceeds
Date                                     Shares (Millions)                  Price (Dollars)a                          ($ Millions)
4/26/2010 to 5/26/2010                                    1,500                           $4.12                              $6,182.5
5/26/2010 to 6/30/2010                                    1,109                            3.90                               4,322.7
7/23/2010 to 7/31/2010              b
                                                             226                           4.12                                  934.0
8/1/2010 to 8/31/2010 b                                      680                           3.85                               2,615.0
9/1/2010 to 9/30/2010 b                                      594                           3.91                               2,314.5
Total   c
                                                         4,109                           $3.98                            $16,368.7

Notes: Numbers may not total due to rounding.
a
  Average price for all sales of Citigroup common stock made by Treasury over the course of the corresponding period.
b
  Treasury reported in the Monthly 105(a) Report individual figures for July and August for the number of shares, average share price, and
  gross proceeds. The 105(a) Report did not report individual figures for September, which are calculated above by adding number of
  shares and gross proceeds from July and August and subtracting those figures from total number of shares and gross proceeds sold
  from 7/23/2010 to 9/30/2010 as reported in the September 105(a) report. Average share price for September was calculated by
  dividing September gross proceeds by the number of shares.
c
  Total amounts appear for Number of Shares and Gross Proceeds. Average Share Price is an average for sales between 4/26/2010 to
  9/30/2010.

Sources: Treasury, response to SIGTARP data call, 10/21/2010; Treasury, Transactions Report, 9/30/2010; Treasury, “Troubled
Assets Relief Program (TARP), Monthly 105(a) Report,” 8/2010, www.financialstability.gov/docs/105CongressionalReports/August%20
2010%20105(a)%20Report_final_9%2010%2010.pdf, accessed 9/29/2010; Treasury, “Troubled Assets Relief Program (TARP), Monthly
105(a) Report,” 7/2010, www.financialstability.gov/docs/105CongressionalReports/July%202010%20105(a)%20Report_Final.pdf,
accessed 9/29/2010; Treasury, 105(a) Report, 9/30/2010.
108            special inspector general I troubled asset relief program




                                                      Recent Exchanges and Sales
                                                      First BanCorp
                                                      On January 16, 2009, Treasury invested $400 million in First BanCorp through
                                                      CPP in return for preferred stock and warrants.277 On June 3, 2010, First BanCorp
                                                      entered into a written agreement with the Federal Reserve, and its subsidiary bank
      Mandatorily Convertible Preferred               entered into a cease-and-desist order with the FDIC.278 On July 20, 2010, Treasury
      Shares (“MCP”): Preferred share that
                                                      exchanged its entire CPP investment for an equal amount of newly issued man-
      can be converted to common stock
                                                      datorily convertible preferred shares (“MCP”) plus additional MCP in an amount
      at the issuer’s discretion if specific
                                                      equal to accrued and unpaid dividends, approximately $24.2 million.279 The MCP
      criteria are met by a certain date.
                                                      has a 5% annual dividend until January 16, 2014, after which the rate becomes
                                                      9%.280
                                                          Pursuant to the terms of the exchange, First BanCorp has the right to con-
                                                      vert the MCP to 380.2 million shares of common stock, contingent upon First
                                                      BanCorp fulfilling several requirements, including an exchange of all of the com-
                                                      pany’s non-Treasury-owned preferred stock for common stock and the company
                                                      raising $500 million through the sale of common shares.281 On August 26, 2010,
                                                      First BanCorp announced that one exchange requirement was fulfilled when it
                                                      completed a tender offer with holders of its preferred stock for common shares.282
                                                      On September 16, 2010, First BanCorp filed a registration statement with the SEC
                                                      to sell at least $500 million of its common stock to investors.283
                                                          If First BanCorp satisfies all conditions of the exchange with Treasury, the MCP
                                                      may be converted to common stock at a 35% discount, meaning that Treasury
                                                      would receive common stock, which is worth $148.5 million less than its original
                                                      TARP investment based on the initial terms of the exchange.284 However, the final
                                                      loss or gain on this exchange will depend on the market price of the common stock
                                                      at the conversion date.285

                                                      Pacific Capital Bancorp
                                                      On November 21, 2008, Treasury invested $180.6 million in Pacific Capital
                                                      Bancorp (“Pacific Capital”) through CPP in return for preferred stock and war-
                                                      rants.286 On July 26, 2010, Treasury agreed, subject to Pacific Capital meeting
                                                      certain conditions, to exchange its entire CPP investment for an equal amount of
                                                      newly issued MCP plus additional MCP in an amount equal to all accrued and
                                                      unpaid dividends, approximately $14.4 million.287 The MCP had a 5% annual divi-
                                                      dend rate until November 21, 2013, after which the rate becomes 9%.288
                                                          Pursuant to the terms of the exchange, Pacific Capital had the right to convert
                                                      the MCP to common shares, contingent upon Pacific Capital fulfilling several
                                                      requirements, including successfully raising private capital.289 On September 27,
                                                      2010, Treasury announced that Pacific Capital had fulfilled the conditions of the
                                                      exchange and Treasury’s MCP was converted to 360.8 million shares of common
                                                      stock.290 As of the date of the conversion, Treasury’s TARP investment was worth
                                                      $306.7 million, or $126.1 million more than its original TARP investment.291
                                                                           quarterly report to congress I OCTOBER 26, 2010   109




Hampton Roads Bankshares
On December 31, 2008, Treasury invested $80.3 million in Hampton Roads
Bankshares, Inc. (“Hampton Roads”) through CPP in return for preferred stock
and warrants.292 On August 12, 2010, Treasury agreed to convert its entire invest-
ment in Hampton Roads for MCP.293 The MCP had an annual dividend rate of 5%
through December 31, 2013, and 9% thereafter.294
   Pursuant to the terms of the exchange, Hampton Roads had the right to convert
the MCP to common shares, contingent upon Hampton Roads fulfilling several
requirements, including raising $235 million through the sale of common shares.295
On September 30, 2010, Treasury announced that Hampton Roads had fulfilled
the conditions of the exchange and Treasury’s preferred stock was converted to
52.2 million shares of common stock.296 As of the date of the conversion, Treasury’s
TARP investment was worth $51.7 million, or $28.6 million less than its original
TARP investment.297

Cadence Financial Corporation
On January 9, 2009, Treasury invested $44 million in Cadence Financial
Corporation (“Cadence”) through CPP in return for preferred stock and war-
rants.298 On October 6, 2010, Cadence agreed to merge into Community Bancorp
LLC (“Community”), subject to regulatory and shareholder approval.299
   Pursuant to the terms of the merger agreement, Community offered to pur-
chase Treasury’s preferred stock and warrants for approximately $38 million.300
According to Cadence, Treasury has indicated it will accept Community’s offer
subject to definitive documentation. Completion of the merger and definitive docu-
mentation would result in a loss to Treasury of approximately $6 million.301

TIB Financial Corp
On December 5, 2008, Treasury invested $37 million in TIB Financial Corp
(“TIB Financial”) through CPP in return for preferred stock and warrants.302 On
September 30, 2010, Treasury sold all of its preferred stock and warrants to North
American Financial Holdings, Inc. (“NAFH”) for $12.2 million pursuant to an
agreement between Treasury and NAFH dated September 24, 2010.303 This re-
sulted in a loss to Treasury of $24.8 million.

Update on Previously Announced Exchanges
First Merchants Corporation Exchange
On February 20, 2009, Treasury invested $116 million in First Merchants
Corporation (“First Merchants”) through CPP in return for preferred stock and
warrants.304 On March 23, 2010, Treasury agreed to a partial exchange of up to
110            special inspector general I troubled asset relief program




                                                      $58 million of its CPP preferred stock for an equal amount of trust preferred
      Trust Preferred Securities (“TRUPS”):
      Securities that have both equity and
                                                      securities.305
      debt characteristics, created by estab-             On June 30, 2010, First Merchants announced it had completed the exchange
      lishing a trust and issuing debt to it.         with Treasury by issuing approximately $46.4 million of trust preferred securities
                                                      and raising $24.2 million in new capital through a direct private placement of
      Direct Private Placement: Sale of               4.2 million common shares. Treasury’s trust preferred securities have a 5% interest
      securities to investors that meet               rate until February 20, 2014, after which the rate becomes 9%.306 Following the
      minimum net worth and sophistication            exchange, Treasury holds $69.6 million of preferred securities along with warrants
      requirements, thereby receiving an ex-          from the original CPP investment, in addition to the $46.4 million of trust pre-
      emption from normal SEC registration            ferred securities.307
      requirements.

                                                      Sterling Financial Corporation
                                                      On December 5, 2008, Treasury invested $303 million in Sterling Financial
                                                      Corporation (“Sterling”) through CPP in return for preferred stock and war-
                                                      rants.308 On April 29, 2010, Treasury agreed to exchange its entire CPP invest-
                                                      ment in Sterling for MCP.309 The MCP had an annual dividend rate of 5% through
                                                      December 5, 2013, and 9% thereafter.310
                                                              Pursuant to the terms of the exchange, Sterling had the right to convert the
                                                      MCP to common shares contingent upon Sterling raising $720 million in private
                                                      capital.311 On August 26, 2010, Sterling announced it had raised $342 million in
                                                      private capital from Thomas H. Lee Partners LP and Warburg Pincus LLC, and
                                                      $388 million in private capital from 30 investors.312 On the same day, Treasury
                                                      announced that Sterling had fulfilled the conditions of the exchange and Treasury’s
                                                      MCP was converted to 378.8 million shares of common stock.313 As of the date of
                                                      the conversion, Treasury’s TARP investment was worth $261.3 million, or
                                                      $41.7 million less than its original TARP investment.314

                                                      CPP Recipients: Bankrupt or With Failed Subsidiary Banks
                                                      Despite Treasury’s stated goal of limiting CPP investments to “healthy and viable
                                                      institutions,” a number of CPP participants went bankrupt or had a subsidiary bank
                                                      fail, as indicated in Table 2.26.315
                                                                                                                       quarterly report to congress I OCTOBER 26, 2010                                    111




Closure of Sonoma Valley Bank
On February 20, 2009, Treasury invested $8.7 million in Sonoma Valley Bancorp                                                                  To see the responses of an earlier
(“Sonoma Valley”) through CPP in exchange for preferred stock and warrants.316                                                                 survey conducted by SIGTARP,
                                                                                                                                               refer to www.sigtarp.gov/audit_
   On August 20, 2010, the California Department of Financial Institutions closed
                                                                                                                                               useoffunds.shtml.
Sonoma Valley’s subsidiary bank, and the FDIC was named receiver. The FDIC
entered into a purchase and assumption agreement with Westamerica Bank to as-
sume all the deposits of Sonoma Valley’s subsidiary bank.317 All of Treasury’s TARP
investment in Sonoma Valley is expected to be lost.


Table 2.26

 CPP recipients: Bankrupt oR with failed subsidiary banks ($ Millions)

                                                Initial
                                             Invested Investment                                                                    Bankruptcy /
Institution Name                              Amount Date                       Status                                              Failure Dateb          Subsidiary Bank
UCBH Holdings Inc.,                                                                                                                                        United Commercial Bank,
                                              $298.7       11/14/2008           In bankruptcy; subsidiary bank failed               11/6/2009
San Francisco, CA                                                                                                                                          San Francisco, CA
Midwest Banc Holdings, Inc.,                                                                                                                               Midwest Bank and Trust Company,
                                                 89.4a 12/5/2008                In bankruptcy; subsidiary bank failed               5/14/2010
Melrose Park, IL                                                                                                                                           Elmwood Park, IL
                                                                                Bankruptcy proceedings completed
CIT Group Inc.,
                                             2,330.0       12/31/2008           with no recovery to Treasury’s invest-              11/1/2009              CIT Bank, Salt Lake City, UT
New York, NY
                                                                                ment; subsidiary bank remains active
                                                                                Bankruptcy proceedings completed
Pacific Coast National                                                                                                                                     Pacific Coast National Bank,
                                                   4.1     1/16/2009            with no recovery to Treasury’s invest-              11/13/2009
Bancorp, San Clemente, CA                                                                                                                                  San Clemente, CA
                                                                                ment; subsidiary bank failed
Sonoma Valley Bancorp,                                                          Winding down operations; subsidiary
                                                   8.7     2/20/2009                                                                8/20/2010              Sonoma Valley Bank, Sonoma, CA
Sonoma, CA                                                                      bank failed
TOTAL                                     $2,730.9

Notes: Numbers may not total due to rounding.
a
  On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of mandatorily convertible preferred stock (MCP), which is equivalent to the
  initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends.
b
  Date is earlier of bankruptcy filing by holding company or failure of subsidiary bank.

Sources: Treasury, Transactions Report, 9/14/2010; FDIC, “Failed Bank List,” no date, www.fdic.gov/bank/individual/failed/banklist.html, accessed 9/15/2010; FDIC, “Institution Directory,” no date,
www2.fdic.gov/idasp/main.asp, accessed 9/15/2010;CIT, “CIT Board of Directors Approves Proceeding with Prepackaged Plan of Reorganization with Overwhelming Support of Debtholders,” 11/1/2009,
www.cit.com/media-room/press-releases/index.htm, accessed 12/10/2009; Pacific Coast National Bancorp, 8-K, 12/17/2009, www.sec.gov/Archives/edgar/data/1302502/000092708909000240/pcnb-
8k122209.htm, accessed 9/15/2010; Sonoma Valley Bancorp, 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1120427/000112042710000040/form8k_receivership.htm, accessed 9/15/2010;
Midwest Banc Holdings, Inc., 8-K, 8/20/2010, www.sec.gov/Archives/edgar/data/1051379/000095012310081020/c60029e8vk.htm, accessed 9/22/2010; UCBH Holdings, Inc., 8-K, 11/6/2009, www.
sec.gov/Archives/edgar/data/1061580/000095012309062531/f54084e8vk.htm, accessed 9/15/2010.
112   special inspector general I troubled asset relief program




                                             Use of Funds
                                             In December 2009, Treasury indicated that it would adopt SIGTARP’s long-stand-
                                             ing recommendation that it collect and report data concerning TARP recipients’
                                             use of TARP funds. Specifically, Treasury agreed to obtain and report to the public
                                             data from each TARP recipient on its use of TARP funds, backed by data from
                                             the institutions’ regulators and Treasury’s own analysis. In March 2010 Treasury
                                             sent its first annual use of funds survey to TARP recipients, requesting responses
                                             before April 19, 2010. Treasury released the results on July 13, 2010. According
                                             to Treasury, 664 institutions, or 94% of those contacted, responded to the sur-
                                             vey. Treasury has published the results and summary financial information for all
                                             responding financial institutions, along with a list of those that did not respond, on
                                             its website.
                                                 The survey form identified eight possible uses of capital, listed in Table 2.27.
                                             Also listed are the number and percentage of institutions that cited each use in its
                                             survey response.




                                             Table 2.27

                                                                                                             Number of                   Percentage of
                                              Use of Capital                                               Respondents                    Respondents
                                             Increase lending or reduce lending less than other-
                                                                                                                            565                   85.1%
                                             wise would have occurred
                                             Increase reserves for nonperforming assets                                     352                   53.0%
                                             Held as non-leveraged increase to total capital                                306                   46.1%
                                             Increase securities purchased (ABS, MBS, etc)                                  279                   42.0%
                                             Reduce borrowings                                                              251                   37.8%
                                             Increase charge-offs                                                           241                   36.3%
                                             Make other investments                                                           83                  12.5%
                                             Purchase another financial institution or purchase
                                                                                                                              82                  12.3%
                                             assets from another financial institution

                                             Note: For copies of each CPP recipient’s response see www.financialstability.gov/useofcapital.
                                                                           quarterly report to congress I OCTOBER 26, 2010               113




Small-Business Lending Initiatives
Treasury has taken steps to launch two programs that it describes as small-business
lending initiatives. Both are similar to TARP’s CPP in that they involve Treasury
purchases of preferred shares or subordinated debt in certain qualified financial
institutions (“QFIs”). The first, the Community Development Capital Initiative
(“CDCI”), uses TARP money. The recently enacted Small Business Lending
Fund (“SBLF”) operates outside of TARP but might involve many current TARP
recipients.318

CDCI
The Administration announced CDCI on October 21, 2009, which is intended to
help small businesses obtain credit at better interest rates.319 Under CDCI, TARP           Community Development Financial
made capital investments in the preferred stock or subordinated debt of eligible            Institutions (“CDFIs”): Financial institu-
banks, bank holding companies, thrifts, and credit unions certified as Community            tions eligible for Treasury funding to
Development Financial Institutions (“CDFIs”) by Treasury.320                                serve urban and rural low-income com-
    CDCI, which closed to new investments on September 30, 2010, was open to                munities through the CDFI Fund. CDFIs
certified, qualifying CDFIs or financial institutions that applied for CDFI status          were created in 1994 by the Riegle
by April 30, 2010.321 CPP-participating CDFIs that were in good standing could              Community Development and Regula-
                                                                                            tory Improvement Act.
exchange their CPP investments for CDCI investments.322 Each application for
new or incremental funds had to be reviewed by the institution’s Federal regulator
                                                                                            Risk-Weighted Assets: Total assets,
and approved by Treasury.323
                                                                                            after adjusting for each asset’s risk
                                                                                            factor, held by a financial institution.
Terms for Senior Securities and Dividends
An eligible bank, bank holding company, or thrift could apply to receive capital            S-Corporation: S-Corporations elect
up to 5% of its risk-weighted assets. A credit union (which is a member-owned,              to pass corporate income, losses,
nonprofit financial institution with a capital and governance structure differ-             deductions and credit through to their
ent from that of for-profit banks) could apply for Government funding of up to              shareholders for Federal tax purposes.
3.5% of its total assets — roughly equivalent to the 5% of risk-weighted assets             Shareholders of S-Corporations report
applicable to banks.324 Participating credit unions, Subchapter S-Corporations              the flow-through of income and losses
(“S-Corporations”), and mutual banks issued subordinated debt to Treasury in lieu           on their personal tax returns and are
of the preferred stock issued by other CDFI participants.325 Many CDFI invest-              taxed at their individual income tax
                                                                                            rates.
ments have an initial dividend rate of 2%, which increases to 9% after eight years,
but participating S-Corporations pay a rate of 3.1%, which increases to 13.8% after
eight years.326
    A CDFI participating in CPP had the opportunity to request to convert those
shares into CDCI shares, thereby reducing the annual dividend rate it pays the
Government from 5% to 2%.327
    According to Treasury, CDFIs were not required to issue warrants because of
the de minimis exception in EESA granting Treasury the authority to waive the
warrant requirement for qualifying institutions in which Treasury invested $100
million or less.328
114   special inspector general I troubled asset relief program




                                                   If during the application process a CDFI’s primary regulator deemed it undercapi-
                                              talized or as having “quality of capital issues,” the CDFI had the opportunity to raise
                                              private capital to achieve adequate capital levels, which Treasury would match on a
                                              dollar-for-dollar basis, up to 5% of the financial institution’s risk-weighted assets.329 In
                                              such cases, private investors had to agree to assume any losses before Treasury.330

                                              CDCI Investment Update
                                              Treasury invested $570.0 million of the $780.2 million it originally allocated for
                                              CDCI.331 Treasury made investments in 84 institutions under the program — 36
                                              banks and 48 credit unions.332 Of these 84 investments, 28 were conversions from
                                              CPP while the remaining 56 were not CPP participants. The 28 CPP conversions,
                                              approximately $363.3 million in CDCI funding, did not represent new TARP
                                              expenditures but merely the exchange of CPP capital for CDCI capital. However,
                                              for 10 of these CPP conversions, Treasury made an additional CDCI invest-
                                              ment beyond the original CPP investment, totaling $100.7 million.333 Treasury
                                              matched private investments dollar-for-dollar in two institutions, Security Federal
                                              Corporation and Renaissance Community Development Credit Union, under
                                              CDCI.334 Table 2.28 lists CDCI investments as of September 30, 2010.


          Table 2.28

          CDCI INVESTMENT SUMMARY, AS OF 9/30/2010                  ($ Thousands) (continued)


                                                                                             Amount from      Additional      Investment
          Purchase Date     Name of Institution                    Investment Description            CPP     Investment          Amount
          7/30/2010         Guaranty Capital Corporation           Subordinated Debentures      $ 14,000             $­—         $14,000
          7/30/2010         University Financial Corp, Inc.        Subordinated Debentures        11,926         10,189           22,115
          8/6/2010          Southern Bancorp, Inc.                 Preferred Stock                11,000         22,800           33,800
          8/13/2010         Premier Bancorp, Inc.                  Subordinated Debentures         6,784              —             6,784
          8/13/2010                                                                                7,462
                            Citizens Bancshares Corporation        Preferred Stock
          9/17/2010                                                                                                4,379          11,841
          8/13/2010         PGB Holdings, Inc.                     Preferred Stock                 3,000              —             3,000
          8/13/2010         First American International Corp.     Preferred Stock                17,000              —           17,000
          8/13/2010         Tri-State Bank of Memphis              Preferred Stock                 2,795              —             2,795
          8/20/2010                                                                                5,500
                            Mission Valley Bancorp a               Preferred Stock
          9/24/2010                                                                                                4,836          10,336
          8/20/2010         M&F Bancorp, Inc.                      Preferred Stock                11,735              —           11,735
          8/27/2010         Carver Bancorp, Inc                    Preferred Stock                18,980              —           18,980
          9/3/2010          Kilmichael Bancorp, Inc.               Preferred Stock                    —               —             3,154
                                                                                                                   Continued on next page.
                                                                                      quarterly report to congress I OCTOBER 26, 2010   115




CDCI INVESTMENT SUMMARY, AS OF 9/30/2010                  ($ Thousands) (continued)


                                                                                   Amount from       Additional      Investment
Purchase Date   Name of Institution                      Investment Description            CPP      Investment          Amount
9/3/2010        United Bancorporation of Alabama, Inc.   Preferred Stock                $10,300             $—          $10,300
9/3/2010        IBW Financial Corporation                Preferred Stock                  6,000              —             6,000
9/10/2010       IBC Bancorp, Inc.                        Subordinated Debentures          4,205           3,881            8,086
9/17/2010       CFBanc Corporation                       Preferred Stock                     —               —             5,781
9/17/2010       American Bancorp of Illinois, Inc.       Subordinated Debentures             —               —             5,457
9/17/2010       Hope Federal Credit Union                Subordinated Debentures             —               —             4,520
9/17/2010       Genesee Co-op Federal Credit Union       Subordinated Debentures             —               —               300
9/17/2010       First Eagle Bancshares, Inc.             Subordinated Debentures          7,875              —             7,875
9/24/2010       Liberty Financial Services, Inc.         Preferred Stock                  5,645           5,689          11,334
9/24/2010       First Choice Bank                        Preferred Stock                  5,146              —             5,146
9/24/2010       Bainbridge Bancshares, Inc.              Preferred Stock                     —               —             3,372
9/24/2010       Virginia Community Capital, Inc.         Subordinated Debentures             —               —             1,915
                Lower East Side People’s Federal
9/24/2010                                                Subordinated Debentures             —               —
                Credit Union                                                                                                 898
9/24/2010       Atlantic City Federal Credit Union       Subordinated Debentures             —               —             2,500
                Neighborhood Trust Federal Credit
9/24/2010                                                Subordinated Debentures             —               —
                Union                                                                                                        283
9/24/2010       Gateway Community Federal Credit Union Subordinated Debentures               —               —             1,657
9/24/2010       Union Baptist Church Federal Credit UnionSubordinated Debentures             —               —                10
9/24/2010       Buffalo Cooperative Federal Credit Union Subordinated Debentures             —               —               145
9/24/2010       Tulane-Loyola Federal Credit Union       Subordinated Debentures             —               —               424
9/24/2010       Alternatives Federal Credit Union        Subordinated Debentures             —               —             2,234
                Liberty County Teachers Federal Credit
9/24/2010                                                Subordinated Debentures             —               —
                Union                                                                                                        435
9/24/2010       UNO Federal Credit Union                 Subordinated Debentures             —               —               743
9/24/2010       Butte Federal Credit Union               Subordinated Debentures             —               —             1,000
                Thurston Union of Low-Income People
9/24/2010                                                Subordinated Debentures             —               —
                (TULIP) Cooperative Credit Union                                                                              75
9/24/2010       Phenix Pride Federal Credit Union        Subordinated Debentures             —               —               153
9/24/2010       Pyramid Federal Credit Union             Subordinated Debentures             —               —             2,500
9/24/2010       Cooperative Center Federal Credit Union Subordinated Debentures              —               —             2,799
9/24/2010       Prince Kuhio Federal Credit Union        Subordinated Debentures             —               —               273
                Community First Guam Federal Credit
9/24/2010                                                Subordinated Debentures             —               —
                Union                                                                                                      2,650
9/24/2010       Brewery Credit Union                     Subordinated Debentures             —               —             1,096
9/24/2010       Tongass Federal Credit Union             Subordinated Debentures             —               —             1,600
9/24/2010       Santa Cruz Community Credit Union        Subordinated Debentures             —               —             2,828
                Northeast Community Federal Credit
9/24/2010                                                Subordinated Debentures             —               —
                Union                                                                                                        350
                                                                                                          Continued on next page.
116   special inspector general I troubled asset relief program                                                                            116




          CDCI INVESTMENT SUMMARY, AS OF 9/30/2010                   ($ Thousands) (continued)


                                                                                              Amount from    Additional     Investment
         Purchase Date      Name of Institution                     Investment Description            CPP   Investment         Amount
         9/24/2010          Fairfax County Federal Credit Union     Subordinated Debentures           $—          $—            $8,044
         9/29/2010          Security Federal Corporation            Preferred Stock                18,000        4,000          22,000
         9/29/2010          Community Bank of the Bay               Preferred Stock                 1,747        2,313            4,060
         9/29/2010          The First Bancshares, Inc.              Preferred Stock                 5,000       12,123          17,123
         9/29/2010          BancPlus Corporation                    Preferred Stock                50,400       30,514          80,914
         9/29/2010          First M&F Corporation                   Preferred Stock                30,000           —           30,000
         9/29/2010          State Capital Corporation               Preferred Stock                15,750           —           15,750
         9/29/2010          Lafayette Bancorp, Inc.                 Preferred Stock                 4,551           —             4,551
         9/29/2010          PSB Financial Corporation               Preferred Stock                 9,734           —             9,734
                            Community Bancshares of Mississippi,
         9/29/2010                                                  Preferred Stock                54,600           —           54,600
                            Inc.
         9/29/2010          First Vernon Bancshares, Inc.           Preferred Stock                 6,245           —             6,245
         9/29/2010          Security Capital Corporation            Preferred Stock                17,910           —           17,910
         9/29/2010          BankAsiana                              Preferred Stock                    —            —             5,250

         9/29/2010          The Magnolia State Corporation          Subordinated Debentures            —            —             7,922

         9/29/2010          Bancorp of Okolona, Inc.                Subordinated Debentures            —            —             3,297
                            Southern Chautauqua Federal Credit
         9/29/2010                                                  Subordinated Debentures            —            —             1,709
                            Union
         9/29/2010          Fidelis Federal Credit Union            Subordinated Debentures            —            —                14
         9/29/2010          Bethex Federal Credit Union             Subordinated Debentures            —            —               502
         9/29/2010          Shreveport Federal Credit Union         Subordinated Debentures            —            —             2,646
         9/29/2010          Carter Federal Credit Union             Subordinated Debentures            —            —             6,300
         9/29/2010          Workers United Federal Credit Union     Subordinated Debentures            —            —                57
                            North Side Community Federal Credit
         9/29/2010                                                  Subordinated Debentures            —            —               325
                            Union
                            East End Baptist Tabernacle Federal
         9/29/2010                                                  Subordinated Debentures            —            —                 7
                            Credit Union

         9/29/2010          Community Plus Federal Credit Union     Subordinated Debentures            —            —               450

         9/29/2010          Border Federal Credit Union             Subordinated Debentures            —            —             3,260

         9/29/2010          Opportunities Credit Union              Subordinated Debentures            —            —             1,091

         9/29/2010          First Legacy Community Credit Union     Subordinated Debentures            —            —             1,000

         9/29/2010          Union Settlement Federal Credit Union   Subordinated Debentures            —            —               295

         9/29/2010          Southside Credit Union                  Subordinated Debentures            —            —             1,100

                                                                                                                 Continued on next page.
                                                                                            quarterly report to congress I OCTOBER 26, 2010   117




CDCI INVESTMENT SUMMARY, AS OF 9/30/2010                        ($ Thousands) (continued)


                                                                                         Amount from       Additional      Investment
Purchase Date            Name of Institution                   Investment Description            CPP      Investment          Amount

9/29/2010                D.C. Federal Credit Union             Subordinated Debentures            $—              $—           $1,522

9/29/2010                Faith Based Federal Credit Union      Subordinated Debentures             —               —                30
9/29/2010                Greater Kinston Credit Union          Subordinated Debentures             —               —              350
9/29/2010                Hill District Federal Credit Union    Subordinated Debentures             —               —              100
9/29/2010                Freedom First Federal Credit Union    Subordinated Debentures             —               —            9,278
                         Episcopal Community Federal Credit
9/29/2010                                                      Subordinated Debentures
                         Union                                                                     —               —              100
9/29/2010                Vigo County Federal Credit Union      Subordinated Debentures             —               —            1,229
                         Renaissance Community Development
9/29/2010                                                      Subordinated Debentures
                         Credit Union                                                              —               —                31
                         Independent Employers Group Federal
9/29/2010                                                      Subordinated Debentures
                         Credit Union                                                              —               —              698
                         Brooklyn Cooperative Federal Credit
9/30/2010                                                      Subordinated Debentures
                         Union                                                                     —               —              300
TOTAL                                                                                       $363,290       $100,724         $570,073

Source: Treasury, Transaction Report, 10/4/2010.




Small Business Lending Fund (“SBLF”)
SBLF is intended to allow Treasury “to make capital investments in eligible institu-
tions in order to increase the availability of credit for small businesses.”335 President
Obama signed the Small Business Jobs Act of 2010, which provided for the estab-
lishment of SBLF on September 27, 2010.
    Under SBLF, an eligible financial institution can receive a capital investment
totaling up to 3% or 5% of its risk-weighted assets, depending on its size. To be
eligible, the institution must have $10 billion or less in total assets.336 The initial
5% annual dividend or interest rate would drop 1% for every 2.5% increase in the
institution’s small-business lending (compared with its previous levels) over two
years, subject to a minimum rate of 1%.337 If an institution achieves this lend-
ing increase during an initial two-year adjustment period, the decreased dividend
holds for four-and-a-half years from Treasury’s investment date.338 If the institution
does not increase its small-business lending in the first two years, the rate rises to
7%.339 The rate for all participants rises to 9% four-and-a-half years after Treasury’s
investment.340
    Although this program will operate outside of TARP, certain TARP recipients
will likely convert their investments and thus benefit from a lower rate and fewer
governance provisions.341 The Act states that the Treasury Secretary shall “issue
regulations and other guidance to permit eligible institutions to refinance securities
issued to Treasury under the CDCI and the CPP for securities to be issued under
118            special inspector general I troubled asset relief program




                                                      the Program.”342 Such institutions would no longer have to comply with EESA’s
                                                      restrictions, such as those on executive compensation.343 See Section 5 of this
                                                      report for SIGTARP’s recommendations to Treasury concerning SBLF as applied to
                                                      current TARP recipients.

                                                      Systemically Significant Failing Institutions Program/AIG
      Cumulative Preferred Stock: Stock               Investment Program
      requiring a defined dividend payment. If
      the company does not pay the dividend           According to Treasury, the Systemically Significant Failing Institutions (“SSFI”)
      on schedule, it still owes the missed
                                                      program was established to “provide stability and prevent disruptions to financial
      dividend to the stock’s owner.
                                                      markets from the failure of institutions that are critical to the functioning of the
                                                      nation’s financial system.”344 Through SSFI, Treasury obligated $69.8 billion to
      Non-Cumulative Preferred Stock:
      Preferred stock with a defined divi-
                                                      American International Group, Inc. (“AIG”), the program’s sole participant.345
      dend, but the company has no obliga-
      tion to pay any missed dividends.               Status of SSFI Funds
                                                      On November 25, 2008, Treasury made an initial $40 billion investment in AIG.
      Equity Capital Facility: Commitment             In return, Treasury received AIG Series D cumulative preferred stock and warrants
      to invest equity capital in a firm under        to purchase AIG common stock. On April 17, 2009, AIG and Treasury signed a
      certain future conditions.                      securities exchange agreement under which Treasury exchanged the Series D cu-
                                                      mulative preferred stock for Series E non-cumulative preferred stock, which meant
      Revolving Credit Facility: Line of credit       that AIG was no longer required to make quarterly dividend payments. Additionally,
      for which borrowers pay a commitment            on April 17, 2009, Treasury committed to fund an equity capital facility under
      fee, allowing them to draw down a
                                                      which AIG may draw down up to $29.8 billion in exchange for additional preferred
      guaranteed maximum amount.
                                                      stock.346 Through October 3, 2010, AIG had drawn down $7.54 billion from the
                                                      facility.347

                                                      Dividend Payments
                                                      As of September 30, 2010, AIG had not paid or had failed to declare dividends
                                                      for seven consecutive quarters, for a total of $6.7 billion in missed or undeclared
                                                      dividend payments.348 Under the documents governing Treasury’s preferred
                                                      shares in AIG, AIG did not have to pay Treasury the dividend payments it skipped.
                                                      Instead, once AIG failed to pay dividends for four consecutive quarters, Treasury
                                                      had the right to appoint to AIG’s board either two directors or a number (rounded
                                                      upward) of directors equal to 20% of all AIG directors, whichever is greater. On
                                                      April 1, 2010, Treasury appointed Donald H. Layton and Ronald A. Rittenmeyer as
                                                      directors.349350

                                                      Federal Reserve Credit Facility Reduction
                                                      In September 2008, the Federal Reserve Bank of New York (“FRBNY”) extended an
                                                      $85 billion revolving credit facility to AIG in an effort to stabilize the company. In
                                                                               quarterly report to congress I OCTOBER 26, 2010              119




return, AIG committed 79.8% of its voting equity to a trust for the sole benefit of
the United States Treasury.351 The terms of the credit facility included a high inter-
est rate and increased AIG’s debt ratios significantly. Servicing this debt contrib-
uted to AIG’s financial troubles and put downward pressure on its credit rating.352
Federal officials feared that future downgrades in AIG’s credit rating could have
“catastrophic” effects on the company, forcing it into bankruptcy.353
    FRBNY and Treasury determined that this possibility posed a threat to the                   Special Purpose Vehicle (“SPV”): Off-
nation’s financial system and decided that additional transactions were necessary               balance-sheet legal entity that holds
to modify the revolving credit facility.354 FRBNY and Treasury took the following               transferred assets presumptively be-
actions to stabilize AIG’s operations:355                                                       yond the reach of the entities providing
                                                                                                the assets and that is legally isolated.
•	 Treasury purchased $40 billion in AIG preferred shares under TARP, the pro-
   ceeds of which went directly to FRBNY to pay down a portion of the existing
   revolving credit facility. After that payment, the total amount available to AIG
   under FRBNY’s revolving credit facility was reduced from $85 billion to
   $60 billion.                                                                                For more on AIG’s Federal Reserve
•	 FRBNY created Maiden Lane II, a special purpose vehicle (“SPV”), to which                   credit facility reduction transaction, see
   FRBNY lent $19.5 billion to fund the purchase of residential mortgage-backed                SIGTARP’s January 2010 Quarterly
                                                                                               Report, page 73.
   securities from the securities-lending portfolios of several of AIG’s U.S.-
   regulated insurance subsidiaries, in order to help relieve liquidity pressures
   stemming from their security-lending programs.
•	 FRBNY created Maiden Lane III, an SPV, to which FRBNY lent $24.3 billion to
   buy from AIG’s counterparties collateralized debt obligations that underlie credit
   default swap contracts written by AIG.

     On March 2, 2009, Treasury and the Federal Reserve announced a restructur-
ing of Government assistance to AIG that was designed to strengthen the com-
pany’s capital position. The measures included an authorization from the Federal
Reserve for FRBNY to acquire up to $26 billion of preferred equity interests in
two SPVs formed to hold two of AIG’s largest foreign life insurance subsidiaries
(American International Assurance Co., Ltd. [“AIA”] and American Life Insurance
Company [“ALICO”]). The SPVs’ creation also facilitated the independence of
these two subsidiaries in anticipation of a sale or initial public offering (“IPO”).356
     On December 1, 2009, FRBNY received $16 billion in preferred equity inter-
ests in the AIA SPV and $9 billion in the ALICO SPV. This action decreased AIG’s
outstanding revolving credit facility principal balance by $25 billion and reduced
its total facility borrowing capacity from $60 billion to $35 billion.357 Under the
transaction’s terms, with limited exceptions, all proceeds from the voluntary sale,
public offering, or other liquidation of the assets or businesses held by the SPVs
must first be used to fully redeem FRBNY’s interests in the SPVs and then to re-
duce the outstanding revolving credit facility.358
120   special inspector general I troubled asset relief program




                                             Table 2.29

                                              AIG INVESTMENT SUMMARY, AS OF 9/30/2010 ($ Billions)
                                                                                                 Authorized                          High-Water               Outstanding
                                                                                                  Capacitya                               Markb                  Balanced
                                             FRBNY Revolving Credit Facility                             $29.2                              $72.3c                      $18.9
                                             Maiden Lane II                                              $22.5                               $19.5                      $14.1
                                             Maiden Lane III                                             $30.0                               $24.4                      $15.1
                                             AIA SPV                                                     $16.0                               $16.7                      $16.7
                                             ALICO SPV                                                     $9.0                                $9.4                       $9.4
                                             Preferred Stock                                             $40.0                               $41.6                      $41.6
                                             Treasury Equity Capital Facility                            $29.8                                 $7.5                       $7.5

                                             Notes: Numbers affected by rounding. Data as of 9/30/2010.
                                             a
                                               Amount does not include those investments that have already been repaid and is based on current authorized capacity.
                                             b
                                               High-water mark means the highest outstanding balance (principal balance and accrued dividends/interest) during the entire his-
                                               tory of the program as of the respective date.
                                             c
                                               Authorized capacity was previously $85 billion.
                                             d
                                               Outstanding balances include accrued dividends, interest, and/or fees.

                                             Sources: Treasury, response to SIGTARP data call, 10/12/2010; AIG, “What Treasury Owes the US Government, 6/30/2010,
                                             www.aigcorporate.com/GIinAIG/owedtoUS_gov_new.html#, accessed 6/10/2010;Treasury, AIG repayment plan briefing,
                                             10/6/2010.



                                                  On August 23, 2010, AIG repaid FRBNY approximately $3.95 billion.359 The
                                             repayment was made using funds from a sale of $4.4 billion in secured and unse-
                                             cured notes by AIG’s wholly owned airplane leasing subsidiary, International Lease
                                             Finance Corp. (“ILFC”).360 That reduced the amount of credit available to AIG un-
                                             der the revolving credit facility from approximately $34 billion to approximately $30
                                             billion.361 As of September 30, 2010, AIG’s total outstanding principal and interest
                                             balance under the revolving credit facility was $18.9 billion.362 For a summary of
                                             investments in AIG, see Table 2.29

                                             Sale of Business Assets
                                             On March 1, 2010, AIG announced an agreement to sell AIA to Prudential plc,
                                             Inc. (“Prudential”) for approximately $35.5 billion. Prudential shareholders indi-
                                             cated that the deal would not be approved unless a lower price could be negotiated.
                                             On June 2, 2010, the original AIG-Prudential agreement ended when price
                                             renegotiations between the companies failed. As a result, Prudential paid AIG a
                                             $223.8 million termination fee.363
                                                 Following the termination of the Prudential agreement, AIG announced its
                                             intention to sell at least a portion of its interest in AIA through an IPO.364 On
                                             September 21, 2010, AIG received approval for an AIA IPO from the Hong Kong
                                             Stock Exchange listing committee.365 On October 18, 2010, a proposed prospectus
                                             relating to the IPO was released to investors in Hong Kong.366 AIG will be required
                                             to hold at least a 30% stake in AIA for a year following the IPO.367 Initial estimates
                                                                                quarterly report to congress I OCTOBER 26, 2010   121




indicate that the proposed AIA IPO could raise up to $15-20 billion.368 Any cash
proceeds from the IPO will be used pursuant to the AIG recapitalization plan
discussed below.369 As of the drafting of this report, pricing had not yet been deter-
mined. AIG is planning to price the IPO on October 21, 2010, and begin trading
AIA shares on October 29, 2010.370
     On March 8, 2010, AIG announced an agreement to sell ALICO to MetLife,
Inc. (“MetLife”) for approximately $15.5 billion — $6.8 billion in cash and the
remainder in MetLife equity securities, subject to closing adjustments. AIG intends
to sell the remaining MetLife securities later, subject to minimum holding periods
and market conditions, and use the cash proceeds pursuant to the AIG recapitaliza-
tion plan discussed below.371
     On October 12, 2009, AIG agreed to sell its 98% share of Nan Shan Life
Insurance Company Ltd. (“Nan Shan”) to a consortium of investors for $2.15 bil-
lion, subject to regulatory approval.372 On August 31, 2010, Taiwanese regulators
rejected the sale on the grounds that the investors did not have experience in the
insurance industry and lacked the ability to raise capital for future operations.373
     On September 30, 2010, AIG announced that it had entered into a definitive
sale agreement with Prudential Financial Inc. for the sale of two Japanese-based
life insurance subsidiaries, AIG Star Life Insurance Co., Ltd. (“Star”) and AIG
Edison Life Insurance Company (“Edison”), for a total of $4.8 billion.374 The sale is
subject to regulatory approval and is expected to close in the first quarter of 2011.
The proceeds of the sale will be used pursuant to the AIG recapitalization plan as
discussed below.375

AIG Recapitalization Plan
AIG Recapitalization Plan: Background
On September 30, 2010, AIG announced that it had entered into an agreement
in principle with Treasury, FRBNY, and the AIG Credit Facility Trust (“the AIG
Trust”), the entity in which FRBNY placed the management of the 79.8% owner-
ship interest in AIG it received, to recapitalize AIG in order to facilitate the ultimate
repayment of all amounts owed to the American taxpayers.376 The agreement com-
prises a series of several integrated transactions.
    According to AIG and Treasury, this complex agreement includes three main
steps. First, AIG will repay and terminate the existing FRBNY revolving credit
facility with proceeds from AIG’s sales of its equity interests in AIA and ALICO.
Second, AIG will purchase FRBNY’s preferred interest in the AIA and ALICO
SPVs by drawing down up to $22.3 billion in additional TARP funds.377 AIG will
then transfer these preferred interests to Treasury. Finally, AIG will issue common
stock in exchange for the currently outstanding $49.1 billion in preferred stock that
122   special inspector general I troubled asset relief program




                                             Treasury acquired through TARP funding to AIG and the 79.8% ownership interest
                                             in AIG (held in the form of Series C preferred stock) received by FRBNY, which
                                             is held in the AIG Trust and overseen by the AIG Credit Facility Trustees (“the
                                             Trustees”).378

                                             Repayment and Termination of FRBNY Revolving Credit Facility
                                             Under the terms of the FRBNY revolving credit facility, AIG must repay all obliga-
                                             tions to FRBNY under the facility before AIG can repay TARP funds to Treasury.
                                             The initial step in AIG’s recapitalization is the repayment of approximately $20
                                             billion in secured debt owed under the facility.379 The SPVs that currently hold AIA
                                             and ALICO will lend AIG the net cash proceeds from the initial public offering
                                             of AIA and the sale of ALICO to MetLife (both discussed previously) once those
                                             transactions occur.380 The loans will be secured, non-recourse loans to fund AIG’s
                                             repayment of all remaining principal, accrued and unpaid interest, fees, and other
                                             amounts owed under the FRBNY revolving credit facility.381 AIG will pledge specific
                                             additional assets to the AIA and ALICO SPVs to secure these loans, including:382

                                             •	 Its equity interests in several AIG subsidiaries, including Nan Shan, Star,
                                                Edison, and ILFC
                                             •	 The equity interests of AIG and its subsidiaries in Maiden Lane II and Maiden
                                                Lane III

                                                 In other words, the proceeds from AIG’s sale of its interests to AIA and ALICO,
                                             which were originally intended to be used to redeem FRBNY’s interest in the AIA
                                             and ALICO SPVs, will instead to be used to pay off the outstanding FRBNY revolv-
                                             ing credit facility. Since the preferred interests will no longer be redeemed from
                                             those proceeds, as originally contemplated, additional collateral will be pledged to
                                             the SPVs. If the proceeds from the AIA and ALICO transactions prove insufficient
                                             to retire all of AIG’s obligations to FRBNY, AIG will use additional funds from oper-
                                             ations, financings, and asset sales to cover any deficiency.383 Upon repayment of the
                                             FRBNY revolving credit facility, the Series C preferred shares received by FRBNY
                                             and held by the AIG Trust will be exchanged for 562.9 million common shares,
                                             which currently represent 79.8% of AIG’s equity.384 These shares, which FBRNY
                                             obtained without the expenditure of TARP funds, will be held by Treasury.385
                                                 With the exception of AIG’s pledge of its equity interests in Maiden Lane II
                                             and Maiden Lane III to secure the loan from the SPVs to AIG for repayment of
                                             FRBNY’s revolving credit facility, Maiden Lane II and Maiden Lane III are exclud-
                                             ed from AIG’s recapitalization plan and will continue to have ongoing obligations
                                                                             quarterly report to congress I OCTOBER 26, 2010                 123




which, as of September 30, 2010, totaled $14.1 billion and $15.1 billion, respec-
tively, to FRBNY.386

Repurchase and Exchange of Government Interests in AIA and ALICO SPVs
                                                                                              New Series G Preferred Stock: After
Once AIG has repaid the revolving credit facility, the company will make use of
                                                                                              the purchase and transfer to Treasury
the remaining $22.3 billion in TARP funds available to it under Treasury’s existing           of the SPV preferred interests, AIG’s
Series F equity capital facility.387                                                          right to draw on the Series F equity
    AIG will draw down approximately $20 billion of these TARP funds to repur-                capital facility will terminate. All remain-
chase an equivalent face amount of FRBNY’s holdings of preferred interests in the             ing Series F preferred stock (up to
AIA and ALICO SPVs, which total approximately $26 billion ($25 billion plus ac-               $2 billion in liquidation preference) will
crued dividends).388 AIG will then immediately transfer these preferred interests to          be exchanged for newly established
Treasury in exchange for drawing down the additional TARP funds. In other words,              Series G preferred stock. Until March
in effect, Treasury will be purchasing from FRBNY approximately $20 billion of its            31, 2012, AIG may draw down funds
preferred interest in the two SPVs.389 The remaining approximately $2 billion in              under the Series G facility for general
                                                                                              corporate purposes, up to a cumulative
funds from the TARP Series F equity capital facility will be used to support a new
                                                                                              total of $2 billion. Dividends will be pay-
Series G preferred stock facility, which will remain available for future drawdown
                                                                                              able on a cumulative basis at 5% per
by AIG.390 Following these transactions, FRBNY will still hold up to $6 billion in
                                                                                              annum, compounded quarterly. After
preferred interest in the AIA and ALICO SPVs, which will remain contractually
                                                                                              that date, the Series G facility will be
senior to Treasury’s preferred interest in the SPVs.391                                       converted into AIG common stock ac-
    Whereas before these transactions the preferred stock that had been issued to             cording to a predetermined formula. If
FRBNY had been secured by the full value of AIA and ALICO, after these transac-               AIG does not draw down the remaining
tions they will be secured by whatever value AIG retains in AIA after AIA’s IPO and           TARP funds for its general corporate
the MetLife shares that AIG will receive from its sale of ALICO, as well as Star,             purposes, the funds can be used to
Edison, ILFC, and AIG’s equity interests in Maiden Lane II and III.392 AIG expects            purchase an additional $2 billion worth
to repay FRBNY and Treasury for these preferred interests in the SPVs through                 of FRBNY’s remaining $6 billion interest
proceeds from the sales of Star and Edison, MetLife shares AIG receives after the             in the AIA and ALICO SPVs, which will
ALICO sale of AIG’s remaining equity stake in AIA or other assets, and if neces-              be provided to Treasury.155
sary, monetization of its equity interests in Maiden Lane II and III.393 Treasury will
be repaid only after FRBNY’s interests are redeemed first, and if the proceeds from
these transactions are insufficient to fully redeem Treasury’s interests in the AIA
and ALICO SPVs, Treasury will recognize a loss in the amount of the shortfall.394

Conversion of Treasury’s and the AIG Trust’s Preferred Shares to Common Stock
In connection with the transactions described above, AIG will extinguish all of the
currently outstanding preferred shares held by the Government (Series C, E, F),
and issue common shares of stock, all of which, including the ownership interest
received by FRBNY and currently controlled by the Trustees, will be controlled by
Treasury.395 In total, 1.655 billion shares of common stock, representing pro forma
ownership of 92.1% of AIG, will be issued. Under the exchange plan:396
124            special inspector general I troubled asset relief program




                                                      •	 The AIG Trust’s current ownership of 79.8% of AIG will be converted into
                                                         562.9 million shares of AIG common stock. These shares, which were obtained
                                                         without TARP funds, represent the ownership interest that FRBNY originally
                                                         received for extending AIG the credit facility in September 2008. This owner-
                                                         ship interest will ultimately be diluted to approximately 31% at the conclusion of
                                                         the recapitalization transactions. The $49.1 billion in currently outstanding pre-
                                                         ferred shares (Series E and F) held by Treasury in return for TARP funding will
      Strike Price: The predetermined price              then be converted into approximately 1.1 billion shares of AIG common stock,
      at which the owner of a warrant may                representing approximately 61% of AIG’s post-transaction common equity.
      buy the underlying share of stock. The          •	 AIG’s existing 143 million common shares outstanding will remain, but will be
      warrant’s value depends on the likeli-             diluted from owning approximately 20% of voting rights to approximately 8%
      hood that its owner will be able to buy            after the recapitalization plan takes effect.
      the share at the strike price and resell
      it for more in the open market. Also            Issuance of Warrants
      called “exercise price.”
                                                      AIG will issue to existing common shareholders 10-year warrants to purchase up to
                                                      a cumulative total of 75 million shares of common stock at a strike price of $45.397
                                                      According to Treasury, the number of shares and strike price for the warrants were
                                                      negotiated in an effort both to compensate existing common shareholders for the
                                                      dilution they will suffer and to protect Treasury’s investment in AIG.398

                                                      Conditions for the Recapitalization Plan Closing
                                                      Based on its agreement with FRBNY and Treasury, AIG has until March 15, 2011,
                                                      to complete the proposed recapitalization plan.399 In order for the plan to close, the
                                                      AIA IPO must close, which is currently scheduled for October 29, 2010, and AIG
                                                      must complete the sale of ALICO to MetLife, which is scheduled for November
                                                      2010.400
                                                          In addition to these asset sales, there are 10 other material conditions that must
                                                      occur prior to the recapitalization:401

                                                      •	 The proceeds from the SPVs and other asset monetizations must be sufficient
                                                         to repay the remaining principal, accrued and unpaid interest, fees, and other
                                                         amounts owed to the FRBNY credit facility in full.
                                                      •	 FRBNY shall have received evidence reasonably satisfactory to it that after the
                                                         recapitalization FRBNY would not hold AIA/ALICO preferred interests having
                                                         an aggregate liquidation preference in excess of $6 billion.
                                                      •	 Shareholder approval for the issuance of AIG common stock and Series G pre-
                                                         ferred stock.
                                                      •	 The rating profile of AIG and its principal operating subsidiaries (Chartis, Inc.
                                                         and SunAmerica Financial Group), taking into account the recapitalization,
                                                         must be reasonably acceptable to FRBNY, Treasury, the AIG Trust, and AIG.
                                                                             quarterly report to congress I OCTOBER 26, 2010   125




•	 AIG must have in place at the closing available cash and third-party financ-
   ing commitments in amounts and on terms reasonably acceptable to FRBNY,
   Treasury, and AIG.
•	 AIG must not draw more than $2 billion of the Series F, after the date the
   parties announce the recapitalization and prior to the closing, unless waived
   by FRBNY and Treasury.
•	 AIG must have achieved its year-end 2010 targets for the winding down of
   AIG’s Financial Products Unit.
•	 Absence of any law or order prohibiting the closing and receipt of all material
   regulatory approvals and material third-party consents required to consum-
   mate the recapitalization.
•	 Approval for listing of the shares of AIG common stock on the New York
   Stock Exchange.
•	 AIG, Treasury, FRBNY, and the AIG Trust must perform all covenants of the
   recapitalization plan and ensure the accuracy of all representations and war-
   ranties made by each.

    Treasury has indicated that December 31, 2010, is the earliest possible date
the recapitalization plan could close. However, if the events and the conditions
in the recapitalization do not occur by March 15, 2011, any of the parties may
terminate the recapitalization.402

Valuation of Recapitalized AIG
Under this plan, after the recapitalization’s closing, the Government will have
a common equity ownership stake in AIG of approximately 92%, consisting of
61% received in consideration of its TARP support, and 31% in consideration for
FRBNY’s credit facility.403 Treasury will control all 92%. Treasury has stated that
it determined that it could take on, and eventually sell, a 92% ownership inter-
est in AIG after Morgan Stanley, a contractor hired by Treasury and FRBNY,
conducted a valuation process.404 In addition, according to Treasury, AIG hired
Citigroup Inc. (“Citigroup”) and N M Rothschild Limited (“Rothschild”), an
investment banking firm, to conduct their own independent valuation analysis,
while the AIG Trustees, which used Evercore Partners as an advisor, provided
input on behalf of the common shareholders’ interests.405
    As a part of the process, a valuation committee of representatives from AIG,
Treasury, Morgan Stanley, Citigroup, and Rothschild convened and conducted a
series of negotiations to arrive at the 92% figure.406 Among other things, the par-
ties agreed that the market value of Treasury’s existing investment was not equal
to par value, so that Treasury’s $49.1 billion outstanding Series E and F shares
126   special inspector general I troubled asset relief program




                                             would not trade dollar for dollar for AIG common shares, in part because they paid
                                             no dividends to their holders.407 As a result, the agreed-upon conversion resulted
                                             in the Government receiving an incremental ownership interest of approximately
                                             12.3% (from 79.8% to 92.1%) in return for the $49.1 billion in par value preferred
                                             shares.408 Based on AIG’s most recent filing, the value of 12.3% of AIG’s common
                                             at the time of the announcement of the recapitalization plan was approximately $9
                                             billion.409 According to Treasury, the entire valuation process was intended to arrive
                                             at the best possible valuation range in order to protect the taxpayer, placate the
                                             ratings agencies, prevent shareholder litigation at the conclusion of the agreement,
                                             and ultimately to attract future potential institutional investors to purchase the
                                             Government’s common stock interest in AIG.410

                                             Loss Estimates
                                             Prior to the announcement of the AIG recapitalization plan, Treasury’s most recent
                                             loss estimate for AIG under TARP, dated March 31, 2010, was $45.2 billion.411
                                             Following the announcement of the plan, in its Two Year Retrospective, Treasury
                                             offered a loss estimate of $5 billion.412 The earlier estimate, like others before it,
                                             accounted for a broad range of factors that might affect the value of Treasury’s
                                             holdings, including the comparison of several different data points based on a vari-
                                             ety of different inputs and factors.413 The methodology of the earlier estimate had
                                             been approved by Treasury’s TARP auditors, the Government Accountability Office,
                                             for inclusion in Treasury’s audited TARP financials.414 The most recent estimate,
                                             in contrast, values shares based solely on a recent market closing price of AIG’s
                                             common stock, and will not be used in Treasury’s audited financial statements
                                             for TARP, which will continue to use a version of the older methodology.415 While
                                             Treasury disclosed its methodology in calculating its current estimated loss of $5
                                             billion, Treasury did not disclose that this represented a change in its methodology,
                                             or that its new method for calculating losses would not be used in its audited finan-
                                             cial statements.416 As of the drafting of this report, the Office of Management and
                                             Budget (“OMB”) and the Congressional Budget Office (“CBO”) have not yet issued
                                             updated loss estimates for AIG.

                                             Targeted Investment Program and Asset Guarantee Program
                                             Treasury invested a total of $40 billion in Citigroup Inc. (“Citigroup”) and Bank
                                             of America Corp. (“Bank of America”) through the Targeted Investment Program
                                             (“TIP”). Treasury invested $20 billion in Citigroup on December 31, 2008, and
                                             $20 billion in Bank of America on January 16, 2009, in return for preferred
                                             shares paying quarterly dividends at an annual rate of 8% and warrants from
                                                                              quarterly report to congress I OCTOBER 26, 2010            127




each institution.417 TIP’s stated goal was to “strengthen the economy and protect
American jobs, savings, and retirement security [where] the loss of confidence in
a financial institution could result in significant market disruptions that threaten
the financial strength of similarly situated financial institutions.”418 Both banks had
repaid TIP by December 2009.419 On March 3, 2010, Treasury auctioned the Bank
of America warrants it received under TIP for $1.25 billion.420 Although Treasury
still holds warrants in Citigroup, TIP is effectively closed.421
     Under the Asset Guarantee Program (“AGP”), Treasury, the Federal Deposit
Insurance Corporation (“FDIC”), the Federal Reserve, and Citigroup agreed to
provide loss protection on a pool of Citigroup assets valued at approximately $301
billion. In return, as a premium, the Government received warrants to purchase
Citigroup common stock and $7 billion in preferred stock, which was subsequently
exchanged for trust preferred securities (“TRUPS”). Treasury received $4 billion of
the TRUPS and the FDIC received $3 billion.422 Although Treasury’s asset guaran-
tee was not a direct cash investment, it exposed taxpayers to a potential TARP loss
                                                                                               Trust Preferred Securities (“TRUPS”):
of $5 billion. On December 23, 2009, in connection with Citigroup’s TIP repay-
                                                                                               Securities that have both equity and
ment, Citigroup and Treasury terminated the AGP agreement with no loss on the
                                                                                               debt characteristics created by estab-
protected assets. Treasury agreed to cancel $1.8 billion of the TRUPS issued by                lishing a trust and issuing debt to it.
Citigroup, reducing the premium it received from $4.0 billion to $2.2 billion, in
exchange for the early termination of the loss protection. The FDIC retained all
of its $3 billion in securities.423 Under the termination agreement, however, the
FDIC will transfer up to $800 million of those securities to Treasury if Citigroup’s
participation in the FDIC’s Temporary Liquidity Guarantee Program closes without
a loss.424
     On September 30, 2010, Treasury entered into an agreement with Citigroup
and sold the remaining $2.2 billion in Citigroup TRUPS. Treasury sold the se-
curities for par value plus accrued and unpaid distributions for total proceeds of
$2.25 billion. This sale did not include the $800 million in TRUPS that the FDIC
may turn over to Treasury. Additionally, this sale did not include the warrants that
Treasury received from Citigroup as a result of AGP.425
128            special inspector general I troubled asset relief program




                                                      Asset Support Programs
                                                      Three TARP programs have focused on supporting markets for specific asset
                                                      classes: the Term Asset-Backed Securities Loan Facility (“TALF”), the Public-
                                                      Private Investment Program (“PPIP”), and the Unlocking Credit for Small
                                                      Businesses (“UCSB”) program.
                                                          As initially announced, TALF was designed to support asset-backed securities
      Non-Recourse Loan: Secured loan in              (“ABS”) transactions by providing to investors up to $200 billion in non-recourse
      which the borrower is relieved of the           loans through the Federal Reserve Bank of New York (“FRBNY”) to purchase non-
      obligation to repay the loan upon sur-          mortgage-backed ABS and commercial mortgage-backed securities (“CMBS”). The
      rendering the collateral.                       program was supported by up to $20 billion in TARP funds to be used if borrowers
                                                      surrendered the ABS purchased through the program and walked away from their
                                                      loans. The TARP obligation has recently been reduced to $4.3 billion. TALF ulti-
                                                      mately provided $71.1 billion in Federal Reserve financing by the time the program
                                                      closed to new loans.
                                                          PPIP uses a combination of private equity, Government equity, and
                                                      Government debt through TARP to facilitate purchases of legacy mortgage-backed
                                                      securities (“MBS”) held by financial institutions. In July 2009, Treasury announced
                                                      the selection of nine Public-Private Investment Fund (“PPIF”) managers and a
                                                      total potential commitment of $30 billion in TARP funds.426 The actual funding
                                                      of that commitment depended on how much private capital the PPIF managers
                                                      raised. After the fund-raising period was completed, Treasury’s PPIP obligation was
                                                      capped at $22.4 billion. The PPIF managers are currently purchasing investments
                                                      and managing their portfolios.
                                                          Through the UCSB loan support initiative, Treasury launched a program to
                                                      purchase SBA 7(a) securities, which are securitized small-business loans. Treasury
                                                      originally committed $15 billion to the program; the commitment was subsequently
                                                      lowered several times. When the program closed, it had made a total of $357.3 mil-
                                                      lion in purchases.427


                                                      TALF
                                                      TALF, which was announced in November 2008, issued loans collateralized by
                                                      eligible ABS.428 According to FRBNY, “the ABS markets historically have funded a
                                                      substantial share of credit to consumers and businesses,” and TALF was “designed
                                                      to increase credit availability and support economic activity by facilitating renewed
                                                      issuance of consumer and business ABS.”429 The program was extended to eligible
                                                      newly issued CMBS in June 2009 and to eligible legacy CMBS in July 2009.430
                                                      TALF closed to new lending in June 2010.
                                                                            quarterly report to congress I OCTOBER 26, 2010               129




   TALF is divided into two parts:431

•	 a lending program, TALF, that originated non-recourse loans to eligible borrow-
   ers using eligible ABS and CMBS as collateral
                                                                                             Collateral: Asset pledged by a bor-
•	 an asset disposition facility, TALF LLC, that purchases the collateral from               rower to a lender until a loan is repaid.
   FRBNY if borrowers choose to surrender it and walk away from their loans or if            Generally, if the borrower defaults on
   the collateral is seized in the event of default                                          the loan, the lender gains ownership
                                                                                             of the pledged asset and may sell it to
     TALF, which was funded and managed by FRBNY, closed its lending program                 satisfy the debt. In TALF, the ABS or
for non-mortgage-backed ABS and legacy CMBS on March 31, 2010, with the last                 CMBS that is purchased with the TALF
non-mortgage-backed ABS and legacy CMBS subscription closing on March 11,                    loan is the collateral that is posted with
2010, and March 29, 2010, respectively.432 The last subscription for newly issued            FRBNY.
CMBS was June 18, 2010; this marked the program’s closure to new loans.433
                                                                                             Synthetic ABS: Security deriving its
     The asset disposition facility, TALF LLC, is managed by FRBNY and remains
                                                                                             value and cash flow from sources other
in operation.434 Its funding comes first from interest that borrowers pay on TALF
                                                                                             than conventional debt, equities, or
loans, in excess of FRBNY’s cost of funding, and interest earned on TALF LLC’s
                                                                                             commodities — for example, credit
investments. In the event that such funding proves insufficient, funding would
                                                                                             derivatives.
then come from TARP, which is obligated to lend up to the authorized limit in
subordinated debt from TALF LLC.435 TARP’s original TALF obligation was $20                  Nationally Recognized Statistical Rating
billion, to support up to $200 billion in TALF loans. However, when TALF’s lend-             Organization (“NRSRO”): Credit rating
ing phase ended in June 2010 with $42.5 billion in loans outstanding, Treasury and           agency registered with the SEC. Credit
the Federal Reserve agreed to reduce the TARP obligation to $4.3 billion.436 The             rating agencies provide their opinion of
TARP money is available for TALF LLC to use to purchase surrendered assets from              the creditworthiness of companies and
FRBNY and may offset losses associated with disposing of the surrendered assets.             the financial obligations issued by com-
As of September 30, 2010, $29.7 billion in TALF loans were outstanding.437                   panies. The ratings distinguish between
                                                                                             investment grade and non-investment
                                                                                             grade equity and debt obligations.
Lending Program
TALF’s lending program made secured loans to eligible borrowers.438 The loans
were issued with terms of three or five years and were available for non-mortgage-
backed ABS, newly issued CMBS, and legacy CMBS.439
    To be eligible for TALF, the non-mortgage-backed ABS had to meet certain
criteria, including the following:440
                                                                                           For a discussion of the credit rating agency
                                                                                           industry and an analysis of the impact of
•	 be U.S. dollar-denominated cash (not synthetic) ABS
                                                                                           NRSROs on TARP and the overall finan-
•	 bear short-term and long-term credit ratings of the highest investment grade            cial market, see SIGTARP’s October 2009
   (e.g., AAA) from two or more major nationally recognized statistical rating orga-       Quarterly Report, pages 113-148.
   nizations (“NRSROs”)
•	 not bear a long-term credit rating less than the highest rating by a major
   NRSRO
130   special inspector general I troubled asset relief program




                                             •	 have substantially all of the underlying loans originate in the United States
                                             •	 have any one of the following types of underlying loans: auto, student, credit
                                                card, equipment, dealer floor plan, insurance premium finance, small-business
                                                fully guaranteed by the Small Business Administration as to principal and inter-
                                                est, or receivables related to residential mortgage servicing advances (“servicing
                                                advance receivables”)
                                             •	 not have collateral backed by loans originated or securitized by the TALF bor-
                                                rower or one of its affiliates

                                                To qualify as TALF collateral, newly issued CMBS and legacy CMBS had
                                             to meet numerous requirements, some of which were the same for both CMBS
                                             types:441

                                             •	 evidence an interest in a trust fund that consists of fully funded mortgage loans
                                                and not other CMBS, other securities, interest rate swap or cap instruments, or
                                                other hedging instruments
                                             •	 possess a credit rating of the highest long-term investment grade from at least
                                                two rating agencies identified by FRBNY as eligible to rate CMBS collateral for
                                                TALF loans, and not possess a credit rating below the highest investment grade
                                                from any of those agencies
                                             •	 offer principal and interest payments
                                             •	 have been issued by any institution other than a Government-sponsored enter-
                                                prise (“GSE”) or an agency or instrumentality of the U.S. Government
                                             •	 include a mortgage or similar instrument on a fee or leasehold interest in one or
                                                more income-generating commercial properties

                                               Some minor, but important, differences existed between eligible newly issued
                                             CMBS and eligible legacy CMBS. Newly issued CMBS had to:442

                                             •	 evidence first-priority mortgage loans that were current in payment at the time
                                                of securitization
                                             •	 not be junior to other securities with claims on the same pool of loans
                                             •	 have 95% or more of the dollar amount of the underlying credit exposures origi-
                                                nated by a U.S.-organized entity or U.S. branch or agency of a foreign bank

                                                 Legacy CMBS had to:443

                                             •	 not have been junior to other securities with claims on the same pool of loans at
                                                the time the CMBS was issued
                                             •	 have at least 95% of the underlying properties, in terms of the related loan prin-
                                                cipal balance, located in the United States or one of its territories
                                                                            quarterly report to congress I OCTOBER 26, 2010            131




    The final maturity date of loans in the TALF portfolio is March 30, 2015.444
TALF loans are non-recourse (unless the borrower breaches any of its repre-
sentations, warranties, or covenants), which means that FRBNY cannot hold
the borrower liable for any losses beyond the surrender of any assets pledged as
collateral.445

Loan Terms
TALF participants were required to use a TALF agent to apply for a TALF loan.446
Once the collateral (the particular asset-backed security financed by the TALF               TALF Agent: Financial institution that
loan) was deemed eligible by FRBNY, the collateral was assigned a haircut.                   is party to the TALF Master Loan and
Haircuts represent the amount of money put up by the borrower — the borrower’s               Security Agreement and that occasion-
“skin in the game” — and were required for all TALF loans.447 Haircuts for non-              ally acts as an agent for the borrower.
mortgage-backed ABS varied based on the riskiness and maturity of the collateral,            TALF agents include primary and non-
and generally ranged between 5% and 16% for non-mortgage-backed ABS with                     primary broker-dealers.
average lives of five years or less.448 The haircut for legacy and newly issued CMBS
                                                                                             Haircut: Difference between the value
was generally 15% of par but increased above that amount if the average life of
                                                                                             of the collateral and the value of the
the CMBS was greater than five years.449 FRBNY lent each borrower the amount
                                                                                             loan (the loan value is less than the
of the market price of the pledged collateral minus the haircut, subject to certain
                                                                                             collateral value).
limitations.450 The borrower delivered the collateral to the custodian bank, which
collects payments generated by the collateral and distributes them to FRBNY                  Skin in the Game: Equity stake in an
(representing the borrower’s payment of interest on the TALF loan).451 Any excess            investment; down payment; the amount
payments from the collateral above the interest due and payable to FRBNY on the              an investor can lose.
loan go to the TALF borrower.452 Because the loans are non-recourse, the risk for
any borrower is limited to the haircut and any additional principal that may be paid         Custodian Bank: Bank holding the
down on the TALF loan. If the securities pledged as collateral are worth less than           collateral and managing accounts for
the loan amount when the loan is due, the borrower would likely surrender the                FRBNY; for TALF the custodian is Bank
collateral rather than pay the loan balance. The Government would then be at risk            of New York Mellon.
for potential losses equal to the difference between the loan amount and the value
of the collateral.453

TALF Loan Subscriptions
The final TALF loans collateralized by non-mortgage-backed ABS were settled on
March 11, 2010.454 TALF provided $59.0 billion of non-mortgage-backed ABS
loans during the lending phase of the program. Of all such loans settled, $23.9 bil-
lion was outstanding as of September 30, 2010.455 Table 2.30 lists all settled TALF
loans collateralized by non-mortgage-backed ABS by ABS sector.
132   special inspector general I troubled asset relief program




           Table 2.30

            TALF Loans Settled by ABS Sector (Non-mortgage-backed Collateral)
            ($ Billions)
                                                           1st Quarter             2nd Quarter             3rd Quarter              4th Quarter          1st Quarter
           ABS Sector                                            2009                    2009                    2009                     2009                 2010                     Total
           Auto Loans                                               $1.9                     $6.1                     $4.5                    $0.2                 $0.1               $12.8
           Credit Card Receivables                                    2.8                    12.4                      8.4                      1.8                  0.9                26.3
           Equipment Loans                                             —                       1.0                     0.1                      0.3                  0.2                 1.6
           Floor Plan Loans                                            —                         —                     1.0                      1.5                  1.4                 3.9
           Premium Finance                                             —                       0.5                     0.5                       —                   1.0                 2.0
           Servicing Advance Receivables                               —                       0.4                     0.1                      0.6                  0.1                 1.3
           Small-Business Loans                                        —                       0.1                     0.4                      0.9                  0.7                 2.2
           Student Loans                                               —                       2.5                     3.6                      1.0                  1.8                 8.9
           Total                                                    $4.7                   $23.0                   $18.7                     $6.4                  $6.1              $59.0

           Notes: Numbers may not total due to rounding. Data as of 9/30/2010.The first subscription in the program was in March 2009; therefore, the first quarter of 2009 represents one
           subscription while the remaining quarters represent three subscriptions.

           Sources: FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 10/5/2010; FRBNY,
           “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/TALF_recent_operations.html, accessed 10/5/2010.



           Table 2.31

            TALF LOANS SETTLED (CMBS COLLATERAL) ($ Billions)
                                                           2nd Quarter             3rd Quarter              4th Quarter            1st Quarter           2nd Quarter
           Type of Collateral Assets                             2009                    2009                     2009                   2010                  2010                     Total
           Newly Issued CMBS                                           N/A                      $—                    $0.1                     $—                    $—                 $ 0.1
           Legacy CMBS                                                   —                      4.1                     4.5                    3.3                   N/A                 12.0
           Total                                                       $—                     $4.1                    $4.6                   $3.3                    $—               $12.1

           Notes: Numbers may not total due to rounding. Data as of 9/30/2010. The second quarter of 2009 was only for legacy CMBS while the second quarter of 2010 was only for newly
           issued CMBS.

           Source: FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 10/5/2010; FRBNY, “Term Asset-Backed
           Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed 10/5/2010.




                                                              The final subscription for TALF CMBS loans was held June 28, 2010. TALF
                                                           provided $12.1 billion of CMBS loans during the lending phase of the program.456
                                                           Of all such loans settled, $5.8 billion was outstanding as of September 30, 2010.457
                                                           Table 2.31 includes all TALF CMBS loans settled.
                                                                             quarterly report to congress I OCTOBER 26, 2010           133




Asset Disposition Facility
When FRBNY created TALF LLC, the facility that is used to purchase collateral
received by FRBNY if TALF borrowers walk away from their loans, TARP loaned
the facility $100 million. Of this initial funding, $15.8 million was allocated to
cover administrative costs.458 TARP will continue to fund TALF LLC, as needed,
until its entire $4.3 billion obligation has been funded, all TALF loans are retired,
or the loan commitment term expires. Any additional funds, if needed, will be pro-
vided by a loan from FRBNY that will be collateralized by the assets of TALF LLC
and will be senior to the TARP loan.459 Payments by TALF LLC from the proceeds
of its holdings will be made in the following order:460

1.	 operating expenses of TALF LLC
2.	 principal due to FRBNY and funding of FRBNY’s senior loan commitment
3.	 principal due to Treasury
4.	 interest due to FRBNY
5.	 interest due to Treasury
6.	 other secured obligations

     Any remaining money will be shared by Treasury (90%) and FRBNY (10%).461

Current Status
As of September 30, 2010, no collateral had been surrendered or purchased by
TALF LLC.462 As of the same date, TALF LLC had assets of $600.7 million.463 That
amount includes the $100 million in initial TARP funding.464 The remainder con-
sists of interest payments and interest income earned from permitted investments.
From its February 4, 2009, formation through September 30, 2010, TALF LLC has
spent approximately $1.3 million on administration.465
    When TALF closed for new loans on June 30, 2010, FRBNY’s responsibilities
under the program shifted primarily to portfolio management, which includes the
following duties:466
                                                                                              Excess Spread: Funds left over after
•	 maintaining documentation                                                                  required payments and other con-
•	 overseeing the custodian that is responsible for holding ABS collateral                    tractual obligations have been met. In
•	 calculating and collecting principal and interest on TALF loans                            TALF it is the difference between the
•	 disbursing excess spread to TALF borrowers in accordance with the governing                periodic amount of interest paid out
   documents                                                                                  by the collateral and the amount of
•	 monitoring the TALF portfolio                                                              interest charged by FRBNY on the non-
•	 collecting and managing collateral assets if a borrower defaults or surrenders the         recourse loan provided to the borrower
                                                                                              to purchase the collateral.
   collateral in lieu of repayment
•	 paying TALF LLC interest that borrowers pay FRBNY on TALF loans, in excess
   of FRBNY’s cost of funding
134            special inspector general I troubled asset relief program                                                                        134




                                                      Public-Private Investment Program
      Legacy Securities: Real estate-related
                                                      The stated purpose of the Public-Private Investment Program (“PPIP”) is to
      securities lingering on the balance
      sheets of financial institutions because        purchase legacy securities from financial institutions through Public-Private
      of pricing difficulties that resulted from      Investment Funds (“PPIFs”). PPIFs are partnerships, formed specifically for
      market disruption.                              this program, that invest in mortgage-backed securities using equity capital from
                                                      private-sector investors combined with TARP equity and debt. A private-sector fund
      Equity: Investment that represents an           management firm oversees each PPIF on behalf of these investors. According to
      ownership interest in a business.               Treasury, PPIP’s aim was to “restart the market for legacy securities, allowing banks
                                                      and other financial institutions to free up capital and stimulate the extension of
      Debt: Investment in a business that is          new credit.”467
      required to be paid back to the inves-              Treasury selected nine fund management firms to establish PPIFs. One PPIF
      tor, usually with interest.
                                                      manager, The TCW Group, Inc. (“TCW”), subsequently withdrew. Private investors
                                                      and Treasury co-invested in the PPIFs to purchase legacy securities from financial
                                                      institutions. The fund managers raised private-sector capital. Treasury matched the
      For more information on the selection           private-sector equity dollar-for-dollar and provided debt financing in the amount
      of PPIF managers, see SIGTARP’s October         of the total combined equity. Each PPIF manager was also required to invest at
      7, 2010 audit entitled “Selecting Fund          least $20 million of its own money in the PPIF.468 Each PPIF is approximately 75%
      Managers for the Legacy Securities
                                                      TARP funded. PPIP was designed as an eight-year program but, under certain
      Public-Private Investment Program.”
                                                      circumstances, Treasury can terminate it early or extend it for up to two additional
      For more information on the withdrawal of       years.469
      TCW as a PPIF manager, see SIGTARP’s                The intent of the program is for the PPIFs to purchase securities from banks,
      January 2010 Quarterly Report, page 88.         insurance companies, mutual funds, pension funds, and other eligible financial
                                                      institutions, as defined in EESA.470 Treasury, the PPIF managers, and the private
                                                      investors share PPIF profits on a pro rata basis based on their limited partnership
                                                      interests. PPIF losses are also shared on a pro rata basis, up to each participant’s
                                                      investment amount.471 In addition to its pro rata share, Treasury received warrants
                                                      in each PPIF, as mandated by EESA.472




                                                      Pro Rata: Refers to dividing something      Limited Partnership: Partnership in which
                                                      among a group according to the              there is at least one partner whose
                                                      proportionate share that each participant   liability is limited to the amount invested
                                                      holds as a part of the whole.               (limited partner) and at least one partner
                                                                                                  whose liability extends beyond monetary
                                                                                                  investment (general partner).
                                                                              quarterly report to congress I OCTOBER 26, 2010          135




    The securities eligible for purchase by PPIFs (“eligible assets”) are supported by
                                                                                               Non-Agency Residential Mortgage-
real estate-related loans, including non-agency residential mortgage-backed securi-
                                                                                               Backed Securities (“Non-Agency
ties (“non-agency RMBS”) and commercial mortgage-backed securities (“CMBS”)                    RMBS”): Financial instrument backed
that meet the following criteria:473                                                           by a group of residential real estate
                                                                                               mortgages not guaranteed or owned
•	 issued before January 1, 2009 (legacy)                                                      by a Government-sponsored enterprise
•	 bearing an original AAA or equivalent rating from two or more credit rating                 (“GSE”), such as the Federal National
   agencies designated as nationally recognized statistical rating organizations               Mortgage Association (“Fannie Mae”)
   (“NRSROs”)                                                                                  or the Federal Home Loan Mortgage
•	 secured directly by actual mortgages, leases, or other assets, not other securities         Corporation (“Freddie Mac”).
   (other than certain swap positions, as determined by Treasury)
•	 located primarily in the United States (the loans and other assets that secure the
   non-agency RMBS and CMBS)                                                                   For an analysis of the impact of
•	 purchased from financial institutions that are eligible for TARP participation              NRSROs on TARP and the overall
                                                                                               financial market, see SIGTARP’s
                                                                                               October 2009 Quarterly Report, pages
Legacy Securities Program Process
                                                                                               113–148.
The following steps describe the process of participating in the Legacy Securities
Program:474

1.	 Fund managers applied to Treasury to participate in the program.
2.	 Pre-qualified fund managers raised the necessary private capital for the PPIFs.
3.	 Treasury matched the capital raised, dollar-for-dollar, up to a preset maximum.
    Treasury also received warrants so it could benefit further if the PPIFs turn a
    profit.
4.	 Fund managers may borrow additional funds from Treasury up to 100% of the
    total equity investment (including the amount invested by Treasury).
5.	 Each fund manager purchases and manages the legacy securities and provides
    monthly reports to its investors, including Treasury.

    Obligated funds are not given immediately to the PPIF managers. Instead, PPIF
managers send a notice to Treasury and the private investors requesting portions of
obligated contributions in order to purchase specific investments or to pay certain
expenses and debts of the partnerships.475 When the funds are delivered, the PPIF
is said to have “drawn down” on the obligation.476

PPIF Purchasing Power
During the capital-raising period, the eight PPIP fund managers raised $7.4 billion
of private-sector equity capital, which Treasury matched with a dollar-for-dollar obli-
gation for a total of $14.7 billion in equity capital. Treasury also obligated
$14.7 billion of debt financing, resulting in $29.4 billion of PPIF purchasing power.
136   special inspector general I troubled asset relief program                                                                                                                      136




                                             The PPIFs have drawn down a total of approximately $18.6 billion, including
                                             private-sector equity capital and TARP funding, to purchase PPIP-eligible assets
                                             through September 30, 2010.477 Treasury has expended a total of $14.2 billion for
                                             PPIP, including $13.8 billion for the eight active PPIFs and $356 million for TCW.
                                                 The fund-raising stage for PPIFs is now complete. PPIF managers had six
                                             months from the closing date of their first private-sector fund raising to raise ad-
                                             ditional private-sector equity.478 Although Treasury initially pledged up to
                                             $30 billion for PPIP, the fund managers did not raise enough private-sector capital
                                             for Treasury’s combination of matching funds and debt financing to reach that
                                             amount. Treasury’s total obligation is now limited to $22.4 billion.479 Of that
                                             $22.4 billion, $22.1 billion is designated for active PPIFs. As noted above, the re-
                                             maining $356 million of Treasury’s PPIP obligation represents funds that Treasury
                                             disbursed to TCW, a former PPIF manager. TCW has repaid those funds.480
                                                 Notwithstanding the expiration of TARP’s purchasing authority on October 3,
                                             2010, each active PPIF manager has up to three years from closing its first private-
                                             sector equity contribution (the investment period) to draw upon the TARP funds
                                             obligated for the PPIF.481 Table 2.32 shows all equity and debt obligated for active
                                             PPIFs under the program.


                                             Table 2.32

                                             Public-private investment program, AS OF 9/30/2010
                                                                                                                                                                          Total
                                                                                           Private-Sector                Treasury                Treasury          Purchasing
                                                                                           Equity Capital                  Equity                     Debt             Power
                                                                                               ($ Billions)            ($ Billions)            ($ Billions)        ($ Billions)
                                             AG GECC PPIF Master Fund, L.P.                               $1.2                  $1.2                    $2.5                 $5.0
                                             AllianceBernstein Legacy
                                                                                                            1.2                   1.2                     2.3                  4.6
                                             Securities Master Fund, L.P.
                                             BlackRock PPIF, L.P.                                           0.7                   0.7                     1.4                  2.8
                                             Invesco Legacy Securities Master
                                                                                                            0.9                   0.9                     1.7                  3.4
                                             Fund, L.P.
                                             Marathon Legacy Securities Public-
                                             Private Investment Partnership,                                0.5                   0.5                     0.9                  1.9
                                             L.P.
                                             Oaktree PPIP Fund, Inc.                                        1.2                   1.2                     2.3                  4.6
                                             RLJ Western Asset Public/Private
                                                                                                            0.6                   0.6                     1.2                  2.5
                                             Master Fund, L.P.
                                             Wellington Management Legacy
                                                                                                            1.1                   1.1                     2.3                  4.6
                                             Securities PPIF Master Fund, LP
                                             Current Totals                                               $7.4                  $7.4                 $14.7                $29.4a

                                             Notes: Numbers affected by rounding.
                                             a
                                               Treasury initially obligated $356 million to TCW. The $356 million was paid to TCW, and TCW subsequently repaid the funds that were
                                             invested in its PPIF. As this PPIF has closed, the amount is not included in the total purchasing power.
                                             Source: Treasury, “Legacy Securities Public-Private Investment Program: Program Update — Month Ended 9/30/2010,” received
                                             10/21/2010.
137                                                                                                                           quarterly report to congress I OCTOBER 26, 2010                                     137




      Disclosure of PPIF Transactions and Holdings
      See Section 5: “SIGTARP Recommendations” in this report.

      Departure of BlackRock, Inc. (“BlackRock”) Key Person                                                                                            Key Person: Individual recognized as
      In August 2010 Curtis Arledge, chief investment officer of BlackRock’s fixed-                                                                    being important to the ongoing opera-
      income unit, resigned from BlackRock.482 Mr. Arledge is listed as a key person in                                                                tion and investment decisions of an
                                                                                                                                                       investment fund.
      BlackRock’s PPIF agreement with Treasury. Under the specific terms of the agree-
      ment, Treasury can freeze BlackRock’s PPIF if a specified number of BlackRock
      key persons cease to be actively involved in the PPIF or in Blackrock’s fixed-income
      business or to devote a stated percentage of time to the PPIF or Blackrock’s fixed-
      income business.483

      Fund Performance
      Each PPIF’s performance — its gross and net returns since inception — is listed
      in Table 2.33, as reported by PPIF managers. The returns are calculated based
      on a methodology requested by Treasury. Each PPIF has three years to buy legacy
      securities on behalf of its private and Government investors. The program strives to
      maintain “predominantly a long-term buy and hold strategy.”484


      Table 2.33

      PPIF investment status, AS OF 9/30/2010
                                                                                                                                                                                  Net Internal Rate of
                                                                                      1-Month Return                3-Month Return    Cumulative Since                         Return Since Inception
      Manager                                                                              (percent)a                    (percent)a Inception (percent)a                                    (percent)b
                                                                  Gross                               4.98                         13.39                         44.12                                    52.97
      AG GECC PPIF Master Fund, L.P.
                                                                  Net                                 4.96                         13.31                         42.28                                    51.99
      AllianceBernstein Legacy Securities Master                  Gross                               5.21                         13.55                         28.74                                    42.86
      Fund, L.P.                                                  Net                                 5.14                         13.26                         26.44                                    40.77
                                                                  Gross                               4.17                         11.61                         36.42                                    42.14
      BlackRock PPIF, L.P.
                                                                  Net                                 4.10                         11.33                         34.59                                    40.23
                                                                  Gross                               4.23                          9.71                         30.90                                    36.43
      Invesco Legacy Securities Master Fund, L.P.
                                                                  Net                                 4.15                          9.37                         28.37                                    34.35
      Marathon Legacy Securities Public-Private                   Gross                               4.80                         12.32                         29.10                                    46.74
      Investment Partnership, L.P.                                Net                                 4.72                         12.00                         26.01                                    44.28
                                                                  Gross                               1.63                          5.90                         14.80                                    23.77
      Oaktree PPIP Fund, Inc.
                                                                  Net                                 1.42                          5.23                           9.73                                   19.32
      RLJ Western Asset Public/Private Master                     Gross                               5.11                         12.25                         28.19                                    37.43
      Fund, L.P.                                                  Net                                 5.09                         12.20                         27.52                                    36.98
      Wellington Management Legacy                                Gross                               3.57                          7.87                         18.89                                    24.51
      Securities PPIF Master Fund, LP                             Net                                 3.50                          7.59                         17.25                                    22.88

      Notes: The performance indicators are listed as reported by the PPIF managers without further analysis by SIGTARP. The net returns include the deduction of certain management fees and expenses.
      Further, several of the fund managers have told SIGTARP that they are capitalizing start-up expenses in the first few quarters, which accounts for some of these expenses.
      a
        Time-weighted, geometrically linked returns. The net returns include the deduction of management fees and partnership expenses attributable to Treasury.
      b
        Dollar-weighted rate of return.
      Source: PPIF Monthly Performance Reports submitted by each PPIF manager, September 2010, received 10/15/2010.
138                special inspector general I troubled asset relief program




      Figure 2.7
                                                                      The data in Table 2.33 constitutes a snapshot of the funds’ performance during
                                                                  the quarter ended September 30, 2010, and may not predict the funds’ perfor-
      AGGREGATE COMPOSITION OF PPIF
      PURCHASES, AS OF 9/30/2010                                  mance over the long term. According to some PPIF managers, it would be pre-
      Percentage of $19.3 Billion                                 mature to draw any long-term conclusions because, among other reasons, some
                 CMBS
                                                                  managers have not fully executed their investment strategies or fully drawn down
                        18%
                                                                  Treasury’s capital or debt obligations.
                                                                      According to their agreements with Treasury, PPIF managers may trade in
                                                                  both RMBS and CMBS except for Oaktree PPIP Fund, Inc., which may purchase
                                       82%         RMBS
                                                                  only CMBS.485 Figure 2.7 shows the collective value of securities purchased by all
                                                                  PPIFs as of September 30, 2010, broken down by RMBS and CMBS.
                                                                      PPIF investments can be classified by underlying asset type. For non-agency
                                                                  RMBS, the underlying assets are mortgages for homes occupied by up to four
      Notes: Numbers affected by rounding. Calculated based on    families; all non-agency RMBS investments are considered residential. For CMBS,
      monthly data supplied by the PPIF managers.
                                                                  the assets are commercial real estate mortgages: office, retail, multi-family, hotel,
      Source: PPIF Monthly Performance Reports, September 2010.
                                                                  industrial (such as warehouses), mobile home parks, mixed use (combination of
                                                                  commercial and residential), and self-storage. Figure 2.8 breaks down CMBS
      Figure 2.8
                                                                  investment distribution by sector. The aggregate CMBS portfolio had large concen-
      AGGREGATE CMBS PURCHASES BY
                                                                  trations in office (29%) and retail (26%) loans.
      SECTOR, AS OF 9/30/2010
      Percentage of $3.4 Billion                                      Non-agency RMBS and CMBS can be classified by the degree of estimated
                             Other
                                                                  default risk (sometimes referred to as “quality”). Investors are most concerned
                               8%
                                                                  about whether borrowers will default and the underlying collateral will be sold at a
           Lodging
                                                                  loss. Estimated risk, or quality, attempts to measure the likelihood of that outcome.
                       16%
  1%                                        29%      Office       There are no universal standards for ranking mortgage quality, and the designations
      Hotel
                                                                  vary depending on context. In general, the highest-quality rankings are granted to
       Industrial 5%
                                                                  mortgages that have the strictest requirements regarding borrower credit, complete-
        Multi-family    15%
                                     26%
                                                                  ness of documentation, and underwriting standards. Treasury characterizes these
                                                                  investment-quality levels of risk for the types of mortgage loans supporting non-
                                         Retail
                                                                  agency RMBS:486
      Notes: Numbers affected by rounding. Calculated based on
      monthly data supplied by the PPIF managers.

      Source: PPIF Monthly Performance Reports, September 2010.
                                                                  •	 Prime — mortgage loan made to a borrower with good credit that generally
                                                                     meets the lender’s strictest underwriting criteria. Non-agency prime loans gener-
                                                                     ally exceed the dollar amount eligible for purchase by GSEs (jumbo loans) but
                                                                     may include lower balance loans as well.
                                                                          quarterly report to congress I OCTOBER 26, 2010                             139




•	 Alt-A — mortgage loan made to a borrower with good credit but with limited             Figure 2.9
   documentation or other characteristics that do not meet the standards for prime        AGGREGATE RMBS PURCHASES BY
   loans. An Alt-A loan may have a borrower with a lower credit rating, a higher          QUALITY, AS OF 9/30/2010
                                                                                          Percentage of $15.9 Billion
   loan-to-value ratio, or limited or no documentation, compared to a prime loan.
•	 Subprime — mortgage loan made to a borrower with a poor credit rating.                                7%
                                                                                                         Option ARM
•	 Option Adjustable Rate Mortgage (“ARM”) — mortgage loan that gives the
   borrower a set of choices about how much interest and principal to pay each               11%
   month. This may result in negative amortization (an increasing loan principal             Subprime

   balance over time).
                                                                                                                                 37% Prime
•	 Other (RMBS) — RMBS that do not meet the definitions for prime, Alt-A,
   subprime, or option ARM but meet the definition of “eligible assets,” as
   described above.                                                                              Alt-A        45%


   Treasury characterizes CMBS according to the degree of “credit enhancement”
                                                                                          Notes: Numbers affected by rounding. Calculated based on
supporting them487:                                                                       monthly data supplied by the PPIF managers.

                                                                                          Sources: PPIF Monthly Performance Reports, September 2010.
•	 Super Senior — most senior originally rated AAA bonds in a CMBS securitiza-
   tion with the highest level of credit enhancement. Credit enhancement refers to
   the percentage of the underlying mortgage pool by balance that must be written         Figure 2.10

   down before the bond suffers any losses. Super senior bonds often compose              AGGREGATE CMBS PURCHASES BY
   approximately 70% of a securitization and, therefore, have approximately 30%           QUALITY, AS OF 9/30/2010
                                                                                          Percentage of $3.4 Billion
   credit enhancement at issuance.
                                                                                                                        Super Senior
•	 AM (Mezzanine) — mezzanine-level originally rated AAA bond. Creditors
   receive interest and principal payments after super senior creditors but before           Other                      11%
                                                                                             (CMBS)           20%
   junior creditors.488 AM bonds often compose approximately 10% of a CMBS
   securitization.
•	 AJ (Junior) — the most junior bond in a CMBS securitization that attained an                                                40% AM (Mezzanine)
   AAA rating at issuance.                                                                AJ (Junior)     29%
•	 Other (CMBS) — CMBS that do not meet the definitions for super senior,
   AM, or AJ but meet the definition of “eligible assets,” as described above.
                                                                                          Notes: Numbers affected by rounding. Calculated based on
                                                                                          monthly data supplied by the PPIF managers.

                                                                                          Source: PPIF Monthly Performance Reports, September 2010.
140              special inspector general I troubled asset relief program




  Figure 2.11
  AGGREGATE GEOGRAPHICAL
  DISTRIBUTION — PERCENT OF
  TOTAL RMBS, AS OF 9/30/2010                                           Figure 2.9 and Figure 2.10 show the distribution of PPIP-held non-agency
                                                                     RMBS and CMBS investments by respective risk levels, as reported by PPIF
       50%                                                           managers.
                                                                        Non-agency RMBS and CMBS can be classified geographically, according to
       40        44%
                                                                     the states where the underlying mortgages are held. Figure 2.11 and Figure 2.14
                                                                     show the states with the greatest representation in the underlying non-agency
        30
                                                                     RMBS and CMBS investments in PPIFs, as reported by PPIF managers.
                                                                        Non-agency RMBS and CMBS can also be classified by the delinquency of
        20
                                                                     the underlying mortgages. Figure 2.12 and Figure 2.13 show the distribution of
                                                                     non-agency RMBS and CMBS investments held in PPIP by delinquency levels, as
        10
                                                                     reported by PPIF managers.
                              8%
                                           6%
         0                                             3%
                 CA           FL           NY           VA

  Notes: Only states with the largest representation shown.
  Calculated based on monthly data supplied by PPIF managers.

  Source: PPIF Monthly Performance Reports, September 2010.
                                                                     Figure 2.12                                                 Figure 2.13
  Figure 2.14                                                                                                                    AGGREGATE AVERAGE CMBS
                                                                     AGGREGATE AVERAGE RMBS
  AGGREGATE GEOGRAPHICAL                                             DELINQUENCIES BY MARKET VALUE,                              DELINQUENCIES BY MARKET VALUE,
  DISTRIBUTION — PERCENT OF                                          AS OF 9/30/2010                                             AS OF 9/30/2010
                                                                     Percentage of $15.9 Billion                                 Percentage of $3.4 Billion
  TOTAL CMBS, AS OF 9/30/2010
                                                                     60+ Days                                                          2% 30 Days         60+ Days
       20
                                                                     (FCL/REO included)
                                                                                                                                                          7%
                                                                                        27%
       15
                16%

                                                                     30+ Days     3%
                                                                                                           70%      Current
       10
                             11%
                                                                                                                                                               91%           Current
                                          8%          8%
         5
                                                                     Notes: Numbers affected by rounding. Calculated based on    Notes: Numbers affected by rounding. Calculated based on
                                                                     monthly data supplied by the PPIF managers.                 monthly data supplied by the PPIF managers.
         0                                                           Source: PPIF Monthly Performance Reports, September 2010.   Source: PPIF Monthly Performance Reports, September 2010.
                 CA          NY           FL          TX

  Notes: Only states with largest representation shown. Calculated
  based on monthly data supplied by the PPIF
  managers.

  Source: PPIF Monthly Performance Reports, September 2010.
                                                                          quarterly report to congress I OCTOBER 26, 2010            141




Unlocking Credit for Small Businesses (“UCSB”)/Small
Business Administration (“SBA”) Loan Support Initiative
On March 16, 2009, Treasury announced the Unlocking Credit for Small
Businesses (“UCSB”) program, designed to encourage banks to extend more credit
to small businesses. Treasury stated that, through UCSB, it would purchase up to           7(a) Loan Program: SBA loan program
$15 billion in securities backed by pools of loans from two SBA programs: the 7(a)         guaranteeing a percentage of loans for
                                                                                           small businesses that cannot otherwise
Loan Program and the 504 Community Development Loan Program.489 Treasury
                                                                                           obtain conventional loans at reasonable
later lowered the amount available to purchase securities under UCSB to $1 bil-
                                                                                           terms.
lion.490 In July 2010, this amount was cut to $400 million.
    Treasury never purchased any 504 Community Development Loan-backed                     504 Community Development Loan
securities through UCSB.491 Treasury initiated the 7(a) portion of the program and         Program: SBA program combining
signed a contract with two pool assemblers, Coastal Securities and Shay Financial          Government-guaranteed loans with
Services, Inc. (“Shay Financial”), which was added to the program on August 27,            private-sector mortgages to provide
2010.492 Under the governing agreement, Earnest Partners, on behalf of Treasury,           loans of up to $10 million for commu-
anonymously purchased SBA pool certificates from Coastal Securities and Shay               nity development.
Financial.493
    Since the first purchases were made on March 19, 2010, Treasury has pur-               Pool Assemblers: Firms authorized
chased a total of approximately $357.3 million in 31 floating-rate 7(a) securities         to create and market pools of SBA-
from Coastal Securities and Shay Financial.494 Table 2.34 shows the CUSIPs and             guaranteed loans.

investment amounts for the securities Treasury bought, categorized by “settled” and
                                                                                           SBA Pool Certificate: Ownership inter-
“not settled” transactions. “Settled” transactions have been fully concluded. The
                                                                                           est in a bond backed by SBA-guaran-
terms of “not settled” transactions have been agreed upon, but the actual securi-
                                                                                           teed loans.
ties-for-cash transfer has not yet happened.




                                                                                         For more information on SBA 7(a) Loan
                                                                                         Program mechanics and TARP support for
                                                                                         7(a), see SIGTARP’s April 2010 Quarterly
                                                                                         Report, pages 105-106.
142   special inspector general I troubled asset relief program                                                                                                              142




                    Table 2.34

                     floating-rate SBA 7(A) Securities                              ($Millions)
                    Trade Date                                    CUSIP                                        Pool Assembler                          Investment Amount a
                    Settled Transactions
                    3/19/2010                                    83164KYN7                                     Coastal Securities                                    $4.4
                    3/19/2010                                    83165ADC5                                     Coastal Securities                                     8.3
                    3/19/2010                                    83165ADE1                                     Coastal Securities                                     8.7
                    4/8/2010                                     83165AD84                                     Coastal Securities                                    26.0
                    4/8/2010                                     83164KZH9                                     Coastal Securities                                     9.6
                    5/11/2010                                    83165AEE0                                     Coastal Securities                                    11.5
                    5/11/2010                                    83164K2Q5                                     Coastal Securities                                    14.2
                    5/11/2010                                    83165AED2                                     Coastal Securities                                     9.7
                    5/25/2010                                    83164K3B7                                     Coastal Securities                                     9.3
                    5/25/2010                                    83165AEK6                                     Coastal Securities                                    18.8
                    6/17/2010                                    83165AEQ3                                     Coastal Securities                                    38.3
                    6/17/2010                                    83165AEP5                                     Coastal Securities                                    31.7
                    7/14/2010                                    83164K3Y7                                     Coastal Securities                                     6.4
                    7/14/2010                                    83164K4J9                                     Coastal Securities                                     7.5
                    7/14/2010                                    83165AE42                                     Coastal Securities                                     14.8
                    7/29/2010                                    83164K4E0                                     Coastal Securities                                      2.8
                    8/17/2010                                    83165AEZ3                                     Coastal Securities                                      9.2
                    8/31/2010                                    83165AEW0                                     Shay Financial                                         10.3
                    Settled Transactions Subtotal                                                                                                                  $241.4
                    Not Settled Transactions:
                    7/29/2010                                    TBA                                           Coastal Securities                                   $10.7
                    8/17/2010                                    TBA                                           Coastal Securities                                      5.5
                    8/17/2010                                    TBA                                           Coastal Securities                                     11.1
                    8/31/2010                                    TBA                                           Shay Financial                                         10.2
                    8/31/2010                                    TBA                                           Coastal Securities                                      6.4
                    9/14/2010                                    TBA                                           Shay Financial                                          8.9
                    9/14/2010                                    TBA                                           Shay Financial                                          7.8
                    9/14/2010                                    TBA                                           Coastal Securities                                      5.3
                    9/14/2010                                    TBA                                           Coastal Securities                                      5.5
                    9/28/2010                                    TBA                                           Coastal Securities                                      3.3
                    9/28/2010                                    TBA                                           Coastal Securities                                     11.4
                    9/28/2010                                    TBA                                           Shay Financial                                         14.8
                    9/28/2010                                    TBA                                           Shay Financial                                         14.9
                    Not Settled Transactions Subtotalb                                                                                                             $115.9
                    Total Investment Amountc                                                                                                                       $357.3
                    Notes: Numbers may not total due to rounding.
                    a
                      Investment amount is stated after giving effect to factor and, if applicable, the purchase of accrued principal and interest.
                    b
                      Transactions listed as to be announced (“TBA”) were not finalized as of 9/30/2010; the CUSIPs for these have therefore not been assigned.
                    c
                      Amount subject to adjustment.

                    Source: Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call 10/14/2010.
                                                                              quarterly report to congress I OCTOBER 26, 2010   143




Automotive Industry Support Programs
During the financial crisis, Treasury, through TARP, launched three automotive
industry support programs: the Automotive Industry Financing Program (“AIFP”),
the Auto Supplier Support Program (“ASSP”), and the Auto Warranty Commitment
Program (“AWCP”). According to Treasury, these programs were established “to
prevent a significant disruption of the American automotive industry that poses a
systemic risk to financial market stability and will have a negative effect on the real
economy of the United States.”495
    AIFP has not expended any TARP funds for the automotive industry since
December 30, 2009, when GMAC Inc., now Ally Financial Inc. (“Ally Financial”),
received a $3.8 billion capital infusion.496 ASSP, designed to “ensure that automo-
tive suppliers receive compensation for their services and products,” was termi-
nated in April 2010 after all $413.1 million in loans made through it were fully
repaid.497 The $640.7 million AWCP was designed to assure car buyers that the
warranties on any vehicles purchased during the bankruptcies of General Motors
Corp. (“Old GM”) and Chrysler LLC (“Old Chrysler”) would be guaranteed by the
Government. It was terminated in July 2009 after all loans under the program were
fully repaid upon the companies’ emergence from bankruptcy.498
    Treasury initially obligated approximately $84.8 billion through these pro-
grams to Old GM and General Motors Company (“New GM”), Ally Financial,
the Chrysler entities (Chrysler Holding LLC [now called CGI Holding LLC], Old
Chrysler, and Chrysler Group LLC [“New Chrysler”]), and Chrysler Financial
Services Americas LLC (“Chrysler Financial”).499 Treasury had obligated
$5.0 billion under ASSP as of July 2009 but adjusted this amount to
$413.1 million to reflect actual borrowings, thereby reducing the total obliga-
tion for all automotive industry support programs to approximately $81.8 billion
(including approximately $2.1 billion in still undrawn loan obligations to New
Chrysler).500 As of September 30, 2010, the companies have repaid approximately
$11.2 billion in principal and $946.0 million in interest.501 As a result of these
repayments, old loan conversions (into common equity), and post-bankruptcy
restructurings, Treasury now holds $2.1 billion in preferred shares and 60.8% of
the common equity in New GM; a debt instrument of approximately $986 million
from Old GM; a loan of approximately $7.1 billion to New Chrysler and 9.9% of
the common equity in New Chrysler; and $14.1 billion in senior equity and 56.3%
of the common equity in Ally Financial.502
144   special inspector general I troubled asset relief program




                                             Table 2.35

                                             TARP Automotive programs expenditures and repayments,
                                             AS OF 9/30/2010 ($ BILLIONS)
                                                                                                                                                              Ally            Total
                                                                                                                                   Chrysler             Financial/
                                                                                               Chrysler                  GM        Financial                GMAC
                                             Pre-Bankruptcy
                                                AIFP                                                  $4.0            $19.4               $1.5                $17.2           $42.1
                                                ASSP   a
                                                                                                       0.1               0.3                                                       0.4

                                                AWCP                                                   0.3               0.4                                                       0.6

                                                Subtotal                                             $4.4            $20.1               $1.5                 $17.2          $43.1

                                             In-Bankruptcy (DIP Financing)

                                                AIFP                                                  $1.9            $30.1                                                   $32.0
                                                Subtotal                                             $1.9            $30.1                                                   $32.0

                                             Post-Bankruptcy (Working Capital)
                                                AIFP                                                 $4.6b                                                                        $4.6
                                                Subtotal                                             $4.6                                                                         $4.6
                                             Subtotals by Program:
                                                AIFP                                                                                                                          $78.6
                                                ASSP                                                                                                                               0.4
                                                AWCP                                                                                                                               0.6
                                             Total Expenditures                                    $10.9             $50.2               $1.5                 $17.2          $79.7
                                             Principal Repaid to Treasury                           ($2.3)            ($7.4)            ($1.5)                   $—         ($11.2)
                                             Net Expenditures                                        $8.5            $42.8                $—                  $17.2          $68.5

                                             Notes: Numbers may not total due to rounding.
                                             a
                                               The final commitment and repayment amounts reflect the total funds expended under the ASSP loans. Treasury initially obligated
                                               $5.0 billion under ASSP. Treasury adjusted its obligation to $413.1 million.
                                             b
                                               Chrysler has not drawn down approximately $2.07 billion of its $6.64 billion post-bankruptcy working capital loan from Treasury.

                                             Source: Treasury, Transactions Report, 10/4/2010; Treasury, response to SIGTARP data call, 10/14/2010.

                                                 Treasury’s investments in these three programs and any repayments of principal
                                             are summarized in Table 2.35 and categorized by the timing of the investment in
                                             relation to the firms’ progression through bankruptcy.

                                             Automotive Industry Financing Program (“AIFP”)
                                             Treasury provided $80.7 billion through AIFP to support automakers and their
                                             financing arms in order to “avoid a disorderly bankruptcy of one or more automo-
                                             tive companies.”503 As of September 30, 2010, Treasury had received approximately
                                             $2.8 billion in dividends and interest payments from participating companies.504
                                             Of AIFP-related principal repayments, approximately $6.7 billion came from New
                                             GM; $1.9 billion from CGI Holding LLC, the parent company of Old Chrysler;
                                             and $1.5 billion from Chrysler Financial. As discussed below, additional repay-
                                             ments of $640.7 million and $413.1 million, respectively, were received under the
                                             AWCP and ASSP.505
                                                                                                                            quarterly report to congress I OCTOBER 26, 2010                             145




GM
Through September 30, 2010, Treasury had provided approximately $49.5 billion
to GM through AIFP. Of that, $19.4 billion was provided before bankruptcy and
$30.1 billion was debtor-in-possession (“DIP”) financing during bankruptcy. During                                                           Debtor-in-Possession (“DIP”): Company
bankruptcy proceedings, most of Treasury’s pre-bankruptcy and DIP financing                                                                  operating under Chapter 11 bankruptcy
loans to Old GM were used to purchase the common or preferred stock in New                                                                   protection that technically still owns its
GM (the company that purchased substantially all of the assets of Old GM pursu-                                                              assets but is operating them to maxi-
ant to Section 363 of the Bankruptcy Code) or debt assumed by New GM. As a                                                                   mize the benefit to its creditors.
result, Treasury’s GM investment was converted to a 60.8% common equity stake
in New GM, $2.1 billion in preferred stock in New GM, and a $7.1 billion loan to
New GM ($6.7 billion through AIFP and $360.6 million through AWCP). As part
of a credit agreement with Treasury, $16.4 billion of the DIP money was set in an
escrow account that GM could access only with Treasury’s permission. Separately,
approximately $986 million in loans was left to facilitate the orderly wind-down of
Old GM.506 Table 2.36 summarizes the breakdown of Treasury’s holdings in both
GM entities.
    Under the terms of Section 363 of the Bankruptcy Code governing the sale of
certain assets from Old GM to New GM, the United Auto Workers (“UAW”), bond-
holders from Old GM (“Motors Liquidation Company”), Treasury, and the govern-
ments of Canada and Ontario became the owners of New GM.507 Figure 2.15 rep-                                                               Figure 2.15
resents the breakdown of ownership in New GM’s common equity as of September                                                               OWNERSHIP IN NEW GM
30, 2010. The ownership percentages shown in Figure 2.1 would be changed if the                                                              Old GM Bondholders
UAW or Old GM bondholders exercise warrants to purchase additional common
                                                                                                                                                 UAW
shares of New GM.508                                                                                                                           Retiree            10%
                                                                                                                                              Medical
                                                                                                                                              Benefits
                                                                                                                                                Trust     18%                               United States
Table 2.36                                                                                                                                                                         61%      Department
                                                                                                                                                                                            of the
Treasury holdings in General motors entities,                                                                                                 Canada       12%                              Treasury
                                                                                                                                                 GEN
AS OF 9/30/2010 ($ BILLIONS)                                                                                                               Investment
                                                                                                                                          Corporation
                                                                 Old GM                 New GM                      Total
Debt (Outstanding Loans)                                             $1.0                     $0.0                  $1.0
                                                                                                                                           Notes: Numbers may not total due to rounding. Ownership
                                                                                                                                           percentages are shown prior to the exercising of any warrants for
Preferred Equity                                                        —                       2.1                   2.1                  additional shares by the UAW or Old GM bondholders.

Common Equitya                                                          —                     39.7                  39.7                   Source: SEC, “General Motors Company: Form S-1 Registration
                                                                                                                                           Statement,” 8/18/2010, www.sec.gov/Archives/edgar/data/
Total                                                                $1.0                  $41.8                  $42.8                    1467858/000119312510192195/ds1/htm, accessed 9/1/2010,
                                                                                                                                           pp. 220–221.

Notes: Numbers may not total due to rounding.
a
  The dollar value of Treasury’s equity investment represents the difference between all loans given to GM pre- and post-
bankruptcy minus all subsequent repayments. Including the outstanding $986 million in debt left at Old GM, Treasury’s
common equity in New GM represents $40.7 billion left to be recovered by taxpayers. This amount does not include the
$2.1 billion in preferred equity in New GM held by Treasury.

Source: Treasury, Transactions Report, 10/4/2010.
146             special inspector general I troubled asset relief program




                                                       Debt Repayments
                                                       New GM retired the $6.7 billion loan provided through AIFP with interest. In
                                                       addition to a $35 million payment on January 21, 2010, New GM paid $1 billion
                                                       on both December 18, 2009, and March 31, 2010. The company then paid the
                                                       remaining $4.7 billion on April 20, 2010.509 New GM also fully repaid a $360.6
                                                       million loan made through AWCP on July 10, 2009, upon GM’s exit from bank-
                                                       ruptcy. New GM made all of these payments using the previously mentioned $16.4
                                                       billion escrow account that had been originally funded with TARP funds provided
                                                       to GM during its bankruptcy. What remained in escrow was released to New
                                                       GM without restrictions following the final debt payment of $4.7 billion in April
                                                       2010.510 A separate $986 million loan was left behind with Old GM for wind-down
                                                       costs associated with its liquidation.

                                                       Recent Developments
                                                       On July 22, 2010, New GM announced its plan to acquire AmeriCredit Corp.
      Captive Financing Company: Subsid-               (“AmeriCredit”), an independent auto-financing company.511 The $3.5 billion deal
      iary, the purpose of which is to provide         reestablished a captive financing arm for New GM, which can provide in-house
      financing to customers buying the                financing for new GM vehicle purchases.512 The move enables GM to offer more
      parent company’s product.                        leasing and financing alternatives to customers with below-average credit histo-
                                                       ries.513 For example, New GM will be able to provide financing to borrowers who
      Initial Public Offering (“IPO”): First public
                                                       would not otherwise qualify for financing from an independent lender in an at-
      sale of a private company’s stock. In
                                                       tempt to increase its auto sales. New GM expects the acquisition will complement
      an IPO, the issuer uses an underwriting
                                                       its existing relationship with Ally Financial, which primarily caters to customers
      firm, which helps it determine which
      type of security to issue (common or
                                                       with better credit, and provide a more complete range of financing options to a
      preferred), the best offering price, and         wider customer base.514 The acquisition is intended to enable New GM to under-
      the best time to bring it to market.             take new marketing initiatives in an effort to boost sales as it prepares for an initial
                                                       public offering (“IPO”), anticipated later this year.515 The acquisition of AmeriCredit
                                                       was officially completed on October 1, 2010, at which time AmeriCredit was re-
                                                       named General Motors Financial Company, Inc.516
                                                           On September 1, 2010, New GM’s chief executive officer (“CEO”) and board
                                                       chairman Edward E. Whitacre Jr. stepped down as CEO. New GM has indicated
                                                       that he will relinquish his board chairmanship by the end of the year.517 New GM
                                                       board member Daniel Akerson, Whitacre’s successor as CEO, will then become
                                                       board chairman.518 Akerson is GM’s fourth CEO in the past 18 months.

                                                       New GM Files S-1 Registration Statement in Preparation for IPO
                                                       On August 18, 2010, and September 23, 2010, New GM filed a registration and
                                                       amended registration statement, respectively, for an IPO with the Securities and
                                                       Exchange Commission (“SEC”).519 The documents include a prospectus relating
                                                                              quarterly report to congress I OCTOBER 26, 2010   147




to the issuance of New GM’s common stock and offering of Series B preferred
stock.520 The prospectus also outlines certain aspects of GM’s global business op-
erations and risks facing the company.521
    New GM stated that the IPO would consist of “common stock to be sold by cer-
tain of its stockholders and the issuance by the company of its Series B mandatorily
convertible junior preferred stock.”522 As of the drafting of this report, the number
of shares to be offered and the offering’s price range had not been set and are sub-
ject to market conditions. New GM has not announced which of its shareholders
will participate in the IPO.523 Treasury agreed to be named as a seller but retained
the right to decide whether to sell any of its 60.8% ownership of New GM’s com-
mon stock and in what amounts.524 The IPO will not include Treasury’s $2.1 billion
Series A preferred shares.525
    In order for Treasury to recoup its common stock investment in New GM and
the $986 million retained by Old GM, a review by SIGTARP for Senator Charles
Grassley determined that New GM would need to receive an average of $133.78
per share, before giving effect to any stock split that may occur. This figure does not
include the underwriting, legal, and other costs that Treasury will incur in con-
nection with the IPO, nor does it account for any interest or dividend payments
received from New GM or the costs incurred by Treasury to borrow the funds it
provided to the GM entities.

Chrysler
Through October 3, 2010, Treasury had provided Chrysler with approximately
$12.5 billion directly through AIFP in three different stages to three different
corporate entities: $4 billion before bankruptcy to CGI Holding LLC, the parent
company of Old Chrysler, the bankrupt entity; $1.9 billion in DIP financing to
Old Chrysler during bankruptcy; and $6.6 billion to Chrysler Group LLC (“New
Chrysler”), the company formed post-bankruptcy that purchased most of Old
Chrysler’s assets through a working capital facility.526 As of September 30, 2010,
New Chrysler had only drawn down approximately $4.6 billion of the $6.6 billion
post-bankruptcy working capital facility it received from Treasury.527
   On April 30, 2010, following the bankruptcy court’s approval of the liquidation
plan for Old Chrysler, the $1.9 billion DIP loan was extinguished without repay-
ment. In return, Treasury retained the right to recover proceeds from the sale of
assets that were collateral for the DIP loan from a liquidation trust that received all
of Old Chrysler’s remaining assets.528 As of October 3, 2010, Treasury had recov-
ered approximately $40.2 million from asset sales.529 Of the $4 billion lent to Old
Chrysler’s parent company, CGI Holding LLC, before bankruptcy, $500 million of
the debt was assumed by New Chrysler while the remaining $3.5 billion was held
148            special inspector general I troubled asset relief program




                                                      Table 2.37

                                                      Treasury holdings in the Chrysler entities AS OF 9/30/2010                                                           ($ BILLIONS)

                                                                                        Initial                                                               Treasury Investments
                                                                                        Investment                                                                 Outstanding and
                                                      Original Treasury                 Amount               Subsequent                                             Unpaid in New
                                                      Commitment                                             Transactions                                                 Chryslera
                                                                                                 $4.0        $0.5 transferred to New Chrysler                                          $0.5
                                                      Pre-Bankruptcy Loan to
                                                      CGI Holding LLC                                        1.9 repaid to Treasury                                                      0.0
                                                                                                             1.6 Unpaidb                                                                 1.6

                                                      DIP Financing to                             1.9       0.04 repaid to Treasury                                                     0.0
                                                      Old Chrysler                                           1.86 Unpaidb                                                              1.86
                                                      Loan to New Chrysler                        4.6c       None                                                                        4.6
                                                      Total                                                                                                                            $8.5

                                                      Notes: Numbers may not total due to rounding.
                                                      a
                                                        This column represents the total dollar value of funding provided to Chrysler that would be required to be paid back or recovered in
                                                        order for Treasury to break even on its investments in the company.
                                                      b
                                                        Treasury received a 9.9% common equity stake in New Chrysler upon execution of the $6.6 billion post-bankruptcy loan agreement in
                                                        consideration for loans it had extended to Chrysler.
                                                      c
                                                        As of September 30, 2010, Chrysler had an additional $2.07 billion that it could still draw down on this loan.

                                                      Sources: Treasury, Transactions Report, 9/30/2010; Treasury, response to SIGTARP data call, 10/14/2010.




                                                      by CGI Holding LLC.530 On May 14, 2010, CGI Holding LLC repaid $1.9 bil-
                                                      lion of the $3.5 billion loan in full satisfaction of its outstanding obligations under
                                                      AIFP.531
                                                          In consideration for its assistance to Chrysler, Treasury received 9.9% of the
                                                      common equity in New Chrysler. Additionally, Treasury holds $7.1 billion in loans,
                                                      composed of the $6.6 billion of post-bankruptcy financing (including approximately
                                                      $2.1 billion in undrawn obligations) and the $500 million in debt assumed by New
                                                      Chrysler from the original $4 billion loan to CGI Holding LLC.532 Table 2.37 por-
                                                      trays the status of Treasury’s original investments in the Chrysler entities.
                                                          On July 10, 2009, as part of the AWCP wind-down, CGI Holding LLC re-
                                                      paid the approximately $280.1 million it had received through AWCP upon New
                                                      Chrysler’s exit from bankruptcy.533
                                                          On April 7, 2010, as part of the scheduled termination of ASSP, New Chrysler
                                                      repaid the full $123.1 million in principal and $50.3 million in additional fees and
      VEBA: Tax-free, post-retirement medical         interest.
      expense account used by retirees and                In addition to the 9.9% common equity stake held by Treasury, the remain-
      their eligible dependents to pay for any        ing ownership in New Chrysler is split between the United Auto Workers’ Retiree
      eligible medical expenses.                      Medical Benefits Trust’s (the “VEBA Trust”) 67.7%, Fiat’s 20%, and the Canadian
                                                                               quarterly report to congress I OCTOBER 26, 2010                                149




Government’s 2.5% holdings in New Chrysler’s common equity.534 Figure 2.16                   Figure 2.16
represents the breakdown of ownership in New Chrysler’s common equity as of                  OWNERSHIP IN NEW CHRYSLER
September 30, 2010. The ownership percentages shown in Figure 2.17 would                     Government of Canada 2%
change if Fiat meets certain performance metrics.535                                         United States
                                                                                             Department of the
                                                                                             Treasury
Automotive Financing Companies                                                                                     10%
Ally Financial/GMAC                                                                                                                              United Auto
                                                                                                                                                 Workers’
On December 29, 2008, Treasury purchased $5 billion in senior preferred equity                      Fiat   20%                                   Retiree
                                                                                                                                      68%
from GMAC and received an additional $250 million in preferred shares through                                                                    Medical
                                                                                                                                                 Benefits
warrants that Treasury exercised immediately at a cost of $2,500.536 On the same                                                                 Trust (the
                                                                                                                                                 “VEBA Trust”)
day, Treasury also agreed to lend up to $1 billion to Old GM in order to increase
Old GM’s ownership interest in GMAC. In January 2009 Old GM borrowed
                                                                                             Notes: Numbers may not total due to rounding. Ownership
$884 million, which it invested in GMAC.537 In May 2009 Treasury exchanged that              percentages are shown prior to the meeting of performance
                                                                                             metrics that would allow Fiat to increase its ownership in New
$884 million note for 35.4% common equity ownership in GMAC, thereby giving                  Chrysler.
Treasury the right to appoint two directors to GMAC’s board.538                              Source: Treasury, Section 105(a) Report, 9/10/2010.
    On May 21, 2009, Treasury made an additional investment in GMAC when it
purchased $7.5 billion of mandatorily convertible preferred shares (“MCP”) and
received warrants that Treasury immediately exercised for an additional $375 mil-
                                                                                             Figure 2.17
lion in MCP at an additional cost of approximately $75,000.539 On December 30,
                                                                                             OWNERSHIP IN ALLY FINANCIAL/GMAC
2009, Treasury invested another $3.8 billion in GMAC, consisting of approximately
                                                                                                                    New GM
$2.5 billion in trust preferred securities (“TRUPS”) and approximately $1.3 billion
                                                                                                    GM Trust
in MCP. Treasury also received warrants, which were immediately exercised, to                                           7%
                                                                                                                10%
purchase an additional $127 million in TRUPS and $62.5 million in MCP at an
                                                                                            Third-Party
additional cost of approximately $1,270 and $12,500, respectively.540 Additionally,          Investors     12%                                   United States
                                                                                                                                       56%       Department
Treasury converted $3 billion of its MCP into GMAC common stock, increasing                                                                      of the
                                                                                                                                                 Treasury
its common equity ownership from 35.4% to 56.3%. This gave Treasury the right                   Cerberus       15%
to appoint two additional directors to GMAC’s board, potentially bringing the total
number of Treasury-appointed directors to four.541 On May 10, 2010, GMAC
changed its name to Ally Financial Inc.542 As of September 30, 2010, Treasury                Note: Numbers may not total due to rounding.

has appointed three directors, but has not exercised its right to appoint the fourth         Source: Ally Financial, “Form 10-K,” 3/1/2010,
                                                                                             www.ally.com/about/investor/sec-filings/?form=10-K, accessed
director. It expects to do so as soon as possible.543 In addition to Treasury, the other     9/29/2010.
parties holding more than 5% of Ally Financial’s common shares are the private
equity firm Cerberus Capital Management, L.P. (“Cerberus”) with 14.9%, third-
party investors collectively holding 12.2%, an independently managed trust owned
by New GM holding 9.9%, and New GM, which directly owns a 6.7% stake.544
Figure 2.17 shows the breakdown of ownership in Ally Financial as of September
30, 2010.
    As of October 3, 2010, Treasury had invested a total of approximately
$17.2 billion in GMAC for 56.3% of Ally Financial’s common stock, $2.54 billion
150             special inspector general I troubled asset relief program




      Table 2.38
      Treasury holdings in
      Ally Financial (formerly GMAC)                                  in TRUPS, and $10.8 billion in MCP securities.545 In return for its investment,
      AS OF 9/30/2010 ($ BILLIONS)                                    Treasury was also granted warrants, which it executed immediately at a cost of
                                                             Total    $91,285, to purchase securities with a face value of approximately $815 million:
  Mandatorily Convertible                                             $250 million in preferred shares (which were later converted to MCP), $438 mil-
                                                           $11.4
  Preferred Shares (MCP)a                                             lion in additional MCP, and $127 million in TRUPS. This brings Treasury’s total
  Trust Preferred Securities                                          holdings in Ally Financial securities to a face value of approximately $18.0 billion,
                                                               2.7
  (TRUPS)b
                                                                      for which it expended approximately $17.2 billion in TARP funds.546 Table 2.38
  Common Equity                                               3.9c
                                                                      summarizes Treasury’s Ally Financial holdings.
  Totald                                                   $18.0
  Notes: Numbers may not total due to rounding.
  a
    This figure includes three separate tranches of MCP acquired
                                                                      Recent Developments
     via the exercise of warrants: $250 million in warrants that
     were exercised to acquire preferred shares that were later
                                                                      In press releases issued on September 20 and 24, 2010, Ally Financial responded
     converted to MCP on 12/30/2009, $375 million in MCP
     warrants exercised on 5/21/2009, and $63 million in MCP
                                                                      to published reports that it had instituted a moratorium on all pending residential
  b
     warrants exercised on 12/30/2009.
    This figure includes $127 million in warrants exercised on
                                                                      foreclosure proceedings in 23 states.547 According to Ally Financial, it was acting
  c
    12/30/2009.
    The dollar value of Treasury’s 56.3% stake in Ally Financial’s
                                                                      in response to concerns that its employees were executing affidavits in connection
    common equity represents the conversion of the GM rights
    loan of $884 million in 5/2009 and $3 billion of MCP in
                                                                      with foreclosure proceedings without having personal knowledge of, or verifying
  d
    12/2009.
    This figure includes $815 million in shares acquired by the ex-
                                                                      the accuracy of, all statements contained in the affidavits. In addition, the affidavits
    ercise of the warrants discussed above. These warrants were
    exercised at an aggregate cost of $91,285 to the taxpayer.
                                                                      were signed, contrary to representations on their face, outside the presence of a
  Sources: For aggregate holdings, see Treasury, Section 105(a)
                                                                      notary public. Ally Financial also stated that it would review completed foreclosures
  Report, 5/2010; for warrant costs, see Ally Financial, Form 10-
  K, 2/27/2009, http://google.brand.edgar-online.com/EFX_dll/
                                                                      in which the same procedures may have been used but that all new residential fore-
  EDGARpro.dll?FetchFilingHtmlSection1?SectionID=6442618-
  129208-141191&SessionID=SNHoHeDu1Wnqz77, accessed
                                                                      closure proceedings would continue according to usual business practices. Finally,
  9/29/2010; and Ally Financial, Form 8-K, 1/5/2010, http://biz.
  yahoo.com/e/100105/gjm8-k.html, accessed 9/29/2010.
                                                                      Ally Financial stated that the company had issued a directive to certain vendors
                                                                      to suspend evictions and Real Estate Owned (“REO”) closings in cases where the
                                                                      related foreclosure could have been affected by the same procedures.548

      Real Estate Owned (“REO”): Homes that                           Chrysler Financial
      have been foreclosed on by mortgage                             In January 2009, Treasury loaned Chrysler Financial $1.5 billion under AIFP to
      lenders and are then owned by the fi-                           support Chrysler Financial’s retail lending. On July 14, 2009, Chrysler Financial
      nancial institutions, usually a bank, that                      fully repaid the loan with interest.549
      held the mortgage. The bank then goes
      through the process of trying to sell the
      property on its own.
                                                                             quarterly report to congress I OCTOBER 26, 2010   151




Auto Supplier Support Program (“ASSP”)
On March 19, 2009, Treasury announced a commitment of $5.0 billion to ASSP to
“help stabilize the automotive supply base and restore credit flows in a critical sec-
tor of the American economy.”550 Because of concerns about the auto manufactur-
ers’ ability to pay their invoices, suppliers had not been able to borrow from banks
by using their receivables as collateral. ASSP enabled automotive parts suppliers to
access Government-backed protection for money owed to them for the products
they shipped to manufacturers.
    The total commitment of $5.0 billion was reduced to $3.5 billion on July 8,
2009 — $2.5 billion for GM and $1.0 billion for Chrysler.551 Of the $3.5 billion
reduced commitment to GM and Chrysler, approximately $413.1 million was actu-
ally expended. Because the actual expenditure was lower than initially anticipated,
Treasury reduced its obligation under ASSP to $413.1 million. Treasury received
a total of $413.1 million in ASSP loan repayments — $290.0 million from GM
and approximately $123.1 million from Chrysler.552 Additionally, Treasury received
$115.9 million in fees and interest payments — $65.6 million from GM and
$50.3 million from Chrysler.553 ASSP was terminated on April 5, 2010, for GM and
April 7, 2010, for Chrysler.554 All loans made under this program have been repaid
with interest.

Auto Warranty Commitment Program (“AWCP”)
AWCP was designed to bolster consumer confidence by guaranteeing Chrysler and
GM vehicle warranties during the companies’ restructuring in bankruptcy. Treasury
funded $640.7 million toward this program — $360.6 million for GM and
$280.1 million for Chrysler.555 On July 10, 2009, the companies fully repaid
Treasury upon their exit from bankruptcy.556
152            special inspector general I troubled asset relief program




                                                      Executive Compensation
                                                      TARP recipients are subject to executive compensation restrictions. The origi-
                                                      nal executive compensation rules set forth in Section 111 of the Emergency
                                                      Economic Stabilization Act of 2008 (“EESA”) were amended in February 2009 in
                                                      the American Recovery and Reinvestment Act of 2009 (“ARRA”) and interpreted
                                                      and implemented by Treasury regulations and notices.557 On June 10, 2009,
                                                      Treasury released its Interim Final Rule on TARP Standards for Compensation and
                                                      Corporate Governance (the “Rule”), which “implement[s] the ARRA provisions,
                                                      consolidates all of the executive-compensation-related provisions that are specifi-
                                                      cally directed at TARP recipients into a single rule (superseding all prior rules and
                                                      guidance), and utilizes the discretion granted to the [Treasury] Secretary under the
                                                      ARRA to adopt additional standards, some of which are adapted from principles set
                                                      forth” in guidance provided by Treasury in February 2009.558
                                                          The Rule applies to institutions meeting its definition of a TARP recipient as
                                                      well as any entity that owns at least 50% of any TARP recipient. As long as a TARP
                                                      recipient has an outstanding “obligation” to Treasury (as defined by ARRA, this
                                                      does not include warrants to purchase common stock), it must abide by the Rule.559
      Exceptional Assistance Recipients:              The Rule also specifically subjects exceptional assistance recipients to enhanced
      Companies receiving assistance under            restrictions designed to “maximize long-term shareholder value and protect tax-
      SSFI, TIP, and AIFP. Current recipients         payer interests.”560
      are AIG, Chrysler, GM, and Ally Finan-              Some program participants are exempt from the Rule:
      cial (formerly GMAC).106

                                                      •	 TALF recipients, because they did not directly receive TARP assistance (instead,
      For more information on the Rule and               TARP funds are available to purchase collateral surrendered to TALF)561
      a summary of the timeline on TARP               •	 PPIFs, because they have no employees. In addition, PPIF investors and asset
      executive compensation restrictions, see           managers are exempt because the program’s terms prohibit any single private
      SIGTARP’s July 2009 Quarterly Report,
                                                         entity from owning more than 9.9% of any such fund and, therefore, fall below
      page 118.
                                                         the 50% ownership threshold562
      For more information on executive               •	 Making Home Affordable (“MHA”) program participants, because they are
      compensation issues and findings, refer            statutorily exempt
      to SIGTARP audits: “Despite Evolving
      Rules on Executive Compensation,                Special Master
      SIGTARP Survey Provides Insights
                                                      Treasury created the Office of the Special Master for TARP Executive
      on Compliance,” issued August 19,
                                                      Compensation on June 15, 2009, and appointed Kenneth R. Feinberg (the
      2009, and “Extent of Federal Agencies’
      Oversight of AIG Compensation Varied,           “Special Master”) to the position. The Special Master’s responsibilities include the
      and Important Challenges Remain,”               following:563
      issued October 14, 2009.
                                                                               quarterly report to congress I OCTOBER 26, 2010               153




•	 Top 25 Reviews — review and approve compensation structures and payments
   for the five senior executive officers (“SEOs”) and the next 20 most highly paid             Senior Executive Officer (“SEO”):
   employees at institutions that received exceptional financial assistance                     “Named executive officer” of a TARP re-
•	 Top 26 through 100 Reviews — review and approve compensation structures                      cipient as defined under Federal securi-
   for the next 75 highest-paid employees at institutions that received exceptional             ties law, which generally includes the
   financial assistance (employees who are not in the top 25 but are executive of-              principal executive officer, the principal
   ficers or among the top 100 most highly compensated employees fall into this                 financial officer, and the next three
   category)                                                                                    most highly compensated officers.
•	 Prior Payment Reviews — review bonuses, retention awards, and other com-
   pensation paid to SEOs and the 20 next most highly compensated employees of                  Public Interest Standard: Regulatory
   each entity that received TARP assistance from the date the entity first received            standard that the Special Master is
                                                                                                required to apply in making determina-
   TARP assistance until February 17, 2009, and seek to negotiate reimbursements
                                                                                                tions. It refers to the determination of
   where the payment was determined to be inconsistent with the purposes of
                                                                                                whether TARP-recipient compensation
   EESA or TARP, or otherwise contrary to the public interest
                                                                                                plans are aligned with the best inter-
•	 Interpretation — provide advisory opinions with respect to the Rule’s application            ests of the U.S. taxpayer, based on
   and whether compensation payments and structures were consistent with the                    a balancing of specific principles set
   purposes of EESA or TARP, or otherwise contrary to the public interest                       forth in the Rule.

On September 10, 2010, Mr. Feinberg released a final report summarizing his
tenure as Special Master and stepped down.564 Ms. Patricia Geoghegan succeeded
him as Acting Special Master.565
                                                                                                 For the specific principles used in
                                                                                                 reviewing compensation plans, see
Exceptional Assistance Recipients                                                                SIGTARP’s July 2009 Quarterly
As of September 30, 2010, only AIG, Chrysler, GM, and Ally Financial (formerly                   Report, pages 122-123.
GMAC) were still considered exceptional assistance recipients. Citigroup and Bank
of America had been considered exceptional assistance recipients because each
participated in TIP, but no longer fall under this designation because of repay-
ments each made in December 2009.566 Although Citigroup no longer falls into
this category, restrictions applicable to non-exceptional assistance recipients apply
to Citigroup as long as Treasury holds Citigroup common stock. Chrysler Financial
was released from all of its obligations under the Rule after it repaid its $1.5 billion
loan under AIFP and its parent company, CGI Holding LLC, repaid $1.9 billion of
its original $4 billion TARP loan under AIFP to Treasury on May 14, 2010, in full
satisfaction of its outstanding obligations to Treasury.

Special Master “Look Back” Review
Pursuant to the provisions of ARRA, the Special Master was required to examine
payments made to executives of firms that received TARP funding from the date
each firm received TARP assistance until February 17, 2009.567 The Special Master
was required to determine whether these payments were inconsistent with the pur-
poses of EESA or TARP, or otherwise contrary to the public interest. Such a finding
154   special inspector general I troubled asset relief program




                                             required the Special Master to seek to negotiate reimbursement from the firm and/
                                             or the employee.568 However, although ARRA authorized the Special Master to
                                             review and obtain compensation information, it provided him no statutory authority
                                             to compel reimbursement.569
                                                 On March 23, 2010, the Special Master issued a letter to each of the 419 firms
                                             that had received funding prior to February 17, 2009, requesting information on
                                             compensation paid to their SEOs and the next 20 most highly paid executives (“Top
                                             25”).570 In an effort to ease the administrative burden on small banks, the Special
                                             Master limited the scope of his request, requiring the banks to provide detailed
                                             compensation data only for those executives who earned more than $500,000 a
                                             year.571 The Special Master analyzed the banks’ responses and released his findings
                                             on July 23, 2010, which are summarized below:572

                                             •	 All 419 firms responded to the Special Master’s request for information.
                                             •	 The Special Master tailored his review to the 179 firms that paid one or more of
                                                their Top 25 more than $500,000 per year.
                                             •	 Those 179 firms submitted detailed data on compensation totaling $2.3 billion
                                                in payments to executives.573
                                             •	 The Special Master then analyzed the $2.3 billion in executive payments made
                                                by those firms.
                                             •	 Of that total, $1.7 billion, or 74% of payments, although permitted at the time,
                                                were identified as payments later restricted by ARRA and Treasury regulations.
                                             •	 Of the $1.7 billion in such identified payments, $1.6 billion were made by 17
                                                firms.
                                             •	 Of the $1.7 billion in such identified payments, more than 90% were made by
                                                firms that have either repaid TARP or were already taken into consideration
                                                in earlier Special Master determinations regarding exceptional assistance
                                                recipients.
                                             •	 The Special Master found no payments to be “inconsistent with the purposes of
                                                EESA or TARP, or otherwise contrary to the public interest.”

                                             Finally, the Special Master proposed that companies should take steps to ensure
                                             that they have the authority to alter pending payments to executives in the event
                                             of a future financial crisis. Under the Special Master’s proposal, in extraordinary,
                                             adverse circumstances that threaten a company’s viability, a company would have
                                             the authority to restructure, reduce, or cancel pending payments to its execu-
                                             tives regardless of their rights to payment under normal circumstances. Although
                                             it was introduced by the Special Master as “a matter of good public policy that
                                             should be considered by TARP recipients and other firms,” his proposal is entirely
                                             voluntary.574
                       quarterly report to congress I OCTOBER 26, 2010   155




Se ction 3
             THE ECONOMICS OF LOAN
             SERVICING
156   special inspector general I troubled asset relief program
                                                                             quarterly report to congress I OCTOBER 26, 2010            157




Introduction
This section provides an overview of mortgage loan servicers and their busi-
ness in the context of TARP — specifically participation in the Home Affordable
Modification Program (“HAMP”). When a homeowner calls to discuss a distressed
home loan, the loan servicer is the voice on the other end of the line. Servicers
act as intermediaries between mortgage borrowers and the investors that fund the
loans. They collect and distribute monthly payments and often advance funds to
investors with the expectation they will be repaid any principal and interest they
advance.
    The recent financial crisis has put more emphasis on servicers’ handling of
defaults, modifications, short sales, and foreclosures, in addition to their more
traditional duty of collecting and distributing monthly mortgage payments. To that
end, this section describes how servicers operate and discusses the role of servicers,
their efforts to conduct a profitable business, and the effect of HAMP on their roles
and responsibilities. It examines the factors that influence their decisions when
weighing potential resolutions for borrowers who have distressed loans. To illustrate
those factors and their effects on HAMP’s administration and results, this section
includes several scenarios involving “Dick and Jane,” a hypothetical couple working
with their servicer to obtain a mortgage modification, and examples of homeowners
who have called SIGTARP’s Hotline to provide additional examples of homeowners’
interactions with servicers through HAMP.



Loan Servicers’ Function
Fundamentally, loan servicers play an administrative role when it comes to mort-
gage loans. They are generally not involved in the origination or the marketing,
pricing, and documentation of new mortgage loans. Instead, they handle back-
office functions for existing loans after the origination and closing stages. These
functions generally include the following administrative tasks:575

•	 billing, tracking, and collecting monthly payments
•	 allocating and distributing payment collections in accordance with each mort-
   gage loan’s governing documentation. Mortgage payment collections normally
   include several components paid to different parties:
   0	 property taxes and homeowners’ insurance, which servicers usually collect
       from borrowers and pay to local governments and insurance companies on
                                                                                              Trustee: Individual or corporate entity
       their behalf                                                                           that holds or manages assets for the
   0	 payments of principal and interest on the mortgage loan, which servicers pay            benefit of another.
       to lenders, investors or their designated trustees
158            special inspector general I troubled asset relief program




                                                         0	 in some cases, payments to mortgage insurers, which provide protection to
                                                            mortgage lenders against the borrower’s default
                                                         0	 in some cases, fees due to the servicers themselves
                                                      •	 operating phone centers to communicate with borrowers
                                                      •	 maintaining accounting records of payments and balances

                                                          As the housing market became distressed, with more and more borrowers strug-
                                                      gling to make their monthly payments, loan servicers’ workloads began to shift from
                                                      primarily simple administration to much more active participation. That participa-
                                                      tion includes making several key decisions about what to do when a homeowner
                                                      begins missing payments. Servicers are not only the central point of contact
                                                      between all parties but are also often empowered to make decisions that will deter-
                                                      mine the borrower’s ability to retain his or her home, the extent of potential losses
                                                      to investors, and the ultimate profit for the servicer.576 If a borrower’s mortgage
                                                      payments grow increasingly delinquent, a servicer is usually required to escalate its
                                                      response.577
                                                          Escalated Servicing. Once a borrower misses his or her first payment, the first
                                                      steps taken by the servicer include mailing formal notices to the borrower, usually
                                                      at increments of 30 days, with escalating levels of seriousness and consequences
                                                      (potential fees, notices to courts, etc.). Phone calls, attempts to update information
                                                      and offers of alternative payment plans may also occur during this period.578
                                                          Modifications. Typically when a loan is 60–90 days overdue, the servicer may
                                                      attempt to begin discussions about loan modifications. Modifications are based on
                                                      the borrower’s ability, incentive, and willingness to pay and the servicer’s and inves-
                                                      tor’s ability, incentive, and willingness to accept less favorable terms on the mort-
                                                      gage. These criteria can be affected by an income shock to the borrower such as a
                                                      job loss or loss of income as well as by declining property values.579 Modifications
                                                      can be a positive development for the servicer, investor, and borrower if they return
                                                      a defaulted loan to performing status.
                                                          Historically, in those cases when servicers performed loan modifications, they
      Unpaid Principal Balance (“UPB”):
                                                      tended to focus on returning to a current status the loan of a borrower who experi-
      Amount owed on a loan at any given
                                                      enced a short-term income shock or temporary loss of employment. This was usu-
      time.
                                                      ally done by adding missed payments to the unpaid principal balance (“UPB”) of
      Capitalization: Method of modifying a           the loan, which is referred to as capitalizing the missed payments.580 In such cases,
      mortgage by which missed payments               the modified principal balance, and often the monthly payment owed by the bor-
      and other costs are added to the prin-          rower, actually increased. Late fees and other management fees for distressed loans
      cipal balance of the loan and therefore         might also have been added to the balance as well, all of which would decrease
      financed or spread out over the remain-         the amount of equity held by the borrower in the home and increase the interest-
      ing term of the loan.                           bearing UPB.581
                                                          A servicer can also take steps to reduce the monthly payment due from a strug-
                                                      gling borrower. The common methods for addressing distressed loans are:582
                                                                                quarterly report to congress I OCTOBER 26, 2010             159




•	   installment plan for delinquent amount                                                      For a more detailed description of
•	   capitalization of missed payments and fees                                                  foreclosure alternatives, see SIGTARP’s
•	   term extension                                                                              April 2010 Quarterly Report, pages 64-
                                                                                                 73. For HAMP-related foreclosure alter-
•	   interest rate reduction
                                                                                                 natives, see Section 2: “TARP Overview”
•	   principal forbearance
                                                                                                 of this report.
•	   principal forgiveness

    It has recently been reported that since the introduction of HAMP, mortgage
modifications, both within and outside of HAMP, are now generally characterized
by a reduction in the borrower’s monthly payment.583
    Repossession or Foreclosure. If a borrower does not bring the loan current or
is not offered a loan modification, the servicer may begin actions to effect a transfer
of ownership of the property from the borrower to the lender. These actions may                 Short Sale: Sale of a home for less
take the form of voluntary transfers, such as short sales or cash for keys/deed-in-             than the mortgage value. A borrower
lieu, in which the lender repossesses or sells the house in full or partial satisfaction        sells the home and the lender collects
of the debt.584 These voluntary transfers are alternatives to what may be costly and            the proceeds as full or partial satisfac-
                                                                                                tion of the unpaid mortgage balance,
lengthy legal proceedings.585 The servicer may undertake legal action through fore-
                                                                                                thus avoiding foreclosure.
closure proceedings to repossess the house and evict the borrower if necessary.586
    Each state has its own laws on how the lender must go about foreclosure. There
                                                                                                Deed-in-Lieu (“DIL”): Instead of going
are two general approaches: judicial and non-judicial.587 In judicial foreclosure
                                                                                                through the process of foreclosure,
states, foreclosures must proceed through the courts. The loan servicer may charge              the borrower voluntarily surrenders the
and collect late fees and ancillary fees under the direction of the court; those fees           property deed to the lender, often as
take priority over other obligations associated with the loan.588                               satisfaction of the unpaid mortgage
    In non-judicial foreclosure states, the process operates, at least initially, outside       balance. This is sometimes called
the judicial system: the lender can take title to the property and sell it after cer-           “cash for keys,” which refers to incen-
tain time periods have elapsed and certain actions have been taken. Non-judicial                tives paid to a borrower to vacate a
foreclosures are considered faster and less expensive. The property can be sold at              property.
auction without seeking the permission of the court. The lender is paid out of the
net proceeds of the auction, and the property is transferred by deed to the buyer.589           Deficiency Judgment: Court order
                                                                                                authorizing a lender to collect part of
In such states, borrowers ordinarily must initiate court proceedings in order to at-
                                                                                                an outstanding debt resulting from the
tempt to halt the foreclosure process.590
                                                                                                foreclosure and sale of a homeowner’s
    Typically, foreclosures require substantial time to complete. According to
                                                                                                property or from the repossession of
Lender Processing Services, the average foreclosure took 478 days as of August
                                                                                                a property securing a debt. A defi-
2010,591 and with the recent suspensions in foreclosures by several of the larger               ciency judgment is rendered after the
servicers, this time period may be getting even longer. The process can also be                 foreclosed or repossessed property is
costly to the lender and the servicer: each month of delay costs a month of lost                sold and the proceeds are insufficient
mortgage payments plus the potential deterioration of the home.                                 to repay the full mortgage.
    In certain states, referred to as recourse states, the lender may receive from
the courts a deficiency judgment against a delinquent borrower. That judgment
160            special inspector general I troubled asset relief program




                                                      requires the borrower to pay any shortfall to the investor that results when the fore-
      Private-Label Mortgages: In the
                                                      closure sale proceeds fall short of the outstanding loan amount.592 For example, if
      housing-finance business, mortgages
      created and sold by a company other             the servicer of a $300,000 mortgage forecloses on the associated house and resells
      than a Government-sponsored enter-              it for only $250,000, the servicer may also subsequently seek a $50,000 deficiency
      prise. Private institutions, such as bro-       judgment against the borrower.
      kerage firms, banks, and homebuild-
      ers, also securitize mortgages, known           Business Model
      as “private-label” mortgage securities.         Loan servicing is a specialized function in the mortgage loan industry. What
                                                      distinguishes servicers are their clients. Clients can range from a parent bank
      Securitization: Process by which lend-          with a major mortgage origination operation, such as a large bank offering private-
      ers bundle pools of mortgages and sell          label mortgages, to the Government-sponsored enterprises (“GSEs”) (Federal
      them as securities. These pools are a
                                                      National Mortgage Association [“Fannie Mae”] or Federal Home Loan Mortgage
      major part of servicing portfolios. In
                                                      Corporation [“Freddie Mac”]), to a trustee that oversees pools of mortgages that
      fact, 85.6% of the mortgages origi-
                                                      have been bundled and sold as securities. This process of bundling and selling
      nated in 2009 were securitized into
                                                      pools of mortgages is known as securitization.593
      mortgage-backed securities. As of De-
      cember 2009, outstanding mortgage-                   Loan servicers are private-sector, for-profit enterprises and accordingly must
      related security holdings amounted to           manage income and expenses in order to generate adequate returns for their own-
      $6.97 trillion.345                              ers.594 Servicers have clear incentives to maximize, to the extent possible, both fee
                                                      revenue for themselves and principal and interest repayments to the mortgage
                                                      investors that are their clients.595
                                                           Servicers also have meaningful incentives to minimize clients’ losses in order
                                                      to retain and attract business from investors who own mortgage loans. If servicers
                                                      fail to meet the minimum standards of portfolio administration and management
                                                      detailed in their servicing agreements, their clients may have the right to cancel the
                                                      agreements.596 A standardized index of loan servicers published by Fitch Ratings, a
                                                      major credit rating agency, tracks servicers’ performance in several respects, includ-
                                                      ing their ability to protect mortgage loan repayments to lenders. A servicer’s rating
                                                      in this index may figure prominently in lenders’ decisions about awarding servicing
      For more information on securitization, see     agreements.597 Moody’s, another rating agency, also rates servicers on their effec-
      SIGTARP’s April 2009 Quarterly Report,          tiveness in preventing default and maximizing recoveries, as well as the speed at
      page 92.                                        which they execute foreclosures.598

                                                      Revenue
                                                      Loan servicers generate revenue from business operations, such as the following:

                                                      •	 Base Servicing Fee. The primary source of income for servicers is a monthly
                                                         servicing fee, stated in the servicing agreement, that is determined as a per-
                                                         centage of the interest-bearing principal balances of an entire portfolio of
                                                         mortgage loans.599 Typical servicing fees range from 0.25% to 0.50% of the
                                                         interest-bearing UPB per annum. They vary with the structure of the mortgage
                                                         and its level of risk.600 A mortgage that has an average interest-bearing UPB of
                                                                                quarterly report to congress I OCTOBER 26, 2010   161




   $250,000 over a year would generate annual fee revenue of $625 to $1,250 for
   the servicer handling the loan. The simplest fixed-rate mortgages tend to incur
   lower fees. More complex products, such as adjustable-rate mortgages, incur
   higher servicing fees because they require more intensive data collection and
   calculations. The servicing fees for prime mortgages, which have a relatively low
   risk of default, tend to be lower than those for subprime mortgages, which have
   a higher risk of default.601
•	 Late Fees/Ancillary Default Fees. Servicers can charge borrowers late fees
   for delinquent payments, typically about 5% of the monthly payment.602 They
   may also charge other ancillary fees associated with managing a defaulted loan
   through the foreclosure process.603 Although servicers operate as independent
   businesses, writing their own contract language and setting their own fee rates,
   they are generally limited by allowable fee rates published in the GSEs’ Seller
   Servicer Guides. Ancillary fees can include notary fees, recordation fees, release
   fees, title costs, property valuation fees, credit report fees, or other allowable and
   documented expenses.604
•	 Interest Earnings. Servicers earn income, or “float,” from interest on the funds
   that they hold or manage.605 They earn interest between the time they collect
   payments at the beginning of the month and the time they turn the payments
   over to the investors or trustee.606 Servicers may also earn interest income from
   investments, including securitized loans.607
•	 HAMP Incentive Fees. These fees, discussed in detail in Section 2 of this
   report, are provided by Treasury to servicers who successfully place borrow-
   ers into HAMP or its subprograms. For example, servicers receive $1,000 in
   TARP funds for each borrower who receives a permanent modification and an
   additional $1,000 per year for three years if the borrower stays current on the
   permanent modification.608

Expenses
Offsetting servicers’ revenues are their operating expenses. The major expenses for
a servicer include the following components:

•	 General Overhead. These expenses are the operating costs incurred to manage
   the business, such as costs for office space, computer and telecommunications
   equipment, marketing, and utilities.
•	 Staffing. Servicers maintain staffing levels to administer performing loans,
   respond to customer inquiries, and resolve customer defaults and other issues.
   The sudden influx of customer inquiries and distressed loans, along with the
   additional demands of HAMP and other Government programs, has rapidly
   expanded servicers’ staffing needs, in terms of both numbers and skill levels.609
   The cost of training and compensating this additional staff has increased
162            special inspector general I troubled asset relief program




                                                          substantially for most servicers.
                                                       •	 Payment Advances. Typically, if a borrower’s payments are not made promptly
                                                          and in full, servicers must advance to the investor the required amount of the
                                                          monthly payment owed by the borrower, although in some circumstances ser-
                                                          vicers are required to advance only the unpaid interest.610 Servicers’ contracts
                                                          may require that they continue to advance payments to investors even for
                                                          seriously delinquent loans, up to an established limit that is based on the esti-
                                                          mated current property value.611 As more loans in a servicer’s portfolio become
                                                          delinquent, these advance payments can strain servicers’ cash supplies or their
                                                          lines of credit. Servicers thus have incentives to pursue aggressive collection
                                                          techniques to “cure” a loan and return it to a performing status or to place the
                                                          property into foreclosure, which may enable them to recover their advances
                                                          more quickly.612 However, the servicers are not ultimately responsible for these
                                                          amounts. If the borrower becomes current or if the property is sold or acquired
                                                          through foreclosure, the servicer is repaid the funds that it has advanced on a
                                                          first-priority basis.613
                                                              Indeed, in a foreclosure, reimbursement to the servicer typically takes place
                                                          before any payments to the lender or investor.614
                                                              Servicers often borrow to fund these advances, and they incur interest
                                                          expenses on that borrowing. They repay themselves for these advances from
                                                          subsequent mortgage payment collections.615

                                                       •	 Management of Real Estate Owned (“REO”) Properties. When a servicer
                                                          repossesses a property on behalf of the lender through foreclosure, it advances
                                                          funds for a number of additional costs specific to that process:616
      Real Estate Owned (“REO”): Homes                    0	 Legal Expenses related to the proceedings required to finalize the
      that have been foreclosed on by mort-                   foreclosure.
      gage lenders and are then owned by                  0	 Property Maintenance in order to maximize the property’s resale price.
      the holders of the mortgage.                            This generally includes inspection, upkeep (e.g., lawn mowing), and repairs,
                                                              depending on the condition of the property.
                                                          0	 Security Measures — physical and legal — to protect the house. Physical
                                                              security includes measures to protect the house against vandals or squat-
                                                              ters, such as changing the locks. Legal security includes measures to pre-
                                                              serve the lenders’ ownership interest, such as deed transfers and continued
                                                              payment of property taxes.
                                                          0 	 Marketing and Resale costs in order to sell the repossessed property.
                                                              These costs could include those for retaining a sales broker, arranging an
                                                              auction, and advertising. The servicer may also pay various closing costs
                                                              upon final sale.

                                                         The servicer is usually reimbursed for these expenses from the sales proceeds
                                                       when the property is ultimately sold.617
                                                                              quarterly report to congress I OCTOBER 26, 2010          163




    Some servicers maintain specialized units to handle foreclosure activities. Their
costs will be heavily affected by backlogs in the courts, state laws to protect borrow-
ers, and any legal countermeasures mounted by borrowers.

Market Factors
The mortgage servicing industry has experienced a major trend in consolidation.
As of year-end 2009, the top five servicers represent 60% of the market. This is up
from the top five servicers’ 27% market share in 1999. Advances in software and
technology have enabled larger servicers to take advantage of economies of scale
and keep their costs low by spreading them across a larger portfolio of loans.618 In
the years leading up to 2007, demand for housing grew steadily as did the busi-
ness of servicing loans designed to meet this demand.619 This increase in new loans
was accompanied by lower underwriting standards and the introduction of more
complex and riskier loans.620 These products attracted less-creditworthy borrowers
yet were popular with servicers because the servicing contracts provided for higher
fees. The general upward trend in home prices masked problems and enabled many
borrowers to refinance and “cash out” equity in their homes when they experienced
trouble making monthly payments, which in turn increased both the loan’s UPB
and the servicers’ fees.621
    Beginning in 2007, however, home prices and the job market both began to
deteriorate sharply.622 A weakening economy led to more distressed borrowers, more
distressed borrowers eventually led to an increase in delinquencies, and as delin-
quencies increased, servicers had to hire additional staff to address the increase
in call volume and loan workout activities. Servicers had to bear the costs associ-
ated with advancing payments on loans headed toward foreclosure and the addi-
tional overhead expenses associated with collection, modification and foreclosure
activities.623



HAMP’s effect on loan servicing
In February 2009, the Administration introduced the Making Home Affordable
(MHA) program, which had the stated purpose of stabilizing the housing market
and helping struggling homeowners get relief and avoid foreclosure.624 In March
2009, the Department of the Treasury (“Treasury”) issued uniform guidance for
loan modifications by participants in MHA across the mortgage industry and
subsequently updated and expanded that guidance in a series of Supplemental
Directives, frequently asked questions, and waivers.
                                                                                               Servicer Participation Agreement
    Servicers of private-label mortgages were encouraged to sign a HAMP Servicer
                                                                                               (“SPA”): Documents governing servicer
Participation Agreement.625 Furthermore, the program was intended to encourage
                                                                                               participation in MHA for all non-GSE
participation through a structure of monetary incentives for borrowers, servicers,             mortgages.
and investors.626
164            special inspector general I troubled asset relief program




                                                           Because servicers are the primary point of contact for borrowers seeking loan
                                                      modifications, they play a central role in HAMP.627 Servicers field borrowers’
                                                      inquiries and evaluate borrowers for HAMP modification.628 Under the program
                                                      guidelines, servicers are required to provide evidence that they have considered bor-
                                                      rowers for HAMP as well as foreclosure alternatives. To date, no financial penal-
                                                      ties have been imposed by Treasury on any servicers participating in the program,
                                                      although according to Treasury it has “imposed non-financial remedies which have
                                                      resulted in servicers reevaluating homeowners’ HAMP eligibility including re-per-
                                                      formance of NPV, soliciting overlooked populations of homeowners, and providing
                                                      clear communication to homeowners that no foreclosure sales would occur until
                                                      homeowners’ eligibility was evaluated.”629
                                                           A number of HAMP decisions are subject to servicers’ discretion:
                                                      •	 First, the servicer is in charge of collecting all the financial information and
                                                          documentation required from the borrower and calculating the borrower’s gross
                                                          monthly income to determine whether the borrower is eligible. It is also respon-
                                                          sible for selecting and entering all data for the net present value (“NPV”) test.630
                                                      •	 If the borrower is current, the servicer may review the borrower’s claimed hard-
                                                          ship and inquire about other debts to determine whether the borrower qualifies
                                                          as an imminent default borrower. Although the imminent default designation is
                                                          recognized under HAMP, the servicer determines whether default is imminent
      Net Present Value (“NPV”) Test: NPV                 using its own standards.631 HAMP does not provide definitive guidance on those
      tests compare the money generated                   standards.632
      by a foreclosure alternative, such as           •	 Although HAMP guidelines stipulate that trial plans last for three months, the
      a loan modification, to the amount                  servicer can effectively keep borrowers in a state of limbo beyond those three
      an investor can reasonably expect to                months while evaluating their eligibility for a permanent modification — regard-
      recover in a foreclosure sale.
                                                          less of whether the borrower pays as required under the terms of the trial period
                                                          plan.633 In fact, as of September 30, 2010, 44% of the more than 173,000 active
      Imminent Default: Refers to borrowers
                                                          trials have lasted six months or more.634 Given the lack of a standard definition
      who are current on their mortgage
                                                          of imminent default and of the documentation required to support a determina-
      payments but are expected not to be
      able to continue to make their monthly              tion of imminent default, a servicer may make repeated requests of a borrower
      payments.                                           under the aegis of establishing hardship (or obtaining current financial informa-
                                                          tion), thereby repeatedly extending the trial period.635
                                                      •	 For those borrowers who seek a loan modification and those who have secured
                                                          a trial modification, Treasury has mandated that servicers consider principal
                                                          reduction. Servicers may choose whether to offer modifications under the
                                                          Principal Reduction Alternative (“PRA”) program, however, solely at their
                                                          discretion.636
      For a more detailed description of
      servicers’ role in HAMP, see Section 2:
                                                         Financial imperatives may lead servicers to seek to structure the modifications
      “TARP Overview” of this report.
                                                      they offer in a way that preserves their servicing payments. When considering
                                                      a workout for a distressed loan, servicers consider the outstanding balance, the
                                                                                            quarterly report to congress I OCTOBER 26, 2010   165




 figure 3.1
PERMANENT HAMP MODIFICATIONS BY INCLUDED MODIFICATION
STEPS THROUGH SEPTEMBER 30, 2010

Interest Rate Reduction                                                            100%



        Term Extension                                         57.1%


  Principal Forbearance                 29.8%

                          0%           20%             40%             60%   80%     100%


Notes: Numbers affected by rounding.

Source: Treasury, response to SIGTARP data call, 10/20/2010.




interest rate, and the number of months to maturity. As indicated in the discussion
of the servicer’s business model, a servicer gets paid from the monthly servicing fee,
which is based on the size of the remaining interest-bearing unpaid balance of the
loan. Reductions in interest rate do not affect the servicer’s monthly fee, because
the principal balance is unchanged. However, the investor will lose revenue if the
interest rate is lower and therefore typically instructs the servicer to act to protect
the investor’s income. A term extension does not affect a servicer’s fee revenue,
because it extends the loan repayment period and reduces the monthly payment.
Principal forbearance and principal forgiveness, however, lower the interest-bearing
principal balance and therefore reduce the servicer’s monthly fee.
    Trial modification characteristics for HAMP, through September 30, 2010, are
shown in Figure 3.1.637



six servicing scenarios
To illustrate the considerations about program performance, business and income
models, and how they affect outcomes for borrowers and servicers, the following
scenarios look at the results that occur for a representative borrower and a ser-
vicer. Consider the hypothetical case of Dick and Jane, subprime borrowers living
in Tampa, Florida. In November 2006, Dick and Jane made a combined annual
income of $75,000, or $6,250 per month. Dick worked as a foreman overseeing
construction projects for a $50,000 annual salary and Jane worked as a pre-school
teacher making $25,000 a year (these incomes are generally consistent with
Bureau of Labor Statistics data for their occupations and location).638 They bought
a three-bedroom house for $210,000 (a figure broadly consistent with Case-Shiller
average home price data for the Tampa area at that time), financing 95% of that or
$199,500.639 Their down payment was 5%, or $10,500. With a FICO score of 620,
they obtained a 30-year, fixed-rate loan at 8.05% APR (the terms of their mortgage
166            special inspector general I troubled asset relief program




                                                      are drawn from the rate sheet provided by a leading mortgage originator at the
                                                      time).640 They paid property taxes of $4,000 per year (an estimate provided by the
                                                      local government).641 Given these terms, at the time of purchase they agreed to pay
                                                      approximately $1,797 per month on the mortgage, or 28.8% of their monthly gross
                                                      income.
                                                          Unfortunately, by 2010, Dick and Jane have seen the value of their home fall
                                                      about 38% to $130,000.642 In addition, business at Dick’s firm has slowed down
                                                      meaningfully, as residential and commercial construction has dried up. Dick’s
      Debt-to-Income (“DTI”) Ratio: Compari-
                                                      hours have been cut sharply and he now makes only $30,000 per year. The family
      son of the first-lien monthly mortgage
                                                      now has a combined income of $4,583 per month, or $55,000 per year. Because of
      payment divided by the borrower’s
                                                      this setback, the $1,797 monthly mortgage payment now gives them a debt-to-in-
      monthly pre-tax income; also called the
      front-end ratio.                                come (“DTI”) ratio of 39.2%. Under financial strain, Dick and Jane have struggled
                                                      to remain current on their mortgage payments.
                                                          Figure 3.2 provides an illustration of the various potential outcomes for our bor-
                                                      rowers, Dick and Jane.
       figure 3.2

       HAMP SCENARIO FLOW CHART


                                  START


          Loan Stays Current                Default/Imminent Default


        Scenario A                                                               Scenario B
        Current Loan Servicing                                                   HAMP Modification
                                                                                 Interest Reduction
                                                    HAMP
                                                  Negotiations
                                                                                 Scenario C
                                                                                 HAMP Modification
                                                                                 Principal Reduction


                                                                                 Scenario D
                                                  Ineligible/Fail                Proprietary Modification
                                                                                 Term Extension


                                                                                 Scenario E
                                                                                 HAFA DIL Cash for Keys



                                                                                 Scenario F
                                                                                 Foreclosure
                                                                           quarterly report to congress I OCTOBER 26, 2010   167




Scenario A: The Loan Stays Current
Dick and Jane remain in their home, drawing on their savings and some help from
Jane’s parents to continue their monthly payments. By April 2010, Dick and Jane’s
mortgage has amortized to a UPB of $193,212.
    Results for Dick and Jane. Dick and Jane live in their home and remain in
good standing on their loan as long as they make monthly payments on time and
in full. Because of their regular payments, their credit score is not impaired. But
they are underwater: their mortgage principal balance is significantly more than the
house is worth. That is, the ratio of the mortgage balance to the house price (com-
monly known as the loan-to-value ratio, or “LTV”) is nearly 149%. If Dick and Jane
decided to sell their house and move, they would be required to repay the entire
mortgage balance even if it were greater than the sales price for the home — in
practice, making relocation for work or family reasons very difficult.
    Servicer Considerations. As long as Dick and Jane remain in their home and
make regular payments, the servicer collects its monthly servicing fees from the
principal and interest portion of the mortgage payment, and passes the rest on
to the bank that holds Dick and Jane’s loan. Because their loan remains in good
standing, Dick and Jane have no contact with the servicer’s call center and their
servicing entails a minimum of expense.

Scenario B: HAMP Trial and Permanent Modification
Dick and Jane learn about HAMP on www.makinghomeaffordable.gov and request
a HAMP modification through their servicer. After beginning a trial modifica-
tion and submitting the required information, Dick and Jane obtain a permanent
HAMP loan modification, which reduces their monthly payments, in accordance
with HAMP guidelines targeting a 31% DTI ratio.
    Results for Dick and Jane. The change cuts their monthly mortgage payment
by $381 to $1,416. After successfully making three trial period payments on time,
Dick and Jane transition to a permanent modification on the same terms. Over the
subsequent five years, Dick and Jane remain current on the modified loan and earn
eligibility for HAMP borrower incentives from Treasury of $1,000 per year (applied
against their UPB). Dick and Jane remain in their home, having obtained valuable
and sustainable mortgage relief through HAMP. However, they remain significantly
underwater on their mortgage, and their modification is reported by the servicer to
the credit bureaus, which may further impair their already modest credit score.643
    Servicer Considerations. This modified loan has several implications for the
servicer. During the trial modification, the investor continues to receive full pay-
ments — that is, the servicer must still make pre-modification monthly payments to
the bank holding the loan, even though it is collecting only the reduced trial modi-
fication amount. When the trial period ends after three months, the loan converts
to a permanent modification and any remaining unpaid amounts and allowable fees
168   special inspector general I troubled asset relief program




                                             are capitalized or added to the mortgage’s outstanding balance. Although the modi-
                                             fication reduces Dick and Jane’s monthly interest payments, the UPB increases (as
                                             do the servicing fees) because of the amounts added to the principal.
                                                 Moreover, the servicer stands to collect up to $4,500 in incentives for a suc-
                                             cessful permanent modification: $1,000 at the outset of the modification, plus an
                                             additional $500 because Dick and Jane were current when they entered their trial,
                                             and another $1,000 on each of the first three anniversaries for a permanent HAMP
                                             modification, if the loan remains in good standing. Averaged over three years, the
                                             cumulative $4,500 of servicer incentive payments amounts to an additional $125
                                             per month for the servicer.

                                             Scenario C: HAMP Trial Modification, with Principal Reduction
                                             Alternative (“PRA”)
                                             As in the previous scenario, Dick and Jane contact their servicer about HAMP.
                                             Because their property is worth less than the outstanding loan balance and their
                                             LTV exceeds 115%, in accordance with the program’s guidelines, the servicer
                                             evaluates them for HAMP’s PRA. Under this initiative, servicers may offer principal
                                             reductions as part of HAMP modifications. The servicer elects to pursue PRA for
                                             Dick and Jane. They enter a trial modification, and after making three trial period
                                             payments in full and on time, transition to a permanent PRA modification.
                                                 To determine the lower payment, according to PRA guidelines, the servicer
                                             lowers the interest-bearing portion of Dick and Jane’s loan through forbearance by
                                             the amount necessary to reach the target monthly mortgage payment DTI ratio of
                                             31% or to reach an LTV ratio equal to 115% of their house’s current market value,
                                             whichever is reached first. After reducing their LTV to 115%, the servicer proceeds
                                             through the standard HAMP modification steps to further reduce their payment
                                             toward the targeted 31% DTI ratio. Principal forgiveness is not immediate; it is
                                             earned over three years. On each of the first three anniversaries of the modifica-
                                             tion, one-third of the forborne principal is forgiven, and after three years the bor-
                                             rower’s UPB is permanently reduced by the amount that was placed in forbearance.
                                                 Results for Dick and Jane. In this case, Dick and Jane’s monthly payment
                                             decreases by $382 to $1,415. Their UPB is reduced by $43,712, from $193,212
                                             to $149,500, and their LTV drops from 149% to 115%. Although Dick and Jane’s
                                             payments are similar to those they would make in the regular HAMP modifica-
                                             tion, over time in this scenario more of their payments will be applied to reduce
                                             their UPB at a faster rate. Through PRA, Dick and Jane have cut their monthly
                                             payments and also successfully reduced the extent to which they are underwater.
                                             However, as before, the modification may impair the couple’s credit scores.
                                                 Servicer Considerations. The servicer’s annual income servicing fee falls
                                             because of the reduced interest-bearing UPB, but (as with the standard HAMP
                                             modification) the servicer still stands to collect up to the same $4,500 in incentives
                                             for a successful permanent PRA modification.
                                                                              quarterly report to congress I OCTOBER 26, 2010   169




Scenario D: Proprietary (Non-HAMP) Loan Modification
Again, Dick and Jane have experienced income reductions and contact their servicer
about HAMP. They obtain a trial modification, but after the end of the trial period,
Dick and Jane receive a denial notice that states they are not eligible for HAMP. The
servicer asserts that it did not receive all their documentation on time — despite
the fact that Dick and Jane submitted the documentation and confirmed that the
servicer had received it. (Such a scenario is not uncommon, as indicated by numer-
ous complaints to SIGTARP’s Hotline. In its March 2010 report, “Factors Affecting
Implementation of the Home Affordable Modification Program,” SIGTARP cited
one example of a servicer acknowledging that it had lost borrower documentation
and noted that similar problems have been widely reported.) The denial notice
informs Dick and Jane of their rights to appeal the servicer’s decision through
HAMP’s Hope Hotline. Although originally Dick and Jane want to dispute this
notice, the servicer quickly offers an alternative modification outside of HAMP that
also lowers their payments and does not require additional documentation. The
payment is lowered by extending the mortgage term.	
    Results for Dick and Jane. The proprietary modification lowers Dick and
Jane’s monthly payment, although by less than under a HAMP modification.
However, their UPB increases through capitalized late fees and additional expens-
es, driving them farther underwater on their mortgage loan. Their credit rating may
also be impaired.
    Servicer Considerations. Borrowers who are denied a HAMP trial modifica-
tion may be offered a proprietary modification outside HAMP. In such a modifica-
tion, servicers can offer their own terms. To lower borrowers’ monthly payments
in a proprietary modification, servicers may prefer to extend the term of the loan.
Doing so avoids concessions that may affect servicing fee revenue and has less im-
pact on investor returns. Lacking the constraints imposed by HAMP guidelines, the
servicer in a proprietary modification can capitalize the late fees that it assessed on
Dick and Jane for each month that Dick and Jane were making trial modification
payments, thereby increasing the UPB (and the servicing fee).

Scenario E: HAFA Deed-in-Lieu of Foreclosure
Again, under financial strain, Dick and Jane contact their servicer about HAMP.
At the same time, through friends they learn of a nearby three-bedroom apart-
ment that is being offered at a monthly rent significantly lower than their mortgage
payment. They could afford this apartment while only slightly drawing down their
modest savings. However, Dick and Jane receive assurances from their servicer that
based on their statements they are very likely to qualify for a permanent modifica-
tion on their mortgage. (Comparable assurances have been described in complaints
to SIGTARP’s Hotline.) Eager to remain in their home, Dick and Jane elect the
HAMP trial modification, even though the monthly payments are higher than their
rental option.
170   special inspector general I troubled asset relief program




                                                 Aided by their savings, Dick and Jane make regular trial modification payments
                                             as requested by their servicer for eight months, well past the three-month trial pe-
                                             riod. At that point, Dick and Jane are told that they are not eligible for a permanent
                                             HAMP modification.
                                                 As permitted by HAMP guidelines for borrowers who do not receive permanent
                                             modifications, they also receive a demand notice for more than $3,700, represent-
                                             ing eight months’ difference between the HAMP trial payment and their original
                                             unmodified monthly payment, along with late fees for each month. Unable to pay
                                             this amount or afford a proprietary modification to keep their home, Dick and Jane
                                             accept the fact that they must leave. To avoid a lengthy, expensive legal process,
                                             they surrender their claims on the property through a deed-in-lieu agreement with
                                             the servicer.
                                                 Participating HAMP servicers must consider borrowers who are denied a
                                             permanent HAMP modification for the Home Affordable Foreclosure Alternatives
                                             (“HAFA”) program. Per HAFA requirements, the deed-in-lieu agreement stipulates
                                             that even if the house is sold for less than Dick and Jane owe, their debts will be
                                             satisfied and they cannot be pursued for a deficiency judgment or for the amounts
                                             contained in the demand notice. In addition, HAFA provides a $3,000 borrower
                                             incentive and a $1,500 servicer incentive to cover administrative and processing
                                             costs. As of September 30, 2010, HAFA has funded 342 short sales or deeds-in-lieu
                                             of foreclosure.
                                                 Results for Dick and Jane. Dick and Jane lose their home and must imme-
                                             diately search for alternative housing for themselves and their children. HAFA
                                             provides $3,000 that Dick and Jane may use to help cover the costs of a security
                                             deposit and moving expenses, which is desperately needed because Dick and Jane
                                             have exhausted their savings by making trial modification payments while trying to
                                             keep up with their other mounting debts. In addition, their credit record is im-
                                             paired by the notation that their mortgage was settled for less than the full UPB.
                                             However, under the terms of the HAFA deed-in-lieu, their mortgage obligation is
                                             satisfied and they do not have to worry about a deficiency judgment nor the $3,700
                                             from the demand notice.
                                                 Servicer Considerations. The servicer repossesses Dick and Jane’s home, and
                                             must undertake time and effort to conclude a sale to a new buyer in a difficult mar-
                                             ket. The servicer is unable to recover the full principal balance of Dick and Jane’s
                                             mortgage loan through an REO sale and, as part of the deed-in-lieu agreement,
                                             has forgone the ability to pursue any deficiency judgment against Dick and Jane.
                                             However, in accordance with the terms of its agreement with the bank that owns
                                             the mortgage, the servicer may collect late fees, past due servicing fees, payment
                                             advances, notary fees, recordation fees, release fees, title costs, property valuation
                                             fees, credit report fees, or other allowable and documented expenses due it from
                                             the proceeds of the home sale before remitting the remaining amounts to the bank.
                                                                             quarterly report to congress I OCTOBER 26, 2010   171




The servicer also receives a $1,500 incentive for completing the deed-in-lieu agree-
ment according to HAFA guidelines.

Scenario F: HAMP Trial Modification Fails, Foreclosure
Follows
Again, Dick and Jane contact their servicer about HAMP after experiencing income
reductions. Again, they locate an affordable apartment nearby but elect to pursue a
HAMP trial modification based on their servicer’s assurances that they are likely to
have the opportunity to remain in their home. As before, they draw on their savings
to make regular trial modification payments for eight months. Again, the servicer
notifies them that it is denying a permanent HAMP modification, asserting that
it lacks the necessary documentation despite Dick and Jane’s confirmation of the
documents’ receipt. They are offered a deed-in-lieu agreement under HAFA, but
even given the HAFA homeowner incentive, their depleted savings and diminished
credit standing impair their ability to find and move to a rental apartment. They
decide to default instead and wait out the foreclosure process. The servicer delivers
a notice that Dick and Jane are being referred for foreclosure. The UPB cited in
the foreclosure notice is higher by more than $3,700: the eight months’ payment
difference and late fees.	
     Results for Dick and Jane. Again, Dick and Jane lose their home and must
move forward without the benefit of the savings they had spent on the trial modifi-
cation. Their credit is likewise impaired substantially, and these circumstances may
well complicate their effort to find alternative housing. In addition, because Florida
permits deficiency judgments, Dick and Jane remain liable for the UPB of their
mortgage even after the servicer applies the proceeds from the sale of Dick and
Jane’s repossessed house.
     Servicer Considerations. As before, the servicer eventually repossesses Dick
and Jane’s home. As previously noted, however, the servicer may collect past due
servicing fees, payment advances, notary fees, recordation fees, release fees, title
costs, property valuation fees, credit report fees, eight months of late fees earned
from eight months of trial plan payments plus other late fees prior to the actual
foreclosure, or other allowable and documented expenses due it from the proceeds
of the home sale before remitting the remaining amounts to the bank. The servicer
may obtain a deficiency judgment on behalf of the bank that holds the mortgage
and seek further repayment from Dick and Jane. But given Dick and Jane’s finan-
cial difficulties, prompt repayment of any deficiency judgment appears uncertain.
     These scenarios illustrate a range of possible outcomes under HAMP as cur-
rently constituted and administered. Although the program offers the possibility of
meaningful help to distressed borrowers, HAMP borrowers may also, ultimately,
be worse off than before they participated, particularly in the case of failed trial
modifications. As noted in SIGTARP’s March 2010 audit report on HAMP, the dif-
ficulties in implementing the program for homeowners wishing to participate have
172   special inspector general I troubled asset relief program




                                             led to an array of problems, including lost documentation and inaccurate program
                                             guidance for borrowers. Reports have continued to emerge of significant process
                                             and service failures at loan servicing firms and to date, there have been no financial
                                             penalties imposed by Treasury on servicers who have violated HAMP guidelines,
                                             leading to criticism that Treasury’s administration of HAMP has been “all car-
                                             rot and no stick.” Recently, Bank of America announced a temporary nationwide
                                             suspension of home repossessions, while other major servicers have announced the
                                             temporary suspension of evictions in states that have judicial foreclosure processes.
                                             In addition, the Office of the Comptroller of the Currency recently directed seven
                                             major banks (Bank of America, Citibank, HSBC, JPMorganChase, PNC Bank,
                                             USBank and Wells Fargo) to review their foreclosure procedures.644
                                                 Through its Hotline, SIGTARP has received a substantial number of contacts
                                             from the public regarding HAMP, many of which contain allegations that the
                                             servicers have violated HAMP guidelines and rules. Some examples drawn from
                                             emails and letters to SIGTARP follow:

                                             •	 “	 I entered into an agreement with [my servicer] through the Making Home
                                                 Affordable program in April 2009. I have made every payment on time; that,
                                                 they said, would result in the modification becoming permanent after six
                                                 months. They have had us…submit the same paperwork seven times in the last
                                                 two years. Now they have, in their words, ‘decided not to go forward’ and put a
                                                 notice on the house for a sheriff’s sale…a negotiator (who has never contacted
                                                 me) made the decision to stop the modification with no reason as to why. I have
                                                 not been late or missed a payment in 13 months.”
                                             •	 	In a letter to a servicer: “My law office and my clients have been working,
                                                 diligently and in good faith, with you toward a modification of the above-refer-
                                                 enced loan since [May 2009] — for eleven months!...Although you continued
                                                 to accept payments from our client on a regular monthly basis for six months
                                                 past the trial period, your stated reason to our office for denying the permanent
                                                 modification was that the property ‘was not worth modifying’…the value of the
                                                 property was available and known to [the servicer] during the nine months my
                                                 client was paying. Therefore, we are wondering why the value of the property,
                                                 if the underlying concern, was not cause for the servicer to deny the modifica-
                                                 tion at an earlier time rather than having our client pay six more months of
                                                 payments, in a desperate attempt to keep his home, only to be denied. Had he
                                                 known earlier that the property ‘was not worth modifying’ he could have saved
                                                 the six payments and not thrown away the money, as it is obvious he did now…
                                                 the sale date on the property is [May 2010].”
                                             •	 	“We believe our loss mitigation request for the HAMP Permanent Modification
                                                 has been wrongly denied. We have been trying to modify with [the servicer] on
                                                 our mortgage since 2/2009. We have submitted the required paperwork multiple
                                                 times with no success. However, recently we underwent a trial modification
                                                                               quarterly report to congress I OCTOBER 26, 2010   173




    and were supposedly approved for the permanent modification on 7/1/2010.
    I have every phone call documented since 2/2010. We received a letter in the
    mail three weeks ago stating that we were denied the permanent modification
    because the HAMP papers were never signed and returned to them by the
    deadline. WE NEVER received the paperwork to sign, notarize and send back.
    I stated that on several phone calls made to [the servicer] asking when we were
    going to receive the paperwork. Per their demand, we sent the 1st Permanent
    payment of [over $1,150] for the August 1st due date, but it has not been ap-
    plied to our account since the ‘permanent modification’ was denied and they do
    not accept partial payments. And last week, we received a FedEx requesting our
    decision on a short-sale or deed in lieu of Foreclosure. We would like to know if
    there is anything we can do to make [the servicer] give us that permanent modi-
    fication they offered without having to submit new paperwork and go through
    another trial modification or heaven forbid go through a foreclosure, consider-
    ing the paperwork was never sent out for us to sign and therefore this denial
    was in no way a result of our actions. We did EVERYTHING they requested
    (some multiple times). Why should we be penalized for their mistakes? I had
    one supervisor state on 8/10 during our phone conversation that nothing was
    ever mailed out to us and that this was something that [the servicer] let fall.
    Then on two other separate dates, another supervisor and a representative also
    confirmed that no Permanent Modification Papers were ever generated. The
    latter was stated while on a 3-way call with a HAMP Escalations Counselor. As
    consumers, we get the sense that [the servicer] is buying their time with errors
    and lost/unsent paperwork until the program expires, they can foreclose or I
    find employment.”
•	 	“I am contacting you regarding a Making Home Affordable Loan Modification
    through [the servicer]. I have a 15 page memo of the events that have taken
    place and conversations I have had with [the servicer] over the mentioned time
    period. I can forward this memo and all supporting documentation to you upon
    request. Among other things, [the servicer] has lost documentation on several
    occasions. I have received confirmation of receipt of documentation requested
    only to be told months later that ‘they have no record of receiving information’
    during that period of time despite having fax confirmations, fedex tracking con-
    firmations and verbal confirmation. The borrowers were granted a trial Making
    Home Affordable Modification in March of 2010. They made all of their trial
    payments through September of 2010, provided all requested documentation
    (confirmed on multiple occasions that [the servicer] received) only to be denied
    on September 24, 2010 for missing documentation that was sent in on April
    1, 2010 (FedEx tracking number confirmed delivery on April 2, 2010)… I feel
    that [the servicer] has not been truthful during this process. I also feel that they
    have tried to collect as much money as possible from the borrowers but not
174   special inspector general I troubled asset relief program




                                                  in good faith. I do not think they ever had any real intentions of modifying this
                                                  mortgage. Thank you for your time.”
                                             •	   	“Our original mortgage was with [Bank A]…Five months later [Bank B] acquires
                                                   [Bank A and] tells us we have to start the process over…almost a year later in
                                                   December 2009 we finally receive the first modification paperwork package…
                                                   we are told by our mortgage adjust specialist…to show every possible expense,
                                                   the more debt we show the better. Even if we show we cannot afford the modi-
                                                   fied payment that is OK because that can help us get an even lower payment.
                                                   We make our five trial payments no problem, [June 2010] we got to make our
                                                   sixth trial payment and are told we are denied a loan modification because it has
                                                   been determined we cannot afford the payment. They demand our full mortgage
                                                   payment.”
                                             •	    	“I called to try to get an update and to try and process a payment by phone. I
                                                    gave [the servicer employee] my bank information for the payment and then
                                                    asked her if there was any update she could give me. She responded by telling
                                                    me that [the servicer] had sent me to the attorney for foreclosure! How do you
                                                    tell me not to pay, tell me that for months I am not allowed to send in payments,
                                                    tell me to pay down my other bills with that money, and then two weeks later
                                                    try and foreclose on my home? Your moratorium is why I stopped sending in the
                                                    payments.”
                                             •	     	“[My clients] received a trial modification that began [in June 2009]…[they]
                                                     made all of the payments required by the trial modification. Their last trial pay-
                                                     ment was due [in September 2009]. [My clients] continued to make their trial
                                                     payments beyond the trial period; additionally they contacted [their servicer]
                                                     monthly, and faxed proof of income and hardship letters nearly every month. In
                                                     [December 2009] they were erroneously informed that they were ineligible for a
                                                     HAMP permanent modification due to their failure to submit documents. Over
                                                     the course of several days, I spent seven hours on the phone…spoke with 11
                                                     people in the following departments: loan servicing, loss mitigation, customer
                                                     service, collections, escrow, and HAMP…I was given no less than five differ-
                                                     ent reasons as to why [my clients] were rejected by HAMP…As a result of [the
                                                     servicer’s] failure to put [my clients] into a HAMP permanent modification
                                                     after their initial trial modification expired…they have been placed in a worse
                                                     position…Now, they are informed that they are [over $1,600] behind on their
                                                     mortgage…But for [the servicer’s] failure to immediately transfer the modifica-
                                                     tion from a trial modification to a permanent modification in September 2009,
                                                     [my clients] would be current on their mortgage.”
                                             •	      “[The servicer] claims that they asked for documentation in a timely manner,
                                                     but did not. They are lying. In fact, the dates they claimed they requested the
                                                     information, they were in the process of setting the property for trustee sale,
                                                     so obviously were not working on the HAFA short sale as they claimed to be.
                                                                               quarterly report to congress I OCTOBER 26, 2010   175




   In reality, they first asked for the documentation on 7/14 and claimed it was
   too late because it was received at 5:00 on 7/15. They claim the deadline was
   4:00 on 7/15. It appears that they mishandled the file, fell behind on their own
   program specified timelines and are now trying to blame us. In fact, through-
   out the trial modification program and now with the short sale, it seems we
   get a different story from them every time we speak to them. One hand does
   not seem to know what the other hand is doing. They continually claim not to
   have received documentation we have sent in many times. One department
   proceeded to taking the property to a trustee sale date, while the short sale
   department was in contact with us, telling us they were working with us on the
   file. We were able to save the property from trustee sale at the 11th hour with
   great difficulty and stress. None of this should have happened if they were not
   mishandling this file. This mishandling has now cost us the $3,000 in reloca-
   tion funds, and the other benefits of the HAFA program, which we otherwise
   qualified for. They tell us now that we will have to start all over again from start
   if we want to apply for the HAFA program again, and we will most likely lose
   our buyer, and incur more difficulty as the prices are continuing to fall in this
   area. We want [the servicer] to reinstate us in the HAFA program — something
   they are claiming they simply cannot do.”
•	 “I applied to the Making Home Affordable Program with [my previous ser-
   vicer] and sent requested documents in by 8/31/09. They…told me on the
   phone that they were modifying my loan and interest rate would be reduced to
   less than 5%...[my previous servicer] had taken automatic payments from my
   checking account since closing in early 2003…mortgage payments were never
   delinquent until [my previous servicer] failed to take that automatic deduction
   before selling that servicing agreement. The next I heard was from [my new
   servicer] welcoming me to their service and informing me that my payment
   was already delinquent and had a penalty due. They denied all knowledge of
   my previous agreement or negotiations with [my previous servicer] or of the
   previous extensive paperwork which I had submitted. I had to resubmit all
   documentation and have had nothing but delays and ‘runarounds’ since. I
   have replied to numerous requests for additional documentation which was
   so often ‘misplaced’ or never received or to have automatically expired and to
   need renewal. [My previous servicer’s] failure to take that automatic payment
   has proven a major obstacle in my outside efforts to refinance at historically
   low interest rates as it impacted my already compromised credit rating…To
   modify my mortgage at today’s rates is a win situation for both parties. Without
   that you own this depreciated and inevitably depreciating asset. There are four
   houses in my neighborhood up for sale.”
176   special inspector general I troubled asset relief program
               TARP OPERATIONS AND
S e ct ion 4
               ADMINISTRATION
178   special inspector general I troubled asset relief program
                                                                                                                          quarterly report to congress I OCTOBER 26, 2010   179




Under the Emergency Economic Stabilization Act of 2008 (“EESA”), Congress
authorized the Secretary of the Treasury (“Treasury Secretary”) to create the
operational and administrative mechanisms to carry out the Troubled Asset Relief
Program (“TARP”). EESA established the Office of Financial Stability (“OFS”)
within the U.S. Department of the Treasury (“Treasury”), which is responsible for
administering TARP.645 Treasury has authority to establish program vehicles, issue
regulations, directly hire or appoint employees, enter into contracts, and designate
financial institutions as financial agents of the Government.646 In addition to per-
manent and interim staff, OFS relies on contractors and financial agents for legal
services, investment consulting, accounting, and other key services.


TARP Administrative and Program
Expenditures
According to Treasury, as of September 30, 2010, it has spent $141.3 million
administering TARP and $429.6 million in programatic expenditures. Treasury
reports that it has “employed 100 career civil servants, 114 term appointees, and
2 detailees, for a total of 216 full time employees.”647 Table 4.1 provides a sum-
mary of the $141.3 million in expenditures and the $167.7 million in obligations


Table 4.1

TARP Administrative expenditures and obligations
                                                                              Obligations for Period                           Expenditures for Period
Budget Object Class Title                                                       Ending 9/30/2010                                   Ending 9/30/2010
Personnel Services
Personnel Compensation & Services                                                           $44,547,960                                         $44,321,430
Total Personnel Services                                                                   $44,547,960                                        $44,321,430
Non-Personnel Services
Travel & Transportation of Persons                                                               $817,850                                           $783,712
Transportation of Things                                                                            11,960                                              11,960
Rents, Communications, Utilities & Misc. Charges                                                   669,885                                            445,703
Printing & Reproduction                                                                                  395                                                395
Other Services                                                                              120,746,345                                          94,956,829
Supplies & Materials                                                                               700,032                                            534,792
Equipment                                                                                          232,054                                            222,675
Land & Structures                                                                                          —                                                   —
Dividends and Interest                                                                                     27                                                 27
Total Non-Personnel Services                                                             $123,178,548                                         $96,956,093
Grand Total                                                                              $167,726,508                                       $141,277,523

Notes: Numbers affected by rounding. The costs associated with “Other Services” in this table are composed of administrative services including financial, admin-
istrative, IT and legal (non-programmatic) support.

Source: Treasury, response to SIGTARP data call, 10/7/2010.
180   special inspector general I troubled asset relief program




                                             through September 30, 2010. These costs are categorized as “personnel services”
                                             and “non-personnel services,” with a few exceptions.
                                                 Treasury has also incurred programmatic expenditures, including costs to hire
                                             financial agents and contractors. The $429.6 million of these expenditures are
                                             categorized in Table 4.2. Since TARP’s inception, the total of all expenditures, in-
                                             cluding contractors and financial agents, is $570.9 million out of a total obligation
                                             amount of $680.9 million.648



                                             Current Contractors and Financial
                                             Agents
                                             As of September 30, 2010, Treasury had retained 69 private vendors, including 15
                                             financial agents and 54 contractors, to help administer TARP.649 Table 4.2 includes
                                             service providers retained as of September 30, 2010. Although Treasury informed
                                             SIGTARP that it “does not track” the number of individuals who provide services
                                             under its agreements, the number likely dwarfs the 216 that Treasury has identified
                                             as working for OFS.650 For example, the Congressional Oversight Panel recently re-
                                             ported “Fannie Mae alone currently has 600 employees working to fulfill its TARP
                                             commitments.”651 To streamline and expedite contract solicitation, EESA allowed
                                             the Treasury Secretary to waive specific Federal Acquisition Regulations (“FAR”) for
                                             urgent and compelling circumstances.652
                                                                                        quarterly report to congress I OCTOBER 26, 2010              181




Table 4.2

OFS SERVICE CONTRACTS (CONTINUED)
                                                                                                  Type of             Obligated       Expended
Date         Vendor                                     Purpose
                                                                                                  Transaction             Value           Value
                                                        Legal services for the implementation
10/10/2008   Simpson Thacher & Bartlett MNP LLP                                                   Contract             $931,090           $931,090
                                                        of TARP
10/11/2008   Ennis Knupp & Associates Inc               Investment and Advisory Services          Contract            2,715,965       2,392,742
10/14/2008   The Bank of New York Mellon Corporation    Custodian                                 Financial Agent    28,495,412      23,777,002
10/16/2008   PricewaterhouseCoopers                     Internal control services                 Contract           24,541,437      22,410,694
10/18/2008   Ernst & Young LLP                          Accounting Services                       Contract           11,397,968      10,710,092
                                                        Legal services for the Capital Purchase
10/29/2008   Hughes Hubbard & Reed LLP                                                            Contract            3,060,921       2,828,688
                                                        Program
                                                        Legal services for the Capital Purchase
10/29/2008   Squire, Sanders & Dempsey LLP                                                        Contract            5,787,939       2,687,999
                                                        Program
10/31/2008   Lindholm & Associates, Inc                 Human resources services                  Contract              751,302            614,963
                                                        Legal services related to auto industry
11/7/2008    Sonnenschein Nath & Rosenthal LLP                                                    Contract            2,722,326       2,722,326
                                                        loans
                                                        For process mapping consultant            Interagency
11/7/2008    GSA - Turner Consulting2                                                                                     9,000              9,000
                                                        services                                  Agreement
                                                                                                  Interagency
11/9/2008    Internal Revenue Service                   Detailees                                                        97,239             97,239
                                                                                                  Agreement
                                                                                                  Interagency
11/14/2008   Internal Revenue Service - CSC2            IT Services                                                       8,095              8,095
                                                                                                  Agreement
                                                        IAA - TTB Development, Mgmt &             Interagency
12/3/2008    Alcohol and Tobacco Tax and Trade Bureau                                                                    67,489             67,489
                                                        Operation of SharePoint                   Agreement
                                                        Legal Services for the purchase of
12/10/2008   Sonnenschein Nath & Rosenthal LLP                                                    Contract              249,999             82,884
                                                        asset-backed securities
                                                                                                  Interagency
12/15/2008   Office of Thrift Supervision (OTS)         Detailees                                                       225,547            164,823
                                                                                                  Agreement
             Department of Housing and Urban                                                      Interagency
12/16/2008                                              Detailees                                                       142,863            124,773
             Development                                                                          Agreement
                                                                                                  Interagency
12/22/2008   Office of Thrift Supervision (OTS)         Detailees                                                       103,871                 —
                                                                                                  Agreement
12/24/2008   Cushman and Wakefield of VA Inc            Painting Services for TARP Offices        Contract                8,750              8,750
                                                                                                  Interagency
1/6/2009     Security and Exchange Comm. U.S.           Detailees                                                        30,417             30,416
                                                                                                  Agreement
1/7/2009     Colonial Parking Inc                       Lease of parking spaces                   Contract              191,650            111,320
                                                                                                  Interagency
1/7/2009     Washington Post   2
                                                        Subscription                                                        395               395
                                                                                                  Agreement
1/27/2009    Cadwalader Wickersham & Taft LLP           Bankruptcy Legal Services                 Contract              409,955            409,955
1/27/2009    Whitaker Brothers Bus Machines Inc         Paper Shredder                            Contract                3,213              3,213
                                                                                                  Interagency
1/30/2009    Comptroller of the Currency                Detailees                                                       561,568            501,118
                                                                                                  Agreement
                                                        IAA - GAO required by P.L. 110-343 to
                                                                                                  Interagency
2/2/2009     U.S. Government Accountability Office      conduct certain activities related to                         7,459,049       7,459,049
                                                                                                  Agreement
                                                        TARP IAA
                                                                                                  Interagency
2/3/2009     Internal Revenue Service                   Detailees                                                       242,499            242,499
                                                                                                  Agreement
                                                                                                                          Continued on next page.
182          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS (CONTINUED)
                                                                                                      Type of             Obligated       Expended
      Date        Vendor                                   Purpose
                                                                                                      Transaction             Value           Value
                                                           Temporary Services for Document
      2/9/2009    Pat Taylor & Associates, Inc             Production, FOIA Assistance, and           Contract            $692,108         $692,108
                                                           Program Support
                                                           Initiate Interim Legal Services in support
      2/12/2009   Locke Lord Bisell & Liddell LLP                                                     Contract             272,243          272,243
                                                           of Treasury Investments under EESA
      2/18/2009   Fannie Mae                               Homeownership Preservation Program         Financial Agent   126,712,000     111,339,451
      2/18/2009   Freddie Mac                              Homeownership Preservation Program         Financial Agent    88,850,000      79,296,499
                                                           IAA – Review Current State of Fin Mkts & Interagency
      2/20/2009   Financial Clerk U.S. Senate                                                                             3,394,348       3,394,348
                                                           Regulatory Sys & Rpt Certain Activities Agreement
                                                                                                      Interagency
      2/20/2009   Office of Thrift Supervision (OTS)       Detailees                                                       226,931          189,533
                                                                                                      Agreement
      2/20/2009   Simpson Thacher & Bartlett MNP LLP       Capital Assistance Program (I)             Contract            2,047,872       1,363,085
                                                           Capital Assistance Program (II) Legal
      2/20/2009   Venable LLP                                                                         Contract            1,394,724       1,394,724
                                                           Services
                                                                                                      Interagency
      2/26/2009   Security and Exchange Comm. U.S.         Detailees                                                        18,531           18,531
                                                                                                      Agreement
                                                           Financial Advisory Services related to     Interagency
      2/27/2009   Pension Benefit Guaranty Corporation                                                                    7,750,000       7,750,000
                                                           Auto program                               Agreement
                                                           Management Consulting relating to the
      3/6/2009    The Boston Consulting Group                                                         Contract             991,169          991,169
                                                           Auto industry
      3/16/2009   Earnest Partners                         Small Business Assistance Program          Financial Agent     4,050,000       1,955,000
                                                                                                      Interagency
      3/23/2009   Heery International Inc.2                Architectural Services                                                —                —
                                                                                                      Agreement
                                                           SBA Initiative Legal Services - Contract
      3/30/2009   Bingham McCutchen LLP4                   Novated from TOFS-09-D-0005 with           Contract             422,355          270,776
                                                           McKee Nelson
      3/30/2009   Cadwalader Wickersham & Taft LLP         Auto Investment Legal Services             Contract           17,482,165      17,392,786
      3/30/2009   Haynes and Boone, LLP                    Auto Investment Legal Services             Contract             345,746          345,746
      3/30/2009   Sonnenschein Nath & Rosenthal LLP        Auto Investment Legal Services             Contract            1,834,193       1,834,193
      3/31/2009   FI Consulting Inc                        Credit Reform Modeling and Analysis        Contract            1,935,866       1,461,560
                                                                                                      Interagency
      4/3/2009    American Furniture Rentals2              Furniture Rental 1801                                            35,187           25,808
                                                                                                      Agreement
                                                           Management Consulting relating to the
      4/3/2009    The Boston Consulting Group                                                         Contract            4,100,195       4,099,923
                                                           Auto industry
                                                                                                      Interagency
      4/17/2009   Bureau of Printing and Engraving         Detailees                                                        45,822           45,822
                                                                                                      Agreement
      4/17/2009   Herman Miller, Inc                       Chairs                                     Contract              53,799           53,799
      4/21/2009   AllianceBernstein LP                     Asset Management Services                  Financial Agent    22,399,943      21,207,253
      4/21/2009   FSI Group, LLC                           Asset Management Services                  Financial Agent    11,102,500      10,770,000
      4/21/2009   Piedmont Investment Advisors, LLC        Asset Management Services                  Financial Agent     5,615,000       5,120,000
                                                                                                      Interagency
      5/4/2009    Department of State                      Detailees                                                        45,492           45,492
                                                                                                      Agreement
                                                                                                      Interagency
      5/5/2009    Federal Reserve Board                    Detailees                                                        48,422           48,422
                                                                                                      Agreement
                                                                                                                              Continued on next page.
                                                                                         quarterly report to congress I OCTOBER 26, 2010             183




OFS SERVICE CONTRACTS (CONTINUED)
                                                                                                  Type of              Obligated       Expended
Date        Vendor                                    Purpose
                                                                                                  Transaction              Value           Value
                                                                                                  Interagency
5/13/2009   Treasury - U.S. Mint                      “Making Home Affordable” Logo search                                  $975             $325
                                                                                                  Agreement
                                                      Executive Search and recruiting
5/14/2009   KnowledgeBank Inc.2                                                              Contract                    124,340           124,340
                                                      Services - Chief Homeownership Officer
                                                      Freedom of Information Act (FOIA)
5/15/2009   Phacil, Inc                               Analysts to support the Disclosure     Contract                    103,425            90,301
                                                      Services, Privacy and Treasury Records
                                                                                                  Interagency
5/20/2009   Security and Exchange Comm. U.S.          Detailees                                                          430,000           430,000
                                                                                                  Agreement
                                                                                                  Interagency
5/22/2009   Department of Justice - ATF               Detailees                                                          243,778           243,740
                                                                                                  Agreement
                                                      Legal services for work under Treasury’s
5/26/2009   Anderson, McCoy & Orta                    Public-Private Investment Funds (PPIF)   Contract                4,068,834       1,577,271
                                                      program
                                                      Legal services for work under Treasury’s
5/26/2009   Simpson Thacher & Bartlett MNP LLP        Public-Private Investment Funds (PPIF)   Contract                7,849,026       3,185,439
                                                      program
                                                      Development of an Information
                                                      Management Plan (IMP) to articulate
                                                      strategies to be used by the Office of      Interagency
6/9/2009    Financial Management Services                                                                                 93,292            89,436
                                                      Financial Stability (OFS) to manage its     Agreement
                                                      portfolio of information management
                                                      transformation activities
                                                      IAA to Department of Interior’s Federal
                                                                                                  Interagency
6/29/2009   Department of the Interior                Consulting Group to support Stability.                              49,000            49,000
                                                                                                  Agreement
                                                      Gov website
                                                                                                  Interagency
7/15/2009   Judicial Watch3                           Unknown                                                              1,500             1,500
                                                                                                  Agreement
                                                      Executive search services for the OFS
7/17/2009   Korn/Ferry International                                                              Contract                75,017            75,017
                                                      Chief Investment Officer position
7/30/2009   Cadwalader Wickersham & Taft LLP   1
                                                      Restructuring Legal Services                Contract             2,049,979       1,266,342
7/30/2009   Debevoise & Pimpton LLP                   Restructuring Legal Services                Contract               159,175                —
7/30/2009   Fox, Hefter, Swibel, Levin & Carol, LLP   Restructuring Legal Services                Contract                84,125                —
                                                                                                  Interagency
8/10/2009   Department of Justice-ATF                 Detailees                                                           63,218            54,679
                                                                                                  Agreement
            National Aeronautics and Space                                                        Interagency
8/10/2009                                             Detailees                                                          146,986           140,889
            Administration (NASA)                                                                 Agreement
                                                      Executive Compensation Data
8/18/2009   Mercer LLC                                                                            Contract                 3,000             3,000
                                                      Subscription
                                                                                                  Interagency
8/25/2009   Department of Justice-ATF                 Detailees                                                           63,494            63,248
                                                                                                  Agreement
9/2/2009    Knowledge Mosaic Inc.                     SEC filings subscription service            Contract                 5,000             5,000
                                                      Executive Compensation Data
9/10/2009   Equilar, Inc.                                                                         Contract                59,990            59,990
                                                      Subscription
9/11/2009   PricewaterhouseCoopers                    PPIP compliance                             Contract             1,240,037       1,114,937
                                                                                                                           Continued on next page.
184          special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS (CONTINUED)
                                                                                                      Type of            Obligated      Expended
      Date         Vendor                                  Purpose
                                                                                                      Transaction            Value          Value
                                                                                                      Interagency
      9/18/2009    Treasury Franchise Fund                 Administrative Resource Center                                $436,054        $436,054
                                                                                                      Agreement
      9/30/2009    NNA INC.                                Newspaper delivery                         Contract               8,479           8,220
                                                           SNL Unlimited, a web-based financial
      9/30/2009    SNL Financial LC                                                                   Contract            260,000         110,000
                                                           analytics service
                                                                                                      Interagency
      9/30/2009    Immixtechnology Inc.2                   eDiscovery                                                     210,184               —
                                                                                                      Agreement
                                                           Procurement of professional services
                                                           from Guidance Inc. to address the
                                                                                                      Interagency
      9/30/2009    Immixtechnology Inc.2                   Freedom of Information Act (FOIA)                               90,000               —
                                                                                                      Agreement
                                                           backlog that currently exists within the
                                                           OFS.
                                                           Financial management, human
                                                           resources, information technology,     Interagency
      11/29/2009   Departmental Offices                                                                                 23,682,061     15,334,819
                                                           general counsel and other reimbursable Agreement
                                                           support services
                                                                                                      Interagency
      12/16/2009   Internal Revenue Service                Property Management                                             46,202               —
                                                                                                      Agreement
      12/22/2009   Avondale Investments LLC                Asset Management Services                  Financial Agent     750,000         562,500
      12/22/2009   Bell Rock Capital, LLC                  Asset Management Services                  Financial Agent     750,000         575,000
      12/22/2009   Howe Barnes Hoefer & Arnett, Inc        Asset Management Services                  Financial Agent    1,250,000        950,000
                                                           Document Production services and
      12/22/2009   Hughes Hubbard & Reed LLP                                                          Contract            601,890         601,890
                                                           Litigation Support
      12/22/2009   KBW Asset Management, Inc               Asset Management Services                  Financial Agent    3,803,333      3,279,167
      12/22/2009   Lombardia Capital Partners, Inc         Asset Management Services                  Financial Agent    1,250,000        937,500
      12/22/2009   Paradigm Asset Management Co. LLC       Asset Management Services                  Financial Agent    1,250,000        925,000
                                                           IAA - GAO required by P.L. 110-343 to
                                                                                                      Interagency
      1/14/2010    U.S. Government Accountability Office   conduct certain activities related to                         7,304,722      7,304,722
                                                                                                      Agreement
                                                           TARP
      1/15/2010    Association of Government Accountants   CEAR Program Application                   Contract               5,000           5,000
                                                                                                      Interagency
      2/16/2010    IRS                                     Property Management                                             52,742          52,742
                                                                                                      Agreement
                                                           FNMA IR2 Assessment — OFS task
      2/16/2010    The MITRE Corporation                                                              Contract            740,526         656,276
                                                           order on Treasury Mitre Contract
                                                                                                      Interagency
      2/18/2010    Treasury Franchise Fund                 Administrative Resource Center                                1,248,740      1,221,140
                                                                                                      Agreement
      3/8/2010     Qualx Corporation                       FOIA Support Services                      Contract            230,438         192,032
                                                                                                      Interagency
      3/22/2010    Financial Management Services           IT Executives signature license                                 73,750          73,750
                                                                                                      Agreement
                                                                                                      Interagency
      3/26/2010    Federal Maritime Commission (FMC)       Detailees                                                      118,744         118,744
                                                                                                      Agreement
      3/29/2010    Morgan Stanley & Co                     Disposition Agent Services                 Financial Agent   23,577,000     13,175,423
                                                           IAA – Review Current State of Fin Mkts & Interagency
      4/2/2010     Financial Clerk U.S. Senate                                                                           4,800,000      4,783,205
                                                           Regulatory Sys & Rpt Certain Activities Agreement
      4/8/2010     Squire, Sanders & Dempsey LLP           Housing Legal Services                     Contract           1,229,350        572,956
                                                                                                                            Continued on next page.
                                                                                          quarterly report to congress I OCTOBER 26, 2010             185




OFS SERVICE CONTRACTS (CONTINUED)
                                                                                                   Type of              Obligated       Expended
Date        Vendor                                     Purpose
                                                                                                   Transaction              Value           Value
4/12/2010   Ennis Knupp & Associates Inc               Investment Consulting Services              Contract               $83,050           $82,050
                                                       Data and Document Management
4/22/2010   Digital Management                                                                     Contract                     —                —
                                                       Consulting Services
                                                       Data and Document Management
4/22/2010   MicroLink, LLC                                                                         Contract             1,665,160           615,150
                                                       Consulting Services
                                                       Data and Document Management
4/23/2010   RDA                                                                                    Contract             1,277,134           393,861
                                                       Consulting Services
                                                                                                   Interagency
5/4/2010    Internal Revenue Service                   Detailees                                                            1,320             1,320
                                                                                                   Agreement
5/17/2010   Lazard Freres & Co. LLC                    Transaction Structuring Services            Financial Agent      7,500,000       2,166,667
                                                       Accurint subscription services for one
6/24/2010   Reed Elselvier Inc                                                                     Contract                 8,208             1,539
                                                       year - 4 users
                                                       Financial Institution Mgmt & Modeling —
6/30/2010   The George Washington University                                                   Contract                     5,000             5,000
                                                       Training course (J.Talley)
7/21/2010   Navigant Consulting                        Program Compliance Support Services         Contract                     —                —
7/21/2010   Regis and Associates PC                    Program Compliance Support Services         Contract                     —                —
7/22/2010   Ernst & Young LLP                          Program Compliance Support Services         Contract                     —                —
7/22/2010   PricewaterhouseCoopers                     Program Compliance Support Services         Contract                     —                —
7/22/2010   Schiff Hardin LLP                          Housing Legal Services                      Contract               537,375            87,464
7/27/2010   West Publishing Corporation                Subscription Service for 4 users            Contract                 5,972              747
8/6/2010    Alston & Bird LLP                          Omnibus procurement for legal services Contract                          —                —
8/6/2010    Cadwalader Wickersham & Taft LLP           Omnibus procurement for legal services Contract                  1,997,820                —
8/6/2010    Fox, Hefter, Swibel, Levin & Carol, LLP    Omnibus procurement for legal services Contract                          —                —
8/6/2010    Haynes and Boone, LLP                      Omnibus procurement for legal services Contract                          —                —
8/6/2010    Hughes Hubbard & Reed LLP                  Omnibus procurement for legal services Contract                          —                —
8/6/2010    Love & Long LLP                            Omnibus procurement for legal services Contract                          —                —
8/6/2010    Orrick Herrington Sutcliffe LLP            Omnibus procurement for legal services Contract                          —                —
            Paul, Weiss, Rifkind, Wharton & Garrison
8/6/2010                                               Omnibus procurement for legal services Contract                          —                —
            LLP
8/6/2010    Perkins Coie LLP                           Omnibus procurement for legal services Contract                          —                —
8/6/2010    Seyfarth Shaw LLP                          Omnibus procurement for legal services Contract                          —                —
            Shulman, Rogers, Gandal, Pordy & Ecker,
8/6/2010                                               Omnibus procurement for legal services Contract                          —                —
            PA
8/6/2010    Sullivan Cove Reign Enterprises JV         Omnibus procurement for legal services Contract                          —                —
8/6/2010    Venable LLP                                Omnibus procurement for legal services Contract                          —                —
8/12/2010   Knowledge Mosaic Inc.                      SEC filings subscription service            Contract                 5,000             5,000
            Department of Housing and Urban                                                        Interagency
8/30/2010                                              Detailees                                                           29,915            29,915
            Development                                                                            Agreement
                                                       One-year subscription (3 users) to the
                                                       CQ Today Breaking News & Schedules,
9/1/2010    CQ-Roll Call Inc.                                                                      Contract                 7,500             7,500
                                                       CQ Congressional & Financial
                                                       Transcripts, CQ Custom Email Alerts
                                                                                                                            Continued on next page.
186                special inspector general I troubled asset relief program




      OFS SERVICE CONTRACTS (CONTINUED)
                                                                                                                                               Type of                          Obligated               Expended
      Date                 Vendor                                                      Purpose
                                                                                                                                               Transaction                          Value                   Value
      9/17/2010            Bingham McCutchen LLP4                                      SBA 7(a) Security Purchase Program                      Contract                           $19,975                        $—
                                                                                       Program Operations Support Services
                                                                                       to include project management,
      9/27/2010            Davis Audrey Robinette                                                                                              Contract                             50,000                         —
                                                                                       scanning and document management
                                                                                       and correspondence
                                                                                       GSA Task Order for procurement books
      9/30/2010            CCH Incorporated                                            - FAR, T&M, Government Contracts     Contract                                                  2,430                        —
                                                                                       Reference, World Class Contracting
                                                                                       Financial management, human
      Date Not                                                                         resources, information technology,     Interagency
                           Departmental Offices                                                                                                                              16,512,820               15,588,184
      Available                                                                        general counsel and other reimbursable Agreement
                                                                                       support services
                                                                                       Financial management, human
      Date Not                                                                         resources, information technology,     Interagency
                           Departmental Offices                                                                                                                                   671,731                 435,351
      Available                                                                        general counsel and other reimbursable Agreement
                                                                                       support services
      Total                                                                                                                                                             $513,146,385 $429,645,224

      Notes: Numbers may not total due to rounding. At year-end, OFS validated the matrix against source documents resulting in modification of award date. At year-end, a matrix entry that included several Inter-
      agency agreements bundled together was split up to show the individual IAAs. For IDIQ contracts, $0 is obligated if no task orders have been awarded.
      1
        $1.4M de-obligation submitted on 9/30/2010.
      2
        Contracts were awarded by other branches within the PSD pursuant to a common Treasury service level and subject to a reimbursable agreement with OFS.
      3
        Judicial Watch is a payment in response to a litigation claim. No contract or agreement was issued to Judicial Watch.
      4
        McKee Nelson Contract, TOFS-09-D-0005, was novated to Bingham McCutchen LLP.

      Source: Treasury, response to SIGTARP data call, 10/9/2010.
S e ct ion 5   SIGtarp recommendations
188   special inspector general I troubled asset relief program
                                                                               quarterly report to congress I october 26, 2010   189




One of the critical responsibilities of the Office of the Special Inspector General
for the Troubled Asset Relief Program (“SIGTARP”) is to provide recommenda-
tions to the U.S. Department of the Treasury (“Treasury”) and other Federal
agencies managing Troubled Asset Relief Program (“TARP”) initiatives so that the
various TARP programs can be designed or modified to facilitate transparency
and effective oversight and to prevent fraud, waste, and abuse. SIGTARP has
made such recommendations in its quarterly reports to Congress and in several of
its audit reports. This section makes new recommendations concerning a newly
announced initiative, discusses developments with respect to SIGTARP’s prior
recommendations, including recommendations made over the previous quarter,
and, in the table at the end of this section, summarizes SIGTARP’s recommenda-
tions from past quarters and notes the extent of their implementation.
    Appendix H: “Correspondence” includes Treasury’s October 22, 2010, letter in
response to this section. In its letter, Treasury raises a number of issues relating to
the report. There is only one comment that merits response.
    Treasury states that with respect to SIGTARP’s description of the Unlocking
Credit for Small Susinesses program described in Section 2: “TARP Overview”
of this report, Treasury is “concerned that [SIGTARP’s’] disclosure of detailed
trading information (CUSIPS and counterparty identities) could cause material
economic harm to the taxpayer’s SBA 7(a) investment.” Treasury thus makes the
reckless suggestion that SIGTARP has harmed taxpayer interests by inappropri-
ately publishing this information in the past, and that SIGTARP will continue to
inflict such harm in the future. When understood in context, this charge, and the
manner in which it has been leveled, suggests that Treasury’s motive for advanc-
ing it has little to do with protecting the taxpayer.
    As Treasury well knows, but which it tellingly left out of its letter, Treasury
first raised issues regarding disclosure of the SBA 7(a) securities in April 2010, in
advance of SIGTARP’s publication of its quarterly report later that month. At that
time, SIGTARP discussed in detail with Treasury officials SIGTARP’s belief that it
had a statutory obligation to report such detailed information about the securities
under Sections 121(c)(1)(B) and 121(i)(1) of EESA, which require SIGTARP to
report “a listing of troubled assets purchased” by Treasury in a “detailed statement
of all purchases” for the preceding quarter. SIGTARP further explained that while
it believed that the statute offered it no discretion to exclude CUSIP level infor-
mation from our report, if Treasury believed otherwise, SIGTARP would defer dis-
closing any such information so that Treasury could seek a legal opinion from the
Department of Justice’s Office of Legal Counsel (“OLC”) to the contrary, which
SIGTARP would of course follow. On April 17, 2010, in an email to SIGTARP’s
Chief Counsel, Treasury confirmed that it had in fact declined SIGTARP’s offer
to defer publication so that Treasury could seek such an opinion, and later that
evening, Treasury confirmed in a separate email to SIGTARP that “Treasury does
190   special inspector general I troubled asset relief program




                                             not have an objection with SIGTARP publishing CUSIPs for the SBA 7(a) securi-
                                             ties.” Only after receiving that email did SIGTARP include CUSIP level informa-
                                             tion for the three securities purchased in the preceding quarter, without objection.
                                                 For SIGTARP’s July 2010 Quarterly Report to Congress, SIGTARP once again
                                             requested and received from Treasury detailed CUSIP information for additional
                                             SBA 7(a) securities that Treasury had purchased over the preceding quarter, which
                                             was published without any objection from Treasury.
                                                 For this quarter, SIGTARP once again requested the CUSIP data from Treasury,
                                             which it again produced without objection. On October 1, 2010, SIGTARP
                                             provided Treasury with a draft of this report for vetting that indicated SIGTARP’s
                                             intention once again to publish this information. Although Treasury repeated its
                                             long-standing objection to SIGTARP disclosing information from the PPIP pro-
                                             gram (the legal structure of PPIP as created by Treasury does not require SIGTARP
                                             to publish CUSIP level information), it offered no objection to the SBA 7(a) disclo-
                                             sures. And just days before Treasury’s October 22, 2010, letter, SIGTARP engaged
                                             in a detailed discussion with Treasury officials regarding the terminology Treasury
                                             provided to SIGTARP regarding the SBA 7(a) disclosures, and again Treasury of-
                                             fered no objection. Indeed, the current objection did not come until after 7:30 p.m.
                                             on Friday, October 22, 2010, well after SIGTARP’s deadline for comments.
                                                 If Treasury had been legitimately concerned about “material economic harm”
                                             to the taxpayer regarding these disclosures, it would have done one or more of the
                                             following: (a) accepted SIGTARP’s offer six months ago to defer publication so
                                             that it could consult with OLC to get a legal opinion regarding SIGTARP’s disclo-
                                             sure obligations; (b) asked Congress in the intervening six months to alter EESA’s
                                             disclosure requirements; (c) not issued its statement on April 17, 2010, that it
                                             had no objection to the disclosures, and then permitted publication of additional
                                             information in July 2010 without objection; or (d) advanced its current objection
                                             prior to SIGTARP’s publication deadline so that Treasury and SIGTARP could have
                                             discussed any potential changes in circumstances (which have yet to be identified),
                                             and so that SIGTARP and Treasury could have worked together on a potential rem-
                                             edy, as SIGTARP had previously suggested. That Treasury did none of these things
                                             significantly undermines its claimed concern for harm to the taxpayer.
                                                 SIGTARP was created for one central purpose: to protect the taxpayer. It is
                                             a job SIGTARP takes very seriously, and as demonstrated later in this section,
                                             SIGTARP is more than willing to err on the side of caution when it comes to
                                             disclosing information that may harm the taxpayer. Treasury’s suggestion that
                                             SIGTARP has done otherwise in this case, without disclosing the significant rel-
                                             evant factual background on this issue, is unfounded, inappropriate, and extremely
                                             unfortunate.
                                                                             quarterly report to congress I october 26, 2010   191




Recommendations Regarding
Implementation of the Small Business
Lending Fund
The Small Business Jobs Act of 2010 (“Act”) was signed by the President on
September 27, 2010. This new legislation includes authorization to Treasury to
establish the Small Business Lending Fund (“SBLF”). Although SBLF will be
outside of TARP and does not explicitly include SIGTARP oversight, it does require
Treasury to issue regulations and other guidance “to permit eligible institutions to
refinance securities issued to Treasury under” existing TARP programs. In light
of the likelihood that a large number of current participants in TARP’s Capital
Purchase Program (“CPP”) will ultimately seek to refinance their CPP capital
through SBLF, SIGTARP has three recommendations with respect to any such
refinancing process. The first two recommendations were contained in a letter to
Treasury Secretary Timothy Geithner dated September 27, 2010. A copy of the
letter is included in Appendix H: “Correspondence.” The third recommendation is
based on further review of the relevant statutory provisions. All three recommen-
dations are set forth below. Treasury has responded by saying that it will consider
these issues as it works to implement the statute.

First, when Treasury considers whether to accept an existing CPP partici-
pant into SBLF, because conditions for many of the relevant institutions have
changed dramatically since they were approved for CPP, Treasury and the
bank regulators should conduct a new analysis of whether the applying institu-
tion is sufficiently healthy and viable to warrant participation in SBLF.
    The fact that a CPP participant was deemed healthy and viable at the time of its
CPP application does not mean that the institution remains so now. For a number
of reasons, well more than 100 CPP banks have missed scheduled dividend pay-
ments to Treasury. The investments in others have had to be restructured, often
at a loss to Treasury, and five have failed altogether. Indeed, as the Government
Accountability Office recently found, the CPP process itself was not a perfect one,
with 12% of the banks that were funded considered “marginal applicants,” and sev-
eral of those approved despite questions about their ongoing viability. While institu-
tions that have missed “more than one” dividend payment are already prohibited
from participating in SBLF, other CPP participants that are not delinquent may
nonetheless face changed conditions that warrant their exclusion.
    Although SIGTARP recognizes that taxpayer funds are at risk in both pro-
grams, it makes little sense to move a struggling bank from TARP — a program
192   special inspector general I troubled asset relief program




                                             characterized by strong oversight by multiple oversight bodies, periodic monitoring,
                                             and other controls designed to protect the taxpayers’ interests, such as restrictions
                                             on executive compensation and stock repurchases — into a program that will have
                                             far fewer restrictions and protections. Furthermore, it makes little sense to convert
                                             a bank into SBLF — a program intended to incentivize increased lending — if the
                                             institution does not have the necessary capital to support such increased lending.
                                             Indeed, the incentives in SBLF (which reward increased lending and ultimately
                                             punish institutions that maintain the status quo) could result in such struggling
                                             institutions making ill-advised loans or subject them to losses that they, and by ex-
                                             tension the taxpayers, could ill afford. In a related vein, Treasury should also make
                                             clear that the Act’s provision that institutions on the Federal Deposit Insurance
                                             Corporation’s problem bank list may not receive “any capital investment under
                                             the Program” also applies to institutions seeking to “refinance securities issued to
                                             Treasury” under existing TARP programs.

                                             Second, for similar reasons, when Treasury conducts the new analysis of an
                                             institution’s health and viability, the existing CPP preferred shares should not
                                             be counted as part of the institution’s capital base.
                                                 In the CPP application process, institutions’ health and viability were typically
                                             evaluated without accounting for the anticipated CPP investment. In SIGTARP’s
                                             view, the analysis should be the same for the anticipated SBLF capital that will be
                                             replacing that CPP capital. An institution that would not have an adequate capital
                                             base but for the Government’s CPP investment likely will not have the necessary
                                             capital to support increased lending. And, again, for a weaker institution or an
                                             institution that is adequately capitalized solely because of its existing Government-
                                             funded capital, the incentives in SBLF could result in a greater risk of loss to the
                                             taxpayer. Moreover, as noted above, converting such a struggling institution to a
                                             program with less oversight and fewer controls would, in our view, also be contrary
                                             to taxpayer interests, do nothing to advance the stated goals of SBLF, and would
                                             contribute to the criticism that SBLF is being used as a cover to bail out struggling
                                             banks.

                                             Third, Treasury should take steps to prevent institutions that are refinancing
                                             into the SBLF from CPP from securing windfall dividend reductions without
                                             any relevant increase in lending.
                                                 This recommendation is based on SIGTARP’s review of the Act’s SBLF pro-
                                             visions concerning dividend rates. Because SIGTARP has not yet received a
                                             promised Treasury briefing on the statute or the SBLF program, first requested
                                                                              quarterly report to congress I october 26, 2010   193




on September 29, 2010, SIGTARP’s understanding of the relevant mechanics is
necessarily tentative.
    Pursuant to SBLF, financial institutions can obtain investment capital at an
initial dividend rate of 5% and then can reduce their dividend rate to as low as 1%
on the basis of increased lending. Under the Act, however, it appears that the rela-
tive change in a financial institution’s lending activities is measured against “the
average amount of small business lending reported by the eligible institution in its
call reports for the four full quarters immediately preceding the date of enactment
of this Act.” As a result of this provision, CPP recipients could gain the benefit of a
substantial dividend reduction on the basis of lending increases that are completely
unrelated to SBLF.
    Because the baseline is calculated on an average over the four full quarters
preceding the fixed date of September 27, 2010, CPP institutions whose lending
increased in the fourth quarter could receive a windfall. By way of an extremely
simplified example, if a CPP recipient had small-business lending rates during
the four full quarters prior to September 27, 2010, of $5 million, $6 million, $6
million, and $7 million, its baseline would be the average of those figures, or $6
million. However, assuming that its lending rate of $7 million per quarter — an
increase of almost 17% above its $6 million baseline — remains unchanged at the
end of the quarter preceding its receipt of SBLF capital, it will qualify for a re-
duced dividend rate of 1%. Yet the SBLF incentive had no role in encouraging the
increased lending rate; the increase preceded both the Act and the SBLF funding.
CPP institutions are currently subject to 5% dividend rates that are scheduled to
increase after five years (for most recipients, this will occur in late 2013 or early
2014). Pursuant to SBLF, they may be eligible for dramatically reduced dividend
rates for four-and-a-half years (approximately the middle of 2015 if the program is
launched by year-end) and escape the taxpayer-protecting restrictions in CPP in
exchange for no meaningful changes to their small-business lending behavior or
practices. In other words, the taxpayers will be forced to shoulder a reduction — up
to 80% — in dividend payments on the CPP investments, without the benefit of a
corresponding policy outcome. To avoid this anomaly, SIGTARP recommends that
when issuing regulations or other guidance under SBLF, Treasury implement mea-
sures, such as a refinancing fee, that would approximate the difference in dividend
rates unless and until the institution increases its small business lending, and that
are designed to negate the windfall that could accrue to CPP participants seeking
refinancing under the new program.
194   special inspector general I troubled asset relief program




                                             Recommendations Relating to Treasury’s
                                             Monitoring of Compliance with TARP
                                             Requirements by Companies Receiving
                                             Exceptional Assistance
                                             As described in greater detail in SIGTARP’s Quarterly Report to Congress dated
                                             July 21, 2010, on June 29, 2010, SIGTARP released an audit report entitled
                                             “Treasury’s Monitoring of Compliance with TARP Requirements by Companies
                                             Receiving Exceptional Assistance.” The report examined the extent to which
                                             Treasury follows a clear, consistent, and effective process to ensure that companies
                                             receiving exceptional TARP assistance adhere to the requirements of their TARP
                                             agreements, including those regarding internal controls and compliance report-
                                             ing, executive compensation, expense policies, and lobbying. The audit found that
                                             to date, Treasury had not adequately carried out this responsibility in three key
                                             respects: First, Treasury’s compliance implementation had been too slow. Second,
                                             Treasury’s compliance procedures relied too heavily on the companies to detect
                                             and report requirement violations on their own. And third, Treasury’s compliance
                                             staffing levels continued to be inadequate. The audit made three recommendations
                                             designed to remedy these findings.
                                                  Treasury initially acknowledged the report in a letter to SIGTARP dated June
                                             29, 2010, in which it indicated that it “strongly disagreed with many of the state-
                                             ments and two of your recommendations.” Treasury supplied a follow-up letter to
                                             SIGTARP dated August 5, 2010. Both letters are reproduced in full in Appendix H:
                                             “Correspondence.” In its second letter, Treasury reiterated its disagreement with
                                             statements in the report, yet failed to identify a single factual assertion in the audit
                                             report that it characterized as inaccurate. This is not surprising given that Treasury
                                             had a full opportunity to review the report and detail any potential factual errors
                                             before its release. Instead, Treasury argued that rather than focusing on the failings
                                             of Treasury’s efforts to ensure that extraordinary assistance recipients were com-
                                             plying with their obligation to adhere to governance conditions in their contracts,
                                             SIGTARP should have focused on other matters, such as the fact that several of
                                             the recipients of TARP extraordinary assistance had repaid their funds. While true,
                                             this observation is irrelevant to Treasury’s obligation to safeguard the taxpayers’ in-
                                             terest in seeing TARP recipients held strictly accountable for honoring the restric-
                                             tions and conditions that were attached to their receipt of taxpayer money. Indeed,
                                             it is little more than an ends-justify-the-means argument, effectively asserting
                                             that Treasury’s compliance efforts were adequate because Citigroup Inc., Bank of
                                             America Corp., and Chrysler Holding LLC paid back their TARP funds. SIGTARP
                                             rejects this argument in its entirety.
                                                  Repayment does not abrogate the companies’ duties as spelled out in
                                             their agreements with Treasury, nor the obligation of the Office of Financial
                                                                             quarterly report to congress I october 26, 2010   195




Stability-Compliance (“OFS-Compliance”) to ensure that those duties be carried
out consistently. Establishing transparency and confidence in how TARP funds
are spent, which is the primary objective of the compliance stipulations, serves
the essential purpose of ensuring evenhanded and credible administration of the
program. It is therefore a worthy goal in its own right.
    Treasury’s second letter discussed the three specific recommendations from
the audit report. Each is set forth below, followed by a discussion of Treasury’s
response.

Treasury should promptly take steps to verify TARP recipients’ conformance
to their obligations, not only by ensuring that they have adequate compliance
procedures but also by independently testing participants’ compliance.
     Treasury’s initial response, contained in its June 29, 2010, letter, was that
it “strongly disagreed” with this recommendation. In its more recent response,
Treasury has wisely reconsidered this position, acknowledging its “need to test
compliance” and pledging to engage in such testing in the future, but noted that its
“strategy is to conduct testing where we have particular concerns as to risk.” While
SIGTARP applauds Treasury’s belated recognition of the rather basic need not sim-
ply to trust TARP recipients to self-report, Treasury’s strategy of testing only where
it sees potential risk is inadequate.
     Indeed, given that Treasury will continue to rely on self-reporting absent some
recognition of a “risk,” there is diminished likelihood that Treasury will accurately
perceive where and when genuine compliance risks arise. To ensure better com-
pliance, more comprehensive testing would be far superior and is instrumental
for meeting what SIGTARP and Treasury agree is an important objective: the
confirmation that these recipients of extraordinary public assistance have met the
essential terms of their agreements.

Treasury should develop guidelines that apply consistently across TARP par-
ticipants for when a violation is sufficiently material to merit reporting, or in
the alternative, require that all violations be reported.
    Curiously, although Treasury initially indicated that it “strongly disagrees” with
this recommendation, in its more recent response it claims that it is already in
compliance with the spirit of the recommendation and will now memorialize its
approach. But while Treasury acknowledges that “formally articulating an internal
policy could be valuable in ensuring consistency,” it remains “concerned about
creating an inflexible regime where different institutions could not be evaluated in
the context of their necessarily different environments.”
    Although SIGTARP acknowledges that some degree of flexibility may be valu-
able, that flexibility is best provided in the context of principled and consistent
guidance about Treasury’s compliance expectations. Regardless of Treasury’s claims
196   special inspector general I troubled asset relief program




                                             to the contrary, the framework that SIGTARP observed, with its absence of clear
                                             guidelines, afforded exceptional assistance recipients abundant flexibility, but at
                                             too great a potential cost in consistency and transparency. SIGTARP therefore
                                             stands by its recommendation, believing that the recommendation does not hinder
                                             Treasury’s ability to apply well-defined compliance principles to diverse individual
                                             circumstances. Moreover, a clear policy on the matter would itself provide a useful
                                             frame of reference for Treasury’s expressed intention to engage exceptional as-
                                             sistance recipients proactively. If Treasury cannot develop such a policy, it should
                                             adopt the alternative recommendation and require all violations to be reported.

                                             SIGTARP reiterates its previous recommendation concerning the need to add
                                             enough infrastructure and staff at OFS-Compliance to ensure TARP recipi-
                                             ents’ adherence to their compliance obligations.
                                                 In its response to this recommendation, Treasury recognized the need to con-
                                             tinue to hire additional staff in OFS-Compliance in order to execute fully its exist-
                                             ing compliance strategy and stated that it continues to recruit aggressively. Treasury
                                             objected to SIGTARP’s characterization of delays in building the OFS-Compliance
                                             team, calling it “unfair and inaccurate” and asserting that “hiring continues to be
                                             challenged because there is a demand for individuals with the required skills and
                                             offers can be declined due to salary constraints and the limited employment period
                                             for the position.” Treasury further responded by pointing to its broader compliance
                                             efforts.
                                                 While Treasury may well face real challenges in hiring qualified individuals for
                                             particular positions, the fact remains that as currently staffed, OFS-Compliance
                                             is not equipped to implement a comprehensive and effective compliance strategy.
                                             Two years into its administration of TARP, Treasury should not still be seeking to
                                             excuse its failure to complete the critically important task of assembling a robust
                                             compliance staff.


                                             Update on Treasury’s Adoption of SIGTARP’s
                                             Use of Funds Recommendation
                                             From its inception, one of SIGTARP’s earliest and most fundamental recommen-
                                             dations with respect to basic transparency in the operation of TARP has been that
                                             Treasury should require all TARP recipients to report periodically on their use of
                                             TARP funds. The efficacy of this common-sense recommendation — initially made
                                             in December 2008 (just eight days into SIGTARP’s existence) and later examined
                                             through a survey of 364 TARP recipients and supported by an initial audit report
                                             issued in July 2009 — was reconfirmed in a subsequent audit report entitled
                                             “Additional Insight on Use of Troubled Asset Relief Program Funds,” which was
                                             released on December 10, 2009.
                                                                              quarterly report to congress I october 26, 2010   197




   Treasury informed SIGTARP that it intended to adopt the recommendation in
December 2009 and committed to survey and report upon recipients’ use of TARP
funds. As Section 2: “TARP Overview” of this report notes, Treasury has since
sent out its first annual use of capital survey to all TARP recipients and collected
responses from 664, or 94%. These responses, along with a listing of TARP recipi-
ents that did not respond, may be reviewed in detail at www.financialstability.gov/
useofcapital. While SIGTARP commends Treasury for conducting the survey and
publishing its results, that it could not compel universal compliance is unfortunate.
SIGTARP encourages Treasury to continue to periodically survey TARP recipients
on their use of TARP funds.


UPDATE ON SIGTARP’S RECOMMENDATION THAT
TREASURY PERIODICALLY DISCLOSE Public-
private investment funds (“PPIF”) TRADING
ACTIVITY
In SIGTARP’s Quarterly Report to Congress dated July 21, 2009 (the “July 2009
Quarterly Report”) prior to any trading in the Public-Private Investment Program
(“PPIP”), SIGTARP recommended that Treasury periodically disclose PPIF trading
activity. In light of the billions of dollars of taxpayer equity and loans that provide
the majority of funding for the PPIFs, SIGTARP maintains that as a matter of basic
transparency, the public should be permitted to know, to the greatest extent pos-
sible, the activity and holdings in the PPIFs. Such transparency not only dissuades
misconduct and promotes sound management, but also promotes a better public
understanding of PPIP and thus enhances the credibility of PPIP and TARP more
broadly. In addition to transparency, SIGTARP made the recommendation based on
the program’s stated goal of “price discovery,” noting that failure to disclose PPIF
transactions, particularly the price at which such transactions occur, would render
the market far less likely to “discover” market prices. Treasury responded that it
would not make such disclosure because of a concern that disclosure would harm
the PPIFs’ operations by revealing competitive and proprietary information regard-
ing the fund’s investment positions and strategy.
    SIGTARP indicated in the July 2009 Quarterly Report its intention to disclose
this detailed information, redacted as appropriate to avoid the dissemination of any
confidential information that could harm the PPIF investment. Since the PPIFs
commenced trading in October 2009, SIGTARP has engaged in extensive discus-
sions with both Treasury and PPIF managers concerning the appropriate disclosure
of information about PPIF activity. SIGTARP has acknowledged in its quarterly
reports to Congress that publishing security-by-security information may risk harm
to PPIFs during the ramp-up period in which PPIF managers are still building their
198   special inspector general I troubled asset relief program




                                             portfolios. For example, some disclosures could reveal PPIF managers’ investment
                                             strategies, putting them at a disadvantage relative to private investors who could
                                             anticipate a PPIF manager’s target, purchase the securities, and then sell those
                                             securities back to the PPIF at a higher price — a practice the PPIF managers and
                                             Treasury refer to as “front running.” Based on discussions last quarter with PPIF
                                             managers about contemplated redactions to protect against front running and other
                                             potential harms, SIGTARP anticipated publishing redacted PPIF trading activity
                                             in this quarterly report. SIGTARP’s proposed safeguards included publication of all
                                             trades on a six-month lag, redacting the identity of individual PPIF managers from
                                             the trades, redacting brokers, and randomizing trades within the entire program.
                                             SIGTARP was told by one PPIP manager that such safeguards “completely an-
                                             nihilate” the possibility of front running. Since last quarter, SIGTARP and Treasury
                                             have had further discussions with the PPIF managers, some of which have changed
                                             their position regarding the effectiveness of SIGTARP’s contemplated redactions
                                             after their own discussions with Treasury. For example, one manager sent an email
                                             to SIGTARP stating that it had no further objections to security-level reporting
                                             subject to SIGTARP’s proposed measures, and then days later, after communicat-
                                             ing with Treasury, changed its position.
                                                 On October 14, 2010, Treasury wrote a letter to SIGTARP stating its con-
                                             cerns about the level of contemplated disclosure, even with the substantial
                                             safeguards SIGTARP proposed. A copy of the letter is included in Appendix H:
                                             “Correspondence.”	
                                                 Treasury stated that it “strongly believe[s] that the proposed public disclosure…
                                             could provide a material economic windfall to sophisticated financial investors” at
                                             the expense of the PPIFs and taxpayers. In particular, Treasury asserted that the pro-
                                             posed disclosure would put the PPIFs and taxpayers at risk of front running, limit a
                                             PPIF’s negotiating leverage in the market, and potentially harm the PPIF’s returns.
                                             Treasury proposed in the letter that SIGTARP “postpone publishing any detailed in-
                                             formation regarding PPIP transactions until all eight PPIFs have drawn down ninety
                                             percent of their committed capital or June 30, 2011, whichever date is earlier.”
                                             At the end of that period, Treasury proposed that SIGTARP release PPIP transac-
                                             tional information subject to SIGTARP’s proposed safeguards “as well as additional
                                             redactions of purchase price, accrued interest, and factor.” Treasury noted that it
                                             “continues to believe that any public disclosure at any time could allow sophisticated
                                             financial investors to profit at the expense of taxpayers,” but that delayed disclosure
                                             would mitigate that concern. SIGTARP continues to believe that its proposed safe-
                                             guards, including a six-month publication lag time, render the risk of front running
                                             remote in the extreme. Nonetheless, out of an abundance of caution and respect for
                                             Treasury’s concerns, SIGTARP will not disclose the security-by-security information
                                             in this report and will consider Treasury’s request going forward.
SIGTARP Recommendations Table

                                                                                          Partially      In         Not
      Recommendation                                                      Implemented   Implemented   Process   Implemented   TBD/NA Comments
1 * Treasury should include language in the automobile industry
    transaction term sheet acknowledging SIGTARP’s oversight role
    and expressly giving SIGTARP access to relevant documents and
    personnel.                                                                 X
2 * Treasury should include language in new TARP agreements                                                                          Although Treasury has made substantial
    to facilitate compliance and oversight. Specifically, SIGTARP                                                                    efforts to comply with this recommendation
    recommends that each program participant should (1)                                                                              in many of its agreements, there have been
    acknowledge explicitly the jurisdiction and authority of SIGTARP                                                                 exceptions, including in its agreements with
    and other oversight bodies, as relevant, to oversee compliance                                                                   servicers in MHA.
    of the conditions contained in the agreement in question,
    (2) establish internal controls with respect to that condition,
    (3) report periodically to the Compliance department of the
    Office of Financial Stability (“OFS-Compliance”) regarding the
    implementation of those controls and its compliance with
    the condition, and (4) provide a signed certification from an
    appropriate senior official to OFS-Compliance that such report is
    accurate.                                                                                X
3 * All existing TARP agreements, as well as those governing new
    transactions, should be posted on the Treasury website as soon
    as possible.                                                               X
4 * Treasury should require all TARP recipients to report on the actual                                                              See discussion in this section.
    use of TARP funds.                                                         X
5 * Treasury quickly determines its going-forward valuation
    methodology.                                                              X
6 * Treasury begins to develop an overall investment strategy to
    address its portfolio of stocks and decide whether it intends to
    exercise warrants of common stock.                                        X
7 * In formulating the structure of TALF, Treasury should consider                                                                   The Federal Reserve has adopted
    requiring, before committing TARP funds to the program, that                                                                     mechanisms that address this
    certain minimum underwriting standards and/or other fraud                                                                        recommendation.
    prevention mechanisms be put in place with respect to the ABS
    and/or the assets underlying the ABS used for collateral.                 X
8 * Agreements with TALF participants should include an
    acknowledgment that: (1) they are subject to the oversight of
    OFS-Compliance and SIGTARP, (2) with respect to any condition
    imposed as part of TALF, that the party on which the condition
    is imposed is required to establish internal controls with respect
    to each condition, report periodically on such compliance, and
    provide a certification with respect to such compliance.                                                        X
9 * Treasury should give careful consideration before agreeing to the                                                                This recommendation has been implemented
    expansion of TALF to include MBS without a full review of risks                                                                  with respect to CMBS, and the Federal
    that may be involved and without considering certain minimum                                                                     Reserve has announced that it will not be
    fraud protections.                                                        X                                                      expanding TALF to RMBS.
                                                                                                                                                                                    quarterly report to congress I october 26, 2010




10 * Treasury should oppose any expansion of TALF to legacy MBS                                                                      This recommendation has been implemented
     without significant modifications to the program to ensure a full                                                               with respect to CMBS, and the Federal
     assessment of risks associated with such an expansion.                                                                          Reserve has announced that it will not be
                                                                              X                                                      expanding TALF to RMBS.
                                                                                                                                                                                    199




                                                                                                                                                          Continued on next page.
                                                                                                                                                                                     200
SIGTARP Recommendations Table

                                                                                           Partially      In         Not
      Recommendation                                                       Implemented   Implemented   Process   Implemented   TBD/NA Comments
11 * Treasury should formalize its valuation strategy and begin                                                                       Treasury has committed to publish its
     providing values of the TARP investments to the public.                    X                                                     valuation estimates four times each year.
12 * Treasury and the Federal Reserve should provide to SIGTARP, for
     public disclosure, the identity of the borrowers who surrender
     collateral in TALF.                                                                                              X
13 * In TALF, Treasury should dispense with rating agency                                                                             The Federal Reserve has announced that
     determinations and require a security-by-security screening for                                                                  RMBS will not be eligible for TALF loans,
     each legacy RMBS. Treasury should refuse to participate if the                                                                   rendering this recommendation moot.
     program is not designed so that RMBS, whether new or legacy,
     will be rejected as collateral if the loans backing particular
     RMBS do not meet certain baseline underwriting criteria or are
     in categories that have been proven to be riddled with fraud,
     including certain undocumented subprime residential mortgages.                                                              X
14 * In TALF, Treasury should require significantly higher haircuts for                                                               This recommendation has been implemented
     all MBS, with particularly high haircuts for legacy RMBS, or other                                                               with respect to CMBS, and the Federal
     equally effective mitigation efforts.                                                                                            Reserve has announced that it will not be
                                                                                X                                                     expanding TALF to RMBS.
                                                                                                                                                                                     special inspector general I troubled asset relief program




15 * Treasury should require additional anti-fraud and credit protection                                                              The Federal Reserve has adopted
     provisions, specific to all MBS, before participating in an                                                                      mechanisms that address this
     expanded TALF, including minimum underwriting standards and                                                                      recommendation with respect to CMBS, and
     other fraud prevention measures.                                                                                                 has announced that it will not be expanding
                                                                               X                                                      TALF to RMBS.
16 * Treasury should design a robust compliance protocol with
     complete access rights to all TALF transaction participants for
     itself, SIGTARP, and other relevant oversight bodies.                                                           X
17 * Treasury should not allow Legacy Securities PPIFs to invest
     in TALF unless significant mitigating measures are included to
     address these dangers.                                                    X
18 * All TALF modeling and decisions, whether on haircuts or any other
     credit or fraud loss mechanisms, should account for potential
     losses to Government interests broadly, including TARP funds, and
     not just potential losses to the Federal Reserve.                         X
19 * Treasury should address the confusion and uncertainty on
     executive compensation by immediately issuing the required
     regulations.                                                              X
20    Treasury should significantly increase the staffing levels of                                                                   See discussion in this section.
      OFS-Compliance and ensure the timely development and
      implementation of an integrated risk management and compliance
      program.                                                                                           X
                                                                                                                                                           Continued on next page.
SIGTARP Recommendations Table

                                                                                               Partially      In         Not
      Recommendation                                                           Implemented   Implemented   Process   Implemented   TBD/NA Comments
21 * Treasury should require CAP participants to (1) establish an                                                                         Treasury closed the program with no
     internal control to monitor their actual use of TARP funds, (2)                                                                      investments having been made, rendering
     provide periodic reporting on their actual use of TARP funds, (3)                                                                    this recommendation moot.
     certify to OFS-Compliance, under the penalty of criminal sanction,
     that the report is accurate, that the same criteria of internal
     controls and regular certified reports should be applied to all
     conditions imposed on CAP participants, and (4) acknowledge
     explicitly the jurisdiction and authority of SIGTARP and other
     oversight bodies, as appropriate, to oversee conditions contained
     in the agreement.                                                                                                               X
22 * Treasury should impose strict conflict-of-interest rules upon PPIF                                                                   Treasury has adopted some significant
     managers across all programs that specifically address whether                                                                       conflict-of-interest rules related to this
     and to what extent the managers can (1) invest PPIF funds in                                                                         recommendation, but has failed to impose
     legacy assets that they hold or manage on behalf of themselves                                                                       other significant safeguards.
     or their clients or (2) conduct PPIF transactions with entities in
     which they have invested on behalf of themselves or others.                                  X
23 * Treasury should require that all PPIF fund managers (1) have                                                                         Treasury’s agreements with PPIF managers
     stringent investor-screening procedures, including comprehensive                                                                     include investor-screening procedures such
     “Know Your Customer” requirements at least as rigorous as that                                                                       as “Know Your Customer” requirements.
     of a commercial bank or retail brokerage operation to prevent                                                                        Treasury has agreed that it will have access
     money laundering and the participation of actors prone to abusing                                                                    to any information in a fund manager’s
     the system, and (2) be required to provide Treasury with the                                                                         possession relating to beneficial owners.
     identities of all the beneficial owners of the private interests in the                                                              However, Treasury is not making an
     fund so that Treasury can do appropriate diligence to ensure that                                                                    affirmative requirement that managers obtain
     investors in the funds are legitimate.                                                       X                                       and maintain beneficial owner information.
24 * Treasury should require most-favored-nation clauses, PPIF
     managers to acknowledge that they owe Treasury a fiduciary
     duty, and that each manager adopt a robust ethics policy and
     compliance apparatus.                                                          X
25    Treasury should require servicers in MHA to submit third-party                                                                      Treasury has decided to adopt this important
      verified evidence that the applicant is residing in the subject                                                                     SIGTARP recommendation and stated that
      property before funding a mortgage modification.                                                                                    its program administrator Fannie Mae is
                                                                                                                                          in the process of hiring a third-party entity
                                                                                                                                          to perform a fraud-detection surveillance
                                                                                                                                          process to review loan level data to check
                                                                                                                                          for owner occupancy and identity of the
                                                                                                             X                            borrower.
                                                                                                                                                               Continued on next page.
                                                                                                                                                                                          quarterly report to congress I october 26, 2010
                                                                                                                                                                                          201
SIGTARP Recommendations Table                                                                                                                                                          202

                                                                                            Partially      In         Not
      Recommendation                                                        Implemented   Implemented   Process   Implemented   TBD/NA Comments
26 * In MHA, Treasury should require a closing-like procedure be                                                                       See discussion in Section 5: “SIGTARP
     conducted that would include (1) a closing warning sheet that                                                                     Recommendations” of SIGTARP’s October
     would warn the applicant of the consequences of fraud; (2)                                                                        2009 Quarterly Report.
     the notarized signature and thumbprint of each participant;
     (3) mandatory collection, copying, and retention of copies of
     identification documents of all participants in the transaction; (4)
     verbal and written warnings regarding hidden fees and payments
     so that applicants are made fully aware of them; (5) the benefits
     to which they are entitled under the program (to prevent a corrupt
     servicer from collecting payments from the Government and not
     passing the full amount of the subsidies to the homeowners); and
     (6) the fact that no fee should be charged for the modification.                          X
27    Additional anti-fraud protections should be adopted in MHA to                                                                    Treasury stated that it is working with
      verify the identity of the participants in the transaction and to                                                                its program administrator Fannie Mae to
      address the potential for servicers to steal from individuals                                                                    test a new fraud detection program and
      receiving Government subsidies without applying them for the                                                                     working with its compliance agent Freddie
      benefit of the homeowner.                                                                                                        Mac to develop procedures designed to
                                                                                                                                       address this recommendation. SIGTARP will
                                                                                                                                       continue to monitor implementation of this
                                                                                                          X                            recommendation.
                                                                                                                                                                                       special inspector general I troubled asset relief program




28 * In MHA, Treasury should require the servicer to compare the
     income reported on a mortgage modification application with the
     income reported on the original loan applications.                                                                X
29 * In MHA, Treasury should require that verifiable, third-party
     information be obtained to confirm an applicant’s income before
     any modification payments are made.                                         X
30 * In MHA, Treasury should defer payment of the $1,000 incentive                                                                     Rather than deferring payment of the
     to the servicer until after the homeowner has verifiably made a                                                                   incentive until after the homeowner has
     minimum number of payments under the mortgage modification                                                                        verifiably made a minimum number of
     program.                                                                                                                          payments on its permanent modification,
                                                                                                                                       Treasury will pay the incentive after the
                                                                                                                                       servicer represents that the homeowner has
                                                                                                                       X               made three payments during the trial period.
31 * In MHA, Treasury should proactively educate homeowners about
     the nature of the program, warn them about modification rescue
     fraudsters, and publicize that no fee is necessary to participate in
     the program.                                                                X
32 * In MHA, Treasury should require its agents to keep track of the                                                                   While Treasury’s program administrator,
     names and identifying information for each participant in each                                                                    Fannie Mae, has developed a HAMP system
     mortgage modification transaction and to maintain a database of                                                                   of record that maintains the servicers’ and
     such information.                                                                                                                 investors’ names and participating borrowers’
                                                                                                                                       personally identifiable information, such as
                                                                                                                                       names and addresses, the database is not
                                                                                                                                       constructed to maintain other information
                                                                                                                                       that may assist in detecting insiders who are
                                                                                               X                                       committing large-scale fraud.
                                                                                                                                                            Continued on next page.
SIGTARP Recommendations Table

                                                                                             Partially      In         Not
      Recommendation                                                         Implemented   Implemented   Process   Implemented   TBD/NA Comments
33 * Treasury should require the imposition of strict information
     barriers or “walls” between the PPIF managers making investment
     decisions on behalf of the PPIF and those employees of the fund
     management company who manage non-PPIF funds.                                                                      X
34 * Treasury should periodically disclose PPIF trading activity and                                                                    See discussion in this section.
     require PPIF managers to disclose to SIGTARP, within seven
     days of the close of the quarter, all trading activity, holdings,
     and valuations so that SIGTARP may disclose such information,
     subject to reasonable protections, in its quarterly reports.                                                       X
35    Treasury should define appropriate metrics and an evaluation                                                                      After one year of trading by the PPIFs,
      system should be put in place to monitor the effectiveness of the                                                                 Treasury stated that it is still difficult to
      PPIF managers, both to ensure they are fulfilling the terms of their                                                              specify a benchmark by which performance
      agreements and to measure performance.                                                                                            of a PPIF can be measured. Treasury stated
                                                                                                                                        that it will begin to review each PPIF’s net
                                                                                                                                        internal rate of return relative to the returns
                                                                                                                                        each PPIF manager proposed to Treasury
                                                                                                                                        and to private PPIF investors. Treasury stated
                                                                                                                                        that it is also looking for a subcontractor to
                                                                                                                                        assist with providing analytics and metrics on
                                                                                                                                        the PPIF portfolio. SIGTARP will continue to
                                                                                                                        X               monitor Treasury’s progress in this area.
36 * The conditions that give Treasury “cause” to remove a PPIF                                                                         Treasury has refused to adopt this
     manager should be expanded to include a manager’s performance                                                                      recommendation, relying solely on Treasury’s
     below a certain standard benchmark, or if Treasury concludes that                                                                  right to end the investment period after 12
     the manager has materially violated compliance or ethical rules.                                                                   months. During this time the PPIF manager’s
                                                                                                                                        performance may continue to fall below
                                                                                                                                        a standard benchmark, potentially putting
                                                                                                                        X               significant Government funds at risk.
37 * Treasury should require PPIF managers to disclose to Treasury,
     as part of the Watch List process, not only information about
     holdings in eligible assets but also holdings in related assets or
     exposures to related liabilities.                                            X
38 * Treasury should require PPIF managers to obtain and maintain                                                                       Treasury has agreed that it can have access
     information about the beneficial ownership of all of the private                                                                   to any information in a fund manager’s
     equity interests, and Treasury should have the unilateral ability to                                                               possession relating to beneficial owners.
     prohibit participation of private equity investors.                                                                                However, Treasury is not making an
                                                                                                                                        affirmative requirement that managers obtain
                                                                                                                                        and maintain beneficial owner information.
                                                                                                                                        Treasury will not adopt the recommendation
                                                                                                                                        to give itself unilateral ability to deny access
                                                                                                                                        to or remove an investor, stating that such a
                                                                                                                        X               right would deter participation.
                                                                                                                                                              Continued on next page.
                                                                                                                                                                                           quarterly report to congress I october 26, 2010
                                                                                                                                                                                           203
SIGTARP Recommendations Table                                                                                                                                                           204

                                                                                            Partially      In         Not
      Recommendation                                                        Implemented   Implemented   Process   Implemented   TBD/NA Comments
39 * Treasury and FRBNY should (1) examine Moody’s assertions that                                                                     Treasury and the Federal Reserve have
     some credit rating agencies are using lower standards to give a                                                                   discussed concerns about potential
     potential TALF security the necessary AAA rating and (2) develop                                                                  overrating or rating shopping with the rating
     mechanisms to ensure that acceptance of collateral in TALF is not                                                                 agencies, and have agreed to continue to
     unduly influenced by the improper incentives to overrate that exist                                                               develop and enhance risk management tools
     among the credit agencies.                                                  X                                                     and processes, where appropriate.
40 * Treasury should more explicitly document the vote of each
     Investment Committee member for all decisions related to the
     investment of TARP funds.                                                   X
41 * Treasury should improve existing control systems to document
     the occurrence and nature of external phone calls and in-person
     meetings about actual and potential recipients of funding under
     the CPP and other similar TARP-assistance programs to which
     they may be part of the decision making.                                    X
42 * The Secretary of the Treasury should direct the Special Master
     to work with FRBNY officials in understanding AIG compensation
     programs and retention challenges before developing future
     compensation decisions that may affect both institutions’ ability to
     get repaid by AIG for Federal assistance provided.                         X
                                                                                                                                                                                        special inspector general I troubled asset relief program




43 * Treasury should establish policies to guide any similar future                                                                    Treasury stated that it does not anticipate
     decisions to take a substantial ownership position in financial                                                                   taking a substantial percentage ownership
     institutions that would require an advance review so that Treasury                                                                position in any other financial institution
     can be reasonably aware of the obligations and challenges facing                                                                  pursuant to EESA.
     such institutions.                                                                                                           X
44 * Treasury should establish policies to guide decision making in                                                                    Treasury has agreed to work closely with
     determining whether it is appropriate to defer to another agency                                                                  other Federal agencies that are involved in
     when making TARP programming decisions where more than one                                                                        TARP.
     Federal agency is involved.                                                              X
45 * Treasury should rectify the confusion that its own statements
     have caused for HAMP by prominently disclosing its goals
     and estimates (updated over time, as necessary) of how
     many homeowners the program will help through permanent
     modifications and report monthly on its progress toward meeting
     that goal.                                                                                                       X
46 * Treasury should develop other performance metrics and publicly                                                                    Although Treasury has increased its reporting
     report against them to measure over time the implementation                                                                       of servicer performance, it has not identified
     and success of HAMP. For example, Treasury could set goals and                                                                    goals and measured performance against
     publicly report against those goals for servicer processing times,                                                                those goals.
     modifications as a proportion of a servicer’s loans in default,
     modifications as a proportion of foreclosures generally, rates of
     how many borrowers fall out of the program prior to permanent
     modification, and re-default rates.                                                                              X
                                                                                                                                                            Continued on next page.
SIGTARP Recommendations Table

                                                                                           Partially      In         Not
       Recommendation                                                      Implemented   Implemented   Process   Implemented   TBD/NA Comments
47 * Treasury should undertake a sustained public service campaign as
     soon as possible, both to reach additional borrowers who could
     benefit from the program and to arm the public with complete,
     accurate information — this will help to avoid confusion and delay,
     and prevent fraud and abuse.                                               X
48 * Treasury should reconsider its position that allows servicers
     to substitute alternative forms of income verification based on
     subjective determinations by the servicer.                                                                       X
49 * Treasury should re-examine HAMP’s structure to ensure that it                                                                    Treasury has adopted some programs to
     is adequately minimizing the risk of re-default stemming from                                                                    address concerns of negative equity but has
     non-mortgage debt, second liens, partial interest rate resets after                                                              not addressed other factors contained in this
     the five-year modifications end, and from many borrowers being                                                                   recommendation.
     underwater.                                                                              X
50 * Treasury should institute careful screening before putting                                                                       Treasury has stated that it has implemented
     additional capital into an institution with insufficient capital to                                                              this recommendation. SIGTARP will
     ensure that the TARP matching funds are not flowing into an                                                                      examine Treasury’s implementation of the
     institution that is on the verge of failure.                               X                                                     recommendation.
51 * Treasury should develop a robust procedure to audit and verify                                                                   Treasury has stated that it has implemented
     the bona fides of any purported capital raise and to establish                                                                   this recommendation. SIGTARP will
     adequate controls to verify the source, amount and closing of all                                                                examine Treasury’s implementation of the
     claimed private investments.                                               X                                                     recommendation.
52 * Treasury should revise CDCI terms to clarify that Treasury
     inspection and copy rights continue until the entire CDCI
     investment is terminated. Additionally, consistent with
     recommendations made in connection with other TARP programs,
     the terms should be revised to provide expressly that SIGTARP
     shall have access to the CDFI’s records equal to that of Treasury.         X
53 * Treasury should consider more frequent surveys than annually as
     currently contemplated. Quarterly surveys would more effectively
     emphasize the purpose of CDCI.                                                                                   X
54 * Treasury should ensure that more detail is captured by the                                                                       Treasury has recently indicated that it has
     Warrant Committee meeting minutes. At a minimum, the minutes                                                                     implemented this recommendation.
     should include the members’ qualitative considerations regarding
     the reasons bids were accepted or rejected within fair market
     value ranges.                                                             X
55 * Treasury should document in detail the substance of all                                                                          Treasury has agreed to document the dates,
     communications with recipients concerning warrant repurchases.                                                                   participants, and subject line of calls. It has
                                                                                                                                      refused to document the substance of such
                                                                                                                     X                conversations.
56     Treasury should develop and follow guidelines and internal                                                                     Treasury has indicated that it will adopt
       controls concerning how negotiations will be pursued, including                                                                formal procedures designed to address this
                                                                                                                                                                                        quarterly report to congress I october 26, 2010




       the degree and nature of information to be shared with                                                                         recommendation.
       repurchasing institutions concerning Treasury’s valuation of the
       warrants.                                                               X
                                                                                                                                                            Continued on next page.
                                                                                                                                                                                        205
                                                                                                                                                                                                            206
SIGTARP Recommendations Table

                                                                                                                  Partially      In         Not
        Recommendation                                                                            Implemented   Implemented   Process   Implemented   TBD/NA Comments
57      Treasury should promptly take steps to verify TARP participants’                                                                                     See discussion in this section.
        conformance to their obligations, not only by ensuring that they
        have adequate compliance procedures but also by independently
        testing participants’ compliance.                                                                            X
58      Treasury should develop guidelines that apply consistently across                                                                                    See discussion in this section.
        TARP participants for when a violation is sufficiently material to
        merit reporting, or in the alternative require that all violations be
        reported.                                                                                                               X
59 * For each HAMP-related program and subprogram, Treasury should                                                                                           Treasury has provided anticipated costs, but
     publish the anticipated costs and expected participation in each                                                                                        not expected participation.
     and that, after each program is launched, it report monthly as to
     the program’s performance against these expectations.                                                           X
60 * Treasury should re-evaluate the voluntary nature of its principal                                                                                       Treasury plans to maintain the voluntary
     reduction program and, irrespective of whether it is discretionary                                                                                      nature of the program, providing an
     or mandatory, consider changes to better maximize its                                                                                                   explanation that on its face seems
     effectiveness, ensure to the greatest extent possible the                                                                                               unpersuasive to SIGTARP. We will further
     consistent treatment of similarly situated borrowers, and address                                                                                       review performance progress and any
     potential conflict of interest issues.                                                                                                                  changes Treasury makes to the program
                                                                                                                                                                                                            special inspector general I troubled asset relief program




                                                                                                                                                        X    over the next quarter.
61 * Treasury should adopt a uniform appraisal process across
     all HAMP and HAMP-related short-sale and principal reduction
     programs consistent with FHA’s procedures.                                                                                              X
62 * Treasury should reconsider the length of the minimum term of                                                                                            Treasury plans to maintain the existing
     HAMP’s unemployment forbearance program.                                                                                                                minimum term, providing an explanation that
                                                                                                                                                             on its face seems unpersuasive to SIGTARP.
                                                                                                                                                             We will further review performance progress
                                                                                                                                                        X    over the next quarter.
63 * Treasury should launch a broad-based information campaign,
     including public service announcements in target markets that
     focus on warnings about potential fraud, and include conspicuous
     fraud warnings whenever it makes broad public announcements
     about the program.                                                                                X

Note: * Indicates that Treasury considers the recommendation closed and will take no further action.
                                                                                               quarterly report to congress I october 26, 2010                    207


1. 	    As noted in the press, several major home loan servicers have halted foreclosures recently, either nationwide or in particular states. While this may
        depress the number of foreclosures recorded in the near term, the number of distressed homeowners facing the prospect of foreclosure still remains at
        historic highs.
2. 	    In October 2009 Treasury started to encounter challenges with its website counting system, and, as a result, it changed to a new system in January
        2010. SIGTARP has calculated the total number of website hits reported herein based on the number reported to SIGTARP as of September 30, 2009,
        plus an archived number provided by Treasury for the period of October–December 2009, and information generated from Treasury’s new system for
        the period January–September 2010.
3. 	    Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
        9-30-10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, response to SIGTARP data call, 10/8/2010; Treasury,
        response to SIGTARP data call, 10/13/2010; Treasury, response to SIGTARP data call, 10/14/2010; Treasury, TARP/Financial Stability Plan Budget
        Table, 10/4/2010; Treasury, response to SIGTARP data call, 10/21/2010. The $82.0 billion available for spend does not include $5.0 billion related to
        AGP since this amount was not an actual cash outlay.
4. 	    Emergency Economic Stabilization Act of 2008, P.L.110-343, 10/3/2008, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=110_cong_pub-
        lic_laws&docid=f:publ343.pdf, accessed 8/19/2010.
5. 	    Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy for
        TARP,” 12/9/2009, www.ustreas.gov/press/releases/tg433.htm, accessed 8/23/2010.
6. 	    Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=110_cong_pub-
        lic_laws&docid=f:publ343.pdf, accessed 8/19/2010.
7. 	    The White House Blog, “President Obama Signs Wall Street Reform: ‘No Easy Task’,” 7/21/2010, www.whitehouse.gov/blog/2010/07/21/president-
        obama-signs-wall-street-reform-no-easy-task, accessed 8/24/2010; Library of Congress, Bill Summary & Status, 111th Congress, 2009-2010, H.R.
        4173, no date, http://thomas.loc.gov/cgi-bin/bdquery/z?d111:H.R.4173, accessed 8/27/2010.
8. 	    Treasury, Section 105(a) Report, 8/10/2010, www.financialstability.gov/docs/105CongressionalReports/July%202010%20105(a)%20Report_Final.pdf,
        accessed 9/1/2010.
9. 	    Treasury, Section 105(a) Report, 8/10/2010, www.financialstability.gov/docs/105CongressionalReports/July%202010%20105(a)%20Report_Final.pdf,
        accessed 9/1/2010.
10. 	   Treasury, response to SIGTARP data call, 10/7/2010. According to Treasury, the current PPIP obligation is $22.4 billion; this includes $365.25 million
        of an initial obligation to TCW that was funded. TCW repaid the funds that were invested in its PPIF. Treasury, Transactions Report, 9/30/2010, www.
        financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/7/2010.
11. 	   Office of Management and Budget, “Mid-Session Review, Budget of the U.S. Government – Fiscal Year 2011,” 7/23/2010, www.whitehouse.gov/sites/
        default/files/omb/budget/fy2011/assets/11msr.pdf, accessed 8/19/2010.
12. 	   For $117 billion, see Office of Management and Budget, “Budget of the U.S. Government – Fiscal Year 2011,” 2/1/2010, www.whitehouse.gov/omb/
        budget/fy2011/assets/budget.pdf, accessed 9/1/2010.
13. 	   Congressional Budget Office, Director’s Blog, “CBO Releases Its Annual Summer Update of the Budget and Economic Outlook: CBO’s Latest
        Projections for the TARP,” 8/20/2010, http://cboblog.cbo.gov/?p=1322, accessed 8/23/2010.
14. 	   Treasury, response to SIGTARP data call, 10/7/2010.
15. 	   Treasury, response to SIGTARP data call, 10/7/2010.
16. 	   Treasury, “Troubled Asset Relief Program: Two Year Retrospective,” 10/5/2010, www.financialstability.gov/docs/TARP%20Two%20Year%20
        Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/7/2010.
17. 	   Treasury, Section 105(a) Report, 8/10/2010, www.financialstability.gov/docs/105CongressionalReports/July%202010%20105(a)%20Report_Final.
        pdf, accessed 9/1/2010. The $698.8 billion represents the $700 billion authorized for TARP by EESA less the $1.2 billion reduction as a result of the
        Helping Families Save Their Homes Act of 2009 (P.L. 111-22). The Library of Congress, “Helping Families Save Their Homes Act of 2009,” 1/6/2009,
        http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:s896enr.txt.pdf, accessed 10/8/2010.
18. 	   Treasury, Section 105(a) Report, 8/10/2010, www.financialstability.gov/docs/105CongressionalReports/July%202010%20105(a)%20Report_Final.
        pdf, accessed 9/1/2010. The $698.8 billion represents the $700 billion authorized for TARP by EESA less the $1.2 billion reduction as a result of the
        Helping Families Save Their Homes Act of 2009 (P.L. 111-22). The Library of Congress, “Helping Families Save Their Homes Act of 2009,” 1/6/2009,
        http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:s896enr.txt.pdf, accessed 10/8/2010.
19. 	   Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
        9-30-10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, response to SIGTARP data call, 10/8/2010; Treasury,
        response to SIGTARP data call, 10/13/2010; Treasury, response to SIGTARP data call, 10/14/2010; Treasury, TARP/Financial Stability Plan Budget
        Table, 10/4/2010; Treasury, response to SIGTARP data call, 10/21/2010.
20. 	   As of October 3, 2010, 122 TARP recipients in various programs had repaid their TARP funds. Under CPP, 119 TARP recipients had repaid a total
        of $152.8 billion. Chrysler Financial LLC, General Motors, and Chrysler had repaid their TARP funds under AIFP totaling $11.2 billion. Under TIP,
        Bank of America and Citigroup had repaid $40 billion. Under PPIP, two PPIFs repaid a total of $428 million. Treasury and Citigroup also terminated
        their agreement under AGP, reducing Treasury’s exposure by $5 billion. Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/trans-
        action-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/7/2010.
21. 	   Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
        9-30-10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, response to SIGTARP data call, 10/8/2010; Treasury,
        response to SIGTARP data call, 10/13/2010; Treasury, response to SIGTARP data call, 10/14/2010; Treasury, TARP/Financial Stability Plan Budget
        Table, 10/4/2010; Treasury, response to SIGTARP data call, 10/21/2010. The $82.0 billion available for spend does not include $5.0 billion related to
        AGP since this amount was not an actual cash outlay.
22. 	   Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=110_cong_pub-
        lic_laws&docid=f:publ343.pdf, accessed 8/19/2010.
23. 	   Treasury, response to SIGTARP data call, 10/14/2010; Treasury, response to SIGTARP data call, 10/18/2010; Treasury, Section 105(a) Report,
        10/11/2010, http://www.financialstability.gov/docs/105CongressionalReports/September%20105(a)%20report_FINAL.pdf, accessed 10/18/2010;
        Treasury, response to SIGTARP data call, 10/20/2010.
208             special inspector general I troubled asset relief program




      24. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
            9-30-10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/7/2010; Treasury, response to SIGTARP data call, 10/8/2010; Treasury,
            response to SIGTARP data call, 10/13/2010; Treasury, response to SIGTARP data call, 10/14/2010; Treasury, TARP/Financial Stability Plan Budget
            Table, 10/4/2010; Treasury, response to SIGTARP data call, 10/21/2010. The $82.0 billion available for spend does not include $5.0 billion related to
            AGP since this amount was not an actual cash outlay.
      25. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
      26. 	 Treasury Press Release, “Relief for Responsible Homeowners One Step Closer Under New Treasury Guidelines,” 3/4/2009, www.financialstability.gov/
            latest/tg48.html, accessed 7/7/2010.
      27. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
      28. 	 Treasury, “Home Affordable Modification Program — Overview,” no date, www.hmpadmin.com/portal/programs/hamp.html, accessed 8/19/2010.
      29. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010; Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010; Treasury, response to SIGTARP data call, 10/21/2010.
      30. 	 Treasury, response to SIGTARP data call, 10/8/2010.
      31. 	 Treasury, response to SIGTARP data call, 10/8/2010.
      32. 	 Treasury, response to SIGTARP data call, 10/15/2010.
      33. 	 Treasury, response to SIGTARP data call, 10/15/2010; Fannie Mae, response to SIGTARP data call, 10/20/2010.
      34. 	 Treasury, “Housing Finance Agency Innovation Fund for the Hardest Hit Housing Markets,” 3/5/2010, www.makinghomeaffordable.gov/docs/HFA%20
            FAQ%20--%20030510%20FINAL%20(Clean).pdf, accessed 7/12/2010.
      35. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
            9-30-10.pdf, accessed 10/7/2010; Treasury, “Update to the HFA Hardest Hit Fund Frequently Asked Questions,” 3/29/2010, http://financialstability.
            gov/docs/Hardest%20Hit%20public%20QA%200%2029%2010.pdf, accessed 3/29/2010; Treasury, “Housing Finance Agency Innovation Fund for the
            Hardest Hit Housing Markets,” 3/5/2010, www.makinghomeaffordable.gov/docs/HFA%20FAQ%20--%20030510%20FINAL%20(Clean).pdf, ac-
            cessed 7/12/2010; Treasury Press Release, “Obama Administration Announces Initial Support for Targeted Foreclosure-Prevention Programs to Help
            Homeowners Struggling with Unemployment,” 8/11/2010, www.treas.gov/press/releases/tg823.htm, accessed 8/23/2010.
      36. 	 Treasury, response to SIGTARP data call, 10/7/2010.
      37. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010; Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010; Treasury, response to SIGTARP data call, 10/21/2010.
      38. 	 Treasury, response to SIGTARP data call, 10/8/2010.
      39. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 7/7/2010.
      40. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 7/7/2010.
      41. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/13/2010.
      42. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
      43. 	 Treasury Press Release, “Treasury Department Releases Text of Letter from Secretary Geithner to Hill Leadership on Administration’s Exit Strategy
            for TARP,” 12/9/2009, www.financialstability.gov/latest/pr_12092009.html, accessed 8/19/2010; for date CPP was closed, see last investment date in
            Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
      44. 	 Treasury, response to SIGTARP draft report, 10/8/2010.
      45. 	 Treasury, “Frequently Asked Questions,” no date, www.financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      46. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
      47. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
      48. 	 White House, “President Obama Signs Small Business Jobs Act – Learn What’s In It,” 9/27/2010, www.whitehouse.gov/blog/2010/09/27/president-
            obama-signs-small-business-jobs-act-learn-whats-it, accessed 9/28/2010.
      49. 	 The Library of Congress, “H.R. 5297, Small Business Jobs Act,” 9/27/2010, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_
            bills&docid=f:h5297enr.txt.pdf, accessed 9/28/2010.
      50. 	 The Library of Congress, “H.R. 5297, Small Business Jobs Act,” 9/27/2010, http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_
            bills&docid=f:h5297enr.txt.pdf, accessed 9/28/2010.
      51. 	 Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 7/7/2010.
      52. 	 The $40 billion Series D cumulative preferred shares were effectively converted to $41.6 billion Series E non-cumulative preferred without any
            cash outlay by Treasury. Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20
            Report%20as%20of%209-30-10.pdf, accessed 10/7/2010.
      53. 	 Treasury, response to SIGTARP data call, 10/7/2010.
      54. 	 Treasury, response to SIGTARP data call, 10/8/2010; Treasury, response to SIGTARP data call, 10/14/2010.
      55. 	 Treasury, response to SIGTARP data call, 10/7/2010.
      56. 	 Treasury, “Troubled Asset Relief Program: Two Year Retrospective,” 10/5/2010, www.financialstability.gov/docs/TARP%20Two%20Year%20
            Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/5/2010.
      57. 	 OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 7/7/2010.
      58. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
      59. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
            10.pdf, accessed 10/7/2010.
                                                                                              quarterly report to congress I october 26, 2010                    209


60. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010.
61. 	 OFS, Agency Financial Report, Fiscal Year 2009, 12/10/2009, www.treas.gov/press/releases/OSF%20AFR%2009.pdf, accessed 7/7/2010.
62. 	 Treasury Press Release, “U.S. Government Finalizes Terms of Citi Guarantee Announced in November,” 12/16/2009, www.financialstability.gov/latest/
      hp1358.html, accessed 7/7/2010.
63. 	 Senate, “Report Pursuant to Section 129 of the Emergency Economic Stabilization Act of 2008: Authorization to Provide Residual Financing to
      Citigroup, Inc. For a Designated Asset Pool,” 11/23/2008, www.banking.senate.gov/public/_files/Sec129ReportCitigroupDec12008.pdf, accessed
      8/19/2010.
64. 	 Treasury, Section 105(a) Report, 1/11/2010, www.financialstability.gov/docs/105CongressionalReports/December%20105(a)_final_1-11-10.pdf, ac-
      cessed 7/10/2010.
65. 	 Treasury, response to SIGTARP draft, 10/8/2010.
66. 	 Board of Governors of the Federal Reserve System Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.
      htm, accessed 8/23/2010.
67. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 8/23/2010.
68. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 8/23/2010;
      FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/TALF_recent_opera-
      tions.html, accessed 8/24/2010; for $23.9 billion TALF loans outstanding see FRBNY, response to SIGTARP data call,10/7/2010.
69. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS”, no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 8/23/2010;
      FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS, Recent Operations,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.
      html, accessed 8/24/2010; for $5.8 billion in loans outstanding, see FRBNY, response to SIGTARP data call, 10/7/2010.
70. 	 Board of Governors of the Federal Reserve System Press Release, untitled, 11/25/2008, www.federalreserve.gov/newsevents/press/monetary/20081125a.
      htm, accessed 8/23/2010.
71. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010; FRBNY, response to SIGTARP data call,10/7/2010.
72. 	 Treasury, “Public-Private Investment Program,” 12/2/2009, www.financialstability.gov/roadtostability/publicprivatefund.html, accessed 7/7/2010.
73. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/7/2010. According to Treasury, the current PPIP obligation is $22.4 billion;
      this includes $365.25 million of an initial obligation to TCW that was funded. TCW repaid the funds that were invested in its PPIF.
74. 	 Treasury, “Troubled Asset Relief Program: Two Year Retrospective,” 10/5/2010, www.financialstability.gov/docs/TARP%20Two%20Year%20
      Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/5/2010. Expenditures of $14.2 billion for PPIP include $0.4 billion of the initial
      obligation to TCW that was funded. The $0.4 billion was paid to TCW, and TCW subsequently repaid the funds that were invested in its PPIF.
75. 	 Treasury, response to SIGTARP draft report, 10/8/2010.
76. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/17/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.
      html, accessed 7/7/2010.
77. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010, http://
      financialstability.gov/docs/agreements/Coastal%20Securities,%20Inc.pdf, accessed 8/19/2010; Treasury, response to SIGTARP data call, 10/7/2010;
      Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010,
      www.financialstability.gov/docs/agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).
      pdf73485877_2, accessed 10/8/2010.
78. 	 Treasury, “Financial Agency Agreement for Asset Management Services for SBA Related Loans and Securities,” 3/16/2009, http://financialstability.gov/
      docs/ContractsAgreements/TARP%20FAA%20SBA%20Asset%20Manager%20-%20Final%20to%20be%20posted.pdf, accessed 8/31/2010; Treasury,
      “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” signed 3/2/2010, http://financialstabil-
      ity.gov/docs/agreements/Coastal%20Securities,%20Inc.pdf, accessed 8/19/2010; Treasury, “Master Purchase Agreement for SBA Pooled Certificates and
      Senior Securities Issued by SBA Pool Assemblers,” signed 8/27/2010, www.financialstability.gov/docs/agreements/Executed%20Copy%20of%20Shay%20
      Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 10/8/2010.
79. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010. According to Treasury, the difference between the $380 million total obligation and the $357 million in total purchases is
      due to an additional 20% value added to net monies projected for each trade that has not yet settled. The obligations will be adjusted on the settlement
      date. Treasury, response to SIGTARP data call, 10/13/2010.
80. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed
      7/7/2010.
81. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010.
82. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/12/2010; Treasury, response to SIGTARP data call, 10/14/2010; Treasury,
      response to SIGTARP data call, 10/18/2010.
83. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010.
84. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP draft report, 10/8/2010.
85. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP draft report, 10/8/2010.
86. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
      10.pdf, accessed 10/7/2010.
87. 	 Treasury, “Auto Supplier Support Program: Stabilizing the Auto Industry at a Time of Crisis,” no date, www.ustreas.gov/press/releases/docs/supplier_
      support_program_3_18.pdf, accessed 8/23/2010.
210             special inspector general I troubled asset relief program



      88. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/7/2010.
      89. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/7/2010.
      90. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/7/2010.
      91. 	 Congressional Oversight Panel, “Accounting for the Troubled Asset Relief Program,” 6/10/2010, http://cop.senate/gov/documents/cop-061010-report.
             pdf, accessed 8/15/2010; Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20
             Report%20as%20of%209-30-10.pdf, accessed 10/7/2010; Treasury, response to SIGTARP data call, 10/12/2010; Treasury, response to SIGTARP data
             call, 10/18/2010.
      92. 	 Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the Oversight and
             Government Reform Committee,” 12/17/2009, http://financialstability.gov/latest/st_12172009.html, accessed 7/7/2010; Treasury, Transactions Report,
             9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/7/2010.
      93. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed
             7/2/2010.
      94. 	 Treasury, “Home Affordable Modification Program: Overview,” www.hmpadmin.com/portal/programs/hamp.html, accessed 3/1/2010.
      95. 	 Treasury, “Making Home Affordable Updated Detailed Program Description,” www.treas.gov/press/releases/reports/housing_fact_sheet.pdf, accessed
             7/2/2010.
      96. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010.
      97. 	 Treasury, “MHA Handbook for Servicers of Non-GSE Mortgages, Version 2.0,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_servicer/mhahand-
             book.pdf, accessed 9/30/2010.
      98. 	 Congressional Budget Office, “Report on the Troubled Asset Relief Program,” March 2010, www.cbo.gov/ftpdocs/112xx/doc11227/03-17-TARP.pdf,
             accessed 8/18/2010.
      99. 	 Treasury, “Treasury Announces Home Price Decline Protection Incentives,” 7/31/2009, www.financialstability.gov/latest/tg_07312009.html, accessed
             8/18/2010.
      100. 	 Fannie Mae, response to SIGTARP vetting draft, 10/6/2010.
      101. 	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_alternatives.html,
             accessed 8/18/2010.
      102. 	 Treasury, “Update to the Second Lien Modification Program,” 3/26/2010, www.hmpadmin.com/portal/docs/second_lien/sd0905r.pdf, accessed
             8/18/2010.
      103. 	 Treasury, response to SIGTARP data call, 10/8/2010.
      104. 	 FHA HAMP: Treasury, “Home Affordable Modification Program – Modifications of Loans Insured by the Federal Housing Administration (FHA),”
             3/26/2010, www.hmpadmin.com//portal/docs/fha_hamp/sd1003.pdf, accessed 8/18/2010; RD-HAMP: Treasury, “Supplemental Directive 10-10: Home
             Affordable Unemployment Program — Modifications of Loans Guaranteed by the Rural Housing Service,” 9/17/2010, www.hmpadmin.com/portal/
             docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      105. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
             Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 8/18/2010.
      106. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010.
      107. 	 Treasury, Transactions Report, 10/4/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/5/2010.
      108. 	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.hmpadmin.
             com//portal/docs/hamp_servicer/sd1013.pdf, accessed 10/5/2010.
      109. 	 Treasury, “Supplemental Directive 10-13: Program Participation Cap Adjustment Pursuant to the Servicer Cap Model,” 10/1/2010, www.hmpadmin.
             com//portal/docs/hamp_servicer/sd1013.pdf, accessed 10/5/2010.
      110. 	 Treasury, Section 105(a) Report, 9/10/2010, www.financialstability.gov/docs/105CongressionalReports/August%202010%20105(a)%20Report_fi-
             nal_9%2010%2010.pdf, accessed 9/13/2010.
      111. 	 Treasury, response to SIGTARP data call, 10/7/2010.
      112. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010.
      113. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010.
      114. 	 Treasury, response to SIGTARP data call, 10/15/2010.
      115. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010.
      116. 	 Treasury, response to SIGTARP data call, 10/15/2010.
      117. 	 Treasury, “Home Affordable Modification Program: Overview,” no date, www.hmpadmin.com/portal/programs/hamp.html, accessed 3/1/2010.
      118. 	 Treasury, “Making Home Affordable – Updated Detailed Program Description,” 3/4/2009, http://www.treas.gov/press/releases/reports/housing_fact_
             sheet.pdf, accessed 8/18/2010.
      119. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd0901.pdf, accessed 7/2/2010.
      120. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      121. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1009.pdf, accessed 9/7/2010.
      122. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1009.pdf, accessed 9/7/2010.
      123. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      124. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd0901.pdf, accessed 7/2/2010.
                                                                                           quarterly report to congress I october 26, 2010                  211


125. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
       sd1009.pdf, accessed 9/7/2010.
126. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/docs/
       hamp_servicer/sd0901.pdf, accessed 7/12/2010.
127. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
       sd1009.pdf, accessed 9/7/2010.
128. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
       Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
129. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
       Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
130. 	 Treasury, response to SIGTARP data call, 10/15/2010.
131. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
       Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
132. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
       sd1009.pdf, accessed 9/7/2010.
133. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
       Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
134. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, http://sigtarp.gov/reports/audit/2010/Factors_
       Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 3/25/2010.
135. 	 Treasury, response to SIGTARP data call, 9/21/2010.
136. 	 Treasury, “MHA Handbook for Servicer of Non-GSE Mortgages, Version 2.0,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_servicer/mhahand-
       book.pdf, accessed 9/30/2010.
137. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
       sd1009.pdf, accessed 9/7/2010.
138. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
       sd1009.pdf, accessed 9/7/2010.
139. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2009, www.hmpadmin.com/portal/docs/
       hamp_servicer/sd0901.pdf, accessed 7/12/2010.
140. 	 Treasury, “MHA Handbook for Servicer of Non-GSE Mortgages, Version 2.0,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_servicer/mhahand-
       book.pdf, accessed 9/30/2010.
141. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, www.
       hmpadmin.com/portal/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
142. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, www.
       hmpadmin.com/portal/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
143. 	 Treasury, “Supplemental Directive 09-04: Home Affordable Modification Program – Home Price Decline Protection Incentives,” 7/31/2009, www.
       hmpadmin.com/portal/docs/hamp_servicer/sd0904.pdf, accessed 9/23/2010.
144. 	 Treasury, response to SIGTARP data call, 10/15/2010.
145. 	 Treasury Press Release, “Making Home Affordable Program: Servicer Performance Report through June 2010,” 8/6/2010, www.financialstability.gov/
       docs/June%20MHA%20Public%20Revised%20080610.pdf, accessed 8/25/2010.
146. 	 Treasury, “MHA Monthly Performance Scorecard – August 2010,” 9/10/2010, http://www.financialstability.gov/docs/AugustMHAPublic2010.pdf, ac-
       cessed 9/30/2010.
147. 	 Treasury, “Home Affordable Foreclosure Alternatives Program: Overview,” no date, www.hmpadmin.com/portal/programs/foreclosure_alternatives.html,
       accessed 8/18/2010.
148. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/docs/hafa/
       sd0909r.pdf, accessed 3/29/2010.
149. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/docs/hafa/
       sd0909r.pdf, accessed 3/29/2010.
150. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/docs/hafa/
       sd0909r.pdf, accessed 3/29/2010.
151. 	 Treasury, “Supplemental Directive 09-09 Revised: Home Affordable Foreclosure Alternatives,” 3/26/2010, www.hmpadmin.com/portal/docs/hafa/
       sd0909r.pdf, accessed 3/29/2010.
152. 	 Treasury, response to SIGTARP data call, 10/15/2010.
153. 	 Treasury, “Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/docs/second_lien/sd0905r.pdf, accessed
       3/28/2010.
154. 	 Treasury, “Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/docs/second_lien/sd0905r.pdf, accessed
       3/28/2010.
155. 	 Treasury, “Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/docs/second_lien/sd0905r.pdf, accessed
       3/28/2010.
156. 	 Treasury, “Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/docs/second_lien/sd0905r.pdf, accessed
       3/28/2010.
157. 	 Treasury, “Supplemental Directive 09-05 Revised, Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/
       docs/second_lien/sd0905r.pdf, accessed 10/10/2010.
158. 	 Treasury, “Update to the Second Lien Modification Program (2MP),” 3/26/2010, www.hmpadmin.com/portal/docs/second_lien/sd0905r.pdf, accessed
       3/28/2010.
159. 	 Treasury, response to SIGTARP data call, 10/15/2010.
160. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
       Service,” 9/17/2010, www.hmpadmin.com/portal/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
212            special inspector general I troubled asset relief program



      161. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
             Service,” 9/17/2010, www.hmpadmin.com/portal/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      162. 	 Treasury, “Home Affordable Modification Program – Modifications of Loans Insured by the Federal Housing Administration (FHA),” 3/26/2010, www.
             hmpadmin.com/portal/docs/fha_hamp/sd1003.pdf, accessed 3/29/2010.
      163. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
             Service,” 9/17/2010, www.hmpadmin.com/portal/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      164. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
             circulars/26_10_6.pdf, accessed 9/30/2010.
      165. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
             circulars/26_10_6.pdf, accessed 9/30/2010.
      166. 	 Treasury, “Supplemental Directive 10-10: Home Affordable Unemployment Program – Modifications of Loans Guaranteed by the Rural Housing
             Service,” 9/17/2010, www.hmpadmin.com/portal/docs/rd_hamp/sd1010.pdf, accessed 9/21/2010.
      167. 	 Department of Veterans Affairs, “Revised VA Making Home Affordable Program, Circular 26-10-6,” 5/24/2010, www.benefits.va.gov/homeloans/
             circulars/26_10_6.pdf, accessed 9/30/2010.
      168. 	 Treasury, response to SIGTARP data call, 10/15/2010.
      169. 	 Treasury Press Release, “Housing Program Enhancements Offer Additional Options for Struggling Homeowners,” 3/26/2010, www.financialstability.
             gov/latest/pr_03262010.html, accessed 9/3/2010.
      170. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1004.pdf, accessed 6/1/2010.
      171. 	 Treasury, “Home Affordable Unemployment Program: Overview for non-GSE Servicers,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             upoverviewfornongseservicers.pdf, accessed 6/1/2010.
      172. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1004.pdf, accessed 6/1/2010.
      173. 	 Treasury, response to SIGTARP data call, 10/15/2010.
      174. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1004.pdf, accessed 6/1/2010.
      175. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1004.pdf, accessed 6/1/2010.
      176. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1004.pdf, accessed 6/1/2010.
      177. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1004.pdf, p. 4, accessed 6/1/2010.
      178. 	 Treasury, “Supplemental Directive 10-04: Home Affordable Unemployment Program,” 5/11/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1004.pdf, accessed 6/1/2010.
      179. 	 OFS, email response to SIGTARP, 6/29/2010.
      180. 	 Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/
             HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
      181. 	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/docs/hamp_servicer/praover-
             viewnongse.pdf, accessed 6/3/2010.
      182. 	 Treasury, “HAMP Updates: September 27 Release, Base NPV Model v4.0, Technical Support Hours and Servicer Performance Report,” 9/27/2010,
             www.hmpadmin.com/portal/docs/news/2010/hampupdate092710.pdf, accessed 9/28/2010.
      183. 	 Treasury, “HAMP: Modification of Loans with Principal Reduction Alternative,” no date, www.hmpadmin.com/portal/docs/hamp_servicer/praover-
             viewnongse.pdf, accessed 6/3/2010.
      184. 	 Treasury, “Supplemental Directive 09-01: Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd0901.pdf, accessed 7/2/2010.
      185. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      186. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      187. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      188. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      189. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      190. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      191. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      192. 	 Treasury, “Supplemental Directive 10-09: MHA Program – Handbook for Servicers,” 8/19/2010, www.hmpadmin.com/portal/docs/hamp_servicer/
             sd1009.pdf, accessed 9/7/2010.
      193. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      194. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
      195. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
             hamp_servicer/sd1005.pdf, accessed 7/2/2010.
                                                                                             quarterly report to congress I october 26, 2010                    213


196. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
       hamp_servicer/sd1005.pdf, accessed 7/2/2010.
197. 	 Treasury, “Supplemental Directive 10-05: Modification of Loans with Principal Reduction Alternative,” 6/3/2010, www.hmpadmin.com/portal/docs/
       hamp_servicer/sd1005.pdf, accessed 7/2/2010.
198. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
199. 	 Treasury, TARP/Financial Stability Plan Budget Table, 10/4/2010.
200. 	 Treasury, response to SIGTARP data call, 10/18/2010.
201. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
202. 	 Department of Housing and Urban Development, response to SIGTARP vetting draft, 10/18/2010.
203. 	 Treasury, response to SIGTARP data call, 10/15/2010.
204. 	 Department of Housing and Urban Development, “Mortgagee Letter 2010-23,” 8/6/2010, www.hud.gov/offices/adm/hudclips/letters/mortgagee/files/10-
       23ml.pdf, accessed 9/14/2010.
205. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
206. 	 Treasury Press Release, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to
       Support FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1008.pdf, accessed
       8/20/2010.
207. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
208. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
209. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
210. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
211. 	 Treasury, “FHA Program Adjustments to Support Refinancing for Underwater Homeowners,” 3/26/2010, http://makinghomeaffordable.gov/docs/FHA_
       Refinance_Fact_Sheet_032510%20FINAL2.pdf, accessed 3/26/2010.
212. 	 Treasury Press Release, “Supplemental Directive 10-08: Making Home Affordable Program – Treasury/FHA Second Lien Program (FHA2LP) to
       Support FHA Refinance of Borrowers in Negative Equity Positions,” 8/6/2010, www.hmpadmin.com/portal/docs/hamp_servicer/sd1008.pdf, accessed
       8/20/2010.
213. 	 Treasury, “Supplemental Directive 10-11: Making Home Affordable Program – Dodd-Frank Certification,” 9/21/2010, www.hmpadmin.com/portal/
       docs/hamp_servicer/sd1011.pdf, accessed 9/28/2010.
214. 	 Treasury, “Supplemental Directive 10-11: Making Home Affordable Program – Dodd-Frank Certification,” 9/21/2010, www.hmpadmin.com/portal/
       docs/hamp_servicer/sd1011.pdf, accessed 9/28/2010.
215. 	 Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
216. 	 Treasury, “Update on HFA Hardest-Hit Fund,” 3/5/2010, www.makinghomeaffordable.gov/pr_03052010.html, accessed 3/8/2010.
217. 	 Treasury, “Update to the HFA Hardest Hit Fund Frequently Asked Questions,” 3/29/2010, http://financialstability.gov/docs/Hardest%20Hit%20pub-
       lic%20QA%200%2029%2010.pdf, accessed 3/29/2010.
218. 	 Treasury Press Release, “Obama Administration Announces Initial Support for Targeted Foreclosure-Prevention Programs to Help Homeowners
       Struggling with Unemployment,” 8/11/2010, www.treas.gov/press/releases/tg823.htm, accessed 8/23/2010.
219. 	 Treasury Press Release, “Obama Administration Announces Initial Support for Targeted Foreclosure-Prevention Programs to Help Homeowners
       Struggling with Unemployment,” 8/11/2010, www.treas.gov/press/releases/tg823.htm, accessed 8/23/2010.
220. 	 Treasury, Section 105(a) Report, 9/10/2010, www.financialstability.gov/docs/105CongressionalReports/August%202010%20105(a)%20Report_fi-
       nal_9%2010%2010.pdf, accessed 9/13/2010.
221. 	 Treasury Press Release, “Obama Administration Announces Initial Support for Targeted Foreclosure-Prevention Programs to Help Homeowners
       Struggling with Unemployment,” 8/11/2010, www.treas.gov/press/releases/tg823.htm, accessed 8/23/2010.
222. 	 Treasury Press Release, “Obama Administration Announces Initial Support for Targeted Foreclosure-Prevention Programs to Help Homeowners
       Struggling with Unemployment,” 8/11/2010, www.treas.gov/press/releases/tg823.htm, accessed 8/23/2010.
223. 	 Treasury, “TARP: Two Year Retrospective,” 10/5/2010, www.financialstability.gov/docs/TARP%20Two%20Year%20Retrospective_10%2005%2010_trans-
       mittal%20letter.pdf, accessed 10/6/2010.
224. 	 Treasury, “Obama Administration Approves State Plans for the Use of $1.5 Billion in ‘Hardest Hit Fund’ Foreclosure-Prevention Program,” 6/23/2010,
       www.financialstability.gov/latest/pr_06232010.html, accessed 6/24/2010.
225. 	 OFS, conference call, 6/14/2010.
226. 	 Treasury, response to SIGTARP data call, 10/7/2010.
227. 	 OFS, conference call, 3/19/2009.
228. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
229. 	 Treasury, “Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/capitalpurchaseprogram.html, accessed 6/12/2010.
230. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
231. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-10%20Transactions%20Report%20as%20of%206-30-
       10.pdf, accessed 10/6/2010.
232. 	 Treasury, response to SIGTARP data call, 10/8/2010; Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/7-1-
       10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed 6/30/2010; Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.
       financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
233. 	 Treasury, Transactions Report, 10/4/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/13/2010.
234. 	 Treasury, response to SIGTARP data call, 10/8/2010.
214               special inspector general I troubled asset relief program



      235. 	   Treasury, response to SIGTARP data call, 10/8/2010.
      236. 	   Treasury, response to SIGTARP data call, 10/8/2010.
      237. 	   Treasury, response to SIGTARP vetting draft, 10/8/2010.
      238. 	   Treasury, “Frequently Asked Questions, Capital Purchase Program (CPP), Related to Missed Dividend (or Interest), Payments and Director
               Nomination,” no date, www.financialstability.gov/docs/CPP/CPP%20Directors%20FAQs.pdf, accessed 8/26/2010.
      239. 	   Treasury, response to SIGTARP data call, 10/6/2010.
      240. 	   OFS, “Factsheet, Capital Purchase Program, Nomination of Board Observers & Directors,” no date, http://financialstability.gov/docs/CPP/CPP%20
               Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 8/30/2010.
      241. 	   OFS, “Factsheet, Capital Purchase Program, Nomination of Board Observers & Directors,” no date, http://financialstability.gov/docs/CPP/CPP%20
               Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 8/30/2010.
      242. 	   OFS, “Factsheet, Capital Purchase Program, Nomination of Board Observers & Directors,” no date, http://financialstability.gov/docs/CPP/CPP%20
               Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 8/30/2010.
      243. 	   OFS, “Factsheet, Capital Purchase Program Nomination of Board Observers & Directors,” no date, http://financialstability.gov/docs/CPP/CPP%20
               Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 8/30/2010.
      244. 	   OFS, “Factsheet, Capital Purchase Program, Nomination of Board Observers & Directors,” no date, http://financialstability.gov/docs/CPP/CPP%20
               Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 8/30/2010.
      245. 	   OFS, “Factsheet, Capital Purchase Program, Nomination of Board Observers & Directors,” no date, http://financialstability.gov/docs/CPP/CPP%20
               Directors%20-%20Observer%20Fact%20Sheet.pdf, accessed 8/30/2010.
      246. 	   Treasury, response to SIGTARP data call, 10/8/2010.
      247. 	   Treasury, response to SIGTARP data call, 10/8/2010.
      248. 	   Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed 4/9/2009.
      249. 	   Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/
               docs/CPP/Warrant-Statement.pdf, accessed 8/13/2010.
      250. 	   Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/
               docs/CPP/Warrant-Statement.pdf, accessed 8/13/2010.
      251. 	   Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.finan-
               cialstability.gov/latest/tg_06262009.html, accessed 3/31/2010; Treasury, Transactions Report, 10/8/2010, www.financialstability.gov/docs/transaction-
               reports/7-1-10%20Transactions%20Report%20as%20of%206-30-10.pdf, accessed 6/30/2010.
      252. 	   Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.
               financialstability.gov/latest/tg_06262009.html, accessed 3/31/2010; Treasury Press Release, “Treasury Announces Warrant Repurchase and Disposition
               Process for the Capital Purchase Program,” 6/29/2009, www.financialstability.gov/latest/tg_06262009.html, accessed 9/13/2010; Treasury, “Treasury
               Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/docs/CPP/Warrant-
               Statement.pdf, accessed 8/13/2010.
      253. 	   Treasury, response to SIGTARP data call, 10/8/2010.
      254. 	   Treasury, “Treasury Announces Warrant Repurchase and Disposition Process for the Capital Purchase Program,” 6/26/2009, www.financialstability.gov/
               latest/tg_06262009.html, accessed 9/1/2010.
      255. 	   Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.financialstability.gov/latest/
               pr_02182010.html, accessed 3/13/2010.
      256. 	   Treasury Press Release, “Treasury Announces Intent to Sell Warrant Positions in Public Dutch Auctions,” 2/18/2010, www.financialstability.gov/latest/
               pr_02182010.html, accessed 3/13/2010.
      257. 	   Treasury, response to SIGTARP data call, 10/6/2010; Treasury, Transactions Report, 9/27/2010, www.financialstability.gov/docs/transaction-re-
               ports/9-29-10%20Transactions%20Report%20as%20of%209-27-10.pdf, accessed 9/29/2010; Treasury Press Release, “Treasury Announces Pricing
               of Public Offering to Purchase Common Stock of The Hartford Financial Services Group, Inc.,” 9/22/2010, www.financialstability.gov/latest/
               pr_09222010.html, accessed 9/22/2010.
      258. 	   Treasury, Transactions Report, 10/4/2010, http://www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20
               of%209-30-10.pdf, accessed 10/6/2010.
      259. 	   OFS, conference call, 3/19/2010; Treasury, response to SIGTARP data call, 10/8/2010.
      260. 	   OFS, conference call, 3/19/2010.
      261. 	   Treasury, response to SIGTARP data call, 10/8/2010.
      262. 	   Treasury, response to SIGTARP data call, 10/8/2010.
      263. 	   OFS, conference call, 3/19/2010.
      264. 	   OFS, conference call, 3/19/2010.
      265. 	   Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
               10.pdf, accessed 10/13/2010.
      266. 	   Treasury Press Release, “Treasury Announces Participation in Citigroup’s Exchange Offering,” 2/27/2010, www.ustreas.gov/press/releases/tg41.htm,
               accessed 6/25/2010; Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.financialstability.gov/
               latest/pr_03282010.html, accessed 3/31/2010; Treasury Press Release, “Treasury Announces Plan to Continue to Sell Citigroup Common Stock,”
               5/26/2010, www.financialstability.gov/latest/pr_05262010b.html, accessed 6/1/2010; Treasury, Section 105(a) Report, 9/30/2010, www.financialstabil-
               ity.gov/docs/105CongressionalReports/September%20105(a)%20report_FINAL.pdf, accessed 10/16/2010; Treasury, response to SIGTARP data call,
               10/14/2010.
      267. 	   Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.financialstability.gov/latest/pr_03282010.html,
               accessed 3/31/2010; COP, “Exiting TARP and Unwinding its Impact on the Financial Markets,” 1/13/2010, http://cop.senate.gov/documents/cop-
               011410-report.pdf, accessed 10/18/2010.
      268. 	   Treasury, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability, Domestic Policy Subcommittee of the Oversight and
               Government Reform Committee,” 12/17/2009, www.ustreas.gov/press/releases/tg453.htm, accessed 8/13/2010.
      269. 	   Treasury Press Release, “Treasury Announces Plan to Sell Citigroup Common Stock,” 3/29/2010, www.financialstability.gov/latest/pr_03282010.html,
               accessed 3/31/2010.
                                                                                          quarterly report to congress I october 26, 2010                  215



270. 	 Treasury Press Release, “Treasury Announces Plan to Continue to Sell Citigroup Common Stock,” 5/26/2010, www.financialstability.gov/latest/
       pr_05262010b.html, accessed 6/1/2010.
271. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
       9-30-10.pdf, accessed 10/6/2010; Treasury, Section 105(a) Report, 9/30/2010, www.financialstability.gov/docs/105CongressionalReports/September%20
       105(a)%20report_FINAL.pdf, accessed 10/16/2010.
272. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/13/2010; Treasury, Section 105(a) Report, 9/30/2010, www.financialstability.gov/docs/105CongressionalReports/September%20
       105(a)%20report_FINAL.pdf, accessed 10/16/2010.
273. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/13/2010.
274. 	 Treasury Press Release, “Treasury Announces Plan to Continue to Sell Citigroup Common Stock,” 10/19/2010, www.treas.gov/press/releases/tg915.
       htm, accessed 10/19/2010.
275. 	 Treasury, Transactions Report, 9/30/2010, http://www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
       9-30-10.pdf, accessed 10/6/2010; Treasury, Section 105(a) Report, 9/30/2010, www.financialstability.gov/docs/105CongressionalReports/September%20
       105(a)%20report_FINAL.pdf, accessed 10/16/2010.
277. 	 Treasury, Transactions Report, 1/15/2010, www.financialstability.gov/docs/transaction-reports/1-20-10%20Transactions%20Report%20as%20of%201-15-
       10.pdf, accessed 8/23/2010.
278. 	 Federal Reserve Press Release, “Written Agreement with First Bancorp,” 6/8/2010, www.federalreserve.gov/newsevents/press/enforcement/20100608c.
       htm, accessed 9/25/2010; FDIC Court Order, Consent Decree with First Bank of Puerto Rico, 6/2/2010, www.fdic.gov/bank/individual/enforce-
       ment/2010-06-22.pdf, accessed 9/25/2010.
279. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010; Treasury,
       response to SIGTARP data call, 10/8/2010.
280. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010; Treasury,
       Transactions Report, 10/4/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-10.pdf,
       accessed 10/6/2010.
281. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010.
282. 	 First BanCorp, 8-K, 8/26/2010. www.sec.gov/Archives/edgar/data/1057706/000129993310003214/exhibit1.htm, accessed 9/16/2010.
283. 	 First BanCorp, 8-K, 9/16/2010. www.sec.gov/Archives/edgar/data/1057706/000095012310086491/g24648sv1.htm, accessed 9/16/2010.
284. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010; First BanCorp
       Proposed Exchange Offer, 8/18/2010, www.sec.gov/Archives/edgar/data/1057706/000095012310078750/g24405exv99w1.htm, accessed 9/7/2010.
285. 	 First BanCorp, 8-K, 7/7/2010, www.sec.gov/Archives/edgar/data/1057706/000129993310002613/htm_38264.htm, accessed 9/7/2010.
286. 	 Treasury, “Capital Purchase Program,” 12/22/2008, www.financialstability.gov/docs/transaction-reports/TransactionReport-11252008.pdf, accessed
       8/24/2010.
287. 	 Treasury, Transactions Report, 10/4/2010, http://www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20
       of%209-30-10.pdf, accessed 10/6/2010.
288. 	 Treasury, Exchange Agreement, 7/26/2010, www.financialstability.gov/docs/agreements/Pacific%20Capital%20Exchange%20Agreement%20_
       Execution%20Copy.pdf, accessed 8/27/2010.
289. 	 Treasury, Transactions Report, 9/23/2010, www.financialstability.gov/docs/transaction-reports/9-27-10%20Transactions%20Report%20as%20of%209-23-
       10.pdf, accessed 9/28/2010.
290. 	 Treasury, Transactions Report, 9/27/2010, www.financialstability.gov/docs/transaction-reports/9-29-10%20Transactions%20Report%20as%20of%20
       9-27-10.pdf, accessed 9/29/2010; Treasury, Transactions Report, 10/4/2010, http://www.financialstability.gov/docs/transaction-reports/10-4-10%20
       Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/6/2010.
291. 	 Pacific Capital Bancorp, 8-K, 9/2/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/d8k.htm, accessed 9/30/2010; Pacific Capital
       Bancorp, 3.2 Exhibit to 8-K, 9/2/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/dex32.htm, accessed 9/30/2010; Pacific
       Capital Bancorp, 8-K, 8/27/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/d8k.htm, accessed 9/30/2010.
292. 	 Treasury, Transactions Report, 1/20/2010, www.financialstability.gov/docs/transaction-reports/1-20-10%20Transactions%20Report%20as%20of%201-15-
       10.pdf, accessed 9/7/2010.
293. 	 Hampton Roads Bankshares, 8-K, 8/12/2010, www.sec.gov/Archives/edgar/data/1143155/000100210510000242/f8khrb081210.htm, accessed
       8/30/2010.
294. 	 Hampton Roads Bankshares, 8-K, 8/12/2010, www.sec.gov/Archives/edgar/data/1143155/000100210510000242/f8khrb081210.htm, accessed
       8/30/2010.
295. 	 Hampton Roads Bankshares, 8-K, 8/12/2010, www.sec.gov/Archives/edgar/data/1143155/000100210510000242/f8khrb081210.htm, accessed
       8/30/2010.
296. 	 Treasury, Transactions Report, 10/4/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/6/2010.
297. 	 Pacific Capital Bancop, 8-K, 9/2/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/d8k.htm, accessed 9/30/2010; Pacific Capital
       Bancorp, 3.2 Exhibit to 8-K, 9/2/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/dex32.htm, accessed 9/30/2010; Pacific
       Capital Bancorp, 8-K, 8/27/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/d8k.htm, accessed 9/30/2010.
298. 	 Treasury, Transactions Report, 1/15/2010, www.financialstability.gov/docs/transaction-reports/1-20-10%20Transactions%20Report%20as%20of%201-15-
       10.pdf, accessed 9/22/2010.
299. 	 Cadence Financial Corporation, 8-K, 10/6/2010, www.sec.gov/Archives/edgar/data/742054/000115752310005756/a6458068.htm, accessed 10/6/2010.
300. 	 Cadence Financial Corporation, Exhibit 2.1 to 8-K, 10/6/2010, www.sec.gov/Archives/edgar/data/742054/000115752310005756/a6458068ex2_1.htm,
       accessed 10/6/2010.
301. 	 Trustmark Corporation, 8-K, 9/21/2010, www.sec.gov/Archives/edgar/data/742054/000115752310005733/a6457074.htm, accessed 10/6/2010.
302. 	 Treasury, Transactions Report, 10/4/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/6/2010.
216             special inspector general I troubled asset relief program




      303. 	 Treasury, Transactions Report, 10/4/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/6/2010.
      304. 	 Treasury, Transactions Report, 2/20/2010, www.financialstability.gov/docs/transaction-reports/transaction_report_02-24-09.pdf, accessed 10/11/2010.
      305. 	 First Merchants Financial Corporation, 8-K, 8/25/2010, www.sec.gov/Archives/edgar/data/712534/000071253410000064/f8kcppconvert03232010.
             htm, accessed 3/31/2010.
      306. 	 First Merchants Financial Corporation, 8-K, 6/30/2010, www.sec.gov/Archives/edgar/data/712534/000071253410000122/f8kcppexchange06302010.
             htm, accessed 8/25/2010.
      307. 	 First Merchants Financial Corporation, 8-K, 6/30/2010, www.sec.gov/Archives/edgar/data/712534/000071253410000122/f8kcppexchange06302010.
             htm, accessed 8/25/2010.
      308. 	 Treasury, Transactions Report, 1/15/2010, www.financialstability.gov/docs/transaction-reports/1-20-10%20Transactions%20Report%20as%20of%201-15-
             10.pdf, accessed 9/22/2010.
      309. 	 Treasury, Transactions Report, 10/4/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/6/2010.
      310. 	 Sterling Financial Corporation, 8-K, 3/16/2010, www.sec.gov/Archives/edgar/data/891106/000115752310001607/a6217020ex992.htm, accessed
             9/7/2010.
      311. 	 Sterling Financial Corporation Press Release, “Sterling Financial Corporation of Spokane, Wash., Confirms Definitive Agreements with U.S. Treasury
             and Thomas H. Lee Partners, L.P.,” 4/29/2010, www.snl.com/irweblinkx/file.aspx?IID=101432&FID=9443800, accessed 9/7/2010.
      312. 	 Sterling Financial Corporation, SEC Schedule 14A filing, www.sec.gov/Archives/edgar/data/891106/000119312510208198/dpre14a.
             htm#toc47736_22, accessed 9/24/2010.
      313. 	 Treasury, Transactions Report, 9/27/2010, www.financialstability.gov/docs/transaction-reports/9-29-10%20Transactions%20Report%20as%20of%209-27-
             10.pdf, accessed 9/29/2010.
      314. 	 Pacific Capital Bancop, 8-K, 9/2/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/d8k.htm, accessed 9/30/2010;
             Pacific Capital Bancorp, 3.2 Exhibit to 8-K, 9/2/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/dex32.htm, accessed
             9/30/2010;
             Pacific Capital Bancorp, 8-K, 8/27/2010, www.sec.gov/Archives/edgar/data/357264/000119312510203998/d8k.htm, accessed 9/30/2010.
      315. 	 Treasury, “Factsheet on Capital Purchase Program,” 3/17/2009, www.financialstability.gov/roadtostability/CPPfactsheet.htm, accessed 9/14/2009.
      316. 	 Treasury, Transactions Report, 1/15/2010, www.financialstability.gov/docs/transaction-reports/1-15-10%20Transactions%20Report%20as%20of%201-13-
             10.pdf, accessed 9/28/2010.
      317. 	 FDIC – Failed Bank Information, 8/20/2010, www.fdic.gov/news/news/press/2010/pr10196.html, accessed 8/26/2010.
      318. 	 White House Press Release, “President Obama Outlines New Small Business Lending Fund,” 2/2/2010, www.whitehouse.gov/the-press-office/presi-
             dent-obama-outlines-new-small-business-lending-fund, accessed 3/15/2010; U.S. House of Representatives, “111th Congress, 2nd Session, H.R. 5297,
             Small Business Lending Fund Act of 2010,” 5/13/2010; U.S. House of Representatives, “111th Congress, 2nd Session, H.R. 5297, Small Business
             Lending Fund Act of 2010,” 5/13/2010, www.house.gov/apps/list/speech/financialsvcs_dem/hr_5297.pdf, accessed 6/2/2010.
      319. 	 The White House, “Remarks by the President on Small Business Initiatives, Metropolitan Archives, Landover, Maryland,” 10/21/2009, www.white-
             house.gov/the-press-office/remarks-president-small-business-initiatives-landover-md, accessed 6/25/2010.
      320. 	 Treasury, “Frequently Asked Questions,” no date, www.financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      321. 	 Treasury, “CDCI FAQ Regarding Application Deadline,” no date. www.financialstability.gov/docs/CDCI/CDCI%20FAQ%20Regarding%20
             Application%20Deadline.pdf, accessed 6/25/2010; Treasury, “Treasury Announces Special Financial Stabilization Initiative Investments of $570 Million
             in 84 Community Development Financial Institutions in Underserved Areas,” 9/30/2010, www.financialstability.gov/latest/pr_09302010b.html, ac-
             cessed 9/30/2010.
      322. 	 Treasury, “Road to Stability: Community Development Capital Initiative,” 6/4/2010, www.financialstability.gov/roadtostability/comdev.html, accessed
             6/24/2010.
      323. 	 Treasury, “Frequently Asked Questions,” no date, www.financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      324. 	 Credit Union National Association, “What Is a Credit Union?” 2009, www.creditunion.coop/what_is_a_cu.html, accessed 3/23/2010.
      325. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
             Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
             Inst.pdf, accessed 3/1/2010; Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/9-29-10%20Transactions%20
             Report%20as%20of%209-27-10.pdf, accessed 10/4/2010; Treasury, “Application Guidelines for TARP Community Development Capital Initiative,” no
             date, www.financialstability.gov/docs/CDCI/Bank%20Thrift%20CDCI%20Application%20Form.pdf, accessed 10/18/2010.
      326. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
             Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
             Inst.pdf, accessed 3/1/2010.
      327. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
             Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
             Inst.pdf, accessed 3/1/2010. Treasury, response to SIGTARP vetting draft, 10/8/2010.
      328. 	 Treasury, “Frequently Asked Questions,” no date, www.financialstability.gov/docs/CDCI/CDCI%20FAQs.pdf, accessed 2/25/2010.
      329. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
             Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
             Inst.pdf, accessed 3/1/2010.
      330. 	 Treasury, CDFI Fund Press Release, “Obama Administration Announces Enhancements for TARP Initiative for Community Development Financial
             Institutions,” 2/3/2010, www.cdfifund.gov/docs/2010/cdfi/Obama-Administration-Announces-Enhancements-Tarp-Initiative-for-Community-Dev-Fin-
             Inst.pdf, accessed 3/1/2010.
      331. 	 Treasury OFS, response to SIGTARP data call, 10/7/2010; Treasury, “Treasury Announces Special Financial Stabilization Initiative Investments of $570
             Million in 84 Community Development Financial Institutions in Underserved Areas,” 9/30/2010, www.financialstability.gov/latest/pr_09302010b.html,
             accessed 9/30/2010.
      332. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/4/2010.
                                                                                           quarterly report to congress I october 26, 2010                   217


333. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/4/2010.
334. 	 Treasury, response to SIGTARP data call, 10/7/2010.
335. 	 U.S. House of Representatives, “111th Congress, 2nd Session, H.R. 5297, Small Business Lending Fund Act of 2010,” 5/13/2010, www.house.gov/
       apps/list/speech/financialsvcs_dem/hr_5297.pdf, accessed 6/2/2010, p. 17.
336. 	 GPO, “H.R. 5297, Small Business Jobs Act of 2010,” http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297enr.
       txt.pdf, accessed 9/28/2010.
337. 	 GPO, “H.R. 5297, Small Business Jobs Act of 2010,” http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297enr.
       txt.pdf, accessed 9/28/2010.
338. 	 GPO, “H.R. 5297, Small Business Jobs Act of 2010,” http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297enr.
       txt.pdf, accessed 9/28/2010.
341. 	 Cecala, Guy D., The 2010 Mortgage Market Statistical Annual, Volume II: The Secondary Market, 23rd Edition, Bethesda: Inside Mortgage Finance
       Publications, Inc., 2010, p. 10. GPO, “H.R. 5297, Small Business Jobs Act of 2010,” http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_
       cong_bills&docid=f:h5297enr.txt.pdf, accessed 9/28/2010.
342. 	 Library of Congress, “Bill Summary & Status, 111th Congress (2009 - 2010), H.R. 5297, Major Congressional Actions,” no date, http://thomas.loc.gov/
       cgi-bin/bdquery/z?d111:HR05297:@@@D&summ2=m&, accessed 6/23/2010.
343. 	 GPO, “H.R. 5297, Small Business Jobs Act of 2010,” http://frwebgate.access.gpo.gov/cgi-bin/getdoc.cgi?dbname=111_cong_bills&docid=f:h5297enr.
       txt.pdf, accessed 9/28/2010.
344. 	 Treasury, “Programs,” 5/7/2009, www.financialstability.gov/roadtostability/programs.htm, accessed 12/7/2009.
345. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/4/2010.
346. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/4/2010.
347. 	 Treasury, response to SIGTARP data call, 10/7/2010.
348. 	 Treasury, response to SIGTARP data call, 10/7/2010.
349. 	 Treasury, AIG Term Sheet, 3/2/2009, www.ustreas.gov/press/releases/reports/030209_aig_term_sheet.pdf, accessed 8/21/2010; Treasury, “Treasury
       Names Two Appointees to AIG’s Board of Directors,” 4/1/2010, www.financialstability.gov/latest/tg_04012010.html, accessed 4/6/2010.
351. 	 AIG, 8-K, 9/30/2010, http://services.corporate-ir.net/SEC.Enhanced/SecCapsule.aspx?c=76115&fid=7149094m, accessed 9/30/2010.
352. 	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_
       Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/30/2010.
353. 	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_
       Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/30/2010.
354. 	 SIGTARP Audit Report, “Factors Affecting Payments to AIG’s Counterparties,” 11/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_
       Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf, accessed 6/30/2010.
355. 	 FRBNY, “Actions Related to AIG,” www.newyorkfed.org/aboutthefed/aig/, accessed 6/25/2010; SIGTARP Audit Report, “Factors Affecting Payments to
       AIG’s Counterparties,” 10/17/2009, www.sigtarp.gov/reports/audit/2009/Factors_Affecting_Efforts_to_Limit_Payments_to_AIG_Counterparties.pdf,
       accessed 6/30/2010.
356. 	 FRBNY, “Actions Related to AIG,” www.newyorkfed.org/aboutthefed/aig/, accessed 6/25/2010.
357. 	 AIG, “AIG Closes Two Transactions That Reduce Debt AIG Owes FRBNY by $25 Billion,” 12/1/2009, http://phx.corporate-ir.net/External.File?item=U
       GFyZW50SUQ9MjE4ODl8Q2hpbGRJRDOtMXxUeXBlPTM=&t=1, accessed 3/17/2010.
358. 	 FRBNY, “Actions Related to AIG,” www.newyorkfed.org/aboutthefed/aig/, accessed 6/25/2010.
359. 	 AIG, “AIG Reduces Principal Balance on Federal Reserve Bank of New York Revolving Credit Facility by Nearly $4 Billion,” 8/23/2010, www.aigcorpo-
       rate.com/newsroom/index.html, accessed 8/23/2010.
360. 	 ILFC, “ILFC Repays Loans Backed by US Government in Full and Three Years Early — Completion of $4.4 Billion Transaction Accelerates
       Momentum,” 8/23/2010, http://207.45.187.42/~ilfc01/viewArticle.php?id=282, accessed 8/23/2010.
362. 	 FRBNY, response to SIGTARP data call, 10/7/2010.
363. 	 Reuters, “AIG Confirms Prudential Deal Terminated,” 6/2/2010, www.reuters.com/article/idUSTRE65104D20100603, accessed 9/10/2010.
364. 	 Congressional Oversight Panel, “June Report,” 6/10/2010, http://cop.senate.gov/documents/cop-061010-report.pdf, accessed 6/10/2010.
365. 	 Fox Business, “AIG secures HK nod to list AIA – sources,” 9/21/2010, www.foxbusiness.com/markets/2010/09/21/aig-secures-hk-exchange-nod-list-aia-
       sources, accessed 9/21/2010.
366. 	 AIG, 8-K, 10/18/2010, www.sec.gov/Archives/edgar/data/5272/000095012310093648/y87206e8vk.htm, accessed 10/18/2010.
367. 	 Reuters, “AIG kicks off premarketing for mega IPO,” 9/27/2010, http://news.yahoo.com/s/nm/20100927/bs_nm/us_aia_ipo, accessed 9/28/2010.
368. 	 Fox Business, “AIG secures HK nod to list AIA – sources,” 9/21/2010, www.foxbusiness.com/markets/2010/09/21/aig-secures-hk-exchange-nod-list-aia-
       sources, accessed 9/21/2010. Treasury, AIG repayment plan briefing, 10/6/2010.
369. 	 FRBNY, Monthly Report, March 2010, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthly-
       clbsreport201003.pdf, accessed 3/31/2010.
370. 	 Fox Business, “AIG secures HK nod to list AIA – sources,” 9/21/2010, www.foxbusiness.com/markets/2010/09/21/aig-secures-hk-exchange-nod-list-aia-
       sources, accessed 9/21/2010.
371. 	 FRBNY, Monthly Report, March 2010, “Credit and Liquidity Programs and the Balance Sheet,” www.federalreserve.gov/monetarypolicy/files/monthly-
       clbsreport201003.pdf, accessed 3/31/2010.
372. 	 AIG, “Third Quarter Results Press Release,” 11/6/2009, www.aigcorporate.com/investors/2009_November/AIG%203Q09%20Press%20Release.pdf,
       accessed 12/7/2009.
373. 	 Insurance News Net, “China Strategic Terminates Nan Shan Acquisition Deal With AIG,” 9/22/2010, http://insurancenewsnet.com/article.
       aspx?id=226791&type=newswires, accessed 9/23/2010; Nicholson, Chris V., “Taiwan Blocks Sale of Nan Shan, an A.I.G. Unit,” New York Times,
       8/31/2010, www.nytimes.com/2010/09/01/business/global/01iht-aig.html, accessed 9/1/2010.
374. 	 AIG, “AIG Enters Into Agreement to Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorporate.com/newsroom/index.html, accessed
       9/30/2010.
218             special inspector general I troubled asset relief program



      375. 	 AIG, “AIG Enters Into Agreement to Sell Star and Edison Life Companies,” 9/30/2010, www.aigcorporate.com/newsroom/index.html, accessed
             9/30/2010.
      376. 	 Treasury, AIG repayment plan briefing, 10/6/2010; AIG, “AIG Announces Plan to Repay U.S. Government,” 9/30/2010, www.aigcorporate.com/news-
             room/index.html, accessed 9/30/2010.
      377. 	 AIG, 8-K, 9/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310090261/y86866e8vk.htm, accessed 9/30/2010.
      378. 	 Treasury, AIG repayment plan briefing, 10/6/2010; AIG, “AIG Announces Plan to Repay U.S. Government,” 9/30/2010, www.aigcorporate.com/news-
             room/index.html, accessed 9/30/2010.
      379. 	 Treasury, AIG repayment plan briefing, 10/6/2010; AIG, “AIG Announces Plan to Repay U.S. Government,” 9/30/2010, www.aigcorporate.com/news-
             room/index.html, accessed 9/30/2010.
      380. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      381. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      382. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      383. 	 AIG, 8-K, 9/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310090261/y86866e8vk.htm, accessed 9/30/2010.
      384. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      385. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      386. 	 Treasury, response to SIGTARP data call, 10/7/2010.
      387. 	 Treasury, AIG repayment plan briefing, 10/6/2010; AIG, 8-K, 9/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310090261/y86866e8vk.
             htm, accessed 9/30/2010.
      388. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      389. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      390. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      391. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      392. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      393. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      394. 	 AIG, 8-K, 9/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310090261/y86866e8vk.htm, accessed 9/30/2010.
      395. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      396. 	 Treasury, AIG repayment plan briefing, 10/6/2010; AIG, 8-K, 9/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310090261/y86866e8vk.
             htm, accessed 9/30/2010.
      397. 	 Treasury, AIG repayment plan briefing, 10/6/2010; AIG, 8-K, 9/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310090261/y86866e8vk.
             htm, accessed 9/30/2010.
      398. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      399. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      400. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      401. 	 Treasury, AIG repayment plan briefing, 10/6/2010; AIG, 8-K, 9/30/2010, www.sec.gov/Archives/edgar/data/5272/000095012310090261/y86866e8vk.
             htm, accessed 9/30/2010.
      402. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      403. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      404. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      405. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      406. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      407. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      408. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      409. 	 AIG, 10-Q, 8/6/2010, www.aigcorporate.com/investors/2010_August/June30201010Q.pdf, accessed 10/18/2010.
      410. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      411. 	 Treasury, “Summary Tables of Trouble Asset Relief Program (TARP) Investments,” 3/31/2010, www.financialstability.gov/docs/TARP%20Cost%20
             Estimates%20-%20March%2031%202010.pdf, accessed 10/18/2010.
      412. 	 Treasury, AIG repayment plan briefing, 10/6/2010; Treasury, “Troubled Asset Relief Program: Two Year Retrospective,” 10/5/2010, www.financialstabil-
             ity.gov/docs/TARP%20Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed 10/7/2010.
      413. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      414. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      415. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      416. 	 Treasury, AIG repayment plan briefing, 10/6/2010.
      417. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-8-10%20Transactions%20Report%20as%20of%2010-
             6-10.pdf, accessed 10/4/2010; Treasury, “Treasury, Federal Reserve, and the FDIC Provide Assistance to Bank of America,” 1/16/2009, www.treas.gov,
             accessed 1/16/2009.
      418. 	 Treasury, “Targeted Investment Program,” 11/20/2009, www.financialstability.gov/roadtostability/targetedinvestmentprogram, accessed 8/21/2009.
      419. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/4/2010.
      420. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/4/2010.
      421. 	 Treasury, Section 105(a) Report, 3/10/2010, http://financialstability.gov/docs/105CongressionalReports/Monthly%20Report_February2010.pdf, accessed
             3/15/2010; Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20
             of%209-30-10.pdf, accessed 10/4/2010..
      422. 	 Treasury, “Treasury Receives $45 Billion in Repayments from Wells Fargo and Citigroup,” 12/22/2010, http://financialstability.gov/latest/pr_12232009b.
             html, accessed 6/30/2010; Treasury, Section 105(a) Report, 2/3/2010, http://financialstability.gov/docs/105CongressionalReports/105aRepo
             rt_02032009.pdf, accessed 3/16/2010.
      424. 	 Treasury, Section 105(a) Report, 2/3/2010, www.financialstability.gov/docs/105CongressionalReports/105aReport_02032009.pdf, accessed 3/16/2010.
                                                                                           quarterly report to congress I october 26, 2010                  219


425. 	 Treasury, “Treasury Announces Public Offering of Citigroup AGP Trups®,” 9/29/2010, www.treas.gov/press/releases/tg876.htm, accessed 9/29/2010;
       Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-8-10%20Transactions%20Report%20as%20of%2010-6-
       10.pdf, accessed 10/4/2010.
426. 	 Treasury, “Legacy Securities Public-Private Investment Program, OVERVIEW,” 7/23/2010, www.financialstability.gov/roadtostability/legacysecurities.
       html, accessed 8/17/2010; Treasury Press Release, “Treasury Department Announces Additional Initial Closing of Legacy Securities Public-Private
       Investment Fund,” 12/22/2009, www.financialstability.gov/latest/pr_12182009c.html, accessed 9/30/2010.
427. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/4/2010.
428. 	 Federal Reserve Press Release, “Federal Reserve announces the creation of the Term Asset-Backed Securities Loan Facility (TALF),” 11/25/2008, www.
       federalreserve.gov/newsevents/press/monetary/20081125a.htm, accessed 6/24/2010.
429. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
430. 	 Federal Reserve Press Release, “Federal Reserve announces expansion of eligible collateral under Term Asset-Backed Securities Loan Facility,”
       5/1/2009, www.federalreserve.gov/newsevents/press/monetary/20090501a.htm, accessed 6/25/2010; Federal Reserve Press Release, “Federal Reserve
       announces that certain high-quality commercial mortgage-backed securities will become eligible collateral under TALF,” 5/19/2009, www.federalre-
       serve.gov/newsevents/press/monetary/20090519b.htm, accessed 7/10/2010.
431. 	 Federal Reserve, “Lending Facilities to Support Overall Market Liquidity,” 3/2010, www.federalreserve.gov/monetarypolicy/clbs_lendingfacili-
       ties_201003.htm, accessed 8/17/2010.
432. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 7/10/2010;
       FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/CMBS_recent_operations.html, accessed
       6/15/2010; FRBNY, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_
       print.html, accessed 6/30/2010.
433. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 7/1/2010.
434. 	 FRBNY, response to SIGTARP data call, 7/9/2010.
435. 	 FRBNY, “2009 Annual Report,” 6/2010, www.newyorkfed.org/aboutthefed/annual/annual09/annual.pdf, accessed 7/1/2010.
436. 	 Federal Reserve Press Release, “Federal Reserve announces agreement with Treasury regarding reduction of credit protection provided for TALF,”
       7/20/2010, www.federalreserve.gov/newsevents/press/monetary/20100720a.htm, accessed 8/18/2010; FRBNY, response to SIGTARP data call,
       7/12/2010.
437. 	 FRBNY, response to SIGTARP data call, 10/5/2010.
438. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
439. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html,
       accessed 6/10/2010; Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/
       TALF_Terms_print.html, accessed 6/30/2010.
440. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
441. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
442. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
443. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
444. 	 FRBNY, response to SIGTARP data call, 7/8/2010.
445. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
446. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
447. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
448. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html,
       accessed 6/10/2010; Federal Reserve, Federal Reserve System Monthly Report on Credit and Liquidity Programs and the Balance Sheet, 12/2009, www.
       federalreserve.gov/monetarypolicy/files/monthlyclbsreport200912.pdf, accessed 7/1/2010.
449. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html, ac-
       cessed 6/10/2010.
450. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html,
       accessed 6/10/2010.
451. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Frequently Asked Questions,” 4/1/2010, www.newyorkfed.org/markets/talf_faq.html,
       accessed 6/10/2010.
452. 	 Federal Reserve, “Term Asset-Backed Securities Loan Facility: Terms and Conditions,” 11/13/2009, www.newyorkfed.org/markets/TALF_Terms_print.
       html, accessed 6/30/2010.
453. 	 Federal Reserve, response to SIGTARP draft report, 7/9/2010.
454. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: non-CMBS,” no date, www.newyorkfed.org/markets/talf_operations.html, accessed 7/1/2010.
455. 	 FRBNY, response to SIGTARP data call, 10/5/2010.
456. 	 FRBNY, “Term Asset-Backed Securities Loan Facility: CMBS,” no date, www.newyorkfed.org/markets/cmbs_operations.html, accessed 9/10/2010.
457. 	 FRBNY, response to SIGTARP data call, 10/5/2010.
458. 	 OFS, FRBNY, response to SIGTARP draft report, 4/9/2009; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
220             special inspector general I troubled asset relief program



      459. 	 Treasury, “Security and Intercreditor Agreement Dated as of March 3, 2009 Among TALF LLC, as Borrower, FRBNY, as Senior Lender, United States
             Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral Agent,” 3/3/2009,
             www.financialstability.gov/docs/SPVSec-Agt.pdf, accessed 6/29/2010; Federal Reserve, response to SIGTARP draft report, 7/9/2010.
      460. 	 Federal Reserve, “H.4.1 Factors Affecting Reserve Balances,” 7/1/2010, www.federalreserve.gov/releases/h41/Current/, note 8, accessed 7/7/2010.
      461. 	 Treasury, “Security and Intercreditor Agreement Dated as of March 3, 2009 Among TALF LLC, as Borrower, FRBNY, as Senior Lender, United States
             Department of the Treasury, as Subordinated Lender, FRBNY, as Controlling Party, and the Bank of New York Mellon, as Collateral Agent,” 3/3/2009,
             www.financialstability.gov/docs/SPVSec-Agt.pdf, accessed 6/29/2010.
      462. 	 FRBNY, response to SIGTARP data call, 10/5/2010.
      463. 	 Board of Governors of the Federal Reserve System, response to SIGTARP vetting draft, 10/7/2010.
      464. 	 Board of Governors of the Federal Reserve System, response to SIGTARP vetting draft, 10/7/2010.
      465. 	 Federal Reserve, “TALF LLC, Financial Statements for the Period February 4, 2009 to December 31, 2009 and Independent Auditors’ Report,”
             4/21/2010, www.federalreserve.gov/monetarypolicy/files/BSTTALFLLCfinstmt2009.pdf, accessed 6/25/2010; FRBNY, response to SIGTARP data call,
             10/5/2010.
      466. 	 Federal Reserve, response to SIGTARP draft report, 4/8/2010.
      467. 	 Treasury Press Release, “Treasury Department Provides Updated Guidance on Legacy Securities Public-Private Investment Program,” 4/6/2009,
             www.treas.gov/press/releases/tg82.htm, accessed 8/17/2010.
      468. 	 Treasury Press Release, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP), Additional Frequently Asked Questions,”
             7/8/2009, www.treas.gov/press/releases/reports/legacy_securities_faqs.pdf, accessed 6/24/2010.
      469. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 8/17/2010.
      470. 	 Treasury, “Legacy Securities Public-Private Investment Program, OVERVIEW,” 7/23/2010, www.financialstability.gov/roadtostability/legacysecurities.
             html, accessed 8/17/2010.
      471. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 8/17/2010.
      472. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treas.gov/press/releases/reports/
             legacy_securities_faqs.pdf, accessed 3/31/2010.
      473. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treas.gov/press/releases/reports/
             legacy_securities_faqs.pdf, accessed 3/31/2010.
      474. 	 Treasury, “Legacy Securities Public-Private Investment Funds (PPIFs) Frequently Asked Questions,” 3/23/2009, www.treas.gov/press/releases/reports/
             legacy_securities_faqs.pdf, accessed 3/31/2010; “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/
             TCW%20LPA%20EXECUTED%20(redacted).pdf, accessed 12/14/2009.
      475. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 12/14/2009.
      476. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 12/14/2009.
      477. 	 Treasury, “Legacy Securities Public-Private Investment Program: Program Update – Month Ended June 30, 2009,” received 7/15/2010.
      478. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 12/14/2009.
      479. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/7/2010.
      480. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/9-27-10%20Transactions%20Report%20as%20of%209-23-
             10.pdf, accessed 9/28/2010; Treasury, response to SIGTARP data call, 10/7/2010.
      481. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 12/14/2009.
      482. 	 SIGTARP, discussion with BlackRock, 10/2010.
      483. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 8/27/2010.
      484. 	 Treasury Press Release, “Legacy Securities Public-Private Investment Program (Legacy Securities PPIP) Additional Frequently Asked Questions,”
             7/8/2009, www.treas.gov/press/releases/reports/legacy_securities_faqs.pdf, accessed 12/14/2009.
      485. 	 Treasury, “Amended and Restated Limited Partnership Agreement,” no date, www.financialstability.gov/docs/TCW%20LPA%20EXECUTED%20
             (redacted).pdf, accessed 6/8/2010.
      486. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2010,” 7/19/2010, www.financialstability.
             gov/docs/111.pdf, p. 8, accessed 8/17/2010; Treasury, response to SIGTARP data call, 10/7/2010.
      487. 	 Treasury, “Legacy Securities Public-Private Investment Program, Program Update – Quarter Ended June 30, 2010,” 7/19/2010, www.financialstability.
             gov/docs/111.pdf, p. 8, accessed 8/17/2010; Treasury, response to SIGTARP data call, 6/30/2010.
      488. 	 Congressional Oversight Panel, “August Oversight Report, The Continued Risk of Troubled Assets,” 8/11/2009, http://cop.senate.gov/documents/cop-
             081109-report.pdf, accessed 8/18/2010.
      489. 	 Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.financialstability.gov/roadtostability/unlockingCreditforSmallBusinesses.
             html, accessed 3/17/2009; SBA, “Q&A for Small Business Owners,” no date, www.treas.gov/press/releases/reports/tg58_smallbiz_qa.pdf, accessed
             6/30/2009; Treasury OFS, response to SIGTARP data call, 4/12/2010.
      490. 	 Treasury, response to SIGTARP data call, 9/30/2010.
      491. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-8-10%20Transactions%20Report%20as%20of%2010-6-
             10.pdf, accessed 10/4/2010.
      492. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” 8/27/10, www.financialsta-
             bility.gov/docs/agreements/Executed%20Copy%20of%20Shay%20Financial%20Services,%20Inc.%20MPA%20(73485877_2).pdf, accessed 10/23/2010.
      493. 	 Treasury, “Master Purchase Agreement for SBA Pooled Certificates and Senior Securities Issued by SBA Pool Assemblers,” 3/2/2010, www.financialsta-
             bility.gov/docs/agreements/Coastal%20Securities,%20Inc.pdf, accessed 6/10/2010.
                                                                                             quarterly report to congress I october 26, 2010                    221


494. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-8-10%20Transactions%20Report%20as%20of%2010-6-
       10.pdf, accessed 10/4/2010.
495. 	 Treasury, “Guidelines for Automotive Industry Financing Program,” no date, www.financialstability.gov/docs/AIFP/AIFP_guidelines.pdf, accessed
       9/2/2009.
496. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/11/2010.
497. 	 Treasury, response to SIGTARP vetting draft, 10/8/2009; Treasury, Section 105(a) Report, 5/10/2010, www.financialstability.gov/
       docs/105CongressionalReports/April%202010%20105(a)%20report_final.pdf, accessed 6/1/2010.
498. 	 Treasury Press Release, 7/21/2009, www.financialstability.gov/latest/tg218.html, accessed 8/15/2010.
499. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/11/2010.
500. 	 For total obligation amount, see Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20
       Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/11/2010; for undrawn loan obligation amount, see Treasury, response to SIGTARP
       data call, 10/14/2010.
501. 	 For principal repayments, see Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20
       Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/11/2010; for interest repayments, see Treasury, Dividends and Interest Reports,
       10/11/2010, www.financialstability.gov/docs/dividends-interest-reports/September%202010%20Dividends%20&%20Interest%20Report.pdf, accessed
       10/13/2010.
502. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/11/2010.
503. 	 For discussion on purpose of the automotive support program, see Treasury, “Automotive Industry Financing Program,” 9/4/2009, www.financialstabil-
       ity.gov/roadtostability/autoprogram.html, accessed 8/15/2010; for total loan commitments, see Treasury, Transactions Report, 9/30/2010, www.financial-
       stability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-10.pdf, accessed 10/11/2010.
504. 	 Treasury, Dividends and Interest Reports, 10/11/2010, www.financialstability.gov/docs/dividends-interest-reports/September%202010%20Dividends%20
       &%20Interest%20Report.pdf, accessed 10/13/2010.
505. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/11/2010.
506. 	 SIGTARP, “Additional Insight on Use of Troubled Asset Relief Program Funds,” 12/10/2009, www.sigtarp.gov/reports/audit/2009/Additional_Insight_
       on_Use_of_Troubled_Asset_Relief_Program_Funds.pdf, p. 10, accessed 8/17/2010.
507. 	 Treasury Press Release, “Written Testimony of Herbert M. Allison, Jr., Assistant Secretary for Financial Stability Domestic Policy Subcommittee of the
       Oversight and Government Reform Committee,” 12/17/2009, www.financialstability.gov/latest/st_12172009.html, accessed 3/10/2010.
508. 	 SEC, “General Motors Company: Form S-1 Registration Statement,” 8/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510192195/
       ds1/htm, accessed 9/1/2010.
509. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
       10.pdf, accessed 10/11/2010.
510. 	 GM, Form 10-Q, 8/16/2010, http://phx.corporate-ir.net/phoenix.zhtml?c=231169&p=irol-SECText&TEXT=aHR0cDovL2lyLmludC53ZXN0bGF3YnVz
       aW5lc3MuY29tL2RvY3VtZW50L3YxLzAwMDExOTMxMjUtMTAtMTg5OTY4L3htbA%3d%3d, accessed 8/31/2010.
511. 	 GM Press Release, “GM to Acquire AmeriCredit,” 7/22/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_gm.html/content/
       Pages/news/us/en/2010/July/0722_americredit, accessed 8/18/2010.
512. 	 GM Press Release, “GM to Acquire AmeriCredit,” 7/22/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_gm.html/content/
       Pages/news/us/en/2010/July/0722_americredit, accessed 8/18/2010.
513. 	 GM Press Release, “GM to Acquire AmeriCredit,” 7/22/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_gm.html/content/
       Pages/news/us/en/2010/July/0722_americredit, accessed 8/18/2010.
514. 	 GM Press Release, “GM to Acquire AmeriCredit,” 7/22/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_gm.html/content/
       Pages/news/us/en/2010/July/0722_americredit, accessed 8/18/2010.
515. 	 SEC, “General Motors Company: Form S-1 Registration Statement,” 8/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510192195/
       ds1/htm, accessed 9/1/2010.
516. 	 GM, Form 8-K, 10/1/2010, http://phx.corporate-ir.net/phoenix.zhtml?c=231169&p=irol-SECText&TEXT=aHR0cDovL2lyLmludC53ZXN0bGF3YnVza
       W5lc3MuY29tL2RvY3VtZW50L3YxLzAwMDExOTMxMjUtMTAtMjIxNTY3L3htbA%3d%3d, accessed 10/14/2010.
517. 	 GM Press Release, “GM Announces CEO Succession Process,” 8/12/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_
       gm.html/content/Pages/news/us/en/2010/Aug/0812_transition, accessed 8/18/2010.
518. 	 GM Press Release, “GM Announces CEO Succession Process,” 8/12/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_
       gm.html/content/Pages/news/us/en/2010/Aug/0812_transition, accessed 8/18/2010.
519. 	 GM Press Release, “GM Files Registration Statement with United States Securities and Exchange Commission for Proposed Initial Public Offering,”
       8/18/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_gm.html/content/Pages/news/us/en/2010/ipo/0818_release, accessed
       8/23/2010.
520. 	 SEC, “General Motors Company: Form S-1 Registration Statement,” 8/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510192195/
       ds1/htm, accessed 9/1/2010.
521. 	 SEC, “General Motors Company: Form S-1 Registration Statement,” 8/18/2010, www.sec.gov/Archives/edgar/data/1467858/000119312510192195/
       ds1/htm, accessed 9/1/2010.
522. 	 GM Press Release, “GM Files Registration Statement with United States Securities and Exchange Commission for Proposed Initial Public Offering,”
       8/18/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_gm.html/content/Pages/news/us/en/2010/ipo/0818_release, accessed
       8/23/2010.
523. 	 GM Press Release, “GM Files Registration Statement with United States Securities and Exchange Commission for Proposed Initial Public Offering,”
       8/18/2010, http://media.gm.com/content/media/us/en/news/news_detail.brand_gm.html/content/Pages/news/us/en/2010/ipo/0818_release, accessed
       8/23/2010.
524. 	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in General Motors’ Registration Statement for its Initial
       Public Offering,” 8/18/2010, www.financialstability.gov/latest/pr_08182010.html, accessed 8/23/2010.
222             special inspector general I troubled asset relief program



      525. 	 Treasury Press Release, “Treasury Department Agrees to Be Named as a Selling Shareholder in General Motors’ Registration Statement for its Initial
             Public Offering,” 8/18/2010, www.financialstability.gov/latest/pr_08182010.html, accessed 8/23/2010.
      526. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      527. 	 Treasury, response to SIGTARP data call, 10/14/2010.
      528. 	 Treasury, Section 105(a) Report, 5/10/2010, www.financialstability.gov/docs/105CongressionalReport/April%202010%20105(a)%20report_final.pdf,
             accessed 6/1/2010.
      529. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      530. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      531. 	 Treasury, “Chrysler Financial Parent Company Repays $1.9 Billion in Settlement of Original Chrysler Loan,” 5/15/2010, www.financialstability.gov/
             latest/pr_05172010c.html, accessed 6/27/2010.
      532. 	 For total commitments, see Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20
             Report%20as%20of%209-30-10.pdf, accessed 10/11/2010; Treasury, response to SIGTARP data call, 10/14/2010.
      533. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      534. 	 Treasury, Section 105(a) Report, 9/10/2010, www.financialstability.gov/docs/105CongressionalReports/August%202010%20105(a)%20Report_fi-
             nal_9%2010%2010.pdf, accessed 9/28/2010.
      535. 	 Chrysler Group LLC, “Chrysler Group LLC 2009 Audited Financial Statement,” 4/21/2010, www.chryslergroupllc.com/news/ar-
             chive/2010/04/21/2009_audited_financial_statement, accessed 10/18/2010.
      536. 	 Ally Financial, Form 10-K, 2/27/2009, http://google.brand.edgar-online.com/EFX_dll/EDGARpro.dll?FetchFilingHtmlSection1?SectionID=6442618-
             129208-141191&SessionID=SNHoHeDu1Wnqz77, accessed 9/29/2010.
      537. 	 Treasury, Section 105(a) Report, 5/10/2010, www.financialstability.gov/docs/105CongressionalReport/April%202010%20105(a)%20report_final.pdf,
             accessed 6/1/2010.
      538. 	 Treasury, Section 105(a) Report, 5/10/2010, www.financialstability.gov/docs/105CongressionalReport/April%202010%20105(a)%20report_final.pdf,
             accessed 6/1/2010.
      539. 	 Ally Financial, Form 8-K, 5/22/2009, www.ally.com/about/investor/sec-filings/?term=*&start=121, accessed 10/17/2010.
      540. 	 Ally Financial, Form 8-K, 1/5/2010, http://biz.yahoo.com/e/100105/gjm8-k.html, accessed 9/29/2010.
      541. 	 Treasury, Section 105(a) Report, 5/10/2010, www.financialstability.gov/docs/105CongressionalReport/April%202010%20105(a)%20report_final.pdf,
             accessed 6/1/2010.
      542. 	 SEC, “GMAC Inc. Form 8-K,” 5/13/2010, www.sec.gov/Archives/edgar/data/40729/000114420410025354/v183596_8-k.htm, accessed 8/15/2010.
      543. 	 Treasury, response to SIGTARP data call, 10/8/2010.
      544. 	 Ally Financial, Form 10-K, 3/1/2010, www.ally.com/about/investor/sec-filings/?form=10-K, accessed 9/29/2010.
      545. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      546. 	 Treasury, Section 105(a) Report, 5/10/2010, www.financialstability.gov/docs/105CongressionalReport/April%202010%20105(a)%20report_final.pdf,
             accessed 6/1/2010.
      547. 	 For initial statement, see Ally Financial Press Release, “GMAC Mortgage Statement on Speculation Related to Foreclosure Moratorium,” 9/20/2010,
             http://media.ally.com/index.php?s=43&item=416, accessed 9/22/2010; for statement concerning affidavits, see Ally Financial Press Release, “GMAC
             Mortgage Provides Update on Mortgage Servicing Process,” 9/24/2010, accessed 10/14/2010.
      548. 	 Ally Financial Press Release, “GMAC Mortgage Statement on Speculation Related to Foreclosure Moratorium,” 9/20/2010, http://media.ally.com/index.
             php?s=43&item=416, accessed 9/22/2010.
      549. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%20
             9-30-10.pdf, accessed 10/11/2010. Treasury, Dividends and Interest Reports, 10/11/2010, www.financialstability.gov/docs/dividends-interest-reports/
             September%202010%20Dividends%20&%20Interest%20Report.pdf, accessed 10/13/2010.
      550. 	 Treasury Press Release, “Treasury Announces Auto Supplier Support Programs,” 3/19/2009, www.financialstability.gov/latest/auto3_18.hml, accessed
             8/15/2010.
      551. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      552. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      553. 	 Treasury, response to SIGTARP data call, 7/9/2010.
      554. 	 Congressional Oversight Panel, “Accounting for the Troubled Asset Relief Program,” 6/10/2010, http://cop.senate/gov/documents/cop-061010-report.
             pdf, accessed 8/15/2010.
      555. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      556. 	 Treasury, Transactions Report, 9/30/2010, www.financialstability.gov/docs/transaction-reports/10-4-10%20Transactions%20Report%20as%20of%209-30-
             10.pdf, accessed 10/11/2010.
      557. 	 American Recovery and Reinvestment Act of 2009, P.L. 111-5, 2/13/2009.
      558. 	 Treasury Press Release, “Interim Final Rule on TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/re-
             leases/tg165.htm, accessed 11/30/2009; Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/
             releases/reports/ec%20ifr%20fr%20web%206.9.09tg164.pdf, accessed 11/30/2009.
      559. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%20
             6.9.09tg164.pdf, accessed 11/30/2009.
      560. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%20
             6.9.09tg164.pdf, accessed 11/30/2009; Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.ustreas.gov/press/
             releases/tg165.htm, accessed 8/13/2010.
                                                                                             quarterly report to congress I october 26, 2010                    223


561. 	 Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.treas.gov/press/releases/reports/ec%20ifr%20fr%20web%20
       6.9.09tg164.pdf, accessed 11/30/2009.
562. 	 Treasury, “Legacy Securities Public-Private Investment Program,” 7/8/2009, www.ustreas.gov/press/releases/reports/legacy_securities_faqs.pdf, accessed
       9/13/2010.
563. 	 Treasury, “Special Master for Executive Compensation,” 9/4/2009, www.financialstability.gov/about/spcMaster.html, accessed 11/30/2009.
564. 	 Office of the Special Master for TARP Executive Compensation, “Final Report of Special Master Kenneth R. Feinberg,” 9/10/2010, www.financialsta-
       bility.gov/docs/Final%20Report%20of%20Kenneth%20Feinberg%20-%20FINAL.PDF, accessed 9/27/2010.
565. 	 Treasury, response to SIGTARP data call, 10/6/2010.
566. 	 Treasury, response to SIGTARP data call, 5/14/2010.
567. 	 Treasury, “The Special Master for TARP Executive Compensation Concludes the Review of Prior Payments,” 7/23/2010, www.financialstability.gov/
       docs/20100723%20Lookback%20release.pdf, accessed 8/30/2010.
568. 	 Treasury, “The Special Master for TARP Executive Compensation Concludes the Review of Prior Payments,” 7/23/2010, www.financialstability.gov/
       docs/20100723%20Lookback%20release.pdf, accessed 8/30/2010.
569. 	 Treasury, “The Special Master for TARP Executive Compensation Concludes the Review of Prior Payments,” 7/23/2010, www.financialstability.gov/
       docs/20100723%20Lookback%20release.pdf, accessed 8/30/2010.
570. 	 Treasury, “Special Master Issues 2010 Rulings for ‘Top 25’ Executives at Firms Receiving Exceptional Taxpayer Assistance and ‘Look Back’ Letter on
       Review of Pre-Recovery Act Compensation,” 3/24/2010, www.financialstability.gov/latest/tg_03232010c.html, accessed 8/30/2010; Treasury, response to
       SIGTARP data call, 10/7/2010.
571. 	 Treasury, “The Special Master for TARP Executive Compensation Concludes the Review of Prior Payments,” 7/23/2010, www.financialstability.gov/
       docs/20100723%20Lookback%20release.pdf, accessed 8/30/2010.
572. 	 Office of the Special Master for TARP Executive Compensation, “Final Report of Special Master Kenneth R. Feinberg,” 9/10/2010, www.financialsta-
       bility.gov/docs/Final%20Report%20of%20Kenneth%20Feinberg%20-%20FINAL.PDF, accessed 9/27/2010.
573. 	 Office of the Special Master for TARP Executive Compensation, “Final Report of Special Master Kenneth R. Feinberg,” 9/10/2010, www.financialsta-
       bility.gov/docs/Final%20Report%20of%20Kenneth%20Feinberg%20-%20FINAL.PDF, accessed 9/27/2010.
574. 	 Treasury, “The Special Master for TARP Executive Compensation Concludes the Review of Prior Payments,” 7/23/2010, www.financialstability.gov/
       docs/20100723%20Lookback%20release.pdf, accessed 8/30/2010.
575. 	 Freddie Mac, “Innovative Servicing Technology: Smart Enough to Keep People in Their Houses?” 7/2004, www.freddiemac.com/news/pdf/fmwp_0403_
       servicing.pdf, accessed 9/27/2010; Mortgage Banking, “Comptroller’s Handbook,” 3/1996, www.occ.treas.gov/handbook/mortgage.pdf, accessed
       9/30/2010.
576. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.pdf,
       accessed 10/1/2010; United States Government Accountability Office, “Treasury Actions Needed to Make the Home Affordable Modification Program
       More Transparent and Accountable,” 7/2009, www.gao.gov/new.items/d09837.pdf, accessed 10/19/2010.
577. 	 Fannie Mae, “2010 Servicing Guide,” 9/1/2010, www.efanniemae.com/sf/guides/ssg/svcg/svc042810.pdf, accessed 9/27/2010.
578. 	 Fannie Mae, “2010 Servicing Guide,” 9/1/2010, www.efanniemae.com/sf/guides/ssg/svcg/svc042810.pdf, accessed 9/27/2010.
579. 	 FRBNY, “Second Chances: Subprime Mortgage Modification and Re-Default,” 8/2010, www.newyorkfed.org/research/staff_reports/sr417.pdf, accessed
       9/27/2010.
581. 	 National Bureau of Economic Research, “Why Don’t Lenders Renegotiate More Home Mortgages? Redefaults, Self-cures and Securitization,” 7/2009,
       www.nber.org/papers/w15159, accessed 9/27/2010.
582. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.pdf,
       accessed 10/1/2010; Treasury, “Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/docs/hamp_ser-
       vicer/sd0901.pdf, accessed 10/1/2010.
583. 	 OCC, “OCC and OTS Release Mortgage Metrics Report for Second Quarter of 2010,” 9/24/2010, www.occ.gov/news-issuances/news-releases/2010/
       nr-ia-2010-112.html, accessed 10/19/2010.
584. 	 Treasury, “Home Affordable Foreclosure Alternatives – Short Sale and Deed-in-Lieu of Foreclosure Update,” 3/26/2010, www.hmpadmin.com/portal/
       docs/hafa/sd0909r.pdf, accessed 10/1/2010; Treasury, “Making Home Affordable Program Enhancements to Offer More Help for Homeowners,”
       3/26/2010, http://makinghomeaffordable.gov/docs/HAMP%20Improvements_Fact_%20Sheet_032510%20FINAL2.pdf, accessed 10/1/2010.
585. 	 Treasury, “Making Home Affordable Update: Foreclosure Alternatives and Home Price Decline Protection Incentives,” www.ustreas.gov/press/releases/
       docs/05142009FactSheet-MakingHomesAffordable.pdf, accessed 10/1/2010.
586. 	 New York State, “Paths of a Foreclosure in New York State,” no date, http://council.nyc.gov/d28/html/members/NYSForeclosureProcess.pdf, accessed
       10/1/2010.
587. 	 IRS, “Internal Revenue Manual,” no date, www.irs.gov/irm/part5/irm_05-012-004.html, accessed 9/27/2010.
588. 	 Department of Housing and Urban Development, “Foreclosure Process,” no date, http://portal.hud.gov/portal/page/portal/HUD/topics/avoiding_foreclo-
       sure/foreclosureprocess, accessed 9/28/2010.
589. 	 Department of Housing and Urban Development, “Foreclosure Process,” no date, http://portal.hud.gov/portal/page/portal/HUD/topics/avoiding_foreclo-
       sure/foreclosureprocess, accessed 9/28/2010.
590. 	 National Consumer Law Center, “FORECLOSING A DREAM, State Laws Deprive Homeowners of Basic Protections,” February 2009, www.nclc.org/
       imges/pdf/pr-reports/report-foreclosing-dream.pdf, accessed 10/23/2010.
591. 	 Lender Processing Services, “LPS Mortgage Monitor, September 2010 Mortgage Performance Observations, LPS Servicing Database 1st Liens – Non-
       Performing Loan Counts,” 9/2010, www.lpsvcs.com/NewsRoom/IndustryData/Documents/09-2010%20Mortgage%20Monitor/Pres_MM_Aug10Data.
       pdf, accessed 10/13/2010.
592. 	 Federal Housing Finance Agency, “Recourse and Residential Mortgage Default: Theory and Evidence from U.S. States,” 7/7/2009, www.fhfa.gov/web-
       files/15051/website_ghent.pdf, accessed 10/1/2010.
593. 	 FDIC, “Securitization,” no date, www.fdic.gov/bank/historical/managing/history1-16.pdf, accessed 9/30/2010.
594. 	 Federal Reserve Board, “The Incentives of Mortgage Servicers: Myths and Realities,” 10/13/2008, www.federalreserve.gov/pubs/feds/2008/200846/revi-
       sion/index.html, accessed 10/1/2010.
595. 	 Federal Reserve Board, “The Incentives of Mortgage Servicers: Myths and Realities,” 10/13/2008, www.federalreserve.gov/pubs/feds/2008/200846/revi-
       sion/index.html, accessed 10/1/2010.
224             special inspector general I troubled asset relief program



      596. 	 Federal Reserve Board, “The Incentives of Mortgage Servicers: Myths and Realities,” 10/13/2008, www.federalreserve.gov/pubs/feds/2008/200846/revi-
             sion/index.html, accessed 10/1/2010.
      597. 	 Moody’s Investor’s Service, response to SIGTARP data call, 10/20/2010; Fitch Ratings, “Fitch Ratings Definitions,” no date, www.fitchratings.com/
             creditdesk/public/ratings_definitions/index.cfm, accessed 10/21/2010.
      598. 	 Federal Reserve Board, “The Incentives of Mortgage Servicers: Myths and Realities,” 10/13/2008, www.federalreserve.gov/pubs/feds/2008/200846/revi-
             sion/index.html, accessed 10/1/2010.
      599. 	 Federal Reserve Board, “The Incentives of Mortgage Servicers: Myths and Realities,” 10/13/2008, www.federalreserve.gov/pubs/feds/2008/200846/revi-
             sion/index.html, accessed 10/1/2010.
      600. 	 Freddie Mac, “Single-Family Seller/Servicer Guide,” 4/25/2006, www.allregs.com/tpl/Main.aspx, accessed 9/24/2010.
      601. 	 Federal Reserve Board, “The Incentives of Mortgage Servicers: Myths and Realities,” 10/13/2008, www.federalreserve.gov/pubs/feds/2008/200846/revi-
             sion/index.html, accessed 10/1/2010.
      602. 	 Freddie Mac, “Single-Family Seller/Servicer Guide,” 4/25/2006, www.allregs.com/tpl/Main.aspx, accessed 9/24/2010.
      603. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.
             pdf, accessed 10/1/2010.
      604. 	 Treasury, “Home Affordable Foreclosure Alternatives – Short Sale and Deed-in-Lieu of Foreclosure Update,” 3/26/2010, www.hmpadmin.com/portal/
             docs/hafa/sd0909r.pdf, accessed 10/1/2010.
      605. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.
             pdf, accessed 10/1/2010.
      606. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.
             pdf, accessed 10/1/2010.
      607. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.
             pdf, accessed 10/1/2010.
      608. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/Factors_
             Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 9/30/2010.
      609. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.pdf,
             accessed 10/1/2010.
      610. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.pdf,
             accessed 10/1/2010.
      611. 	 Dominion Bond Rating Service, “Rating U.S. RMBS Servicing Advance Transactions,” 12/2009, www.dbrs.com/research/230887/rating-u-s-rmbs-
             servicing-advance-transactions.pdf, accessed 10/1/2010.
      612. 	 SEC, “Comments,” 7/30/2010, www.sec.gov/comments/s7-08-10/s70810-68.pdf, accessed 10/1/2010.
      613. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-
             report.pdf, accessed 10/1/2010; SEC, “Comments,” www.sec.gov/comments/s7-08-10/s70810-68.pdf, accessed 10/1/2010. FDIC, “Remarks by
             FDIC Chairman Sheila C. Bair to the Urban Land Institute,” 10/13/2010, www. fdic.gov/news/news/speeches/chairman/spoct1310.html, accessed
             10/22/2010.
      614. 	 Congressional Oversight Panel, “April Oversight Report Evaluating Progress on TARP Foreclosure Mitigation Programs,” 4/14/2010, http://cop.senate.
             gov/documents/cop-041410-report.pdf, accessed 10/19/2010.
      615. 	 Federal Reserve Board, “The Incentives of Mortgage Servicers: Myths and Realities,” 10/13/2008, www.federalreserve.gov/pubs/feds/2008/200846/revi-
             sion/index.html, accessed 10/1/2010.
      616. 	 Mortgage Bankers Association, “Lenders’ Cost of Foreclosure,” 5/28/2010, www.nga.org/Files/pdf/0805FORECLOSUREMORTGAGE.PDF, accessed
             10/1/2010.
      617. 	 Federal Trade Commission, “Mortgage Servicing: Making Sure Your Payments Count,” 6/2010, www.ftc.gov/bcp/edu/pubs/consumer/homes/rea10.pdf,
             accessed 10/1/2010.
      618. 	 Freddie Mac, “Innovative Servicing Technology: Smart Enough to Keep People in Their Houses?,” 7/2004, www.freddiemac.com/news/pdf/
             fmwp_0403_servicing.pdf, accessed 9/27/2010; The 2010 Mortgage Market Statistical Annual, Volume 1: The Primary Market, Bethesda, MD: Inside
             Mortgage Finance Publications, Inc. 2010.
      619. 	 FCIC, “Selected Financial Market & Economic Data,” 1/13/2010, www.fcic.gov/reports/pdfs/2010-0113-EconomicData.pdf, accessed 10/1/2010.
      620. 	 Treasury, “OCC Annual Report, Fiscal Year 2007,” 11/2/2007, www.occ.treas.gov/annrpt/2007HTML/2007AnnualReport.htm, accessed 10/1/2010.
      621. 	 Congressional Oversight Panel, “Foreclosure Crisis: Working Toward a Solution,” 3/26/2010, http://cop.senate.gov/documents/cop-030609-report.pdf,
             accessed 10/1/2010; Treasury, “Introduction of the Home Affordable Modification Program,” 4/6/2010, www.hmpadmin.com/portal/docs/hamp_ser-
             vicer/sd0901.pdf, accessed 10/1/2010.
      622. 	 FCIC, “Selected Financial Market & Economic Data,” 1/13/2010, www.fcic.gov/reports/pdfs/2010-0113-EconomicData.pdf, accessed 10/1/2010.
      623. 	 National Consumer Law Center, “The Recently Announced Revisions to the Home Affordable Modification Program (HAMP), Written Testimony of
             Alys Cohen National Consumer Law Center also on behalf of National Association of Consumer Advocates,” 4/18/2010, www.house.gov/apps/list/hear-
             ing/financialsvcs_dem/testimony_-_cohen_4.14.10.pdf, accessed 10/1/2010.
      624. 	 Treasury, “About Making Home Affordable,” no date, www.makinghomeaffordable.gov/about.html, accessed 10/5/2010.
      625. 	 Treasury, “HAMP Borrowers FAQ,” no date, http://makinghomeaffordable.gov/borrower-faqs.html, accessed 10/1/2010.
      626. 	 SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,” 3/25/2010, www.sigtarp.gov/reports/audit/2010/
             Factors_Affecting_Implementation_of_the_Home_Affordable_Modification_Program.pdf, accessed 9/30/2010.
      627. 	 Treasury, “HAMP Borrowers FAQ,” no date, http://makinghomeaffordable.gov/borrower-faqs.html, accessed 10/1/2010.
      628. 	 Treasury, “HAMP Borrowers FAQ,” no date, http://makinghomeaffordable.gov/borrower-faqs.html, accessed 10/1/2010.
      629. 	 Treasury, response to SIGTARP vetting report, 10/8/2010.
      630. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_
             servicer/mhahandbook_20.pdf, accessed 9/30/2010.
      631. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_
             servicer/mhahandbook_20.pdf, accessed 9/30/2010.
                                                                                          quarterly report to congress I october 26, 2010                  225


632. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_
       servicer/mhahandbook_20.pdf, accessed 9/30/2010.
633. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_
       servicer/mhahandbook_20.pdf, accessed 9/30/2010.
634. 	 Treasury, response to draft report, 10/15/2010.
635. 	 Treasury, response to draft report, 10/15/2010.
636. 	 Treasury, “Making Home Affordable Program Handbook for Servicers of Non-GSE Mortgages,” 9/22/2010, www.hmpadmin.com/portal/docs/hamp_ser-
       vicer/mhahandbook_20.pdf, accessed 9/30/2010.
637. 	 Treasury, response to SIGTARP data call, 10/21/2010.
638. 	 Bureau of Labor Statistics, “Occupational Employment Statistics,” no date, www.bls.gov/oes/current/oes_fl.htm#47-0000, accessed 10/1/2010.
639. 	 Standard & Poor’s, “S&P Case-Shiller Home Price Indices,” 9/28/2010, www.standardandpoors.com/indices/sp-case-shiller-home-price-indices/en/
       us/?indexId=spusa-cashpidff--p-us----, accessed 10/1/2010.
640. 	 Wall Street Journal, “Debt Dilemma,” 12/3/2007, http://online.wsj.com/public/resources/documents/retro_SubPrime1107.html, accessed 10/1/2010.
641. 	 Hillsborough County Property Appraiser, “Online Tax Estimator,” no date, www.hcpafl.org/taxEstimator.aspx, accessed 10/1/2010.
642. 	 Standard & Poor’s, “S&P Case-Shiller Home Price Indices,” 9/28/2010, www.standardandpoors.com/indices/sp-case-shiller-home-price-indices/en/
       us/?indexId=spusa-cashpidff--p-us----, accessed 10/1/2010.
643. 	 Federal Reserve Bank of Boston, “How Loan Modifications Affect Credit Scores,” Fall 2010, www. bos.frb.org/commdev/c&b/2010/fall/charkrab-
       arti_loan_modification.pdf, accessed 10/22/2010; Treasury, “HAMP Borrowers FAQ,” no date, http://makinghomeaffordable.gov/borrower-faqs.html,
       accessed 10/1/2010.
644. 	 OCC, “Testimony of John Walsh Acting Comptroller of the Currency, before the Committee on Banking, Housing and Urban Affairs, United States
       Senate,” 9/30/2010, http://banking.senate.gov/public/index.cfm?FuseAction=Hearings.LiveStream&Hearing_id=45d8ba0b-04b1-41d6-b5b5-
       2008c0ce72d9, accessed 10/20/2010.
645. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
646. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
647. 	 Treasury, response to SIGTARP data call, 10/7/2010; Treasury, response to SIGTARP data call, 10/8/2010.
648. 	 Treasury, response to SIGTARP data call, 10/8/2010.
649. 	 Treasury, response to SIGTARP data call, 10/8/2010.
650. 	 Treasury, response to SIGTARP data call, 10/7/2010.
651. 	 Congressional Oversight Panel, “Examining Treasury’s Use of Financial Crisis Contracting Authority,” 10/14/2010, http://cop.senate.gov/documents/
       cop-101410-report.pdf, accessed 10/18/2010.
652. 	 Emergency Economic Stabilization Act of 2008, P.L. 110-343, 10/3/2008.
226             Appendix a I glossary I october 26, 2010




      glossary
      This appendix provides a glossary of terms that are used throughout the context of this report.


      504 Community Development Loan Program: SBA program combining                     Deed-In-Lieu of Foreclosure: Instead of going through the process of fore-
      Government-guaranteed loans with private-sector mortgages to provide loans        closure, the borrower voluntarily surrenders the property deed to the lender,
      of up to $10 million for community development.                                   often as satisfaction of the unpaid mortgage balance. Sometimes called “cash
                                                                                        for keys,” which refers to incentives paid to a borrower to vacate a property.
      7(a) Program: SBA loan program guaranteeing a percentage of loans for
      small businesses that cannot otherwise obtain conventional loans at reason-       Deficiency Judgment: Court order that authorizes a lender to collect part of
      able terms.                                                                       an outstanding debt resulting from the foreclosure and sale of a homeowner’s
                                                                                        property or from the repossession of a property securing a debt. A deficiency
      Asset-Backed Securities (“ABS”): Bonds backed by a portfolio of consumer          judgment is rendered after the foreclosed or repossessed property is sold and
      or corporate loans, e.g., credit card, auto, or small business loans. Financial   the proceeds collected are insufficient to pay the full mortgage.
      companies typically issue ABS backed by existing loans in order to fund new
      loans for their customers.                                                        Direct Private Placement: Sale of securities to investors that meet
                                                                                        minimum net worth and sophistication requirements, thereby receiving an
      Auction Agent: Firms (such as investment banks) that buy a series of securi-      exemption from normal SEC registration requirements.
      ties from one institution for resale.
                                                                                        Due Diligence: Appropriate level of attention or care a reasonable person
      Capitalization: Method of modifying a mortgage by which missed payments           should take before entering into an agreement or a transaction with another
      and other costs are added to the principal balance of the loan and therefore      party. In finance, often refers to the process of conducting an audit or review
      financed or spread out over the remaining term of the loan.                       of the counterparty prior to initiating a transaction.

      Captive Financing Company: Subsidiary, the purpose of which is to provide         Dutch Auction: For a Treasury warrant auction (which has multiple bid-
      financing to customers buying the parent company’s product.                       ders bidding for different quantities of the asset) the accepted price is set at
                                                                                        the lowest bid of the group of high bidders whose collective bids fulfill the
      Collateral: Asset pledged by a borrower to a lender until a loan is repaid.       amount offered by Treasury. As an example, three investors place bids to own
      Generally, if the borrower defaults on the loan, the lender gains ownership       a portion of 100 shares offered by the issuer:
      of the pledged asset and may sell it to satisfy the debt. In TALF, the ABS or
      CMBS that is purchased with the TALF loan is the collateral that is posted        •	 Bidder A wants 50 shares at $4/share
      with FRBNY.                                                                       •	 Bidder B wants 50 shares at $3/share
                                                                                        •	 Bidder C wants 50 shares at $2/share
      Commercial Mortgage-Backed Securities (“CMBS”): Bonds backed by
      one or more mortgages on commercial real estate (e.g., office buildings,          The seller selects Bidders A and B as the two highest bidders, and their col-
      rental apartments, hotels) rather than by residential real estate loans.          lective bids consume the 100 shares offered. The winning price is $3, which
                                                                                        is what both bidders pay per share. Bidder C’s bid is not filled.
      Common Stock: Equity ownership entitling an individual to share in corpo-
      rate earnings and voting rights.                                                  Equity: Investment that represents an ownership interest in a business.

      Community Development Financial Institution (“CDFI”): Financial                   Equity Capital Facility: Commitment to invest equity capital in a firm
      institution eligible for Treasury funding to serve urban and rural low-income     under certain future conditions.
      communities through the CDFI Fund. CDFIs were created in 1994 by the
      Riegle Community Development and Regulatory Improvement Act.                      Exceptional Assistance Recipients: Companies receiving assistance under
                                                                                        SSFI, TIP, and AIFP. Current recipients are AIG, Chrysler, GM, and Ally
      Cumulative Preferred Stock: Stock requiring a defined dividend payment.           Financial (formerly GMAC).
      If the company does not pay the dividend on schedule, it still owes the
      missed dividend to the preferred stock’s owner.                                   Excess Spread: Funds left over after required payments and other contrac-
                                                                                        tual obligations have been met. In TALF it is the difference between the peri-
      Custodian Bank: Bank holding the collateral and managing accounts for             odic amount of interest paid out by the collateral and the amount of interest
      FRBNY; for TALF the custodian is Bank of New York Mellon.                         charged by FRBNY on the non-recourse loan provided to the borrower to
                                                                                        purchase the collateral.
      Debt: Investment in a business that is required to be paid back to the inves-
      tor, usually with interest.                                                       Exercise Price: Preset price at which the warrant holder may purchase each
                                                                                        share. For warrants issued through CPP, this was based on the average stock
      Debtor-in-Possession Financing: Company operating under Chapter 11                price during the 20 days before the date that Treasury granted preliminary
      bankruptcy protection that technically still owns its assets but is operating     CPP participation approval.
      them to maximize the benefit to its creditors.
                                                                                        Haircut: Difference between the value of the collateral and the value of the
      Debt-to-income: A comparison of the first-lien monthly mortgage payment           loan (the loan value is less than the collateral value).
      divided by the borrower’s monthly pre-tax income; also called the front-end
      ratio.                                                                            Illiquid Assets: Assets that cannot be quickly converted to cash.
                                                                                                            glossary I Appendix A I october 26, 2010                  227




Imminent Default: Refers to borrowers who are current on their mortgage            under the Series G facility for general corporate purposes, up to a cumulative
payments but are expected to not be able to continue to make their monthly         total of $2 billion. Dividends will be payable on a cumulative basis at 5% per
payments.                                                                          annum, compounded quarterly. After that date, the Series G facility will be
                                                                                   converted into AIG common stock according to a predetermined formula. If
Initial Public Offering (“IPO”): First public sale of a private company’s          AIG does not draw down the remaining TARP funds for its general corporate
stock. In an IPO, the issuer uses an underwriting firm, which helps it deter-      purposes, the funds can be used to purchase an additional $2 billion worth of
mine which type of security to issue (common or preferred), the best offering      FRBNY’s remaining $6 billion interest in the AIA and ALICO’s SPVs, which
price, and the best time to bring it to market.                                    will be provided to Treasury.

Investor: Owner of mortgage loans, or bonds backed by mortgage loans, who          Non-Agency Residential Mortgage-Backed Securities (“Non-Agency
receives interest and principal payments from monthly mortgage payments.           RMBS”): Financial instrument backed by a group of residential real estate
Servicers manage the cash flow from these payments and distribute them to          mortgages not guaranteed or owned by a Government-sponsored enterprise
bond investors according to ownership rights.                                      (“GSE”), such as the Federal National Mortgage Association (“Fannie Mae”)
                                                                                   or the Federal Home Loan Mortgage Corporation (“Freddie Mac”).
Key Person: Individual recognized as being important to the ongoing opera-
tion and investment decisions of an investment fund.                               Non-Cumulative Preferred Stock: Preferred stock with a defined dividend,
                                                                                   but the company has no obligation to pay any missed dividends.
Legacy Securities: Real estate-related securities lingering on the balance
sheets of financial institutions because of pricing difficulties that resulted     Non-Recourse Loan: Secured loan in which the borrower is relieved of the
from market disruption.                                                            obligation to repay the loan upon surrendering the collateral.

Letter of Credit: Letter from a bank guaranteeing that a buyer’s payment to        Obligation: Definite commitment which creates a legal liability for the
a seller will be received on time and for the correct amount. In the event that    Government to pay funds.
the buyer is unable to make payment on the purchase, the bank is required
to cover the full or remaining amount of the purchase.                             Pool Assemblers: Firms authorized to create and market pools of SBA-
                                                                                   guaranteed loans.
Limited Partnership: Partnership in which there is at least one partner
whose liability is limited to the amount invested (limited partner) and at least   Preferred Stock: Equity ownership that usually pays a fixed dividend prior
one partner whose liability extends beyond monetary investment (general            to distributions for common stock owners but only after payments due to
partner).                                                                          holders of debt and depositors. It typically confers no voting rights. Preferred
                                                                                   stock also has priority over common stock in the distribution of assets when a
Loan Servicer: Servicers administer the proceeds from monthly mortgage             bankrupt company is liquidated.
payments and disperse them to the bond owners until the loan is repaid. This
includes sending monthly payment statements and collecting monthly pay-            Private Label Mortgage: In the housing finance business, mortgages cre-
ments, maintaining records of payments and balances, collecting and paying         ated and sold by a company other than a Government-sponsored enterprise.
taxes and insurance (and managing escrow and impound funds), remitting             Private institutions, such as brokerage firms, banks, and home builders, also
funds to mortgage investors, and following up on delinquencies.                    scrutinize mortgages, known as “private-label” mortgage securities.

Loan-to-Value Ratio (“LTV”): Lending risk assessment ratio that financial          Pro Rata: Refers to dividing something among a group according to the
institutions and other lenders examine before approving a mortgage, which is       proportionate share that each participant holds as a part of the whole.
calculated by dividing the outstanding amount of the loan by the value of the
collateral backing the loan. Typically, assessments with high LTV ratios are       Public Interest Standard: Regulatory standard that the Special Master is
generally seen as higher risk.                                                     required to apply in making determinations. It refers to the determination
                                                                                   of whether TARP-recipient compensation plans are aligned with the best
Mandatorily Convertible Preferred Stock (“MCP”): Preferred share that              interests of the U.S. taxpayer, based on a balancing of specific principles set
can be converted to common stock at the issuer’s discretion if specific criteria   forth in the Rule.
are met by a certain date.
                                                                                   Qualifying Financial Institutions (“QFIs”): Private and public U.S.-
Nationally Recognized Statistical Rating Organizations (“NRSROs”):                 controlled banks, savings associations, bank holding companies, certain
Credit rating agency registered with the SEC. Credit rating agencies provide       savings and loan holding companies, and mutual organizations.
their opinion on the creditworthiness of companies and the financial obliga-
tions issued by companies. The ratings distinguish between investment grade        Real Estate Owned (“REO”): Homes that have been foreclosed on by mort-
and non-investment grade equity and debt obligations.                              gage lenders and are then owned by the holder of the mortgage.

Net Present Value (“NPV”) Test: NPV tests compare the money generated              Residential Mortgage-Backed Securities (“RMBS”): Bonds backed by
by a foreclosure alternative, such as a loan modification, to the amount an        a pool of mortgages for residential real estate (e.g., home mortgages for
investor can reasonably expect to recover in a foreclosure sale.                   residences occupied by up to four families) rather than by commercial real
                                                                                   estate loans.
New Series G Preferred Stock: After the purchase and transfer to Treasury
of the SPV preferred interests, AIG’s right to draw on the Series F equity         Revolving Credit Facility: Line of credit for which borrowers pay a commit-
capital facility will terminate. All remaining Series F preferred stock (up to     ment fee, allowing them to draw down a guaranteed maximum amount.
$2 billion in liquidation preference) will be exchanged for newly established
Series G preferred stock. Until March 31, 2012, AIG may draw down funds            Risk Weighted Assets: Total assets, after adjusting for each asset’s risk fac-
                                                                                   tor, held by a financial institution.
228              Appendix a I glossary I october 26, 2010




      SBA Pool Certificate: Ownership interest in a bond backed by SBA-                  Trust Preferred Securities (“TRUPS”): Securities that have both equity and
      guaranteed loans.                                                                  debt characteristics, created by establishing a trust and issuing debt to it.

      S-Corporation: S-Corporations elect to pass corporate income, losses,              Trustee: Individual or corporate entity that holds or manages assets for the
      deductions, and credit through to their shareholders for Federal tax purposes.     benefit of another.
      Shareholders of S-Corporations report the flow-through of income and losses
      on their personal tax returns and are taxed at their individual income tax         Undercapitalized: Condition in which a financial institution does not meet
      rates.                                                                             its regulator’s requirements for sufficient capital to operate under a defined
                                                                                         level of adverse conditions.
      Securitization: Process by which lenders bundle pools of mortgages and sell
      them as securities. These pools are a major part of servicing portfolios.          Underwater Mortgage: Mortgage loan on which a homeowner owes more
                                                                                         than the home is worth, typically after a decline in the home’s value.
      Senior Executive Officer (“SEO”): “Named executive officer” of a TARP
      recipient as defined under Federal securities law, which generally includes        Unpaid Principal Balance: Amount owed on a loan at any given time.
      the principal executive officer, principal financial officer, and the next three
      most highly compensated officers.                                                  VEBA: A tax-free post-retirement medical expense account used by retirees
                                                                                         and their eligible dependents to pay for any eligible medical expenses.
      Senior Preferred Stock: Shares that give the stockholder priority dividend
      and liquidation claims over junior preferred and common stockholders.              Warrant: Right, but not an obligation, to purchase a certain number of
                                                                                         shares of common stock at a predetermined price. Because warrants rise in
      Senior Subordinated Debenture: Debt instrument ranking below senior                value as a company’s share price rises, as a warrant holder Treasury (and the
      debt but above equity with regard to investors’ claims on company assets           taxpayer) can benefit from a firm’s potential recovery.
      or earnings. Senior debt holders are paid in full before subordinated debt
      holders are paid. There may be additional distinctions of priority among
      subordinated debt holders.
                                                                                         Sources:
                                                                                         Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
      Servicer Participation Agreement: Documents governing servicer participa-          10/20/2010.
      tion in MHA for all non-GSE mortgages.                                             Federal Reserve Board, Federal Reserve Banks Operating Circular No. 8: Collateral, www.frbservices.
                                                                                         org, accessed 1/28/2009.
                                                                                         Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
      Short Sale: Sale of a home for less than mortgage value. A borrower sells the      10/20/2009.
      home and the lender collects the sales proceeds as full or partial satisfaction    US Dept. of Housing and Urban Development, “Glossary,” no date, www.hud.gov/offices/hsg/sfh/
      of the unpaid mortgage balance, thus avoiding foreclosure.                         buying/glossary.cfm, accessed 4/8/2009.
                                                                                         Treasury, “Community Development Financial Institutions Fund,” no date, www.cdfifund.gov/who_we_
                                                                                         are/about_us.asp, accessed 9/24/2010.
      Skin in the Game: Equity stake in an investment; down payment; the                 Treasury, “Community Development Financial Institutions Fund,” no date, www.cdfifund.gov/who_we_
      amount an investor can lose.                                                       are/about_us.asp, accessed 9/24/2010
                                                                                         Internal Revenue Service, “Glossary of Offshore Terms,” no date, www.irs.gov/businesses/small/
                                                                                         article/0,,id=106572,00.html, accessed 4/8/2009.
      Special Purpose Vehicle (“SPV”): Off-balance-sheet legal entity that holds
                                                                                         Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
      transferred assets presumptively beyond the reach of the entities providing        financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 6/10/2009.
      the assets, and is legally isolated.                                               GAO, “TROUBLED ASSET RELIEF PROGRAM Treasury Needs to Strengthen Its Decision-Making Pro-
                                                                                         cess on the Term Asset-Backed Securities Loan Facility,” 2/2010, www.gao.gov/new.items/d1025.
                                                                                         pdf, accessed 10/20/2010.
      Strike Price: The predetermined price at which the owner of a warrant may          U.S. Census Bureau, “Residential Finance Survey, Glossary of RFS Terms and Definitions,” no date,
      buy the underlying share of stock. The warrant’s value depends on the likeli-      www.census.gov/hhes/www/rfs/glossary.html#l, accessed 10/20/2010.
      hood that its owner will be able to buy the share at the strike price and resell   Financial Stability.gov, “Decoder,” www.financialstability.gov/roadtostability/decoder.htm, accessed
                                                                                         10/20/2010.
      it for more in the open market. Also called “exercise price.”
                                                                                         SEC, “NRSRO,” no date, www.sec.gov/answers/nrsro.htm, accessed 10/20/2010
                                                                                         GAO, “Principles of Federal Appropriations Law, Third Edition, Volume II,” 1/2004, www.gao.gov/
      Synthetic ABS: Security deriving its value and cash flow from sources              special.pubs/d06382sp.pdf - page 7-3, accessed 10/20/2010.
      other than conventional debt, equities, or commodities – for example, credit       Treasury, “Guidelines for Small Businesses and Community Lending Initiatives,” no date,
                                                                                         www.financialstability.gov/docs/Small%20Business%20Initiative%20Program%20Guidelines%
      derivatives.                                                                       20Final.pdf, accessed 9/30/2010
                                                                                         Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
      Systemically Significant: Term referring to any financial institution whose        4/9/2009.
                                                                                         Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
      failure would impose significant losses on creditors and counterparties, call
                                                                                         10/21/2010
      into question the financial strength of similar institutions, disrupt financial    Treasury, “Special Master Feinberg Testimony before the House Committee on Oversight and
      markets, raise borrowing costs for households and businesses, and reduce           Government Reform,” 10/28/2009, www.financialstability.gov/latest/tg_10282009.html, accessed
      household wealth (also commonly used to describe institutions “too big to          12/1/2009.
                                                                                         Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm,
      fail”).                                                                            accessed 4/9/2009.
                                                                                         Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm,
      TALF Agent: Financial institution that is party to the TALF Master Loan and        accessed 4/9/2009.
                                                                                         Federal Reserve Board, Comments on SIGTARP draft report, 1/29/2009.
      Security Agreement and that occasionally acts as an agent for the borrower.
                                                                                         SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, www.sba.gov/idc/
      TALF agents include primary and nonprimary broker-dealers.                         groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 9/25/2010.
                                                                                         Internal Revenue Service, “S Corporations,” 9/30/2010, www.irs.gov/businesses/small/
      Trial Modification: Under HAMP, a trial modification is a period of at least       article/0,,id=98263,00.html, accessed 10/22/2010.
                                                                                         Treasury, “TARP Standards for Compensation and Corporate Governance,” 6/10/2009, www.
      three months in which a borrower is given a chance to establish that he or
      she can make lower monthly mortgage payments.
                                                                                                       glossary I Appendix A I october 26, 2010   229




financialstability.gov/docs/EC_IFR_FR_web60909.pdf, accessed 12/1/2009.
FDIC, “Credit Card Securitization Manual,” no date, www.fdic.gov/regulations/examinations/credit_
card_securitization/glossary.html, accessed 10/212010.
Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
4/9/2009.
FRBNY, “TALF FAQ’s,” 9/1/2009, www.newyorkfed.org/markets/talf_faq.html, accessed 9/1/2009.
SIGTARP, “Factors Affecting Implementation of the Home Affordable Modification Program,”
3/25/2010, sigtarp.gov/reports/audit/2010/Factors_Affecting_Implementation_of_the_Home_Af-
fordable_Modification_Program.pdf, accessed 3/28/2010.
Financial Stability.gov, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm,
accessed on 10/21/2010.
Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
10/21/2010.
Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
10/21/2010.
Treasury, “Decoder,” no date, www.financialstability.gov/roadtostability/decoder.htm, accessed
10/21/2010.
USDA, “Glossary,” no date, www.rurdev.usda.gov/regs/handbook/hb-1-3565/w6gloss.pdf, accessed
4/8/2009.
Treasury, “Unlocking Credit for Small Businesses Fact Sheet,” 3/16/2009, www.treas.gov, accessed
3/17/2009.
SBA, “Notice of Changes to SBA Secondary Market Program,” 9/21/2004, www.sba.gov/idc/
groups/public/documents/sba_program_office/bank_notice_of_changes.htm, accessed 9/25/2010.
230               Appendix B I Acronyms and abbreviations I october 26, 2010




      Acronyms and Abbreviations


      2MP               Second Lien Modification Program                            Fannie Mae    Federal National Mortgage Association
      ABS               asset-backed securities                                     FBI           Federal Bureau of Investigation
      AGP               Asset Guarantee Program                                     FDIC          Federal Deposit Insurance Corporation
      AHR               American Home Recovery                                                    Office of the Inspector General of the Federal Deposit
                                                                                    FDIC OIG
                                                                                                  Insurance Corporation
      AIA               American International Assurance Co., Ltd
                                                                                    Federal
      AIFP              Automotive Industry Financing Program                                     Board of Governors of the Federal Reserve System
                                                                                    Reserve
      AIG               American International Group, Inc.
                                                                                    FHA           Federal Housing Administration
      ALICO             American Life Insurance Company
                                                                                    FHA2LP        Federal Housing Administration Second Lien Program
      Ally
                        Ally Financial Inc. (formerly GMAC Inc.                     FHFA          Federal Housing Finance Agency
      Financial
                                                                                    FRBNY         Federal Reserve Bank of New York
      ARM               adjustable-rate mortgage
                                                                                    Freddie Mac   Federal Home Loan Mortgage Corporation
      ARRA              American Recovery and Reinvestment Act of 2009
                                                                                    GAO           Government Accountability Office
      ASSP              Auto Supplier Support Program
                                                                                    GM            General Motors Corporation
      AWCP              Auto Warranty Commitment Program
                                                                                    GMAC          GMAC Inc.
      Bank of
                        Bank of America Corporation
      America                                                                       GSE           Government-sponsored enterprise
      BlackRock         BlackRock Financial Management, Inc.                        HAFA          Home Affordable Foreclosure Alternatives
      CAP               Capital Assistance Program                                  HAMP          Home Affordable Modification Program
      CBO               Congressional Budget Office                                 HELP          Homeowner Emergency Loan Program
      CDCI              Community Development Capital Initiative                    HFA           Housing Finance Agency
      CDFI              Community Development Financial Institution                 HHF           Hardest-Hit Fund
      CEO               chief executive officer                                     HPDP          Home Price Decline Protection
      CGI Holding       CGI Holding LLC                                             HUD           Department of Housing and Urban Development
      Chrysler                                                                                    Office of the Inspector General of the Department of
                        Chrysler Financial Services Americas LLC                    HUD OIG
      Financial                                                                                   Housing and Urban Development
      CMBS              commercial mortgage-backed securities                       IAA           inter-agency agreement
      Colonial          Colonial Bancgroup Inc.                                     ICE           Immigration and Customs Enforcement
      COP               Congressional Oversight Panel                               ILFC          International Lease Finance Corp.
      CPP               Capital Purchase Program                                    IPO           initial public offering
      CUSIP             Committee on Uniform Securities Identification Procedures   IRS           Internal Revenue Service
      DIL               deed-in-lieu of foreclosure                                 IRS CI        Internal Revenue Service-Criminal Investigation
      DIP               debtor-in-possession                                        LIBOR         London Interbank Offered Rate
      Dodd-Frank        Dodd-Frank Wall Street Reform and Consumer Protection       LLC           limited liability company
      Act               Act
                                                                                    LTV           loan-to-value ratio
      DOJ               Department of Justice
                                                                                    MAP           Mortgage Assistance Program
      DTI               debt-to-income ratio
                                                                                    MBS           mortgage-backed securities
      Edison            AIG Edison Life Insurance Company
                                                                                    MCP           mandatorily convertible preferred shares
      EESA              Emergency Economic Stabilization Act of 2008
                                                                                    MHA           Making Home Affordable
                                                                                Acronyms and abbreviations I Appendix B I october 26, 2010         231




Midwest        Midwest Banc Holdings, Inc.                               SPA               Servicer Participation Agreement
MPA            mortgage payment assistance                               SPV               special purpose vehicle
MPP-1          Mortgage Payment Program                                  SS/DIL            short sale/deed-in-lieu of foreclosure
MPP-2          Mortgage Payment Program                                  SSFI              Systemically Significant Failing Institutions
MVMC           Mount Vernon Money Center                                 Star              AIG Star Life Insurance Co., Ltd.
N/A            not applicable                                            Sterling          Sterling Financial Corporation
Nan Shan       Nan Shan Life Insurance Company, Ltd.                     TALF              Term Asset-Backed Securities Loan Facility
New Chrysler Chrysler Group LLC                                          TARP              Troubled Asset Relief Program
Non-Agency                                                               TBA               to be announced
               non-agency residential mortgage-backed securities
RMBS
                                                                         TCW               The TCW Group, Inc.
NPV Test       net present value test
                                                                                           Interim Final Rule on TARP Standards for Compensation
                                                                         the Rule
NRSRO          nationally recognized statistical rating organization                       and Corporate Governance
OFS            Office of Financial Stability                             TIP               Targeted Investment Program
OLC            Office of Legal Counsel                                   TPP               trial period plan
Old Chrysler   Chrysler LLC                                              Treasury          Department of the Treasury
OMB            Office of Management and Budget                           Treasury
                                                                                           Secretary of the Treasury
                                                                         Secretary
Omni           Omni National Bank
                                                                         TRUPS             trust preferred securities
Pacific        Pacific Capital Bancorp
                                                                         UAW               United Auto Workers
PLMP           Permanent Loan Modification Program
                                                                         UBP               Unemployment Bridge Program
PPIF           Public-Private Investment Fund
                                                                         UCSB              Unlocking Credit for Small Businesses
PPIP           Public-Private Investment Program
                                                                         UP                Home Affordable Unemployment Program
PRA            Principal Reduction Alternative
                                                                         UPB               unpaid principal balance
Prudential     Prudential PLC, Inc.
                                                                         USDA              U.S. Department of Agriculture
QFI            qualifying financial institution
                                                                         USPIS             U.S. Postal Inspection Service
REO            real estate owned
                                                                         VA                Department of Veterans Affairs
RHS            Rural Housing Service
                                                                         VEBA              United Auto Workers’ Retiree Medical Benefits Trust
RMA            request for modification and affidavit
RMBS           residential mortgage-backed securities
S&P            Standard & Poor’s
SBA            Small Business Administration
SBLF           Small Business Lending Fund
SEC            Securities and Exchange Commission
SEO            senior executive officer
               Special Inspector General for the Troubled Asset Relief
SIGTARP
               Program
SMRP           Second Mortgage Reduction Program
Special
               Special Master for the Troubled Asset Relief Program
Master
232            Appendix C I Reporting Requirements I OCTOBER 26, 2010




      Reporting Requirements
      This appendix provides Treasury’s responses to data call questions regarding the reporting requirements of the Special
      Inspector General for the Troubled Asset Relief Program outlined in EESA Section 121, as well as a cross-reference to related
      data presented in this report and prior reports. Italics style indicates narrative taken verbatim from source documents.

           EESA        EESA Reporting                                                                                                            SIGTARP
       #   Section     Requirement          Treasury Response to SIGTARP Data Call                                                               Report Section
       1   Section     A description of     Treasury posts several documents on its public website that are responsive to this question,         Section 2:
           121(c)(A)   the categories of    available at www.financialstability.gov/latest/reportsanddocs.html. Specifically, tranche            “TARP Overview”
                       troubled assets      reports and reports required under section 105(a) of the Emergency Economic Stabiliza-
                       purchased or         tion Act of 2008 (EESA) describe, at a high level, Treasury’s programs and troubled asset            Appendix D:
                       otherwise procured   purchases. The transaction reports describe these purchases in detail, including the type of         “Transaction
                       by the Treasury      asset purchased, the identity of the institution selling the asset, and the price Treasury paid      Detail”
                       Secretary.           for the asset.
                                            We describe assets purchased under TARP during the period from July 1, 2010 through
                                            September 30, 2010 in the Monthly 105(a) reports for July 2010, August 2010 and
                                            September 2010 and in separate transaction reports posted on www.financialstability.gov/
                                            latest/reportsanddocs.html. The most recent Monthly 105(a) report for June 2010 will be
                                            posted on October 12.
                                            Below are program descriptions from Treasury’s FinancialStability.gov website, as of
                                            9/30/2010:
                                            CPP: Treasury created the Capital Purchase Program (CPP) in October 2008 to stabilize the
                                            financial system by providing capital to viable financial institutions of all sizes throughout the
                                            nation. With a strengthened capital base, financial institutions have an increased capacity to
                                            lend to U.S. businesses and consumers and to support the U.S. economy.
                                            SSFI: Systemically Significant Failing Institution Program (SSFI) was established to provide
                                            stability and prevent disruptions to financial markets from the failure of institutions that are
                                            critical to the functioning of the nation’s financial system.
                                            AGP: The Asset Guarantee Program (AGP) provides government assurances for assets held
                                            by financial institutions that are critical to the functioning of the nation’s financial system,
                                            which face a risk of losing the critical confidence that is needed for them to continue to lend
                                            to other banks.
                                            TIP: Treasury created the Targeted Investment Program (TIP) to stabilize the financial sys-
                                            tem by making investments in institutions that are critical to the functioning of the financial
                                            system. This program focuses on the complex relationships and reliance of institutions
                                            within the financial system. Investments made through the TIP seek to avoid significant mar-
                                            ket disruptions resulting from the deterioration of one financial institution that can threaten
                                            other financial institutions and impair broader financial markets and pose a threat to the
                                            overall economy.
                                            TALF: The TALF is designed to increase credit availability and support economic activity by
                                            facilitating renewed issuance of consumer and small business ABS at more normal interest
                                            rate spreads… Under the TALF, the Federal Reserve Bank of New York (FRBNY) will provide
                                            non-recourse funding to any eligible borrower owning eligible collateral... The U.S. Trea-
                                            sury’s Troubled Assets Relief Program (TARP) will purchase $20 billion of subordinated debt
                                            in an SPV created by the FRBNY. The SPV will purchase and manage any assets received by
                                            the FRBNY in connection with any TALF loans. Residual returns from the SPV will be shared
                                            between the FRBNY and the U.S. Treasury.
                                                                                        Reporting Requirements I Appendix C I OCTOBER 26, 2010             233



    EESA        EESA Reporting                                                                                                         SIGTARP
#   Section     Requirement             Treasury Response to SIGTARP Data Call                                                         Report Section
                                        PPIP: The Legacy Securities Public-Private Investment Program (“S-PPIP”) is designed to
                                        purchase troubled legacy securities that are central to the problems currently impacting the
                                        U.S. financial system. Under this program, Treasury will invest equity and debt in multiple
                                        Public-Private Investment Funds (“PPIFs”) established with private sector fund managers and
                                        private sector investors for the purpose of purchasing eligible assets. PPIF managers will
                                        invest in securities backed directly by mortgages that span the residential credit spectrum
                                        (e.g., prime, Alt-A, subprime mortgages) as well as the commercial mortgage market.
                                        CDCI: In February 2010, Treasury announced the Community Development Capital Initiative
                                        (CDCI) to improve access to credit for small businesses. Through this TARP program, Trea-
                                        sury will invest lower-cost capital in Community Development Financial Institutions (CDFIs)
                                        that lend to small businesses in the country’s hardest-hit communities.
                                        UCSB: The Treasury Department will begin making direct purchases of securities backed by
                                        SBA loans to get the credit market moving again, and it will stand ready to purchase new
                                        securities to ensure that community banks and credit unions feel confident in extending new
                                        loans to local businesses.
                                        AIFP: The objective of [AIFP] is to prevent a significant disruption of the American auto-
                                        motive industry, which would pose a systemic risk to financial market stability and have
                                        a negative effect on the economy of the United States... [Through AIFP, Treasury has
                                        provided] loans or equity investments to General Motors, GMAC, Chrysler, and Chrysler
                                        Financial in order to avoid a disorderly bankruptcy of one or more auto companies; such an
                                        event would pose a systemic risk to the country’s financial system. Treasury’s loans to the
                                        automobile industry forged a path for these companies to go through orderly restructurings
                                        and achieve viability.
                                        ASSP: [ASSP was created to] provide up to $5 billion in financing, giving suppliers the
                                        confidence they need to continue shipping parts, pay their employees and continue their
                                        operations.
                                        AWCP: The Treasury Department announced an innovative new program to give consumers
                                        who are considering new car purchases the confidence that even while Chrysler and GM
                                        were restructuring in bankruptcy, their warrantees will be honored. This program is part
                                        of the Administration’s broader program to stabilize the auto industry and stand behind a
                                        restructuring effort that will result in stronger, more competitive and viable American car
                                        companies.
                                        HAMP (a program under MHA): The Home Affordable Modification Program has a simple
                                        goal: reduce the amount homeowners owe per month to sustainable levels to stabilize
                                        communities. This program will bring together lenders, investors, servicers, borrowers,
                                        and the government, so that all stakeholders share in the cost of ensuring that responsible
                                        homeowners can afford their monthly mortgage payments – helping to reach up to 3 to 4
                                        million at-risk borrowers in all segments of the mortgage market, reducing foreclosures,
                                        and helping to avoid further downward pressures on overall home prices.
2   Section     A listing of the        Information on all transactions as well as additional information about these programs and     Appendix D:
    121(c)(B)   troubled assets         related purchases is available in the transaction reports and monthly 105(a) reports posted    “Transaction
                purchased in each       at www.financialstability.gov/latest/reportsanddocs.html.                                      Detail”
                such category
                described under
                Section 121(c)(A).
3   Section     An explanation of       Pursuant to Section 3(9)(B) of EESA, the Secretary of the Treasury periodically designates     Section 2: “TARP
    121(c)(C)   the reasons the         financial instruments as “troubled assets” and submits written determinations to appropriate   Overview”
                Treasury Secretary      committees of Congress. During the fourth quarter 2010, the Secretary of the Treasury
                deemed it neces-        signed the attached Troubled Asset Determination for the FHA Refinance Program. Treasury       Appendix C:
                sary to purchase        provided SIGTARP with FHA Refinance Program signed by the Secretary of Treasury since          “Reporting
                each such troubled      Treasury responded to SIGTARP data call on October 6, 2010. Additional information on the      Requirements”
                asset.                  TARP program associated with these “troubled assets,” including each program’s scope and       of prior SIGTARP
                                        purpose, can be found online at www.financialstability.gov/roadtostability/index.html.         Quarterly Reports
                                                                                                                                       to Congress
4   Section     A listing of each       See #2 above                                                                                   See #2
    121(c)(D)   financial institution
                from which such
                troubled assets
                were purchased.
234              Appendix C I Reporting Requirements I OCTOBER 26, 2010




           EESA            EESA Reporting                                                                                                                                 SIGTARP
      #    Section         Requirement                Treasury Response to SIGTARP Data Call                                                                              Report Section
      5    Section         A listing of and           There have been no new PPIP fund managers hired between July 1, 2010 and                                            Section 2.5:
           121(c)(E)       detailed biographi-        September 30, 2010.                                                                                                 “Public Private
                           cal information on                                                                                                                             Investment
                           each person or                                                                                                                                 Program”
                           entity hired to man-
                           age such troubled                                                                                                                              Appendix C:
                           assets.                                                                                                                                        “Reporting
                                                                                                                                                                          Requirements”
                                                                                                                                                                          of prior SIGTARP
                                                                                                                                                                          Quarterly Reports
                                                                                                                                                                          to Congress
      6    Section         A current estimate         The transactions report captures detailed information about troubled asset purchases, price                         Table C.1;
           121(c)(F)       of the total amount        paid, and the amount of troubled assets currently on Treasury’s books. The latest transac-                          Section 2: “TARP
                           of troubled assets         tions reports are available on OFS’ website at www.financialstability.gov/latest/reportsand-                        Overview”
                           purchased pursu-           docs.html
                           ant to any program                                                                                                                             Appendix D:
                           established under          Information on repayments of Treasury’s investments under the CPP and proceeds from                                 “Transaction
                           Section 101, the           the sale of warrants are available within Treasury’s press releases, transaction reports and                        Detail”
                           amount of troubled         Section 105(a) Monthly Congressional Reports at the following links:
                           assets on the
                           books of Treasury,         www.financialstability.gov/latest/pressreleases.html
                           the amount of
                           troubled assets            www.financialstability.gov/latest/reportsanddocs.html
                           sold, and the profit
                           and loss incurred
                           on each sale or
                           disposition of each
                           such troubled
                           asset.
      7    Section         A listing of the           There have been no new insurance contracts issued under TARP from July 1, 2010 to                                   Section 2:
           121(c)(G)       insurance con-             September 30, 2010.                                                                                                 “TARP Overview”
                           tracts issued under
                           Section 102.                                                                                                                                   Section 2:
                                                                                                                                                                          “Targeted Invest-
                                                                                                                                                                          ment Program and
                                                                                                                                                                          Asset Guarantee
                                                                                                                                                                          Program”
      8    Section         A detailed                 Treasury provides information about TARP purchases, obligations, expenditures and                                   Table C.1;
           121(f)          statement of               revenues on Treasury’s public website at www.financialstability.gov/latest/reportsanddocs.                          Section 2:
                           all purchases,             html. Specifically, we describe assets purchased under TARP during the period from July                             “TARP Overview”
                           obligations, expen-        1, 2010 through September 30, 2010 in the Monthly 105(a) reports for July 2010, August
                           ditures, and rev-          2010 and September 2010 and in separate transaction reports posted on www.financialsta-                             Section 4: “TARP
                           enues associated           bility.gov/latest/reportsanddocs.html.                                                                              Operations and
                           with any program                                                                                                                               Administration”
                           established by the         Information on obligations and expenditures is also available in the TARP Two Year Ret-
                                                                                                                                                                          Appendix D:
                           Secretary of the           rospective, available at www.financialstability.gov/latest/pr_10052010.html, and in the
                                                                                                                                                                          “Transaction
                           Treasury under             attached TARP budget as of October 4, 2010.
                                                                                                                                                                          Detail”
                           Sections 101 and
                           102.
      Sources: Treasury, responses to SIGTARP data call, 9/30/2010 and 10/6/2010; Program Descriptions: Treasury, “Programs” webpage, www.financialstability.gov/roadtostability/programs.htm,
      accessed 9/30/2010; ASSP: “Treasury Announces Auto Suppliers Support Program,” 3/19/2009, www.financialstability.gov/latest/auto3_18.html, accessed 9/30/2010; AWCP, “Obama Administration’s
      New Warrantee Commitment Program,” no date, www.financialstability.gov/docs/WarranteeCommitmentProgram.pdf, accessed 9/30/2010; TALF: Federal Reserve, “Term Asset-Backed Securities Loan
      Facility (TALF) Frequently Asked Questions,” no date, www.federalreserve.gov/newsevents/press/monetary/monetary20090303a2.pdf, accessed 9/30/2010; MHA: “Making Home Affordable Updated
      Detailed Description Update,” 3/26/2010, financialstability.gov/latest/pr_03262010.html, accessed 9/30/2010.		
      			
      			
                                                                                                     Reporting Requirements I Appendix C I OCTOBER 26, 2010                  235


Table C.1

 TOTAL AMOUNT OF TROUBLED ASSETS PURCHASED AND HELD ON TREASURY’S BOOKS, AS OF 9/30/2010 ($ BILLIONS)
                                                                                                                                                           On Treasury’s
                                                                                                 Obligationsa                            Expendedb               Booksc
Capital Purchase Program (“CPP”)                                                                     $204.89                                $204.89                $35.69
Systemically Significant Failing Institutions (“SSFI”)                                                  69.84                                  47.54                47.54
Home Affordable Modification Program (“HAMP”)d                                                          45.63                                   0.59                  0.59
Targeted Investment Program (“TIP”)                                                                     40.00                                  40.00                   —
Automotive Industry Financing Program (“AIFP”)                                                          81.76                                  79.69                68.49
Asset Guarantee Program (“AGP”)                                                                           5.00                                    —                    —
Consumer and Business Lending Initiative (“CBLI”)
    Term Asset-Backed Securities Loan Facility (“TALF”)                                                   4.30                                  0.10                  0.10
    Small Business Lending Program                                                                         —                                      —                    —
    Unlocking Credit for Small Businesses (“UCSB”)                                                        0.36                                  0.24                  0.24
    Community Development Capital Initiative (“CDCI”)                                                     0.57                                  0.21                  0.21
Legacy Securities Public-Private Investment Program (“PPIP”)                                            22.41                                  14.16                13.73
Total                                                                                               $474.76                                $387.42               $166.59
Notes: Numbers affected by rounding.
a
  For purposes of this table, “Obligations” refers to “Face Value Obligations” on the Treasury TARP/Financial Stability Plan Budget Table (“TARP Budget” as of 10/3/2010).
b
  “Expended” refers to “Face Value Disbursed/Outlays,” defined as “TARP cash that has left the Treasury,” according to the TARP Budget.
c
  “On Treasury’s Books” calculated as “Face Value Disbursed/Outlays” net of repayments per the Transactions Report if they do not appear to be already netted out.
d
  According to Treasury, “Planned TARP funds for housing include (i) approximately $27B in funds that may be provided to servicers under existing agreements for the
  Making Home Affordable Porgram (MHA), (ii) $7.6B for the HFA Hardest Hit Fund program and (iii) not more than $11B which will be used for the FHA Refinance Program.”

Sources: Repayments data: Treasury, Transactions Report, 10/4/2010; all other data: Treasury, response to SIGTARP data call, 10/6/2010.
table d.1

 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)                                                                                                                                                                                                    236
                                                                                              Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                           Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                     Investment                                 Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                     Description            Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             1st Constitution Bancorp,       Preferred Stock w/
12/23/2008                                                                $12,000,000                                                                                                 $7.43                  $33.67      $8.15       220,745             ($0.72)          OUT             $986,667
             Cranbury, NJg                   Warrants

                                             Preferred Stock
             1st Enterprise Bank,
2/13/2009                                    w/ Exercised                  $4,400,000
             Los Angeles, CA2
                                             Warrants
                                                                                                                                                                                                                                                                                          $564,365
             1st Enterprise Bank,
12/11/2009                                   Preferred Stock               $6,000,000
             Los Angeles, CA2, 10a

             1st FS Corporation,             Preferred Stock w/
11/14/2008                                                                $16,369,000                                                                                                 $1.20                    $6.11     $8.87       276,815             ($7.67)          OUT           $1,229,949
             Hendersonville, NC              Warrants

             1st Source Corporation,         Preferred Stock w/
1/23/2009                                                               $111,000,000                                                                                                 $17.36                 $421.45     $19.87       837,947             ($2.51)          OUT           $8,664,167
             South Bend, IN                  Warrants

                                             Preferred Stock
             1st United Bancorp, Inc.,
3/13/2009                                    w/ Exercised                 $10,000,000   11/18/2009     $10,000,000               —    11/18/2009        R           $500,000                                                                                                              $370,903
             Boca Raton, FL2, 4,7
                                             Warrants

             AB&T Financial Corporation,     Preferred Stock w/
1/23/2009                                                                  $3,500,000                                                                                                 $1.85                    $4.94     $6.55        80,153             ($4.70)          OUT             $273,194
             Gastonia, NC                    Warrants
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I OCTOBER 26, 2010




                                             Preferred Stock
1/30/2009    Adbanc, Inc, Ogallala, NE2      w/ Exercised                 $12,720,000                                                                                                                                                                                                   $1,068,745
                                             Warrants

                                             Preferred Stock
             Alarion Financial Services,
1/23/2009                                    w/ Exercised                  $6,514,000                                                                                                                                                                                                     $554,257
             Inc., Ocala, FL2
                                             Warrants

             Alaska Pacific Bancshares,      Preferred Stock w/
2/6/2009                                                                   $4,781,000                                                                                                 $5.75                    $3.76     $4.08       175,772              $1.67              IN           $304,789
             Inc., Juneau, AK                Warrants

                                             Preferred Stock
             Alliance Bancshares, Inc.,
6/26/2009                                    w/ Exercised                  $2,986,000                                                                                                                                                                                                     $184,857
             Dalton, GA2
                                             Warrants

             Alliance Financial Corporation, Preferred Stock w/
12/19/2008                                                                $26,918,000    5/13/2009     $26,918,000               —     6/17/2009        R           $900,000         $30.23                 $140.96                                                                       $538,360
             Syracuse, NY4                   Warrants

                                               Subordinated
             Alliance Financial Services Inc.,
6/26/2009                                      Debentures w/              $12,000,000                                                                                                                                                                                                     $388,742
             Saint Paul, MN8
                                               Exercised Warrants

                                             Preferred Stock
             Allied First Bancorp, Inc.,
4/24/2009                                    w/ Exercised                  $3,652,000                                                                                                                                                                                                     $260,451
             Oswego, IL2
                                             Warrants

                                             Preferred Stock
             Alpine Banks of Colorado,
3/27/2009                                    w/ Exercised                 $70,000,000                                                                                                                                                                                                   $5,277,416
             Glenwood Springs, CO2
                                             Warrants

                                             Preferred Stock
             AMB Financial Corp.,
1/30/2009                                    w/ Exercised                  $3,674,000                                                                                                                                                                                                     $308,734
             Munster, IN2
                                             Warrants

                                        Preferred Stock
             AmeriBank Holding Company,
3/6/2009                                w/ Exercised                       $2,492,000                                                                                                                                                                                                     $195,851
             Collinsville, OK2
                                        Warrants

             American Express Company, Preferred Stock w/
1/9/2009                                                               $3,388,890,000    6/17/2009   $3,388,890,000              —     7/29/2009        R       $340,000,000         $42.03              $50,571.00                                                                    $74,367,308
             New York, NY4             Warrants

                                             Preferred Stock
             American Premier Bancorp,
5/29/2009                                    w/ Exercised                  $1,800,000                                                                                                                                                                                                     $118,810
             Arcadia, CA2
                                             Warrants

                                             Preferred Stock
             American State Bancshares,
1/9/2009                                     w/ Exercised                  $6,000,000                                                                                                                                                                                                     $523,200
             Inc., Great Bend, KS2
                                             Warrants

                                                                                                                                                                                                                                                                             Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
                                                                                         Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                       Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                   Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                   Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Ameris Bancorp,               Preferred Stock w/
11/21/2008                                                            $52,000,000                                                                                                $9.35                 $220.89     $11.17       698,554             ($1.82)          OUT           $4,506,667
             Moultrie, GAg                 Warrants

             AmeriServ Financial, Inc,     Preferred Stock w/
12/19/2008                                                            $21,000,000                                                                                                $1.67                   $35.44     $2.40     1,312,500             ($0.73)          OUT           $1,738,333
             Johnstown, PA                 Warrants

                                           Subordinated
             AmFirst Financial Services,
8/21/2009                                  Debentures w/               $5,000,000                                                                                                                                                                                                    $412,510
             Inc., McCook, NE8
                                           Exercised Warrants

             Anchor BanCorp Wisconsin      Preferred Stock w/
1/30/2009                                                           $110,000,000                                                                                                 $0.66                   $14.31     $2.23     7,399,103             ($1.57)          OUT                    —
             Inc., Madison, WI             Warrants

             Annapolis Bancorp, Inc.,      Preferred Stock w/
1/30/2009                                                              $8,152,000                                                                                                $4.02                   $15.73     $4.08       299,706             ($0.06)          OUT             $628,383
             Annapolis, MD                 Warrants

             Associated Banc-Corp,         Preferred Stock w/
11/21/2008                                                          $525,000,000                                                                                                $13.19               $2,281.54     $19.77     3,983,308             ($6.58)          OUT          $45,500,000
             Green Bay, WI                 Warrants

                                           Preferred Stock
             Atlantic Bancshares, Inc.,
12/29/2009                                 w/ Exercised                $2,000,000                                                                                                                                                                                                     $68,315
             Bluffton, SC2, 10
                                           Warrants

                                           Preferred Stock
             Avenue Financial Holdings,
2/27/2009                                  w/ Exercised                $7,400,000                                                                                                                                                                                                    $591,507
             Inc., Nashville, TN2
                                           Warrants

                                           Preferred Stock
             BancIndependent, Inc.,
3/13/2009                                  w/ Exercised               $21,100,000                                                                                                                                                                                                  $1,635,485
             Sheffield, AL2
                                           Warrants

                                           Preferred Stock
             Bancorp Financial, Inc.,
7/10/2009                                  w/ Exercised               $13,669,000                                                                                                                                                                                                    $790,384
             Oak Brook, IL2, 10
                                           Warrants

             Bancorp Rhode Island, Inc.,   Preferred Stock w/
12/19/2008                                                            $30,000,000    8/5/2009     $30,000,000               —    9/30/2009         R         $1,400,000         $27.93                 $130.54                                                                       $941,667
             Providence, RI4               Warrants

             BancPlus Corporation,         Preferred Stock
2/20/2009    Ridgeland, MS2, 4, 7, 30 -    w/ Exercised               $48,000,000   9/29/2010     $48,000,000               —    9/29/2010         R         $2,400,000                                                                                                            $4,207,399
             9/29/2010, 30a
                                           Warrants

                                           Preferred Stock
4/3/2009     BancStar, Inc., Festus, MO2   w/ Exercised                $8,600,000                                                                                                                                                                                                    $640,557
                                           Warrants

             BancTrust Financial Group,    Preferred Stock w/
12/19/2008                                                            $50,000,000                                                                                                $3.05                   $53.80    $10.26       730,994             ($7.21)          OUT           $4,138,889
             Inc., Mobile, AL              Warrants

                                            Preferred Stock
             Bank Financial Services, Inc.,
8/14/2009                                   w/ Exercised               $1,004,000                                                                                                                                                                                                     $54,852
             Eden Prarie, MN2
                                            Warrants

             Bank of America Corporation, Preferred Stock w/
1/9/2009                                                          $10,000,000,000   12/9/2009 $10,000,000,000               —     3/3/2010         A       $124,228,646
             Charlotte, NC1a, 1b-4-1b     Warrants
                                                                                                                                                                                $13.10             $131,418.08                                                                $1,293,750,000
             Bank of America Corporation, Preferred Stock w/
10/28/2008                                                        $15,000,000,000   12/9/2009 $15,000,000,000               —     3/3/2010         A       $186,342,969
             Charlotte, NC1a, 1b, 4       Warrants

                                           Preferred Stock
             Bank of Commerce,
1/16/2009                                  w/ Exercised                $3,000,000                                                                                                                                                                                                    $258,421
             Charlotte, NC2
                                           Warrants

             Bank of Commerce Holdings, Preferred Stock w/
11/14/2008                                                            $17,000,000                                                                                                $3.85                   $65.42     $6.29       405,405             ($2.44)          OUT           $1,489,861
             Redding, CA                Warrants

                                           Preferred Stock
             Bank of George,
3/13/2009                                  w/ Exercised                $2,672,000                                                                                                                                                                                                    $207,161
             Las Vegas, NV2
                                           Warrants

             Bank of Marin Bancorp,        Preferred Stock w/
12/5/2008                                                             $28,000,000   3/31/2009     $28,000,000               —                                                   $32.24                 $169.52     $27.23       154,242              $5.01              IN           $451,111
             Novato, CA4                   Warrants
                                                                                                                                                                                                                                                                                                  Transaction detail I Appendix D I OCTOBER 26, 2010




             Bank of the Carolinas         Preferred Stock w/
4/17/2009                                                             $13,179,000                                                                                                $3.15                   $12.28     $4.16       475,204             ($1.01)          OUT             $874,940
             Corporation, Mocksville, NC   Warrants

                                                                                                                                                                                                                                                                        Continued on next page.
                                                                                                                                                                                                                                                                                                  237
                                                                                                                                                                                                                                                                                                   238
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                          Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                        Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Bank of the Ozarks, Inc.,      Preferred Stock w/
12/12/2008                                                             $75,000,000   11/4/2009      $75,000,000              —    11/24/2009        R         $2,650,000         $37.09                 $628.90                                                                     $3,354,167
             Little Rock, AR4               Warrants

             Bankers’ Bank of the West      Preferred Stock
1/30/2009    Bancorp, Inc.,                 w/ Exercised               $12,639,000                                                                                                                                                                                                    $717,532
             Denver, CO2                    Warrants

             BankFirst Capital              Preferred Stock
1/23/2009    Corporation,                   w/ Exercised               $15,500,000                                                                                                                                                                                                  $1,318,749
             Macon, MS2                     Warrants

                                            Preferred Stock
             BankGreenville,
2/13/2009                                   w/ Exercised                $1,000,000                                                                                                                                                                                                     $82,053
             Greenville, SC2
                                            Warrants

             Banner Corporation,            Preferred Stock w/
11/21/2008                                                           $124,000,000                                                                                                 $2.16                 $221.86     $10.89     1,707,989             ($8.73)          OUT          $10,746,667
             Walla Walla, WA                Warrants

                                            Preferred Stock
             Banner County Ban
2/6/2009                                    w/ Exercised                 $795,000                                                                                                                                                                                                      $66,109
             Corporation, Harrisburg,NE2
                                            Warrants
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I OCTOBER 26, 2010




             Bar Harbor Bankshares,         Preferred Stock w/
1/16/2009                                                              $18,751,000   2/24/2010      $18,751,000              —     7/28/2010        R           $250,000         $27.70                 $104.62                                                                     $1,036,514
             Bar Harbor, ME5                Warrants

             BB&T Corp., Winston-           Preferred Stock w/
11/14/2008                                                          $3,133,640,000   6/17/2009    $3,133,640,000             —     7/22/2009        R        $67,010,402         $24.08              $16,686.36                                                                    $92,703,517
             Salem, NC4                     Warrants

                                            Preferred Stock
             BCB Holding Company, Inc.,
4/3/2009                                    w/ Exercised                $1,706,000                                                                                                                                                                                                    $127,033
             Theodore, AL2
                                            Warrants

             BCSB Bancorp, Inc.,            Preferred Stock w/
12/23/2008                                                             $10,800,000                                                                                                $9.50                   $29.65     $8.83       183,465              $0.67              IN           $888,000
             Baltimore, MD                  Warrants

                                            Preferred Stock
             Beach Business Bank,
1/30/2009                                   w/ Exercised                $6,000,000                                                                                                                                                                                                    $504,125
             Manhattan Beach, CA2
                                            Warrants

                                            Preferred Stock
             Berkshire Bancorp, Inc.,
6/12/2009                                   w/ Exercised                $2,892,000                                                                                                                                                                                                    $145,826
             Wyomissing, PA2
                                            Warrants

             Berkshire Hills Bancorp, Inc., Preferred Stock w/
12/19/2008                                                             $40,000,000   5/27/2009      $40,000,000              —     6/24/2009        R         $1,040,000         $18.96                 $266.10                                                                       $877,778
             Pittsfield, MA4                Warrants

                                            Preferred Stock
             Bern Bancshares, Inc.,
2/13/2009                                   w/ Exercised                 $985,000                                                                                                                                                                                                      $80,924
             Bern, KS2
                                            Warrants

             Birmingham Bloomfield          Preferred Stock
4/24/2009    Bancshares, Inc,               w/ Exercised                $1,635,000
             Birmingham, MI2                Warrants
                                                                                                                                                                                                                                                                                      $174,019
             Birmingham Bloomfield
12/18/2009   Bancshares, Inc,               Preferred Stock             $1,744,000
             Birmingham, MI 2, 10a

                                            Subordinated
             Biscayne Bancshares, Inc.,
6/19/2009                                   Debentures w/               $6,400,000                                                                                                                                                                                                    $471,752
             Coconut Grove, FL8, 10
                                            Exercised Warrants

                                            Preferred Stock
             Blackhawk Bancorp, Inc.,
3/13/2009                                   w/ Exercised               $10,000,000                                                                                                                                                                                                    $775,111
             Beloit, WI2
                                            Warrants

                                            Preferred Stock
             Blackridge Financial, Inc.,
5/22/2009                                   w/ Exercised                $5,000,000                                                                                                                                                                                                    $335,326
             Fargo, ND2
                                            Warrants

                                            Preferred Stock
             Blue Ridge Bancshares, Inc.,
3/6/2009                                    w/ Exercised               $12,000,000                                                                                                                                                                                                    $779,350
             Independence, MO2
                                            Warrants

                                            Preferred Stock
             Blue River Bancshares, Inc.,
3/6/2009                                    w/ Exercised                $5,000,000                                                                                                                                                                                                    $392,855
             Shelbyville, IN2
                                            Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)
                                                                                             Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                           Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                       Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                       Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Blue Valley Ban Corp,             Preferred Stock w/
12/5/2008                                                                 $21,750,000                                                                                                $6.50                   $18.32    $29.37       111,083           ($22.87)           OUT             $211,458
             Overland Park, KS                 Warrants

                                               Preferred Stock
             BNB Financial Services
4/17/2009                                      w/ Exercised                $7,500,000                                                                                                                                                                                                    $440,542
             Corporation, New York, NY2
                                               Warrants

             BNC Bancorp,                      Preferred Stock w/
12/5/2008                                                                 $31,260,000                                                                                                $9.89                   $89.40     $8.63       543,337              $1.26              IN         $2,648,417
             Thomasville, NC                   Warrants

                                               Preferred Stock
             BNC Financial Group, Inc.,
2/27/2009                                      w/ Exercised                $4,797,000                                                                                                                                                                                                    $383,460
             New Canaan, CT2
                                               Warrants

                                               Preferred Stock
             BNCCORP, Inc.,
1/16/2009                                      w/ Exercised               $20,093,000                                                                                                                                                                                                    $909,542
             Bismarck, ND2
                                               Warrants

                                               Preferred Stock
             BOH Holdings, Inc.,
3/6/2009                                       w/ Exercised               $10,000,000                                                                                                                                                                                                    $785,708
             Houston, TX2
                                               Warrants

                                               Subordinated
             Boscobel Bancorp, Inc,
5/15/2009                                      Debentures w/               $5,586,000                                                                                                                                                                                                    $468,624
             Boscobel, WI8
                                               Exercised Warrants

             Boston Private Financial          Preferred Stock w/
11/21/2008                                                                              1/13/2010     $50,000,000 $104,000,000
             Holdings, Inc., Boston, MA4       Warrants
                                                                        $154,000,000                                                                                                 $6.54                 $497.24      $8.00     2,887,500             ($1.46)          OUT          $11,022,222
             Boston Private Financial          Preferred Stock w/
11/21/2008                                                                              6/16/2010    $104,000,000               —
             Holdings, Inc., Boston, MA4       Warrants

             Bridge Capital Holdings,          Preferred Stock w/
12/23/2008                                                                $23,864,000                                                                                                $8.75                  $95.74      $9.03       396,412             ($0.28)          OUT           $1,962,151
             San Jose, CA                      Warrants

                                               Preferred Stock
             Bridgeview Bancorp,
12/19/2008                                     w/ Exercised               $38,000,000                                                                                                                                                                                                  $2,393,156
             Inc.,Bridgeview, IL2
                                               Warrants

             Broadway Financial
11/14/2008   Corporation,Los Angeles,CA3a Preferred Stock                  $9,000,000
             - 11/24/2009

                                                                                                                                                                                     $2.41                    $4.20                                                                      $810,417
             Broadway Financial
12/4/2009    Corporation,Los Angeles,          Preferred Stock             $6,000,000
             CA3, 10a

                                               Subordinated
             Brogan Bankshares, Inc.,
5/15/2009                                      Debentures w/               $2,400,000                                                                                                                                                                                                    $251,700
             Kaukauna, WI8
                                               Exercised Warrants

                                               Preferred Stock
             Brotherhood Bancshares,
7/17/2009                                      w/ Exercised               $11,000,000                                                                                                                                                                                                    $646,128
             Inc., Kansas City, KS2
                                               Warrants

                                               Preferred Stock
             Business Bancshares, Inc.,
4/24/2009                                      w/ Exercised               $15,000,000                                                                                                                                                                                                  $1,069,563
             Clayton, MO2
                                               Warrants

                                               Preferred Stock
3/13/2009    Butler Point, Inc., Catlin, IL2   w/ Exercised                 $607,000                                                                                                                                                                                                      $47,005
                                               Warrants

             C&F Financial Corporation,        Preferred Stock w/
1/9/2009                                                                  $20,000,000                                                                                               $18.48                   $57.10    $17.91       167,504              $0.57              IN         $1,600,000
             West Point, VA                    Warrants

             Cache Valley Banking
12/18/2009                                     Preferred Stock             $4,640,000
             Company, Logan, UT2, 10a
                                                                                                                                                                                                                                                                                         $579,911
                                               Preferred Stock
             Cache Valley Banking
12/23/2008                                     w/ Exercised                $4,767,000
             Company, Logan, UT2
                                               Warrants
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I OCTOBER 26, 2010




             Cadence Financial                 Preferred Stock w/
1/9/2009                                                                  $44,000,000                                                                                                $2.01                  $23.94      $5.76     1,145,833             ($3.75)          OUT           $2,970,000
             Corporation, Starkville, MS       Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                      239
                                                                                                                                                                                                                                                                                                   240
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                          Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                        Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                          Preferred Stock
             California Bank of Commerce,
2/27/2009                                 w/ Exercised                  $4,000,000                                                                                                                                                                                                    $319,733
             Lafayette, CA2
                                          Warrants

                                            Preferred Stock
             California Oaks State Bank,
1/23/2009                                   w/ Exercised                $3,300,000                                                                                                                                                                                                    $280,766
             Thousand Oaks, CA2
                                            Warrants

                                            Preferred Stock
             Calvert Financial Corporation,
1/23/2009                                   w/ Exercised                $1,037,000                                                                                                                                                                                                     $88,250
             Ashland, MO2
                                            Warrants

                                            Preferred Stock
             CalWest Bancorp,Rancho
1/23/2009                                   w/ Exercised                $4,656,000                                                                                                                                                                                                    $396,164
             Santa Margarita, CA2
                                            Warrants

                                            Preferred Stock
             Capital Bancorp, Inc.,
12/23/2008                                  w/ Exercised                $4,700,000                                                                                                                                                                                                    $421,225
             Rockville, MD2
                                            Warrants

             Capital Bank Corporation,      Preferred Stock w/
12/12/2008                                                             $41,279,000                                                                                                $1.66                   $21.38     $8.26       749,619             ($6.60)          OUT           $3,457,117
             Raleigh, NC                    Warrants
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I OCTOBER 26, 2010




                                            Preferred Stock
             Capital Commerce Bancorp,
4/10/2009                                   w/ Exercised                $5,100,000                                                                                                                                                                                                    $304,973
             Inc., Milwaukee, WI2
                                            Warrants

             Capital One Financial          Preferred Stock w/
11/14/2008                                                          $3,555,199,000   6/17/2009    $3,555,199,000             —    12/3/2009         A       $148,731,030         $39.55              $18,065.37                                                                  $105,174,638
             Corporation, McLean, VA4       Warrants

                                            Preferred Stock
             Capital Pacific Bancorp,
12/23/2008                                  w/ Exercised                $4,000,000                                                                                                                                                                                                    $358,489
             Portland, OR2
                                            Warrants

                                            Subordinated
             Cardinal Bancorp II, Inc.,
10/23/2009                                  Debentures w/               $6,251,000                                                                                                                                                                                                    $425,447
             Washington, MO8
                                            Exercised Warrants

             Carolina Bank Holdings, Inc., Preferred Stock w/
1/9/2009                                                               $16,000,000                                                                                                $3.05                   $10.33     $6.71       357,675             ($3.66)          OUT           $1,280,000
             Greensboro, NC                Warrants

             Carolina Trust Bank,           Preferred Stock w/
2/6/2009                                                                $4,000,000                                                                                                $5.85                   $14.82     $6.90        86,957             ($1.05)          OUT             $305,000
             Lincolnton, NC                 Warrants

             Carrollton Bancorp,            Preferred Stock w/
2/13/2009                                                               $9,201,000                                                                                                $5.10                   $13.12     $6.72       205,379             ($1.62)          OUT             $692,631
             Baltimore, MD                  Warrants

             Carver Bancorp, Inc, New
1/16/2009                                   Preferred Stock            $18,980,000   8/27/2010      $18,980,000              —                                                                                                                                                      $1,531,581
             York, NY3, 4, 30 - 8/27/2010

             Cascade Financial              Preferred Stock w/
11/21/2008                                                             $38,970,000                                                                                                $0.37                    $4.54     $6.77       863,442             ($6.40)          OUT           $1,428,900
             Corporation, Everett, WA       Warrants

             Cathay General Bancorp,        Preferred Stock w/
12/5/2008                                                            $258,000,000                                                                                                $11.89                 $933.60     $20.96     1,846,374             ($9.07)          OUT          $21,858,333
             Los Angeles, CA                Warrants

                                            Preferred Stock
             Catskill Hudson Bancorp,
2/27/2009                                   w/ Exercised                $3,000,000
             Inc, Rock Hill, NY2
                                            Warrants
                                                                                                                                                                                                                                                                                      $359,646
                                            Preferred Stock
             Catskill Hudson Bancorp,
12/22/2009                                  w/ Exercised                $3,500,000
             Inc, Rock Hill, NY2, 10a
                                            Warrants

                                            Preferred Stock
5/29/2009    CB Holding Corp., Aledo, IL2   w/ Exercised                $4,114,000                                                                                                                                                                                                    $271,580
                                            Warrants

                                            Preferred Stock
             CBB Bancorp,
2/20/2009                                   w/ Exercised                $2,644,000
             Cartersville, GA2
                                            Warrants
                                                                                                                                                                                                                                                                                      $269,144
             CBB Bancorp,
12/29/2009                                  Preferred Stock             $1,753,000
             Cartersville, GA2, 10a

                                                                                                                                                                                                                                                                         Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                               (CONTINued)
                                                                                            Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                          Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                                 Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description            Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                            Preferred Stock
             CBS Banc-Corp.,
3/27/2009                                   w/ Exercised                 $24,300,000                                                                                                                                                                                                  $1,500,930
             Russellville, AL2
                                            Warrants

             Cecil Bancorp, Inc.,           Preferred Stock w/
12/23/2008                                                               $11,560,000                                                                                                $2.00                    $7.39     $6.63       261,538             ($4.63)          OUT             $516,989
             Elkton, MD                     Warrants

                                            Preferred Stock
             CedarStone Bank,
2/6/2009                                    w/ Exercised                  $3,564,000                                                                                                                                                                                                    $296,186
             Lebanon, TN2
                                            Warrants

             Center Bancorp, Inc.,          Preferred Stock w/
1/9/2009                                                                 $10,000,000                                                                                                $7.69                 $125.27      $8.65        86,705             ($0.96)          OUT             $800,000
             Union, NJ b                    Warrants

             Center Financial Corporation, Preferred Stock w/
12/12/2008                                                               $55,000,000                                                                                                $5.09                 $203.07      $9.54       432,390             ($4.45)          OUT           $4,606,250
             Los Angeles, CA b             Warrants

                                            Preferred Stock
5/1/2009     CenterBank, Milford, OH2       w/ Exercised                  $2,250,000                                                                                                                                                                                                    $158,108
                                            Warrants

             Centerstate Banks of Florida   Preferred Stock w/
11/21/2008                                                               $27,875,000   9/30/2009     $27,875,000               —    10/28/2009        R           $212,000          $8.58                 $252.07                                                                     $1,196,303
             Inc., Davenport, FL5-9         Warrants

                                            Preferred Stock
             Centra Financial Holdings,
1/16/2009                                   w/ Exercised                 $15,000,000   3/31/2009     $15,000,000               —     4/15/2009        R           $750,000                                                                                                              $172,938
             Inc., Morgantown, WV2, 4, 7
                                            Warrants

                                            Preferred Stock
             Central Bancorp, Inc.,
2/27/2009                                   w/ Exercised                 $22,500,000                                                                                                                                                                                                  $1,798,500
             Garland, TX2
                                            Warrants

             Central Bancorp, Inc.,         Preferred Stock w/
12/5/2008                                                                $10,000,000                                                                                               $12.47                   $20.78     $6.39       234,742              $6.08              IN        $847,222.22
             Somerville, MA                 Warrants

                                            Preferred Stock
             Central Bancshares, Inc.,
1/30/2009                                   w/ Exercised                  $5,800,000                                                                                                                                                                                                    $487,321
             Houston, TX2
                                            Warrants

                                            Preferred Stock
             Central Community
2/20/2009                                   w/ Exercised                 $22,000,000                                                                                                                                                                                                  $1,781,847
             Corporation, Temple, TX2
                                            Warrants

             Central Federal Corporation,   Preferred Stock w/
12/5/2008                                                                 $7,225,000                                                                                                $0.95                    $3.92     $3.22       336,568             ($2.27)          OUT             $612,118
             Fairlawn, OH                   Warrants

             Central Jersey Bancorp,        Preferred Stock w/
12/23/2008                                                               $11,300,000                                                                                                $7.43                   $69.23     $6.31       268,621              $1.12              IN           $929,111
             Oakhurst, NJ                   Warrants

             Central Pacific Financial Corp., Preferred Stock w/
1/9/2009                                                               $135,000,000                                                                                                 $1.43                   $43.43    $12.77     1,585,748           ($11.34)           OUT           $2,362,500
             Honolulu, HI                     Warrants

             Central Valley Community       Preferred Stock w/
1/30/2009                                                                 $7,000,000                                                                                                $5.86                  $54.87      $6.64        79,067             ($0.78)          OUT             $539,583
             Bancorp, Fresno, CAb           Warrants

             Central Virginia Bankshares,   Preferred Stock w/
1/30/2009                                                                $11,385,000                                                                                                $1.17                    $3.07     $6.48       263,542             ($5.31)          OUT             $450,656
             Inc., Powhatan, VA             Warrants

                                            Preferred Stock
             Centric Financial Corporation,
12/18/2009                                  w/ Exercised                  $6,056,000                                                                                                                                                                                                    $210,127
             Harrisburg, PA2, 10
                                            Warrants

                                            Preferred Stock
             Centrix Bank & Trust,
2/6/2009                                    w/ Exercised                  $7,500,000                                                                                                                                                                                                    $623,344
             Bedford, NH2
                                            Warrants

             Centrue Financial Corporation, Preferred Stock w/
1/9/2009                                                                 $32,668,000                                                                                                $1.66                   $10.04     $9.64       508,320             ($7.98)          OUT             $571,690
             St. Louis, MO                  Warrants

                                            Subordinated
             Century Financial Services
6/19/2009                                   Debentures w/                $10,000,000                                                                                                                                                                                                    $969,511
             Corporation, Santa Fe, NM8
                                            Exercised Warrants
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I OCTOBER 26, 2010




                                            Subordinated
             Chambers Bancshares, Inc.,
5/29/2009                                   Debentures w/                $19,817,000                                                                                                                                                                                                  $2,013,674
             Danville, AR8
                                            Exercised Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                     241
                                                                                                                                                                                                                                                                                                   242
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
                                                                                          Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                       Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                   Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                   Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                           Preferred Stock
             Chicago Shore Corporation,
7/31/2009                                  w/ Exercised                $7,000,000                                                                                                                                                                                                     $397,396
             Chicago, IL2
                                           Warrants

             CIT Group Inc.,               Contingent Value
12/31/2008                                                         $2,330,000,000     2/8/2010               —               —                                                   $40.82               $8,174.49                                                                    $43,687,500
             New York, NY16                Rights

             Citigroup Inc., New York,     Common Stock w/
10/28/2008                                                        $25,000,000,000                                                                                                 $3.91             $113,286.50     $17.85    210,084,034          ($13.94)           OUT        $932,291,667
             NY11, 23 - 5/26/2010          Warrants

             Citizens & Northern           Preferred Stock w/
1/16/2009                                                             $26,440,000     8/4/2010     $26,440,000               —     9/1/2010         R           $400,000         $13.00                 $157.69                                                                     $2,049,100
             Corporation, Wellsboro, PA4   Warrants

                                           Preferred Stock
             Citizens Bancorp,
12/23/2008                                 w/ Exercised               $10,400,000                                                                                                                                                                                                     $223,571
             Nevada City, CA2
                                           Warrants

                                           Preferred Stock
             Citizens Bancshares Co.,
5/29/2009                                  w/ Exercised               $24,990,000                                                                                                                                                                                                     $628,033
             Chillicothe, MO2
                                           Warrants

             Citizens Bancshares
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I OCTOBER 26, 2010




3/6/2009     Corporation, Atlanta, GA3,    Preferred Stock             $7,462,000    8/13/2010       $7,462,000              —                                                                                                                                                        $535,813
             30 - 8/13/2010-4



                                           Preferred Stock
             Citizens Bank & Trust
3/20/2009                                  w/ Exercised                $2,400,000                                                                                                                                                                                                      $19,983
             Company, Covington, LA2
                                           Warrants

             Citizens Commerce             Preferred Stock
2/6/2009     Bancshares, Inc.,             w/ Exercised                $6,300,000                                                                                                                                                                                                     $180,259
             Versailles, KY2               Warrants

                                           Preferred Stock
             Citizens Community Bank,
12/23/2008                                 w/ Exercised                $3,000,000                                                                                                                                                                                                     $268,867
             South Hill, VA2
                                           Warrants

             Citizens First Corporation,   Preferred Stock w/
12/19/2008                                                             $8,779,000                                                                                                 $6.63                   $13.05     $5.18       254,218              $1.45              IN           $726,707
             Bowling Green, KY             Warrants

             Citizens Republic Bancorp,    Preferred Stock w/
12/12/2008                                                          $300,000,000                                                                                                  $0.90                 $357.73      $2.56     17,578,125            ($1.66)          OUT          $13,875,000
             Inc., Flint, MI               Warrants

             Citizens South Banking        Preferred Stock w/
12/12/2008                                                            $20,500,000                                                                                                 $5.00                   $54.26     $7.17       428,870             ($2.17)          OUT           $1,716,875
             Corporation, Gastonia, NC     Warrants

             City National Bancshares
4/10/2009                                  Preferred Stock             $9,439,000                                                                                                                                                                                                     $281,859
             Corporation, Newark, NJ2, 3

             City National Corporation,    Preferred Stock w/
11/21/2008                                                                            3/3/2010    $200,000,000               —     4/7/2010         R        $18,500,000
             Beverly Hills, CA4            Warrants
                                                                    $400,000,000                                                                                                 $53.07               $2,765.05                                                                    $23,916,667
             City National Corporation,    Preferred Stock w/
11/21/2008                                                                          12/30/2009    $200,000,000 $200,000,000
             Beverly Hills, CA4            Warrants

                                           Preferred Stock
             Clover Community
3/27/2009                                  w/ Exercised                $3,000,000                                                                                                                                                                                                     $226,175
             Bankshares, Inc., Clover, SC2
                                           Warrants

             Coastal Banking Company,      Preferred Stock w/
12/5/2008                                                              $9,950,000                                                                                                 $2.25                    $5.83     $7.26       205,579             ($5.01)          OUT             $842,986
             Inc., Fernandina Beach, FL    Warrants

             CoastalSouth Bancshares,      Preferred Stock
8/28/2009    Inc., Hilton Head             w/ Exercised               $16,015,000                                                                                                                                                                                                     $813,474
             Island, SC2, 10               Warrants

             CoBiz Financial Inc.,         Preferred Stock w/
12/19/2008                                                            $64,450,000                                                                                                 $5.56                 $204.74     $10.79       895,968             ($5.23)          OUT           $5,335,028
             Denver, CO                    Warrants

             Codorus Valley Bancorp, Inc., Preferred Stock w/
1/9/2009                                                              $16,500,000                                                                                                 $8.34                   $34.14     $9.38       263,859             ($1.04)          OUT           $1,320,000
             York, PA                      Warrants

                                           Preferred Stock
             ColoEast Bankshares, Inc.,
2/13/2009                                  w/ Exercised               $10,000,000                                                                                                                                                                                                     $820,528
             Lamar, CO2
                                           Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)
                                                                                             Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                           Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                       Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                       Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                               Preferred Stock
             Colonial American Bank,
3/27/2009                                      w/ Exercised                 $574,000                                                                                                                                                                                                      $43,313
             West Conshohocken, PA2
                                               Warrants

             Colony Bankcorp, Inc.,            Preferred Stock w/
1/9/2009                                                                  $28,000,000                                                                                                $4.50                   $38.00     $8.40       500,000             ($3.90)          OUT           $2,240,000
             Fitzgerald, GA                    Warrants

             Columbia Banking System,          Preferred Stock w/
11/21/2008                                                                $76,898,000   8/11/2010      $76,898,000              —     9/1/2010         R         $3,301,647         $19.65                 $772.70                                                                     $6,621,772
             Inc., Tacoma, WA4, 9              Warrants

                                               Preferred Stock
             Columbine Capital Corp.,
2/27/2009                                      w/ Exercised                $2,260,000                                                                                                                                                                                                    $180,650
             Buena Vista, CO2
                                               Warrants

                                               Preferred Stock w/
11/14/2008   Comerica Inc., Dallas, TX4                                $2,250,000,000   3/17/2010    $2,250,000,000             —     5/6/2010         A       $183,673,472         $37.15               $6,550.25                                                                  $150,937,500
                                               Warrants

             Commerce National Bank,           Preferred Stock w/
1/9/2009                                                                   $5,000,000   10/7/2009       $5,000,000              —                                                    $4.78                  $12.52      $8.60        87,209             ($3.82)          OUT              $36,111
             Newport Beach, CA4                Warrants

                                               Subordinated
             Commonwealth Bancshares,
5/22/2009                                      Debentures w/              $20,400,000                                                                                                                                                                                                  $2,106,175
             Inc., Louisville, KY8
                                               Exercised Warrants

                                               Preferred Stock
             Commonwealth Business
1/23/2009                                      w/ Exercised                $7,701,000                                                                                                                                                                                                    $130,573
             Bank, Los Angeles, CA2
                                               Warrants

                                               Preferred Stock
             Community 1st Bank,
1/16/2009                                      w/ Exercised                $2,550,000                                                                                                                                                                                                    $139,020
             Roseville, CA2
                                               Warrants

                                               Preferred Stock
             Community Bancshares of
3/6/2009                                       w/ Exercised                 $500,000                                                                                                                                                                                                      $39,286
             Kansas, Inc., Goff, KS2
                                               Warrants

             Community Bancshares of           Preferred Stock
9/11/2009    Mississippi, Inc., Brandon,       w/ Exercised               $52,000,000   9/29/2010      $52,000,000              —    9/29/2010         R         $2,600,000                                                                                                            $2,975,700
             MS2, 4, 7, 30 - 9/29/2010, 30a    Warrants

                                         Preferred Stock
             Community Bancshares, Inc.,
7/24/2009                                w/ Exercised                      $3,872,000                                                                                                                                                                                                    $215,942
             Kingman, AZ2, 10
                                         Warrants

             Community Bank of the Bay,
1/16/2009                                      Preferred Stock             $1,747,000   9/29/2010       $1,747,000              —                                                                                                                                                         $76,189
             Oakland, CA3, 4, 30 - 9/29/2010

             Community Bank Shares of          Preferred Stock w/
5/29/2009                                                                 $19,468,000                                                                                                $8.84                   $29.05     $7.56       386,270              $1.28              IN         $1,178,895
             Indiana, Inc., New Albany, IN     Warrants

             Community Bankers Trust           Preferred Stock w/
12/19/2008                                                                $17,680,000                                                                                                $0.99                   $21.25     $3.40       780,000             ($2.41)          OUT           $1,242,511
             Corporation, Glen Allen, VA       Warrants

                                               Preferred Stock
             Community Business Bank,
2/27/2009                                      w/ Exercised                $3,976,000                                                                                                                                                                                                    $317,841
             West Sacramento, CA2
                                               Warrants

             Community Financial               Preferred Stock w/
12/19/2008                                                                $12,643,000                                                                                                $4.07                   $17.75     $5.40       351,194             ($1.33)          OUT           $1,046,560
             Corporation, Staunton, VA         Warrants

                                         Preferred Stock
             Community Financial Shares,
5/15/2009                                w/ Exercised                      $6,970,000                                                                                                                                                                                                    $474,888
             Inc., Glen Ellyn, IL2
                                         Warrants

                                               Preferred Stock
             Community First Bancshares
3/20/2009                                      w/ Exercised               $20,000,000                                                                                                                                                                                                  $1,529,028
             Inc., Union City, TN2
                                               Warrants

                                         Preferred Stock
             Community First Bancshares,
4/3/2009                                 w/ Exercised                     $12,725,000                                                                                                                                                                                                    $947,770
             Inc., Harrison, AR2
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I OCTOBER 26, 2010




                                         Warrants

                                               Preferred Stock
             Community First Inc.,
2/27/2009                                      w/ Exercised               $17,806,000                                                                                                                                                                                                  $1,423,253
             Columbia, TN2
                                               Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                      243
                                                                                                                                                                                                                                                                                                  244
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
                                                                                         Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                       Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                   Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                   Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Community Holding Company Preferred Stock
2/6/2009     of Florida, Inc., Miramar w/ Exercised                    $1,050,000                                                                                                                                                                                                     $86,926
             Beach, FL2                Warrants

             Community Investors           Preferred Stock
12/23/2008   Bancorp, Inc.,                w/ Exercised                $2,600,000                                                                                                                                                                                                    $233,018
             Bucyrus, OH2                  Warrants

             Community Partners Bancorp, Preferred Stock w/
1/30/2009                                                              $9,000,000                                                                                                $4.87                  $36.75      $4.54       297,116              $0.32              IN           $693,750
             Middletown, NJg             Warrants

             Community Pride Bank          Subordinated
11/13/2009   Corporation,                  Debentures w/               $4,400,000                                                                                                                                                                                                    $269,745
             Ham Lake, MN8, 10             Exercised Warrants

                                           Preferred Stock
             Community Trust Financial
1/9/2009                                   w/ Exercised               $24,000,000                                                                                                                                                                                                  $2,092,800
             Corporation, Ruston, LA2
                                           Warrants

             Community West Bancshares, Preferred Stock w/
12/19/2008                                                            $15,600,000                                                                                                $2.93                   $17.33     $4.49       521,158             ($1.56)          OUT           $1,291,333
             Goleta, CA                 Warrants
                                                                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I OCTOBER 26, 2010




                                           Preferred Stock
             Congaree Bancshares, Inc.,
1/9/2009                                   w/ Exercised                $3,285,000                                                                                                                                                                                                    $152,159
             Cayce, SC2
                                           Warrants

                                           Preferred Stock
             Corning Savings and Loan
2/13/2009                                  w/ Exercised                 $638,000                                                                                                                                                                                                      $52,363
             Association, Corning, AR2
                                           Warrants

                                           Preferred Stock
             Country Bank Shares, Inc.,
1/30/2009                                  w/ Exercised                $7,525,000                                                                                                                                                                                                    $632,223
             Milford, NE2
                                           Warrants

                                          Preferred Stock
             Covenant Financial
6/5/2009                                  w/ Exercised                 $5,000,000                                                                                                                                                                                                    $257,361
             Corporation, Clarksdale, MS2
                                          Warrants

                                        Preferred Stock
             Crazy Woman Creek Bancorp,
2/20/2009                               w/ Exercised                   $3,100,000                                                                                                                                                                                                    $251,078
             Inc., Buffalo, WY2
                                        Warrants

             Crescent Financial            Preferred Stock w/
1/9/2009                                                              $24,900,000                                                                                                $2.70                   $26.09     $4.48       833,705             ($1.78)          OUT           $1,992,000
             Corporation, Cary, NC         Warrants

                                        Preferred Stock
             Crosstown Holding Company,
1/23/2009                               w/ Exercised                  $10,650,000                                                                                                                                                                                                    $906,179
             Blaine, MN2
                                        Warrants

                                         Preferred Stock
3/27/2009    CSRA Bank Corp., Wrens, GA2 w/ Exercised                  $2,400,000                                                                                                                                                                                                    $180,940
                                         Warrants

             CVB Financial Corp,           Preferred Stock w/
12/5/2008                                                                           8/26/2009     $97,500,000 $32,500,000
             Ontario, CA4                  Warrants
                                                                    $130,000,000                                                                                                 $7.51                 $799.33                                                                     $4,739,583
             CVB Financial Corp,           Preferred Stock w/
12/5/2008                                                                            9/2/2009     $32,500,000               —    10/28/2009        R         $1,307,000
             Ontario, CA4, 9               Warrants

                                           Preferred Stock
             D.L. Evans Bancorp,
2/27/2009                                  w/ Exercised               $19,891,000                                                                                                                                                                                                  $1,590,014
             Burley, ID2
                                           Warrants

                                           Subordinated
             Deerfield Financial
5/15/2009                                  Debentures w/               $2,639,000                                                                                                                                                                                                    $276,774
             Corporation, Deerfield, WI8
                                           Exercised Warrants

                                         Preferred Stock
12/4/2009    Delmar Bancorp, Delmar, MD2 w/ Exercised                  $9,000,000                                                                                                                                                                                                    $341,988
                                         Warrants

                                           Preferred Stock
             DeSoto County Bank,
2/13/2009                                  w/ Exercised                $1,173,000
             Horn Lake, MS2
                                           Warrants
                                                                                                                                                                                                                                                                                     $143,629
             DeSoto County Bank,
12/29/2009                                 Preferred Stock             $1,508,000
             Horn Lake, MS2, 10a

                                                                                                                                                                                                                                                                        Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                           Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                        Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                            Subordinated
             Diamond Bancorp, Inc.,
5/22/2009                                   Debentures w/              $20,445,000                                                                                                                                                                                                   $2,110,778
             Washington, MO8
                                            Exercised Warrants

             Dickinson Financial            Preferred Stock
1/16/2009    Corporation II, Kansas         w/ Exercised             $146,053,000                                                                                                                                                                                                    $2,631,197
             City, MO2                      Warrants

             Discover Financial Services,   Preferred Stock w/
3/13/2009                                                           $1,224,558,000    4/21/2010   $1,224,558,000              —     7/7/2010         R       $172,000,000         $16.68               $9,083.09                                                                    $67,690,844
             Riverwoods, IL4                Warrants

             DNB Financial Corporation,     Preferred Stock w/
1/30/2009                                                              $11,750,000                                                                                                 $7.14                   $18.87     $9.46       186,311             ($2.32)          OUT             $905,729
             Downingtown, PA                Warrants

                                            Subordinated
             Duke Financial Group, Inc.,
6/19/2009                                   Debentures w/              $12,000,000                                                                                                                                                                                                     $408,316
             Minneapolis, MN8
                                            Exercised Warrants

             Eagle Bancorp, Inc.,           Preferred Stock w/
12/5/2008                                                              $38,235,000   12/23/2009     $15,000,000 $23,235,000                                                       $11.48                 $225.63      $7.44       385,434              $4.04              IN         $2,756,021
             Bethesda, MD5,b                Warrants

             East West Bancorp,             Preferred Stock w/
12/5/2008                                                            $306,546,000                                                                                                 $16.28               $2,409.07     $15.15     1,517,555              $1.13              IN        $25,971,258
             Pasadena, CAb                  Warrants

             Eastern Virginia Bankshares,   Preferred Stock w/
1/9/2009                                                               $24,000,000                                                                                                 $3.65                   $21.82     $9.63       373,832             ($5.98)          OUT           $1,920,000
             Inc., Tappahannock, VA         Warrants

             ECB Bancorp, Inc.,             Preferred Stock w/
1/16/2009                                                              $17,949,000                                                                                                $13.54                   $38.59    $18.57       144,984             ($5.03)          OUT           $1,418,470
             Engelhard, NC                  Warrants

             Emclaire Financial Corp.,      Preferred Stock w/
12/23/2008                                                              $7,500,000                                                                                                $16.50                   $24.04    $22.45        50,111             ($5.95)          OUT             $616,667
             Emlenton, PA                   Warrants

             Encore Bancshares Inc.,        Preferred Stock w/
12/5/2008                                                              $34,000,000                                                                                                 $7.19                   $81.97    $14.01       364,026             ($6.82)          OUT           $2,880,556
             Houston, TX                    Warrants

             Enterprise Financial Services Preferred Stock w/
12/19/2008                                                             $35,000,000                                                                                                 $9.30                 $138.14     $16.20       324,074             ($6.90)          OUT        $2,897,222.22
             Corp., St. Louis, MO          Warrants

                                            Preferred Stock
             Enterprise Financial Services
6/12/2009                                   w/ Exercised                $4,000,000                                                                                                                                                                                                     $256,150
             Group, Inc., Allison Park, PA2
                                            Warrants

                                            Preferred Stock
             Equity Bancshares, Inc.,
1/30/2009                                   w/ Exercised                $8,750,000                                                                                                                                                                                                     $735,252
             Wichita, KS2
                                            Warrants

                                            Preferred Stock
             Exchange Bank,
12/19/2008                                  w/ Exercised               $43,000,000                                                                                                                                                                                                   $3,293,919
             Santa Rosa, CA2
                                            Warrants

                                            Subordinated
             F & C Bancorp, Inc.,
5/22/2009                                   Debentures w/               $2,993,000                                                                                                                                                                                                     $309,068
             Holden, MO8
                                            Exercised Warrants

                                            Preferred Stock
             F & M Bancshares, Inc.,
1/30/2009                                   w/ Exercised                $4,609,000
             Trezevant, TN2
                                            Warrants
                                                                                                                                                                                                                                                                                       $524,171
             F & M Bancshares, Inc.,
11/6/2009                                   Preferred Stock             $3,535,000
             Trezevant, TN2, 10a

                                            Preferred Stock
             F & M Financial Corporation,
2/6/2009                                    w/ Exercised               $17,000,000                                                                                                                                                                                                   $1,412,913
             Salisbury, NC2
                                            Warrants

                                            Preferred Stock
             F&M Financial Corporation,
2/13/2009                                   w/ Exercised               $17,243,000                                                                                                                                                                                                   $1,414,816
             Clarksville, TN2
                                            Warrants

             F.N.B. Corporation,            Preferred Stock w/
1/9/2009                                                             $100,000,000      9/9/2009    $100,000,000               —                                                    $8.56                 $980.40     $11.52       651,042             ($2.96)          OUT           $3,333,333
             Hermitage, PA4,b               Warrants
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I OCTOBER 26, 2010




             Farmers & Merchants            Preferred Stock
3/6/2009     Bancshares, Inc.,              w/ Exercised               $11,000,000                                                                                                                                                                                                     $864,280
             Houston, TX2                   Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                                    245
                                                                                                                                                                                                                                                                                                    246
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
                                                                                           Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                         Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                     Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                     Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Farmers & Merchants             Preferred Stock
3/20/2009    Financial Corporation,          w/ Exercised                 $442,000                                                                                                                                                                                                      $33,779
             Argonia, KS2                    Warrants

                                             Preferred Stock
1/23/2009    Farmers Bank, Windsor, VA2      w/ Exercised                $8,752,000                                                                                                                                                                                                    $744,681
                                             Warrants

             Farmers Capital Bank            Preferred Stock w/
1/9/2009                                                                $30,000,000                                                                                                $4.95                   $36.60    $20.09       223,992           ($15.14)           OUT           $2,400,000
             Corporation, Frankfort, KY      Warrants

                                             Subordinated
             Farmers Enterprises, Inc.,
6/19/2009                                    Debentures w/              $12,000,000                                                                                                                                                                                                  $1,163,416
             Great Bend, KS8
                                             Exercised Warrants

                                             Preferred Stock
             Farmers State Bankshares,
3/20/2009                                    w/ Exercised                 $700,000                                                                                                                                                                                                      $54,147
             Inc., Holton, KS2
                                             Warrants

                                             Subordinated
             FBHC Holding Company,
12/29/2009                                   Debentures w/               $3,035,000                                                                                                                                                                                                    $154,592
             Boulder, CO8, 10
                                             Exercised Warrants
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I OCTOBER 26, 2010




                                             Preferred Stock
             FC Holdings, Inc.,
6/26/2009                                    w/ Exercised               $21,042,000                                                                                                                                                                                                    $156,090
             Houston, TX2
                                             Warrants

                                             Preferred Stock
             FCB Bancorp, Inc.,
12/19/2008                                   w/ Exercised                $9,294,000                                                                                                                                                                                                    $838,622
             Louisville, KY2
                                             Warrants

                                             Preferred Stock
             FFW Corporation,
12/19/2008                                   w/ Exercised                $7,289,000                                                                                                                                                                                                    $657,604
             Wabash, IN2
                                             Warrants

                                             Subordinated
             Fidelity Bancorp, Inc,
5/29/2009                                    Debentures w/               $3,942,000                                                                                                                                                                                                 $400,540.35
             Baton Rouge, LA8
                                             Exercised Warrants

             Fidelity Bancorp, Inc.,         Preferred Stock w/
12/12/2008                                                               $7,000,000                                                                                                $5.98                   $18.23     $8.65       121,387             ($2.67)          OUT             $586,250
             Pittsburgh, PA                  Warrants

                                             Preferred Stock
             Fidelity Federal Bancorp,
11/13/2009                                   w/ Exercised                $6,657,000                                                                                                                                                                                                           —
             Evansville, IN2, 10
                                             Warrants

                                             Preferred Stock
             Fidelity Financial Corporation,
12/19/2008                                   w/ Exercised               $36,282,000                                                                                                                                                                                                  $3,273,629
             Wichita, KS2
                                             Warrants

                                         Preferred Stock
             Fidelity Resources Company,
6/26/2009                                w/ Exercised                    $3,000,000                                                                                                                                                                                                    $185,754
             Plano, TX2
                                         Warrants

             Fidelity Southern Corporation, Preferred Stock w/
12/19/2008                                                              $48,200,000                                                                                                $6.40                  $67.84      $3.08     2,346,984              $3.32              IN         $3,989,889
             Atlanta, GAg                   Warrants

             Fifth Third Bancorp,            Preferred Stock w/
12/31/2008                                                           $3,408,000,000                                                                                               $12.03               $9,579.73     $11.72    43,617,747              $0.31              IN      $298,200,000
             Cincinnati, OH                  Warrants

             Financial Institutions, Inc.,   Preferred Stock w/
12/23/2008                                                              $37,515,000                                                                                               $17.66                 $193.18     $14.88       378,175              $2.78              IN         $3,084,567
             Warsaw, NY                      Warrants

                                             Preferred Stock
             Financial Security
2/13/2009                                    w/ Exercised                $5,000,000                                                                                                                                                                                                    $410,264
             Corporation, Basin, WY2
                                             Warrants

                                           Subordinated
             Financial Services of Winger,
7/31/2009                                  Debentures w/                 $3,742,000                                                                                                                                                                                                    $316,240
             Inc., Winger, MN8, 10
                                           Exercised Warrants

                                             Preferred Stock
             First Advantage Bancshares
5/22/2009                                    w/ Exercised                $1,177,000                                                                                                                                                                                                     $78,952
             Inc., Coon Rapids, MN2
                                             Warrants

                                             Preferred Stock
             First Alliance Bancshares,
6/26/2009                                    w/ Exercised                $3,422,000                                                                                                                                                                                                    $211,873
             Inc., Cordova, TN2
                                             Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                               (CONTINued)
                                                                                            Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                          Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                      Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                      Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             First American Bank              Subordinated
7/24/2009    Corporation, Elk Grove           Debentures w/              $50,000,000                                                                                                                                                                                                  $4,439,725
             Village, IL8                     Exercised Warrants

             First American International
3/13/2009    Corp., Brooklyn, NY3, 4,         Preferred Stock            $17,000,000   8/13/2010     $17,000,000               —                                                                                                                                                      $1,204,167
             30 - 8/13/2010



                                              Preferred Stock w/
1/9/2009     First Bancorp, Troy, NC                                     $65,000,000                                                                                               $13.62                 $228.56     $15.82       616,308             ($2.20)          OUT           $5,200,000
                                              Warrants

                                              Mandatorily
             First BanCorp, San Juan,         Convertible
1/16/2009                                                              $424,174,000                                                                                                 $0.28                  $25.91      $0.73     5,842,259             ($0.45)          OUT           $6,611,111
             PR28 - 7/20/2010, i              Preferred Stock w/
                                              Warrants

                                              Preferred Stock
             First BancTrust Corporation,
2/20/2009                                     w/ Exercised                $7,350,000                                                                                                                                                                                                    $595,366
             Paris, IL2
                                              Warrants

                                             Preferred Stock
             First Bank of Charleston, Inc.,
2/6/2009                                     w/ Exercised                 $3,345,000                                                                                                                                                                                                    $277,977
             Charleston, WV2
                                             Warrants

                                              Preferred Stock
             First Bankers Trustshares,
1/16/2009                                     w/ Exercised               $10,000,000                                                                                                                                                                                                    $861,403
             Inc., Quincy, IL2
                                              Warrants

                                              Preferred Stock
             First Banks, Inc.,
12/31/2008                                    w/ Exercised             $295,400,000                                                                                                                                                                                                   $6,037,238
             Clayton, MO2
                                              Warrants

             First Busey Corporation,         Preferred Stock w/
3/6/2009                                                               $100,000,000                                                                                                 $4.55                 $301.94     $13.07       573,833             ($8.52)          OUT           $7,208,333
             Urbana, ILb                      Warrants

                                              Preferred Stock
             First Business Bank, N.A.,
4/10/2009                                     w/ Exercised                $2,211,000
             San Diego, CA2
                                              Warrants
                                                                                                                                                                                                                                                                                        $231,256
             First Business Bank, N.A.,
12/11/2009                                    Preferred Stock             $2,032,000
             San Diego, CA2, 10a

             First California Financial
                                              Preferred Stock w/
12/19/2008   Group, Inc, Westlake Village,                               $25,000,000                                                                                                $2.45                  $69.03      $6.26       599,042             ($3.81)          OUT           $2,069,444
                                              Warrants
             CA

             First Capital Bancorp, Inc.,     Preferred Stock w/
4/3/2009                                                                 $10,958,000                                                                                                $2.95                    $8.76     $6.55       250,947             ($3.60)          OUT             $748,797
             Glen Ellen, VA                   Warrants

                                              Preferred Stock
             First Choice Bank, Cerritos,
2/13/2009                                     w/ Exercised                $2,200,000   9/24/2010       $2,200,000              —    9/24/2010         R           $110,000
             CA2, 4, 7, 30 - 9/24/2010, 30a
                                              Warrants
                                                                                                                                                                                                                                                                                        $300,643
             First Choice Bank, Cerritos,
12/22/2009                                    Preferred Stock             $2,836,000   9/24/2010       $2,836,000              —
             CA2, 4, 10a, 30 - 9/24/2010

             First Citizens Banc Corp,        Preferred Stock w/
1/23/2009                                                                $23,184,000                                                                                                $4.04                  $31.14      $7.41       469,312             ($3.37)          OUT           $1,809,640
             Sandusky, OH                     Warrants

                                            Preferred Stock
             First Colebrook Bancorp, Inc.,
3/20/2009                                   w/ Exercised                  $4,500,000                                                                                                                                                                                                    $344,032
             Colebrook, NH2
                                            Warrants

                                         Preferred Stock
             First Community Bancshares,
5/15/2009                                w/ Exercised                    $14,800,000                                                                                                                                                                                                    $604,950
             Inc, Overland Park, KS2, b
                                         Warrants

             First Community Bank
                                              Preferred Stock w/
12/23/2008   Corporation of America,                                     $10,685,000                                                                                                $1.70                    $9.28     $7.02       228,312             ($5.32)          OUT             $744,982
                                              Warrants
             Pinellas Park, FL

             First Community Bankshares       Preferred Stock w/
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I OCTOBER 26, 2010




11/21/2008                                                               $41,500,000    7/8/2009     $41,500,000               —                                                   $12.90                 $229.71     $35.26        88,273           ($22.36)           OUT           $1,308,403
             Inc., Bluefield, VA5             Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                     247
                                                                                                                                                                                                                                                                                                     248
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                               (CONTINued)
                                                                                            Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                          Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                      Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                      Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             First Community Corporation, Preferred Stock w/
11/21/2008                                                               $11,350,000                                                                                                $5.20                   $16.96     $8.69       195,915             ($3.49)          OUT             $983,667
             Lexington, SC                Warrants

                                              Preferred Stock
             First Community Financial
12/11/2009                                    w/ Exercised               $22,000,000                                                                                                                                                                                                    $812,656
             Partners, Inc., Joliet, IL2
                                              Warrants

             First Defiance Financial Corp., Preferred Stock w/
12/5/2008                                                                $37,000,000                                                                                               $10.06                   $81.67    $10.08       550,595             ($0.02)          OUT           $3,134,722
             Defiance, OH                    Warrants

             First Eagle Bancshares, Inc.,    Subordinated
9/11/2009    Hanover Park, IL4, 8,            Debentures w/               $7,500,000   9/17/2010       $7,500,000              —    9/17/2010         R           $375,000                                                                                                              $639,738
             30 - 9/17/2010, 30a
                                              Exercised Warrants

                                              Preferred Stock
             First Express of Nebraska,
2/6/2009                                      w/ Exercised                $5,000,000                                                                                                                                                                                                    $415,563
             Inc., Gering, NE2
                                              Warrants

             First Federal Bancshares of      Preferred Stock w/
3/6/2009                                                                 $16,500,000                                                                                                $1.85                    $8.99     $7.69       321,847             ($5.84)          OUT             $570,625
             Arkansas, Inc., Harrison, AR     Warrants

             First Financial Bancorp,         Preferred Stock w/
                                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I OCTOBER 26, 2010




12/23/2008                                                               $80,000,000   2/24/2010     $80,000,000               —     6/2/2010         A         $3,116,284         $16.68                 $968.42                                                                     $4,677,778
             Cincinnati, OH5, 9               Warrants

                                              Subordinated
             First Financial Bancshares,
6/12/2009                                     Debentures w/               $3,756,000                                                                                                                                                                                                    $358,147
             Inc., Lawrence, KS8, 10
                                              Exercised Warrants

             First Financial Holdings Inc.,   Preferred Stock w/
12/5/2008                                                                $65,000,000                                                                                               $11.14                 $184.11     $20.17       241,696             ($9.03)          OUT           $5,506,944
             Charleston, SCb                  Warrants

             First Financial Service
                                              Preferred Stock w/
1/9/2009     Corporation,                                                $20,000,000                                                                                                $4.95                   $23.39    $13.89       215,983             ($8.94)          OUT           $1,600,000
                                              Warrants
             Elizabethtown, KY

                                              Preferred Stock
             First Freedom Bancshares,
12/22/2009                                    w/ Exercised                $8,700,000                                                                                                                                                                                                    $296,745
             Inc., Lebanon, TN2, 10
                                              Warrants

                                          Preferred Stock
             First Gothenburg Bancshares,
2/27/2009                                 w/ Exercised                    $7,570,000                                                                                                                                                                                                    $605,406
             Inc., Gothenburg, NE2
                                          Warrants

                                              Preferred Stock
             First Guaranty Bancshares,
8/28/2009                                     w/ Exercised               $20,699,000                                                                                                                                                                                                  $1,086,929
             Inc., Hammond, LA2
                                              Warrants

             First Horizon National           Preferred Stock w/
11/14/2008                                                             $866,540,000                                                                                                $11.41               $2,654.24      $8.92    14,578,136              $2.49              IN        $75,942,603
             Corporation, Memphis, TNg        Warrants

             First Independence
8/28/2009                                     Preferred Stock             $3,223,000                                                                                                                                                                                                    $155,331
             Corporation, Detroit, MI2, 3

                                              Preferred Stock
             First Intercontinental Bank,
3/13/2009                                     w/ Exercised                $6,398,000                                                                                                                                                                                                    $495,929
             Doraville, GA2
                                              Warrants

             First Litchfield Financial       Preferred Stock w/
12/12/2008                                                               $10,000,000    4/7/2010     $10,000,000               —     4/7/2010         R         $1,488,046                                                                                                              $659,722
             Corporation, Litchfield, CT4     Warrants

             First M&F Corporation,           Preferred Stock w/
2/27/2009                                                                $30,000,000   9/29/2010     $30,000,000               —                                                    $3.38                  $30.72      $8.77       513,113             ($5.39)          OUT           $2,383,333
             Kosciusko, MS4, 30 - 9/29/2010   Warrants

                                            Preferred Stock
             First Manitowoc Bancorp, Inc.,
1/16/2009                                   w/ Exercised                 $12,000,000   5/27/2009     $12,000,000               —    5/27/2009         R           $600,000                                                                                                              $237,983
             Manitowoc, WI2, 4, 7
                                            Warrants

                                              Preferred Stock
             First Menasha Bancshares,
2/13/2009                                     w/ Exercised                $4,797,000                                                                                                                                                                                                    $393,628
             Inc., Neenah, WI2
                                              Warrants

             First Merchants Corporation, Preferred Stock w/
2/20/2009                                                                $69,600,000
             Muncie, IN27                 Warrants
                                                                                                                                                                                    $7.63                 $194.95     $17.55       991,453             ($9.92)          OUT           $8,619,444
                                          Trust Preferred
             First Merchants Corporation,
2/20/2009                                 Securities w/                  $46,400,000
             Muncie, IN27
                                          Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)
                                                                                             Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                           Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                       Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                       Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             First Midwest Bancorp, Inc.,      Preferred Stock w/
12/5/2008                                                               $193,000,000                                                                                                $11.53                 $853.85     $22.18     1,305,230           ($10.65)           OUT          $16,351,389
             Itasca, IL                        Warrants

                                               Preferred Stock
             First National Corporation,
3/13/2009                                      w/ Exercised               $13,900,000                                                                                                                                                                                                  $1,077,405
             Strasburg, VA2
                                               Warrants

                                               Preferred Stock
             First NBC Bank Holding
3/20/2009                                      w/ Exercised               $17,836,000                                                                                                                                                                                                  $1,363,612
             Company, New Orleans, LA2
                                               Warrants

             First Niagara Financial Group, Preferred Stock w/
11/21/2008                                                              $184,011,000    5/27/2009    $184,011,000               —    6/24/2009         R         $2,700,000         $11.65               $2,435.40                                                                     $4,753,618
             Lockport, NY5, 9               Warrants

             First Northern Community          Preferred Stock w/
3/13/2009                                                                 $17,390,000                                                                                                $4.00                   $36.26     $7.39       352,977             ($3.39)          OUT           $1,236,622
             Bancorp, Dixon, CA                Warrants

             First PacTrust Bancorp, Inc.,     Preferred Stock w/
11/21/2008                                                                $19,300,000                                                                                               $10.70                   $45.41    $10.31       280,795              $0.39              IN         $1,672,667
             Chula Vista, CA                   Warrants

             First Place Financial Corp.,      Preferred Stock w/
3/13/2009                                                                 $72,927,000                                                                                                $3.78                   $64.16     $2.98     3,670,822              $0.80              IN         $5,185,920
             Warren, OH                        Warrants

                                               Preferred Stock
             First Priority Financial Corp.,
2/20/2009                                      w/ Exercised                $4,579,000
             Malvern, PA2
                                               Warrants
                                                                                                                                                                                                                                                                                         $522,159
             First Priority Financial Corp.,
12/18/2009                                     Preferred Stock             $4,596,000
             Malvern, PA2, 10a

                                               Preferred Stock
             First Reliance Bancshares,
3/6/2009                                       w/ Exercised               $15,349,000                                                                                                                                                                                                  $1,205,926
             Inc., Florence, SC2
                                               Warrants

                                               Preferred Stock
             First Resource Bank,
1/30/2009                                      w/ Exercised                $2,600,000
             Exton, PA2
                                               Warrants
                                                                                                                                                                                                                                                                                         $300,364
             First Resource Bank,
12/11/2009                                     Preferred Stock             $2,417,000
             Exton, PA2, 10a

             First Security Group, Inc.,       Preferred Stock w/
1/9/2009                                                                  $33,000,000                                                                                                $1.12                  $18.39      $6.01       823,627             ($4.89)          OUT           $1,402,500
             Chattanooga, TN                   Warrants

                                               Preferred Stock w/
12/23/2008   First Sound Bank, Seattle, WA                                 $7,400,000                                                                                                $0.05                    $0.11     $9.73       114,080             ($9.68)          OUT             $330,944
                                               Warrants

                                               Subordinated
             First South Bancorp, Inc.,
7/17/2009                                      Debentures w/              $50,000,000                                                                                                                                                                                                  $4,521,277
             Lexington, TN8
                                               Exercised Warrants

                                           Preferred Stock
             First Southern Bancorp, Inc.,
1/30/2009                                  w/ Exercised                   $10,900,000   6/16/2010     $10,900,000               —    6/16/2010         R           $545,000                                                                                                              $818,468
             Boca Raton, FL2, 4, 7
                                           Warrants

             First Southwest                   Preferred Stock
3/6/2009     Bancorporation, Inc.,             w/ Exercised                $5,500,000                                                                                                                                                                                                    $207,327
             Alamosa, CO2                      Warrants

                                           Preferred Stock
             First State Bank of Mobeetie,
2/27/2009                                  w/ Exercised                     $731,000    4/14/2010        $731,000               —    4/14/2010         R            $37,000                                                                                                               $45,087
             Mobeetie, TX2, 4, 7
                                           Warrants

                                               Preferred Stock
             First Texas BHC, Inc.,
3/6/2009                                       w/ Exercised               $13,533,000                                                                                                                                                                                                  $1,063,344
             Fort Worth, TX2
                                               Warrants

                                               Subordinated
             First Trust Corporation,
6/5/2009                                       Debentures w/              $17,969,000                                                                                                                                                                                                  $1,046,896
             New Orleans, LA8
                                               Exercised Warrants

                                               Preferred Stock
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I OCTOBER 26, 2010




             First ULB Corp., Oakland,
1/23/2009                                      w/ Exercised                $4,900,000   4/22/2009       $4,900,000              —    4/22/2009         R           $245,000                                                                                                               $66,021
             CA2, 4, 7
                                               Warrants

             First United Corporation,         Preferred Stock w/
1/30/2009                                                                 $30,000,000                                                                                                $4.16                  $25.62     $13.79       326,323             ($9.63)          OUT           $2,312,500
             Oakland, MD                       Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                      249
                                                                                                                                                                                                                                                                                                             250
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                      (CONTINued)
                                                                                                    Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                                 Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                           Investment                                 Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                           Description            Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                                        Preferred Stock
             First Vernon Bancshares, Inc.,
6/12/2009                                               w/ Exercised             $6,000,000    9/29/2010       $6,000,000              —     9/29/2010        R           $245,000                                                                                                              $417,770
             Vernon, AL2, 4, 7, 10, 30 - 9/29/2010, 30a
                                                        Warrants

                                                   Preferred Stock
             First Western Financial, Inc.,
2/6/2009                                           w/ Exercised                  $8,559,000
             Denver, CO2
                                                   Warrants
                                                                                                                                                                                                                                                                                              $1,114,000
             First Western Financial, Inc.,
12/11/2009                                         Preferred Stock              $11,881,000
             Denver, CO2, 10a

             Firstbank Corporation,                Preferred Stock w/
1/30/2009                                                                       $33,000,000                                                                                                 $4.64                  $36.07      $8.55       578,947             ($3.91)          OUT           $2,543,750
             Alma, MI                              Warrants

             FirstMerit Corporation,               Preferred Stock w/
1/9/2009                                                                      $125,000,000     4/22/2009    $125,000,000               —     5/27/2009        R         $5,025,000         $18.32               $1,992.98                                                                     $1,788,194
             Akron, OH4                            Warrants

             Flagstar Bancorp, Inc.,               Preferred Stock w/
1/30/2009                                                                     $266,657,000                                                                                                  $1.82                 $279.12      $6.20     6,451,379             ($4.38)          OUT          $20,554,810
             Troy, MIj                             Warrants

                                                   Preferred Stock
             Florida Bank Group, Inc.,
7/24/2009                                          w/ Exercised                 $20,471,000                                                                                                                                                                                                   $1,180,793
                                                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I OCTOBER 26, 2010




             Tampa, FL2
                                                   Warrants

                                         Preferred Stock
             Florida Business BancGroup,
2/20/2009                                w/ Exercised                            $9,495,000                                                                                                                                                                                                     $769,063
             Inc., Tampa, FL2
                                         Warrants

             Flushing Financial Corporation, Preferred Stock w/
12/19/2008                                                                      $70,000,000   10/28/2009     $70,000,000               —    12/30/2009        R           $900,000         $11.56                 $361.11                                                                     $3,004,167
             Lake Success, NY5, 9            Warrants

                                                   Preferred Stock
             FNB Bancorp, South San
2/27/2009                                          w/ Exercised                 $12,000,000                                                                                                                                                                                                     $959,200
             Francisco, CA2
                                                   Warrants

             FNB United Corp.,                     Preferred Stock w/
2/13/2009                                                                       $51,500,000                                                                                                 $0.70                    $8.00     $3.50     2,207,143             ($2.80)          OUT           $2,589,305
             Asheboro, NC                          Warrants

                                                   Preferred Stock
             Foresight Financial Group,
5/15/2009                                          w/ Exercised                 $15,000,000                                                                                                                                                                                                   $1,021,875
             Inc., Rockford, IL2
                                                   Warrants

                                                   Preferred Stock
             Fort Lee Federal Savings
5/22/2009                                          w/ Exercised                  $1,300,000                                                                                                                                                                                                      $87,185
             Bank, Fort Lee, NJ2
                                                   Warrants

                                            Preferred Stock
             Fortune Financial Corporation,
4/3/2009                                    w/ Exercised                         $3,100,000                                                                                                                                                                                                     $230,899
             Arnold, MO2
                                            Warrants

             FPB Bancorp, Inc.,                    Preferred Stock w/
12/5/2008                                                                        $5,800,000                                                                                                 $0.70                    $1.44     $4.75       183,158             ($4.05)          OUT             $273,889
             Port St. Lucie, FL                    Warrants

                                                   Preferred Stock
             FPB Financial Corp.,
1/23/2009                                          w/ Exercised                                6/16/2010       $2,240,000              —     6/16/2010        R           $162,000
             Hammond, LA2, 4, 7
                                                   Warrants
                                                                                 $3,240,000                                                                                                                                                                                                     $221,722
                                                   Preferred Stock
             FPB Financial Corp.,
1/23/2009                                          w/ Exercised                               12/16/2009       $1,000,000   $2,240,000
             Hammond, LA2, 4
                                                   Warrants

                                                   Preferred Stock
             Franklin Bancorp, Inc.,
5/22/2009                                          w/ Exercised                  $5,097,000                                                                                                                                                                                                     $341,848
             Washington, MO2
                                                   Warrants

                                                   Subordinated
             Freeport Bancshares, Inc.,
5/8/2009                                           Debentures w/                 $3,000,000                                                                                                                                                                                                     $319,518
             Freeport, IL8
                                                   Exercised Warrants

                                                   Subordinated
             Fremont Bancorporation,
6/26/2009                                          Debentures w/                $35,000,000                                                                                                                                                                                                   $3,336,205
             Fremont, CA8
                                                   Exercised Warrants

                                                   Preferred Stock
             Fresno First Bank,
1/23/2009                                          w/ Exercised                  $1,968,000                                                                                                                                                                                                     $134,025
             Fresno, CA2
                                                   Warrants

                                                                                                                                                                                                                                                                                   Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
                                                                                            Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                         Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                            Interest/
Purchase                                     Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of   In or Out of     Dividends Paid
Date         Institution                     Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e     the Moneye           to Treasury

                                             Subordinated
             Frontier Bancshares, Inc.,
4/24/2009                                    Debentures w/               $3,000,000   11/24/2009       $1,600,000   $1,400,000                                                                                                                                                         $239,987
             Austin, TX4, 8
                                             Exercised Warrants

             Fulton Financial Corporation,   Preferred Stock w/
12/23/2008                                                            $376,500,000     7/14/2010    $376,500,000               —     9/8/2010         R        $10,800,000          $9.06               $1,801.06                                                                   $29,335,625
             Lancaster, PA4                  Warrants

                                             Preferred Stock
             Gateway Bancshares, Inc.,
5/8/2009                                     w/ Exercised                $6,000,000                                                                                                                                                                                                    $415,108
             Ringgold, GA2
                                             Warrants

             Georgia Commerce                Preferred Stock
2/6/2009     Bancshares, Inc.,               w/ Exercised                $8,700,000                                                                                                                                                                                                    $723,079
             Atlanta, GA2                    Warrants

                                             Preferred Stock
             Georgia Primary Bank,
5/1/2009                                     w/ Exercised                $4,500,000                                                                                                                                                                                                           —
             Atlanta, GA2
                                             Warrants

             Germantown Capital              Preferred Stock
3/6/2009     Corporation, Inc.,              w/ Exercised                $4,967,000                                                                                                                                                                                                    $390,216
             Germantown, TN2                 Warrants

                                             Preferred Stock
             Gold Canyon Bank,
6/26/2009                                    w/ Exercised                $1,607,000                                                                                                                                                                                                     $53,860
             Gold Canyon, AZ2, 10
                                             Warrants

                                             Preferred Stock
             Goldwater Bank, N.A.,
1/30/2009                                    w/ Exercised                $2,568,000                                                                                                                                                                                                    $145,750
             Scottsdale, AZ2
                                             Warrants

                                             Preferred Stock
             Grand Capital Corporation,
4/24/2009                                    w/ Exercised                $4,000,000                                                                                                                                                                                                    $285,217
             Tulsa, OK2
                                             Warrants

                                             Subordinated
             Grand Financial Corporation,
9/25/2009                                    Debentures w/               $2,443,320                                                                                                                                                                                                    $182,196
             Hattiesburg, MS8
                                             Exercised Warrants

                                        Preferred Stock
             Grand Mountain Bancshares,
5/29/2009                               w/ Exercised                     $3,076,000                                                                                                                                                                                                           —
             Inc., Granby, CO2
                                        Warrants

                                             Preferred Stock
             GrandSouth Bancorporation,
1/9/2009                                     w/ Exercised                $9,000,000
             Greenville, SC2
                                             Warrants
                                                                                                                                                                                                                                                                                       $998,944
             GrandSouth Bancorporation,
12/11/2009                                   Preferred Stock             $6,319,000
             Greenville, SC2, 10a

                                          Subordinated
             Great River Holding Company,
7/17/2009                                 Debentures w/                  $8,400,000                                                                                                                                                                                                    $759,575
             Baxter, MN8
                                          Exercised Warrants

             Great Southern Bancorp,         Preferred Stock w/
12/5/2008                                                               $58,000,000                                                                                                $21.77                 $292.46      $9.57       909,091             $12.20             IN         $4,913,889
             Springfield, MO                 Warrants

             Green Bankshares, Inc.,         Preferred Stock w/
12/23/2008                                                              $72,278,000                                                                                                 $6.79                   $89.57    $17.06       635,504           ($10.27)          OUT           $5,942,858
             Greeneville, TN                 Warrants

                                             Preferred Stock
             Green Circle Investments, Inc.,
2/27/2009                                    w/ Exercised                $2,400,000                                                                                                                                                                                                    $191,840
             Clive, IA2
                                             Warrants

                                             Preferred Stock
             Green City Bancshares, Inc.,
2/27/2009                                    w/ Exercised                 $651,000     7/14/2010        $651,000               —    7/14/2010         R            $33,000                                                                                                              $49,037
             Green City, MO2, 4, 7
                                             Warrants

                                             Preferred Stock
             Greer Bancshares
1/30/2009                                    w/ Exercised                $9,993,000                                                                                                                                                                                                    $839,669
             Incorporated, Greer, SC2
                                             Warrants
                                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I OCTOBER 26, 2010




                                             Preferred Stock
             Gregg Bancshares, Inc.,
2/13/2009                                    w/ Exercised                 $825,000                                                                                                                                                                                                      $45,190
             Ozark, MO2
                                             Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                                    251
                                                                                                                                                                                                                                                                                                   252
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                          Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                        Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                            Preferred Stock
             Guaranty Bancorp, Inc.,
2/20/2009                                   w/ Exercised                $6,920,000                                                                                                                                                                                                    $560,472
             Woodsville, NH2
                                            Warrants

             Guaranty Capital Corporation, Subordinated
9/25/2009                                                              $14,000,000   7/30/2010      $14,000,000              —                                                                                                                                                        $913,299
             Belzoni, MS3, 4, 8, 30 - 7/30/2010 Debentures

             Guaranty Federal Bancshares, Preferred Stock w/
1/30/2009                                                              $17,000,000                                                                                                $5.21                   $13.79     $5.55       459,459             ($0.34)          OUT           $1,310,417
             Inc., Springfield, MO        Warrants

                                            Preferred Stock
             GulfSouth Private Bank,
9/25/2009                                   w/ Exercised                $7,500,000                                                                                                                                                                                                    $757,380
             Destin, FL10, 21
                                            Warrants

                                          Preferred Stock
             Gulfstream Bancshares, Inc.,
6/26/2009                                 w/ Exercised                  $7,500,000                                                                                                                                                                                                    $464,385
             Stuart, FL2
                                          Warrants

                                            Preferred Stock
             Hamilton State Bancshares,
2/20/2009                                   w/ Exercised                $7,000,000                                                                                                                                                                                                    $566,952
             Hoschton, GA2
                                            Warrants
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I OCTOBER 26, 2010




             Hampton Roads Bankshares, Common Stock w/
12/31/2008                                                             $80,347,000                                                                                                $0.91                  $20.16      $0.40     1,325,858              $0.51              IN         $2,510,844
             Inc., Norfolk, VA31 - 9/30/2010, i Warrants

             Harbor Bankshares
7/17/2009                                   Preferred Stock             $6,800,000                                                                                                                                                                                                    $282,744
             Corporation, Baltimore, MD2, 3

             Hartford Financial Services    Preferred Stock w/
6/26/2009                                                           $3,400,000,000   3/31/2010    $3,400,000,000             —    9/21/2010         A       $713,687,430         $22.95              $10,198.25                                                                  $129,861,111
             Group, Inc., Hartford, CT4     Warrants

                                            Preferred Stock
             Haviland Bancshares, Inc.,
3/13/2009                                   w/ Exercised                 $425,000                                                                                                                                                                                                      $32,911
             Haviland, KS2
                                            Warrants

             Hawthorn Bancshares, Inc.,     Preferred Stock w/
12/19/2008                                                             $30,255,000                                                                                               $10.08                  $45.08     $17.10       265,471             ($7.02)          OUT           $2,504,442
             Lee’s Summit, MOg              Warrants

             HCSB Financial Corporation,    Preferred Stock w/
3/6/2009                                                               $12,895,000                                                                                                $4.00                   $15.15    $21.09        91,714           ($17.09)           OUT             $929,515
             Loris, SC                      Warrants

                                            Preferred Stock
             Heartland Bancshares, Inc.,
9/11/2009                                   w/ Exercised                $7,000,000                                                                                                                                                                                                     $66,190
             Franklin, IN2, 10
                                            Warrants

             Heartland Financial USA, Inc., Preferred Stock w/
12/19/2008                                                             $81,698,000                                                                                               $15.39                 $252.01     $20.10       609,687             ($4.71)          OUT           $6,762,779
             Dubuque, IA                    Warrants

                                            Preferred Stock
             Heritage Bankshares, Inc.,
9/25/2009                                   w/ Exercised               $10,103,000                                                                                                                                                                                                    $473,262
             Norfolk, VA2, 10
                                            Warrants

             Heritage Commerce Corp.,       Preferred Stock w/
11/21/2008                                                             $40,000,000                                                                                                $3.50                   $41.37    $12.96       462,963             ($9.46)          OUT           $1,466,667
             San Jose, CA                   Warrants

             Heritage Financial Corporation,Preferred Stock w/
11/21/2008                                                             $24,000,000                                                                                               $14.00                 $155.68     $13.04       138,037              $0.96              IN         $2,080,000
             Olympia, WAb                   Warrants

             Heritage Oaks Bancorp,         Preferred Stock w/
3/20/2009                                                              $21,000,000                                                                                                $3.30                   $82.71     $5.15       611,650             ($1.85)          OUT             $947,916
             Paso Robles, CA                Warrants

             HF Financial Corp.,            Preferred Stock w/
11/21/2008                                                             $25,000,000    6/3/2009      $25,000,000              —    6/30/2009         R           $650,000         $10.48                  $72.79                                                                       $666,667
             Sioux Falls, SD4               Warrants

             Highlands Bancorp, Inc.        Preferred Stock
5/8/2009     (Highlands State Bank),        w/ Exercised                $3,091,000
             Vernon, NJ2, 13 - 8/31/2010    Warrants
                                                                                                                                                                                                                                                                                      $302,972
             Highlands Bancorp, Inc.
12/22/2009   (Highlands State Bank),        Preferred Stock             $2,359,000
             Vernon, NJ2, 13 - 8/31/2010

             Highlands Independent          Preferred Stock
3/6/2009     Bancshares, Inc.,              w/ Exercised                $6,700,000                                                                                                                                                                                                    $526,425
             Sebring, FL2                   Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                   (CONTINued)
                                                                                                Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                              Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                          Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                          Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                                  Preferred Stock
             Hilltop Community Bancorp,
1/30/2009                                         w/ Exercised                $4,000,000   4/21/2010       $4,000,000              —    4/21/2010         R           $200,000                                                                                                              $267,050
             Inc., Summit, NJ2, 4, 7
                                                  Warrants

             HMN Financial, Inc.,                 Preferred Stock w/
12/23/2008                                                                   $26,000,000                                                                                                $3.16                  $13.62      $4.68       833,333             ($1.52)          OUT           $2,137,778
             Rochester, MN                        Warrants

             Home Bancshares, Inc.,               Preferred Stock w/
1/16/2009                                                                    $50,000,000                                                                                               $20.32                 $577.68     $23.66       158,472             ($3.34)          OUT           $3,951,389
             Conway, ARf                          Warrants

                                                  Preferred Stock
             Hometown Bancorp of
2/20/2009                                         w/ Exercised                $3,250,000                                                                                                                                                                                                    $263,295
             Alabama, Inc., Oneonta, AL2
                                                  Warrants

                                        Preferred Stock
             Hometown Bancshares, Inc.,
2/13/2009                               w/ Exercised                          $1,900,000                                                                                                                                                                                                    $155,900
             Corbin, KY2
                                        Warrants

                                           Preferred Stock
             HomeTown Bankshares
9/18/2009                                  w/ Exercised                      $10,000,000                                                                                                                                                                                                    $351,326
             Corporation, Roanoke, VA2, 10
                                           Warrants

             HopFed Bancorp,                      Preferred Stock w/
12/12/2008                                                                   $18,400,000                                                                                                $9.09                   $66.68    $11.32       243,816             ($2.23)          OUT           $1,541,000
             Hopkinsville, KY                     Warrants

             Horizon Bancorp,                     Preferred Stock w/
12/19/2008                                                                   $25,000,000                                                                                               $22.25                   $73.43    $17.68       212,104              $4.57              IN         $2,069,444
             Michigan City, IN                    Warrants

                                                  Preferred Stock
             Howard Bancorp, Inc.,
2/27/2009                                         w/ Exercised                $5,983,000                                                                                                                                                                                                    $478,221
             Ellicott City, MD2
                                                  Warrants

                                                  Preferred Stock
             HPK Financial Corporation,
5/1/2009                                          w/ Exercised                $4,000,000
             Chicago, IL2
                                                  Warrants
                                                                                                                                                                                                                                                                                            $479,659
                                                  Preferred Stock
             HPK Financial Corporation,
11/13/2009                                        w/ Exercised                $5,000,000
             Chicago, IL2, 10a
                                                  Warrants

             Huntington Bancshares,               Preferred Stock w/
11/14/2008                                                                $1,398,071,000                                                                                                $5.69               $4,078.94      $8.90    23,562,994             ($3.21)          OUT        $122,525,390
             Columbus, OH                         Warrants

                                                  Preferred Stock
             Hyperion Bank,
2/6/2009                                          w/ Exercised                $1,552,000                                                                                                                                                                                                    $129,046
             Philadelphia, PA2
                                                  Warrants

                                               Preferred Stock
9/18/2009    IA Bancorp, Inc., Iselin, NJ2, 10 w/ Exercised                   $5,976,000                                                                                                                                                                                                    $286,043
                                               Warrants

             IBC Bancorp, Inc.,                   Subordinated
5/15/2009                                                                     $4,205,000   9/10/2010       $4,205,000              —                                                                                                                                                        $427,216
             Chicago, IL3, 4, 8, 30 - 9/10/2010   Debentures

             Iberiabank Corporation,              Preferred Stock w/
12/5/2008                                                                    $90,000,000   3/31/2009     $90,000,000               —    5/20/2009         R         $1,200,000         $49.98               $1,342.61                                                                     $1,450,000
             Lafayette, LA5, 9                    Warrants

                                                  Preferred Stock
3/27/2009    IBT Bancorp, Inc., Irving, TX2       w/ Exercised                $2,295,000                                                                                                                                                                                                    $173,055
                                                  Warrants

             IBW Financial Corporation,
3/13/2009    Washington, DC2, 4, 3a - 11/13/2009 Preferred Stock              $6,000,000    9/3/2010       $6,000,000              —                                                                                                                                                        $453,067
             30 - 9/3/2010



                                                  Preferred Stock
3/6/2009     ICB Financial, Ontario, CA2          w/ Exercised                $6,000,000                                                                                                                                                                                                    $471,425
                                                  Warrants

                                                  Preferred Stock
1/16/2009    Idaho Bancorp, Boise, ID2            w/ Exercised                $6,900,000                                                                                                                                                                                                    $124,306
                                                  Warrants
                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                                         253
                                                                                                                                                                                                                                                                                                          254
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                    (CONTINued)
                                                                                                 Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                               Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                           Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                           Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                                   Preferred Stock
             Illinois State Bancorp, Inc.,
5/22/2009                                          w/ Exercised                $6,272,000
             Chicago, IL2
                                                   Warrants
                                                                                                                                                                                                                                                                                             $551,431
                                                   Preferred Stock
             Illinois State Bancorp, Inc.,
12/29/2009                                         w/ Exercised                $4,000,000
             Chicago, IL2, 10, a
                                                   Warrants

                                                   Preferred Stock
             Independence Bank,
1/9/2009                                           w/ Exercised                $1,065,000                                                                                                                                                                                                     $92,832
             East Greenwich, RI2
                                                   Warrants

             Independent Bank Corp.,               Preferred Stock w/
1/9/2009                                                                      $78,158,000   4/22/2009     $78,158,000               —     5/27/2009        R         $2,200,000         $22.52                 $477.49                                                                     $1,118,094
             Rockland, MA4                         Warrants

                                                   Mandatorily
             Independent Bank                      Convertible
12/12/2008                                                                    $74,426,000                                                                                                $1.39                  $10.44      $7.23       346,154             ($5.84)          OUT           $2,430,000
             Corporation, Ionia, MI22, I, j        Preferred Stock w/
                                                   Warrants

                                           Preferred Stock
4/24/2009    Indiana Bank Corp., Dana, IN2 w/ Exercised                        $1,312,000                                                                                                                                                                                                     $93,599
                                                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I OCTOBER 26, 2010




                                           Warrants

             Indiana Community Bancorp,            Preferred Stock w/
12/12/2008                                                                    $21,500,000                                                                                               $12.56                   $42.52    $17.09       188,707             ($4.53)          OUT           $1,800,625
             Columbus, IN                          Warrants

             Integra Bank Corporation,             Preferred Stock w/
2/27/2009                                                                     $83,586,000                                                                                                $0.73                   $15.40     $1.69     7,418,876             ($0.96)          OUT           $1,950,340
             Evansville, IN                        Warrants

             Intermountain Community               Preferred Stock w/
12/19/2008                                                                    $27,000,000                                                                                                $2.00                   $16.78     $6.20       653,226             ($4.20)          OUT           $1,222,500
             Bancorp, Sandpoint, ID                Warrants

             International Bancshares              Preferred Stock w/
12/23/2008                                                                  $216,000,000                                                                                                $16.89               $1,146.39     $24.43     1,326,238             ($7.54)          OUT          $17,760,000
             Corporation, Laredo, TX               Warrants

             Intervest Bancshares                  Preferred Stock w/
12/23/2008                                                                    $25,000,000                                                                                                $2.10                   $19.15     $5.42       691,882             ($3.32)          OUT           $1,118,056
             Corporation, New York, NY             Warrants

             Investors Financial           Subordinated
5/8/2009     Corporation of Pettis County, Debentures w/                       $4,000,000                                                                                                                                                                                                    $174,325
             Inc., Sedalia, MO8            Exercised Warrants

             JPMorgan Chase & Co.,                 Preferred Stock w/
10/28/2008                                                                $25,000,000,000   6/17/2009 $25,000,000,000               —    12/10/2009        A       $950,318,243         $38.06             $150,914.26                                                                  $795,138,889
             New York, NY4                         Warrants

                                                   Preferred Stock
             Katahdin Bankshares Corp.,
1/30/2009                                          w/ Exercised               $10,449,000                                                                                                                                                                                                    $877,872
             Houlton, ME2
                                                   Warrants

                                                   Preferred Stock w/
11/14/2008   KeyCorp, Cleveland, OH                                        $2,500,000,000                                                                                                $7.96               $7,007.05     $10.64    35,244,361             ($2.68)          OUT        $219,097,222
                                                   Warrants

                                                   Preferred Stock
             Kirksville Bancorp, Inc.,
3/20/2009                                          w/ Exercised                 $470,000                                                                                                                                                                                                      $35,995
             Kirksville, MO2
                                                   Warrants

                                                   Preferred Stock
             KS Bancorp, Inc.,
8/21/2009                                          w/ Exercised                $4,000,000                                                                                                                                                                                                    $214,367
             Smithfield, NC2
                                                   Warrants

                                                    Preferred Stock
             Lafayette Bancorp, Inc.,
2/20/2009                                           w/ Exercised               $1,998,000   9/29/2010       $1,998,000              —     9/29/2010        R           $100,000
             Oxford, MS2, 4, 7, 30 - 9/29/2010, 30a
                                                    Warrants
                                                                                                                                                                                                                                                                                             $267,134
             Lafayette Bancorp, Inc.,
12/29/2009                                         Preferred Stock             $2,453,000   9/29/2010       $2,453,000              —
             Oxford, MS2, 4, 10a, 30 - 9/29/2010

             Lakeland Bancorp, Inc.,               Preferred Stock w/
2/6/2009                                                                      $59,000,000    8/4/2010     $20,000,000 $39,000,000                                                        $8.43                 $202.63      $9.32       949,571             ($0.89)          OUT           $4,468,194
             Oak Ridge, NJ4                        Warrants

             Lakeland Financial                    Preferred Stock w/
2/27/2009                                                                     $56,044,000    6/9/2010     $56,044,000               —                                                   $18.66                 $300.99     $21.20       198,269             ($2.54)          OUT           $3,596,156
             Corporation, Warsaw, IN5, b           Warrants

                                                   Preferred Stock
             Layton Park Financial Group,
12/18/2009                                         w/ Exercised                $3,000,000                                                                                                                                                                                                    $107,638
             Milwaukee, WI2
                                                   Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                               (CONTINued)
                                                                                             Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                          Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                      Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                      Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                              Preferred Stock w/
1/9/2009     LCNB Corp., Lebanon, OH4                                    $13,400,000   10/21/2009     $13,400,000               —                                                   $11.70                  $78.24      $9.26       217,063              $2.44              IN           $524,833
                                              Warrants

                                              Preferred Stock
             Leader Bancorp, Inc.,
12/23/2008                                    w/ Exercised                $5,830,000                                                                                                                                                                                                     $522,572
             Arlington, MA2
                                              Warrants

             Legacy Bancorp, Inc.,
1/30/2009                                     Preferred Stock             $5,498,000                                                                                                                                                                                                     $355,079
             Milwaukee, WI3

                                              Preferred Stock
             Liberty Bancshares, Inc.,
1/23/2009                                     w/ Exercised               $57,500,000                                                                                                                                                                                                $4,892,132.44
             Jonesboro, AR2
                                              Warrants

                                              Preferred Stock
             Liberty Bancshares, Inc.,
2/13/2009                                     w/ Exercised               $21,900,000                                                                                                                                                                                                $1,796,955.83
             Springfield, MO2
                                              Warrants

                                              Preferred Stock
             Liberty Bancshares, Inc.,
12/4/2009                                     w/ Exercised                $6,500,000                                                                                                                                                                                                  $238,896.22
             Fort Worth, TX2, 10
                                              Warrants

             Liberty Financial Services, Inc.,
2/6/2009                                         Preferred Stock          $5,645,000    9/24/2010       $5,645,000              —                                                                                                                                                        $461,009
             New Orleans, LA3, 4, 30 - 9/24/2010

                                              Preferred Stock
             Liberty Shares, Inc.,
2/20/2009                                     w/ Exercised               $17,280,000                                                                                                                                                                                                   $1,399,560
             Hinesville, GA2
                                              Warrants

             Lincoln National Corporation, Preferred Stock w/
7/10/2009                                                              $950,000,000     6/30/2010    $950,000,000               —     9/16/2010        A       $216,620,887         $23.92               $7,576.73                                                                    $46,180,555
             Radnor, PA4                   Warrants

                                              Preferred Stock w/
12/12/2008   LNB Bancorp Inc., Lorain, OH                                $25,223,000                                                                                                 $4.62                   $33.99     $6.74       561,343             ($2.12)          OUT           $2,112,427
                                              Warrants

                                          Preferred Stock
2/6/2009     Lone Star Bank, Houston, TX2 w/ Exercised                    $3,072,000                                                                                                                                                                                                            —
                                          Warrants

             LSB Corporation, North           Preferred Stock w/
12/12/2008                                                               $15,000,000   11/18/2009     $15,000,000               —    12/16/2009        R           $560,000         $20.84                  $93.93                                                                       $700,000
             Andover, MA4                     Warrants

             M&F Bancorp, Inc., Durham,
6/26/2009                                     Preferred Stock            $11,735,000    8/20/2010     $11,735,000               —                                                                                                                                                        $674,763
             NC2, 3, 4, 10, 30 - 8/20/2010

             M&T Bank Corporation,            Preferred Stock w/
12/23/2008                                                             $600,000,000                                                                                                 $81.81               $9,745.13     $73.86     1,218,522              $7.95              IN        $53,120,833
             Buffalo, NYd                     Warrants

             M&T Bank Corporation
                                           Preferred Stock w/
11/14/2008   (Provident Bancshares Corp.),                             $151,500,000                                                                                                 $81.81               $9,745.13     $55.76       407,542             $26.05              IN         $9,489,792
                                           Warrants
             Baltimore, MD

             Mackinac Financial               Preferred Stock w/
4/24/2009                                                                $11,000,000                                                                                                 $5.10                   $17.44     $4.35       379,310              $0.75              IN           $719,583
             Corporation, Manistique, MI      Warrants

                                              Preferred Stock
             Madison Financial
3/13/2009                                     w/ Exercised                $3,370,000                                                                                                                                                                                                     $169,422
             Corporation, Richmond, KY2
                                              Warrants

                                         Preferred Stock
12/23/2008   Magna Bank, Memphis, TN2, 4 w/ Exercised                    $13,795,000   11/24/2009       $3,455,000 $10,340,000                                                                                                                                                         $1,111,132
                                         Warrants

                                              Preferred Stock
             Mainline Bancorp, Inc.,
12/29/2009                                    w/ Exercised                $4,500,000                                                                                                                                                                                                     $153,963
             Ebensburg, PA2
                                              Warrants

             MainSource Financial Group,      Preferred Stock w/
1/16/2009                                                                $57,000,000                                                                                                 $7.64                 $153.84     $14.95       571,906             ($7.31)          OUT           $4,504,583
             Inc., Greensburg, IN             Warrants

             Manhattan Bancorp,               Preferred Stock w/
12/5/2008                                                                 $1,700,000    9/16/2009       $1,700,000              —    10/14/2009        R            $63,364          $4.85                  $19.34                                                                        $66,347
             El Segundo, CA4                  Warrants
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                      255
                                                                                                                                                                                                                                                                                                      256
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)
                                                                                             Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                           Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                       Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                       Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                               Subordinated
             Manhattan Bancshares, Inc.,
6/19/2009                                      Debentures w/               $2,639,000                                                                                                                                                                                                    $255,862
             Manhattan, IL8
                                               Exercised Warrants

                                               Preferred Stock
             Marine Bank & Trust
3/6/2009                                       w/ Exercised                $3,000,000                                                                                                                                                                                                    $235,713
             Company, Vero Beach, FL2
                                               Warrants

                                               Preferred Stock
             Market Bancorporation, Inc.,
2/20/2009                                      w/ Exercised                $2,060,000                                                                                                                                                                                                    $138,778
             New Market, MN2
                                               Warrants

                                               Subordinated
             Market Street Bancshares,
5/15/2009                                      Debentures w/              $20,300,000                                                                                                                                                                                                  $2,128,963
             Inc., Mt. Vernon, IL8
                                               Exercised Warrants

                                               Preferred Stock
             Marquette National
12/19/2008                                     w/ Exercised               $35,500,000                                                                                                                                                                                                  $3,203,087
             Corporation, Chicago, IL2
                                               Warrants

             Marshall & Ilsley Corporation, Preferred Stock w/
11/14/2008                                                             $1,715,000,000                                                                                                $7.04               $3,714.44     $18.62    13,815,789           ($11.58)           OUT        $150,300,694
             Milwaukee, WI                  Warrants
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I OCTOBER 26, 2010




                                               Preferred Stock
             Maryland Financial Bank,
3/27/2009                                      w/ Exercised                $1,700,000                                                                                                                                                                                                     $35,516
             Towson, MD2
                                               Warrants

                                               Preferred Stock w/
12/5/2008    MB Financial Inc., Chicago, ILb                            $196,000,000                                                                                                $16.22                 $875.28     $29.05       506,024           ($12.83)           OUT          $16,605,556
                                               Warrants

                                               Preferred Stock
             McLeod Bancshares, Inc.,
11/20/2009                                     w/ Exercised                $6,000,000                                                                                                                                                                                                    $240,708
             Shorewood, MN2
                                               Warrants

                                               Preferred Stock
             Medallion Bank, Salt Lake
2/27/2009                                      w/ Exercised               $11,800,000
             City, UT2
                                               Warrants
                                                                                                                                                                                                                                                                                       $1,260,255
                                               Preferred Stock
             Medallion Bank, Salt Lake
12/22/2009                                     w/ Exercised                $9,698,000
             City, UT2, 10a
                                               Warrants

             Mercantile Bank Corporation, Preferred Stock w/
5/15/2009                                                                 $21,000,000                                                                                                $4.50                  $38.67      $5.11       616,438             ($0.61)          OUT           $1,050,000
             Grand Rapids, MI             Warrants

                                               Preferred Stock
             Mercantile Capital Corp.,
2/6/2009                                       w/ Exercised                $3,500,000                                                                                                                                                                                                    $290,894
             Boston, MA2
                                               Warrants

                                           Preferred Stock
             Merchants and Manufacturers
6/19/2009                                  w/ Exercised                    $3,510,000                                                                                                                                                                                                    $221,104
             Bank Corporation, Joliet, IL2
                                           Warrants

                                          Preferred Stock
             Merchants and Planters
3/6/2009                                  w/ Exercised                     $1,881,000                                                                                                                                                                                                    $147,786
             Bancshares, Inc., Toone, TN2
                                          Warrants

                                               Preferred Stock
2/13/2009    Meridian Bank, Devon, PA2         w/ Exercised                $6,200,000
                                               Warrants                                                                                                                                                                                                                                  $723,413

12/11/2009   Meridian Bank, Devon, PA2, 10, a Preferred Stock              $6,335,000

                                               Preferred Stock
             Metro City Bank,
1/30/2009                                      w/ Exercised                $7,700,000                                                                                                                                                                                                    $646,961
             Doraville, GA2
                                               Warrants

             MetroCorp Bancshares, Inc.,       Preferred Stock w/
1/16/2009                                                                 $45,000,000                                                                                                $2.72                   $33.39     $8.75       771,429             ($6.03)          OUT           $3,000,625
             Houston, TX                       Warrants

                                            Preferred Stock
             Metropolitan Bank Group, Inc.,
6/26/2009                                   w/ Exercised                  $71,526,000                                                                                                                                                                                                  $3,454,185
             Chicago, IL2
                                            Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                               (CONTINued)
                                                                                             Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                          Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                      Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                      Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                           Preferred Stock
             Metropolitan Capital Bancorp,
4/10/2009                                  w/ Exercised                   $2,040,000
             Inc., Chicago, IL2
                                           Warrants
                                                                                                                                                                                                                                                                                         $236,204
             Metropolitan Capital Bancorp,
11/20/2009                                 Preferred Stock                $2,348,000
             Inc., Chicago, IL2, 10a

             Mid Penn Bancorp, Inc.,          Preferred Stock w/
12/19/2008                                                               $10,000,000                                                                                                 $6.90                  $24.01     $20.52        73,099           ($13.62)           OUT             $827,778
             Millersburg, PA                  Warrants

             Middleburg Financial           Preferred Stock w/
1/30/2009                                                                $22,000,000   12/23/2009     $22,000,000               —                                                   $14.08                  $97.64     $15.85       104,101             ($1.77)          OUT             $986,944
             Corporation, Middleburg, VA5,b Warrants

                                           Preferred Stock
             Midland States Bancorp, Inc.,
1/23/2009                                  w/ Exercised                  $10,189,000   12/23/2009     $10,189,000               —    12/23/2009        R           $509,000                                                                                                              $508,989
             Effingham, IL2, 4, 7
                                           Warrants

             MidSouth Bancorp, Inc.,          Preferred Stock w/
1/9/2009                                                                 $20,000,000                                                                                                $14.15                 $137.61     $14.37       104,384             ($0.22)          OUT           $1,600,000
             Lafayette, LAb                   Warrants

                                              Preferred Stock
             Midtown Bank & Trust
2/27/2009                                     w/ Exercised                $5,222,000                                                                                                                                                                                                     $275,105
             Company, Atlanta, GA2
                                              Warrants

                                          Mandatorily
             Midwest Banc Holdings, Inc., Convertible
12/5/2008                                                                $89,388,000                                                                                                                          $0.16     $0.31     4,282,020             ($0.31)          OUT             $824,289
             Melrose Park, IL14, 20, i    Preferred Stock w/
                                          Warrants

                                              Preferred Stock
             Midwest Regional Bancorp,
2/13/2009                                     w/ Exercised                 $700,000    11/10/2009        $700,000               —    11/10/2009        R            $35,000                                                                                                               $28,294
             Inc., Festus, MO2, 4, 7
                                              Warrants

             MidWestOne Financial Group, Preferred Stock w/
2/6/2009                                                                 $16,000,000                                                                                                $14.66                 $126.28     $12.08       198,675              $2.58              IN         $1,220,000
             Inc., Iowa City, IA         Warrants

                                              Preferred Stock
             Mid-Wisconsin Financial
2/20/2009                                     w/ Exercised               $10,000,000                                                                                                                                                                                                     $809,931
             Services, Inc., Medford, WI2
                                              Warrants

                                              Preferred Stock
             Millennium Bancorp, Inc.,
4/3/2009                                      w/ Exercised                $7,260,000                                                                                                                                                                                                     $343,053
             Edwards, CO2
                                              Warrants

             Mission Community Bancorp,
1/9/2009                                Preferred Stock                   $5,116,000                                                                                                                                                                                                     $409,280
             San Luis Obispo, CA3

             Mission Valley Bancorp, Sun
12/23/2008                                    Preferred Stock             $5,500,000    8/20/2010       $5,500,000              —                                                                                                                                                        $456,042
             Valley, CA3, 4, 30 - 8/20/2010

                                              Preferred Stock
             Monadnock Bancorp, Inc.,
12/19/2008                                    w/ Exercised                $1,834,000                                                                                                                                                                                                     $165,522
             Peterborough, NH2
                                              Warrants

             Monarch Community                Preferred Stock w/
2/6/2009                                                                  $6,785,000                                                                                                 $1.45                    $2.97     $3.90       260,962             ($2.45)          OUT             $262,919
             Bancorp, Inc., Coldwater, MI     Warrants

             Monarch Financial Holdings,      Preferred Stock w/
12/19/2008                                                               $14,700,000   12/23/2009     $14,700,000               —     2/10/2010        R           $260,000          $8.42                  $49.47                                                                       $743,167
             Inc., Chesapeake, VA5,9          Warrants

                                              Preferred Stock
             Moneytree Corporation,
3/13/2009                                     w/ Exercised                $9,516,000                                                                                                                                                                                                     $737,621
             Lenoir City, TN2
                                              Warrants

                                              Preferred Stock
             Monument Bank,
1/30/2009                                     w/ Exercised                $4,734,000                                                                                                                                                                                                     $397,796
             Bethesda, MD2
                                              Warrants

             Morgan Stanley,                  Preferred Stock w/
10/28/2008                                                           $10,000,000,000    6/17/2009 $10,000,000,000               —     8/12/2009        R       $950,000,000         $24.68              $34,477.19                                                                  $318,055,555
             New York, NY4                    Warrants

                                              Preferred Stock
                                                                                                                                                                                                                                                                                                      Transaction detail I Appendix D I OCTOBER 26, 2010




             Morrill Bancshares, Inc.,
1/16/2009                                     w/ Exercised               $13,000,000                                                                                                                                                                                                   $1,119,824
             Merriam, KS2
                                              Warrants

                                                                                                                                                                                                                                                                            Continued on next page.
                                                                                                                                                                                                                                                                                                      257
                                                                                                                                                                                                                                                                                                   258
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                          Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                        Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                            Preferred Stock
             Moscow Bancshares, Inc.,
1/23/2009                                   w/ Exercised                $6,216,000                                                                                                                                                                                                    $528,889
             Moscow, TN2
                                            Warrants

                                            Preferred Stock
             Mountain Valley Bancshares,
9/25/2009                                   w/ Exercised                $3,300,000                                                                                                                                                                                                    $159,867
             Inc., Cleveland, GA2
                                            Warrants

                                            Preferred Stock
             MS Financial, Inc.,
3/27/2009                                   w/ Exercised                $7,723,000                                                                                                                                                                                                    $477,009
             Kingwood, TX2
                                            Warrants

             MutualFirst Financial, Inc.,   Preferred Stock w/
12/23/2008                                                             $32,382,000                                                                                                $7.69                   $53.71     $7.77       625,135             ($0.08)          OUT           $2,662,520
             Muncie, IN                     Warrants

                                            Preferred Stock
             Naples Bancorp, Inc.,
3/27/2009                                   w/ Exercised                $4,000,000                                                                                                                                                                                                    $301,567
             Naples, FL2
                                            Warrants

             Nara Bancorp, Inc.,            Preferred Stock w/
11/21/2008                                                             $67,000,000                                                                                                $7.05                 $267.60      $9.64       521,266             ($2.59)          OUT           $5,806,667
             Los Angeles, CAb               Warrants
                                                                                                                                                                                                                                                                                                   Appendix D I Transaction Detail I OCTOBER 26, 2010




                                            Preferred Stock
             National Bancshares, Inc.,
2/27/2009                                   w/ Exercised               $24,664,000                                                                                                                                                                                                  $1,971,450
             Bettendorf, IA2
                                            Warrants

             National Penn Bancshares,      Preferred Stock w/
12/12/2008                                                           $150,000,000                                                                                                 $6.25                 $788.09     $15.30       735,294             ($9.05)          OUT          $12,562,500
             Inc., Boyertown, PAb           Warrants

                                          Subordinated
             Nationwide Bankshares, Inc.,
12/11/2009                                Debentures w/                 $2,000,000                                                                                                                                                                                                    $113,731
             West Point, NE8
                                          Exercised Warrants

                                            Preferred Stock
             NC Bancorp, Inc.,
6/26/2009                                   w/ Exercised                $6,880,000                                                                                                                                                                                                    $332,256
             Chicago, IL2
                                            Warrants

                                            Preferred Stock
             NCAL Bancorp,
12/19/2008                                  w/ Exercised               $10,000,000                                                                                                                                                                                                    $902,278
             Los Angeles, CA2
                                            Warrants

                                            Subordinated
             NEMO Bancshares Inc.,
6/19/2009                                   Debentures w/               $2,330,000                                                                                                                                                                                                    $225,976
             Madison, MO8
                                            Exercised Warrants

             New Hampshire Thrift
                                            Preferred Stock w/
1/16/2009    Bancshares, Inc.,                                         $10,000,000                                                                                               $10.70                   $61.76     $8.14       184,275              $2.56              IN           $790,278
                                            Warrants
             Newport, NH

             New York Private Bank &        Preferred Stock
1/9/2009     Trust Corporation,             w/ Exercised             $267,274,000                                                                                                                                                                                                  $23,306,336
             New York, NY2                  Warrants

             NewBridge Bancorp,             Preferred Stock w/
12/12/2008                                                             $52,372,000                                                                                                $3.57                   $55.89     $3.06     2,567,255              $0.51              IN         $4,386,155
             Greensboro, NC                 Warrants

                                            Preferred Stock
             Nicolet Bankshares, Inc.,
12/23/2008                                  w/ Exercised               $14,964,000                                                                                                                                                                                                  $1,341,077
             Green Bay, WI2
                                            Warrants

             North Central Bancshares,      Preferred Stock w/
1/9/2009                                                               $10,200,000                                                                                               $12.55                   $16.96    $15.43        99,157             ($2.88)          OUT             $816,000
             Inc., Fort Dodge, IA           Warrants

             Northeast Bancorp,             Preferred Stock w/
12/12/2008                                                              $4,227,000                                                                                               $12.00                   $27.97     $9.33        67,958              $2.67              IN           $354,012
             Lewiston, ME                   Warrants

                                            Preferred Stock
             Northern State Bank,
5/15/2009                                   w/ Exercised                $1,341,000
             Closter, NJ2
                                            Warrants
                                                                                                                                                                                                                                                                                      $131,838
             Northern State Bank,
12/18/2009                                  Preferred Stock             $1,230,000
             Closter, NJ2, 10a

             Northern States Financial      Preferred Stock w/
2/20/2009                                                              $17,211,000                                                                                                $1.54                    $6.27     $4.42       584,084             ($2.88)          OUT             $418,323
             Corporation, Waukegan, IL      Warrants

             Northern Trust Corporation,    Preferred Stock w/
11/14/2008                                                          $1,576,000,000   6/17/2009    $1,576,000,000             —    8/26/2009         R        $87,000,000         $48.24              $11,678.47                                                                    $46,623,333
             Chicago, IL4                   Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
                                                                                            Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                         Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                     Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                     Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                             Preferred Stock
             Northway Financial, Inc.,
1/30/2009                                    w/ Exercised               $10,000,000                                                                                                                                                                                                     $840,208
             Berlin, NH2
                                             Warrants

                                             Preferred Stock
             Northwest Bancorporation,
2/13/2009                                    w/ Exercised               $10,500,000                                                                                                                                                                                                     $575,430
             Inc., Spokane, WA2
                                             Warrants

                                        Preferred Stock
             Northwest Commercial Bank,
2/13/2009                               w/ Exercised                     $1,992,000                                                                                                                                                                                                     $163,503
             Lakewood, WA2
                                        Warrants

             Oak Ridge Financial Services, Preferred Stock w/
1/30/2009                                                                $7,700,000                                                                                                 $4.51                    $8.08     $7.05       163,830             ($2.54)          OUT             $593,542
             Inc., Oak Ridge, NC           Warrants

             Oak Valley Bancorp,             Preferred Stock w/
12/5/2008                                                               $13,500,000                                                                                                 $5.40                   $41.50     $5.78       350,346             ($0.38)          OUT           $1,143,750
             Oakdale, CA                     Warrants

             OceanFirst Financial Corp.,     Preferred Stock w/
1/16/2009                                                               $38,263,000   12/30/2009     $38,263,000               —     2/3/2010         R           $430,797         $12.27                 $230.96                                                                     $1,828,122
             Toms River, NJ5, 9              Warrants

                                             Preferred Stock
             Ojai Community Bank,
1/30/2009                                    w/ Exercised                $2,080,000                                                                                                                                                                                                     $174,763
             Ojai, CA2
                                             Warrants

             Old Line Bancshares, Inc.,      Preferred Stock w/
12/5/2008                                                                $7,000,000    7/15/2009       $7,000,000              —     9/2/2009         R           $225,000          $8.13                  $31.54                                                                       $213,889
             Bowie, MD4                      Warrants

             Old National Bancorp,           Preferred Stock w/
12/12/2008                                                            $100,000,000     3/31/2009    $100,000,000               —     5/8/2009         R         $1,200,000         $10.50                 $915.30                                                                     $1,513,889
             Evansville, IN4                 Warrants

             Old Second Bancorp, Inc.,       Preferred Stock w/
1/16/2009                                                               $73,000,000                                                                                                 $1.39                   $19.34    $13.43       815,339           ($12.04)           OUT           $5,769,028
             Aurora, IL                      Warrants

                                             Preferred Stock
             Omega Capital Corp.,
4/17/2009                                    w/ Exercised                $2,816,000                                                                                                                                                                                                      $50,311
             Lakewood, CO2
                                             Warrants

                                             Preferred Stock
             One Georgia Bank,
5/8/2009                                     w/ Exercised                $5,500,000                                                                                                                                                                                                            —
             Atlanta, GA2
                                             Warrants

                                             Subordinated
             OneFinancial Corporation,
6/5/2009                                     Debentures w/              $17,300,000                                                                                                                                                                                                   $1,676,994
             Little Rock, AR8, 10
                                             Exercised Warrants

             OneUnited Bank,
12/19/2008                                   Preferred Stock            $12,063,000                                                                                                                                                                                                      $93,823
             Boston, MA2, 3

                                             Preferred Stock
             Oregon Bancorp, Inc.,
4/24/2009                                    w/ Exercised                $3,216,000                                                                                                                                                                                                     $229,338
             Salem, OR2
                                             Warrants

                                             Subordinated
             OSB Financial Services, Inc.,
5/1/2009                                     Debentures w/               $6,100,000                                                                                                                                                                                                     $674,443
             Orange, TX8
                                             Exercised Warrants

             Pacific Capital Bancorp,           Common Stock w/
11/21/2008                                                            $195,045,000                                                                                                  $0.81                 $220.65      $0.20     1,512,003              $0.61              IN         $2,107,397
             Santa Barbara, CA29 - 9/24/2010, i Warrants

             Pacific City Financial          Preferred Stock
12/19/2008   Corporation,                    w/ Exercised               $16,200,000                                                                                                                                                                                                     $358,065
             Los Angeles, CA2                Warrants

             Pacific Coast Bankers’          Preferred Stock
12/23/2008   Bancshares,                     w/ Exercised               $11,600,000                                                                                                                                                                                                   $1,039,618
             San Francisco, CA2              Warrants

             Pacific Coast National          Preferred Stock
1/16/2009    Bancorp,                        w/ Exercised                $4,120,000    2/11/2010               —               —                                                                                                                                                         $18,088
             San Clemente, CA2, 19           Warrants
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I OCTOBER 26, 2010




                                             Preferred Stock
             Pacific Commerce Bank,
12/23/2008                                   w/ Exercised                $4,060,000                                                                                                                                                                                                     $331,905
             Los Angeles, CA2
                                             Warrants

             Pacific International Bancorp, Preferred Stock w/
12/12/2008                                                               $6,500,000                                                                                                 $3.90                    $7.84     $7.63       127,785             ($3.73)          OUT             $138,125
             Seattle, WA                    Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                     259
                                                                                                                                                                                                                                                                                                      260
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)
                                                                                             Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                           Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                       Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                       Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                               Preferred Stock
             Park Bancorporation, Inc.,
3/6/2009                                       w/ Exercised               $23,200,000                                                                                                                                                                                                  $1,822,843
             Madison, WI2
                                               Warrants

             Park National Corporation,        Preferred Stock w/
12/23/2008                                                              $100,000,000                                                                                                $64.04                 $978.15     $65.97       227,376             ($1.93)          OUT           $8,222,222
             Newark, OH                        Warrants

             Parke Bancorp, Inc.,              Preferred Stock w/
1/30/2009                                                                 $16,288,000                                                                                                $8.95                  $39.72      $7.41       329,757              $1.54              IN         $1,255,533
             Sewell, NJg                       Warrants

             Parkvale Financial                Preferred Stock w/
12/23/2008                                                                $31,762,000                                                                                                $6.15                   $34.00    $12.66       376,327             ($6.51)          OUT           $2,611,542
             Corporation, Monroeville, PA      Warrants

             Pascack Bancorp, Inc.             Preferred Stock
2/6/2009     (Pascack Community Bank),         w/ Exercised                $3,756,000                                                                                                                                                                                                    $312,198
             Westwood, NJ2, 13 - 2/10/2010     Warrants

                                               Preferred Stock
             Patapsco Bancorp, Inc.,
12/19/2008                                     w/ Exercised                $6,000,000                                                                                                                                                                                                    $377,867
             Dundalk, MD2
                                               Warrants

             Pathfinder Bancorp, Inc.,         Preferred Stock w/
                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I OCTOBER 26, 2010




9/11/2009                                                                  $6,771,000                                                                                                $8.00                   $19.88     $6.58       154,354              $1.42              IN           $314,099
             Oswego, NY                        Warrants

                                         Preferred Stock
3/27/2009    Pathway Bancorp, Cairo, NE2 w/ Exercised                      $3,727,000                                                                                                                                                                                                     $77,852
                                         Warrants

                                               Preferred Stock
             Patriot Bancshares, Inc.,
12/19/2008                                     w/ Exercised               $26,038,000                                                                                                                                                                                                  $2,349,366
             Houston, TX2
                                               Warrants

                                               Preferred Stock
             Patterson Bancshares, Inc,
4/17/2009                                      w/ Exercised                $3,690,000                                                                                                                                                                                                     $65,933
             Patterson, LA2
                                               Warrants

             Peapack-Gladstone Financial Preferred Stock w/
1/9/2009                                                                  $28,685,000    1/6/2010       $7,172,000 $21,513,000                                                      $11.78                 $103.49     $28.63       150,296           ($16.85)           OUT           $2,076,652
             Corporation, Gladstone, NJ4,g Warrants

             Peninsula Bank Holding Co.,       Preferred Stock w/
1/30/2009                                                                  $6,000,000                                                                                                $5.50                   $10.18    $11.02        81,670             ($5.52)          OUT             $150,000
             Palo Alto, CA                     Warrants

                                           Preferred Stock
             Penn Liberty Financial Corp.,
4/17/2009                                  w/ Exercised                    $9,960,000                                                                                                                                                                                                    $720,744
             Wayne, PA2
                                           Warrants

                                               Preferred Stock
             Peoples Bancorp,
2/13/2009                                      w/ Exercised               $18,000,000                                                                                                                                                                                                  $1,476,950
             Lynden, WA2
                                               Warrants

             Peoples Bancorp Inc.,             Preferred Stock w/
1/30/2009                                                                 $39,000,000                                                                                               $12.37                 $129.89     $18.66       313,505             ($6.29)          OUT           $3,006,250
             Marietta, OH                      Warrants

             Peoples Bancorp of North          Preferred Stock w/
12/23/2008                                                                $25,054,000                                                                                                $4.84                   $26.81    $10.52       357,234             ($5.68)          OUT           $2,059,996
             Carolina, Inc., Newton, NC        Warrants

                                           Preferred Stock
             Peoples Bancorporation, Inc.,
4/24/2009                                  w/ Exercised                   $12,660,000                                                                                                                                                                                                    $902,711
             Easley, SC2
                                           Warrants

                                               Preferred Stock
             Peoples Bancshares of TN,
3/20/2009                                      w/ Exercised                $3,900,000                                                                                                                                                                                                    $298,160
             Inc, Madisonville, TN2
                                               Warrants

                                               Preferred Stock
             PeoplesSouth Bancshares,
3/6/2009                                       w/ Exercised               $12,325,000                                                                                                                                                                                                    $968,353
             Inc., Colquitt, GA2
                                               Warrants

                                               Preferred Stock
             PFSB Bancorporation, Inc.,
9/11/2009                                      w/ Exercised                $1,500,000                                                                                                                                                                                                     $75,512
             Pigeon Falls, WI2, 10
                                               Warrants

             PGB Holdings, Inc.,
2/6/2009                                       Preferred Stock             $3,000,000   8/13/2010       $3,000,000              —                                                                                                                                                        $227,917
             Chicago, IL3, 4, 30 - 8/13/2010

                                                                                                                                                                                                                                                                            Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                    (CONTINued)
                                                                                                 Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                               Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                           Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                           Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                                   Preferred Stock
             Pierce County Bancorp,
1/23/2009                                          w/ Exercised                $6,800,000                                                                                                                                                                                                    $207,948
             Tacoma, WA2
                                                   Warrants

             Pinnacle Bank Holding                 Preferred Stock
3/6/2009     Company, Inc.,                        w/ Exercised                $4,389,000                                                                                                                                                                                                    $284,999
             Orange City, FL2                      Warrants

             Pinnacle Financial Partners,          Preferred Stock w/
12/12/2008                                                                    $95,000,000                                                                                                $9.19                 $307.24     $26.64       267,455           ($17.45)           OUT           $7,956,250
             Inc., Nashville, TNb                  Warrants

                                                   Preferred Stock
             Plains Capital Corporation,
12/19/2008                                         w/ Exercised               $87,631,000                                                                                                                                                                                                  $7,906,818
             Dallas, TX2
                                                   Warrants

                                                   Subordinated
             Plato Holdings Inc.,
7/17/2009                                          Debentures w/               $2,500,000                                                                                                                                                                                                    $223,387
             Saint Paul, MN8, 10
                                                   Exercised Warrants

                                                   Preferred Stock w/
1/30/2009    Plumas Bancorp, Quincy, CA                                       $11,949,000                                                                                                $3.06                   $14.61     $7.54       237,712             ($4.48)          OUT             $622,344
                                                   Warrants

                                                   Trust Preferred
12/5/2008    Popular, Inc., San Juan, PR12         Securities w/            $935,000,000                                                                                                 $2.90               $2,965.82      $6.70    20,932,836             ($3.80)          OUT          $66,359,028
                                                   Warrants

             Porter Bancorp Inc.,                  Preferred Stock w/
11/21/2008                                                                    $35,000,000                                                                                               $10.04                 $106.88     $16.68       314,820             ($6.64)          OUT           $3,033,333
             Louisville, KYg                       Warrants

                                            Preferred Stock
             Prairie Star Bancshares, Inc.,
4/3/2009                                    w/ Exercised                       $2,800,000                                                                                                                                                                                                    $132,253
             Olathe, KS2
                                            Warrants

             Premier Bancorp, Inc.,                Subordinated
5/8/2009                                                                       $6,784,000   8/13/2010       $6,784,000              —                                                                                                                                                        $660,215
             Wilmette, IL3, 4, 8, 30 - 8/13/2010   Debentures

                                                   Preferred Stock
             Premier Bank Holding
3/20/2009                                          w/ Exercised                $9,500,000                                                                                                                                                                                                    $467,413
             Company, Tallahassee, FL2
                                                   Warrants

             Premier Financial Bancorp,            Preferred Stock w/
10/2/2009                                                                     $22,252,000                                                                                                $6.15                   $48.81     $5.31       628,588              $0.84              IN           $967,344
             Inc., Huntington, WV                  Warrants

                                                   Subordinated
             Premier Financial Corp,
5/22/2009                                          Debentures w/               $6,349,000                                                                                                                                                                                                    $522,263
             Dubuque,IA8
                                                   Exercised Warrants

                                                   Preferred Stock
             Premier Service Bank,
2/20/2009                                          w/ Exercised                $4,000,000                                                                                                                                                                                                     $54,500
             Riverside, CA2
                                                   Warrants

             PremierWest Bancorp,                  Preferred Stock w/
2/13/2009                                                                     $41,400,000                                                                                                $0.44                  $44.15      $5.70     1,090,385             ($5.26)          OUT           $1,046,500
             Medford, ORg                          Warrants

                                                   Preferred Stock
             Presidio Bank,
11/20/2009                                         w/ Exercised               $10,800,000                                                                                                                                                                                                           —
             San Francisco, CA2, 10
                                                   Warrants

             Princeton National Bancorp,           Preferred Stock w/
1/23/2009                                                                     $25,083,000                                                                                                $4.75                   $15.74    $24.27       155,025           ($19.52)           OUT           $1,957,868
             Inc., Princeton, IL                   Warrants

                                                   Preferred Stock
             Private Bancorporation, Inc.,
2/27/2009                                          w/ Exercised                $4,960,000
             Minneapolis, MN2
                                                   Warrants
                                                                                                                                                                                                                                                                                             $498,860
             Private Bancorporation, Inc.,
12/29/2009                                         Preferred Stock             $3,262,000
             Minneapolis, MN2, 10a

             PrivateBancorp, Inc.,                 Preferred Stock w/
1/30/2009                                                                   $243,815,000                                                                                                $11.39                 $813.19     $28.35       645,013           ($16.96)           OUT          $18,794,073
             Chicago, ILb                          Warrants

                                                   Preferred Stock
                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I OCTOBER 26, 2010




             Providence Bank,
10/2/2009                                          w/ Exercised                $4,000,000                                                                                                                                                                                                    $187,583
             Rocky Mount, NC2, 10
                                                   Warrants

                                                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                                                          261
                                                                                                                                                                                                                                                                                                           262
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                     (CONTINued)
                                                                                                  Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                                Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                            Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                            Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Provident Community             Preferred Stock w/
3/13/2009                                                                       $9,266,000                                                                                                $1.52                    $2.72     $7.77       178,880             ($6.25)          OUT             $543,091
             Bancshares, Inc., Rock Hill, SC Warrants

                                                    Preferred Stock
             PSB Financial Corporation,
2/27/2009                                           w/ Exercised                $9,270,000   9/29/2010       $9,270,000              —    9/29/2010         R           $464,000                                                                                                              $802,802
             Many, LA2, 4, 7, 30 - 9/29/2010, 30a
                                                    Warrants

                                         Preferred Stock
             Puget Sound Bank, Bellevue,
1/16/2009                                w/ Exercised                           $4,500,000                                                                                                                                                                                                    $387,632
             WA2
                                         Warrants

             Pulaski Financial Corp,                Preferred Stock w/
1/16/2009                                                                      $32,538,000                                                                                                $6.90                   $74.65     $6.27       778,421              $0.63              IN         $2,571,406
             Creve Coeur, MO                        Warrants

                                            Preferred Stock w/
2/13/2009    QCR Holdings, Inc., Moline, IL                                    $38,237,000                                                                                                $9.03                   $41.54    $10.99       521,888             ($1.96)          OUT           $2,878,397
                                            Warrants

                                                    Preferred Stock
             Randolph Bank & Trust
10/30/2009                                          w/ Exercised                $6,229,000                                                                                                                                                                                                    $268,723
             Company, Asheboro, NC2
                                                    Warrants
                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                    Preferred Stock
             RCB Financial Corporation,
6/19/2009                                           w/ Exercised                $8,900,000                                                                                                                                                                                                    $542,094
             Rome, GA2, 10
                                                    Warrants

                                                    Preferred Stock
             Redwood Capital Bancorp,
1/16/2009                                           w/ Exercised                $3,800,000                                                                                                                                                                                                    $327,333
             Eureka, CA2
                                                    Warrants

                                                    Preferred Stock
             Redwood Financial Inc.,
1/9/2009                                            w/ Exercised                $2,995,000                                                                                                                                                                                                    $261,201
             Redwood Falls, MN2
                                                    Warrants

                                                    Preferred Stock
             Regent Bancorp, Inc.,
3/6/2009                                            w/ Exercised                $9,982,000                                                                                                                                                                                                    $784,282
             Davie, FL2
                                                    Warrants

                                                    Preferred Stock
             Regent Capital Corporation,
2/27/2009                                           w/ Exercised                $2,655,000                                                                                                                                                                                                    $212,256
             Nowata, OK2
                                                    Warrants

                                                    Preferred Stock
             Regents Bancshares, Inc.,
10/23/2009                                          w/ Exercised               $12,700,000                                                                                                                                                                                                    $542,868
             Vancouver, WA2, 10
                                                    Warrants

                                                    Preferred Stock
             Regional Bankshares, Inc.,
2/13/2009                                           w/ Exercised                $1,500,000                                                                                                                                                                                                    $123,080
             Hartsville, SC2
                                                    Warrants

             Regions Financial Corporation, Preferred Stock w/
11/14/2008                                                                  $3,500,000,000                                                                                                $7.27               $9,130.69     $10.88    48,253,677             ($3.61)          OUT        $306,736,111
             Birmingham, AL                 Warrants

                                                    Preferred Stock
             Reliance Bancshares, Inc.,
2/13/2009                                           w/ Exercised               $40,000,000                                                                                                                                                                                                  $3,282,111
             Frontenac, MO2
                                                    Warrants

                                             Preferred Stock
             Ridgestone Financial
2/27/2009                                    w/ Exercised                      $10,900,000                                                                                                                                                                                                    $277,224
             Services, Inc., Brookfield, WI2
                                             Warrants

                                                    Preferred Stock
             Rising Sun Bancorp,
1/9/2009                                            w/ Exercised                $5,983,000                                                                                                                                                                                                    $195,637
             Rising Sun, MD2
                                                    Warrants

                                                    Subordinated
             River Valley Bancorporation,
6/12/2009                                           Debentures w/              $15,000,000                                                                                                                                                                                                  $1,478,738
             Inc., Wausau, WI8
                                                    Exercised Warrants

                                                    Subordinated
             Riverside Bancshares, Inc.,
5/15/2009                                           Debentures w/               $1,100,000                                                                                                                                                                                                    $115,363
             Little Rock, AR8
                                                    Exercised Warrants

                                                    Preferred Stock
             Rogers Bancshares, Inc.,
1/30/2009                                           w/ Exercised               $25,000,000                                                                                                                                                                                                    $738,021
             Little Rock, AR2
                                                    Warrants

                                                                                                                                                                                                                                                                                 Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                          Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                        Capital        Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                               Repayment      Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description          Investment Amount        Date         Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Royal Bancshares of
                                            Preferred Stock w/
2/20/2009    Pennsylvania, Inc.,                                       $30,407,000                                                                                                $1.74                   $21.19     $4.13     1,104,370             ($2.39)          OUT             $358,971
                                            Warrants
             Narberth, PA

                                            Preferred Stock w/
1/16/2009    S&T Bancorp, Indiana, PA                                $108,676,000                                                                                                $17.42                 $484.68     $31.53       517,012           ($14.11)           OUT           $8,588,423
                                            Warrants

                                            Preferred Stock
             Saigon National Bank,
12/23/2008                                  w/ Exercised                $1,549,000                                                                                                                                                                                                           —
             Westminster, CA2
                                            Warrants

             Salisbury Bancorp, Inc.,       Preferred Stock w/
3/13/2009                                                               $8,816,000                                                                                               $22.95                   $38.74    $22.93        57,671              $0.02              IN           $626,916
             Lakeville, CT                  Warrants

             Sandy Spring Bancorp, Inc.,    Preferred Stock w/
12/5/2008                                                              $83,094,000   7/21/2010     $41,547,000 $41,547,000                                                       $15.50                 $372.03     $19.13       651,547             ($3.63)          OUT           $6,901,418
             Olney, MD4                     Warrants

                                            Preferred Stock
             Santa Clara Valley Bank, N.A.,
2/13/2009                                   w/ Exercised                $2,900,000                                                                                                                                                                                                    $158,928
             Santa Paula, CA2
                                            Warrants

             Santa Lucia Bancorp,           Preferred Stock w/
12/19/2008                                                              $4,000,000                                                                                                $2.30                    $4.61    $15.75        38,107           ($13.45)           OUT             $331,111
             Atascadero, CAg                Warrants

                                            Preferred Stock
             SBT Bancorp, Inc.,
3/27/2009                                   w/ Exercised                $4,000,000                                                                                                                                                                                                    $301,567
             Simsbury, CT2
                                            Warrants

             SCBT Financial Corporation,    Preferred Stock w/
1/16/2009                                                              $64,779,000   5/20/2009     $64,779,000               —    6/24/2009         R         $1,400,000         $31.19                 $398.58                                                                     $1,115,639
             Columbia, SC4                  Warrants

             Seacoast Banking Corporation Preferred Stock w/
12/19/2008                                                             $50,000,000                                                                                                $1.22                 $113.92      $6.36       589,623             ($5.14)          OUT             $388,889
             of Florida, Stuart, FLb      Warrants

                                            Preferred Stock
             Seacoast Commerce Bank,
12/23/2008                                  w/ Exercised                $1,800,000                                                                                                                                                                                                    $161,320
             Chula Vista, CA2
                                            Warrants

             Security Bancshares of         Preferred Stock
2/13/2009    Pulaski County, Inc.,          w/ Exercised                $2,152,000                                                                                                                                                                                                    $176,632
             Waynesville, MO2               Warrants

                                            Preferred Stock
             Security Business Bancorp,
1/9/2009                                    w/ Exercised                $5,803,000                                                                                                                                                                                                    $506,001
             San Diego, CA2
                                            Warrants

                                            Preferred Stock
             Security California Bancorp,
1/9/2009                                    w/ Exercised                $6,815,000                                                                                                                                                                                                    $594,305
             Riverside, CA2
                                            Warrants

             Security Capital Corporation, Preferred Stock
6/26/2009    Batesville, MS2, 4, 7, 10,    w/ Exercised                $17,388,000   9/29/2010     $17,388,000               —    9/29/2010         R           $522,000                                                                                                            $1,153,111
             30 - 9/29/2010, 30a
                                           Warrants

             Security Federal Corporation, Preferred Stock w/
12/19/2008                                                             $18,000,000   9/29/2010     $18,000,000               —                                                   $11.00                  $27.07     $19.57       137,966             ($8.57)          OUT           $1,600,000
             Aiken, SC30 - 9/29/2010-4     Warrants

                                            Preferred Stock
             Security State Bancshares,
2/20/2009                                   w/ Exercised               $12,500,000                                                                                                                                                                                                  $1,012,413
             Inc., Charleston, MO2
                                            Warrants

                                            Subordinated
             Security State Bank Holding-
5/1/2009                                    Debentures w/              $10,750,000                                                                                                                                                                                                    $486,075
             Company, Jamestown, ND8
                                            Exercised Warrants

             Severn Bancorp, Inc.,          Preferred Stock w/
11/21/2008                                                             $23,393,000                                                                                                $3.59                   $36.14     $6.30       556,976             ($2.71)          OUT           $2,027,394
             Annapolis, MD                  Warrants

             Shore Bancshares, Inc.,        Preferred Stock w/
1/9/2009                                                               $25,000,000   4/15/2009     $25,000,000               —                                                    $9.48                  $80.04     $21.68       172,970           ($12.20)           OUT             $333,333
             Easton, MD4                    Warrants

                                            Subordinated
                                                                                                                                                                                                                                                                                                   Transaction detail I Appendix D I OCTOBER 26, 2010




             Signature Bancshares, Inc.,
6/26/2009                                   Debentures w/               $1,700,000                                                                                                                                                                                                    $162,044
             Dallas, TX8
                                            Exercised Warrants

             Signature Bank,                Preferred Stock w/
12/12/2008                                                           $120,000,000    3/31/2009    $120,000,000               —    3/10/2010         A        $11,320,751         $38.84               $1,576.63                                                                     $1,816,667
             New York, NY4                  Warrants

                                                                                                                                                                                                                                                                         Continued on next page.
                                                                                                                                                                                                                                                                                                   263
                                                                                                                                                                                                                                                                                                         264
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                   (CONTINued)
                                                                                                Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                              Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                          Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                          Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Somerset Hills Bancorp,              Preferred Stock w/
1/16/2009                                                                     $7,414,000   5/20/2009       $7,414,000              —    6/24/2009         R           $275,000          $8.06                  $43.97                                                                       $127,686
             Bernardsville, NJ4                   Warrants

                                                  Preferred Stock
             Sonoma Valley Bancorp,
2/20/2009                                         w/ Exercised                $8,653,000                                                                                                                                                                                                    $347,164
             Sonoma, CA2, 25
                                                  Warrants

                                                  Preferred Stock
             Sound Banking Company,
1/9/2009                                          w/ Exercised                $3,070,000                                                                                                                                                                                                    $267,776
             Morehead City, NC2
                                                  Warrants

             South Financial Group, Inc.,         Preferred Stock w/
12/5/2008                                                                  $347,000,000    9/30/2010     $130,179,219              —    9/30/2010         R           $400,000                                                                                                           $16,386,111
             Greenville, SC26 - 9/30/2010         Warrants

                                                  Preferred Stock
             SouthCrest Financial Group,
7/17/2009                                         w/ Exercised               $12,900,000                                                                                                                                                                                                    $757,732
             Inc., Fayetteville, GA2
                                                  Warrants

             Southern Bancorp, Inc.,
1/16/2009                                         Preferred Stock            $11,000,000    8/6/2010      $11,000,000              —                                                                                                                                                        $855,556
             Arkadelphia, AR3, 4, 30 - 8/6/2010

             Southern Community Financial Preferred Stock w/
                                                                                                                                                                                                                                                                                                         Appendix D I Transaction Detail I OCTOBER 26, 2010




12/5/2008                                                                    $42,750,000                                                                                                $1.75                   $29.42     $3.95     1,623,418             ($2.20)          OUT           $3,621,875
             Corp., Winston-Salem, NC     Warrants

             Southern First Bancshares,           Preferred Stock w/
2/27/2009                                                                    $17,299,000                                                                                                $6.62                   $20.81     $7.85       330,554             ($1.23)          OUT           $1,268,594
             Inc., Greenville, SC                 Warrants

             Southern Heritage                    Preferred Stock
5/15/2009    Bancshares, Inc.,                    w/ Exercised                $4,862,000                                                                                                                                                                                                    $331,213
             Cleveland, TN2                       Warrants

                                                  Preferred Stock
             Southern Illinois Bancorp,
1/23/2009                                         w/ Exercised                $5,000,000                                                                                                                                                                                                    $425,403
             Inc., Carmi, IL2
                                                  Warrants

             Southern Missouri Bancorp,           Preferred Stock w/
12/5/2008                                                                     $9,550,000                                                                                               $15.52                   $32.41    $12.53       114,326              $2.99              IN           $809,097
             Inc., Poplar Bluff, MO               Warrants

                                                  Preferred Stock
             SouthFirst Bancshares, Inc.,
6/12/2009                                         w/ Exercised                $2,760,000                                                                                                                                                                                                    $176,744
             Sylacauga, AL2
                                                  Warrants

             Southwest Bancorp, Inc.,             Preferred Stock w/
12/5/2008                                                                    $70,000,000                                                                                               $12.97                 $251.54     $14.92       703,753             ($1.95)          OUT           $5,930,556
             Stillwater, OK                       Warrants

                                                  Preferred Stock
             Sovereign Bancshares, Inc.,
3/13/2009                                         w/ Exercised               $18,215,000                                                                                                                                                                                                  $1,411,897
             Dallas, TX2
                                                  Warrants

                                                  Preferred Stock
             Spirit BankCorp, Inc.,
3/27/2009                                         w/ Exercised               $30,000,000                                                                                                                                                                                                  $2,261,750
             Bristow, OK2
                                                  Warrants

                                                  Preferred Stock
             St. Johns Bancshares, Inc.,
3/13/2009                                         w/ Exercised                $3,000,000                                                                                                                                                                                                    $232,533
             St. Louis, MO2
                                                  Warrants

                                                  Preferred Stock
             Standard Bancshares, Inc.,
4/24/2009                                         w/ Exercised               $60,000,000                                                                                                                                                                                                  $4,278,250
             Hickory Hills, IL2
                                                  Warrants

             State Bancorp, Inc.,                 Preferred Stock w/
12/5/2008                                                                    $36,842,000                                                                                                $8.98                 $149.58     $11.87       465,569             ($2.89)          OUT           $3,121,336
             Jericho, NY                          Warrants

                                                  Preferred Stock
             State Bankshares, Inc.,
1/16/2009                                         w/ Exercised               $50,000,000   8/12/2009      $12,500,000 $37,500,000                                                                                                                                                         $3,676,806
             Fargo, ND2, 4
                                                  Warrants

             State Capital Corporation,           Preferred Stock
2/13/2009    Greenwood, MS2, 4, 7,                w/ Exercised               $15,000,000   9/29/2010      $15,000,000              —    9/29/2010         R           $750,000                                                                                                            $1,330,709
             30 - 9/29/2010, 30a
                                                  Warrants

             State Street Corporation,            Preferred Stock w/
10/28/2008                                                                $2,000,000,000   6/17/2009    $2,000,000,000             —     7/8/2009         R        $60,000,000         $37.66              $18,900.16                                                                    $63,611,111
             Boston, MA5, 9                       Warrants

                                                                                                                                                                                                                                                                               Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
                                                                                            Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                         Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                     Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                     Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                             Subordinated
             Stearns Financial Services,
6/26/2009                                    Debentures w/              $24,900,000                                                                                                                                                                                                   $2,373,461
             Inc., St. Cloud, MN8
                                             Exercised Warrants

                                             Subordinated
             Steele Street Bank
9/25/2009                                    Debentures w/              $11,019,000                                                                                                                                                                                                     $794,792
             Corporation, Denver, CO8, 10
                                             Exercised Warrants

             StellarOne Corporation,         Preferred Stock w/
12/19/2008                                                              $30,000,000                                                                                                $12.72                 $291.25     $14.87       302,623             ($2.15)          OUT           $2,483,333
             Charlottesville, VA             Warrants

             Sterling Bancorp,               Preferred Stock w/
12/23/2008                                                              $42,000,000                                                                                                 $8.69                 $233.25     $12.19       516,817             ($3.50)          OUT           $3,453,333
             New York, NY                    Warrants

             Sterling Bancshares, Inc.,      Preferred Stock w/
12/12/2008                                                            $125,198,000      5/5/2009    $125,198,000               —     6/9/2010         A         $3,007,891          $5.37                 $547.34                                                                     $2,486,571
             Houston, TX4                    Warrants

             Sterling Financial Corporation, Common Stock w/
12/5/2008                                                             $303,000,000                                                                                                  $0.65                 $469.89      $0.20     6,437,677              $0.45              IN         $6,733,333
             Spokane, WA24, i                Warrants

             Stewardship Financial
                                             Preferred Stock w/
1/30/2009    Corporation,                                               $10,000,000                                                                                                 $7.95                  $46.48     $11.24       133,475             ($3.29)          OUT             $770,833
                                             Warrants
             Midland Park, NJg

                                             Preferred Stock
             Stockmens Financial
2/6/2009                                     w/ Exercised               $15,568,000                                                                                                                                                                                                   $1,293,841
             Corporation, Rapid City, SD2
                                             Warrants

                                             Preferred Stock
             Stonebridge Financial Corp.,
1/23/2009                                    w/ Exercised               $10,973,000                                                                                                                                                                                                     $634,609
             West Chester, PA2
                                             Warrants

                                             Subordinated
             Suburban Illinois Bancorp,
6/19/2009                                    Debentures w/              $15,000,000                                                                                                                                                                                                   $1,454,270
             Inc., Elmhurst, IL8
                                             Exercised Warrants

             Summit State Bank, Santa        Preferred Stock w/
12/19/2008                                                               $8,500,000                                                                                                 $6.75                   $32.03     $5.33       239,212              $1.42              IN           $703,611
             Rosa, CA                        Warrants

             Sun Bancorp, Inc.,              Preferred Stock w/
1/9/2009                                                                $89,310,000     4/8/2009     $89,310,000               —    5/27/2009         R         $2,100,000          $5.10                 $143.78                                                                     $1,103,971
             Vineland, NJ4                   Warrants

             SunTrust Banks, Inc.,           Preferred Stock w/
11/14/2008                                                           $3,500,000,000                                                                                                $25.83              $12,913.30     $44.15    11,891,280           ($18.32)           OUT
             Atlanta, GA                     Warrants
                                                                                                                                                                                                                                                                                   $436,631,944
             SunTrust Banks, Inc.,           Preferred Stock w/
12/31/2008                                                           $1,350,000,000                                                                                                $25.83              $12,913.30     $33.70     6,008,902             ($7.87)          OUT
             Atlanta, GA                     Warrants

                                             Trust Preferred
             Superior Bancorp Inc.,
12/5/2008                                    Securities w/              $69,000,000                                                                                                 $0.96                  $12.06      $5.38     1,923,792             ($4.42)          OUT           $4,983,333
             Birmingham, AL17
                                             Warrants

                                             Preferred Stock
             Surrey Bancorp,
1/9/2009                                     w/ Exercised                $2,000,000                                                                                                                                                                                                     $174,400
             Mount Airy, NC2
                                             Warrants

             Susquehanna Bancshares,         Preferred Stock w/
12/12/2008                                                            $300,000,000     4/21/2010    $200,000,000 $100,000,000                                                       $8.44               $1,094.73     $14.86     3,028,264             ($6.42)          OUT          $21,958,333
             Inc, Lititz, PA4                Warrants

                                               Preferred Stock
4/10/2009    SV Financial, Inc., Sterling, IL2 w/ Exercised              $4,000,000                                                                                                                                                                                                     $293,694
                                               Warrants

             SVB Financial Group,            Preferred Stock w/
12/12/2008                                                            $235,000,000    12/23/2009    $235,000,000               —    6/16/2010         R         $6,820,000         $42.32               $1,775.07                                                                    $12,109,028
             Santa Clara, CA5                Warrants

                                          Subordinated
             Sword Financial Corporation,
5/8/2009                                  Debentures w/                 $13,644,000                                                                                                                                                                                                   $1,453,138
             Horicon, WI8
                                          Exercised Warrants

             Synovus Financial Corp.,        Preferred Stock w/
12/19/2008                                                            $967,870,000                                                                                                  $2.46               $1,931.24      $9.36    15,510,737             ($6.90)          OUT          $80,118,128
             Columbus, GA                    Warrants
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I OCTOBER 26, 2010




                                             Preferred Stock
1/16/2009    Syringa Bancorp, Boise, ID2     w/ Exercised                $8,000,000                                                                                                                                                                                                     $253,122
                                             Warrants

                                                                                                                                                                                                                                                                           Continued on next page.
                                                                                                                                                                                                                                                                                                     265
                                                                                                                                                                                                                                                                                                       266
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                 (CONTINued)
                                                                                              Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                            Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                        Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                        Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

             Taylor Capital Group,              Preferred Stock w/
11/21/2008                                                               $104,823,000                                                                                                $11.47                 $210.05     $10.75     1,462,647              $0.72              IN         $9,084,661
             Rosemont, IL                       Warrants

                                                Subordinated
             TCB Corporation,
8/28/2009                                       Debentures w/               $9,720,000                                                                                                                                                                                                    $760,254
             Greenwood, SC8, 10
                                                Exercised Warrants

             TCB Holding Company, Texas Preferred Stock
1/16/2009    Community Bank,            w/ Exercised                       $11,730,000                                                                                                                                                                                                    $690,832
             The Woodlands, TX2         Warrants

             TCF Financial Corporation,         Preferred Stock w/
11/14/2008                                                               $361,172,000    4/22/2009     $361,172,000              —    12/15/2009        A         $9,599,964         $16.19               $2,305.04                                                                     $7,925,719
             Wayzata, MN4                       Warrants

                                                Preferred Stock
             TCNB Financial Corp.,
12/23/2008                                      w/ Exercised                $2,000,000                                                                                                                                                                                                    $179,244
             Dayton, OH2
                                                Warrants

             Tennessee Commerce                 Preferred Stock w/
12/19/2008                                                                 $30,000,000                                                                                                $4.04                   $46.07     $9.75       461,538             ($5.71)          OUT           $2,483,333
             Bancorp, Inc., Franklin, TN        Warrants

             Tennessee Valley Financial         Preferred Stock
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I OCTOBER 26, 2010




12/23/2008   Holdings, Inc.,                    w/ Exercised                $3,000,000                                                                                                                                                                                                    $146,242
             Oak Ridge, TN2                     Warrants

             Texas Capital Bancshares,          Preferred Stock w/
1/16/2009                                                                  $75,000,000   5/13/2009      $75,000,000              —     3/11/2010        A         $6,709,061         $17.27                 $635.14                                                                     $1,218,750
             Inc., Dallas, TX4                  Warrants

             Texas National                Preferred Stock
1/9/2009     Bancorporation, Jacksonville, w/ Exercised                     $3,981,000   5/19/2010       $3,981,000              —     5/19/2010        R           $199,000                                                                                                              $295,308
             TX2, 4, 7                     Warrants

                                                Preferred Stock
             The ANB Corporation,
8/7/2009                                        w/ Exercised               $20,000,000                                                                                                                                                                                                  $1,114,222
             Terrell, TX2
                                                Warrants

             The Bancorp, Inc.,                 Preferred Stock w/
12/12/2008                                                                 $45,220,000   3/10/2010      $45,220,000              —      9/8/2010        R         $4,753,985          $6.69                 $175.15                                                                     $2,813,689
             Wilmington, DE5                    Warrants

                                                Preferred Stock
             The Bank of Currituck,
2/6/2009                                        w/ Exercised                $4,021,000                                                                                                                                                                                                    $169,834
             Moyock, NC2
                                                Warrants

             The Bank of Kentucky
                                                Preferred Stock w/
2/13/2009    Financial Corporation,                                        $34,000,000                                                                                               $16.10                   $91.24    $18.56       274,784             ($2.46)          OUT           $2,559,444
                                                Warrants
             Crestview Hills, KY

             The Bank of New York Mellon Preferred Stock w/
10/28/2008                                                              $3,000,000,000   6/17/2009    $3,000,000,000             —      8/5/2009        R       $136,000,000         $26.13              $31,722.92                                                                    $95,416,667
             Corporation, New York, NY4 Warrants

                                         Preferred Stock
             The Baraboo Bancorporation,
1/16/2009                                w/ Exercised                      $20,749,000                                                                                                                                                                                                  $1,787,262
             Baraboo, WI2
                                         Warrants

             The Connecticut Bank and    Preferred Stock w/
12/19/2008                                                                  $5,448,000                                                                                                $5.00                   $17.84     $4.65       175,742              $0.35              IN           $272,400
             Trust Company, Hartford, CT Warrants

             The Elmira Savings Bank,           Preferred Stock w/
12/19/2008                                                                  $9,090,000                                                                                               $16.19                   $31.08    $11.70       116,538              $4.49              IN           $752,450
             FSB, Elmira, NY                    Warrants

             The First Bancorp, Inc.,           Preferred Stock w/
1/9/2009                                                                   $25,000,000                                                                                               $13.83                 $135.02     $16.60       225,904             ($2.77)          OUT           $2,000,000
             Damariscotta, ME                   Warrants

             The First Bancshares, Inc.,        Preferred Stock w/
2/6/2009                                                                    $5,000,000   9/29/2010       $5,000,000              —                                                    $9.98                  $30.14     $13.71        54,705             ($3.73)          OUT             $411,806
             Hattiesburg, MS4, 30 - 9/29/2010   Warrants

                                                Preferred Stock
             The Freeport State Bank,
2/6/2009                                        w/ Exercised                 $301,000                                                                                                                                                                                                       $8,610
             Harper, KS2
                                                Warrants

             The Goldman Sachs Group,           Preferred Stock w/
10/28/2008                                                             $10,000,000,000   6/17/2009 $10,000,000,000               —     7/22/2009        R     $1,100,000,000        $144.58              $74,547.83                                                                  $318,055,555
             Inc., New York, NY4                Warrants

                                                Preferred Stock
             The Landrum Company,
5/22/2009                                       w/ Exercised               $15,000,000                                                                                                                                                                                                  $1,005,979
             Columbia, MO2
                                                Warrants

                                                                                                                                                                                                                                                                             Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                   (CONTINued)
                                                                                                Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                              Capital         Capital       Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                          Investment                               Repayment       Repayment          Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                          Description          Investment Amount        Date          Amount          Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                            Preferred Stock
             The Little Bank, Incorporated,
12/23/2008                                  w/ Exercised                      $7,500,000                                                                                                                                                                                                    $672,167
             Kinston, NC2
                                            Warrants

             The PNC Financial Services           Preferred Stock w/
12/31/2008                                                                $7,579,200,000   2/10/2010    $7,579,200,000             —    4/29/2010         A       $324,195,686         $51.91              $27,273.51                                                                  $421,066,667
             Group Inc., Pittsburgh, PA4          Warrants

                                             Preferred Stock
             The Private Bank of California,
2/20/2009                                    w/ Exercised                     $5,450,000                                                                                                                                                                                                    $441,479
             Los Angeles, CA2
                                             Warrants

                                                  Preferred Stock
             The Queensborough
1/9/2009                                          w/ Exercised               $12,000,000                                                                                                                                                                                                    $882,900
             Company, Louisville, GA2
                                                  Warrants

                                                  Subordinated
             The State Bank of Bartley,
9/4/2009                                          Debentures w/               $1,697,000                                                                                                                                                                                                    $130,439
             Bartley, NE8, 10
                                                  Exercised Warrants

                                                  Preferred Stock
             The Victory Bancorp, Inc.,
12/11/2009                                        w/ Exercised                $1,505,000
             Limerick, PA2, 10a
                                                  Warrants
                                                                                                                                                                                                                                                                                             $96,315
             The Victory Bancorp, Inc.(The Preferred Stock
2/27/2009    Victory Bank), Limerick, PA2, w/ Exercised                        $541,000
             13 - 12/4/2009
                                           Warrants

             Three Shores Bancorporation, Preferred Stock
1/23/2009    Inc. (Seaside National Bank & w/ Exercised                       $5,677,000                                                                                                                                                                                                    $483,024
             Trust), Orlando, FL2, 13 - 12/4/2009 Warrants

             TIB Financial Corp, Naples,          Preferred Stock w/
12/5/2008                                                                    $37,000,000   9/30/2010      $12,119,637              —    9/30/2010         R            $40,000          $0.40                    $5.96                                                                    $1,284,722
             FL32 - 9/30/2010                     Warrants

             Tidelands Bancshares, Inc,           Preferred Stock w/
12/19/2008                                                                   $14,448,000                                                                                                $1.25                    $5.37     $3.79       571,821             ($2.54)          OUT           $1,195,973
             Mt. Pleasant, SC                     Warrants

                                                  Preferred Stock
             Tifton Banking Company,
4/17/2009                                         w/ Exercised                $3,800,000                                                                                                                                                                                                    $223,208
             Tifton, GA2
                                                  Warrants

             Timberland Bancorp, Inc.,            Preferred Stock w/
12/23/2008                                                                   $16,641,000                                                                                                $4.04                   $28.46     $6.73       370,899             ($2.69)          OUT             $952,236
             Hoquiam, WA                          Warrants

                                                  Preferred Stock
             Titonka Bancshares, Inc,
4/3/2009                                          w/ Exercised                $2,117,000                                                                                                                                                                                                    $157,700
             Titonka, IA2
                                                  Warrants

                                                  Preferred Stock
             Todd Bancshares, Inc.,
2/6/2009                                          w/ Exercised                $4,000,000                                                                                                                                                                                                    $332,450
             Hopkinsville, KY2
                                                  Warrants

                                                  Preferred Stock w/
12/12/2008   TowneBank, Portsmouth, VA                                       $76,458,000                                                                                               $14.96                 $418.33     $21.31       538,184             ($6.35)          OUT           $6,403,358
                                                  Warrants

                                                  Preferred Stock
             Treaty Oak Bancorp, Inc.,
1/16/2009                                         w/ Exercised                $3,268,000                                                                                                                                                                                                    $192,415
             Austin, TX2
                                                  Warrants

                                                  Preferred Stock
             Triad Bancorp, Inc.,
3/27/2009                                         w/ Exercised                $3,700,000                                                                                                                                                                                                    $278,950
             Frontenac, MO2
                                                  Warrants

                                                  Preferred Stock
             Tri-County Financial
12/19/2008                                        w/ Exercised               $15,540,000                                                                                                                                                                                                  $1,402,140
             Corporation, Waldorf, MD2
                                                  Warrants

                                                  Preferred Stock
             Trinity Capital Corporation,
3/27/2009                                         w/ Exercised               $35,539,000                                                                                                                                                                                                  $2,195,131
             Los Alamos, NM2
                                                  Warrants

             Tri-State Bank of Memphis,
4/3/2009                                          Preferred Stock             $2,795,000   8/13/2010       $2,795,000              —                                                                                                                                                        $190,215
                                                                                                                                                                                                                                                                                                         Transaction detail I Appendix D I OCTOBER 26, 2010




             Memphis, TN2, 3, 4, 30 - 8/13/2010

                                              Preferred Stock
             TriState Capital Holdings, Inc.,
2/27/2009                                     w/ Exercised                   $23,000,000                                                                                                                                                                                                  $1,842,643
             Pittsburgh, PA2
                                              Warrants

                                                                                                                                                                                                                                                                               Continued on next page.
                                                                                                                                                                                                                                                                                                         267
                                                                                                                                                                                                                                                                                                    268
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                           Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                        Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                    Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                    Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                            Preferred Stock
             TriSummit Bank,
4/3/2009                                    w/ Exercised                $2,765,000
             Kingsport, TN2
                                            Warrants
                                                                                                                                                                                                                                                                                       $343,030
             TriSummit Bank,
12/22/2009                                  Preferred Stock             $4,237,000
             Kingsport, TN2, 10a

             Trustmark Corporation,         Preferred Stock w/
11/21/2008                                                           $215,000,000     12/9/2009    $215,000,000               —    12/30/2009        R        $10,000,000         $21.74               $1,388.86                                                                    $11,287,500
             Jackson, MS4                   Warrants

                                            Preferred Stock
             Two Rivers Financial Group,
5/29/2009                                   w/ Exercised               $12,000,000                                                                                                                                                                                                     $792,067
             Burlington, IA2
                                            Warrants

             U.S. Bancorp,                  Preferred Stock w/
11/14/2008                                                          $6,599,000,000    6/17/2009   $6,599,000,000              —     7/15/2009        R       $139,000,000         $21.62              $41,449.02                                                                  $195,220,417
             Minneapolis, MN4               Warrants

                                            Preferred Stock
             U.S. Century Bank,
8/7/2009                                    w/ Exercised               $50,236,000                                                                                                                                                                                                     $745,312
             Miami, FL2
                                            Warrants

                                            Preferred Stock
             UBT Bancshares, Inc.,
                                                                                                                                                                                                                                                                                                    Appendix D I Transaction Detail I OCTOBER 26, 2010




1/30/2009                                   w/ Exercised                $8,950,000                                                                                                                                                                                                     $752,334
             Marysville, KS2
                                            Warrants

             UCBH Holdings, Inc.,           Preferred Stock w/
11/14/2008                                                           $298,737,000                                                                                                  $0.01                    $1.45     $5.71     7,847,732             ($5.70)          OUT           $7,509,920
             San Francisco, CA14            Warrants

             Umpqua Holdings Corp.,         Preferred Stock w/
11/14/2008                                                           $214,181,000     2/17/2010    $214,181,000               —     3/31/2010        R         $4,500,000         $11.34               $1,298.71                                                                    $13,475,555
             Portland, OR5, 9               Warrants

                                         Preferred Stock
             Union Bank & Trust Company,
5/1/2009                                 w/ Exercised                   $3,194,000
             Oxford, NC2
                                         Warrants
                                                                                                                                                                                                                                                                                       $323,047
             Union Bank & Trust Company,
12/18/2009                               Preferred Stock                $2,997,000
             Oxford, NC2, 10a

                                            Preferred Stock
             Union Financial Corporation,
12/29/2009                                  w/ Exercised                $2,179,000                                                                                                                                                                                                      $72,069
             Albuquerque, NM2, 10
                                            Warrants

             Union First Market Bankshares
             Corporation (First Market
2/6/2009                                   Preferred Stock             $33,900,000                                                                                                                                                                                                   $1,821,889
             Bank, FSB), Bowling Green,
             VA18

             Union First Market Bankshares
             Corporation (Union            Preferred Stock w/
12/19/2008                                                             $59,000,000   11/18/2009     $59,000,000               —    12/23/2009        R           $450,000         $13.06                 $338.70                                                                  $3,691,597.12
             Bankshares Corporation),      Warrants
             Bowling Green, VA5, 9, 18

                                            Preferred Stock
             United American Bank,
2/20/2009                                   w/ Exercised                $8,700,000                                                                                                                                                                                                            —
             San Mateo, CA2
                                            Warrants

             United Bancorp, Inc.,          Preferred Stock w/
1/16/2009                                                              $20,600,000                                                                                                 $3.65                   $18.55     $9.92       311,492             ($6.27)          OUT           $1,627,972
             Tecumseh, MI                   Warrants

             United Bancorporation of
                                            Preferred Stock w/
12/23/2008   Alabama, Inc., Atmore, AL4,                               $10,300,000     9/3/2010     $10,300,000               —                                                                           $11.83     $14.41       107,193           ($14.41)           OUT             $872,639
             30 - 9/3/2010, g               Warrants

                                            Subordinated
             United Bank Corporation,
5/22/2009                                   Debentures w/              $14,400,000                                                                                                                                                                                                   $1,486,711
             Barnesville, GA8
                                            Exercised Warrants

             United Community Banks, Inc., Preferred Stock w/
12/5/2008                                                            $180,000,000                                                                                                  $2.24                 $211.29     $12.28     1,099,542           ($10.04)           OUT          $15,250,000
             Blairsville, GAf              Warrants

                                          Preferred Stock
             United Financial Banking
1/16/2009                                 w/ Exercised                  $5,658,000                                                                                                                                                                                                     $487,396
             Companies, Inc., Vienna, VA2
                                          Warrants

             Unity Bancorp, Inc.,           Preferred Stock w/
12/5/2008                                                              $20,649,000                                                                                                 $5.25                   $37.67     $4.05       764,778              $1.20              IN         $1,749,430
             Clinton, NJ                    Warrants

                                                                                                                                                                                                                                                                          Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
                                                                                            Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                         Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                     Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                     Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                             Preferred Stock
             Universal Bancorp,
5/22/2009                                    w/ Exercised                $9,900,000                                                                                                                                                                                                     $663,946
             Bloomfield, IN2
                                             Warrants

             University Financial Corp, Inc., Subordinated
6/19/2009                                                               $11,926,000    7/30/2010     $11,926,000               —                                                                                                                                                      $1,022,886
             St. Paul, MN3, 4, 8, 30 - 7/30/2010 Debentures

                                             Preferred Stock
             US Metro Bank,
2/6/2009                                     w/ Exercised                $2,861,000                                                                                                                                                                                                     $237,778
             Garden Grove, CA2
                                             Warrants

                                             Preferred Stock
             Uwharrie Capital Corp,
12/23/2008                                   w/ Exercised               $10,000,000                                                                                                                                                                                                     $896,222
             Albemarle, NC2
                                             Warrants

                                             Preferred Stock
             Valley Commerce Bancorp,
1/30/2009                                    w/ Exercised                $7,700,000                                                                                                                                                                                                     $646,961
             Visalia, CA2
                                             Warrants

                                             Preferred Stock
             Valley Community Bank,
1/9/2009                                     w/ Exercised                $5,500,000                                                                                                                                                                                                     $479,601
             Pleasanton, CA2
                                             Warrants

             Valley Financial Corporation,   Preferred Stock w/
12/12/2008                                                              $16,019,000                                                                                                 $3.65                   $17.08     $6.97       344,742             ($3.32)          OUT             $941,117
             Roanoke, VA                     Warrants

                                           Preferred Stock
             Valley Financial Group, Ltd.,
12/18/2009                                 w/ Exercised                  $1,300,000                                                                                                                                                                                                      $46,643
             1st State Bank, Saginaw, MI2
                                           Warrants

             Valley National Bancorp,        Preferred Stock w/
11/14/2008                                                                              6/3/2009     $75,000,000 $225,000,000        5/18/2010        A         $5,571,592
             Wayne, NJ4                      Warrants

             Valley National Bancorp,        Preferred Stock w/
11/14/2008                                                            $300,000,000     9/23/2009    $125,000,000 $100,000,000                                                      $12.90               $2,078.46                                                                    $12,979,167
             Wayne, NJ4                      Warrants

             Valley National Bancorp,        Preferred Stock w/
11/14/2008                                                                            12/23/2009    $100,000,000               —
             Wayne, NJ4                      Warrants

             Village Bank and Trust         Preferred Stock w/
5/1/2009                                                                $14,738,000                                                                                                 $1.45                    $6.15     $4.43       499,029             ($2.98)          OUT             $949,782
             Financial Corp, Midlothian, VA Warrants

             Virginia Commerce Bancorp,      Preferred Stock w/
12/12/2008                                                              $71,000,000                                                                                                 $4.86                 $140.25      $3.95     2,696,203              $0.91              IN         $5,946,250
             Arlington, VA                   Warrants

                                             Preferred Stock
             Virginia Company Bank,
6/12/2009                                    w/ Exercised                $4,700,000                                                                                                                                                                                                     $291,247
             Newport News, VA2, 10
                                             Warrants

                                             Preferred Stock
             Vision Bank - Texas,
4/24/2009                                    w/ Exercised                $1,500,000                                                                                                                                                                                                     $106,957
             Richardson, TX2
                                             Warrants

             VIST Financial Corp.,           Preferred Stock w/
12/19/2008                                                              $25,000,000                                                                                                 $7.08                  $46.07     $10.19       367,984             ($3.11)          OUT           $2,069,444
             Wyomissing, PAh                 Warrants

                                           Preferred Stock
             W.T.B. Financial Corporation,
1/30/2009                                  w/ Exercised               $110,000,000                                                                                                                                                                                                    $9,242,291
             Spokane, WA2
                                           Warrants

                                           Preferred Stock
             Wachusett Financial Services,
12/11/2009                                 w/ Exercised                 $12,000,000                                                                                                                                                                                                     $435,825
             Inc., Clinton, MA2, 10
                                           Warrants

             Wainwright Bank & Trust         Preferred Stock w/
12/19/2008                                                              $22,000,000   11/24/2009     $22,000,000               —    12/16/2009        R           $568,700         $18.83                 $138.44                                                                     $1,023,611
             Company, Boston, MA4            Warrants

             Washington Banking              Preferred Stock w/
1/16/2009                                                               $26,380,000                                                                                                $13.86                 $212.18      $8.04       246,082              $5.82              IN         $2,084,753
             Company, Oak Harbor, WAb        Warrants

             Washington Federal, Inc.,       Preferred Stock w/
11/14/2008                                                            $200,000,000     5/27/2009    $200,000,000               —      3/9/2010        A        $15,623,222         $15.28               $1,718.60                                                                     $5,361,111
             Seattle, WA4                    Warrants
                                                                                                                                                                                                                                                                                                     Transaction detail I Appendix D I OCTOBER 26, 2010




             WashingtonFirst Bankshares,
10/30/2009                               Preferred Stock                 $6,842,000
             Inc., Reston, VA2, 10a
                                                                                                                                                                                                                                                                                        $828,188
             WashingtonFirst Bankshares, Preferred Stock
1/30/2009    Inc. (WashingtonFirst Bank), w/ Exercised                   $6,633,000
             Reston, VA2, 13 - 10/30/2009 Warrants
                                                                                                                                                                                                                                                                                                     269




                                                                                                                                                                                                                                                                           Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)                                                                                                                                                                                                    270
                                                                                              Capital Repayment Details                                      Final Disposition                                          Warrant and Market Data for Publicly Traded Companies



                                                                                           Capital         Capital        Remaining         Final                        Final   Stock Price   Market Capitalization    Current       Current   Amount “In the                             Interest/
Purchase                                       Investment                               Repayment       Repayment           Capital   Disposition                  Disposition         as of      as of 9/30/2010        Strike   Outstanding Money” or “Out of    In or Out of     Dividends Paid
Date         Institution                       Description          Investment Amount        Date          Amount           Amount          Date    Note15          Proceeds     9/30/2010              (in millions)    Pricea     Warrantsa     the Money”e      the Moneye           to Treasury

                                               Preferred Stock
             Waukesha Bankshares, Inc.,
6/26/2009                                      w/ Exercised                $5,625,000                                                                                                                                                                                                     $336,811
             Waukesha, WI2, 10
                                               Warrants

             Webster Financial                 Preferred Stock w/
11/21/2008                                                              $400,000,000      3/3/2010    $100,000,000 $300,000,000                                                      $17.56               $1,378.00     $18.28     3,282,276             ($0.72)          OUT          $32,416,667
             Corporation, Waterbury, CT4       Warrants

             Wells Fargo & Company,            Preferred Stock w/
10/28/2008                                                            $25,000,000,000   12/23/2009 $25,000,000,000               —     5/20/2010        A       $849,014,998         $25.12             $131,437.47                                                                $1,440,972,222
             San Francisco, CA4                Warrants

             WesBanco, Inc.,                   Preferred Stock w/
12/5/2008                                                                 $75,000,000     9/9/2009     $75,000,000               —    12/23/2009        R           $950,000         $16.34                 $434.43                                                                     $2,854,167
             Wheeling, WV4                     Warrants

             West Bancorporation, Inc.,        Preferred Stock w/
12/31/2008                                                                $36,000,000                                                                                                 $6.30                 $109.65     $11.39       474,100             ($5.09)          OUT           $2,925,000
             West Des Moines, IA               Warrants

             Westamerica Bancorporation, Preferred Stock w/
2/13/2009                                                                                 9/2/2009     $41,863,000 $41,863,000
             San Rafael, CA4             Warrants

                                                                          $83,726,000                                                                                                $54.49               $1,587.96     $50.92       246,640              $3.57              IN         $2,755,981
             Westamerica Bancorporation, Preferred Stock w/
2/13/2009                                                                               11/18/2009     $41,863,000               —
             San Rafael, CA4             Warrants
                                                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I OCTOBER 26, 2010




             Western Alliance
                                               Preferred Stock w/
11/21/2008   Bancorporation,                                            $140,000,000                                                                                                  $6.70                 $538.86     $13.34       787,107             ($6.64)          OUT          $12,133,333
                                               Warrants
             Las Vegas, NVb

             Western Community                 Preferred Stock
12/23/2008   Bancshares, Inc., Palm            w/ Exercised                $7,290,000                                                                                                                                                                                                     $554,083
             Desert, CA2                       Warrants

                                               Preferred Stock
             Western Illinois Bancshares
12/23/2008                                     w/ Exercised                $6,855,000
             Inc., Monmouth, IL2
                                               Warrants
                                                                                                                                                                                                                                                                                          $757,751
             Western Illinois Bancshares
12/29/2009                                     Preferred Stock             $4,567,000
             Inc., Monmouth, IL2, 10a

                                               Preferred Stock
             Western Reserve Bancorp,
5/15/2009                                      w/ Exercised                $4,700,000                                                                                                                                                                                                     $320,188
             Inc, Medina, OH2
                                               Warrants

                                               Preferred Stock
             White River Bancshares
2/20/2009                                      w/ Exercised               $16,800,000                                                                                                                                                                                                   $1,360,683
             Company, Fayetteville, AR2
                                               Warrants

             Whitney Holding Corporation, Preferred Stock w/
12/19/2008                                                              $300,000,000                                                                                                  $8.17                 $789.52     $17.10     2,631,579             ($8.93)          OUT          $24,833,333
             New Orleans, LA              Warrants

             Wilmington Trust Corporation, Preferred Stock w/
12/12/2008                                                              $330,000,000                                                                                                  $8.98                 $822.06     $26.66     1,856,714           ($17.68)           OUT          $27,637,500
             Wilmington, DE                Warrants

             Wilshire Bancorp, Inc.,           Preferred Stock w/
12/12/2008                                                                $62,158,000                                                                                                 $6.54                 $192.84      $9.82       949,460             ($3.28)          OUT           $5,205,733
             Los Angeles, CA                   Warrants

             Wintrust Financial Corporation, Preferred Stock w/
12/19/2008                                                              $250,000,000                                                                                                 $32.41               $1,008.44     $22.82     1,643,295              $9.59              IN        $20,694,444
             Lake Forest, IL                 Warrants

                                               Preferred Stock
             Worthington Financial
5/15/2009                                      w/ Exercised                $2,720,000                                                                                                                                                                                                     $185,300
             Holdings, Inc., Huntsville, AL2
                                               Warrants

             WSFS Financial Corporation,       Preferred Stock w/
1/23/2009                                                                 $52,625,000                                                                                                $37.51                 $266.96     $45.08       175,105             ($7.57)          OUT           $4,107,674
             Wilmington, DE                    Warrants

             Yadkin Valley Financial           Preferred Stock w/
1/16/2009                                                                 $36,000,000                                                                                                 $2.58                   $41.65    $13.99       385,990           ($11.41)           OUT
             Corporation, Elkin, NC            Warrants
                                                                                                                                                                                                                                                                                        $3,549,427
             Yadkin Valley Financial           Preferred Stock w/
7/24/2009                                                                 $13,312,000                                                                                                 $2.58                   $41.65     $7.30       273,534             ($4.72)          OUT
             Corporation, Elkin, NC            Warrants

                                                                                                                                                                                                                                                                             Continued on next page.
 CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                        (CONTINued)
                                                                                                       Capital Repayment Details                                                    Final Disposition                                                  Warrant and Market Data for Publicly Traded Companies



                                                                                                   Capital             Capital       Remaining             Final                                 Final      Stock Price     Market Capitalization      Current         Current   Amount “In the                                    Interest/
Purchase                                         Investment                                     Repayment           Repayment          Capital       Disposition                           Disposition            as of        as of 9/30/2010          Strike     Outstanding Money” or “Out of         In or Out of       Dividends Paid
Date              Institution                    Description           Investment Amount             Date              Amount          Amount              Date            Note15           Proceeds        9/30/2010                (in millions)      Pricea       Warrantsa     the Money”e           the Moneye             to Treasury

                                                 Preferred Stock
                  York Traditions Bank,
4/24/2009                                        w/ Exercised                  $4,871,000                                                                                                                                                                                                                                         $347,376
                  York, PA2
                                                 Warrants

                  Zions Bancorporation,          Preferred Stock w/
11/14/2008                                                                $1,400,000,000                                                                                                                          $21.36                $3,784.97       $36.27       5,789,909               ($14.91)             OUT        $122,694,444
                  Salt Lake City, UT             Warrants




                                                                                              Total Capital                                                                Total
                                          Total Purchase Amount* $204,940,341,320              Repayment       $152,790,392,391                                          Warrant     $6,904,074,066
                                                                                                Amount**                                                           Proceeds****

                                                                                           Total Losses*** ($2,575,821,144)


                                                                      TOTAL TREASURY CPP INVESTMENT
                                                                                                    $49,574,127,785
                                                                                AMOUNT OUTSTANDING


Notes: Numbers may not total due to rounding. Data as of 10/3/2010. Numeric notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report. All amounts and totals reflect cumulative receipts since inception through 10/3/2010.

*Total purchase amount includes the capitalization of accrued dividends referred to in Notes 20, 22, and 28.
**Total repaid includes (i) the amount of $13,354,158,535 applied as repayment under the Capital Purchase Program from the total proceeds of $16,368,709,569 received pursuant to the sales of Citigroup, Inc. common stock as of September 30, 2010 (see Note 23 and “Capital Purchase Program - Citigroup Common Stock
Disposition” on following pages) and (ii) the amount of $363,290,000 repaid by institutions that have completed exchanges for investments under the Community Development Capital Initiative (see Note 30 and “Community Development Capital Initiative” on following pages).
***Losses include (i) the investment amount for institutions that have completed bankruptcy proceedings (see Notes 16 and 19) and (ii) the investment amount less the amount of final proceeds for institutions where Treasury has completed a sale (see Notes 26 and 32), but excludes investment amounts for institutions that have
pending receivership or bankruptcy proceedings (see Notes 14 and 25).
****Total warrant proceeds includes $7,566,000, which represents the total amount of warrants that were included in nine institutions’ exchange into the CDCI program (see Note 30a).

1a 	This transaction was included in previous Transaction Reports with Merrill Lynch & Co., Inc. listed as the qualifying institution and a 10/28/2008 transaction date, footnoted to indicate that settlement was deferred pending merger. The purchase of Merrill Lynch by Bank of America was completed on 1/1/2009, and this transac-
    tion under the CPP was funded on 1/9/2009.
1b 	The warrant disposition proceeds amount are stated pro rata in respect of the CPP investments in Bank of America Corporation that occurred on 10/28/2008 and 1/9/2009. The total gross disposition proceeds from CPP warrants on 3/3/2010 was $310,571,615, consisting of $186,342,969 and $124,228,646. Proceeds
    from the disposition of TIP warrants on 3/3/2010 appear on a following page of this report.
2 	 Privately-held qualified financial institution; Treasury received a warrant to purchase additional shares of preferred stock (unless the institution is a CDFI), which it exercised immediately.
3 	To promote community development financial institutions (CDFIs), Treasury does not require warrants as part of its investment in certified CDFIs when the size of the investment is $50 million or less.
3a 	Treasury cancelled the warrants received from this institution due to its designation as a CDFI.
4 	Repayment pursuant to Title VII, Section 7001(g) of the American Recovery and Reinvestment Act of 2009.
5 	Redemption pursuant to a qualified equity offering.
6 	This amount does not include accrued and unpaid dividends, which must be paid at the time of capital repayment.
7 	The proceeds associated with the disposition of this investment do not include accrued and unpaid dividends.
8 	Subchapter S corporation; Treasury received a warrant to purchase additional subordinated debentures (unless the institution is a CDFI), which it exercised immediately.
9 	 In its qualified equity offering, this institution raised more capital than Treasury’s original investment, therefore, the number of Treasury’s shares underlying the warrant was reduced by half.
10 	This institution participated in the expansion of CPP for small banks.
10a This institution received an additional investment through the expansion of CPP for small banks.
11 	Treasury made three separate investments in Citigroup Inc. (Citigroup) under the CPP, Targeted Investment Program (TIP), and Asset Guarantee Program (AGP) for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange up to $25 billion of Treasury’s investment in Fixed Rate Cumulative
    Perpetual Preferred Stock, Series H (CPP Shares) “dollar for dollar” in Citigroup’s Private and Public Exchange Offerings. On 7/23/2009 and 7/30/2009, Treasury exchanged a total of $25 billion of the CPP shares for Series M Common Stock Equivalent (“Series M”) and a warrant to purchase shares of Series M. On 9/11/2009,
    Series M automatically converted to 7,692,307,692 shares of common stock and the associated warrant terminated on receipt of certain shareholder approvals.
12 	On 8/24/2009, Treasury exchanged its Series C Preferred Stock issued by Popular, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Popular Capital Trust III, administrative trustee for Popular, Inc. Popular, Inc. paid a $13 million exchange fee in connection with this transaction.
13 	This institution converted to a bank holding company structure and Treasury exchanged its securities for a like amount of securities that comply with the CPP terms applicable to bank holding companies. The institution in which Treasury’s original investment was made is shown in parentheses.
14 	As of the date of this report, this institution is in bankruptcy proceedings.
15 	For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
16 	On 12/10/2009, the bankruptcy reorganization plan of CIT Group Inc. became effective and Treasury’s preferred stock and warrant investment were extinguished and replaced by Contingent Value Rights (CVRs). On 2/8/2010, the CVRs expired without value as the terms and conditions for distribution of common shares to hold-
    ers of CVRs were not met.
17 	On 12/11/2009, Treasury exchanged its Series A Preferred Stock issued by Superior Bancorp, Inc. for a like amount of non tax-deductible Trust Preferred Securities issued by Superior Capital Trust II, administrative trustee for Superior Bancorp.
18 	On 2/1/2010, following the acquisition of First Market Bank (First Market) by Union Bankshares Corporation (the acquiror), the preferred stock and exercised warrants issued by First Market on 2/6/2009 were exchanged for a like amount of securities of the acquiror in a single series but with a blended dividend rate equivalent to
    those of Treasury’s original investment.
19 	On 2/11/2010, Pacific Coast National Bancorp dismissed its bankruptcy proceedings with no recovery to any creditors or investors, including Treasury, and the investment was extinguished.
20 	On 3/8/2010, Treasury exchanged its $84,784,000 of Preferred Stock in Midwest Banc Holdings, Inc. (MBHI) for $89,388,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $84,784,000, plus $4,604,000 of capitalized previously accrued and unpaid dividends. Subject
    to the fulfillment by MBHI of the conditions related to its capital plan, the MCP may be converted to common stock.
21 	On 3/30/2010, Treasury exchanged its $7,500,000 of Subordinated Debentures in GulfSouth Private Bank for an equivalent amount of Preferred Stock, in connection with its conversion from a Subchapter S-Corporation, that comply with the CPP terms applicable to privately held qualified financial institutions.
22	On 4/16/2010, Treasury exchanged its $72,000,000 of Preferred Stock in Independent Bank Corporation (Independent) for $74,426,000 of Mandatory Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $72,000,000, plus $2,426,000 of capitalized previously accrued and unpaid dividends.
    Subject to the fulfillment by Independent of the conditions related to its capital plan, the MCP may be converted to common stock.
23	Treasury received Citigroup common stock pursuant to the June 2009 Exchange Agreement between Treasury and Citigroup which provided for the exchange into common shares of the preferred stock that Treasury purchased in connection with Citigroup’s participation in the Capital Purchase Program (see note 11). On April 26,
    2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion of the sale under this
    authority occurred on May 26, 2010. On May 26, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on June 30, 2010 (or on completion of the sale). Completion
    of the sale under this authority occurred on June 30, 2010. On July 23, 2010, Treasury again gave Morgan Stanley discretionary authority as its sales agent to sell subject to certain parameters up to 1,500,000,000 shares of the common stock from time to time during the period ending on September 30, 2010 (or on comple-
    tion of the sale). Completion of the sale under this authority occurred on September 30, 2010. All such sales were generally made at the market price. See “Capital Purchase Program - Citigroup, Inc., Common Stock Disposition” on following page for the actual number of shares sold by Morgan Stanley, the weighted average
    price per share and the total proceeds to Treasury from all such sales during those periods.
                                                                                                                                                                                                                                                                                                                                                Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                                                                                                                                                                                                                 Continued on next page.
                                                                                                                                                                                                                                                                                                                                                271
CPP TRANSACTION DETAIL, AS OF 9/30/2010                                                        (CONTINued)                                                                                                                                                                                                                                 272
4	On 8/26/2010, Treasury completed the exchange of its $303,000,000 of Preferred Stock in Sterling Financial Corporation (Sterling) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Sterling entered into on 4/29/2010. Since
    Sterling also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, including those related to its capital plan, Treasury’s $303,000,000 of MCP was subsequently converted into 378,750,000 shares of common stock.
25	As of the date of this report, the banking subsidiary of this institution has been placed in receivership and the subsidiary’s assets and liabilities were ordered to be sold to another bank.
26	On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by South Financial Group, Inc. to Toronto-Dominion Bank (TD) at an aggregate purchase price of $130,179,218.75 for the Preferred Stock and $400,000 for the Warrants, pursuant to the terms of the agreement between Treasury and
    TD entered into on 5/18/2010.
27	On 6/30/2010, Treasury exchanged $46,400,000 of its Series A Preferred Stock in First Merchants Corporation for a like amount of non tax-deductible Trust Preferred Securities issued by First Merchants Capital Trust III.
28	On 7/20/2010, Treasury completed the exchange of its $400,000,000 of Preferred Stock in First BanCorp for $424,174,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of $400,000,000, plus $24,174,000 of capitalized previously accrued and unpaid dividends.
    Subject to the fulfillment by First BanCorp of certain conditions, including those related to its capital plan, the MCP may be converted to common stock.
29	On 8/31/2010, following the completion of the conditions related to Pacific Capital Bancorp’s (Pacific Capital) capital plan, Treasury exchanged its $180,634,000 of Preferred Stock in Pacific Capital for $195,045,000 of Mandatorily Convertible Preferred Stock (MCP), which is equivalent to the initial investment amount of
    $180,634,000, plus $14,411,000 of capitalized previously accrued and unpaid dividends. On 9/27/2010, following the completion of the conversion conditions set forth in the Certificate of Designations for the MCP, all of Treasury’s MCP was converted into 360,833,250 shares of common stock of Pacific Capital.
30	This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has completed an exchange of its Capital Purchase Program investment for an investment under the terms of the CDCI program. See “Community Development Capital Initiative” below.
30a	At the time of this institution’s exchange into the CDCI program, the warrant preferreds were included in the total amount of preferred stock exchanged for Treasury’s CDCI investment. Therefore this disposition amount does not represent cash proceeds to Treasury.
31	On 9/30/2010, Treasury completed the exchange of its $ 80,347,000 of Preferred Stock in Hampton Roads Bankshares, Inc. (Hampton) for a like amount of Mandatorily Convertible Preferred Stock (MCP), pursuant to the terms of the exchange agreement between Treasury and Hampton entered into on 8/12/2010. Since
    Hampton also fulfilled the conversion conditions set forth in the Certificate of Designations for the MCP, Treasury’s $80,347,000 of MCP was subsequently converted into 52,225,550 shares of common stock.
32	On 9/30/2010, Treasury completed the sale of all Preferred Stock and Warrants issued by TIB Financial Corp. to North American Financial Holdings, Inc. (NAFH) at an aggregate purchase price of $12,119,637.37 for the Preferred Stock and $40,000 for the Warrants, pursuant to the terms of the agreement between
    Treasury and NAFH entered into on 9/24/2010.
a 	According to Treasury, “if a Share Dividend is declared on a common stock of a bank in which Treasury holds outstanding warrants, Treasury is entitled to additional warrants. The ‘Update’ netted is the amount of new warrant shares that have been received as a result of the corporate action.” Thus, the strike price presented
    reflects these adjustments provided by Treasury. It appears that Treasury also adjusts the number of shares based on corporate actions as well. Those adjustments are also presented in the current number of outstanding warrants. Amounts are presented as of 10/3/2010.
b 	According to Treasury, these institutions executed Qualified Equity Offerings which “reduce the number of outstanding warrants held by Treasury.”
c 	Treasury made more than one investment in these institutions. For purposes of this table, income (dividends and interest), is presented on a combined basis because it could not be split between the two transactions based on the data provided by Treasury.
d 	According to Treasury, M&T acquired Provident, therefore “warrant details changed as per the conversion ratio.” The previous investment in Provident now reflects M&T market data above.
e 	 When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
f 	According to Treasury, these institutions warrant was modified via Qualified Equity Offerings and Stock Dividend.
g 	According to Treasury, these institutions warrants were increased via Stock Dividend.
h	According to Treasury, these institutions warrants were increased via Stock Issuance.
i	According to Treasury, these institutions converted their warrants from Preferred to Mandatory Convertable Prefferred.
j	According to Treasury, these institutions executed a 1 to 10 reverse stock split.


Sources: Treasury, Transaction Report, 10/4/2010; Treasury, responses to SIGTARP data call, 10/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2010.
                                                                                                                                                                                                                                                                                                                                           Appendix D I Transaction Detail I OCTOBER 26, 2010




Table D.2

CPP — Citigroup, Inc. Common Stock Disposition, as of 9/30/2010
Note     Date                                        Pricing Mechanism4                      Number of Shares                                        Proceeds5
1        4/26/2010 – 5/26/2010                                    $4.1217                       1,500,000,000                                  $6,182,493,158
2        5/26/2010 – 6/30/2010                                    $3.8980                       1,108,971,857                                  $4,322,726,825
3        7/23/2010 – 9/30/2010                                    $3.9090                       1,500,000,000                                  $5,863,489,587
                                                                                               Total Proceeds                               $16,368,709,569
Notes: Numbers may not total due to rounding. Data as of 10/3/2010. Numbered notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report.

1
  On 4/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
  eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion
  of the sale under this authority occurred on 5/26/2010.
2
  On 5/26/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell up to 1,500,000,000
  shares of common stock from time to time during the period ending on 6/30/2010 (or upon completion of the sale). Completion of the sale under this author-
  ity occurred on 6/30/2010.
3
  On 7/23/2010, Treasury gave Morgan Stanley & Co. Incorporated (Morgan Stanley) discretionary authority, as its sales agent, to sell subject to certain param-
  eters up to 1,500,000,000 shares of common stock from time to time during the period ending on 9/30/2010 (or upon completion of the sale). Completion
  of the sale under this authority occured on 9/30/2010.
4
  The price set forth is the weighted average price for all sales of Citigroup, Inc. common stock made by Treasury over the course of the corresponding period.
5
  Amount represents the gross proceeds to Treasury.


Source: Treasury, Transactions Report, 10/4/2010.
Table D.3

    SSFI (AIG) Transaction Detail, as of 9/30/2010
                                    Seller                                                Purchase Detail                                                           Exchange Details                                                                       Warrants and Market Data
                                                                                                                                                                                                                                                                                        Amount “In
                                                                                                                                                                                                                                                Market                    Outstanding the Money”or                        Dividends/
                                                                Transaction   Investment                                 Pricing                    Transaction    Investment                                   Pricing                  Capitalization                       Warrant    “Out of the      In or Out of Interest Paid
    Note           Date             Institution                 Type          Description       Investment Amount     Mechanism              Date         Type     Description       Investment Amount       Mechanism       Stock Price   (in millions)   Strike Price        Shares      Money” a      the Money a     to Treasury
    1              11/25/2008       AIG, New York, NY           Purchase      Preferred           $40,000,000,000            Par    4/17/2009         Exchange        Preferred         $40,000,000,000              Par         $39.10          $26,156        $50.00      2,689,938         ($10.90)            OUT              —
                                                                              Stock w/                                                                                Stock w/
                                                                              Warrants                                                                                Warrants
    2,3            4/17/2009        AIG, New York, NY           Purchase      Preferred           $29,835,000,000            Par                                                                                                 $39.10          $26,156     $0.00002               150        $39.10               IN             —
                                                                              Stock w/
                                                                              Warrants
                                                                              Total              $69,835,000,000
    Notes: Numbers may not total due to rounding. Data as of 10/3/2010. Numbered notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report.
    1
      On 4/17/2009, Treasury exchanged its Series D Fixed Rate Cumulative Preferred Shares for Series E Fixed Rate Non-Cumulative Preferred Shares with no change to Treasury’s initial investment amount. In addition, in order for AIG to fully redeem the Series E Preferred Shares, it has an additional obligation to Treasury of
      $1,604,576,000 to reflect the cumulative unpaid dividends for the Series D Preferred Shares due to Treasury through and including the exchange date.
    2
      The investment price reflects Treasury’s commitment to invest up to $30 billion less a reduction of $165 million representing retention payments AIG Financial Products made to its employees in March 2009.
    3
      This transaction does not include AIG’s commitment fee of an additional $165 million scheduled to be paid from its operating income in three equal installments over the five-year life of the facility.
    a
      When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

    Sources: Treasury, Transactions Report, 10/4/2010; Treasury, response to SIGTARP data call, 10/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2010.




Table D.4

TIP Transaction Detail, as of 9/30/2010
                                                                                                                                                             Treasury Investment
                                                                                                                                                                  Remaining
                          Seller                                                                                           Capital Repayment Details       After Capital Repayment            Final Disposition                                                                    Market and Warrants Data
                                                                                                                                                                                                                                                                                               Amount “In
                                                                                                                                                  Capital Remaining        Remaining           Final            Final                                          Market              Outstanding the Money” In or Out             Dividends/
                                                  Transaction   Investment                    Investment        Pricing Capital Repayment      Repayment    Capital          Capital     Disposition      Disposition        Final Disposition    Stock Capitalization    Strike       Warrant   or “Out of  of the        Interest Paid to
Note Date                 Institution Name        Type          Description                      Amount      Mechanism             Amount           Date2   Amount        Description          Date 3     Description               Proceeds      Price   (in millions)    Price        Shares the Money” Money a                 Treasury
                                                                Trust Preferred
                          Citigroup Inc.,                       Securities w/
1          12/31/2008     New York, NY            Purchase      Warrants              $20,000,000,000               Par   $20,000,000,000 12/23/2009                 —       Warrants                                                             $3.91      $113,287 $10.61 188,501,414              ($6.56)       OUT $1,568,888,889
                          Bank of America
                          Corporation,                          Preferred Stock w/
           1/16/2009      Charlotte, NC           Purchase      Warrants              $20,000,000,000               Par   $20,000,000,000      12/9/2009             —       Warrants     3/3/2010 A         Warrants      $1,255,639,099.00 $13.10          $131,418                                                     $1,435,555,556

                                                                                                            Total Capital                                                                               Total Warrant
                                                                 Total Investment $40,000,000,000            Repayment $40,000,000,000                                                                      Proceeds $1,255,639,099.00
                                                                                          Total Treasury TIP Investment
                                                                                                                Amount                   —
Notes: Numbers may not total due to rounding. Data as of 10/3/2010. Numbered notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report.
1
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock,
  Series I (TIP Shares) “dollar for dollar” for Trust Preferred Securities.
2
  Repayment pursuant to Title VII, Section 7001 of the American Recovery and Reinvestment Act of 2009.
3
  For final disposition of warrants, “R” represents proceeds from a repurchase of warrants by the financial institution, and “A” represents the proceeds to Treasury, before underwriting fees and selling expenses, from a sale by Treasury in a registered public offering of the warrants issued by the financial institution.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”

Sources: Treasury, Transactions Report, 10/3/2010; Treasury, response to SIGTARP data call, 10/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2010.
                                                                                                                                                                                                                                                                                                                                              Transaction detail I Appendix D I OCTOBER 26, 2010
                                                                                                                                                                                                                                                                                                                                              273
Table D.5                                                                                                                                                                                                                                                                                                                                     274

AGP Transaction Detail, as of 9/30/2010
                                 Initial Investmentb                                Premium                               Exchange/Transfer/Other Details                                           Payment or Disposition                                                  Market and Warrants Data
                                                                                                                                                                                                                                                                                                         Amount
                                                                                                                                                                                                                                                                                                          “In the
                                                                                                                                                                                                                                                                                                         Money”        In       Dividends/
                                                                                                                                                                                                                        Remaining            Remaining                 Market             Outstanding    or “Out or Out            Interest
                   Institution       Transaction                        Guarantee                                                                                                     Payment                  Payment   Premium              Premium     Stock Capitalization     Strike     Warrant      of the of the            Paid to
Note Date          Name              Type        Description                 Limit Description            Amount        Date      Type Description           Amount          Date        Type                   Amount Description             Amount     Price   (in millions)     Price      Shares    Money” Moneya            Treasury
                                                                                                                             Exchange                                                     Partial
                                                                                                                                              Trust                                                                              Trust
                                                                                                                             preferred                                              cancellation
                                                                                                                                          Preferred                                                                          Preferred
                                                                                                                        6/9/     stock                                    12/23/        for early
1-2-3                                                                                                                                     Securities $4,034,000,000                                   ($1,800,000,000)       Securities $2,234,000,000
                                                                                                                        2009 for trust                                      2009     termination
                                                                                                                                                 w/                                                                                 w/
                                                                                                                             preferred                                                         of
                                                                                                                                           Warrants                                                                           Warrants
                                                                                      Preferred                              securities                                               guarantee
          1/16/    Citigroup Inc.,                Master
                                   Guarantee                     $5,000,000,000          Stock $4,034,000,000                Exchange                                                                                                                     $3.91       $113,287 $10.61 66,531,728          ($6.70)      OUT $440,016,889
          2009     New York, NY                   Agreement
                                                                                    w/ Warrants                                   trust       Trust
                                                                                                                             preferred    Preferred
                                                                                                                       9/29/                                                9/30/
4-5                                                                                                                          securities   Securities $2,246,000,000                 Disposition        $2,246,000,000        Warrants                 —
                                                                                                                        2010                                                 2010
                                                                                                                              for trust          w/
                                                                                                                             preferred     Warrants
                                                                                                                             securities
          12/23/   Citigroup Inc.,             Termination
3                                  Termination             ($5,000,000,000)
          2009     New York, NY                Agreement

                                                  Total                       $—
Notes: Numbers may not total due to rounding. Data as of 10/3/2010. Numbered notes taken verbatim from 10/4/2010 Transactions Report.
1
                                                                                                                                                                                                                                                                                                                                              Appendix D I Transaction Detail I OCTOBER 26, 2010




  In consideration for the guarantee, Treasury received $4.03 billion of preferred stock, which pays 8% interest.
2
  Treasury made three separate investments in Citigroup Inc. (“Citigroup”) under CPP, TIP, and AGP for a total of $49 billion. On 6/9/2009, Treasury entered into an agreement with Citigroup to exchange all of Treasury’s investments. On 7/30/2009, Treasury exchanged all of its Fixed Rate Cumulative Perpetual Preferred Stock
  Series G (AGP Shares), received as premium with the AGP agreement, “dollar for dollar” for Trust Preferred Securities.
3
  On 12/23/2009, Treasury entered into a Termination Agreement with the other parties to the Master Agreement which served to terminate Treasury’s guarantee and obligations under the Master Agreement. In connection with the early termination of the guarantee, Treasury agreed to cancel $1.8 billion of the AGP Trust
  Preferred Securities, and the Federal Deposit Insurance Corporation (FDIC) and Treasury agreed that, subject to the conditions set out in the Termination Agreement, the FDIC may transfer $800 million of Trust Preferred Securities to Treasury at the close of Citigroup’s participation in the FDIC’s Temporary Liquidity Guarantee
  Program.
4
  On 9/29/2010, Treasury entered into an agreement with Citigroup Inc. to exchange $2,234,000,000 in aggregate liquidation preference of its trust preferred securities for $2,246,000,000 in aggregate liquidation preference of trust preferred securities with certain modified terms. At the time of exchange, Citigroup Inc. paid
  the outstanding accrued and unpaid dividends.
5
  On 9/30/2010, Treasury entered into underwritten offering of the trust preferred securities, the gross proceeds of which do not include accumulated and unpaid distributions from the date of the exchange through the closing date.
a
  When a warrant’s underlying current stock price rises above the strike price, it is considered “In the Money,” otherwise it is considered “Out of the Money.”
b
  AGP transaction is a guarantee, not a purchase. Treasury received a premium including preferred stock and warrants as part of this transaction.

Sources: Treasury, Transactions Report, 10/4/2010; Treasury, response to SIGTARP data call, 10/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2010.




Table D.6


    TALF Transaction Detail, as of 9/30/2010
                         Seller
                                                          Transaction                                                                           Pricing               Adjusted                  Adjusted
    Note Date            Institution                      Type            Investment Description               Investment Amount             Mechanism         Investment Date        Investment Amount

    1-2     3/3/2009     TALF LLC, Wilmington, DE Purchase                Debt Obligation w/ Additional Note       $20,000,000,000                   N/A             7/19/2010           $4,300,000,000


                                                                                                       TOTAL                   $—
    Note: Numbers may not total due to rounding. Data as of 10/3/2010. Numbered notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report.
    1
      The loan was funded through TALF LLC, a special purpose vehicle created by The Federal Reserve Bank of New York. The amount of $20,000,000,000 represents the maximum loan amount. The
      loan will be incrementally funded.
    2
      On 7/19/2010, Treasury, the FRBNY and TALF LLC entered into an amendment of the credit agreement previously entered into on 3/3/2009, which amendment reduced Treasury’s maximum loan
      amount to $4,300,000,000.

    Source: Treasury, Transactions Report, 10/4/2010.
Table D.7

PPIP Transaction Detail, as of 9/30/2010
                     Seller                                                                                                      Adjusted Investment3             Final Investment Amount7         Capital Repayment Details Investment after Capital Repayment                     Distribution or Disposition
                                                                                                                                                                                                                                                                                                                           Interest/
                                                                                                                                                                                                                                                                                                                       Distributions
                                                     Transaction    Investment                   Investment   Pricing                                                                            Repayment           Repayment                                                                                               Paid to
Note Date            Institution                     Type           Description                     Amount Mechanism                Date              Amount            Date              Amount      Date              Amount             Amount              Description          Date Description          Proceeds     Treasury
                  AG GECC PPIF Master                               Debt Obligation w/
2,6    10/30/2009 Fund, L.P., Wilmington, DE         Purchase       Contingent Proceeds     $2,222,222,222              Par   3/22/2010      $2,542,675,000       7/16/2010      $2,486,550,000
                                                                                                                                                                                                                                                                                                                           $36,069,711
                  AG GECC PPIF Master
1,6    10/30/2009 Fund, L.P., Wilmington, DE         Purchase       Membership Interest     $1,111,111,111              Par   3/22/2010      $1,271,337,500       7/16/2010      $1,243,275,000
                     AllianceBernstein Legacy
                     Securities Master Fund, L.P.,                  Debt Obligation w/
2,6    10/2/2009     Wilmington, DE                  Purchase       Contingent Proceeds     $2,222,222,222              Par   3/22/2010      $2,488,875,000       7/16/2010      $2,300,847,000
                                                                                                                                                                                                                                                                                                                           $51,688,921
                     AllianceBernstein Legacy
                     Securities Master Fund, L.P.,
1,6    10/2/2009     Wilmington, DE                  Purchase       Membership Interest     $1,111,111,111              Par   3/22/2010      $1,244,437,500       7/16/2010      $1,150,423,500
                     Blackrock PPIF, L.P.,                          Debt Obligation w/
2,6    10/2/2009     Wilmington, DE                  Purchase       Contingent Proceeds     $2,222,222,222              Par   3/22/2010      $2,488,875,000       7/16/2010      $1,389,960,000
                                                                                                                                                                                                                                                                                                                            $8,882,978
                     Blackrock PPIF, L.P.,
1,6    10/2/2009     Wilmington, DE                  Purchase       Membership Interest     $1,111,111,111              Par   3/22/2010      $1,244,437,500       7/16/2010        $694,980,000
                     Invesco Legacy Securities
                     Master Fund, L.P.,
1,6    9/30/2009     Wilmington, DE                  Purchase       Membership Interest     $1,111,111,111              Par   3/22/2010      $1,244,437,500       7/16/2010        $856,000,000
                                                                                                                                                                                                                                                         Debt Obligation w/
                                                                                                                                                                                                    2/18/2010        $4,888,718 $1,707,111,282         Contingent Proceeds                                                 $70,274,954
                     Invesco Legacy Securities
                                                                    Debt Obligation w/                                                                                                                                                                   Debt Obligation w/
2,6    9/30/2009     Master Fund, L.P.,              Purchase                               $2,222,222,222              Par   3/22/2010      $2,488,875,000       7/16/2010      $1,712,000,000
                                                                    Contingent Proceeds                                                                                                             4/15/2010        $7,066,434 $1,700,044,848         Contingent Proceeds
                     Wilmington, DE
                                                                                                                                                                                                                                                         Debt Obligation w/
                                                                                                                                                                                                    9/15/2010       $60,022,674 $1,640,022,174         Contingent Proceeds
                  Marathon Legacy Securities
                  Public-Private Investment
                  Partnership, L.P.,                                Debt Obligation w/
2,6    11/25/2009 Wilmington, DE                     Purchase       Contingent Proceeds     $2,222,222,222              Par   3/22/2010      $2,488,875,000       7/16/2010        $949,100,000
                                                                                                                                                                                                                                                                                                                            $5,918,447
                  Marathon Legacy Securities
                  Public-Private Investment
                  Partnership, L.P.,
1,6    11/25/2009 Wilmington, DE                     Purchase       Membership Interest     $1,111,111,111              Par   3/22/2010      $1,244,437,500       7/16/2010        $474,550,000
                  Oaktree PPIP Fund, L.P.,                          Debt Obligation w/
2,6    12/18/2009 Wilmington, DE                     Purchase       Contingent Proceeds     $2,222,222,222              Par   3/22/2010      $2,488,875,000       7/16/2010      $2,321,568,200
                                                                                                                                                                                                                                                                                                                             $674,155
                  Oaktree PPIP Fund, L.P.,
1,6    12/18/2009 Wilmington, DE                     Purchase       Membership Interest     $1,111,111,111              Par   3/22/2010      $1,244,437,500       7/16/2010      $1,160,784,100
                     RLJ Western Asset Public/
                     Private Master Fund, L.P.,                     Debt Obligation w/
2,6    11/4/2009     Wilmington, DE                  Purchase       Contingent Proceeds     $2,222,222,222              Par   3/22/2010      $2,488,875,000       7/16/2010      $1,241,156,516
                                                                                                                                                                                                                                                                                                                           $33,133,865
                     RLJ Western Asset Public/
                     Private Master Fund, L.P.,
1,6    11/4/2009     Wilmington, DE                  Purchase       Membership Interest     $1,111,111,111              Par   3/22/2010      $1,244,437,500       7/16/2010        $620,578,258
                                                                                                                                                                                                                                                         Debt Obligation w/
                                                                                                                                                                                                    1/11/2010       $34,000,000      $166,000,000      Contingent Proceeds                          N/A
                     UST/TCW Senior Mortgage
                                                                    Debt Obligation w/
2,4,5 9/30/2009      Securities Fund, L.P.,          Purchase                               $2,222,222,222              Par    1/4/2010        $200,000,000                        $200,000,000                                                                               1/29/2010     Distribution      $502,302
                                                                    Contingent Proceeds                                                                                                                                                                         Contingent
                     Wilmington, DE                                                                                                                                                                 1/12/2010      $166,000,000                  —
                                                                                                                                                                                                                                                                 Proceeds                          Final
                                                                                                                                                                                                                                                                                                                             $342,176
                                                                                                                                                                                                                                                                              2/24/2010     Distribution          $1,223

                     UST/TCW Senior Mortgage                                                                                                                                                                                                                                  1/29/2010     Distribution   $20,091,872
                                                                                                                                                                                                                                                             Membership I
1,4,5 9/30/2009      Securities Fund, L.P.,          Purchase       Membership Interest     $1,111,111,111              Par    1/4/2010        $156,250,000                        $156,250,000 1/15/2010          $156,250,000                  —
                                                                                                                                                                                                                                                                 nterest                           Final
                     Wilmington, DE
                                                                                                                                                                                                                                                                              2/24/2010     Distribution       $48,922
                     Wellington Management Legacy
                     Securities PPIF Master Fund,                   Debt Obligation w/
2,6    10/1/2009     LP, Wilmington, DE           Purchase          Contingent Proceeds     $2,222,222,222              Par   3/22/2010      $2,524,075,000       7/16/2010      $2,298,974,000
                                                                                                                                                                                                                                                                                                                            $8,365,305
                     Wellington Management Legacy
                     Securities PPIF Master Fund,
1,6    10/1/2009     LP, Wilmington, DE           Purchase          Membership Interest     $1,111,111,111              Par   3/22/2010      $1,262,037,500       7/16/2010      $1,149,487,000

                                                                                                                                    Total                         Total Final                   Total
                                                                    Initial Investment                                        Investment                         Investment                   Capital                                                                                            Total
                                                                    Amount                $30,000,000,000                        Amount $30,356,250,000             Amount $22,406,483,574 Repayment $428,227,826                                                                            Proceeds $20,644,319
Notes: Numbers may not total due to rounding. Data as of 10/3/2010. Numbered notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report.
1
  The equity amount may be incrementally funded. Investment amount represents Treasury’s maximum obligation if the limited partners other than Treasury fund their maximum equity capital obligations.
2
  The loan may be incrementally funded. Investment amount represents Treasury’s maximum obligation if Treasury and the limited partners other than Treasury fund 100% of their maximum equity obligations.
                                                                                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I OCTOBER 26, 2010




3
  Adjusted to show Treasury’s maximum obligations to a fund.
4
  On 1/4/2010, Treasury and the fund manager entered into a Winding-Up and Liquidation Agreement.
5
  Profit after capital repayments will be paid pro rata (subject to prior distribution of Contingent Proceeds to Treasury) to the fund’s partners, including Treasury, in respect of their membership interests.
6
  Following termination of the TCW fund, the $3.33 billion of obligations have been reallocated to the remaining eight funds pursuant to consent letters from Treasury dated as of 3/22/2010. $133 million of maximum equity capital obligation and $267 million of maximum debt obligation were reallocated per fund, after adjustment
  for the $17.6 million and $26.9 million equity capital reallocations from private investors in the TCW fund to the Wellington fund and the AG GECC fund, respectively. The $356 million of final investment in the TCW fund will remain a part of Treasury’s total maximum S-PPIP investment amount.
7
  Amount adjusted to show Treasury’s final capital commitment (membership interest) and the maximum amount of Treasury’s debt obligation that may be drawn down in accordance with the Loan Agreement.

Sources: Treasury, Transactions Report, 10/4/2010; Treasury, responses to SIGTARP data call, 10/7/2010.
                                                                                                                                                                                                                                                                                                                                          275
Table D.8                                                                                                                                                                                                                                                                                                             276

 AIFP TRANSACTION DETAIL, AS OF 9/30/2010                                                (CONTINued)
                                                                                                       Exchange/Transfer/Other Details                  Treasury Investment After Exchange/Transfer/Other                                Payment or Disposition1
                                                                                                                                                                                                                                                                                      Remaining
                                                                                                                                                                                                                                                                    Remaining        Investment          Dividend/
                          Transaction                                                                                                                                                              Amount/                                        Amount/          Investment           Amount/    Interest Paid to
              Date        Type        Seller      Description                  Amount Note           Date                 Type            Amount Note      Obligor Note       Description    Equity Percent         Date        Type              Proceeds         Description    Equity Percent         Treasurya
                                                                                                                  Exchange for
                                                  Preferred Stock w/                                                                                                 21,       Convertible
              12/29/2008 Purchase     GMAC                              $5,000,000,000         12/30/2009           convertible    $5,000,000,000            GMAC                          $5,250,000,000
                                                  Exercised Warrants                                                                                                  22   Preferred Stock
                                                                                                                preferred stock
                                                  Convertible                                                  Partial exchange                                      21,       Convertible
                                                                                                                                                             GMAC                          $4,875,000,000
              5/21/2009   Purchase    GMAC        Preferred Stock w/    $7,500,000,000    22 12/30/2009             for common     $3,000,000,000                     22   Preferred Stock
                                                  Exercised Warrants                                                       stock                             GMAC          Common Stock
GMAC,                                                                                                                                                                                                56.3%
                                                                                                                                                             GMAC     3    Common Stock                                                                                                            $1,631,539,236
Detroit, MI
                                                  Trust Preferred
              12/30/2009 Purchase     GMAC        Securities w/         $2,540,000,000
                                                  Exercised Warrants
                                                  Convertible
              12/30/2009 Purchase     GMAC        Preferred Stock w/    $1,250,000,000    22
                                                  Exercised Warrants
                                      General
                                                                                                            Exchange for equity
              12/29/2008 Purchase     Motors      Debt Obligation        $884,024,131      2 5/29/2009                              $884,024,131    3
                                                                                                               interest in GMAC
                                      Corporation
                                                                                                                 Exchange for
                                      General
                                                  Debt Obligation w/                                             preferred and
              12/31/2008 Purchase     Motors                           $13,400,000,000          7/10/2009                      $13,400,000,000      7
                                                  Additional Note                                             common stock in
                                      Corporation
                                                                                                                      New GM
                                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                                                                                 Exchange for
                                      General                                                                                                              General
                                                  Debt Obligation w/                                             preferred and                                       10,
              4/22/2009   Purchase    Motors                            $2,000,000,000     4 7/10/2009                             $2,000,000,000   7       Motors         Preferred Stock $2,100,000,000
                                                  Additional Note                                             common stock in                                         11
                                      Corporation                                                                                                         Company
                                                                                                                      New GM
                                                                                                                 Exchange for
                                      General                                                                                                              General
                                                  Debt Obligation w/                                             preferred and                                       10,
              5/20/2009   Purchase    Motors                            $4,000,000,000     5 7/10/2009                             $4,000,000,000   7       Motors         Common Stock              60.8%
                                                  Additional Note                                             common stock in                                         11
                                      Corporation                                                                                                         Company
                                                                                                                      New GM
                                                                                                                                                                                                                               Partial
General                                                                                                                                                                                                        7/10/2009                     $360,624,198      Debt Obligation $6,711,864,407
                                                                                                                                                                                                                           repayment
Motors,b,c                                                                                                                                                                                                                                                                                          $709,521,711
Detroit, MI                                                                                                                                                                                                                    Partial
                                                                                                                 Exchange for                              General                                            12/18/2009                   $1,000,000,000      Debt Obligation $5,711,864,407
                                      General                                                                                                                                                                              repayment
                                                  Debt Obligation w/                                             preferred and                             Motors    11,
              5/27/2009   Purchase    Motors                             $360,624,198      6 7/10/2009                              $360,624,198    7                      Debt Obligation $7,072,488,605                      Partial
                                                  Additional Note                                             common stock in                             Holdings   12                                        1/21/2010                      $35,084,421      Debt Obligation $5,676,779,986
                                      Corporation                                                                                                                                                                          repayment
                                                                                                                      New GM                                  LLC
                                                                                                                                                                                                                               Partial
                                                                                                                                                                                                               3/31/2010                   $1,000,000,000      Debt Obligation $4,676,779,986
                                                                                                                                                                                                                           repayment
                                                                                                                                                                                                               4/20/2010   Repayment       $4,676,779,986                None                —
                                                                                                                 Exchange for
                                      General
                                                  Debt Obligation w/                                             preferred and
              6/3/2009    Purchase    Motors                           $30,100,000,000     8 7/10/2009                         $22,041,706,310      9
                                                  Additional Note                                             common stock in
                                      Corporation
                                                                                                                      New GM
                                                                                                             Transfer of debt to
                                                                                                7/10/2009                          $7,072,488,605   9
                                                                                                                       New GM
                                                                                                                                                          Motors
                                                                                                                    Debt left at
                                                                                                7/10/2009                           $985,805,085    9 Liquidation          Debt Obligation   $985,805,085
                                                                                                                       Old GM
                                                                                                                                                       Company
                                      Chrysler    Debt Obligation w/                                                                                                                                                           Partial                       Debt Obligation w/
              1/16/2009   Purchase                                      $1,500,000,000    13                                                                                                                   3/17/2009                        $3,499,055                      $1,496,500,945
                                      FinCo       Additional Note                                                                                                                                                          repayment                            Additional Note
                                                                                                                                                                                                                               Partial                       Debt Obligation w/
                                                                                                                                                                                                               4/17/2009                      $31,810,122                       $1,464,690,823
                                                                                                                                                                                                                           repayment                            Additional Note
Chrysler
FinCo,                                                                                                                                                                                                                         Partial                       Debt Obligation w/
                                                                                                                                                                                                               5/18/2009                      $51,136,084                       $1,413,554,739        $7,405,894
Farmington                                                                                                                                                                                                                 repayment                            Additional Note
Hills, MI                                                                                                                                                                                                                      Partial                    Debt Obligation w/
                                                                                                                                                                                                               6/17/2009                      $44,357,710                    $1,369,197,029
                                                                                                                                                                                                                           repayment                         Additional Note
                                                                                                                                                                                                               7/14/2009   Repayment       $1,369,197,029       Additional Note              —
                                                                                                                                                                                                               7/14/2009   Repayment          $15,000,000                None                —
                                                                                                                                                                                                                                                                                           Continued on next page.
 AIFP TRANSACTION DETAIL, AS OF 9/30/2010                                                       (CONTINued)
                                                                                                                  Exchange/Transfer/Other Details                   Treasury Investment After Exchange/Transfer/Other                                        Payment or Disposition1
                                                                                                                                                                                                                                                                                                          Remaining
                                                                                                                                                                                                                                                                                        Remaining        Investment            Dividend/
                           Transaction                                                                                                                                                                          Amount/                                               Amount/          Investment           Amount/      Interest Paid to
             Date          Type        Seller         Description                      Amount Note            Date                 Type            Amount Note         Obligor Note         Description   Equity Percent           Date             Type              Proceeds         Description    Equity Percent           Treasurya
                                        Chrysler      Debt Obligation w/                                             Transfer of debt to                               Chrysler          Debt Obligation
             1/2/2009      Purchase                                           $4,000,000,000           6/10/2009                            $500,000,000       19                 20                      $3,500,000,000     5/14/2010       Termination       $1,900,000,000                 None                 —
                                        Holding       Additional Note                                                     New Chrysler                                  Holding        w/ additional note
                                                                                                                                                                                                                                          and settlement
                                        Chrysler      Debt Obligation w/                                                                                                                                                                      payment 20
             4/29/2009     Purchase                                                         —     14
                                        Holding       Additional Note
                                        Chrysler      Debt Obligation w/
             4/29/2009     Purchase                                             $280,130,642      15                                                                                                                         7/10/2009       Repayment           $280,130,642                 None                 —
                                        Holding       Additional Note
                                                                                                                         Completion                                Old Carco                                                                    Proceeds
Chrylser,c                                           Debt Obligation w/                                                                                                              Rights to Recover                                                                             Right to recover
             5/1/2009      Purchase     Old Chrysler                          $1,888,153,580      16 4/30/2010        of bankruptcy ($1,888,153,580)           23 Liquidation     23                                 N/A     5/10/2010       from sale of         $30,544,528                                    N/A
Auburn                                               Additional Note                                                                                                                          Proceeds                                                                                    proceeds
                                                                                                                        proceeding;                                     Trust                                                                   collateral                                                                $437,049,853
Hills,
MI                                                                                                             transfer of collateral                                                                                                           Proceeds
                                                     Debt Obligation w/                                                   security to                                                                                                                                              Right to recover
             5/20/2009     Purchase     Old Chrysler                                        —     17                                                                                                                          9/9/2010       from sale of           $9,666,784                                   N/A
                                                     Additional Note                                                liquidation trust                                                                                                                                                     proceeds
                                                                                                                                                                                                                                                collateral
                                                     Debt Obligation w/
                                                                                                                      Issuance of equity                               Chrysler          Debt Obligation
             5/27/2009     Purchase     New Chrysler Additional Note,         $6,642,000,000      18 6/10/2009                                           —                        19                      $7,142,000,000
                                                                                                                         in New Chrysler                             Group LLC         w/ additional note
                                                     Equity
                                                                                                                                                                       Chrysler
                                                                                                                                                                                         Common equity              9.9%
                                                                                                                                                                     Group LLC
                                                                                                                                                                                                                                          Additional Note
                                                                                                                                                                                                                                                                  $15,000,000
                                                                                                                                                                                                                                                Proceeds
                                                                                                                                                                                                                                                  Total
                                        Total Initial Investment Amount $81,344,932,551                                                                                                                                                       Payments $10,792,830,559                                                 $2,785,516,694
                                                                                                                                                                                                                            Total Treasury Investment
                                                                                                                                                                                                                                              Amount $67,063,948,412

Notes: Numbers affected by rounding. Data as of 3/31/2010. Definitions and numbered notes taken verbatim from Treasury’s 4/2/2010 Transactions Report. See www.financialstability.gov to see Transactions Report including colored lines referred to by Treasury.
“GMAC” refers to GMAC Inc., formerly known as GMAC LLC.
“Old GM” refers to General Motors Corporation, which is now known as Motors Liquidation Company.
“New GM” refers to General Motors Company, the company that purchased Old GM’s assets on 7/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code. See also footnote 11.
“Chrysler FinCo” refers to Chrysler Financial Services Americas LLC.
“Chrysler Holding” refers to CGI Holding LLC, the company formerly known as “Chrysler Holding LLC.”
“Old Chrysler” refers to Chrysler LLC.
“New Chrysler” refers to Chrysler Group LLC, the company that purchased Old Chrysler’s assets on 6/10/2009 in a sale pursuant to section 363 of the Bankruptcy Code.
1
   Payment amount does not include accrued and unpaid interest on a debt obligation, which must be paid at the time of principal repayment.
2
   Treasury committed to lend General Motors Corporation up to $1,000,000,000. The ultimate funding was dependent upon the level of investor participation in GMAC LLC’s rights offering. The amount has been updated to reflect the final level of funding.
3
   Pursuant to its rights under the loan agreement with Old GM reported on 12/29/2008, Treasury exchanged its $884 million loan to Old GM for a portion of Old GM’s common equity interest in GMAC. Treasury held a 35.4% common equity interest in GMAC until the transactions reported on 12/30/2009. (See transactions
   marked by orange line in the table above and footnote 22.)
4
   This transaction is an amendment to Treasury’s 12/31/2008 agreement with Old GM (the “Old GM Loan”), which brought the total loan amount to $15,400,000,000.
5
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,400,000,000.
6
   This transaction was a further amendment to the Old GM Loan, which brought the total loan amount to $19,760,624,198. The $360,624,198 loan was used to capitalize GM Warranty LLC, a special purpose vehicle created by . On 7/10/2009, the principal amount was included in the $7.07 billion of debt assumed by the New
   GM, as explained in footnote 10.
7
   On 7/10/2009, the principal amount outstanding under the Old GM Loan and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM. (See green lines in the table above.)
8
   Under the terms of the $33.3 billion debtor-in-possession credit agreement dated 6/3/2009 with Old GM (the “GM DIP Loan”), Treasury’s commitment amount was $30.1 billion. The remaining $2.2 billion of the financing was provided by Canadian government entities. As of 7/9/2009, $30.1 billion of funds had been disbursed
   by Treasury.
9
   On 7/10/2009, Treasury and Old GM amended the GM DIP Loan, and the principal amount and interest accrued thereunder were extinguished and exchanged for privately placed preferred and common equity in New GM, except for (i) $7.07 billion, which was assumed by New GM as a new obligation under the terms of a
   separate credit agreement between Treasury and New GM (see transactions marked by green lines in table above) and (ii) $986 million, which remained a debt obligation of Old GM.
10
   In total, for the exchange of the Old GM Loan and the GM DIP Loan (other than as explained in footnote 9), Treasury received $2.1 billion in preferred shares and 60.8% of the common shares of New GM. (See transactions marked by green lines in the table above.)
11
   Pursuant to a corporate reorganization completed on or about 10/19/2009, the shareholders of New GM, including with respect to Treasury’s preferred and common stock, became shareholders of General Motors Holding Company (the ultimate parent company of New GM), which was renamed “General Motors Company” on
   an equal basis to their shareholdings in New GM, and New GM was converted to “General Motors LLC”. General Motors LLC is a wholly owned subsidiary of General Motors Holdings LLC, and General Motors Holdings LLC is a wholly owned subsidiary of General Motors Company.
12
   Pursuant to a corporate reorganization completed on 10/19/2009, Treasury’s loan with New GM was assigned and assumed by General Motors Holdings LLC.
13
   The loan was funded through Chrysler LB Receivables Trust, a special purpose vehicle created by Chrysler FinCo. The amount of $1,500,000,000 represents the maximum loan amount. The loan was incrementally funded until it reached the maximum amount of $1.5 billion on 4/9/2009.
14
   This transaction was an amendment to Treasury’s 1/2/2009 agreement with Chrysler Holding. As of 4/30/2009, Treasury’s obligation to lend any funds committed under this amendment had terminated. No funds were disbursed.
15
   The loan was used to capitalize Chrysler Warranty SPV LLC, a special purpose vehicle created by Old Chrysler.
16
   This transaction was set forth in a credit agreement with Old Chrysler fully executed on 5/5/2009 following a term sheet executed on 5/1/2009 and made effective on 4/30/2009. Treasury’s commitment was $3.04 billion of the total $4.1 billion debtor-in-possession credit facility (the “Chrysler DIP Loan”). As of 6/30/2009,
   Treasury’s commitment to lend under the Chrysler DIP Loan had terminated. The remaining principal amount reflects the final amount of funds disbursed under the Chrylser DIP Loan.
17
   This transaction was an amendment to Treasury’s commitment under the Chrysler DIP Loan, which increased Treasury’s commitment by an amount $756,857,000 to a total of $3.8 billion under the Chrysler DIP Loan. As of 6/30/2009, Treasury’s obligation to lend funds committed under the Chrysler DIP Loan had terminated.
18
   This transaction, first reported based on a term sheet fully executed on 5/27/2009 for an amount up to $6.943 billion, was set forth in a credit agreement with New Chrysler fully executed on 6/10/2009. Under the terms of the credit agreement, Treasury made a new commitment to New Chrysler of up to $6.642 billion. The
   total loan amount is up to $7.142 billion including $500 million of debt assumed on 6/10/2009 from Chrysler Holding originally incurred under Treasury’s 1/2/2009 credit agreement with Chrysler Holding. The debt obligations are secured by a first priority lien on the assets of New Chrysler. When the sale to new Chrysler was
   completed, Treasury acquired the rights to 9.85% of the common equity in new Chrysler.
19
   Pursuant to the agreement explained in footnote 18, $500 million of this debt obligation was assumed by New Chrysler.
20
   Under the terms of an agreement dated 7/23/2009, Treasury agreed to hold the outstanding loans of Chrysler Holding in forbearance, and Chrysler Holding agreed to pay the greater of $1.375 billion or 40% of the equity value of Chrysler FinCo in the event it receives proceeds from Chrysler FinCo.
21
   Amount of the Treasury investment after exchange includes the exercised warrants from Treasury’s initial investment.
22
   Under the terms of an agreement dated 12/30/2009, the convertible preferred shares will mandatorily convert to common stock under the conditions and the conversion price as set forth in the terms of the agreement.
23
   On April 30, 2010, the Plan of Liquidation for the debtors of Old Chrysler approved by the respective bankruptcy court became effective (the “Liquidation Plan”). Under the Liquidation Plan, the loan Treasury had provided to Old Chrysler was extinguished without repayment, and all assets of Old Chrysler were transferred to a
   liquidation trust. Treasury retained the right to recover the proceeds from the liquidation from time to time of the specified collateral security attached to such loan.
a
   For the purpose of this table, income (dividends and interest) are presented in aggregate for each AIFP participant.
b
   According to Treasury, the GM warrant was “Exchanged out of bankruptcy exit.”
c
   This table includes AWCP transactions.
Sources: Treasury, Transactions Report, 10/3/2010; Treasury, response to SIGTARP data call, 10/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed 10/6/2010.
                                                                                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I OCTOBER 26, 2010
                                                                                                                                                                                                                                                                                                                                            277
 Table D.9                                                                                                                                                                                                                                                                                                            278

 ASSP Transaction Detail, as of 9/30/2010
                   Seller                                                                                                               Adjustment Details                                                         Repayment4
                                                                  Investment                                                                                       Adjusted                                                               Remaining                          Dividends/
                                                      Transaction Description                 Investment        Pricing Adjustment              Adjustment       Investment                                                              Investment                       Interest Paid
 Note Date         Institution Name                   Type                                       Amount      Mechanism        Date3                Amount           Amount            Date                  Type                         Description           Amount       to Treasury
                                                                                                                                                                              11/20/2009       Partial repayment   Debt Obligation w/ Additional Note $140,000,000
 1,3               GM Supplier Receivables LLC,                    Debt Obligation w/                                       7/8/2009 ($1,000,000,000) $2,500,000,000           2/11/2010       Partial repayment   Debt Obligation w/ Additional Note $100,000,000
       4/9/2009                                       Purchase                            $3,500,000,000            N/A                                                                                                                                                   $21,629,701
                   Wilmington, DE                                  Additional Note                                                                                              3/4/2010            Repayment5                        Additional Note    $50,000,000
 1,6                                                                                                                                                         $290,000,000       4/5/2010              Payment6                                  None     $56,541,893
 2,3               Chrysler Receivables SPV LLC,                   Debt Obligation w/                                       7/8/2009     ($500,000,000) $1,000,000,000          3/9/2010            Repayment5                        Additional Note $123,076,735
       4/9/2009                                  Purchase                                 $1,500,000,000            N/A                                                                                                                                                   $10,320,229
 2,7               Wilmington, DE                                  Additional Note                                                                           $123,076,735       4/7/2010              Payment7                                  None     $44,533,054
                                                                   Initial Total        $5,000,000,000                                       Adjusted Total $3,500,000,000
 Notes: Numbers may not total due to rounding. Data as of 10/3/2010. Numbered notes were taken verbatim from Treasury’s 10/4/2010 Transactions Report.
 1
   The loan was funded through GM Supplier Receivables, LLC, a special purpose vehicle created by General Motors Corporation. The amount of $3,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed
   on 4/9/2009, but was made effective as of 4/3/2009. General Motors Company assumed GM Supplier Receivables LLC on 7/10/2009.
 2
   The loan was funded through Chrysler Receivables SPV LLC, a special purpose vehicle created by Chrysler LLC. The amount of $1,500,000,000 represents the maximum loan amount. The loan will be incrementally funded. The credit agreement was fully executed on 4/9/2009,
   but was made effective as of 4/7/2009. Chyrsler Group LLC assumed Chrysler Receivables SPV LLC on 6/10/2009.
 3
   Treasury issued notice to the institution of the permanent reduced commitment on 7/8/2009; the reduction was effective on 7/1/2009.
 4
   Does not include accrued and unpaid interest due on the amount of principal repayment, which interest must be paid at the time of principal repayment.
 5
   All outstanding principal drawn under the credit agreement was repaid.
 6
   Treasury’s commitment was $2.5 billion (see note 3). As of 4/5/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
   disbursed under the loan, all of which have been repaid.
 7
   Treasury’s commitment was $1 billion (see note 3). As of 4/7/2009, Treasury’s commitment to lend under the credit agreement had terminated and the borrower has paid its obligations with respect to the Additional Note. The final investment amount reflects the total funds
   disbursed under the loan, all of which have been repaid.

 Sources: Treasury, Transactions Report, 10/4/2010; Treasury, response to SIGTARP data call, 10/7/2010.
                                                                                                                                                                                                                                                                                                                      Appendix D I Transaction Detail I OCTOBER 26, 2010




Table D.10

HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                                         (CONTINued)
                   Servicer Modifying Borrowers’ Loans                                                                                                                                    Adjustment Details

                                                                                                        Cap of Incentive
                                                                                                            Payments on
                                                                                                Behalf of Borrowers and
                                                        Transaction    Investment               to Servicers & Lenders/         Pricing        Adjustment        Cap Adjustment                                                                                                             Market Capitalization
Date               Name of Institution                  Type           Description                      Investors (Cap) 1    Mechanism         Date                     Amount               Adjusted Cap    Reason for Adjustment                                                                   (in Millions)

                                                                                                                                               6/12/2009            $284,590,000          $660,590,000       Updated portfolio data from servicer

                                                                                                                                               9/30/2009            $121,910,000          $782,500,000       Updated portfolio data from servicer & HPDP initial cap

                                                                                                                                               12/30/2009           $131,340,000          $913,840,000       Updated portfolio data from servicer & HAFA initial cap
                                                                       Financial Instrument
                   Select Portfolio Servicing,
4/13/2009                                               Purchase       for Home Loan                        $376,000,000               N/A
                   Salt Lake City, UT                                                                                                          3/26/2010           ($355,530,000)         $558,310,000       Updated portfolio data from servicer
                                                                       Modifications
                                                                                                                                               7/14/2010            $128,690,000          $687,000,000       Updated portfolio data from servicer

                                                                                                                                               9/30/2010               $4,000,000         $691,000,000       Initial FHA-HAMP cap and initial FHA2LP cap

                                                                                                                                               9/30/2010             $59,807,784          $750,807,784       Updated portfolio data from servicer

                                                                                                                                               6/12/2009           ($991,580,000)       $1,079,420,000       Updated portfolio data from servicer

                                                                                                                                               9/30/2009          $1,010,180,000        $2,089,600,000       Updated portfolio data from servicer & HPDP initial cap

                                                                                                                                               12/30/2009          ($105,410,000)       $1,984,190,000       Updated portfolio data from servicer & HAFA initial cap

                                                                                                                                               3/26/2010           ($199,300,000)       $1,784,890,000       Updated portfolio data from servicer & 2MP initial cap

                                                                                                                                               4/19/2010               ($230,000)       $1,784,660,000       Transfer of cap to Service One, Inc. due to servicing transfer

                                                                                                                                               5/14/2010             ($3,000,000)       $1,781,660,000       Transfer of cap to Specialized Loan Servicing, LLC due to servicing transfer
                                                                       Financial Instrument
4/13/2009          CitiMortgage, Inc., O’Fallon, MO     Purchase       for Home Loan                       $2,071,000,000              N/A     6/16/2010            ($12,280,000)       $1,769,380,000       Transfer of cap to multiple servicers due to servicing transfer
                                                                       Modifications
                                                                                                                                               7/14/2010           ($757,680,000)       $1,011,700,000       Updated portfolio data from servicer

                                                                                                                                               7/16/2010             ($7,110,000)       $1,004,590,000       Transfer of cap to multiple servicers due to servicing transfer

                                                                                                                                               8/13/2010             ($6,300,000)         $998,290,000       Transfer of cap to multiple servicers due to servicing transfer

                                                                                                                                               9/15/2010             ($8,300,000)         $989,990,000       Transfer of cap to multiple servicers due to servicing transfer

                                                                                                                                               9/30/2010             $32,400,000        $1,022,390,000       Initial FHA-HAMP cap and initial FHA2LP cap

                                                                                                                                               9/30/2010            $101,287,484        $1,123,677,484       Updated portfolio data from servicer

                                                                                                                                                                                                                                                                                            Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                           (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                             Adjustment Details

                                                                                          Cap of Incentive
                                                                                              Payments on
                                                                                  Behalf of Borrowers and
                                             Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                                       Market Capitalization
Date        Name of Institution              Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount       Adjusted Cap    Reason for Adjustment                                                                     (in Millions)
                                                                                                                           6/17/2009     ($462,990,000)    $2,410,010,000   Updated portfolio data from servicer

                                                                                                                           9/30/2009        $65,070,000    $2,475,080,000   Updated portfolio data from servicer & HPDP initial cap

                                                                                                                           12/30/2009    $1,213,310,000    $3,688,390,000   Updated portfolio data from servicer & HAFA initial cap

                                                                                                                           2/17/2010     $2,050,236,344    $5,738,626,344   Transfer of cap (from Wachovia) due to merger

                                                           Financial Instrument                                            3/12/2010            $54,767    $5,738,681,110   Transfer of cap (from Wachovia) due to merger
            Wells Fargo Bank, NA,
4/13/2009                                    Purchase      for Home Loan                   $2,873,000,000           N/A
            Des Moines, IA
                                                           Modifications                                                   3/19/2010      $668,108,890     $6,406,790,000   Initial 2MP cap                                                                               $135,075

                                                                                                                           3/26/2010      $683,130,000     $7,089,920,000   Updated portfolio data from servicer

                                                                                                                           7/14/2010    ($2,038,220,000)   $5,051,700,000   Updated portfolio data from servicer

                                                                                                                           9/30/2010     ($287,348,828)    $4,764,351,172   Updated portfolio data from servicer

                                                                                                                           9/30/2010      $344,000,000     $5,108,351,172   Initial FHA-HAMP cap, initial FHA2LP cap, and initial RD-HAMP

                                                                                                                           6/12/2009      $384,650,000     $1,017,650,000   Updated portfolio data from servicer

                                                                                                                           9/30/2009     $2,537,240,000    $3,554,890,000   Updated portfolio data from servicer & HPDP initial cap

                                                                                                                           12/30/2009   ($1,679,520,000)   $1,875,370,000   Updated portfolio data from servicer & HAFA initial cap

                                                                                                                           3/26/2010      $190,180,000     $2,065,550,000   Updated portfolio data from servicer
                                                           Financial Instrument
            GMAC Mortgage, Inc.,
4/13/2009                                    Purchase      for Home Loan                    $633,000,000            N/A    5/14/2010         $1,880,000    $2,067,430,000   Transfer of cap from Wilshire Credit Corporation due to servicing transfer
            Ft. Washington, PA
                                                           Modifications
                                                                                                                           7/14/2010     ($881,530,000)    $1,185,900,000   Updated portfolio data from servicer

                                                                                                                           8/13/2010        ($3,700,000)   $1,182,200,000   Transfer of cap due to servicing transfer

                                                                                                                           9/30/2010      $119,200,000     $1,301,400,000   Initial FHA-HAMP cap, initial FHA2LP cap, and initial 2MP cap

                                                                                                                           9/30/2010      $216,998,139     $1,518,398,139   Updated portfolio data from servicer

                                                                                                                           6/17/2009      $225,040,000      $632,040,000    Updated portfolio data from servicer

                                                                                                                           9/30/2009      $254,380,000      $886,420,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                           12/30/2009     $355,710,000     $1,242,130,000   Updated portfolio data from servicer & HAFA initial cap

                                                                                                                           3/26/2010       ($57,720,000)   $1,184,410,000   Updated portfolio data from servicer

                                                                                                                           6/16/2010     ($156,050,000)    $1,028,360,000   Transfer of cap to Ocwen Financial Corporation, Inc. due to servicing transfer
                                                           Financial Instrument
            Saxon Mortgage Services, Inc.,
4/13/2009                                    Purchase      for Home Loan                    $407,000,000            N/A
            Irving, TX                                                                                                     7/14/2010     ($513,660,000)     $514,700,000    Updated portfolio data from servicer
                                                           Modifications

                                                                                                                           7/16/2010       ($22,980,000)    $491,720,000    Transfer of cap due to multiple servicing transfers

                                                                                                                           9/15/2010         $1,800,000     $493,520,000    Transfer of cap due to servicing transfer


                                                                                                                           9/30/2010         $9,800,000     $503,320,000    Initial FHA-HAMP cap and initial FHA2LP cap

                                                                                                                           9/30/2010      $116,222,668      $619,542,668    Updated portfolio data from servicer

                                                           Financial Instrument
            Chase Home Finance, LLC,
4/13/2009                                    Purchase      for Home Loan                   $3,552,000,000           N/A    7/31/2009    ($3,552,000,000)               —    Termination of SPA
            Iselin, NJ2
                                                           Modifications

                                                                                                                           6/12/2009     ($105,620,000)     $553,380,000    Updated portfolio data from servicer

                                                                                                                           9/30/2009      $102,580,000      $655,960,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                           12/30/2009     $277,640,000      $933,600,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                           3/26/2010        $46,860,000     $980,460,000    Updated portfolio data from servicer
                                                           Financial Instrument
                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I OCTOBER 26, 2010




            Ocwen Financial Corporation,                                                                                   6/16/2010      $156,050,000     $1,136,510,000   Transfer of cap from Saxon Mortgage Services, Inc. due to servicing transfer
4/16/2009                                    Purchase      for Home Loan                    $659,000,000            N/A                                                                                                                                                       $922
            Inc., West Palm Beach, FL
                                                           Modifications
                                                                                                                           7/14/2010     ($191,610,000)     $944,900,000    Updated portfolio data from servicer

                                                                                                                           7/16/2010        $23,710,000     $968,610,000    Transfer of cap from Saxon Mortgage Services, Inc. due to servicing transfer

                                                                                                                           9/15/2010           $100,000     $968,710,000    Initial FHA-HAMP cap
                                                                                                                                                                                                                                                                                       279




                                                                                                                           9/30/2010         $3,742,740     $972,452,740    Updated portfolio data from servicer
                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                             Continued on next page.
                                                                                                                                                                                                                                                                                     280
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
               Servicer Modifying Borrowers’ Loans                                                                                                            Adjustment Details

                                                                                            Cap of Incentive
                                                                                                Payments on
                                                                                    Behalf of Borrowers and
                                               Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                                   Market Capitalization
Date           Name of Institution             Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount       Adjusted Cap    Reason for Adjustment                                                                 (in Millions)

                                                                                                                             6/12/2009         $5,540,000     $804,440,000    Updated portfolio data from servicer

                                                                                                                             9/30/2009      $162,680,000      $967,120,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009     $665,510,000     $1,632,630,000   Updated portfolio data from servicer & HAFA initial cap
4/17/2009 as                                                 Financial Instrument                                            1/26/2010      $800,390,000     $2,433,020,000   Initial 2MP cap
               Bank of America, N.A.,
amended on                                     Purchase      for Home Loan                    $798,900,000            N/A
               Simi Valley, CA
1/26/2010                                                    Modifications                                                   3/26/2010     ($829,370,000)    $1,603,650,000   Updated portfolio data from servicer

                                                                                                                             7/14/2010     ($366,750,000)    $1,236,900,000   Updated portfolio data from servicer                                                      $133,299

                                                                                                                             9/30/2010        $95,300,000    $1,332,200,000   Initial FHA-HAMP cap, initial FHA2LP cap, and initial RD-HAMP

                                                                                                                             9/30/2010      $222,941,084     $1,555,141,084   Updated portfolio data from servicer

                                                                                                                             6/12/2009     $3,318,840,000    $5,182,840,000   Updated portfolio data from servicer

                                                                                                                             9/30/2009     ($717,420,000)    $4,465,420,000   Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009    $2,290,780,000    $6,756,200,000   Updated portfolio data from servicer & HAFA initial cap

                                                                                                                             1/26/2010      $450,100,000     $7,206,300,000   Initial 2MP cap
4/17/2009 as                                                 Financial Instrument
                                                                                                                                                                                                                                                                                     Appendix D I Transaction Detail I OCTOBER 26, 2010




               Countrywide Home Loans                                                                                        3/26/2010      $905,010,000     $8,111,310,000   Updated portfolio data from servicer
amended on                                     Purchase      for Home Loan                   $1,864,000,000           N/A
               Servicing LP, Simi Valley, CA
1/26/2010                                                    Modifications                                                   4/19/2010        $10,280,000    $8,121,590,000   Transfer of cap from Wilshire Credit Corporation due to servicing transfer

                                                                                                                             6/16/2010      $286,510,000     $8,408,100,000   Transfer of cap from Wilshire Credit Corporation due to servicing transfer

                                                                                                                             7/14/2010    ($1,787,300,000)   $6,620,800,000   Updated portfolio data from servicer

                                                                                                                             9/30/2010      $105,500,000     $6,726,300,000   Initial FHA-HAMP cap, initial FHA2LP cap, and initial RD-HAMP

                                                                                                                             9/30/2010     ($614,527,362)    $6,111,772,638   Updated portfolio data from servicer

                                                                                                                             6/12/2009      $128,300,000      $447,300,000    Updated portfolio data from servicer

                                                                                                                             9/30/2009        $46,730,000     $494,030,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009     $145,820,000      $639,850,000    Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument
               Home Loan Services, Inc.,
4/20/2009                                      Purchase      for Home Loan                    $319,000,000            N/A    3/26/2010      ($17,440,000)     $622,410,000    Updated portfolio data from servicer
               Pittsburgh, PA
                                                             Modifications
                                                                                                                             7/14/2010      ($73,010,000)     $549,400,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010         $6,700,000     $556,100,000    Initial FHA2LP cap

                                                                                                                             9/30/2010       ($77,126,410)    $478,973,590    Updated portfolio data from servicer

                                                                                                                             6/12/2009        $87,130,000     $453,130,000    Updated portfolio data from servicer

                                                                                                                             9/30/2009     ($249,670,000)     $203,460,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009     $119,700,000      $323,160,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                             3/26/2010        $52,270,000     $375,430,000    Updated portfolio data from servicer

                                                                                                                             4/19/2010       ($10,280,000)    $365,150,000    Transfer of cap to Countrywide Home Loans due to servicing transfer
                                                             Financial Instrument
               Wilshire Credit Corporation,
4/20/2009                                      Purchase      for Home Loan                    $366,000,000            N/A    5/14/2010        ($1,880,000)    $363,270,000    Transfer of cap to GMAC Mortgage, Inc. due to servicing transfer
               Beaverton, OR
                                                             Modifications
                                                                                                                             6/16/2010     ($286,510,000)      $76,760,000    Transfer of cap to Countrywide Home Loans due to servicing transfer

                                                                                                                             7/14/2010        $19,540,000      $96,300,000    Updated portfolio data from servicer

                                                                                                                             7/16/2010         ($210,000)      $96,090,000    Transfer of cap to Green Tree Servicing LLC due to servicing transfer

                                                                                                                             8/13/2010          ($100,000)     $95,990,000    Transfer of cap due to servicing transfer

                                                                                                                             9/30/2010        $68,565,782     $164,555,782    Updated portfolio data from servicer

                                                                                                                                                                                                                                                           Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                          (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                          Adjustment Details

                                                                                         Cap of Incentive
                                                                                             Payments on
                                                                                 Behalf of Borrowers and
                                            Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                                     Market Capitalization
Date        Name of Institution             Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                                                                     (in Millions)
                                                                                                                          6/17/2009     ($64,990,000)     $91,010,000    Updated portfolio data from servicer

                                                                                                                          9/30/2009     $130,780,000     $221,790,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                          12/30/2009   ($116,750,000)    $105,040,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                          3/26/2010       $13,080,000    $118,120,000    Updated portfolio data from servicer
                                                          Financial Instrument                                            7/14/2010     ($24,220,000)     $93,900,000    Updated portfolio data from servicer
            Green Tree Servicing LLC,
4/24/2009                                   Purchase      for Home Loan                    $156,000,000            N/A
            Saint Paul, MN
                                                          Modifications                                                   7/16/2010          $210,000     $94,110,000    Transfer of cap from Wilshire Credit Corporation due to servicing transfer

                                                                                                                          8/13/2010        $2,200,000     $96,310,000    Transfer of cap due to servicing transfer

                                                                                                                          9/10/2010       $34,600,000    $130,910,000    Initial 2MP cap

                                                                                                                          9/30/2010        $5,600,000    $136,510,000    Initial FHA2LP cap and FHA-HAMP

                                                                                                                          9/30/2010       $10,185,090    $146,695,090    Updated portfolio data from servicer

                                                                                                                          6/17/2009      ($63,980,000)   $131,020,000    Updated portfolio data from servicer

                                                                                                                          9/30/2009       $90,990,000    $222,010,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                          12/30/2009      $57,980,000    $279,990,000    Updated portfolio data from servicer & HAFA initial cap
                                                          Financial Instrument
            Carrington Mortgage Services,
4/27/2009                                   Purchase      for Home Loan                    $195,000,000            N/A    3/26/2010       $74,520,000    $354,510,000    Updated portfolio data from servicer
            LLC, Santa Ana, CA
                                                          Modifications
                                                                                                                          7/14/2010      ($75,610,000)   $278,900,000    Updated portfolio data from servicer

                                                                                                                          8/13/2010        $1,100,000    $280,000,000    Transfer of cap due to servicing transfer

                                                                                                                          9/30/2010        $3,763,685    $283,763,685    Updated portfolio data from servicer

                                                                                                                          6/17/2009    ($338,450,000)    $459,550,000    Updated portfolio data from servicer

                                                                                                                          9/30/2009      ($11,860,000)   $447,690,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                          12/30/2009      $21,330,000    $469,020,000    Updated portfolio data from servicer & HAFA initial cap
                                                          Financial Instrument
            Aurora Loan Services, LLC,
5/1/2009                                    Purchase      for Home Loan                    $798,000,000            N/A
            Littleton, CO                                                                                                 3/26/2010        $9,150,000    $478,170,000    Updated portfolio data from servicer
                                                          Modifications
                                                                                                                          7/14/2010      ($76,870,000)   $401,300,000    Updated portfolio data from servicer

                                                                                                                          9/1/2010           $400,000    $401,700,000    Initial FHA-HAMP cap

                                                                                                                          9/30/2010       ($8,454,269)   $393,245,731    Updated portfolio data from servicer

                                                                                                                          6/12/2009       $16,140,000    $117,140,000    Updated portfolio data from servicer

                                                                                                                          9/30/2009     $134,560,000     $251,700,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                          12/30/2009      $80,250,000    $331,950,000    Updated portfolio data from servicer & HAFA initial cap

                                                          Financial Instrument                                            3/26/2010       $67,250,000    $399,200,000    Updated portfolio data from servicer
            Nationstar Mortgage LLC,
5/28/2009                                   Purchase      for Home Loan                    $101,000,000            N/A
            Lewisville, TX
                                                          Modifications                                                   7/14/2010      ($85,900,000)   $313,300,000    Updated portfolio data from servicer

                                                                                                                          8/13/2010          $100,000    $313,400,000    Transfer of cap due to servicing transfer

                                                                                                                          9/30/2010        $2,900,000    $316,300,000    Initial FHA-HAMP cap, initial FHA2LP cap, initial RD-HAMP, and initial 2MP cap

                                                                                                                          9/30/2010       $33,801,486    $350,101,486    Updated portfolio data from servicer

                                                                                                                          9/30/2009       ($1,860,000)    $17,540,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                          12/30/2009      $27,920,000     $45,460,000    Updated portfolio data from servicer & HAFA initial cap
                                                          Financial Instrument                                            3/26/2010       ($1,390,000)    $44,070,000    Updated portfolio data from servicer
            Residential Credit Solutions,
6/12/2009                                   Purchase      for Home Loan                      $19,400,000           N/A
            Fort Worth, TX
                                                          Modifications                                                   7/14/2010      ($13,870,000)    $30,200,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                                    Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                          9/30/2010          $400,000     $30,600,000    Initial FHA-HAMP cap, initial FHA2LP cap, and initial 2MP cap

                                                                                                                          9/30/2010          $586,954     $31,186,954    Updated portfolio data from servicer

                                                                                                                                                                                                                                                          Continued on next page.
                                                                                                                                                                                                                                                                                    281
                                                                                                                                                                                                                                                                       282
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                              Adjustment Details

                                                                                           Cap of Incentive
                                                                                               Payments on
                                                                                   Behalf of Borrowers and
                                              Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                      Market Capitalization
Date        Name of Institution               Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount       Adjusted Cap    Reason for Adjustment                                                    (in Millions)

                                                                                                                            9/30/2009        $13,070,000      $29,590,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009     $145,510,000      $175,100,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
6/17/2009   CCO Mortgage, Glen Allen, VA      Purchase      for Home Loan                      $16,520,000           N/A    3/26/2010     ($116,950,000)      $58,150,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                            7/14/2010      ($23,350,000)      $34,800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010         $7,846,346      $42,646,346    Updated portfolio data from servicer

                                                                                                                            9/30/2009      ($11,300,000)      $45,700,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009     ($42,210,000)       $3,490,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument                                            3/26/2010        $65,640,000      $69,130,000    Updated portfolio data from servicer
            RG Mortgage Corporation,
6/17/2009                                     Purchase      for Home Loan                      $57,000,000           N/A
            San Juan, PR
                                                            Modifications                                                   4/9/2010       ($14,470,000)      $54,660,000    Updated portfolio data from servicer

                                                                                                                            7/14/2010        ($8,860,000)     $45,800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010        ($4,459,154)     $41,340,846    Updated portfolio data from servicer
                                                                                                                            12/30/2009        $2,020,000       $2,790,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            First Federal Savings and Loan,
6/19/2009                                     Purchase      for Home Loan                         $770,000           N/A    3/26/2010        $11,370,000      $14,160,000    Updated portfolio data from servicer
            Port Angeles, WA
                                                            Modifications
                                                                                                                            5/26/2010      ($14,160,000)                —    Termination of SPA
                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                                                                                            9/30/2009           $330,000         $870,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009       $16,490,000      $17,360,000    Updated portfolio data from servicer & HAFA initial cap

                                                            Financial Instrument                                            3/26/2010       ($14,260,000)      $3,100,000    Updated portfolio data from servicer
            Wescom Central Credit Union,
6/19/2009                                     Purchase      for Home Loan                         $540,000           N/A
            Anaheim, CA                                                                                                     7/14/2010        ($1,800,000)      $1,300,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                            7/30/2010         $1,500,000       $2,800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010         $1,551,668       $4,351,668    Updated portfolio data from servicer

                                                                                                                            9/30/2009           ($10,000)         $20,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009          $590,000         $610,000    Updated portfolio data from servicer & HAFA initial cap
            Citizens First Wholesale                        Financial Instrument
6/26/2009   Mortgage Company,                 Purchase      for Home Loan                          $30,000           N/A    3/26/2010         ($580,000)          $30,000    Updated portfolio data from servicer
            The Villages, FL                                Modifications
                                                                                                                            7/14/2010            $70,000         $100,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010            $45,056         $145,056    Updated portfolio data from servicer

                                                                                                                            12/30/2009        $2,180,000       $2,250,000    Updated portfolio data from servicer & HAFA initial cap

                                                            Financial Instrument                                            3/26/2010         ($720,000)       $1,530,000    Updated portfolio data from servicer
            Technology Credit Union,
6/26/2009                                     Purchase      for Home Loan                          $70,000           N/A
            San Jose, CA                                                                                                    7/14/2010          ($430,000)      $1,100,000    Updated portfolio data from servicer
                                                            Modifications

                                                                                                                            9/30/2010            $60,445       $1,160,445    Updated portfolio data from servicer

                                                                                                                            9/30/2009      $315,170,000      $610,150,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009       $90,280,000     $700,430,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                            3/26/2010       ($18,690,000)    $681,740,000    Updated portfolio data from servicer
                                                            Financial Instrument
            National City Bank,
6/26/2009                                     Purchase      for Home Loan                    $294,980,000            N/A
            Miamisburg, OH
                                                            Modifications                                                   7/14/2010     ($272,640,000)     $409,100,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010        $80,600,000     $489,700,000    Initial FHA-HAMP cap, initial FHA2LP cap, and initial 2MP cap

                                                                                                                            9/30/2010        $71,230,004     $560,930,004    Updated portfolio data from servicer

                                                                                                                            9/30/2009      $723,880,000     $1,357,890,000   Updated portfolio data from servicer & HPDP initial cap

                                                            Financial Instrument                                            12/30/2009     $692,640,000     $2,050,530,000   Updated portfolio data from servicer & HAFA initial cap
            Wachovia Mortgage, FSB,
7/1/2009                                      Purchase      for Home Loan                    $634,010,000            N/A
            Des Moines, IA3
                                                            Modifications                                                   2/17/2010    ($2,050,236,344)        $293,656    Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                            3/12/2010           ($54,767)        $238,890    Transfer of cap (to Wells Fargo Bank) due to merger

                                                                                                                                                                                                                                             Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                            Adjustment Details

                                                                                           Cap of Incentive
                                                                                               Payments on
                                                                                   Behalf of Borrowers and
                                              Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                              Market Capitalization
Date        Name of Institution               Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                                              (in Millions)

                                                                                                                            9/30/2009       $23,850,000     $68,110,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009      $43,590,000    $111,700,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                            3/26/2010       $34,540,000    $146,240,000    Updated portfolio data from servicer
                                                            Financial Instrument
            Bayview Loan Servicing, LLC,
7/1/2009                                      Purchase      for Home Loan                      $44,260,000           N/A    5/7/2010         $1,010,000    $147,250,000    Initial 2MP cap
            Coral Gables, FL
                                                            Modifications
                                                                                                                            7/14/2010      ($34,250,000)   $113,000,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010          $600,000    $113,600,000    Initial FHA2LP cap

                                                                                                                            9/30/2010      ($15,252,303)    $98,347,697    Updated portfolio data from servicer

                                                                                                                            9/30/2009          $150,000        $250,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009         $130,000        $380,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            Lake National Bank,
7/10/2009                                     Purchase      for Home Loan                         $100,000           N/A    3/26/2010           $50,000        $430,000    Updated portfolio data from servicer
            Mentor, OH
                                                            Modifications
                                                                                                                            7/14/2010          ($30,000)       $400,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010           $35,167        $435,167    Updated portfolio data from servicer

                                                                                                                            9/30/2009          ($10,000)       $860,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009         $250,000      $1,110,000    Updated portfolio data from servicer & HAFA initial cap
            IBM Southeast Employees’                        Financial Instrument
7/10/2009   Federal Credit Union,             Purchase      for Home Loan                         $870,000           N/A    3/26/2010          ($10,000)     $1,100,000    Updated portfolio data from servicer
            Delray Beach, FL                                Modifications
                                                                                                                            7/14/2010         ($400,000)       $700,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010          $170,334        $870,334    Updated portfolio data from servicer

                                                                                                                            9/30/2009       $18,530,000     $42,010,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009      $24,510,000     $66,520,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
7/17/2009   MorEquity, Inc., Evansville, IN   Purchase      for Home Loan                      $23,480,000           N/A    3/26/2010       $18,360,000     $84,880,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                            7/14/2010      ($22,580,000)    $62,300,000    Updated portfolio data from servicer


                                                                                                                            9/30/2010       ($8,194,261)    $54,105,739    Updated portfolio data from servicer

                                                                                                                            9/30/2009      ($36,240,000)    $18,230,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009      $19,280,000     $37,510,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument                                            3/26/2010        $2,470,000     $39,980,000    Updated portfolio data from servicer
            PNC Bank, National Association,
7/17/2009                                     Purchase      for Home Loan                      $54,470,000           N/A                                                                                                                           $27,804
            Pittsburgh, PA
                                                            Modifications                                                   7/14/2010      ($17,180,000)    $22,800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010       $35,500,000     $58,300,000    Initial FHA2LP cap and initial 2MP cap

                                                                                                                            9/30/2010       $23,076,191     $81,376,191    Updated portfolio data from servicer

                                                                                                                            9/30/2009          ($90,000)        $80,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009          $50,000        $130,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            Farmers State Bank,
7/17/2009                                     Purchase      for Home Loan                         $170,000           N/A    3/26/2010          $100,000        $230,000    Updated portfolio data from servicer
            West Salem, OH
                                                            Modifications
                                                                                                                            7/14/2010         ($130,000)       $100,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                            9/30/2009          $890,000      $2,300,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009       $1,260,000      $3,560,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
7/17/2009   ShoreBank, Chicago, IL            Purchase      for Home Loan                       $1,410,000           N/A    3/26/2010          ($20,000)     $3,540,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                            7/14/2010         ($240,000)     $3,300,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                               Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                            9/30/2010          $471,446      $3,771,446    Updated portfolio data from servicer

                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                               283
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)
                                                                                                                                                                                                                                                                       284
            Servicer Modifying Borrowers’ Loans                                                                                                               Adjustment Details

                                                                                            Cap of Incentive
                                                                                                Payments on
                                                                                    Behalf of Borrowers and
                                               Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                     Market Capitalization
Date        Name of Institution                Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount       Adjusted Cap    Reason for Adjustment                                                   (in Millions)

                                                                                                                             9/30/2009      ($53,670,000)    $1,218,820,000   Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009     $250,450,000     $1,469,270,000   Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument
            American Home Mortgage
7/22/2009                                      Purchase      for Home Loan                   $1,272,490,000           N/A    3/26/2010      $124,820,000     $1,594,090,000   Updated portfolio data from servicer
            Servicing, Inc, Coppell, TX
                                                             Modifications
                                                                                                                             7/14/2010     ($289,990,000)    $1,304,100,000   Updated portfolio data from servicer

                                                                                                                             9/30/2010         $1,690,508    $1,305,790,508   Updated portfolio data from servicer

                                                                                                                             9/30/2009         $1,780,000       $5,990,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009        $2,840,000       $8,830,000    Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument
            Mortgage Center, LLC,
7/22/2009                                      Purchase      for Home Loan                       $4,210,000           N/A    3/26/2010         $2,800,000      $11,630,000    Updated portfolio data from servicer
            Southfield, MI
                                                             Modifications
                                                                                                                             7/14/2010        ($5,730,000)      $5,900,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010         $2,658,280       $8,558,280    Updated portfolio data from servicer

                                                                                                                             9/30/2009         ($490,000)         $370,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009        $6,750,000       $7,120,000    Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument
            Mission Federal Credit Union,
7/22/2009                                      Purchase      for Home Loan                         $860,000           N/A    3/26/2010        ($6,340,000)        $780,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                       Appendix D I Transaction Detail I OCTOBER 26, 2010




            San Diego, CA
                                                             Modifications
                                                                                                                             7/14/2010         ($180,000)         $600,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010          $125,278          $725,278    Updated portfolio data from servicer

                                                                                                                             9/30/2009        ($1,530,000)      $4,930,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009         $680,000        $5,610,000    Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument
7/29/2009   First Bank, St. Louis, MO          Purchase      for Home Loan                       $6,460,000           N/A    3/26/2010         $2,460,000       $8,070,000    Updated portfolio data from servicer
                                                             Modifications
                                                                                                                             7/14/2010        ($2,470,000)      $5,600,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010         $2,523,114       $8,123,114    Updated portfolio data from servicer

                                                                                                                             9/30/2009           ($60,000)      $1,030,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009        $1,260,000       $2,290,000    Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument
            Purdue Employees Federal
7/29/2009                                      Purchase      for Home Loan                       $1,090,000           N/A    3/26/2010         $2,070,000       $4,360,000    Updated portfolio data from servicer
            Credit Union, West Lafayette, IN
                                                             Modifications
                                                                                                                             7/14/2010        ($3,960,000)        $400,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010          $180,222          $580,222    Updated portfolio data from servicer

                                                                                                                             9/30/2009      ($37,700,000)      $47,320,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009      $26,160,000       $73,480,000    Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument
            Wachovia Bank, N.A.,
7/29/2009                                      Purchase      for Home Loan                      $85,020,000           N/A    3/26/2010         $9,820,000      $83,300,000    Updated portfolio data from servicer
            Charlotte, NC
                                                             Modifications
                                                                                                                             7/14/2010      ($46,200,000)      $37,100,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010      ($28,686,775)       $8,413,225    Updated portfolio data from servicer

                                                                                                                             9/30/2009      ($14,850,000)    $2,684,870,000   Updated portfolio data from servicer & HPDP initial cap

                                                                                                                             12/30/2009    $1,178,180,000    $3,863,050,000   Updated portfolio data from servicer & HAFA initial cap
                                                             Financial Instrument                                            3/26/2010     $1,006,580,000    $4,869,630,000   Updated portfolio data from servicer & 2MP initial cap
            J.P.Morgan Chase Bank, NA,
7/31/2009                                      Purchase      for Home Loan                   $2,699,720,000           N/A                                                                                                                                 $157,972
            Lewisville, TX
                                                             Modifications                                                   7/14/2010    ($1,934,230,000)   $2,935,400,000   Updated portfolio data from servicer

                                                                                                                             9/30/2010        $72,400,000    $3,007,800,000   Initial FHA-HAMP cap, nitial FHA2LP cap, and initial RD-HAMP

                                                                                                                             9/30/2010      $215,625,536     $3,223,425,536   Updated portfolio data from servicer

                                                                                                                                                                                                                                             Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                             Adjustment Details

                                                                                           Cap of Incentive
                                                                                               Payments on
                                                                                   Behalf of Borrowers and
                                              Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                         Market Capitalization
Date        Name of Institution               Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount      Adjusted Cap    Reason for Adjustment                                                        (in Millions)

                                                                                                                            9/30/2009          ($10,000)    $707,370,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009     $502,430,000    $1,209,800,000   Updated portfolio data from servicer & HAFA initial cap

                                                                                                                            3/26/2010    ($134,560,000)    $1,075,240,000   Updated portfolio data from servicer & 2MP initial cap
                                                            Financial Instrument
            EMC Mortgage Corporation,
7/31/2009                                     Purchase      for Home Loan                    $707,380,000            N/A    7/14/2010     ($392,140,000)    $683,100,000    Updated portfolio data from servicer
            Lewisville, TX
                                                            Modifications
                                                                                                                            7/16/2010         ($630,000)    $682,470,000    Transfer of cap to Saxon Mortgage Services, Inc.

                                                                                                                            9/30/2010       $13,100,000     $695,570,000    Initial FHA-HAMP cap and initial FHA2LP cap

                                                                                                                            9/30/2010       ($8,006,457)    $687,563,543    Updated portfolio data from servicer

                                                                                                                            9/30/2009          $180,000         $600,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009        ($350,000)        $250,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
8/5/2009    Lake City Bank, Warsaw, IN        Purchase      for Home Loan                         $420,000           N/A    3/26/2010           $20,000         $270,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                            7/14/2010          ($70,000)        $200,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010           $90,111         $290,111    Updated portfolio data from servicer

                                                                                                                            9/30/2009          $290,000         $430,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009         $210,000         $640,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            Oakland Municipal Credit Union,
8/5/2009                                      Purchase      for Home Loan                         $140,000           N/A    3/26/2010          $170,000         $810,000    Updated portfolio data from servicer
            Oakland, CA
                                                            Modifications
                                                                                                                            7/14/2010          ($10,000)        $800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010          ($74,722)        $725,278    Updated portfolio data from servicer

                                                                                                                            9/30/2009     ($121,190,000)    $552,810,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009     ($36,290,000)    $516,520,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            HomEq Servicing, North
8/5/2009                                      Purchase      for Home Loan                    $674,000,000            N/A    3/26/2010      $199,320,000     $715,840,000    Updated portfolio data from servicer
            Highlands, CA
                                                            Modifications
                                                                                                                            7/14/2010     ($189,040,000)    $526,800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010       $38,626,728     $565,426,728    Updated portfolio data from servicer

                                                                                                                            9/30/2009      $313,050,000    $1,087,950,000   Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009     $275,370,000    $1,363,320,000   Updated portfolio data from servicer & HAFA initial cap

                                                                                                                            3/26/2010      $278,910,000    $1,642,230,000   Updated portfolio data from servicer
                                                            Financial Instrument
            Litton Loan Servicing LP,
8/12/2009                                     Purchase      for Home Loan                    $774,900,000            N/A    7/14/2010     ($474,730,000)   $1,167,500,000   Updated portfolio data from servicer
            Houston, TX
                                                            Modifications
                                                                                                                            8/13/2010         ($700,000)   $1,166,800,000   Transfer of cap to due to servicing transfer

                                                                                                                            9/15/2010       ($1,000,000)   $1,165,800,000   Transfer of cap to due to servicing transfer

                                                                                                                            9/30/2010     ($115,017,236)   $1,050,782,764   Updated portfolio data from servicer

                                                                                                                            9/30/2009       ($1,200,000)      $5,010,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                            12/30/2009      $30,800,000      $35,810,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                            3/26/2010       $23,200,000      $59,010,000    Updated portfolio data from servicer

                                                                                                                            6/16/2010        $2,710,000      $61,720,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                            Financial Instrument                                            7/14/2010      ($18,020,000)     $43,700,000    Updated portfolio data from servicer
            PennyMac Loan Services, LLC,
8/12/2009                                     Purchase      for Home Loan                       $6,210,000           N/A
            Calasbasa, CA
                                                            Modifications                                                   7/16/2010        $6,680,000      $50,380,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer

                                                                                                                            8/13/2010        $2,600,000      $52,980,000    Transfer of cap to due to servicing transfer

                                                                                                                            9/15/2010         ($100,000)     $52,880,000    Transfer of cap to due to servicing transfer

                                                                                                                            9/30/2010          $200,000      $53,080,000    Initial FHA-HAMP cap and 2MP initial cap

                                                                                                                            9/30/2010       ($1,423,197)     $51,656,803    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                          Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                                                                                                                                                Continued on next page.
                                                                                                                                                                                                                                                                          285
                                                                                       (CONTINued)
                                                                                                                                                                                                                                                                             286
HAMP TRANSACTION DETAIL, AS OF 9/30/2010
              Servicer Modifying Borrowers’ Loans                                                                                                              Adjustment Details

                                                                                              Cap of Incentive
                                                                                                  Payments on
                                                                                      Behalf of Borrowers and
                                                 Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                         Market Capitalization
Date          Name of Institution                Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount      Adjusted Cap    Reason for Adjustment                                                        (in Millions)

                                                                                                                               9/30/2009      ($25,510,000)      $4,220,000    Updated portfolio data from servicer & HPDP initial cap

                                                                                                                               12/30/2009         $520,000       $4,740,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                               3/26/2010        $4,330,000       $9,070,000    Updated portfolio data from servicer

                                                                                                                               4/19/2010          $230,000       $9,300,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                               Financial Instrument
8/12/2009     Servis One, Inc., Titusville, PA   Purchase      for Home Loan                      $29,730,000           N/A    5/19/2010          $850,000      $10,150,000    Initial 2MP cap
                                                               Modifications
                                                                                                                               7/14/2010         ($850,000)      $9,300,000    Updated portfolio data from servicer

                                                                                                                               9/15/2010          $100,000       $9,400,000    Transfer of cap to due to servicing transfer

                                                                                                                               9/30/2010          $100,000       $9,500,000    Initial FHA-HAMP cap

                                                                                                                               9/30/2010       $16,755,064      $26,255,064    Updated portfolio data from servicer

                                                                                                                               10/2/2009      $145,800,000     $814,240,000    HPDP initial cap

                                                                                                                               12/30/2009   $1,355,930,000    $2,170,170,000   Updated portfolio data from servicer & HAFA initial cap
                                                               Financial Instrument                                            3/26/2010      $121,180,000    $2,291,350,000   Updated portfolio data from servicer
8/28/2009     OneWest Bank, Pasadena, CA         Purchase      for Home Loan                    $668,440,000            N/A
                                                               Modifications                                                   7/14/2010     ($408,850,000)   $1,882,500,000   Updated portfolio data from servicer

                                                                                                                               9/30/2010        $5,500,000    $1,888,000,000   2MP initial cap
                                                                                                                                                                                                                                                                             Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                                                                                               9/30/2010      ($51,741,163)   $1,836,258,837   Updated portfolio data from servicer

                                                                                                                               10/2/2009           $70,000         $370,000    HPDP initial cap

                                                                                                                               12/30/2009       $2,680,000       $3,050,000    Updated portfolio data from servicer & HAFA initial cap
                                                               Financial Instrument
              Stanford Federal Credit Union,
8/28/2009                                        Purchase      for Home Loan                         $300,000           N/A    3/26/2010          $350,000       $3,400,000    Updated portfolio data from servicer
              Palo Alto, CA
                                                               Modifications
                                                                                                                               7/14/2010       ($1,900,000)      $1,500,000    Updated portfolio data from servicer

                                                                                                                               9/30/2010       ($1,209,889)        $290,111    Updated portfolio data from servicer

                                                                                                                               10/2/2009          $130,000         $700,000    HPDP initial cap

                                                                                                                               12/30/2009        ($310,000)        $390,000    Updated portfolio data from servicer & HAFA initial cap
                                                               Financial Instrument
              RoundPoint Mortgage Servicing
8/28/2009                                        Purchase      for Home Loan                         $570,000           N/A    3/26/2010        $2,110,000       $2,500,000    Updated portfolio data from servicer
              Corporation, Charlotte, NC
                                                               Modifications
                                                                                                                               7/14/2010        $8,300,000      $10,800,000    Updated portfolio data from servicer

                                                                                                                               9/30/2010        $5,301,172      $16,101,172    Updated portfolio data from servicer

                                                                                                                               10/2/2009          $130,000         $690,000    HPDP initial cap

                                                                                                                               12/30/2009       $1,040,000       $1,730,000    Updated portfolio data from servicer & HAFA initial cap

                                                                                                                               3/26/2010       ($1,680,000)         $50,000    Updated portfolio data from servicer
                                                               Financial Instrument
9/2/2009      Horicon Bank, Horicon, WI          Purchase      for Home Loan                         $560,000           N/A    5/12/2010        $1,260,000       $1,310,000    Updated portfolio data from servicer
                                                               Modifications
                                                                                                                               7/14/2010       ($1,110,000)        $200,000    Updated portfolio data from servicer

                                                                                                                               9/30/2010          $100,000         $300,000    Initial RD-HAMP

                                                                                                                               9/30/2010           ($9,889)        $290,111    Updated portfolio data from servicer

                                                                                                                               10/2/2009        $1,310,000       $7,310,000    HPDP initial cap

                                                                                                                               12/30/2009      ($3,390,000)      $3,920,000    Updated portfolio data from servicer & HAFA initial cap
9/2/2009 as                                                    Financial Instrument                                            3/26/2010          $410,000       $4,330,000    Updated portfolio data from servicer
              Vantium Capital, Inc.dba Acqura
amended on                                       Purchase      for Home Loan                       $6,000,000           N/A
              Loan Services, Plano, TX10
8/27/2010                                                      Modifications                                                   7/14/2010         ($730,000)      $3,600,000    Updated portfolio data from servicer

                                                                                                                               9/15/2010        $4,700,000       $8,300,000    Transfer of cap due to servicing transfer

                                                                                                                               9/30/2010          $117,764       $8,417,764    Updated portfolio data from servicer

                                                                                                                               10/2/2009          $280,000       $1,530,000    HPDP initial cap

                                                                                                                               12/30/2009        ($750,000)        $780,000    Updated portfolio data from servicer & HAFA initial cap
              Central Florida Educators                        Financial Instrument
9/9/2009      Federal Credit Union,              Purchase      for Home Loan                       $1,250,000           N/A    3/26/2010          $120,000         $900,000    Updated portfolio data from servicer
              Lake Mary, FL                                    Modifications
                                                                                                                               7/14/2010         ($300,000)        $600,000    Updated portfolio data from servicer

                                                                                                                               9/30/2010          $270,334         $870,334    Updated portfolio data from servicer

                                                                                                                                                                                                                                                   Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                            Adjustment Details

                                                                                           Cap of Incentive
                                                                                               Payments on
                                                                                   Behalf of Borrowers and
                                              Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                              Market Capitalization
Date        Name of Institution               Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                                              (in Millions)

                                                                                                                            10/2/2009       $24,920,000    $139,140,000    HPDP initial cap

                                                                                                                            12/30/2009      $49,410,000    $188,550,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            U.S. Bank National Association,
9/9/2009                                      Purchase      for Home Loan                    $114,220,000            N/A    3/26/2010       $41,830,000    $230,380,000    Updated portfolio data from servicer
            Owensboro, KY
                                                            Modifications
                                                                                                                            7/14/2010      ($85,780,000)   $144,600,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010       $36,574,444    $181,174,444    Updated portfolio data from servicer

                                                                                                                            10/2/2009          $950,000      $5,300,000    HPDP initial cap

                                                                                                                            12/30/2009       $5,700,000     $11,000,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            CUC Mortgage Corporation,
9/9/2009                                      Purchase      for Home Loan                       $4,350,000           N/A    3/26/2010          $740,000     $11,740,000    Updated portfolio data from servicer
            Albany, NY
                                                            Modifications
                                                                                                                            7/14/2010       ($1,440,000)    $10,300,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010       ($6,673,610)     $3,626,390    Updated portfolio data from servicer

                                                                                                                            10/2/2009          $460,000      $2,530,000    HPDP initial cap

                                                                                                                            12/30/2009       $2,730,000      $5,260,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            ORNL Federal Credit Union,
9/11/2009                                     Purchase      for Home Loan                       $2,070,000           N/A    3/26/2010       $13,280,000     $18,540,000    Updated portfolio data from servicer
            Oak Ridge, TN
                                                            Modifications
                                                                                                                            7/14/2010      ($13,540,000)     $5,000,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010        $1,817,613      $6,817,613    Updated portfolio data from servicer

                                                                                                                            10/2/2009           $60,000        $310,000    HPDP initial cap

                                                                                                                            12/30/2009         ($80,000)       $230,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            Allstate Mortgage Loans &
9/11/2009                                     Purchase      for Home Loan                         $250,000           N/A    3/26/2010          $280,000        $510,000    Updated portfolio data from servicer
            Investments, Inc., Ocala, FL
                                                            Modifications
                                                                                                                            7/14/2010         ($410,000)       $100,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                            10/2/2009           $70,000        $350,000    HPDP initial cap

                                                                                                                            12/30/2009         $620,000        $970,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            Metropolitan National Bank,
9/11/2009                                     Purchase      for Home Loan                         $280,000           N/A    3/26/2010          $100,000      $1,070,000    Updated portfolio data from servicer
            Little Rock, AR
                                                            Modifications
                                                                                                                            7/14/2010         ($670,000)       $400,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010           $35,167        $435,167    Updated portfolio data from servicer

                                                                                                                            10/2/2009        $6,010,000     $33,520,000    HPDP initial cap

                                                                                                                            12/30/2009     ($19,750,000)    $13,770,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            Franklin Credit Management
9/11/2009                                     Purchase      for Home Loan                      $27,510,000           N/A    3/26/2010       ($4,780,000)     $8,990,000    Updated portfolio data from servicer
            Corporation, Jersey City, NJ
                                                            Modifications
                                                                                                                            7/14/2010       ($2,390,000)     $6,600,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010        $2,973,670      $9,573,670    Updated portfolio data from servicer

                                                                                                                            10/2/2009           $90,000        $500,000    HPDP initial cap

                                                                                                                            12/30/2009       $1,460,000      $1,960,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
            Bay Federal Credit Union,
9/16/2009                                     Purchase      for Home Loan                         $410,000           N/A    3/26/2010          $160,000      $2,120,000    Updated portfolio data from servicer
            Capitola, CA
                                                            Modifications
                                                                                                                            7/14/2010         ($120,000)     $2,000,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010       ($1,419,778)       $580,222    Updated portfolio data from servicer

                                                                                                                            10/2/2009          $960,000      $5,350,000    HPDP initial cap

                                                                                                                            12/30/2009      ($3,090,000)     $2,260,000    Updated portfolio data from servicer & HAFA initial cap
                                                            Financial Instrument
9/23/2009   AMS Servicing, LLC, Buffalo, NY   Purchase      for Home Loan                       $4,390,000           N/A    3/26/2010          $230,000      $2,490,000    Updated portfolio data from servicer
                                                            Modifications
                                                                                                                                                                                                                                                               Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                            7/14/2010        $5,310,000      $7,800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010          $323,114      $8,123,114    Updated portfolio data from servicer

                                                                                                                                                                                                                                     Continued on next page.
                                                                                                                                                                                                                                                               287
                                                                                      (CONTINued)
                                                                                                                                                                                                                                                                 288
HAMP TRANSACTION DETAIL, AS OF 9/30/2010
             Servicer Modifying Borrowers’ Loans                                                                                                             Adjustment Details

                                                                                             Cap of Incentive
                                                                                                 Payments on
                                                                                     Behalf of Borrowers and
                                                Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                              Market Capitalization
Date         Name of Institution                Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                                              (in Millions)

                                                                                                                              10/2/2009           $90,000        $480,000    HPDP initial cap

                                                                                                                              12/30/2009        $940,000       $1,420,000    Updated portfolio data from servicer & HAFA initial cap
                                                              Financial Instrument
             Schools Financial Credit Union,
9/23/2009                                       Purchase      for Home Loan                         $390,000           N/A    3/26/2010        ($980,000)        $440,000    Updated portfolio data from servicer
             Sacramento, CA
                                                              Modifications
                                                                                                                              7/14/2010        ($140,000)        $300,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010        $1,150,556      $1,450,556    Updated portfolio data from servicer

                                                                                                                              10/2/2009           $60,000        $290,000    HPDP initial cap

                                                                                                                              12/30/2009         ($10,000)       $280,000    Updated portfolio data from servicer & HAFA initial cap
                                                              Financial Instrument
             Glass City Federal Credit Union,
9/23/2009                                       Purchase      for Home Loan                         $230,000           N/A    3/26/2010         $130,000         $410,000    Updated portfolio data from servicer
             Maumee, OH
                                                              Modifications
                                                                                                                              7/14/2010        ($110,000)        $300,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010           ($9,889)       $290,111    Updated portfolio data from servicer

                                                                                                                              10/2/2009           $10,000         $40,000    HPDP initial cap

                                                                                                                              12/30/2009         $120,000        $160,000    Updated portfolio data from servicer & HAFA initial cap
                                                              Financial Instrument
             Central Jersey Federal Credit
9/23/2009                                       Purchase      for Home Loan                          $30,000           N/A    3/26/2010           $10,000        $170,000    Updated portfolio data from servicer
             Union, Woodbridge, NJ
                                                              Modifications
                                                                                                                              7/14/2010          ($70,000)       $100,000    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                                                                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                              10/2/2009           $60,000        $300,000    HPDP initial cap

                                                                                                                              12/30/2009         $350,000        $650,000    Updated portfolio data from servicer & HAFA initial cap
                                                              Financial Instrument
9/23/2009    Yadkin Valley Bank, Elkin, NC      Purchase      for Home Loan                         $240,000           N/A                                                                                                                                $41
                                                                                                                              3/26/2010        $1,360,000      $2,010,000    Updated portfolio data from servicer
                                                              Modifications
                                                                                                                              7/14/2010       ($1,810,000)       $200,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010          $235,167        $435,167    Updated portfolio data from servicer

                                                                                                                              10/2/2009          $100,000        $540,000    HPDP initial cap

                                                                                                                              12/30/2009          $20,000        $560,000    Updated portfolio data from servicer & HAFA initial cap
                                                              Financial Instrument
9/25/2009    SEFCU, Albany, NY                  Purchase      for Home Loan                         $440,000           N/A    3/26/2010        ($290,000)        $270,000    Updated portfolio data from servicer
                                                              Modifications
                                                                                                                              7/14/2010          ($70,000)       $200,000    Updated portfolio data from servicer


                                                                                                                              9/30/2010          ($54,944)       $145,056    Updated portfolio data from servicer

                                                                                                                              12/30/2009       $1,030,000      $1,600,000    Updated portfolio data from servicer & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010        ($880,000)        $720,000    Updated portfolio data from servicer
             Great Lakes Credit Union,
10/14/2009                                      Purchase      for Home Loan                         $570,000           N/A
             North Chicago, IL
                                                              Modifications                                                   7/14/2010        ($320,000)        $400,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010          $180,222        $580,222    Updated portfolio data from servicer

                                                                                                                              12/30/2009      ($2,900,000)     $1,960,000    Updated portfolio data from servicer & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010       ($1,600,000)       $360,000    Updated portfolio data from servicer
             Mortgage Clearing Corporation,
10/14/2009                                      Purchase      for Home Loan                       $4,860,000           N/A
             Tulsa, OK
                                                              Modifications                                                   7/14/2010        ($260,000)        $100,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                              1/22/2010           $20,000        $430,000    Updated HPDP cap & HAFA initial cap
             United Bank Mortgage                             Financial Instrument                                            3/26/2010          $400,000        $830,000    Updated portfolio data from servicer
10/21/2009   Corporation,                       Purchase      for Home Loan                         $410,000           N/A
             Grand Rapids, MI                                 Modifications                                                   7/14/2010        ($430,000)        $400,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010          $180,222        $580,222    Updated portfolio data from servicer

                                                                                                                              1/22/2010        $4,370,000     $98,030,000    Updated HPDP cap & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010       $23,880,000    $121,910,000    Updated portfolio data from servicer
10/23/2009   Bank United, Miami Lakes, FL       Purchase      for Home Loan                      $93,660,000           N/A
                                                              Modifications                                                   7/14/2010      ($16,610,000)   $105,300,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010        $1,751,033    $107,051,033    Updated portfolio data from servicer

                                                                                                                                                                                                                                       Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
             Servicer Modifying Borrowers’ Loans                                                                                                             Adjustment Details

                                                                                             Cap of Incentive
                                                                                                 Payments on
                                                                                     Behalf of Borrowers and
                                                Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                           Market Capitalization
Date         Name of Institution                Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                           (in Millions)

                                                                                                                              1/22/2010           $40,000        $800,000    Updated HPDP cap & HAFA initial cap
                                                                                                                              3/26/2010        ($760,000)         $40,000    Updated portfolio data from servicer
                                                              Financial Instrument
             IC Federal Credit Union,                                                                                         5/12/2010        $2,630,000      $2,670,000    Updated portfolio data from servicer
10/23/2009                                      Purchase      for Home Loan                         $760,000           N/A
             Fitchburg, MA
                                                              Modifications
                                                                                                                              7/14/2010        ($770,000)      $1,900,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010         $565,945       $2,465,945    Updated portfolio data from servicer

                                                              Financial Instrument
             Harleysville National Bank &
10/28/2009                                      Purchase      for Home Loan                       $1,070,000           N/A    4/21/2010       ($1,070,000)              —    Termination of SPA
             Trust Company, Harleysville, PA
                                                              Modifications

                                                              Financial Instrument
             Members Mortgage Company,
10/28/2009                                      Purchase      for Home Loan                         $510,000           N/A    4/21/2010        ($510,000)               —    Termination of SPA
             Inc, Woburn, MA
                                                              Modifications

                                                                                                                              1/22/2010           $10,000         $80,000    Updated HPDP cap & HAFA initial cap

                                                              Financial Instrument                                            3/26/2010           $10,000         $90,000    Updated portfolio data from servicer
             DuPage Credit Union,
10/30/2009                                      Purchase      for Home Loan                          $70,000           N/A
             Naperville, IL
                                                              Modifications
                                                                                                                              7/14/2010           $10,000        $100,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer


                                                                                                                              1/22/2010           $40,000        $740,000    Updated HPDP cap & HAFA initial cap

                                                              Financial Instrument                                            3/26/2010           $50,000        $790,000    Updated portfolio data from servicer
             Los Alamos National Bank,
11/6/2009                                       Purchase      for Home Loan                         $700,000           N/A
             Los Alamos, NM
                                                              Modifications
                                                                                                                              7/14/2010        $1,310,000      $2,100,000    Updated portfolio data from servicer


                                                                                                                              9/30/2010           $75,834      $2,175,834    Updated portfolio data from servicer


                                                                                                                              1/22/2010         $890,000      $19,850,000    Updated HPDP cap & HAFA initial cap

                                                              Financial Instrument                                            3/26/2010        $3,840,000     $23,690,000    Updated portfolio data from servicer
             Quantum Servicing Corporation,
11/18/2009                                      Purchase      for Home Loan                      $18,960,000           N/A
             Tampa, FL
                                                              Modifications
                                                                                                                              7/14/2010       ($2,890,000)    $20,800,000    Updated portfolio data from servicer


                                                                                                                              9/30/2010        $9,661,676     $30,461,676    Updated portfolio data from servicer


                                                                                                                              1/22/2010           $80,000      $1,750,000    Updated HPDP cap & HAFA initial cap

                                                              Financial Instrument                                            3/26/2010         $330,000       $2,080,000    Updated portfolio data from servicer
             Hillsdale County National Bank,
11/18/2009                                      Purchase      for Home Loan                       $1,670,000           N/A
             Hillsdale, MI
                                                              Modifications
                                                                                                                              7/14/2010       ($1,080,000)     $1,000,000    Updated portfolio data from servicer


                                                                                                                              9/30/2010         $160,445       $1,160,445    Updated portfolio data from servicer

                                                                                                                              1/22/2010                —          $20,000    Updated HPDP cap & HAFA initial cap


                                                              Financial Instrument                                            3/26/2010          ($10,000)        $10,000    Updated portfolio data from servicer
11/18/2009   QLending, Inc., Coral Gables, FL   Purchase      for Home Loan                          $20,000           N/A
                                                              Modifications
                                                                                                                              7/14/2010           $90,000        $100,000    Updated portfolio data from servicer


                                                                                                                              9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                              Transaction detail I Appendix D I OCTOBER 26, 2010
                                                                                                                                                                                                                                              289
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                             (CONTINued)                                                                                                                                                                          290
             Servicer Modifying Borrowers’ Loans                                                                                                            Adjustment Details

                                                                                            Cap of Incentive
                                                                                                Payments on
                                                                                    Behalf of Borrowers and
                                               Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                        Market Capitalization
Date         Name of Institution               Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                                                        (in Millions)


                                                                                                                             1/22/2010          $950,000     $21,310,000    Updated HPDP cap & HAFA initial cap


                                                                                                                             3/26/2010      ($17,880,000)     $3,430,000    Updated portfolio data from servicer

                                                                                                                             6/16/2010        $1,030,000      $4,460,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                             Financial Instrument
             Marix Servicing, LLC,
11/25/2009                                     Purchase      for Home Loan                      $20,360,000           N/A    7/14/2010       ($1,160,000)     $3,300,000    Updated portfolio data from servicer
             Phoenix, AZ
                                                             Modifications

                                                                                                                             8/13/2010          $800,000      $4,100,000    Transfer of cap due to servicing transfer


                                                                                                                             9/30/2010          $200,000      $4,300,000    Initial FHA-HAMP cap and initial RD-HAMP


                                                                                                                             9/30/2010        $1,357,168      $5,657,168    Updated portfolio data from servicer
                                                             Financial Instrument
             Home Financing Center, Inc,
11/25/2009                                     Purchase      for Home Loan                         $230,000           N/A
             Coral Gables, FL
                                                             Modifications                                                   4/21/2010        ($230,000)               —    Termination of SPA

                                                                                                                             1/22/2010           $50,000      $1,330,000    Updated HPDP cap & HAFA initial cap
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                             Financial Instrument                                            3/26/2010        $1,020,000      $2,350,000    Updated portfolio data from servicer
11/25/2009   First Keystone Bank, Media, PA    Purchase      for Home Loan                       $1,280,000           N/A
                                                             Modifications
                                                                                                                             7/14/2010        ($950,000)      $1,400,000    Updated portfolio data from servicer


                                                                                                                             9/30/2010           $50,556      $1,450,556    Updated portfolio data from servicer


                                                                                                                             1/22/2010           $10,000        $390,000    Updated HPDP cap & HAFA initial cap

                                                             Financial Instrument                                            3/26/2010          $520,000        $910,000    Updated portfolio data from servicer
             Community Bank & Trust
12/4/2009                                      Purchase      for Home Loan                         $380,000           N/A
             Company, Clarks Summit, PA
                                                             Modifications
                                                                                                                             7/14/2010         ($810,000)       $100,000    Updated portfolio data from servicer


                                                                                                                             9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                             1/22/2010          $440,000      $9,870,000    Updated HPDP cap & HAFA initial cap

                                                                                                                             3/26/2010       $14,480,000     $24,350,000    Updated portfolio data from servicer
                                                             Financial Instrument
             Idaho Housing and Finance
12/4/2009                                      Purchase      for Home Loan                       $9,430,000           N/A    5/26/2010      ($24,200,000)       $150,000    Updated portfolio data from servicer
             Association, Boise, ID
                                                             Modifications
                                                                                                                             7/14/2010          $150,000        $300,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010           ($9,889)       $290,111    Updated portfolio data from servicer

                                                                                                                             1/22/2010           $10,000        $370,000    Updated HPDP cap & HAFA initial cap

                                                                                                                             3/26/2010          $850,000      $1,220,000    Updated portfolio data from servicer
                                                             Financial Instrument
             Spirit of Alaska Federal Credit
12/9/2009                                      Purchase      for Home Loan                         $360,000           N/A    7/14/2010         ($120,000)     $1,100,000    Updated portfolio data from servicer
             Union, Fairbanks, AK
                                                             Modifications
                                                                                                                             9/30/2010          $100,000      $1,200,000    Initial FHA-HAMP cap

                                                                                                                             9/30/2010          $105,500      $1,305,500    Updated portfolio data from servicer

                                                                                                                             1/22/2010           $70,000      $1,660,000    Updated HPDP cap & HAFA initial cap
                                                             Financial Instrument                                            3/26/2010         ($290,000)     $1,370,000    Updated portfolio data from servicer
             American Eagle Federal Credit
12/9/2009                                      Purchase      for Home Loan                       $1,590,000           N/A
             Union, East Hartford, CT
                                                             Modifications                                                   7/14/2010         ($570,000)       $800,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010           $70,334        $870,334    Updated portfolio data from servicer

                                                                                                                             1/22/2010           $90,000      $1,970,000    Updated HPDP cap & HAFA initial cap
                                                             Financial Instrument                                            3/26/2010        $1,110,000      $3,080,000    Updated portfolio data from servicer
             Silver State Schools Credit
12/9/2009                                      Purchase      for Home Loan                       $1,880,000           N/A
             Union, Las Vegas, NV
                                                             Modifications                                                   7/14/2010       ($1,180,000)     $1,900,000    Updated portfolio data from servicer

                                                                                                                             9/30/2010          $275,834      $2,175,834    Updated portfolio data from servicer

                                                                                                                                                                                                                                                Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
             Servicer Modifying Borrowers’ Loans                                                                                                             Adjustment Details

                                                                                             Cap of Incentive
                                                                                                 Payments on
                                                                                     Behalf of Borrowers and
                                                Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                           Market Capitalization
Date         Name of Institution                Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                           (in Millions)

                                                                                                                              1/22/2010         $140,000       $3,080,000    Updated HPDP cap & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010        $6,300,000      $9,380,000    Updated portfolio data from servicer
             Fidelity Homestead Savings
12/9/2009                                       Purchase      for Home Loan                       $2,940,000           N/A
             Bank, New Orleans, LA
                                                              Modifications                                                   7/14/2010       ($1,980,000)     $7,400,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010       ($6,384,611)     $1,015,389    Updated portfolio data from servicer

                                                                                                                              1/22/2010           $10,000        $240,000    Updated HPDP cap & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010         $440,000         $680,000    Updated portfolio data from servicer
             Bay Gulf Credit Union,
12/9/2009                                       Purchase      for Home Loan                         $230,000           N/A
             Tampa, FL
                                                              Modifications                                                   7/14/2010          ($80,000)       $600,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010          ($19,778)       $580,222    Updated portfolio data from servicer

                                                                                                                              1/22/2010         $290,000       $6,450,000    Updated HPDP cap & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010           $40,000      $6,490,000    Updated portfolio data from servicer
             The Golden 1 Credit Union,
12/9/2009                                       Purchase      for Home Loan                       $6,160,000           N/A
             Sacramento, CA
                                                              Modifications                                                   7/14/2010       ($2,890,000)     $3,600,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010         $606,612       $4,206,612    Updated portfolio data from servicer

                                                                                                                              1/22/2010         $100,000       $2,350,000    Updated HPDP cap & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010        ($740,000)      $1,610,000    Updated portfolio data from servicer
             Sterling Savings Bank,
12/9/2009                                       Purchase      for Home Loan                       $2,250,000           N/A
             Spokane, WA
                                                              Modifications                                                   7/14/2010        ($710,000)        $900,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010         $550,556       $1,450,556    Updated portfolio data from servicer

                                                                                                                              1/22/2010           $20,000        $330,000    Updated HPDP cap & HAFA initial cap
                                                              Financial Instrument                                            3/26/2010         $820,000       $1,150,000    Updated portfolio data from servicer
             HomeStar Bank & Financial
12/11/2009                                      Purchase      for Home Loan                         $310,000           N/A
             Services, Manteno, IL
                                                              Modifications                                                   7/14/2010        ($350,000)        $800,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010           $70,334        $870,334    Updated portfolio data from servicer

                                                                                                                              1/22/2010           $20,000        $390,000    Updated HPDP cap & HAFA initial cap
                                                              Financial Instrument
             Glenview State Bank,
12/11/2009                                      Purchase      for Home Loan                         $370,000           N/A    3/26/2010        $1,250,000      $1,640,000    Updated portfolio data from servicer
             Glenview, IL
                                                              Modifications
                                                                                                                              5/26/2010       ($1,640,000)              —    Termination of SPA

                                                                                                                              1/22/2010           $30,000        $630,000    Updated HPDP cap & HAFA initial cap

                                                              Financial Instrument                                            3/26/2010         $400,000       $1,030,000    Updated portfolio data from servicer
12/11/2009   Verity Credit Union, Seattle, WA   Purchase      for Home Loan                         $600,000           N/A
                                                              Modifications                                                   7/14/2010        ($330,000)        $700,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010           $25,278        $725,278    Updated portfolio data from servicer

                                                                                                                              1/22/2010           $30,000        $660,000    Updated HPDP cap & HAFA initial cap

                                                              Financial Instrument                                            3/26/2010         $800,000       $1,460,000    Updated portfolio data from servicer
             Hartford Savings Bank,
12/11/2009                                      Purchase      for Home Loan                         $630,000           N/A
             Hartford, WI
                                                              Modifications                                                   7/14/2010        ($360,000)      $1,100,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010           $60,445      $1,160,445    Updated portfolio data from servicer

                                                              Financial Instrument
             The Bryn Mawr Trust Co., Bryn
12/11/2009                                      Purchase      for Home Loan                         $150,000           N/A    4/21/2010        ($150,000)               —    Termination of SPA
             Mawr, PA
                                                              Modifications

                                                                                                                              1/22/2010           $30,000        $650,000    Updated HPDP cap & HAFA initial cap

                                                              Financial Instrument                                            3/26/2010        ($580,000)         $70,000    Updated portfolio data from servicer
             Citizens 1st National Bank,
12/16/2009                                      Purchase      for Home Loan                         $620,000           N/A
             Spring Valley, IL
                                                              Modifications                                                   7/14/2010        $1,430,000      $1,500,000    Updated portfolio data from servicer

                                                                                                                              9/30/2010           $95,612      $1,595,612    Updated portfolio data from servicer

                                                                                                                                                                                                                    Continued on next page.
                                                                                                                                                                                                                                              Transaction detail I Appendix D I OCTOBER 26, 2010
                                                                                                                                                                                                                                              291
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                            (CONTINued)
                                                                                                                                                                                                                                            292
             Servicer Modifying Borrowers’ Loans                                                                                                           Adjustment Details

                                                                                           Cap of Incentive
                                                                                               Payments on
                                                                                   Behalf of Borrowers and
                                              Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                           Market Capitalization
Date         Name of Institution              Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                           (in Millions)
                                                                                                                            1/22/2010           $10,000        $180,000    Updated HPDP cap & HAFA initial cap

                                                                                                                            3/26/2010           $30,000        $210,000    Updated portfolio data from servicer
                                                            Financial Instrument
             Golden Plains Credit Union,
12/16/2009                                    Purchase      for Home Loan                         $170,000           N/A
             Garden City, KS
                                                            Modifications                                                   7/14/2010          ($10,000)       $200,000    Updated portfolio data from servicer


                                                                                                                            9/30/2010           $90,111        $290,111    Updated portfolio data from servicer

             First Federal Savings and Loan                 Financial Instrument                                            1/22/2010         $160,000       $3,620,000    Updated HPDP cap & HAFA initial cap
12/16/2009   Association of Lakewood,         Purchase      for Home Loan                       $3,460,000           N/A
             Lakewood, OH                                   Modifications                                                   4/21/2010       ($3,620,000)              —    Termination of SPA

                                                                                                                            1/22/2010           $20,000        $460,000    Updated HPDP cap & HAFA initial cap

                                                            Financial Instrument                                            3/26/2010        $1,430,000      $1,890,000    Updated portfolio data from servicer
             Sound Community Bank,
12/16/2009                                    Purchase      for Home Loan                         $440,000           N/A
             Seattle, WA
                                                            Modifications                                                   7/14/2010        ($390,000)      $1,500,000    Updated portfolio data from servicer

                                                                                                                            9/8/2010        ($1,500,000)              —    Termination of SPA

                                                                                                                            1/22/2010           $30,000        $730,000    Updated HPDP cap & HAFA initial cap
                                                                                                                                                                                                                                            Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                            Financial Instrument                                            3/26/2010        $1,740,000      $2,470,000    Updated portfolio data from servicer
             Horizon Bank, NA,
12/16/2009                                    Purchase      for Home Loan                         $700,000           N/A
             Michigan City, IN
                                                            Modifications                                                   7/14/2010       ($1,870,000)       $600,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010         $850,556       $1,450,556    Updated portfolio data from servicer


                                                                                                                            1/22/2010           $40,000        $800,000    Updated HPDP cap & HAFA initial cap

                                                            Financial Instrument                                            3/26/2010         $140,000         $940,000    Updated portfolio data from servicer
             Park View Federal Savings
12/16/2009                                    Purchase      for Home Loan                         $760,000           N/A
             Bank, Solon, OH
                                                            Modifications
                                                                                                                            7/14/2010        ($140,000)        $800,000    Updated portfolio data from servicer


                                                                                                                            9/30/2010           $70,334        $870,334    Updated portfolio data from servicer

                                                                                                                            1/22/2010         $200,000       $4,430,000    Updated HPDP cap & HAFA initial cap
                                                            Financial Instrument                                            3/26/2010       ($1,470,000)     $2,960,000    Updated portfolio data from servicer
12/23/2009   Iberiabank, Sarasota, FL         Purchase      for Home Loan                       $4,230,000           N/A
                                                            Modifications                                                   7/14/2010       ($1,560,000)     $1,400,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010        $5,852,780      $7,252,780    Updated portfolio data from servicer

                                                                                                                            1/22/2010           $20,000        $360,000    Updated HPDP cap & HAFA initial cap
                                                            Financial Instrument                                            3/26/2010        ($320,000)         $40,000    Updated portfolio data from servicer
             Grafton Suburban Credit Union,
12/23/2009                                    Purchase      for Home Loan                         $340,000           N/A
             North Grafton, MA
                                                            Modifications                                                   7/14/2010         $760,000         $800,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010          ($74,722)       $725,278    Updated portfolio data from servicer

                                                                                                                            1/22/2010                —          $60,000    Updated HPDP cap & HAFA initial cap
                                                            Financial Instrument                                            3/26/2010           $90,000        $150,000    Updated portfolio data from servicer
             Eaton National Bank & Trust
12/23/2009                                    Purchase      for Home Loan                          $60,000           N/A
             Company, Eaton, OH
                                                            Modifications                                                   7/14/2010           $50,000        $200,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010          ($54,944)       $145,056    Updated portfolio data from servicer

                                                                                                                            1/22/2010                —         $110,000    Updated HPDP cap & HAFA initial cap
                                                            Financial Instrument                                            3/26/2010          ($20,000)        $90,000    Updated portfolio data from servicer
             Tempe Schools Credit Union,
12/23/2009                                    Purchase      for Home Loan                         $110,000           N/A
             Tempe, AZ
                                                            Modifications                                                   7/14/2010           $10,000        $100,000    Updated portfolio data from servicer

                                                                                                                            9/30/2010           $45,056        $145,056    Updated portfolio data from servicer

                                                                                                                            3/26/2010         $480,000         $740,000    Updated portfolio data from servicer
                                                            Financial Instrument
             Fresno County Federal Credit
1/13/2010                                     Purchase      for Home Loan                         $260,000           N/A    7/14/2010        ($140,000)        $600,000    Updated portfolio data from servicer
             Union, Fresno, CA
                                                            Modifications
                                                                                                                            9/30/2010          ($19,778)       $580,222    Updated portfolio data from servicer

                                                                                                                                                                                                                  Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                               (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                               Adjustment Details

                                                                                              Cap of Incentive
                                                                                                  Payments on
                                                                                      Behalf of Borrowers and
                                                 Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                        Market Capitalization
Date        Name of Institution                  Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount     Adjusted Cap    Reason for Adjustment                                                        (in Millions)

                                                                                                                               3/26/2010          $610,000        $850,000    Updated portfolio data from servicer
                                                               Financial Instrument
1/13/2010   Roebling Bank, Roebling, NJ          Purchase      for Home Loan                         $240,000           N/A    7/14/2010           $50,000        $900,000    Updated portfolio data from servicer
                                                               Modifications
                                                                                                                               9/30/2010          ($29,666)       $870,334    Updated portfolio data from servicer

                                                                                                                               3/26/2010          $150,000        $290,000    Updated portfolio data from servicer
                                                               Financial Instrument
            First National Bank of Grant
1/13/2010                                        Purchase      for Home Loan                         $140,000           N/A    7/14/2010           $10,000        $300,000    Updated portfolio data from servicer
            Park, Grant Park, IL
                                                               Modifications
                                                                                                                               9/30/2010           ($9,889)       $290,111    Updated portfolio data from servicer

                                                                                                                               3/26/2010      ($51,240,000)    $12,910,000    Updated portfolio data from servicer

                                                                                                                               5/14/2010        $3,000,000     $15,910,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer

                                                                                                                               6/16/2010        $4,860,000     $20,770,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                               Financial Instrument                                            7/14/2010        $3,630,000     $24,400,000    Updated portfolio data from servicer
            Specialized Loan Servicing,
1/13/2010                                        Purchase      for Home Loan                      $64,150,000           N/A
            LLC, Highlands Ranch, CO
                                                               Modifications                                                   7/16/2010          $330,000     $24,730,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer

                                                                                                                               8/13/2010          $700,000     $25,430,000    Transfer of cap due to servicing transfer

                                                                                                                               9/15/2010          $200,000     $25,630,000    Transfer of cap due to servicing transfer

                                                                                                                               9/30/2010       ($1,695,826)    $23,934,174    Updated portfolio data from servicer

                                                                                                                               3/26/2010        $8,680,000      $9,450,000    Updated portfolio data from servicer
                                                               Financial Instrument
            Greater Nevada Mortgage
1/13/2010                                        Purchase      for Home Loan                         $770,000           N/A    7/14/2010       ($8,750,000)       $700,000    Updated portfolio data from servicer
            Services, Carson City, NV
                                                               Modifications
                                                                                                                               9/30/2010          $170,334        $870,334    Updated portfolio data from servicer
                                                               Financial Instrument                                            3/26/2010       $12,190,000     $15,240,000    Updated portfolio data from servicer
            Digital Federal Credit Union,
1/15/2010                                        Purchase      for Home Loan                       $3,050,000           N/A
            Marlborough, MA
                                                               Modifications                                                   5/14/2010      ($15,240,000)              —    Termination of SPA
                                                                                                                               3/26/2010         ($730,000)       $230,000    Updated portfolio data from servicer

                                                               Financial Instrument                                            7/14/2010          $370,000        $600,000    Updated portfolio data from servicer
            iServe Residential Lending, LLC,
1/29/2010                                        Purchase      for Home Loan                         $960,000           N/A
            San Diego , CA
                                                               Modifications                                                   9/30/2010          $200,000        $800,000    Initial FHA-HAMP cap and initial 2MP cap

                                                                                                                               9/30/2010         ($364,833)       $435,167    Updated portfolio data from servicer

                                                               Financial Instrument                                            3/26/2010          $160,000        $700,000    Updated portfolio data from servicer
1/29/2010   United Bank, Griffin, GA             Purchase      for Home Loan                         $540,000           N/A
                                                               Modifications                                                   9/30/2010           $25,278        $725,278    Updated portfolio data from servicer

                                                               Financial Instrument                                            7/14/2010        $4,440,000      $5,500,000    Updated portfolio data from servicer
            Urban Trust Bank,
3/3/2010                                         Purchase      for Home Loan                       $1,060,000           N/A
            Lake Mary, FL
                                                               Modifications                                                   9/24/2010       ($5,500,000)              —    Termination of SPA

                                                                                                                               5/26/2010          $120,000     $28,160,000    Initial 2MP cap

                                                               Financial Instrument                                            7/14/2010      ($12,660,000)    $15,500,000    Updated portfolio data from servicer
3/5/2010    iServe Servicing, Inc., Irving, TX   Purchase      for Home Loan                      $28,040,000           N/A
                                                               Modifications                                                   9/30/2010          $100,000     $15,600,000    Initial FHA-HAMP cap

                                                                                                                               9/30/2010       ($3,125,218)    $12,474,782    Updated portfolio data from servicer

                                                               Financial Instrument                                            7/14/2010      ($44,880,000)    $15,900,000    Updated portfolio data from servicer
            Navy Federal Credit Union,
3/10/2010                                        Purchase      for Home Loan                      $60,780,000           N/A
            Vienna, VA
                                                               Modifications                                                   9/30/2010        $1,071,505     $16,971,505    Updated portfolio data from servicer

                                                               Financial Instrument                                            7/14/2010          $400,000        $700,000    Updated portfolio data from servicer
            Vist Financial Corp,
3/10/2010                                        Purchase      for Home Loan                         $300,000           N/A
            Wyomissing, PA
                                                               Modifications                                                   9/30/2010           $25,278        $725,278    Updated portfolio data from servicer

                                                               Financial Instrument                                            7/14/2010          $300,000        $600,000    Updated portfolio data from servicer
            Midwest Bank and Trust Co.,
4/14/2010                                        Purchase      for Home Loan                         $300,000           N/A
            Elmwood Park, IL
                                                               Modifications                                                   9/30/2010          ($19,778)       $580,222    Updated portfolio data from servicer
                                                                                                                                                                                                                                                                            Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                                               7/14/2010         ($150,000)     $6,400,000    Updated portfolio data from servicer
                                                               Financial Instrument
            Wealthbridge Mortgage Corp,
4/14/2010                                        Purchase      for Home Loan                       $6,550,000           N/A    9/15/2010        $1,600,000      $8,000,000    Transfer of cap due to servicing transfer
            Beaverton, OR
                                                               Modifications
                                                                                                                               9/30/2010       ($4,352,173)     $3,647,827    Updated portfolio data from servicer

                                                                                                                                                                                                                                                  Continued on next page.
                                                                                                                                                                                                                                                                            293
                                                                                                                                                                                                                                                                          294
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                             Adjustment Details

                                                                                             Cap of Incentive
                                                                                                 Payments on
                                                                                     Behalf of Borrowers and
                                                Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment   Cap Adjustment                                                                                       Market Capitalization
Date        Name of Institution                 Type          Description                    Investors (Cap) 1   Mechanism    Date                Amount    Adjusted Cap    Reason for Adjustment                                                        (in Millions)

                                                              Financial Instrument                                            5/26/2010          $30,000         $40,000    Updated FHA-HAMP cap
            Aurora Financial Group, Inc.,
5/21/2010                                       Purchase      for Home Loan                          $10,000           N/A
            Marlton, NJ4, 8
                                                              Modifications                                                   9/30/2010         $250,111        $290,111    Updated portfolio data from servicer

                                                                                                                              6/16/2010        $3,680,000     $3,680,000    Transfer of cap from CitiMortgage, Inc. due to servicing transfer
                                                              Financial Instrument
            Selene Financial, L.P.,
6/16/2010                                       Transfer      for Home Loan                                —           N/A    8/13/2010        $3,300,000     $6,980,000    Transfer of cap due to servicing transfer
            Houston, TX9
                                                              Modifications
                                                                                                                              9/30/2010        $3,043,831    $10,023,831    Updated portfolio data from servicer

            Suburban Mortgage Company                         Financial Instrument
8/4/2010    of New Mexico, Alburquerque,        Purchase      for Home Loan                         $880,000           N/A    9/30/2010        $1,585,945     $2,465,945    Updated portfolio data from servicer
            NM                                                Modifications
                                                              Financial Instrument
            Bramble Savings Bank,
8/20/2010                                       Purchase      for Home Loan                         $700,000           N/A    9/30/2010        $1,040,667     $1,740,667    Updated portfolio data from servicer
            Cincinnati, OH
                                                              Modifications
                                                              Financial Instrument
8/25/2010   Pathfinder Bank, Oswego, OH         Purchase      for Home Loan                       $1,300,000           N/A    9/30/2010        $2,181,334     $3,481,334    Updated portfolio data from servicer
                                                              Modifications
                                                              Financial Instrument
            First Financial Bank, N.A.,
8/27/2010                                       Purchase      for Home Loan                       $4,300,000           N/A    9/30/2010        $7,014,337    $11,314,337    Updated portfolio data from servicer
            Terre Haute, OH
                                                              Modifications
                                                                                                                                                                                                                                                                          Appendix D I Transaction Detail I OCTOBER 26, 2010




                                                              Financial Instrument
9/1/2010    RBC Bank (USA), Raleigh, NC4, 8     Purchase      for Home Loan                         $100,000           N/A    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
                                                              Modifications
                                                              Financial Instrument
9/3/2010    Fay Servicing, LLC, Chicago, IL     Purchase      for Home Loan                       $3,100,000           N/A                                    $8,268,169    Updated portfolio data from servicer
                                                              Modifications                                                   9/30/2010        $5,168,169

                                                              Financial Instrument                                                                            $1,000,000    Transfer of cap due to servicing transfer
            Vericret Financial, Inc.,                                                                                         9/15/2010        $1,000,000
9/15/2010                                       Purchase      for Home Loan                                —           N/A
            Oklahoma city, OK9
                                                              Modifications                                                   9/30/2010         $450,556      $1,450,556    Updated portfolio data from servicer

                                                              Financial Instrument
            Midwest Community Bank,
9/15/2010                                       Purchase      for Home Loan                         $400,000           N/A    9/30/2010         $180,222        $580,222    Updated portfolio data from servicer
            Freeport, IL
                                                              Modifications

                                                              Financial Instrument
            American Finance House
9/24/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            LARIBA, Pasadena, CA
                                                              Modifications

                                                              Financial Instrument
9/24/2010   Centrue Bank, Ottawa, IL            Purchase      for Home Loan                       $1,900,000           N/A    9/30/2010         $856,056      $2,756,056    Updated portfolio data from servicer
                                                              Modifications

                                                              Financial Instrument
            AgFirst Farm Credit Bank,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            Columbia, SC
                                                              Modifications

                                                              Financial Instrument
            Amarillo National Bank, Amarillo,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            TX4, 8
                                                              Modifications

                                                              Financial Instrument
            American Financial Resources
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            Inc., Parsippany, NJ4, 8
                                                              Modifications

                                                              Financial Instrument
            Banco Popular de Puerto Rico,
9/30/2010                                       Purchase      for Home Loan                       $1,700,000           N/A    9/30/2010         $765,945      $2,465,945    Updated portfolio data from servicer
            San Juan, PR4, 5, 8
                                                              Modifications

                                                              Financial Instrument
            Capital International Financial,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            Inc., Coral Gables, FL4, 8
                                                              Modifications

                                                              Financial Instrument
            Citizens Community Bank,
9/24/2010                                       Purchase      for Home Loan                         $800,000           N/A    9/30/2010         $360,445      $1,160,445    Updated portfolio data from servicer
            Freeburg, IL
                                                              Modifications

                                                              Financial Instrument
            Community Credit Union of
9/30/2010                                       Purchase      for Home Loan                       $2,000,000           N/A    9/30/2010         $901,112      $2,901,112    Updated portfolio data from servicer
            Florida, Rockledge, FL6
                                                              Modifications

                                                              Financial Instrument
            CU Mortgage Services, Inc.
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010          $45,056        $145,056    Updated portfolio data from servicer
            New Brighton, NM4, 8
                                                              Modifications

                                                                                                                                                                                                                                                Continued on next page.
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                              (CONTINued)
            Servicer Modifying Borrowers’ Loans                                                                                                              Adjustment Details

                                                                                             Cap of Incentive
                                                                                                 Payments on
                                                                                     Behalf of Borrowers and
                                                Transaction   Investment             to Servicers & Lenders/        Pricing   Adjustment    Cap Adjustment                                                          Market Capitalization
Date        Name of Institution                 Type          Description                    Investors (Cap) 1   Mechanism    Date                 Amount    Adjusted Cap    Reason for Adjustment                           (in Millions)
                                                              Financial Instrument
            First Federal Bank of Florida,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Lake City, FL4, 8
                                                              Modifications

                                                              Financial Instrument
            First Mortgage Coporation,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Diamond Bar, CA4, 8
                                                              Modifications

                                                              Financial Instrument
9/30/2010   First Safety Bank, Cincinnati, OH   Purchase      for Home Loan                         $400,000           N/A    9/30/2010           $180,222       $580,222    Updated portfolio data from servicer
                                                              Modifications

                                                              Financial Instrument
            Flagstar Capital Markets
9/30/2010                                       Purchase      for Home Loan                         $800,000           N/A    9/30/2010           $360,445     $1,160,445    Updated portfolio data from servicer
            Corporation, Troy, MI7, 8
                                                              Modifications
                                                              Financial Instrument
9/30/2010   Franklin Savings, Cincinnati, OH4   Purchase      for Home Loan                       $1,700,000           N/A    9/30/2010           $765,945     $2,465,945    Updated portfolio data from servicer
                                                              Modifications
                                                              Financial Instrument
            Gateway Mortgage Group, LLC,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Tulsa, OK4, 8
                                                              Modifications
                                                              Financial Instrument
            GFA Federal Credit Union,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Gardner, MA
                                                              Modifications
                                                              Financial Instrument
            Guaranty Bank,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Saint Paul, MN4, 8
                                                              Modifications
                                                              Financial Instrument
            James B. Nutter & Company,
9/24/2010                                       Purchase      for Home Loan                         $300,000           N/A    9/30/2010           $135,167       $435,167    Updated portfolio data from servicer
            Kansas City, MO4, 8
                                                              Modifications
                                                              Financial Instrument
            Liberty Bank and Trust Co,
9/30/2010                                       Purchase      for Home Loan                       $1,000,000           N/A    9/30/2010           $450,556     $1,450,556    Updated portfolio data from servicer
            New Orleans, LA
                                                              Modifications
                                                              Financial Instrument
9/30/2010   M&T Bank, Buffalo, NY4, 8           Purchase      for Home Loan                         $700,000           N/A    9/30/2010           $315,389     $1,015,389    Updated portfolio data from servicer
                                                              Modifications
                                                              Financial Instrument
9/30/2010   Magna Bank, Germantown, TN5         Purchase      for Home Loan                       $1,400,000           N/A    9/30/2010           $630,778     $2,030,778    Updated portfolio data from servicer
                                                              Modifications
                                                              Financial Instrument
            Mainstreet Credit Union,
9/30/2010                                       Purchase      for Home Loan                         $500,000           N/A    9/30/2010           $225,278       $725,278    Updated portfolio data from servicer
            Lexena, KS
                                                              Modifications

                                                              Financial Instrument
            Marsh Associates, Inc.,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Charlotte, NC4, 8
                                                              Modifications
                                                              Financial Instrument
            Midland Mortgage Compnay,
9/30/2010                                       Purchase      for Home Loan                      $43,500,000           N/A    9/30/2010        $49,915,806    $93,415,806    Updated portfolio data from servicer
            Oklahoma City, OK4, 5
                                                              Modifications
                                                              Financial Instrument
            Schmidt Mortgage Company,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Rocky River, OH4, 8
                                                              Modifications
                                                              Financial Instrument
            Stockman Bank of Montana,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Miles City, MT4, 8
                                                              Modifications
                                                              Financial Instrument
            University First Federal Credit
9/30/2010                                       Purchase      for Home Loan                         $600,000           N/A    9/30/2010           $270,334       $870,334    Updated portfolio data from servicer
            Union, Salt Lake City, UT
                                                              Modifications
                                                              Financial Instrument
            Weststar Mortgage, Inc.,
9/30/2010                                       Purchase      for Home Loan                         $100,000           N/A    9/30/2010            $45,056       $145,056    Updated portfolio data from servicer
            Woodbridge, PA4, 8
                                                              Modifications

                                                              Total Initial Cap            $23,831,570,000        Total Cap Adjustments     $6,077,210,820
                                                                                                                                                                                                                                             Transaction detail I Appendix D I OCTOBER 26, 2010




                                                                                                  TOTAL CAP                                $29,908,780,820
                                                                                                                                                                                                                                             295
HAMP TRANSACTION DETAIL, AS OF 9/30/2010                                                           (CONTINued)

                                                                                                                                                                                                                                                                                                                                 296
    Notes: Numbers affected by rounding. Data as of 9/30/2010. Numbered notes and definitions were taken verbatim from Treasury’s 10/4/2010 Transactions Report.
    1
      The Cap of Incentive Payments represents the potential total amount allocated to each servicer and includes the maximum amount allotted for all payments on behalf of borrowers and payments to servicers and lenders/investors. The Cap is subject to adjustment based on the total amount allocated to the program and
       individual servicer usage for borrower modifications. Each adjustment to the Cap is reflected under Adjustment Details.
    2
      On July 31, 2009, the SPA with Chase Home Finance, LLC was terminated and superseded by new SPAs with J.P. Morgan Chase Bank, NA and EMC Mortgage Corporation.
    3
      Wachovia Mortgage, FSB was merged with Wells Fargo Bank, NA, and the remaining Adjusted Cap stated above represents the amount previously paid to Wachovia Mortgage, FSB prior to such merger.  
    4
      Initial cap amount only includes FHA-HAMP.
    5
      Initial cap amount includes RD-HAMP.
    6
      Initial cap amount includes 2MP.
    7
      Initial cap amount includes FHA2LP.
    8
      Initial cap does not include HAMP.
    9
      This institution executed an Assignment and Assumption Agreement (a copy of which is available on www.FinancialStability.gov) with respect to all rights and obligations for the transferred loan modifications. The amount transferred is realized as a cap adjustment and not as initial cap.
    10
      The amendment reflects a change in the legal name of the institution.

    “HAFA” means the Home Affordable Foreclosure Alternatives program.
    “HPDP” means the Home Price Decline Protection program.
    “2MP” means the Second Lien Modification Program.
    “RD-HAMP” means the Rural Housing Service Home Affordable Modification Program.
    “FHA2LP” means the FHA Second Lien Program.

    Sources: Treasury, Transactions Report, 10/4/2010; Treasury, response to SIGTARP data call, 10/7/2010; Market Data: Capital IQ, Inc. (a division of Standard & Poor’s), www.capitaliq.com, accessed on 10/15/2010.


TABLE D.11

    UCSB TRANSACTION DETAIL, AS OF 9/30/2010
                                                                                                                                       Purchase Details 1                                                      Settlement Details                                                    Final Disposition
                                                                                                                                                                                                                                                        Life-to-date                                              Dividend/
Trade                                                                                                      Purchase Face           Pricing TBA or        Settlement              Investment TBA or                Senior Security           Trade          Principal     Current Face     Disposition       Interest Paid to
Date               Investment Description                        Institution Name         CUSIP                 Amount3         Mechanism PMF3           Date                     Amount2, 3 PMF3                      Proceeds4             Date         Received1           Amount        Amount 5               Treasury
3/19/2010          Floating Rate SBA 7a security due 2025        Coastal Securities, Inc. 83164KYN7            $4,070,000        107.75        —         3/24/2010              $4,377,249 —-                             $2,184
3/19/2010          Floating Rate SBA 7a security due 2022        Coastal Securities, Inc. 83165ADC5            $7,617,617        109          —          3/24/2010              $8,279,156 —                              $4,130
                                                                                                                                                                                                                                                                                                                                 Appendix D I Transaction Detail I OCTOBER 26, 2010




3/19/2010          Floating Rate SBA 7a security due 2022        Coastal Securities, Inc. 83165ADE1            $8,030,000        108.875      —          3/24/2010              $8,716,265 —                              $4,348
4/8/2010           Floating Rate SBA 7a security due 2034        Coastal Securities, Inc. 83165AD84          $23,500,000         110.502      —          5/28/2010             $26,041,643 —                             $12,983
4/8/2010           Floating Rate SBA 7a security due 2016        Coastal Securities, Inc. 83164KZH9            $8,900,014        107.5        —          4/30/2010              $9,598,523 —                              $4,783
5/11/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. 83165AEE0          $10,751,382         106.806      —          6/30/2010             $11,511,052 —                              $5,741
5/11/2010          Floating Rate SBA 7a security due 2035        Coastal Securities, Inc. 83164K2Q5          $12,898,996         109.42       —          6/30/2010             $14,151,229 —                              $7,057
5/11/2010          Floating Rate SBA 7a security due 2033        Coastal Securities, Inc. 83165AED2            $8,744,333        110.798      —          6/30/2010              $9,717,173 —                              $4,844
5/25/2010          Floating Rate SBA 7a security due 2029        Coastal Securities, Inc. 83164K3B7            $8,417,817        110.125      —          7/30/2010              $9,294,363 —                              $4,635
5/25/2010          Floating Rate SBA 7a security due 2033        Coastal Securities, Inc. 83165AEK6          $17,119,972         109.553      —          7/30/2010             $18,801,712 —                              $9,377
6/17/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. 83165AEQ3          $34,441,059         110.785      —          8/30/2010             $38,273,995 —                             $19,077
6/17/2010          Floating Rate SBA 7a security due 2034        Coastal Securities, Inc. 83165AEP5          $28,209,085         112.028      —          8/30/2010             $31,693,810 —                             $15,801
7/14/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. 83164K3Y7            $6,004,156        106.625      —          9/30/2010              $6,416,804 —                              $3,200
7/14/2010          Floating Rate SBA 7a security due 2025        Coastal Securities, Inc. 83164K4J9            $6,860,835        108.505      —          9/30/2010              $7,462,726 —                              $3,722
7/14/2010          Floating Rate SBA 7a security due 2034        Coastal Securities, Inc. 83165AE42          $13,183,361         111.86       —          9/30/2010             $14,789,302 —                              $7,373
7/29/2010          Floating Rate SBA 7a security due 2017        Coastal Securities, Inc. 83164K4E0            $2,598,386        108.4375     -—         9/30/2010              $2,826,678 —                              $1,408                                                                            $1,147,793
7/29/2010          Floating Rate SBA 7a security due 2034        Coastal Securities, Inc. TBA                $10,000,000         106.75       TBA        10/29/2010            $10,695,743 TBA*                           $5,337
8/17/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. 83165AEZ3            $8,279,048        110.198      -—         9/30/2010              $9,150,989 —                              $4,561
8/17/2010          Floating Rate SBA 7a security due 2019        Coastal Securities, Inc. TBA                  $5,000,000        110          TBA        10/29/2010             $5,516,139 TBA*                           $2,750
8/17/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. TBA                $10,000,000         110.75       TBA        10/29/2010            $11,107,744 TBA*                           $5,537
8/31/2010          Floating Rate SBA 7a security due 2020        Shay Financial Inc.      83165AEW0            $9,272,482        110.515      —          9/29/2010             $10,277,319 —                              $5,123
8/31/2010          Floating Rate SBA 7a security due 2025        Coastal Securities, Inc. TBA                  $9,000,000        112.5        TBA        10/29/2010            $10,152,363 TBA*                           $5,062
8/31/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. TBA                  $6,000,000        105.875      TBA        11/30/2010             $6,364,946 TBA*                           $3,176
9/14/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. TBA                  $8,000,000        111.5        TBA        10/29/2010             $8,945,511 TBA*                           $4,460
9/14/2010          Floating Rate SBA 7a security due 2020        Coastal Securities, Inc. TBA                  $7,000,000        110.93       TBA        11/30/2010             $7,786,810 TBA*                           $3,882
9/14/2010          Floating Rate SBA 7a security due 2028        Coastal Securities, Inc. TBA                  $5,000,000        106.5        TBA        11/30/2010             $5,334,063 TBA*                           $2,662
9/14/2010          Floating Rate SBA 7a security due 2025        Coastal Securities, Inc. TBA                  $5,000,000        110.5        TBA        11/30/2010             $5,539,399 TBA*                           $2,762
9/28/2010          Floating Rate SBA 7a security due 2034        Coastal Securities, Inc. TBA                  $3,000,000        110.875      TBA        11/30/2010             $3,334,285 TBA*                           $1,663
9/28/2010          Floating Rate SBA 7a security due 2033        Coastal Securities, Inc. TBA                $10,000,000         113.875      TBA        12/30/2010            $11,420,447 TBA*                           $5,693
9/28/2010          Floating Rate SBA 7a security due 2033        Coastal Securities, Inc. TBA                $13,000,000         113.875      TBA        11/30/2010            $14,845,639 TBA*                           $7,401
9/28/2010          Floating Rate SBA 7a security due 2033        Coastal Securities, Inc. TBA                $13,000,000         114.15625 TBA           12/30/2010            $14,882,516 TBA*                           $7,420
                                                                                          Total                                                          TOTAL                           Total Senior                                                                  Total
                                                                                          Purchase                                                       INVESTMENT                      Security                                                                      Disposition
                                                                                          Face Amount      $322,898,543                                  AMOUNT*            $357,305,594 Proceeds                      $178,151                                        Proceeds                   $—
Notes: Numbers affected by rounding. Date as of 9/30/2010. Numbered notes were taken verbatim from Treasury’s 9/30/2010 Transactions Report.

*Subject to adjustment.
1
  The amortizing principal and interest payments are reported on the monthly Dividends and Interest Report available at www.FinancialStability.gov.
2
  Investment Amount is stated after giving effect to factor and, if applicable, the purchase of accrued principal and interest.
3
  If a purchase is listed as TBA, or To-Be-Announced, the underlying loans in the SBA Pool have yet to come to market, and the TBA pricing mechanism, purchase face amount, investment amount and senior security proceeds will be adjusted within the variance permitted under the program terms. If a purchase is
  listed as PMF, or Prior-Month-Factor, the trade was made prior to the applicable month’s factor being published and the SBA 7a security and senior security are priced according to the prior-month’s factor. The PMF investment amount and senior security proceeds will be adjusted after publication of the applicable
  month’s factor (on or about the 11th business day of each month).
4
  In order to satisfy the requirements under Section 113 of the Emergency Economic Stabilization Act of 2008, Treasury will acquire a senior indebtedness instrument (a Senior Security) from the seller of each respective SBA 7a Security. Each Senior Security will (i) have an aggregate principal amount equal to
  the product of (A) 0.05% and (B) the Investment Amount (excluding accrued interest) paid by Treasury for the respective SBA 7a Security, and (ii) at the option of the respective seller, may be redeemed at par value immediately upon issuance, or remain outstanding with the terms and conditions as set forth in the
  Master Purchase Agreement.
5
  Disposition Amount is stated after giving effect, if applicable, to sale of accrued principal and interest.

Sources: Treasury, Transaction Report, 10/4/2010; Treasury, response to SIGTARP Data call, 10/12/2010.
Table D.12

    HARDEST HIT FUND (HHF) PROGRAM TRANSACTION DETAIL, AS OF 9/30/2010
                           Seller                                                      Transaction                                                       Initial Investment      Additional Investment        Investment      Pricing
Note      Trade Date       Name of Institution                                         Type              Investment Description                                     Amount                     Amount           Amount 1   Mechanism
          6/23/2010                                                                    Purchase          Financial Instrument for HHF Program              $102,800,000                            —
                                                                                                                                                                                                                                 N/A
2         9/23/2010        Nevada Affordable Housing Assistance                        Purchase          Financial Instrument for HHF Program                           —                $34,056,581       $194,026,240
                           Corporation, Reno, NV
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —-               $57,169,659                             N/A

          6/23/2010                                                                    Purchase          Financial Instrument for HHF Program              $699,600,000                            —-
                           CalHFA Mortgage Assistance Corporation,
2         9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $476,257,070     $1,975,334,096          N/A
                           Sacramento, CA
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $799,477,026
          6/23/2010                                                                    Purchase          Financial Instrument for HHF Program              $418,000,000                            —-
2         9/23/2010        Florida Housing Finance Corporation, Tallahassee, FL        Purchase          Financial Instrument for HHF Program                           —               $238,864,755     $1,057,839,136          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —-              $400,974,381
          6/23/2010        Arizona (Home) Foreclosure Prevention Funding               Purchase          Financial Instrument for HHF Program              $125,100,000                            —-
                                                                                                                                                                                                           $267,766,006          N/A
3         9/29/2010        Corporation, Phoenix, AZ                                    Purchase          Financial Instrument for HHF Program                           —               $142,666,006
          6/23/2010                                                                    Purchase          Financial Instrument for HHF Program              $154,500,000                            —
                           Michigan Homeowner Assistance Nonprofit Housing
2         9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $128,461,559       $498,605,738          N/A
                           Corporation, Lansing, MI
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $215,644,179
          8/3/2010                                                                     Purchase          Financial Instrument for HHF Program              $159,000,000                            —
2         9/23/2010        North Carolina Housing Finance Agency, Raleigh, NC          Purchase          Financial Instrument for HHF Program                           —               $120,874,221       $482,781,786          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $202,907,565
          8/3/2010                                                                     Purchase          Financial Instrument for HHF Program              $172,000,000                            —
2         9/23/2010        Ohio Homeowner Assistance LLC, Columbus, OH                 Purchase          Financial Instrument for HHF Program                           —               $148,728,864       $570,395,099          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $249,666,235

          8/3/2010                                                                     Purchase          Financial Instrument for HHF Program                $88,000,000                           —
                           Oregon Affordable Housing Assistance Corporation,
2         9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                           —                $49,294,215       $220,042,786          N/A
                           Salem, OR
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —                $82,748,571
          8/3/2010                                                                     Purchase          Financial Instrument for HHF Program                $43,000,000                           —
                           Rhode Island Housing and Mortgage Finance Corporation,
2         9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                           —                $13,570,770        $79,351,573          N/A
                           Providence, RI
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —                $22,780,803
          8/3/2010                                                                     Purchase          Financial Instrument for HHF Program              $138,000,000                            —
2         9/23/2010        SC Housing Corp, Columbia, SC                               Purchase          Financial Instrument for HHF Program                           —                $58,772,347       $295,431,547          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —                $98,659,200
          9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                $60,672,471                           —
                           Alabama Housing Finance Authority, Montomery, AL                                                                                                                                $162,521,345          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $101,848,874
          9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                $55,588,050                           —
                           Kentucky Housing Corporation, Frankfort, KY                                                                                                                                     $148,901,875          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —                $93,313,825
          9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                $38,036,950                           —
                           Mississippi Home Corporation, Jackson, MS                                                                                                                                       $101,888,323          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —                $63,851,373
          9/23/2010                                                                    Purchase          Financial Instrument for HHF Program              $126,650,987                            —-
                           GHFA Affordable Housing, Inc., Atlanta, GA                                                                                                                                      $339,255,819          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —               $212,604,832
          9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                $82,762,859                           —-
                           Indiana Housing and Community Development Authority,
                                                                                                                                                                                                           $221,694,139          N/A
3         9/29/2010        Indianapolis, IN                                            Purchase          Financial Instrument for HHF Program                           —               $138,931,280

          9/23/2010                                                                    Purchase          Financial Instrument for HHF Program              $166,352,726                            —-
                           Illinois Housing Development Authority, Chicago, IL                                                                                                                             $445,603,557          N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —-              $279,250,831
          9/23/2010        New Jersey Housing and Mortgage Finance Agency,             Purchase          Financial Instrument for HHF Program              $112,200,637                            —-      $300,548,144
                                                                                                                                                                                                                                 N/A
3         9/29/2010        Trenton, NJ                                                 Purchase          Financial Instrument for HHF Program                           —-              $188,347,507
          9/23/2010        District of Columbia Housing Finance Agency,                Purchase          Financial Instrument for HHF Program                 $7,726,678                           —        $20,697,198
                                                                                                                                                                                                                                 N/A
3         9/29/2010        Washington, DC                                              Purchase          Financial Instrument for HHF Program                           —-               $12,970,520
          9/23/2010                                                                    Purchase          Financial Instrument for HHF Program                $81,128,260                           —       $217,315,593
                           Tennessee Housing Development Agency, Nashville, TN                                                                                                                                                   N/A
3         9/29/2010                                                                    Purchase          Financial Instrument for HHF Program                           —-              $136,187,333
                                                                                                                                                                              Total Investment Amount    $7,600,000,000
Notes: Numbers affected by rounding. Data as of 9/30/2010. Numbered note is taken verbatim from Treasury’s 10/4/2010 Transactions Report.

1
    The purchase will be incrementally funded up to the investment amount.
2
    On 9/23/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated financial instrument.
3
    On 9/29/2010, Treasury provided additional investment to this HFA and substituted its investment for an amended and restated financial instrument.
                                                                                                                                                                                                                                        Transaction detail I Appendix D I OCTOBER 26, 2010




Source: Treasury, Transaction Report, 10/4/2010.
                                                                                                                                                                                                                                        297
Table D.13                                                                                                                                                                                                                                        298
CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2010                                                         (CONTINued)
                                                                                                                                            Purchase Details                                            Disposition Details

                    Seller                                                                                                                               Additional    Investment      Pricing                                        Remaining
Note   Trade Date   Name of Institution                                           Transaction Type   Investment Description    Amount from CPP          Investment        Amount    Mechanism    Date            Amount       Investment Amount
1      7/30/2010    Guaranty Capital Corporation, Belzoni, MS                     Purchase           Subordinated Debentures       $14,000,000                  —     $14,000,000          Par
1, 2   7/30/2010    University Financial Corp, Inc., St. Paul, MN                 Purchase           Subordinated Debentures       $11,926,000        $10,189,000     $22,115,000          Par
1, 2   8/6/2010     Southern Bancorp, Inc., Arkadelphia, AR                       Purchase           Preferred Stock               $11,000,000        $22,800,000     $33,800,000          Par
1      8/13/2010    Premier Bancorp, Inc., Wilmette, IL                           Purchase           Subordinated Debentures        $6,784,000                  —      $6,784,000          Par
1      8/13/2010                                                                  Purchase           Preferred Stock                $7,462,000                  —                          Par
                    Citizens Bancshares Corporation, Atlanta, GA                                                                                                      $11,841,000
2a     9/17/2010                                                                  Purchase           Preferred Stock                        —          $4,379,000                          Par
1      8/13/2010    PGB Holdings, Inc., Chicago, IL                               Purchase           Preferred Stock                $3,000,000                  —      $3,000,000          Par
1      8/13/2010    First American International Corp., Brooklyn, NY              Purchase           Preferred Stock               $17,000,000                  —     $17,000,000          Par
1      8/13/2010    Tri-State Bank of Memphis, Memphis, TN                        Purchase           Preferred Stock                $2,795,000                  —      $2,795,000          Par
1      8/20/2010                                                                  Purchase           Preferred Stock                $5,500,000                  —                          Par
                    Mission Valley Bancorp, Sun Valley, CA                                                                                                            $10,336,000
2a     9/24/2010                                                                  Purchase           Preferred Stock                        —          $4,836,000                          Par
1      8/20/2010    M&F Bancorp, Inc., Durham, NC                                 Purchase           Preferred Stock               $11,735,000                  —     $11,735,000          Par
1      8/27/2010    Carver Bancorp, Inc., New York, NY                            Purchase           Preferred Stock               $18,980,000                  —     $18,980,000          Par
       9/3/2010     Kilmichael Bancorp, Inc., Kilmichael, MS                      Purchase           Preferred Stock                        —                   —      $3,154,000          Par
1      9/3/2010     United Bancorporation of Alabama, Inc., Atmore, AL            Purchase           Preferred Stock               $10,300,000                  —     $10,300,000          Par
1      9/3/2010     IBW Financial Corporation, Washington, DC                     Purchase           Preferred Stock                $6,000,000                  —      $6,000,000          Par
1, 2   9/10/2010    IBC Bancorp, Inc., Chicago, IL                                Purchase           Subordinated Debentures        $4,205,000         $3,881,000      $8,086,000          Par
       9/17/2010    CFBanc Corporation, Washington, DC                            Purchase           Preferred Stock                        —                   —      $5,781,000          Par
                                                                                                                                                                                                                                                  Appendix D I Transaction Detail I OCTOBER 26, 2010




       9/17/2010    American Bancorp of Illinois, Inc., Oak Brook, IL             Purchase           Subordinated Debentures                —                   —      $5,457,000          Par
       9/17/2010    Hope Federal Credit Union, Jackson, MS                        Purchase           Subordinated Debentures                —                   —      $4,520,000          Par
       9/17/2010    Genesee Co-op Federal Credit Union, Rochester, NY             Purchase           Subordinated Debentures                —                   —       $300,000           Par
1      9/17/2010    First Eagle Bancshares, Inc., Hanover Park, IL                Purchase           Subordinated Debentures        $7,875,000                  —      $7,875,000          Par
1, 2   9/24/2010    Liberty Financial Services, Inc., New Orleans, LA             Purchase           Preferred Stock                $5,645,000         $5,689,000     $11,334,000          Par
1      9/24/2010    First Choice Bank, Cerritos, CA                               Purchase           Preferred Stock                $5,146,000                  —      $5,146,000          Par
       9/24/2010    Bainbridge Bancshares, Inc., Bainbridge, GA                   Purchase           Preferred Stock                        —                   —      $3,372,000          Par
       9/24/2010    Virginia Community Capital, Inc., Christiansburg, VA          Purchase           Subordinated Debentures                —                   —      $1,915,000          Par
       9/24/2010    Lower East Side People’s Federal Credit Union, New York, NY   Purchase           Subordinated Debentures                —                   —       $898,000           Par
       9/24/2010    Atlantic City Federal Credit Union, Lander, WY                Purchase           Subordinated Debentures                —                   —      $2,500,000          Par
       9/24/2010    Neighborhood Trust Federal Credit Union, New York, NY         Purchase           Subordinated Debentures                —                   —       $283,000           Par
       9/24/2010    Gateway Community Federal Credit Union, Missoula, MT          Purchase           Subordinated Debentures                —                   —      $1,657,000          Par
       9/24/2010    Union Baptist Church Federal Credit Union, Fort Wayne, IN     Purchase           Subordinated Debentures                —                   —        $10,000           Par
       9/24/2010    Buffalo Cooperative Federal Credit Union, Buffalo, NY         Purchase           Subordinated Debentures                —                   —       $145,000           Par
       9/24/2010    Tulane-Loyola Federal Credit Union, New Orleans, LA           Purchase           Subordinated Debentures                —                   —       $424,000           Par
       9/24/2010    Alternatives Federal Credit Union, Ithaca, NY                 Purchase           Subordinated Debentures                —                   —      $2,234,000          Par
       9/24/2010    Liberty County Teachers Federal Credit Union, Liberty, TX     Purchase           Subordinated Debentures                —                   —       $435,000           Par
       9/24/2010    UNO Federal Credit Union, New Orleans, LA                     Purchase           Subordinated Debentures                —                   —       $743,000           Par
       9/24/2010    Butte Federal Credit Union, Biggs, CA                         Purchase           Subordinated Debentures                —                   —      $1,000,000          Par
                    Thurston Union of Low-Income People (TULIP) Cooperative Credit
       9/24/2010                                                                   Purchase          Subordinated Debentures                —                   —        $75,000           Par
                    Union, Olympia, WA
       9/24/2010    Phenix Pride Federal Credit Union, Phenix City, AL            Purchase           Subordinated Debentures                —                   —       $153,000           Par
       9/24/2010    Pyramid Federal Credit Union, Tucson, AZ                      Purchase           Subordinated Debentures                —                   —      $2,500,000          Par
       9/24/2010    Cooperative Center Federal Credit Union, Berkeley, CA         Purchase           Subordinated Debentures                —                   —      $2,799,000          Par
       9/24/2010    Prince Kuhio Federal Credit Union, Honolulu, HI               Purchase           Subordinated Debentures                —                   —       $273,000           Par
       9/24/2010    Community First Guam Federal Credit Union, Hagatna, GU        Purchase           Subordinated Debentures                —                   —      $2,650,000          Par
       9/24/2010    Brewery Credit Union, Milwaukee, WI                           Purchase           Subordinated Debentures                —                   —      $1,096,000          Par
       9/24/2010    Tongass Federal Credit Union, Ketchikan, AK                   Purchase           Subordinated Debentures                —                   —      $1,600,000          Par
       9/24/2010    Santa Cruz Community Credit Union, Santa Cruz, CA             Purchase           Subordinated Debentures                —                   —      $2,828,000          Par
       9/24/2010    Northeast Community Federal Credit Union, San Francisco, CA   Purchase           Subordinated Debentures                —                   —       $350,000           Par
       9/24/2010    Fairfax County Federal Credit Union, Fairfax, VA              Purchase           Subordinated Debentures                —                   —      $8,044,000          Par
1, 2   9/29/2010    Security Federal Corporation, Aiken, SC                       Purchase           Preferred Stock               $18,000,000         $4,000,000     $22,000,000          Par
1, 2   9/29/2010    Community Bank of the Bay, Oakland, CA                        Purchase           Preferred Stock                $1,747,000         $2,313,000      $4,060,000          Par
                                                                                                                                                                                           —




1, 2   9/29/2010    The First Bancshares, Inc., Hattiesburg, MS                   Purchase           Preferred Stock                $5,000,000        $12,123,000     $17,123,000          Par
1, 2   9/29/2010    BancPlus Corporation, Ridgeland, MS                           Purchase           Preferred Stock               $50,400,000        $30,514,000     $80,914,000          Par
1      9/29/2010    First M&F Corporation, Kosciusko, MS                          Purchase           Preferred Stock               $30,000,000                  —     $30,000,000          Par
1      9/29/2010    State Capital Corporation, Greenwood, MS                      Purchase           Preferred Stock               $15,750,000                  —     $15,750,000          Par
1      9/29/2010    Lafayette Bancorp, Inc., Oxford, MS                           Purchase           Preferred Stock                $4,551,000                  —      $4,551,000          Par
                                                                                                                                                                                                                        Continued on next page.
    CDCI PROGRAM TRANSACTION DETAIL, AS OF 9/30/2010                                                                         (CONTINued)
                                                                                                                                                                             Purchase Details                                                                Disposition Details

                            Seller                                                                                                                                                          Additional             Investment        Pricing                                               Remaining
Note       Trade Date       Name of Institution                                                 Transaction Type        Investment Description              Amount from CPP                Investment                 Amount      Mechanism           Date            Amount       Investment Amount
1          9/29/2010        PSB Financial Corporation, Many, LA                                 Purchase                Preferred Stock                           $9,734,000                        —             $9,734,000             Par
1          9/29/2010        Community Bancshares of Mississippi, Inc., Brandon, MS              Purchase                Preferred Stock                          $54,600,000                        —           $54,600,000              Par
1          9/29/2010        First Vernon Bancshares, Inc., Vernon, AL                           Purchase                Preferred Stock                           $6,245,000                        —             $6,245,000             Par
1          9/29/2010        Security Capital Corporation, Batesville, MS                        Purchase                Preferred Stock                          $17,910,000                        —           $17,910,000              Par
           9/29/2010        BankAsiana, Palisades Park, NJ                                      Purchase                Preferred Stock                                      —                      —             $5,250,000             Par
           9/29/2010        The Magnolia State Corporation, Bay Springs, MS                     Purchase                Subordinated Debentures                             —-                      —             $7,922,000             Par
           9/29/2010        Bancorp of Okolona, Inc., Okolona, MS                               Purchase                Subordinated Debentures                              —                      —             $3,297,000             Par
           9/29/2010        Southern Chautauqua Federal Credit Union, Lakewood, NY              Purchase                Subordinated Debentures                              —                      —             $1,709,000             Par
           9/29/2010        Fidelis Federal Credit Union, New York, NY                          Purchase                Subordinated Debentures                              —                      —                $14,000             Par
           9/29/2010        Bethex Federal Credit Union, Bronx, NY                              Purchase                Subordinated Debentures                              —                      —               $502,000             Par
           9/29/2010        Shreveport Federal Credit Union, Shreveport, LA                     Purchase                Subordinated Debentures                              —                      —             $2,646,000             Par
           9/29/2010        Carter Federal Credit Union, Springhill, LA                         Purchase                Subordinated Debentures                              —                      —             $6,300,000             Par
           9/29/2010        Workers United Federal Credit Union, New York, NY                   Purchase                Subordinated Debentures                              —                      —                $57,000             Par
           9/29/2010        North Side Community Federal Credit Union, Chicago, IL              Purchase                Subordinated Debentures                              —                      —               $325,000             Par
           9/29/2010        East End Baptist Tabernacle Federal Credit Union, Bridgeport, CT Purchase                   Subordinated Debentures                              —                      —                  $7,000            Par
           9/29/2010        Community Plus Federal Credit Union, Rantoul, IL                    Purchase                Subordinated Debentures                              —                      —               $450,000             Par
           9/29/2010        Border Federal Credit Union, Del Rio, TX                            Purchase                Subordinated Debentures                              —                      —             $3,260,000             Par
           9/29/2010        Opportunities Credit Union, Burlington, VT                          Purchase                Subordinated Debentures                              —                      —             $1,091,000             Par
           9/29/2010        First Legacy Community Credit Union, Charlotte, NC                  Purchase                Subordinated Debentures                              —                      —             $1,000,000             Par
           9/29/2010        Union Settlement Federal Credit Union, New York, NY                 Purchase                Subordinated Debentures                              —                      —               $295,000             Par
           9/29/2010        Southside Credit Union, San Antonio, TX                             Purchase                Subordinated Debentures                              —                      —             $1,100,000             Par
           9/29/2010        D.C. Federal Credit Union, Washington, DC                           Purchase                Subordinated Debentures                              —                      —             $1,522,000             Par
           9/29/2010        Faith Based Federal Credit Union, Oceanside, CA                     Purchase                Subordinated Debentures                              —                      —                $30,000             Par
           9/29/2010        Greater Kinston Credit Union, Kinston, NC                           Purchase                Subordinated Debentures                              —                      —               $350,000             Par
           9/29/2010        Hill District Federal Credit Union, Pittsburgh, PA                  Purchase                Subordinated Debentures                              —                      —               $100,000             Par
           9/29/2010        Freedom First Federal Credit Union, Roanoke, VA                     Purchase                Subordinated Debentures                              —                      —             $9,278,000             Par
           9/29/2010        Episcopal Community Federal Credit Union, Los Angeles, CA           Purchase                Subordinated Debentures                              —                      —               $100,000             Par
           9/29/2010        Vigo County Federal Credit Union, Terre Haute, IN                   Purchase                Subordinated Debentures                              —                      —             $1,229,000             Par
           9/29/2010        Renaissance Community Development Credit Union, Somerset, NJ Purchase                       Subordinated Debentures                              —                      —                $31,000             Par
           9/29/2010        Independent Employers Group Federal Credit Union, Hilo, HI          Purchase                Subordinated Debentures                              —                      —               $698,000             Par
           9/30/2010        Brooklyn Cooperative Federal Credit Union, Brooklyn, NY             Purchase                Subordinated Debentures                              —                      —               $300,000             Par
                                                                                                                                                                                      Total Purchase
                                                                                                                                                                                             Amount           $570,073,000
Notes: Numbers affected by rounding. Data as of 9/30/2010. Numbered notes are taken verbatim from Treasury’s 10/4/2010 Transactions Report.

1
     This institution qualified to participate in the Community Development Capital Initiative (CDCI), and has exchanged its Capital Purchase Program investment for an equivalent amount of investment with Treasury under the CDCI program terms.
2
     Treasury made an additional investment in this institution at the time it entered the CDCI program.
2a
     Treasury made an additional investment in this institution after the time it entered the CDCI program.

Source: Treasury, Transaction Report, 10/4/2010.




Table D.14

    FHA Short Refinance Program, AS OF 9/30/2010
                              Seller
Note         Trade Date       Name                                               Transaction Type          Investment Description                                              Investment Amount           Pricing Mechanism
1            9/3/2010         Citigroup, Inc., New York, NY                      Purchase                  Facility Purchase Agreement, dated as of 9/3/2010,                     $8,117,000,000                            N/A
                                                                                                           between the U.S. Department of the Treasury and
                                                                                                           Citibank, N.A
                                                                                                           TOTAL                                                                 $8,117,000,000
Notes: Numbers affected by rounding. Data as of 9/30/2010. Numbered note is taken verbatim from Treasury’s 10/4/2010 Transactions Report.

1
    On September 3, 2010, the U.S. Department of the Treasury and Citibank, N.A. entered into a facility purchase agreement (the “L/C Facility Agreement”), which allows Treasury to demand from Citigroup the issu-
    ance of an up to $8 billion, 10-year letter of credit (the “L/C”). Treasury will increase availability under the L/C incrementally in proportion to the dollar value of mortgages refinanced under the FHA Short Refinance
                                                                                                                                                                                                                                                                                                       Transaction detail I Appendix D I OCTOBER 26, 2010




    program from time to time during the first 2.5 years. At that time, the amount of the L/C will be capped at the then-current level. Under the terms of the L/C Facility Agreement, Treasury will incur fees for the
    availability and usage of the L/C up to a maximum amount of $117 million.

Source: Treasury, Transaction Report, 10/4/2010.
                                                                                                                                                                                                                                                                                                       299
300           Appendix E I Cross-Reference of Report to the Inspector General Act of 1978 | OCTOBER 26, 2010




      Cross-Reference of Report to the Inspector General
      Act of 1978
      This appendix cross-references this report to the reporting requirements under the Inspector General Act of 1978
      (P.L. 95-452), as amended, 5 U.S.C. APP.

  Section    Statute (Inspector General Act of 1978)                 SIGTARP Action                               Report Reference
  Section    “Description of significant problems, abuses, and       List problems, abuses, and deficiencies      Section 1: “The Office of the SIGTARP”
  5(a)(1)    deficiencies... ”                                       from SIGTARP audits and investigations.      Section 5: “SIGTARP Recommendations”
             “Description of recommendations for corrective ac-
  Section                                                            List recommendations from SIGTARP            Section 1: “The Office of the SIGTARP”
             tion…with respect to significant problems, abuses,
  5(a)(2)                                                            audits and investigations.                   Section 5: “SIGTARP Recommendations”
             or deficiencies... ”
             “Identification of each significant recommendation      List all instances of incomplete correc-
  Section
             described in previous semiannual reports on which       tive action from previous semiannual         Section 5: “SIGTARP Recommendations”
  5(a)(3)
             corrective action has not been completed...”            reports.
             “A summary of matters referred to prosecutive
  Section                                                            List status of SIGTARP investigations
             authorities and the prosecutions and convictions                                                     Section 1: “The Office of the SIGTARP”
  5(a)(4)                                                            referred to prosecutive authorities.
             which have resulted... ”
             “A summary of each report made to the [Treasury
                                                                     List TARP oversight reports by Treasury,
  Section    Secretary] under section 6(b)(2)... ” (instances                                                     Appendix G: “Key Oversight Reports and
                                                                     FSOB, SEC, GAO, COP, OMB, CBO,
  5(a)(5)    where information requested was refused or not                                                       Testimonies”
                                                                     Federal Reserve, FDIC, and SIGTARP.
             provided)
             “A listing, subdivided according to subject matter,
  Section    of each audit report issued...” showing dollar value
                                                                     List SIGTARP audits.                         Section 1: “The Office of the SIGTARP”
  5(a)(6)    of questioned costs and recommendations that
             funds be put to better use.
  Section    “A summary of each particularly significant             Provide a synopsis of significant
                                                                                                                  Section 1: “The Office of the SIGTARP”
  5(a)(7)    report... ”                                             SIGTARP audits.
                                                                                                                  As detailed in Section 1: “The Office of the
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
  Section                                                                                                         SIGTARP,” SIGTARP has made significant findings
             reports and the total dollar value of questioned        value of questioned costs from SIGTARP
  5(a)(8)                                                                                                         in its audit reports. However, to date SIGTARP’s
             costs... ”                                              audits.
                                                                                                                  audits have not included questioned costs findings.
                                                                                                                  As detailed in Section 1: “The Office of the
             “Statistical tables showing the total number of audit   Provide statistical tables showing dollar
  Section                                                                                                         SIGTARP,” SIGTARP has made important findings in
             reports and the dollar value of recommendations         value of funds put to better use by
  5(a)(9)                                                                                                         its audit reports. However, to date SIGTARP’s audits
             that funds be put to better use by management...”       management from SIGTARP audits.
                                                                                                                  have not included funds put to better use findings.
             “A summary of each audit report issued before
             the commencement of the reporting period for
             which no management decision has been made by           Provide a synopsis of significant
  Section                                                                                                         Section 1: “The Office of the SIGTARP”
             the end of reporting period, an explanation of the      SIGTARP audit reports in which recom-
  5(a)(10)                                                                                                        Section 5: “SIGTARP Recommendations”
             reasons such management decision has not been           mendations by SIGTARP are still open.
             made, and a statement concerning the desired
             timetable for achieving a management decision...”
                                                                                                                  As detailed in Section 1: “The Office of the
                                                                                                                  SIGTARP,” and Section 5: “SIGTARP Recommenda-
                                                                     Explain audit reports in which significant   tions,” SIGTARP has made noteworthy recom-
  Section    “A description and explanation of the reasons for
                                                                     revisions have been made to manage-          mendations in its audit reports, and the majority
  5(a)(11)   any significant revised management decision...”
                                                                     ment decisions.                              of these recommendations have been agreed to.
                                                                                                                  To date, no management decisions have been
                                                                                                                  revised.
             “Information concerning any significant manage-                                                      See discussion in Section 1: “The Office of the
  Section                                                            Provide information where management
             ment decision with which the Inspector General is in                                                 SIGTARP,” and Section 5: “SIGTARP Recommenda-
  5(a)(12)                                                           disagreed with a SIGTARP audit finding.
             disagreement...”                                                                                     tions.”
                                                                     public announcements of audits I Appendix F I october 26, 2010   301




PUBLIC ANNOUNCEMENTS OF                                          GAO3
                                                                 Ongoing Audits
AUDITS                                                           •	 CPP Approval and Return Process: Review Treasury’s
This appendix provides an announcement of new and ongoing           process as well as regulators’ processes for approvals and
public audits by the agencies listed below. See Appendix G:         withdrawals, as well as Treasury and regulators’ application
“Key Oversight Reports and Testimonies” for a listing of pub-       of criteria for repayment.  
lished reports. Italics indicate narrative taken verbatim from   •	 TARP after two years will provide an overview of the evolu-
the agencies’ responses to SIGTARP’s data call.                     tion and status of the programs with discussion of possible
•	 U.S. Department of Treasury Office of the Inspector              effectiveness indicators.  
                                                                 •	 AIG indicators report will update financial and other indi-
    General (“Treasury OIG”)
                                                                    cators to chart AIG’s prospects.
•	 Federal Reserve Board Office of Inspector General
                                                                 •	 Financial audit of OFS for FY 2010.  
    (“Federal Reserve OIG”)
                                                                 •	 HAMP # 3 will focus on implementation of new programs
•	 Government Accountability Office (“GAO”)                         plus continued oversight of servicer performance for ongoing
•	 Federal Deposit Insurance Corporation Office of the              problems.  
    Inspector General (“FDIC OIG”)                               •	 Auto industry program — ongoing oversight of program
                                                                    and analysis of community impacts of restructuring of auto
Treasury OIG1                                                       companies.
Ongoing Audits
•	 None                                                          FDIC OIG4
                                                                 Ongoing Audits
Federal Reserve OIG2                                             •	 Material Loss Review and Evaluation of Efforts to Address
Ongoing Audits                                                      Capital Deficiencies at ShoreBank, Chicago, Illinois.
•	 Review of the Federal Reserve’s Lending Facilities and
   Special Programs (report is being drafted).                   Endnotes
•	 Material Loss Review of Midwest Banc and Trust (fieldwork     	 Treasury OIG, response to SIGTARP data call, 9/22/2010.
                                                                 1


   is just beginning).                                           	 Federal Reserve OIG, response to SIGTARP data call, 9/30/2010.
                                                                 2


                                                                 	 GAO, response to SIGTARP data call, 9/29/2010.
                                                                 3


                                                                 	 FDIC OIG, response to SIGTARP data call, 9/30/2010.
                                                                 4
302            Appendix G I KEY OVERSIGHT REPORTS AND TESTIMONIES I OCTOBER 26, 2010




      KEY OVERSIGHT REPORTS AND TESTIMONIES
      This list reflects TARP-related reports and testimonies published since SIGTARP’s last quarterly report. See prior SIGTARP
      quarterly reports for lists of prior oversight reports and testimonies.			

      U.S. DEPARTMENT OF THE TREASURY (Treasury)
      ROLES AND MISSION
      The mission of Treasury is to serve the American people and strengthen national security by managing the U.S. government’s finances effectively; promot-
      ing economic growth and stability; and ensuring the safety, soundness, and security of the U.S. and international financial systems. Treasury advises the
      President on economic and financial issues, encourages sustainable economic growth, and fosters improved governance in financial institutions.
      OVERSIGHT REPORTS
      Treasury, Transactions Report, 7/1/2010 -- 9/30/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed on 10/6/2010. (released
      weekly)
      Treasury, Section 105(a) Report, 7/12/2010 -- 9/10/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed on 10/6/2010.
      Treasury, “Dividend and Interest Reports,” 7/15/2010 -- 9/10/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed on 10/6/2010.
      Treasury, “Making Home Affordable Program Reports,” 8/20/2010 -- 9/22/2010, www.financialstability.gov/latest/reportsanddocs.html, accessed on
      10/6/2010.
      Treasury, “Warrant Disposition Report,” 8/4/2010, www.financialstability.gov/docs/TARP_WRRTDISP_80310.pdf, accessed on 10/6/2010.
      Treasury, “Treasury Status Update Response to SIGTARP Audit Report on Corporate Governance,” 8/5/2010, www.financialstability.gov/docs/
      Treasury%20Status%20Update%20Response%20to%20SIGTARP%20Audit%20Report%20on%20Corporate%20Governance%20(08052010).pdf, accessed
      on 10/6/2010.
      Treasury, “Treasury’s Response to GAO’s HAMP Audit Report,” 8/23/2010, www.financialstability.gov/docs/HAMP/final%20GAO%20hamp%20response.
      pdf, accessed on 10/6/2010.
      Treasury, “Safety and Soundness: City National Corporation Capital Purchase Program Case Study,” 8/27/2010, www.utreas.gov/inspector-general/audit-
      reports/2009/oig09044.pdf, accessed on 10/6/2010.
      Treasury, “Treasury’s Response to GAO’s TARP Extension Audit Report,” 8/30/2010, www.financialstability.gov/docs/HAMP/final%20summary%20re-
      sponse_081310.pdf, accessed on 10/6/2010.
      RECORDED TESTIMONY
      Treasury, “Remarks by the President on the American Auto Industry and American Economy at Chrysler Auto Plant,” 7/30/2010,
      www.financialstability.gov/latest/tg_07302010.html, accessed on 10/6/2010.
      Treasury, “Secretary of Treasury Timothy F. Geithner Remarks at Center for American Progress,” 8/4/2010, www.financialstability.gov/latest/
      tg_08042010.html, accessed on 10/6/2010.
      Treasury, “Treasury Deputy Secretary Neal S. Wolin Remarks at the New England Council Boston, Massachusetts,” 8/5/2010, www.financialstability.gov/
      latest/tg_08052010.html, accessed on 10/6/2010.
      Treasury, “Secretary of Treasury Tim Geithner Remarks at Office of Financial Stability Town Hall,” 9/22/2010, www.financialstability.gov/latest/
      tg_09222010.html, accessed on 10/6/2010.
      Treasury, “Treasury Secretary Timothy F. Geithner: Written Testimony, House Financial Services Committee,” 09/22/2010, www.treas.gov/press/releas-
      es/tg867.htm, accessed on 9/30/2010.
      Treasury, “Treasury Deputy Secretary Neal Wolin Written Testimony before the Senate Banking Committee on ‘Implementing the Dodd-Frank Wall Street
      Reform and Consumer Protection Act,’ 9/30/2010, www.treas.gov/press/releases/tg881.htm, accessed on 10/6/2010.
                                                                           KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix G I OCTOBER 26, 2010            303



FINANCIAL STABILITY OVERSIGHT BOARD (FSOB)
ROLES AND MISSION
FSOB is responsible for reviewing the exercise of authority under programs developed in accordance with EESA, including:
• policies implemented by the Secretary and the Office of Financial Stability, including the appointment of financial agents, the designation of asset
  classes to be purchased, and plans for the structure of vehicles used to purchase troubled assets
• the effect of such actions in assisting American families in preserving home ownership, stabilizing financial markets, and protecting taxpayers.

In addition, FSOB is responsible for making recommendations to the Treasury Secretary on the use of the authority under EESA, as well as for reporting
any suspected fraud, misrepresentation, or malfeasance to SIGTARP or the U.S. Attorney General.
OVERSIGHT REPORTS
Financial Stability Oversight Board, “Financial Stability Oversight Board Quarterly Report to Congress,” 6/30/2010, www.financialstability.gov/docs/FSOB/
FINSOB%20Report%20063010.pdf, accessed on 10/6/2010.
Financial Stability Oversight Board, “Troubled Asset Relief Program: Two Year Retrospective,” 10/5/2010, www.financialstability.gov/docs/TARP%20
Two%20Year%20Retrospective_10%2005%2010_transmittal%20letter.pdf, accessed on 10/6/2010.
RECORDED TESTIMONY
None


SECURITIES AND EXCHANGE COMMISSION (SEC)
ROLES AND MISSION
The SEC administers the federal securities laws, requires disclosure by public companies, and brings enforcement actions against violators of securities
law. While other federal and state agencies are legally responsible for regulating mortgage lending and the credit markets, SEC has taken these decisive
actions to address the extraordinary challenges caused by the current credit crisis:
• aggressively combating fraud and market manipulation through enforcement actions
• taking swift action to stabilize financial markets
• enhancing transparency in financial disclosure.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
SEC, “Testimony Concerning Continuing Oversight on International Cooperation to Modernize Financial Regulation,” Commissioner Kathleen L. Casey,
7/20/2010, www.sec.gov/news/testimony/2010/ts072010klc.htm, accessed on 10/6/2010.
SEC, “Oversight of the U.S. Securities and Exchange Commission: Evaluating Present Reforms and Future Challenges,” Chairman Mary L. Schapiro,
7/20/2010, www.sec.gov/news/testimony/2010/ts072010mls.htm, accessed on 10/6/2010.


GOVERNMENT ACCOUNTABILITY OFFICE (GAO)
ROLES AND MISSION
GAO is tasked with performing ongoing oversight of TARP’s performance, including:
• evaluating the characteristics of asset purchases and the disposition of assets acquired
• assessing TARP’s efficiency in using the funds
• evaluating compliance with applicable laws and regulations
• assessing the efficiency of contracting procedures
• auditing TARP’s annual financial statements and internal controls
• submitting reports to Congress at least every 60 days.
OVERSIGHT REPORTS
GAO, “Troubled Asset Relief Program: Continued Attention Needed to Ensure the Transparency and Accountability of Ongoing Programs,” 7/21/2010,
www.gao.gov/new.items/d10933t.pdf, accessed on 10/6/2010.
GAO, “Financial Assistance: Ongoing Challenges and Guiding Principles Related to Government Assistance for Private Sector Companies,” 8/3/2010,
www.gao.gov/new.items/d10719.pdf, accessed on 10/6/2010.
GAO, “Troubled Asset Relief Program: Bank Stress Test Offers Lessons as Regulators Take Further Actions to Strengthen Supervisory Oversight,”
9/29/2010, www.gao.gov/new.items/d10861.pdf, accessed on 10/6/2010.
GAO, “Troubled Asset Relief Program: Opportunities Exist to Apply Lessons Learned from the Capital Purchase Program to Similarly Designed Programs
and to Improve the Repayment Process,” 10/4/2010, www.gao.gov/new.items/d1147.pdf, accessed on 10/6/2010.
RECORDED TESTIMONY
None
304            Appendix G I KEY OVERSIGHT REPORTS AND TESTIMONIES I OCTOBER 26, 2010




      CONGRESSIONAL OVERSIGHT PANEL (COP)
      ROLES AND MISSION
      COP is tasked with reviewing the current state of the financial markets and the regulatory system. As a by-product of these oversight activities, COP is
      required to produce the following reports to Congress:
      • regular reports every 30 days that cover a variety of issues, including administration of the program, the impact of purchases on the financial markets/
        financial institutions, market transparency, and the effectiveness of foreclosure mitigation, minimization of long-term costs, and maximization of benefits
        for taxpayers
      • a special report on regulatory reform, published no later than January 20, 2009, analyzing the current state of the regulatory system and its effective-
        ness at overseeing the participants in the financial system and protecting consumers. The report is to provide recommendations for improvement
        regarding whether any participants in the financial markets that are currently outside the regulatory system should become subject to the regulatory
        system, the rationale underlying such recommendation, and whether there are any gaps in existing consumer protections.
      OVERSIGHT REPORTS
      COP, “Small Banks in the Capital Purchase Program,” 7/14/2010, http://cop.senate.gov/reports/library/report-071410-cop.cfm, accessed on
      10/6/2010.
      COP, “The Global Context and International Effects of the TARP,” 8/12/2010, http://cop.senate.gov/reports/library/report-081210-cop.cfm, accessed on
      10/6/2010.
      COP, “Assessing the TARP on the Eve of Its Expiration,” 9/16/2010, http://cop.senate.gov/reports/library/report-091610-cop.cfm, accessed on
      10/6/2010.
      RECORDED TESTIMONY
      COP, “An Update on the TARP Program,” 7/21/2010, http://cop.senate.gov/documents/testimony-072110-warren.pdf, accessed on 10/6/2010.


      OFFICE OF MANAGEMENT AND BUDGET (OMB)
      ROLES AND MISSION
      OMB’s predominant mission is to assist the President in overseeing the preparation of the Federal budget and to supervise its administration in Executive
      Branch agencies. In helping to formulate the President’s spending plans, OMB evaluates the effectiveness of agency programs, policies, and procedures,
      assesses competing funding demands among agencies, and sets funding priorities. OMB ensures that agency reports, rules, testimony, and proposed
      legislation are consistent with the President’s Budget and with Administration policies.

      In addition, OMB oversees and coordinates the Administration’s procurement, financial management, information, and regulatory policies. In each of these
      areas, OMB’s role is to help improve administrative management, to develop better performance measures and coordinating mechanisms, and to reduce
      any unnecessary burdens on the public.
      OVERSIGHT REPORTS
      None
      RECORDED TESTIMONY
      None


      CONGRESSIONAL BUDGET OFFICE (CBO)
      ROLES AND MISSION
      CBO’s mandate is to provide Congress with objective, nonpartisan, and timely analyses to aid in economic and budgetary decisions on the wide array of
      programs covered by the Federal budget and the information and estimates required for the Congressional budget process.

      CBO assists the House and Senate Budget Committees and Congress more generally by preparing reports and analyses. In accordance with CBO’s man-
      date to provide objective and impartial analysis, CBO’s reports contain no policy recommendations.
      OVERSIGHT REPORTS
      CBO, “Estimated Impact of the American Recovery and Reinvestment Act on Employment and Economic Output From April 2010 Through June 2010,”
      August 2010, www.cbo.gov/doc.cfm?index=11706, accessed on 10/6/2010.
      RECORDED TESTIMONY
      CBO, “The Economic Outlook and Fiscal Policy Choices,” 9/28/2010, www.cbo.gov/doc.cfm?index=11874, accessed on 10/6/2010.
                                                                            KEY OVERSIGHT REPORTS AND TESTIMONIES I Appendix G I OCTOBER 26, 2010                    305



FEDERAL RESERVE BOARD (Federal Reserve)
ROLES AND MISSION
Federal Reserve’s duties fall into four general areas:
• conducting the nation’s monetary policy by influencing the monetary and credit conditions in the economy in pursuit of maximum employment, stable
  prices, and moderate long-term interest rates
• supervising and regulating banking institutions to ensure the safety and soundness of the nation’s banking and financial system and to protect the credit
  rights of consumers
• maintaining the stability of the financial system and containing systemic risk that may arise in financial markets
• providing financial services to depository institutions, the U.S. government, and foreign official institutions, including playing a major role in operating the
  nation’s payments system.
OVERSIGHT REPORTS
Federal Reserve, “Monetary Policy Report to the Congress,” 7/21/2010, www.federalreserve.gov/monetarypolicy/files/20100721_mprfullreport.pdf,
accessed on 10/6/2010.
Federal Reserve, “Audit of the Board’s Processing of Applications for the Capital Purchase Program under the Troubled Asset Relief Program,” 9/2010,
www.federalreserve.gov/oig/oig_rpt_2009.htm, accessed on 10/6/2010.
RECORDED TESTIMONY
Federal Reserve, “Semiannual Monetary Policy Report to the Congress,” Chairman Ben S. Bernanke, Before the Committee on Banking, Housing, and
Urban Affairs, U.S. Senate, Washington, D.C, 7/21/2010, www.federalreserve.gov/newsevents/testimony/bernanke20100721a.htm, accessed on
10/6/2010.
Federal Reserve, “Causes of the Recent Financial and Economic Crisis,” Chairman Ben S. Bernanke, Before the Financial Crisis Inquiry Commission,
Washington, D.C., 9/2/2010, www.federalreserve.gov/newsevents/testimony/bernanke20100902a.htm, accessed on 10/6/2010.
Federal Reserve, “Regulatory Reform Implementation,” Chairman Ben S. Bernanke, Before the Committee on Banking, Housing, and Urban Affairs,
Washington, D.C, 9/30/2010, www.federalreserve.gov/newsevents/testimony/bernanke20100930a.htm, accessed on 10/6/2010.


FEDERAL DEPOSIT INSURANCE CORPORATION (FDIC)
ROLES AND MISSION
FDIC is an independent agency created by Congress that maintains the stability and public confidence in the nation’s financial system by insuring deposits,
examining and supervising financial institutions, and managing receiverships.
OVERSIGHT REPORTS
None
RECORDED TESTIMONY
FDIC, “Executive Compensation Oversight After the Dodd-Frank Wall Street Reform and Consumer Protection Act of 2010,” Before the Committee on
Financial Services, U.S House of Representatives, 9/24/2010, www.fdic.gov/news/news/speeches/chairman/spsep2410.html, accessed on
10/6/2010.
FDIC, “Implementing the Dodd-Frank Wall Street Reform and Consumer Protection Act,” before the Committee on Banking, Housing, and Urban Affairs,
U.S. Senate, 9/30/2010, www.fdic.gov/news/news/speeches/chairman/spsep3010.html, accessed on 10/6/2010.


FEDERAL DEPOSIT INSURANCE CORPORATION OFFICE OF THE INSPECTOR GENERAL (FDIC OIG)
ROLES AND MISSION
The Office of Inspector General promotes the economy, efficiency, and effectiveness of FDIC programs and operations, and protects against fraud, waste,
and abuse, to assist and augment the FDIC’s contribution to stability and public confidence in the nation’s financial system.
OVERSIGHT REPORTS
FDIC OIG, “Material Loss Review of United Commercial Bank, San Francisco, California,” 7/20/2010, www.fdicig.gov/reportsl0/10-043.pdf,
accessed on 10/6/2010.
RECORDED TESTIMONY
None
306               Appendix G I KEY OVERSIGHT REPORTS AND TESTIMONIES I OCTOBER 26, 2010




      SPECIAL INSPECTOR GENERAL FOR THE TROUBLED ASSET RELIEF PROGRAM (SIGTARP)
      ROLES AND MISSION
      Under EESA, the Special Inspector General has the responsibility, among other things, to conduct, supervise and coordinate audits and investigations of
      the purchase, management and sale of assets under the Troubled Asset Relief Program (“TARP”).

      SIGTARP’s mission is to advance economic stability by promoting the efficiency and effectiveness of TARP management, through transparency, through
      coordinated oversight, and through robust enforcement against those, whether inside or outside of Government, who waste, steal or abuse TARP funds.
      OVERSIGHT REPORTS
      SIGTARP, Quarterly Report to Congress, 7/21/2010, http://sigtarp.gov/reports/congress/2010/July2010_Quarterly_Report_to_Congress.pdf, accessed
      on 10/6/2010.
      SIGTARP, “Factors Affecting the Decisions of General Motors and Chrysler to Reduce Their Dealership Networks,” 7/19/2010, http://sigtarp.gov/reports/
      audit/2010/Factors%20Affecting%20the%20Decisions%20of%20General%20Motors%20and%20Chrysler%20to%20Reduce%20Their%20Dealership%20
      Networks%207_19_2010.pdf, accessed on 10/6/2010.
      RECORDED TESTIMONY
      SIGTARP, Statement of Neil Barofsky, Special Inspector General for the Troubled Asset Relief Program, Before the Senate Committee on Finance,
      7/21/2010, http://sigtarp.gov/reports/testimony/2010/Testimony%20Before%20the%20Senate%20Committee%20on%20Finance_7_21_2010%20
      Final.pdf, accessed on 10/6/2010.
      Note: Italics style indicates narrative taken verbatim from source documents.

      Sources: Treasury, www.treas.gov, accessed on 10/6/2010; Treasury Inspector General, www.treas.gov, accessed on 10/6/2010; Financial Stability Oversight Board, www.treas.gov, accessed on
      10/6/2010; SEC, www.sec.gov, accessed on 10/6/2010; GAO, www.gao.gov, accessed on 10/6/2010; COP, www.cop.senate.gov, accessed on 10/6/2010; OMB, www.whitehouse.gov, accessed on
      10/6/2010; CBO, www.cbo.gov, accessed on 10/6/2010; Federal Reserve Board, www.federalreserve.gov, accessed on 10/6/2010; FDIC, www.fdic.gov, accessed on 10/6/2010; FDIC OIG, www.
      fdicoig.gov, accessed on 10/6/2010; SIGTARP, www.sigtarp.gov, accessed on 10/6/2010; FDIC, response to SIGTARP data call, 9/30/2010; GAO, response to SIGTARP data call, 9/29/2010, Treasury,
      response to SIGTARP data call, 9/22/2010.
307                                                                                            correspondence I Appendix H I october 26, 2010           307




      correspondence
      This appendix provides a copy of the following correspondence:

       Correspondence
       Date          From             To              Regarding
       7/16/2010     Treasury         SIGTARP         SIGTARP Official Draft Audit Report
       8/5/2010      Treasury         SIGTARP         Follow-Up on Compliance Recommendations in the SIGTARP Audit Report
                                                      Engagement Memo – Review of the Section 382 Limitation Waiver for Financial Instruments Held by
       8/10/2010     SIGTARP          Treasury
                                                      Treasury
       8/11/2010     Treasury         SIGTARP         SIGTARP Suggestions on Treasury’s Compliance and Internal Controls Program for PPIP
                                                      Follow-up on SIGTARP Report Entitled “Factors Affecting the Decisions of General Motors and
       8/19/2010     Treasury         SIGTARP
                                                      Chrysler to Reduce their Dealership Networks”
       8/20/2010     SIGTARP          DOJ             Constitutionality of the Special Master Appointment – Legal Counsel Opinion Request
                                                      SIGTARP Recommendation on Treasury’s Compliance with the enactment of the Small Business Jobs
       9/27/2010     SIGTARP          Treasury
                                                      Act of 2010
       10/7/2010     Treasury         SIGTARP         Status Update on Recommendations in the SIGTARP Quarterly Report
                                                      SIGTARP Recommendation for Treasury to Publish Explanation for Changing Methodology for
       10/13/2010    SIGTARP          Treasury
                                                      Estimating AIG Loss Estimates
                                                      SIGTARP Disclosure of Individual Securities-Level Positions in the Public-Private
       10/14/2010    Treasury         SIGTARP
                                                      Investment Program
       10/19/2010    Treasury         SIGTARP         SIGTARP Recommended Disclosure on Loss Estimates for Treasury Investments in AIG
       10/22/2010    Treasury         SIGTARP         Response to SIGTARP October 2010 Quarterly Report to Congress
308   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   309
310   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   311
312   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   313
314   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   315
316   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   317
318   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   319
320   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   321
322   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   323
324   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   325
326   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   327
328   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   329
330   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   331
332   Appendix H I correspondence I october 26, 2010
correspondence I Appendix H I october 26, 2010   333
334   Appendix H I correspondence I october 26, 2010
   ORGANIZATIONAL CHART
     organizational chart
                                                                                                                            Special Inspector General
                                                                                                                                  Neil Barofsky


                                                                                                                                   Deputy Special
                                                                                                                                 Inspector General
                                                                                                                                  Geoff Moulton

                                                                         Chief of Staff                                                                 Senior Policy Advisor                                Chief Counsel
                                                                       Christy Romero                                                                       Timothy Lee                                      Bryan Saddler




                                                                                                                                                                                               Communications               Director of
                                                                         Deputy Chief                                                                                                             Director              Congressional Affairs
                                                                           of Staff
                                                                                                                                                                                                Kristine Belisle            Lori Hayman
                                                                            Cathy Alix




                             Deputy SIG –                                                                   Deputy SIG –                                                                   Deputy SIG --
                            Investigations                                                                     Audit                                                                        Operations
                           Chris Sharpley                                                                     Kurt Hyde                                                                  Dr. Eileen Ennis




                            Assistant Deputy                                                                Acting Assistant                                                              Assistant Deputy
                           SIG -- Investigations                                                           Deputy SIG – Audit                                                             SIG – Operations
                              Scott Rebein                                                                   Clayton Boyce                                                                      Vacant




     Chief Investigative                              Chief HQ Operations                    Director          Director             Director            ADSIG -- Special         ADSIG -- HR
                              Investigators                                                                                                                                                              ADSIG -- CIO            ADSIG -- CFO
          Counsel
                                                         Paul Conlon                                                                                       Programs
                                                                                          Anne Keenaghan      Mark Little         Brenda James                                  Deborah Mason            AJ Germek              Deborah Mathis
     Richard Rosenfeld                                                                                                                                   Lynn Perkoski

                                                      Hotline Supervisor
     Attorney Advisors                                                                       Auditors          Auditors             Auditors
                                                        Camille Wright


                                                           Analysts


                                                       Cyber Forensics
                                                                                                                                                                                                                                                 organizational chart I Appendix I I october 26, 2010




Note: SIGTARP organizational chart as of 9/30/2010.
                                                                                                                                                                                                                                                 335
                        SIGTARP: Quarterly Report to Congress | October 26, 2010
                                                                                                              CT
                                                                                                         INSPE OR GE
                                                                                                  AL                        N
                                                                                                CI




                                                                                                                            ER
                                                                                           E
                                                                                          SP




                                                                                                                               A L
                                                                                         TRO




                                                                                                                                 M
                                                                                                                                 RA
                                                                                          UB
                                                                                               LE




                                                                                                                            OG
                                                                                                    D
                                                                                                        ASS                 PR
                                                                                                              E T R ELIEF




SIGTARP
SIG-QR-10-04
                         Q4
                        2010
                                                                                   SIGTARP                                            Office of the Special Inspector General
                                                                                                                                      for the Troubled Asset Relief Program
                                                                                   Advancing Economic Stability Through Transparency, Coordinated Oversight and Robust Enforcement


202.622.1419
Hotline: 877.SIG.2009                                                                                                                                  Quarterly Report to Congress
SIGTARP@do.treas.gov                                                                                                                                              October 26, 2010
www.SIGTARP.gov
